<html>
<title> - THE FISCAL YEAR 2013 BUDGET FOR VETERANS' PROGRAMS</title>
<body><pre>[Senate Hearing 112-683]
[From the U.S. Government Publishing Office]





 
                    THE FISCAL YEAR 2013 BUDGET FOR 
                           VETERANS' PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION


                           FEBRUARY 29, 2012

                               ----------                              

       Printed for the use of the Committee on Veterans' Affairs
           THE FISCAL YEAR 2013 BUDGET FOR VETERANS' PROGRAMS




                                                        S. Hrg. 112-683

                    THE FISCAL YEAR 2013 BUDGET FOR 
                           VETERANS' PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
73-401                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           February 29, 2012
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     4
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     6
Johanns, Hon. Mike, U.S. Senator from Nebraska...................     7
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     8
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    10
Brown, Hon. Scott P., U.S. Senator from Massachusetts............    10
Boozman, Hon. John, U.S. Senator from Arkansas...................    11
Tester, Hon. Jon, U.S. Senator from Montana......................   115
Moran, Hon. Jerry., U.S. Senator from Kansas.....................   118
Begich, Hon. Mark, U.S. Senator from Alaska......................   121

                               WITNESSES

Shinseki, Hon. Eric K., Secretary of Veterans Affairs; 
  accompanied by Hon. Robert A. Petzel, M.D., Under Secretary for 
  Health; Hon. Allison A. Hickey, Under Secretary for Benefits; 
  Hon. Steve L. Muro, Under Secretary for Memorial Affairs; Hon. 
  Roger W. Baker, Assistant Secretary for Information and 
  Technology; and W. Todd Grams, Executive in Charge for the 
  Office of Management and Chief Financial Officer...............    12
    Prepared statement...........................................    14
    Response to prehearing questions submitted by:
      Hon. Patty Murray..........................................    25
      Hon. Richard Burr..........................................    41
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................   126
      Hon. Richard Burr..........................................   155
      Hon. Mark Begich...........................................   310
      Hon. Johnny Isakson........................................   312
      Hon. Roger F. Wicker.......................................   316
      Hon. Scott P. Brown........................................   320

                   Independent Budget Representatives

Schrier, William, Western Region National Vice Commander, The 
  American Legion; accompanied by Tim Tetz, Director, National 
  Legislative Commission.........................................   326
    Prepared statement...........................................   328
Blake, Carl, National Legislative Director, Paralyzed Veterans of 
  America........................................................   336
    Prepared statement...........................................   337
Hall, Jeffrey, Assistant National Legislative Director, Disabled 
  American Veterans..............................................   341
    Prepared statement...........................................   342
Zumatto, Diane, National Legislative Director, AMVETS............   349
    Prepared statement...........................................   350
Kelley, Raymond, National Legislative Director, Veterans of 
  Foreign Wars...................................................   354
    Prepared statement...........................................   355

                            Other Witnesses

Tarantino, Tom, Deputy Policy Director, Iraq and Afghanistan 
  Veterans of America............................................   359
    Prepared statement...........................................   360


           THE FISCAL YEAR 2013 BUDGET FOR VETERANS' PROGRAMS

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Akaka, Brown of Ohio, Tester, 
Begich, Burr, Isakson, Johanns, Brown of Massachusetts, Moran, 
and Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning and welcome to this morning's 
hearing on the Fiscal Year 2013 Budgets and the Fiscal Year 
2014 Advanced Appropriations Request for the Department of 
Veterans Affairs.
    I want to welcome all of our panelists today. I really 
appreciate you coming and helping us work our way through these 
critical issues for our veterans.
    You know, as I do most weeks when I am home, last week I 
convened a roundtable discussion with veterans from across my 
homestate of Washington. I heard from the very men and women 
whose lives this budget is actually going to touch.
    While some of the veterans, as always, praised the care and 
access they were receiving from the VA, many of them did lay 
out concerns that must be addressed in this budget and in 
future budgets.
    I heard from veterans who still face unacceptably long wait 
times for mental health care, are still not getting the type of 
mental health care that they need in their own community. I 
heard from women veterans who are struggling to receive 
specialized care, and I heard from veterans who are just really 
fed up with the dysfunction of the claims system.
    I also heard from veterans who still find themselves 
confronted by obstacles to employment and who told me they are 
even afraid to write the word ``veteran'' on their job 
application because of the stigma that they believe employers 
today attached to that.
    Last year's passage of the VOW Hire Heroes Act was a great 
first step in tackling these problems and the high rate of 
veteran unemployment, but there is a lot of work left to be 
done.
    As I am sure Secretary Shinseki will talk about, now is the 
time to take advantage of the public-private partnerships and 
the sea of goodwill that exists in corporate America toward our 
veterans today, but doing so will also require beating back 
misinformation about the invisible wounds of war.
    I am pleased that the Administration has shown real 
leadership in engaging private partners in this area, and I 
will continue to highlight the tremendous skills, leadership 
ability, and discipline that our veterans bring to the table.
    I also look forward to learning more today about VA's 
involvement with the President's proposed Veterans' Job Corps. 
Any way that we can get our veterans both employed and more 
involved in bettering our communities is a program worthy of 
investment.
    As everyone on this Committee knows: with the end of the 
war in Iraq and the coming withdrawal of troops from 
Afghanistan, the budget challenges will only continue for the 
VA.
    Last year this Committee held a hearing to explore the 
long-term costs of war, and what is 100 percent clear is that 
we have an obligation that will continue long after the 
fighting is over.
    As we review this budget, fulfilling our Nation's 
obligation to our veterans not only today but throughout the 
course of their lives must be our most pressing consideration.
    Now, let me tell you that as a longtime Member of the 
Senate Budget Committee and as someone who has seen just how 
difficult this year's budget is for many other agencies, when 
this budget arrived on my desk I was very encouraged.
    Given the current fiscal environment, the VA has done a 
good job putting together a budget that reflects a very real 
commitment to provide veterans with the care and benefits they 
have earned. So, thank you, Secretary Shinseki, for your 
efforts in doing that.
    I also want to applaud VA's ongoing commitment to end 
homelessness. This is an area where you are making real 
strides, and I am encouraged to see that the Administration has 
again requested an increase in funding for homeless programs.
    I am hopeful we will continue to see a significant effort 
to reduce the number of homeless veterans and prevent those who 
are at risk from becoming homeless, but I also believe the VA 
has some real work to do in the area of serving female homeless 
veterans.
    While VA has done a good job putting together a budget that 
works to tackle the challenges that our veterans face, there is 
also clearly room for improvement.
    For the third year in a row, VA has proposed cuts in 
spending for major construction and nonrecurring maintenance. 
These continued cuts are deeply troubling given last year was 
the first time VA's budget even outlined the Department's 
vision for a 10-year construction plan with a price tag that 
approached $65 billion.
    Yet despite that plan, for the past 2 years VA has 
requested only a fraction of the amount that it needs. I am 
disappointed at the size of the gap between the funding needed 
to bring facilities up to date and the funding requested from 
the Congress.
    In addition, this budget request proposes a series of 
initiatives intended to save money including better controls on 
contract health care, better strategies for contracting, and 
cutting administrative overhead.
    I am pleased to see the VA recognizes the importance of 
efficiency, but I have some concerns with those proposals. A 
GAO report released on Monday showed many of these initiatives 
from last year's budget did not, in fact, generate the savings 
that the VA 
predicted.
    I will review each of the initiatives in this budget with 
an open mind, but I want to be clear: our first priority--our 
obligation--must be to ensure that we are fulfilling and 
honoring our commitment to our veterans.
    If the VA fails to meet the proposed cost-saving estimates, 
it will have to find a way to make up the difference so 
veterans do not end up paying the price.
    Medical care collections is another area where VA has to do 
a better job of both predicting targets and collecting funds. 
It is impossible to build the budget on funding that is not 
collected.
    Another area of concern to me is mental health care. At a 
hearing last year, the VA witnesses acknowledged they may, in 
fact, need more resources to meet the high demand for mental 
health care. I want a straightforward answer from the VA about 
their actual needs and whether the Department's proposed a 5-
percent increase is enough.
    Last year I asked the VA to conduct a survey of mental 
health providers that revealed significant shortcomings. VA 
proposed a plan to fix the problems, and they must complete 
those steps as scheduled. But the VA cannot stop with what was 
outlined in that initial plan. It must continue to work to find 
ways to make real and substantial improvements.
    This year we will continue to be aggressive in our 
oversight of VA mental health care. Not every veteran will be 
affected by invisible wounds; but when a veteran has the 
courage to stand up and ask for help, the VA must be there 
every single time. The VA must be there with not only timely 
access to care but also the right type of care.
    Challenges like PTSD or depression are natural responses to 
some of the most stressful experiences a person can have, and 
we will do everything possible to ensure that those affected by 
these illnesses can get the help, can get better, and get back 
to their lives.
    Finally, like Chairman Miller and Senator Tester and 
others, I remain very concerned about the questions surrounding 
the effects of sequestration on veterans' health care. 
Throughout the Budget Control Act process that established 
sequestration, I made it very clear that including VA among 
those agencies that would receive automatic cuts is 
unacceptable and repeatedly made clear that this should not be 
the case.
    And although I am confident that all veterans programs 
including health care will be protected in the event of 
sequestration, I want to make sure you know that I will not 
accept anything else. I believe our veterans deserve clarity on 
this issue; and if it cannot be provided today, I am going to 
continue to work to get it.
    In fact, I have already asked the Government Accountability 
Office to issue a formal legal opinion to provide some 
resolution on this issue.
    Secretary Shinseki, as you well know, budgets are a 
reflection of our values; and thanks to your work, this budget 
request demonstrates a strong commitment to our veterans. While 
we are in a position to make sure the VA has the increased 
funding it needs, we should also be mindful that the demand for 
services is going to continue to increase no matter the number 
of troops deployed.
    I look forward to working with my colleagues on this 
Committee and on the Budget and Appropriations Committees on 
which I also sit and, of course, with Secretary Shinseki and 
his entire team and the leaders from the veterans' community to 
make sure that we keep this long-term commitment.
    So, I thank all of you for being here today and my 
Committee members, and with that I will turn to our Ranking 
Member, Senator Burr, for his opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Madam Chairman.
    Mr. Secretary, welcome. Welcome to your leadership team and 
welcome to the veterans' service organizations who are here 
this morning.
    We are here today to review the President's budget request 
for the Department of Veterans Affairs for fiscal year 2013, 
which includes a 4\1/2\ percent increase in discretionary 
spending.
    I continue to believe that it is important that we provide 
adequate funding so that veterans of all generations will be 
able to receive the benefits and services they have earned and 
deserved without hassles or delays, but we also need to analyze 
the budget request to ensure that we spend the taxpayers money 
wisely and more importantly that the funding will actually lead 
to better outcomes for veterans, their families, and their 
survivors. As we will discuss today, I have questions about 
whether that is the case for several areas of today's budget.
    To start with, the budget for mental health care includes 
an advanced appropriations request for fiscal year 2014 of $6.4 
billion. If adopted, it will represent a 4 percent increase 
over fiscal year 2013 and a 66 percent increase over the fiscal 
year 2008 level.
    But at hearings last year, the Committee heard about the 
devastating struggles some veterans face when trying to get 
mental health treatment they need from the VA.
    In fact, VA's survey of its mental health providers last 
year was pretty clear on the problem. Seventy percent survey 
respondents indicated they did not have enough mental health 
staff to meet the current demand for care. Forty-five percent 
indicated that lack of off-hours appointments is a barrier to 
care, and 51 percent said it took 30 days or more for a veteran 
to be seen for a specialty appointment such as Post Traumatic 
Stress Disorder.
    Clearly, this is an instance where increased funding has 
not translated to better services for veterans. Today I hope we 
will get a better understanding of how VA plans to address 
these issues, how the requested funding would be used, and 
whether it may be time for VA to start looking outside the box 
to find solutions to the barriers veterans face in assessing 
this needed care.
    Another area of concern is the backlog of disability 
claims, a pretty common discussion we have in this Committee. 
This budget requests a 41-percent increase in staff since 2008, 
but let us look at what has happened during that time.
    The number of claims pending at the end of the year has 
more than doubled. The average number of days to complete a 
claim has increased by 26 percent. The quality of decisions has 
trended down and is now below 84 percent. According to one 
performance measure, there has been a 16-percent decline in the 
number of claims completed annually by employees.
    Productivity. The appeals resolution time has increased 
from 645 days to 747 days, and VA decided hundreds of thousands 
less claims than it received.
    With statistics like these, it must be a priority to ensure 
the initiatives the VA is pursuing to get the situation under 
control will actually be effective so that veterans, their 
families, and their survivors receive timely, quality decisions 
when they seek benefits from the VA.
    Another area of the budget I would like to briefly 
mentioned is the legislative proposal to spend $1 billion over 
5 years on the Veterans' Jobs Corps programs. While I believe 
it is important that we help our veterans find meaningful work, 
I am interested to learn how VA would suggest paying for this 
program and about how it would be structured. So, I hope that 
VA will be able to provide us with more details about the 
proposed program today.
    Madam Chairman, the final item I want to highlight before I 
turn it back to you is the continued increase in staff at the 
VA Central Office and quite honestly at the VISN level. For 
example, since fiscal year 2008 the staff of the VA Central 
Office has grown by close to 40 percent and the Office of Human 
Resources and Administration has seen an 80-percent increase 
over the same period. Also the staff at the VISN headquarters 
has increased by 52 percent between 2008 and 2011.
    I think we need to ask serious questions about whether this 
increase in staffing directly benefit our Nation's veterans, 
whether these employees are essential to delivering services to 
the veterans who use the VA system, and whether any of the 
funds could be put to better use.
    The bottom line is that particularly in this time of record 
deficits, we need to ensure that when we spend the limited 
money as we have we do it wisely and that we make certain that 
the veterans are the ones that receive the benefits and 
services that have been earned and deserved.
    The trend lines are troubling to me. They should be 
troubling to this Committee and they should be troubling, quite 
frankly, to the VA. I will focus much of my attention on those 
today in questions to the Secretary and to his leadership team.
    I thank the Chair.
    Chairman Murray. Thank you, Senator Burr.
    We will now turn to our Senators for opening remarks in 
order of appearance. Senator Akaka, we will start with you.

              STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Madam Chairman, and I 
want to say Aloha to Secretary Shinseki and his leadership 
staff at the VA. I want to thank all of you for your service to 
veterans and, of course, to our country.
    I do not need to tell you what you have been hearing that 
Secretary Shinseki and the leadership staff has been improving 
the services because claims have dropped and that is an 
indication of the care and treatment which is our duty to 
provide to veterans that is something that we must continually 
strive to improve, and you have been doing that.
    I am encouraged to see that the total budget request for VA 
was $13 billion above last year. I know we have budgetary 
constraints, but we owe it to our veterans who have sacrificed 
for our country, and you have planned and are moving along and 
have been progressing about meeting those needs.
    I am glad to see increases in budget requests for mental 
health, suicide prevention, and Iraq and Afghanistan veterans' 
programs. I am also encouraged by major increases in funding 
for homeless vets and women's vets programs.
    While budget increases provide opportunities, we all know 
that these resources must be utilized with thought and 
efficiency in order to best serve our veterans and their 
families.
    As the Defense Department continues to reduce its 
participation in overseas contingency operations and more 
veterans come home to their families, VA's capacity to treat 
veterans is sure to be tested even more.
    Mr. Secretary, we have talked about this, and I know that 
you are doing all you can to prepare for the anticipated growth 
in the number of veterans seeking VA services.
    Secretary Shinseki, I am also very pleased to see that an 
important project for Hawaii's veterans which I have championed 
for years is in the budget: a much needed care facility in West 
Kahului that would alleviate some of the overcrowding at Spark 
Matsunaga Medical Center at Tripler Hospital. This proposed 
lease will certainly help to meet the needs of our veterans in 
Hawaii.
    Mr. Secretary, I have been impressed with all that you and 
your team have been able to accomplish in the past 3 years. You 
have made tremendous strides to improve mental health care, 
suicide prevention, homelessness, and help veterans find jobs 
among other accomplishments.
    However, we know that there are areas where we can improve 
the care and services provided to our veterans that they earned 
and the most certainly deserve.
    So, I look forward to hearing your testimony today, Mr. 
Secretary, and continuing to work with my colleagues and VA to 
help provide the best care we can to our veterans and their 
families.
    Thank you very much, Madam Chairman.
    Chairman Murray. Thank you very much.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                    U.S. SENATOR FROM NEVADA

    Senator Johanns. Madam Chair, Ranking Member Burr, thanks 
for holding the very, very important hearing.
    Let me just start out and offer an observation, Mr. 
Secretary. First of all, I want to say thank you for stopping 
by my office a week or 10 days ago. As you know, over the past 
few years while I have been here and you have been in your 
position, we have had an opportunity to meet on a number of 
occasions, and I have always appreciated that.
    I come away from those meetings absolutely convinced that 
you and your team have the best interests of vets in your heart 
and you are trying to do everything you can to deal with all of 
the problems that we are going to mention today.
    But one of the things that we have found in working with 
vets in my Senate office, and it is the reality of the Veterans 
Administration, is every veteran has an individual problem that 
is not easily solved with one sweeping policy approach or 
whatever.
    We have found that we really have to sit down with each vet 
and talk to them and help them work through that problem. Even 
in my Senate office, we have found that we have to staffup to 
do that. I have more people in my Senate offices working on the 
veterans' caseload than any other caseload that we work on. So, 
it is just part of what we have to do.
    I think we have a great perspective on what the veterans 
need, and you are always willing to bring that to the fore. I 
have been in your position before and the complexities of what 
you are doing are the norm.
    So, I want to start out on a positive note and just tell 
you I think your heart is in the right direction, but I do 
think as we look at the metrics and the progress we are making, 
it is important to see what is working and what is not working 
and just simply acknowledge that and try to figure out, is 
there something we are missing here?
    I also wanted to just mention briefly, and I will not dwell 
on this long but it is worth a mention to me. As you know, like 
other areas in the country we are struggling with a VA hospital 
that was built decades ago. Notwithstanding the kind of heroic 
efforts of the staff there and the doctors and the nurses and 
the administrative personnel, it is just a very, very difficult 
situation.
    We are very pleased that we are on the priority list, and 
we are making our way to a point at which where we hope we can 
solve that problem and replace the facility. I think today we 
are like 18, if I am not mistaken. So, I am aware of the fact 
that it just does take a while.
    We are hoping to work with you and your staff. Maybe there 
are some things we can do. There is a serious parking problem. 
It is right in the middle of Omaha, and so, maybe there are 
some things we can do to move the project forward.
    I will wrap up with one last thought. We are seeing some 
areas of improvement that I wanted to mention, again hoping to 
keep this on a note of, look, you are doing some things that I 
think are making a difference.
    The first is in the processing of Post-9/11 GI Bill 
benefits. In 2011 we at least, I do not know about other Senate 
offices, we at least received no complaints about delays or 
problems with education benefits. I do not know what we are 
doing with education benefits but at least from our experience 
something is working.
    Whatever model, if I could somehow be transferred to the 
disability claims, and I appreciate they are much more 
complicated, but that seems to be working. You have had to ramp 
that up pretty significantly.
    So, I am hoping I can hear some thoughts and maybe there 
are some ideas that would work in other areas of the VA system.
    We are also hearing veterans express to us that the 
expanded access to information via that eBenefits system is 
something that they appreciate, they feel good about. I think 
all of us have been optimistic and hopeful, maybe that is a 
better way of putting it, hopeful that that eBenefits system 
would pay benefits. We think it is.
    We think as veterans are getting more used to that it is 
paying some dividends and hopefully saving some staff time 
because people can get information or whatever they are needing 
there.
    I will just wrap up, and again thank you, Madam Chair, I do 
appreciate the opportunity to be here.
    Thank you, you and your whole team for the work that they 
are doing. My hope is that we can advance the cause because 
there is so much more to be done. Thank you.
    Chairman Murray. Thank you, Senator Johanns.
    Senator Brown of Ohio.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown of Ohio. Thank you, Chairman Murray. I 
appreciate your leadership on veterans' issues.
    Thank you, Secretary Shinseki, and all of you who dedicate 
a big part of your lives. It is nice to see you again. Thank 
you for coming to Ohio, those of you that have, and the service 
that you provide for veterans in my State and for all of us.
    It is a good budget. It shows a strong commitment to 
veterans. I think when you look at what the advanced 
appropriations mark is, a $40 billion, the request with the 
advanced appropriations with the $13 billion increase it is 
saying the right thing for people who clearly have earned it. 
It reflects the understanding that we all have about service to 
country.
    I applaud the VA for its investments in eliminating the 
disability claims backlog. We are all, of course, still very 
concerned about that as Senator Johanns said.
    We still hear horror stories of 12-, 18-, and 24-month 
delays. We should, of course, never tolerate them, and I know 
your views about that, Secretary Shinseki. I know that we need 
to continue to push and with better trained staff and 
improvements in electronic and other processing efficiencies.
    Also, on a similar note, the disability rating system 
clearly needs substantial improvement. A bum knee in Charlotte 
should be treated the same as a bum knee in Cincinnati. The 
backlog in disability ratings is in many ways related: fixing 
both at the same time makes sense, and I know your commitment 
to wanting to do that, and we expect to see results as we move 
forward.
    I am aware, too, of the funds in this budget to train 
outreach coordinators and operate targeted clinics and provide 
other services specific to particularly rural veterans but 
everywhere who simply do not know enough about veterans 
services.
    People from the VA, officials from the VA joined me in a 
field hearing in Appalachia, two areas of Ohio, Appalachia 
Ohio, one in 2007 and one in 2010. We talked about everything 
from applying for benefits, and veterans benefits to the 
earned-income tax credit. So many low-income veterans do not 
know enough about any of those services.
    The fact that today I believe there are 30 community-based 
outpatient clinics, CBOCs, in Ohio speak to your commitment to 
going everywhere to reach veterans not just in the VA centers 
in Cincinnati and Chillicothe and Cleveland but well beyond 
that. I am very appreciative of that, but the outreach efforts 
obviously need to be stepped up, targeted at not just the 
demographic of rural Appalachia, but certainly other places 
too.
    My last point. Our main concern about the Department's 
outsourcing of more and more work. The quality of outsourced 
work is often subpar. This whole political view that 
outsourcing, you know, whether it is selling turnpikes or 
selling prisons or outsourcing part of the military, the work 
often is subpar.
    The cost savings are usually illusory and often the costs 
are significantly greater we learn from outsourcing. I mean, 
the contractors give political campaign contributions. I am not 
saying you are any part of that to be sure, but that happens 
too often.
    We go places with outsourcing that does not lead to good 
government. We also--I think many contractors lack the 
dedicated service mentality, if you will, of career civil 
servants. It is always popular to beat up Federal employees and 
State employees and all of that. We have gone through that 
politically in State, after State, after State in this country 
and in the Federal Government.
    I like the idea. I think an individual's motivation to 
serve our veterans as a career leads to better serve contrasts 
sometimes to services provided by companies that are motivated 
by profits, and some of the most dedicated people that I have 
ever met provide service to veterans and have made that their 
career. They could make more money somewhere else but they want 
to serve.
    And this whole idea that outsourcing saves money, enhances 
quality is pretty ill founded. The VA and our veterans cannot 
simply be viewed as just another client. We see this at the 
very basic level of services in places like Dayton, and I 
appreciate very much the Secretary's focus on fixing other 
problems in Dayton.
    But where laundry was outsourced, workers tell me that 
sometimes it does not come back clean, and what is the point of 
outsourcing if that happens?
    If the VA continues to outsource more and more activities, 
at some point are we going to reach the point where the VA is a 
health insurance provider rather than a health care provider, 
and we never should get close to that line.
    On a lighter note, thank you for earlier this week--I guess 
today is Wednesday, on Monday was the first day, and I was 
lucky enough to be there at the Parma Community-Based 
Outpatient Clinic when the VA, for reasons that I disagreed but 
probably needed to shutdown the VA hospital in Brecksville. 
Part of the deal was that they would put this community-based 
outpatient clinic, this CBOC, in Parma. It is terrific. It was 
crowded the first day. People will use it. It serves an 
important population, and I thank you for that.
    Chairman Murray. Thank you very much.
    Senator Brown of Massachusetts.

               STATEMENT OF HON. SCOTT P. BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Madam Chair.
    I want to hear the testimony of the folks. I will be very 
brief. I agree with Senator Burr on the job issues and the fact 
that we are going to be spending a lot of money, happy to do 
it. I want to see how it is going to be paid for, but also 
importantly see if there is any duplication overlap. There 
seems to be a lot of things happening in that field.
    When we have these types of issues, we usually throw 
everything against the wall and see what sticks. I want to make 
sure that we do it efficiently. We do not just keep throwing 
money out there but actually that we have programs. If they are 
working, that is improving; if they are not, let us get rid of 
them.
    I am concerned still about obviously the long timeframe in 
filing claims. I will say I am very pleased with what is 
happening in Massachusetts with the new blood out there and new 
people helping and really seem energized. It helps that we are 
in the same building and we have had some great success and I 
have made that public in our veterans' hearing that we had on 
this very issue, and I know the big elephant in the room is the 
one million returning veterans and the obligations we have to 
keep them and get them whole, and I am thankful.
    I know you have already met with Secretary Panetta to 
discuss that VA/DOD mission to make sure that we do not just 
have a million new veterans coming.
    If they are going to be released, they need to be released 
in a thoughtful, methodical manner so you are not overwhelmed 
and really just in so deep you cannot get out.
    So, I will just stop with that. I look forward to hearing 
the testimony. I am going to be going to the floor, Madam 
Chair. I have to speak, but then I will be back. Thank you.
    Chairman Murray. Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. I, too, will be very brief because I am 
anxious to hear from each of you. But first of all, Secretary, 
thank you for taking the time to come to my office 2 weeks ago.
    Second, I have two pieces of good news. One is on the jobs 
front, and you probably have heard about this; but if you have 
not, I wanted to make you aware.
    Lewis Jordan, who was the founder of ValuJet and AirTran, 
which is now Southwest, has created a foundation called 
Gratitude America, which is a web-based platform to match job 
needs with veterans; and it has the component that links them 
with training for the jobs.
    So, it makes the full circle where, if a veteran is looking 
for a job, he can search it on the Internet. If he finds a job 
he likes but he is not qualified, it matches him with the 
closest training facility where he can get the training.
    I think it is a great idea, and it is something that is 
very important. I appreciate Lewis doing that and I thought you 
would want to know.
    The second is I want to compliment Director Goldman at the 
Dublin VA. I have spent a day in Dublin, GA, last week. He 
serves a third of the State--51 counties--and he is trying to 
partner with the General, the Commander of Robins Air Force 
Base to merge the VA clinics in Perry and Macon, GA, with the 
base DOD health care on the base to utilize the facilities, 
advantage of having all the imaging equipment and everything 
already on the active-duty base and not have to have redundant 
cost in staffing to other clinics, which I think is a great 
idea to make better health care available but also at a lower 
cost to the Veterans Administration and the taxpayers.
    I wanted to bring those two pieces of good news to your 
attention. Thank you for what you do, and thank you for being 
here.
    Chairman Murray. Thank you.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Madam Chair, and again very 
quickly I just want to thank the Secretary for being here and 
the team that he assembled, for your hard work.
    Senator Brown mentioned that, you know, that there are a 
lot of individuals in the VA that are there because they want 
to be and could have other opportunities, and certainly you are 
in that category. You have led soldiers and now you are serving 
veterans and so we really do appreciate that very, very much.
    The other thing I would say is, as Senator Isakson 
mentioned, I do appreciate the fact that you are very willing 
to work with Congress and very approachable, you and your 
staff; and so that is something that is appreciated.
    So, we appreciate all that you guys have done in your past 
and are looking forward to it your doing a bunch in the future.
    I yield back, Madam Chair.
    Chairman Murray. Thank you very much.
    With that I want to again welcome Secretary Shinseki. Thank 
you for coming here today to give your perspective on the 
Department's fiscal year 2013 budget and the fiscal year 2014 
advanced appropriation request.
    Secretary Shinseki is accompanied today by Steve Muro, 
Under Secretary for Memorial Affairs; Allison Hickey, Under 
Secretary for Benefits; Dr. Robert Petzel, Under Secretary for 
Health; and we also have Todd Grams, Executive in Charge of the 
Office of Management and Chief Financial Officer; and Roger 
Baker, Assistant Secretary for Information and Technology.
    Thank you all for joining us today.
    Secretary Shinseki, your remarks will, of course, appear in 
the record, but we welcome your opening statement.

   STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY OF VETERANS 
   AFFAIRS; ACCOMPANIED BY HON. ROBERT A. PETZEL, MD, UNDER 
 SECRETARY FOR HEALTH; HON. ALLISON A. HICKEY, UNDER SECRETARY 
FOR BENEFITS; HON. STEVE L. MURO, UNDER SECRETARY FOR MEMORIAL 
     AFFAIRS; HON. ROGER W. BAKER, ASSISTANT SECRETARY FOR 
  INFORMATION AND TECHNOLOGY; AND W. TODD GRAMS, EXECUTIVE IN 
CHARGE FOR THE OFFICE OF MANAGEMENT AND CHIEF FINANCIAL OFFICER

    Secretary Shinseki. Thank you, Madam Chairman, Ranking 
Member Burr, distinguished Members of the Senate Committee on 
Veterans' Affairs, thank you again. I look forward to these. 
This is an opportunity to extend the dialog we have in other 
fora, but thanks for this opportunity to present, as the 
Chairman said, the President's 2013 Budget and 2014 Advance 
Appropriations Requests for VA.
    This Committee has a long history of strong support for our 
Nation's veterans, and I can speak to that first hand having 
worked personally the past three budgets with you.
    The President has demonstrated his own respect and sense of 
obligation for our 22 million veterans by sending the Congress 
once again another strong budget request for VA, and I thank 
the members for your unwavering commitment, and I am here to 
answer your questions but also seek your support on this budget 
request.
    I would also like to acknowledge the representatives from 
our veterans service organizations who are here today. I would 
tell you as we develop our budgets, their insights, their 
experience is helpful as we put together our arguments for 
resources and as we strive to continuously improve our 
programs.
    Madam Chairman, thanks for introducing the members of the 
panel. I have a written statement which I ask to be submitted 
for the record.
    Chairman Murray. Without objection.
    Secretary Shinseki. This hearing occurs at an important 
moment in our Nation's history, not the only one. There have 
been others that I could refer to. I am old enough to have 
experienced our return from Vietnam and to have witnessed 
personally the end of the cold war.
    We are again in another period of transition, an important 
one. Our troops have returned home from Iraq and their numbers 
in Afghanistan are likely to decline over time; and history 
suggests, as the Chair indicated, VA's requirements from these 
two operational missions will continue to grow for sometime 
long after the last combatant leaves Afghanistan, maybe as much 
as a decade, maybe even more.
    We must provide access to quality care, timely benefits and 
services and job opportunities for every generation of 
veterans; and the generation at hand is the one that comes home 
today from Iraq and Afghanistan.
    In the next 5 years, more than a million veterans are 
expected to leave military service. This generation relies on 
VA at unprecedented levels. Through September 2011, of 
approximately 1.4 million veterans who deployed and returned 
from operations Enduring Freedom and Iraqi Freedom, 67 percent 
have used some VA benefit or service in some way, a far higher 
percentage than those from previous wars.
    The 2013 budget request would allow us to fulfill the 
requirements of our mission. Health *Care for 8.8 million 
enrolled veterans, compensation and pension benefits for nearly 
4.2 million veterans, life insurance covering 7.1 million 
active duty servicemembers and enrolled veterans at a 95-
percent customer satisfaction rating, educational assistance 
for over a million veterans and family members on over 6,500 
campuses, home mortgages and veteran loans with the Nation's 
lowest foreclosure rates, and burial honors for nearly 120,000 
heroes and eligible family members in our 131 National 
Cemeteries, befitting their service to our Nation.
    This 2013 budget request continues the momentum in our 
three priorities that you have heard me speak about over the 
past 3 years. Increasing access to care, benefits and services; 
eliminating the claims backlog; and ending veterans' 
homelessness through effective, efficient, accountable use of 
the resources you provide.
    Access encompasses VA's facilities, programs, and 
technology. It is a broad term but there is a lot it 
encompasses. This 2013 budget request allows VA to continue 
improving access by opening new or improved facilities closer 
to where veterans live and providing telehealth and 
telemedicine linkages, with connectivity where it is needed, in 
veterans homes.
    Also VA is fundamentally transforming veterans access to 
benefits through a new electronic tool called the Veterans 
Relationship Management System. This is an effort to improve 
our telephone service.
    By collaborating with DOD to turn the current Assistance 
Program that we both share into an outcomes-based training and 
education program that fully prepares departing servicemembers 
for the next phase of their lives; and by establishing a 
National Cemetery presence in eight rural areas and better 
serving rural and women veterans. I am happy to provide details 
later.
    We expect that more than 1 million veterans will leave the 
military over the next 5 years, potentially all will enroll in 
VA. Over 600,000 of them, based on our historical trend, will 
likely seek care, benefits, and services from VA in the out 
years.
    Regarding the backlog, from what we know now, fiscal year 
2013 will be the first year in a long time in which our claims 
production going out the door will exceed the number of 
incoming claims; and the paperless initiative we have been 
building for the past 2 years, an automation tool, becomes 
critical to reversing backlog growth and increasing quality. We 
must not hesitate. Stability in IT funding is critical to our 
success.
    Homelessness. From January 2010 to January 2011 alone, the 
estimated number of homeless veterans declined by 12 percent. 
We have created momentum in the homeless program. Much remains 
to be done to end veterans homelessness by 2015 and the 2013 
budget is a presentation of how we continue to do that.
    We are now developing a dynamic homeless veterans registry. 
I think you appreciate that much of what we understand about 
homelessness is an estimate of real numbers. We are not able to 
count everyone out there but it is a statistically valid 
process.
    In the meantime, over the past 3 years, we have been 
building a registry of former and current veterans by name so 
we know who they are, what their issues are, where they reside, 
and whether they are migratory and move from one VA footprint 
to the next.
    So, as we think about adjusting the footprint based on what 
we see day-to-day, we want to be careful that we are not doing 
something that ignores maybe an issue that is going to require 
help.
    So, building a veterans registry today with over 400,000 
names of current and formerly homeless veterans allowa us to 
better see, track and understand the real causes of veterans 
homelessness. In the years ahead, we think this information 
will not only help us more effectively prevent it--that is 
where we are headed--not just for veterans, but perhaps for 
other communities as well where we have partnered in taking on 
the homeless issue.
    We look to develop more visibility of the at-risk veteran 
population in order to prevent veterans from falling into 
homelessness, and this budget supports that plan.
    So, Madam Chairman and Members of the Committee, we are 
committed to the responsible use of the resources you provide 
and the resources we seek in the 2013 budget. I know that has 
been a question some of you have posed; but for both the 2013 
budget and 2014 advance appropriations requests, we are 
committed to the responsible use.
    Again thank you for this opportunity to appear before this 
Committee.
    [The prepared statement of Secretary Shinseki follows:]

        Prepared Statement of Hon. Eric K. Shinseki, Secretary, 
                  U.S. Department of Veterans Affairs

    Chairman Murray, Ranking Member Burr, Distinguished Members of the 
Senate Committee on Veterans' Affairs: Thank you for the opportunity to 
present the President's 2013 Budget and 2014 advance appropriations 
requests for the Department of Veterans Affairs (VA). For the past 
three budget requests, the Congress has supported the very high 
priority that the President has placed on funding for programs that 
provide care and benefits for our Nation's 22 million Veterans and 
their families. This submission seeks your support of the President's 
continued high priority support for Veterans who have earned this 
Nation's respect and the benefits and services we provide.
    We meet at an historic moment for our Nation's Armed Forces, as 
they turn the page on a decade of war. Recently, the President outlined 
a major shift in the Nation's strategic military objectives--with a 
goal of a more agile, more versatile, more responsive military focused 
on the future. The President also outlined another important 
objective--keeping faith with those who serve as they depart the 
military and return to civilian life. As these newest Veterans return 
home, we must anticipate their transitions by readying the care, the 
benefits, and the job opportunities they have earned and they will need 
to smoothly and successfully make this transition.
    The President's 2013 Budget for VA requests $140.3 billion--
comprised of $64 billion in discretionary funds, including medical care 
collections, and $76.3 billion in mandatory funds. The discretionary 
budget request represents an increase of $2.7 billion, or 4.5 percent, 
over the 2012 enacted level. Our 2013 budget will allow the Department 
to operate the largest integrated healthcare system in the country, 
with more than 8.8 million Veterans enrolled to receive healthcare; the 
eighth largest life insurance provider covering both active duty 
members as well as enrolled Veterans; a sizable education assistance 
program serving over 1 million participants; a home mortgage service 
that guarantees over 1.5 million Veterans' home loans with the lowest 
foreclosure rate in the Nation; and the largest national cemetery 
system that continues to lead the country as a high-performing 
organization--for the fourth time in a 10-year period besting the 
Nation's top corporations and other Federal agencies in an independent 
survey of customer satisfaction. In 2013, VA national cemeteries will 
inter about 120,000 Veterans or their family members.
    The Department of Veterans Affairs fulfills its obligation to 
Veterans, their families, and survivors of the fallen by living a set 
of core values that define who we are as an organization: ``I CARE''--
Integrity, Commitment, Advocacy, Respect, and Excellence--cannot be 
converted into dollars in a budget. But Veterans trust that we will 
live these values, every day, in our medical facilities, our benefits 
offices, and our national cemeteries. And where we find evidence of a 
lack of commitment to our values, we will aggressively correct them by 
re-training employees or, where required, removal. We provide the very 
best in high quality and safe care and compassionate services, 
delivered by more than 316,000 employees, who are supported by the 
generosity of 140,000 volunteers.

                        STEWARDSHIP OF RESOURCES

    Safeguarding the resources--people, money, time--entrusted to us by 
the Congress, managing them effectively and deploying them judiciously, 
is a fundamental duty at VA. Effective stewardship requires an 
unflagging commitment to apply budgetary resources efficiently, using 
clear accounting rules and procedures, to safeguard, train, motivate, 
and hold our workforce accountable; and to assure the proper use of 
time in serving Veterans on behalf of the American people.
    During the audit of the Department's fiscal year 2010 financial 
statement, VA's independent auditor certified that we had remediated 
all three of our remaining material weaknesses in financial management, 
which had been carried forward for over a decade. In terms of internal 
controls and fiscal integrity, this was a major accomplishment. We have 
also dramatically reduced the number of significant financial 
deficiencies since 2008, from sixteen to two.
    Another example of VA's effective stewardship of resources is the 
Project Management Accountability System (PMAS) developed by our Office 
of Information Technology. PMAS requires Information Technology (IT) 
projects to establish milestones to deliver new functionality to its 
customers every six months. Now entering its third year, PMAS continues 
to instill accountability and discipline in our IT organization. In 
2011, PMAS achieved successful delivery of 89 percent of all IT project 
milestones. VA managed 101 IT projects during the year, establishing a 
total of 237 milestones and successfully executing 212 of them. Of the 
25 IT projects that missed their delivery milestone date, more than 
half delivered within the next 14 days. Ensuring IT projects meet 
established milestones means that savings and delivery of solutions are 
achieved throughout development, and that Veterans reap improvements 
sooner. By implementing PMAS, we have achieved at least $200 million in 
cost avoidance by stopping or improving the management of 45 projects.
    VA's stewardship of resources continues with the expansion of our 
ASPIRE dashboard to the Veterans Benefits Administration (VBA). 
Originally established in 2010 for the Veterans Health Administration 
(VHA), ASPIRE publicly provides quality goals and performance measures 
of VA healthcare. The success of this approach was reflected in its 
contribution to VHA's receipt of the Annual Leadership Award from the 
American College of Medical Quality. On June 30, 2011, VBA established 
an ASPIRE Web site at http://www.vba.va.gov/reports/aspiremap.asp for 
aspirational goals and monthly progress for 46 performance metrics 
across six business lines. This new effort expands the Department's 
commitment to unprecedented public transparency by sharing performance 
and productivity data in the delivery of Veterans' benefits, including 
compensation, pension, vocational rehabilitation and employment, 
education, home loans, and insurance.
    Through the effective management of our acquisition resources, VA 
achieves positive results for Veteran-owned small businesses. VA leads 
the Federal Government in contracting with Service-Disabled, Veteran-
Owned Small Businesses (SDVOSB). In 2011, more than 18 percent of all 
VA procurements were awarded to SDVOSBs, exceeding our internal goal of 
10 percent and far exceeding the governmentwide goal of three percent.
    Finally, VA's stewardship achieved savings in several other areas 
across the Department. The National Cemetery Administration (NCA) 
assumed responsibility in 2009 for processing First Notices of Death to 
terminate compensation benefits to deceased Veterans. This allows the 
timely notification to next-of-kin of potential survivor benefits. 
Since that time NCA has avoided possible collection action by 
discontinuing $100.3 million in benefit payments. In addition, we 
implemented the use of Medicare pricing methodologies at VHA to pay for 
certain outpatient services in 2011, resulting in savings of over $160 
million without negatively impacting Veteran care and with improved 
consistency in billing and payment.

                           VETERANS JOB CORPS

    In his State of the Union address, President Obama called for a new 
Veterans Job Corps initiative to help our returning Veterans find 
pathways to civilian employment. The budget includes $1 billion to 
develop a Veterans Job Corps conservation program that will put up to 
20,000 Veterans back to work over the next five years protecting and 
rebuilding America. Veterans will restore our great outdoors by 
providing visitor programs, restoring habitat, protecting cultural 
resources, eradicating invasive species, and operating facilities. 
Additionally, Veterans will help make a significant dent in the 
deferred maintenance of our Federal, State, local, and tribal lands 
including jobs that will repair and rehabilitate trails, roads, levees, 
recreation facilities and other assets. The program will serve all 
Veterans, but will have a particular focus on Post-9/11 Veterans.

                MULTI-YEAR PLAN FOR MEDICAL CARE BUDGET

    Under the Veterans Health Care Budget Reform and Transparency Act 
of 2009, which we are grateful to Congress for passing; VA submits its 
medical care budget that includes an advance appropriations request in 
each Budget submission. This legislation requires VA to plan its 
medical care budget using a multi-year approach. This approach ensures 
that VA requirements are reviewed and updated based on the most recent 
data available and actual program experience.
    The 2013 budget request for VA medical care appropriations is $52.7 
billion, an increase of 4.1 percent over the 2012 enacted appropriation 
of $50.6 billion. This request is an increase of $165 million above the 
2013 advance appropriations enacted by Congress in 2011. Based on 
updated 2013 estimates largely derived from the Enrollee Health Care 
Projection Model, the requested amount would also allow VA to increase 
funding in programs to eliminate Veteran homelessness, fully fund the 
implementation of the Caregivers and Veterans Omnibus Health Services 
Act, support activation requirements for new or replacement medical 
facilities, and invest in strategic initiatives to improve the quality 
and accessibility of VA healthcare programs. Our multi-year budget plan 
continues to assume $500 million in unobligated balances from 2012 that 
will carryover and remain available for obligation in 2013--consistent 
with the 2012 budget submitted to Congress.
    The 2014 request for medical care advance appropriations is $54.5 
billion, an increase of $1.8 billion, or 3.3 percent, over the 2013 
budget request.

                             PRIORITY GOALS

    Our Nation is in a period of transition. As the tide of war 
recedes, we have the opportunity, and the responsibility, to anticipate 
the needs of returning Veterans. History shows that the costs of war 
will continue to grow in VA for a decade or more after the operational 
missions in Iraq and Afghanistan have ended. In the next 5 years, 
another one million Veterans are expected to leave military service. 
Our data shows that the newest of our country's Veterans are relying on 
VA at unprecedented levels. Through September 30, 2011, of the 
approximately 1.4 million living Veterans who were deployed overseas to 
support Operation Enduring Freedom and Operation Iraqi Freedom, at 
least 67 percent have used some VA benefit or service.
    VA's three priorities--to expand access to benefits and services, 
eliminate the claims backlog, and end Veteran homelessness--anticipate 
these changes and identify the performance levels required to meet 
emerging needs. The 2013 Budget builds upon our multi-year effort to 
achieve VA's priority goals through effective, efficient, and 
accountable program implementation.

               EXPANDING ACCESS TO BENEFITS AND SERVICES

    Expanding access for Veterans is much more than boosting the number 
of Veterans walking in the front door of a VA facility. Access is a 
three-pronged effort that encompasses VA's facilities, programs, and 
technology. Today, expanding access includes taking the facility to the 
Veteran--be it virtually through telehealth, by sending Mobile Vet 
Centers to rural areas where services are sparse, or by using social 
media sites like Facebook, Twitter, and YouTube to connect Veterans to 
VA benefits and facilities. Expanding access also means finding new 
ways to break down artificial barriers so that Veterans are aware of 
and can gain access to VA services and benefits. Technology is the 
great enabler of all VA efforts. IT is not a siloed segment of the 
budget, providing just computers and monitors, but rather the vehicle 
by which VA is able to extend the reach of its healthcare to rural 
America, process benefits more quickly, and provide enhanced service to 
Veterans and their families.
    The 2013 budget request includes $119.4 million for the Veterans 
Relationship Management (VRM) initiative, which is fundamentally 
transforming Veterans' access to VA benefits and services by empowering 
VA clients with new self-service tools. VA has already made major 
strides under this initiative. VRM established a single queue for VBA's 
National Call Centers ensuring calls are routed to the next available 
agent, regardless of geography. Call-recording functionality was 
implemented that allows agents to review calls for technical accuracy 
and client contact behaviors. VA recently deployed ``Virtual Hold ASAP 
call-back'' technology. During periods of high call volumes, callers 
can leave their name and phone number instead of waiting on hold for 
the next available operator, and the system automatically calls them 
back in turn. The Virtual Hold system has made nearly 600,000 return 
calls since November 2011. The acceptance rate for callers is 46 
percent, exceeding the industry standard of 30 percent, and our 
successful re-connect rate is 92 percent. Since launching Virtual Hold, 
the National Call Centers have seen a 15 percent reduction in the 
dropped-call rate. In December 2011, VA deployed ``Virtual Hold 
Scheduled call-back'' technology, which allows callers to make an 
appointment with us to call them at a specific time. Since deployment, 
over 185,000 scheduled call-backs have already been processed.
    In December, VA deployed a pilot of its new ``Unified Desktop'' 
technology. This initiative will provide National Call Center agents 
with a single, unified view of VA clients' military, demographic, and 
contact information and their benefits eligibility and claims status 
through one integrated application, versus the current process that 
requires VA agents to access up to 13 different applications. This will 
help ensure our Veterans receive comprehensive and accurate responses.
    Key to expansion of access is the eBenefits portal--one of our 
critical VRM initiatives. eBenefits is a VA/DOD initiative that 
consolidates information regarding benefits and services and includes a 
suite of on-line self-service capabilities for enrollment/application 
and utilization of benefits and services. eBenefits enrollment now 
exceeds 1.2 million users, and VA expects enrollment to exceed 2.5 
million by the end of 2013. VA continues to expand the capabilities 
available through the eBenefits portal. Users can check the status of a 
claim or appeal, review the history of VA payments, request and 
download military personnel records, generate letters to verify their 
eligibility for Veterans' hiring preferences, secure a certificate of 
eligibility for a VA home loan, and numerous other benefit actions. In 
2012, Servicemembers will complete their Servicemembers' Group Life 
Insurance applications and transactions through eBenefits. Also, 2012 
enhancements will allow Veterans to view their scheduled VA medical 
appointments, file benefits claims online in a ``Turbo Claim'' like 
approach, and upload supporting claims information that feeds our 
paperless claims process. In 2013, funding supports enhanced self-
service tools for the Civilian Health and Medical Program of the 
Department of Veterans Affairs (CHAMPVA) and VetSuccess programs, as 
well as the Veterans Online Application for enrolling in VA healthcare.
    VA and the Department of Defense (DOD) have broken new ground in 
the development and implementation of the Integrated Disability 
Evaluation System (IDES). This system supporting the transition of 
wounded, ill, and injured Servicemembers is fully operational and 
available to Servicemembers as of October 1, 2011. Because of the 
complexity of these cases, the Veterans Benefits Administration devotes 
four times the level of staffing resources to processing IDES cases 
than claims from other Veterans. VA has reduced its claims processing 
time in IDES from 186 days in February 2011 to 104 days in 
December 2011. The 2013 budget requests an additional $13.2 million and 
90 FTE to support IDES enhancements.
    The DOD/VA team is further developing programs to enhance the 
transition of all Servicemembers to Veteran status. Together we are 
transforming the current Transition Assistance Program (TAP) from a 
series of discrete efforts to one that uses an outcome-based approach. 
This approach will be more integrated and, once complete will be mapped 
to the life cycle of every Servicemember, from recruitment through 
separation or retirement. In July 2011, VBA launched on-line TAP 
courseware, which provides the capability for Servicemembers to 
complete the course without attending the classroom session. VA and DOD 
also are collaborating on a policy for implementing mandatory TAP 
participation.
    VA will improve access to VA services by opening new or improved 
facilities closer to where Veterans live. The 2013 medical care budget 
request includes $792 million to open new and renovated healthcare 
facilities, including resources to support the activation of four new 
hospitals in Orlando, Florida; Las Vegas, Nevada; New Orleans, 
Louisiana; and Denver, Colorado. These new VA medical centers are 
projected to serve 1.2 million enrolled Veterans when they are 
operational. This budget also includes an initiative to establish a 
national cemetery presence in eight rural areas where the Veteran 
population is less than 25,000 within a 75-mile service area. In 
addition to expanding access at fixed locations, VA is deploying an 
additional 20 Mobile Vet Centers in 2012 to increase access to 
readjustment counseling services for Veterans and their families in 
rural and underserved communities across the country. These new 
specialty vehicles will expand the existing fleet of 50 Mobile Vet 
Centers already in service by 40 percent. In 2011, Mobile Vet Centers 
participated in more than 3,600 Federal, state, and locally sponsored 
Veteran-related events. More than 190,000 Veterans and family members 
made over 1.3 million visits to VA Vet Centers in 2011.
    The Board of Veterans Appeals (BVA) leverages video conference 
technology to increase the capability of, and access to, video hearings 
to provide Veterans with more options for a hearing regarding their 
appeal. The VA is currently upgrading this video conference technology 
both at BVA and at VBA regional offices. In 2011, the number of video 
hearings increased from 3,979 to 4,355 or 9.4 percent. The Board is 
also working with VBA and VHA to allow video hearings to be held from 
more locations in the field, which will be more convenient for 
Veterans. Initially, the expanded video capability will be used to 
reduce the backlog of hearings and the time Veterans have to wait for 
them.
    We are working harder than ever to reach out to women Veterans. 
Women represent about eight percent of the total Veteran population. In 
recent years, the number of women Veterans seeking healthcare has grown 
rapidly and it will continue to grow as more women enter military 
service. Women comprise nearly 15 percent of today's active duty 
military forces and 18 percent of National Guard and Reserves. For the 
estimated 337,000 women Veterans currently using the VA healthcare 
system, VA is improving their access to services and treatment 
facilities. The 2013 budget includes $403 million for the gender-
specific healthcare needs of women Veterans, an increase of 17.5 
percent over the 2012 level.
    VHA regularly updates its standards for improving and measuring 
Veterans' access to medical care programs. In 2010, VHA implemented new 
wait time measures that assess performance meeting the new standard of 
providing medical appointments within 14 days of the desired date, 
replacing the previous 30-day desired-date standard. In 2011, 89 
percent of medical care appointments for new patients occurred within 
14 days of the desired date, an increase of 5 percentage points over 
the 2010 level of 84 percent. The President's request for 2013 ensures 
we are able to continue to improve our performance in providing this 
service.
    Access improvements are central to VHAs new Patient-Aligned Care 
Teams (PACT) model. VA views appointments as a partnership. We are 
implementing a national initiative to reduce costly no-show 
appointments. Also, Veterans can manage appointments by visiting 
MyHealtheVet Web site, where they can view all of their pending 
appointments. In another effort to help Veterans make and keep 
appointments, VA is implementing a pilot program that offers child care 
to eligible Veterans seeking medical appointments at three VA medical 
centers in 2012 and 2013. The first of these facilities, the Buffalo 
VAMC, began providing services in October 2011. Each pilot site will be 
operated onsite by licensed childcare providers. Drop-in services will 
be offered free of charge to Veterans who are eligible for VA care and 
who are visiting a medical facility for an appointment.
    VA is taking full advantage of technology to expand access to its 
medical centers. In 2008, VA established a presence on Facebook with a 
single Veterans Health Administration (VHA) page. In 2009, VA 
established the Post-9/11 GI Bill Facebook page to raise awareness 
about the implementation of this new benefit program. With over 39,000 
subscribers (``or fans''), this page serves as our primary ``real-
time'' tool to communicate GI Bill news and directly interact with our 
clients. VA also launched a general VBA benefits page, which describes 
all of our services. VBA posts to its followers seven days a week and 
is followed in 18 different countries and 15 different languages. In 
June 2011, VA outlined a Department-wide social media policy that 
provides guidelines for communicating with VA online. By November 2011, 
VA had established Facebook pages for all 152 of its medical centers. 
This event marks an important milestone in our effort to transform how 
the Department communicates with Veterans and provides them access to 
healthcare and benefits. By leveraging Facebook, VA continues to 
embrace transparency and engage Veterans in a two-way conversation. VA 
currently has over 345,000 combined Facebook ``fans.'' As of 
January 2012, the Department's main Facebook page has over 154,000 fans 
and its medical centers have a combined following of over 69,000.

                     ELIMINATING THE CLAIMS BACKLOG

    To transform VA for the benefit of Veterans, we must streamline the 
claims processing system and eliminate the claims backlog. We are 
vigorously pursuing a claims transformation plan that will adopt near-
term innovations and break down stubborn obstacles to providing 
Veterans the benefits they have earned.
    As we pursue a multi-focused approach to eliminate the claims 
backlog, workload in our disability compensation and pension programs 
continues to rise. VA has experienced a 48 percent increase in claims 
receipts since 2008, and we expect that the incoming claims volume will 
continue to increase by 4.2 percent in 2013, to 1,250,000 claims from 
1,200,000 in 2012. At the same time, Veterans are claiming many more 
disabilities, with Iraq and Afghanistan Veterans claiming an average of 
8.5 disabilities per claim--more than double the number of disabilities 
claimed by Veterans of earlier eras. As more than one million troops 
leave service over the next 5 years, we expect our claims workload to 
continue to rise for the foreseeable future. In 2013, our goal is to 
ensure that no more than 40 percent of the compensation and pension 
claims in the pending inventory are more than 125 days old. While too 
many Veterans will still be waiting too long for the benefits they have 
earned, it does represent a significant improvement in performance over 
the 2012 estimate of 60 percent of claims more than 125 days old, 
demonstrating that we are on the right path.
    VA is attacking the claims backlog through an aggressive 
transformation plan that includes initiatives focused on the people, 
processes, and technology that will eliminate the backlog. We are 
implementing a new standardized operating model in all our regional 
offices beginning this year that incorporates a case-management 
approach to claims processing. It establishes distinct processing lanes 
based on the complexity and priority of the claims and assigns 
employees to the lanes based on their experience and skill levels. 
Integrated, cross-functional teams work claims from start to finish, 
facilitating the quick flow of completed claims and allowing for 
informal clarification of claims processing issues to minimize rework 
and reduce processing time. More easily rated claims move quickly 
through the system, and the quality of our decisions improves by 
assigning our more experienced and skilled employees to the more 
complex claims. The new operating model also establishes an Intake 
Processing Center at every regional office, adding a formalized process 
for triaging mail and enabling more timely and accurate distribution of 
claims to the production staff in their appropriate lanes.
    VA is increasing the expertise of our workforce and the quality of 
our decisions through national training standards that prepare claims 
processors to work faster and at a higher quality level. Our training 
and technology skills programs will continue to deliver the knowledge 
and expertise our employees need to succeed in a 21st Century 
workplace. We are establishing dedicated teams of quality review 
specialists at each regional office. These teams will evaluate decision 
accuracy at both the regional office and individual employee levels, 
and perform in-process reviews to eliminate errors at the earliest 
possible stage in the claims process. Personnel trained by our national 
quality assurance staff comprise the quality review teams to assure 
local reviews are consistently conducted according to national 
standards.
    Using ``Design Teams,'' VBA is conducting rapid development and 
testing of process changes, automated processing tools, and innovative 
workplace incentive programs. The first Design Team developed a method 
to simplify rating decisions and decision notification letters that was 
implemented nationwide in December 2011. This new decision notification 
process streamlines and standardizes the development and communication 
of claims decisions. This initiative also includes a new employee job-
aid that uses rules-based programming to assist decisionmakers in 
assigning an accurate service-connected evaluation. VBA's 
Implementation Center, established at VBA headquarters as a program 
management office, streamlines the process of innovation to ensure that 
new ideas are approved through a governance process. This allows us to 
focus on initiatives that will achieve the greatest gains.
    VA continues to promote the Fully Developed Claims (FDC) Program. 
We believe utilization of the FDC Program will significantly increase 
as a result of the public release last month of 68 more Disability 
Benefits Questionnaires (DBQs), bringing the total number of DBQs 
publically available to 71. DBQs are templates that solicit the medical 
information necessary to evaluate the level of disability for a 
particular medical condition. Currently used by Veterans Health 
Administration examiners, the release of these DBQs to the public will 
allow Veterans to take them to their private physicians, facilitating 
submission of a complete claims package for expedited processing. VA 
plans an aggressive communications strategy surrounding the release of 
these DBQs that will promote the FDC program. We also continue to work 
with the VSO community to identify ways to boost FDC program 
participation and better inform and serve Veterans and their advocates.
    This year VA is also beginning national implementation of our new 
paperless processing system, the Veterans Benefits Management System 
(VBMS). We are implementing VBMS using a phased approach that will have 
all regional offices on the new system by the end of 2013. We will 
continue to add and expand VBMS functionality throughout this process. 
Establishment of a digital, near-paperless environment will allow for 
greater exchange of information and increased transparency to Veterans, 
our workforce, and stakeholders. Increased use of state-of-the-art 
technology plays a major role in enabling VA to eliminate the claims 
backlog and redirect capacity to better serve Veterans and their 
families. Our strategy includes active stakeholder participation 
(Veterans Service Officers, State Departments of Veterans Affairs, 
County Veterans Service Officers, and Department of Defense) to provide 
digitally ready electronic files and claims pre-scanned through online 
claims submission using the eBenefits web portal. VBA has aggressively 
promoted the value of eBenefits and the ease of enrolling into the 
system. The 2013 budget invests $128 million in VBMS.

                      ENDING VETERAN HOMELESSNESS

    The Administration is committed to ending homelessness among 
Veterans by 2015. Between January 2010 and January 2011 homelessness 
declined by 12 percent, keeping VA on track to meet the goal of ending 
Veteran homelessness in 2015. The VA's Homeless Veteran Registry is 
populated with over 400,000 names of current and formerly homeless 
Veterans who have utilized VA's Homeless Programs--allowing us to 
better see the scope of the issues so we can more effectively address 
them.
    In the 2013 Budget, VA is requesting $1.352 billion for programs 
that will prevent and treat Veteran homelessness. This represents an 
increase of $333 million, or 33 percent over the 2012 level. This 
budget will support our long-range plan to eliminate Veteran 
homelessness by reducing the number of homeless Veterans to 35,000 in 
2013 by emphasizing rescue and prevention.
    To get Veterans off the streets and into stable environments, VA's 
Grant and Per Diem Program awards grants to community-based 
organizations that provide transitional housing and support services. 
VA's goal is to serve 32,000 homeless Veterans in this program in 2013. 
Transitional housing is also provided through the Healthcare for 
Homeless Veterans program. Permanent housing is achieved with Housing 
Choice Vouchers in the Department of Housing and Urban Development 
(HUD)-VA Supportive Housing (HUD-VASH) Program, and by 2013 VA plans to 
provide case management support for the nearly 58,000 HUD Housing 
Choice vouchers available to assist our most needy homeless Veterans.
    Culminating two years of work to end homelessness among Veterans, 
the Building Utilization Review and Repurposing (BURR) initiative 
helped identify unused and underused buildings and land at existing VA 
property with the potential for repurposing to Veteran housing. The 
BURR initiative supports VA's goal of ending Veteran homelessness by 
identifying excess VA property that can be repurposed to provide safe 
and affordable housing for Veterans and their families. As a result of 
BURR, VA began developing housing opportunities at 34 nationwide 
locations for homeless or at-risk Veterans and their families using its 
Enhanced Use Lease (EUL) authority (now expired). The housing 
opportunities developed through BURR will add approximately 4,100 units 
of affordable and supportive housing to the projects already in 
operation or under construction, for an estimated total of 5,400 units.
    Although the Department's Enhanced Use Lease authority has expired, 
the Administration will work with Congress to develop future 
legislative authorities to enable the Department to further repurpose 
the properties identified by the BURR process. Beyond reducing 
homelessness among our Veterans, additional opportunities identified 
through BURR may include housing for Veterans returning from Iraq and 
Afghanistan, assisted living for elderly Veterans, and other possible 
uses that will enhance benefits and services to Veterans and their 
families.
    Of all claimants served by the Veterans Benefits Administration 
(VBA), homeless Veterans represent our most vulnerable population and 
require specialized care and services. The 2013 budget requests $21 
million for the Homeless Veterans Outreach Coordinator (HVOC) 
initiative, which would provide an additional 200 coordinators 
nationwide to expedite disability claims; acquire housing and prevent 
Veterans from losing their homes; expedite access to vocational 
training and job opportunities; and resolve legal issues at regional 
justice courts. These new case managers would significantly improve 
outcomes on behalf of the Nation's homeless Veterans. For example, the 
initiative would improve the timeliness of disability claims decisions 
for homeless and at-risk Veterans by reducing the claims processing 
times by nearly 40 percent between 2011 and 2015.
    In 2011, VHA hired 366 (or 90 percent of 407 total positions) 
homeless or formerly homeless Veterans as Vocational Rehabilitation 
Specialists to provide individualized supported employment services to 
unemployed homeless Veterans through the Homeless Veterans Supported 
Employment Program. Recent initiatives to increase employment of 
Veterans in Federal and other public-sector jobs will help to reduce 
homelessness and also ensure their families are supported. On 
January 18, 2012, VA hosted a career fair for Veterans in Washington, 
DC. Over 4,000 Veterans attended this event to explore and apply for 
thousands of public and private sector job opportunities.
    The VA also helps Veterans obtain employment with education and 
training assistance. The National Cemetery Administration (NCA) is 
helping to provide employment opportunities for homeless Veterans 
through a new, paid Apprenticeship Training Program serving Veterans 
who are homeless or at risk of homelessness. The program will be based 
on current NCA training requirements for positions such as Cemetery 
Caretakers and Cemetery Representatives. Veterans who successfully 
complete the program at national cemeteries will be guaranteed full-
time permanent employment at a national cemetery or may choose to 
pursue employment in the private sector. The Veterans Retraining 
Assistance Program is a joint effort with VA and the Department of 
Labor to provide 12 months of retraining assistance. The program is 
limited to 54,000 participants from October 1, 2012, through March 31, 
2014. Education and training assistance are preventive programs.
    Other preventive services programs include the Supportive Services 
for Veteran Families, which provides rapid case management and 
financial assistance, coordinated with community and mainstream 
resources, to promote housing stability. In time, VA will transition 
its homeless efforts primarily to prevention. Through coordinated 
partnerships with other Federal and local partners and providers, VA 
will assist at risk Veterans in maintaining housing, accessing 
supportive services that promote housing stability, and identifying the 
resources to rapidly re-house Veterans and their dependents if they 
should fall into homelessness. This shift to increased preventive 
efforts will require us to be much more knowledgeable about the causes 
of Veterans' homelessness, about the details of our current homeless 
and at-risk Veteran populations, and about creating action plans that 
serve Veterans at the individual level.

                          MEDICAL CARE PROGRAM

    The 2013 budget requests $52.7 billion for healthcare services to 
treat over 6.33 million unique patients, an increase of 1.1 percent 
over the 2012 estimate. Of those unique patients, 4.4 million Veterans 
are in Priority Groups 1-6, an increase of more than 64,000 or 1.5 
percent. Additionally, VA anticipates treating over 610,000 Veterans 
from the conflicts in Iraq and Afghanistan, an increase of over 53,000 
patients, or 9.6 percent, over the 2012 level.

Medical Care in Rural Areas
    The delivery of healthcare in rural areas faces major challenges, 
including a shortage of healthcare resources and specialty providers. 
In 2011, we obligated $18.8 billion to provide healthcare to Veterans 
who live in rural areas. Some 3.6 million Veterans enrolled in the VA 
healthcare system live in rural or highly rural areas of the country; 
this represents about 42 percent of all enrolled Veterans. For that 
reason, VA will continue to emphasize rural health in our budget 
planning, including addressing the needs of Native American Veterans. 
The 2013 budget continues to invest in special programs designed to 
improve access and the quality of care for Veterans residing in rural 
areas. For example, in the remote, sparsely populated areas of Montana, 
Utah, Wyoming and Colorado, VA has supported the development and 
expansion of a network-wide operational telehealth infrastructure that 
supports a virtual intensive care unit, tele-mental health services, 
and primary care and specialty care to 67 fixed and mobile sites. 
Again, IT investment is the foundation of our work in all of these 
areas.
    In rural areas with larger populations, funding supports the 
opening of new rural clinics, such as the one located in Newport, 
Oregon, which serves over 1,200 Veterans. This clinic is a unique 
partnership between VA and the local Lincoln County government. The 
county government provides clinical space, equipment and supplies, 
while VA funds the salaries for the primary care and mental health 
providers.

Mental Healthcare
    The budget requests $6.2 billion for mental health programs, for an 
increase of $312 million over the 2012 level of $5.9 billion. VA is 
increasing outreach opportunities to connect with and treat Veterans 
and their families in new, innovative ways. In April 2011, VA launched 
the first in a series of mobile smartphone applications, the PTSD 
Coach. It provides information about PTSD, self-assessment and symptom 
management tools, and information on how to get help. VA developed this 
technology in collaboration with DOD and with input from Veterans, who 
let the development team know what they did and did not want in the 
application (app). As of the end of 2011, the app had just over 41,000 
downloads in 57 countries. In addition, VA is developing PTSD Family 
Coach that will complement the Coaching into Care national call center, 
which provides support to family members of Veterans.
    In 2011, VA also launched Make the Connection, a national public 
awareness campaign for Veterans and their family members to connect 
with other Veterans to share common experiences, and ultimately to 
connect them with information and resources to help with the challenges 
that can occur when transitioning from military service to civilian 
society. This is an important effort in breaking down the stigma 
associated with mental health issues and treatment. The campaign's 
central focus is a Web site, www.MakeTheConnection.net, featuring 
numerous Veterans who have shared their experiences, challenges, and 
triumphs. It offers a place where Veterans and their families can view 
the candid, personal testimonials of other Veterans who have dealt with 
and are working through a variety of common life experiences, day-to-
day symptoms, and mental health conditions. The Web site also connects 
Veterans and their family members with services and resources they may 
need.

Long-term Medical Care
    As the Veteran population ages, VA will expand its provision of 
both institutional and non-institutional Long-Term Care services. These 
services are designed not just for the elderly, but for Veterans of all 
ages who have a serious chronic disease or disability requiring ongoing 
care and support, including those returning from Iraq and Afghanistan 
suffering from traumatic injuries. Veterans can receive long-term care 
services at home, at VA medical centers, or in the community. In 2013, 
the Long-Term Care budget request is $7.2 billion. VA will continue to 
provide long-term care in the least restrictive and most clinically 
appropriate settings by providing more non-institutional care closer to 
where Veterans live. This budget supports an increase of 6 percent in 
the average daily census in non-institutional long-term care programs 
in 2013, resulting in a total average daily census of approximately 
120,100.

                            MEDICAL RESEARCH

    Medical Research is being supported with $583 million in direct 
appropriations in 2013, an increase of nearly $2 million above the 2012 
level. In addition, approximately $1.3 billion in funding support for 
medical research will be received from VA's medical care program and 
through Federal and non-Federal grants. Projects funded in 2013 will 
support fundamentally new directions for VA research. Specifically, 
research efforts will be focused on supporting development of New 
Models of Care, improving social reintegration following Traumatic 
Brain Injury, reducing suicide, evaluating the effectiveness of 
complementary and alternative medicine, developing blood tests to 
assist in the diagnosis of Post Traumatic Stress Disorder and mild 
Traumatic Brain Injury, and advancing genomic medicine.
    The 2013 budget continues support for the Million Veteran Program 
(MVP), an unprecedented research program that advances the promises of 
genomic science. The MVP will establish a database, used only by 
authorized researchers in a secure manner, to conduct health and 
wellness studies to determine which genetic variations are associated 
with particular health issues. The pilot phase of MVP was launched in 
2011. Surveys were sent to 17,483 Veterans and approximately 20 percent 
of those then completed a study visit and provided a small blood 
sample. By the end of 2013, the goal is to enroll at least 150,000 
participants in the program. Like with so much of VA research, the 
impact will be felt not just through improved care for Veterans but for 
all Americans, as well.

                    VETERANS BENEFITS ADMINISTRATION

    The 2013 budget request for the general operating expenses of the 
Veterans Benefits Administration (VBA) is $2.2 billion, an increase of 
$145 million, or 7.2 percent, over the 2012 enacted level. With the 
support of Congress, we have made great strides in implementing our 
comprehensive plan to transform the disability claims process. This 
budget sustains our investments in people, processes, and technology in 
order to eliminate the claims backlog by 2015. In addition, this budget 
request includes funding to support the administration of other VBA 
business lines.

Post-9/11 and other Education Programs
    The Post-9/11 GI Bill program provides every returning 
servicemember with the opportunity to obtain a college education. As 
expected, the Post-9/11 GI Bill program has become the most used 
education benefit that VA offers. Just as with the original GI Bill, 
today's program provides Veterans with tools that will help them 
contribute to an economically vibrant and strong America. In 2013, VA 
estimates that 606,300 individuals will participate in this benefit 
program. The timeliness and accuracy of processing Post-9/11 GI Bill 
claims continues to improve. From 2010 to 2011, VA processing times for 
original and supplemental claims improved by 15 days (from 39 to 24 
days) and 4 days (from 16 to 12 days), respectively. Over the last two 
years, VA has successfully deployed a new IT system to support 
processing of Post-9/11 GI Bill education claims. With improved 
automation tools in place, VA will be able to begin reducing education 
benefit processing staff in 2013.

Vocational Rehabilitation and Employment (VR&E)
    The VR&E program is designed to assist disabled Servicemembers in 
their transition to civilian life and obtaining employment. The budget 
request for 2013 is $233.4 million or a 14.2 percent increase from 
2012. The number of participants in the program increased to 107,925 in 
2011 and is expected to grow to over 130,000 by 2013.
    VA is also expanding VR&E counseling services available at IDES 
sites to assist Servicemembers with disabilities in jumpstarting their 
transition to civilian employment. In 2012, VA will assign 110 
additional counselors to the largest IDES sites, serving an additional 
12,000 wounded, ill, and injured Servicemembers. Funds requested in 
2013 will support further expansion, adding 90 more counselors to the 
program.
    In 2009, VA established a pilot program called VetSuccess on Campus 
to provide outreach and supportive services to Veterans during their 
transition from the military to college, ensuring that their health, 
education and benefit needs are met. By the end of 2012, the program 
will be operational on 28 campuses. The 2013 budget includes $8.8 
million to expand the program to a total of 80 campuses serving 
approximately 80,000 Veterans.

                    NATIONAL CEMETERY ADMINISTRATION

    VA honors our fallen soldiers with final resting places that serve 
as lasting tributes to commemorate their service and sacrifice to our 
Nation. The 2013 budget includes $258 million in operations and 
maintenance funding for the National Cemetery Administration (NCA). In 
2013, NCA estimates that interments will increase by 1,500 (1.3 
percent) over 2012. Cemetery maintenance workload will also continue to 
increase in 2013 over the 2012 levels: the number of gravesites 
maintained will increase by 82,000 (2.5 percent) and the number of 
developed acres maintained will increase by 138 (1.6 percent).
    The 2013 Budget will allow VA to provide more than 89.6 percent of 
the Veteran population, or 19.1 million Veterans, a burial option 
within 75 miles of their residence by keeping existing national 
cemeteries open, establishing new State Veterans cemeteries, as well as 
increasing access points in both urban and rural areas. VA's first 
grant to establish a Veterans cemetery on Tribal trust land, as 
authorized in Public Law 109-461, was approved on August 15, 2011. This 
cemetery will provide a burial option to approximately 4,036 unserved 
Rosebud Sioux Tribe Veterans and their families residing on the Rosebud 
Indian Reservation near Mission, South Dakota.
    NCA provides an unprecedented level of customer service, which has 
been achieved by always striving for new ways to meet the burial needs 
of Veterans. In 2011, NCA initiated an independent study of emerging 
burial practices including ``green'' burial techniques that may be 
appropriate and feasible for planning purposes. The study will also 
include a survey of Veterans to ascertain their preferences and 
expectations for new burial options. The completed study will provide 
comprehensive information and analysis for leadership consideration of 
new burial options.

                         CAPITAL INFRASTRUCTURE

    A total of $1.14 billion is requested in 2013 for VA's major and 
minor construction programs, an increase of 6.3 percent over the 2012 
enacted level. VA is also proposing legislation in 2013 that would 
enhance the ability of the Department to collaborate with other Federal 
Departments and Agencies, including the Department of Defense (DOD) on 
joint capital projects. This legislative proposal would allow 
appropriated funds to be transferred among Federal agencies to 
effectively plan and design joint projects when determined to be cost-
effective and improve service delivery to Veterans and Servicemembers.

Major Construction
    The major construction request in 2013 is $532 million in new 
budget authority. The major construction request includes funding for 
the next phase of construction for four medical facility projects in 
Seattle, WA; Dallas, TX; Palo Alto, CA; and St. Louis (Jefferson 
Barracks), MO. Additionally, funds are provided to remove asbestos from 
Department-owned buildings, improve facility security, remediate 
hazardous waste, fund land acquisitions for national cemeteries, and 
support other construction related activities.

Minor Construction
    In 2013, the minor construction request is $608 million. It would 
provide for constructing, altering, extending and improving VA 
facilities, including planning, assessment of needs, architectural and 
engineering services, and site acquisition and disposition. It also 
includes $58 million to NCA for land acquisition, gravesite expansions, 
and columbaria projects. NCA projects include irrigation and drainage 
improvements, renovation and repair of buildings, and roadway repairs.

                         INFORMATION TECHNOLOGY

    The 2013 budget requests $3.327 billion for Information Technology 
(IT), an increase of $216 million over the 2012 enacted level of $3.111 
billion. Veterans and their families are highly dependent upon the 
effective and efficient use of IT to deliver benefits and services. In 
this day and age, every doctor, nurse, dentist, claims processor, 
cemetery interment scheduler, and administrative employee in the VA 
cannot do his or her jobs without adequate IT support. Approximately 80 
percent of the IT budget supports the direct delivery of healthcare and 
benefits to Veterans and their families.
    We have made dramatic changes in the way IT projects are planned 
and managed at the VA. As described earlier in this testimony, the 
Project Management Accountability System (PMAS) has reduced risks by 
instituting effective monitoring and oversight capabilities and by 
establishing clear lines of accountability. Additionally, we have 
strengthened security standards in software development and established 
an Identity Access Management program that allows VA to increase on-
line services for Veterans.
    The IT infrastructure supports over 300,000 employees and about 10 
million Veterans and family members who use VA programs, making it one 
of the largest consolidated IT organizations in the world. This budget 
request includes nearly $1.8 billion for the operation and maintenance 
of the IT infrastructure, the backbone of VA. A sound and reliable 
infrastructure is critical to support the VA workforce and all of our 
facilities nationwide in the effective and efficient delivery of 
healthcare and benefits to Veterans. It is also critical that we 
support new facility activations, our major transformational 
initiatives, and the increased usage of VA services while maintaining a 
secure IT environment to protect Veteran sensitive information.
    Improving services for Veterans and their beneficiaries requires 
using advanced technologies. For example, VA will continue to utilize 
MyHealtheVet to improve access to information on appointments, lab 
tests and results, and reduce adverse reactions to medications. The 
2013 budget continues an investment strategy of funding the development 
of new technologies that will have the greatest benefit for Veterans.
    The delivery of high-quality medical care to an increasing number 
of Veterans is highly dependent upon adequate IT funding. VA's health 
IT investments have, and will continue, to greatly improve the delivery 
of medical care with regards to quality, patient safety and cost 
effectiveness. This includes transformation of mental health service 
delivery through IT enabled self-help, providing data and IT analytical 
tools for VA's research community, and creating an open exchange for 
collaboration and innovation in the development of clinical software 
solutions. Additionally, initiatives focused on ``Care at a Distance'' 
are heavily reliant on technology and require a robust IT 
infrastructure.
    The 2013 budget request for integrated Electronic Health Record 
(iEHR) is $169 million. The iEHR is a joint initiative with DOD to 
modernize and integrate electronic health records for all Veterans to a 
single common platform. We must take full advantage of this historic 
opportunity to deliver maximum value through joint investments in 
health IT. When DOD and VA healthcare providers begin accessing a 
common set of health records, iEHR will enhance quality, safety, and 
accessibility of healthcare--setting the stage for more efficient, 
cost-effective healthcare systems. In 2013, we plan to leverage open 
source development to foster innovation and speed delivery for a 
pharmacy and immunization solution.
    An integral part of iEHR is the Virtual Lifetime Electronic Record 
(VLER), which is enabling VA transformation. VLER creates information 
interoperability between DOD, VA, and the private sector to promote 
better, faster and safer healthcare and benefits delivery for Veterans. 
The 2013 budget will ensure continued delivery of enhanced clinical and 
benefits information connections and build increased capability to 
support women's healthcare. Additionally, we will develop a modern 
memorial affairs system for the dynamic mapping of gravesite locations. 
The 2013 budget request for VLER is $52.9 million.
    In addition, the 2013 budget requests $92 million in the IT 
appropriation for VBMS. As noted earlier, the VBMS initiative is the 
cornerstone of VA's claims transformation strategy. It is a 
comprehensive solution that integrates a business transformation 
strategy to address people and processes with a paperless claims 
processing system. Achieving paperless claims processing will result in 
higher quality, greater consistency and faster claims decisions. 
Nationwide deployment of VBMS is on target to begin in 2012 with 
completion in 2013.
    This budget also includes funding to transform the delivery of 
Veterans' benefits. The 2013 IT budget requests $111 million for the 
Veterans Relationship Management (VRM) initiative. We will use this 
funding to improve communications between Veterans and VA that occur 
through multiple channels--phone, web, mail, social media, and mobile 
apps. It will also provide new tools and processes that increase the 
speed, accuracy and efficiency of information exchange, including the 
development of self-service technology-enabled interactions to provide 
access to information and the ability to execute transactions at the 
place and time convenient to the Veteran. In 2013, Veterans will see 
enhanced self-service tools for the Civilian Health and Medical Program 
of the Department of Veterans Affairs (CHAMPVA) and VetSuccess 
programs, as well as the Veterans Online Application for enrolling in 
VA healthcare.

                          LEGISLATIVE PROGRAM

    VA has outlined in this budget a strong legislative program that 
will advance our mission to end Veteran homelessness and help Wounded 
Warriors by improving our system of grants for home alterations so 
Veterans can better manage disabilities and live independently. Our 
legislative proposals would also make numerous other common-sense 
changes that improve our programs, including provisions that will 
reduce payment complexities for both our student Veterans and the 
schools using the Post-9/11 GI Bill.

                                SUMMARY

    VA is the second largest Federal department with over 316,000 
employees. Our workforce includes physicians, nurses, counselors, 
claims processors, cemetery groundskeepers, statisticians, engineers, 
IT specialists, police, and educators. They serve Veterans at our 
hospitals, community-based outpatient clinics, Vet Centers, mobile Vet 
Centers, claims processing centers, and cemeteries. Through the 
resources provided in the President's 2013 Budget, VA is enabled to 
continue improving the quality of life for our Nation's Veterans and 
their families and to completing the transformation of the department 
that we began in 2009. Thanks to the President's leadership and the 
solid support of all Members of the Congress, we have made huge strides 
in our journey to provide all generations of Veterans the best possible 
care and benefits that they earned through selfless service to the 
Nation. We are committed to continue that journey, even as the numbers 
of Veterans will increase significantly in the coming years, through 
the responsible use of the resources provided in the 2013 budget and 
2014 advance appropriations requests.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Patty Murray to 
                  U.S. Department of Veterans Affairs

                              HEALTH CARE

    Question 1. As OEF/OIF/OND veterans age over the next 60 years, 
what levels of funding will be needed to maintain current health care 
service levels?
    a. What portion of this is expected to be the result of increased 
demand among veterans versus veterans' becoming more sick and having 
more complex needs?
    Response. The 2011 VA Enrollee Health Care Projection Model (base 
year FY 2010), which supports the VA 2013 budget and 2014 advance 
appropriations request for medical care, estimates that the total 
number of military Servicemembers deployed in support of OEF/OIF/OND 
will reach 2.4 million in FY 2015, with the last separation from active 
duty occurring in FY 2042. As of 2010, there were 708,000 OEF/OIF/OND 
enrollees. Enrollment is expected to increase 62 percent by 2014, 
double to 1.46 million by 2020, and increase to 1.7 million by 2031. In 
2013, VA has budgeted nearly $3.3 billion for this group of Veterans.
    The Model reflects the unique utilization patterns of OEF/OIF/OND 
enrollees. For example, OEF/OIF/OND Veterans have an increased need for 
hearing and speech exams, dental services, physical medicine, 
prosthetics, outpatient psychiatric and substance abuse treatment, and 
residential rehabilitation. In addition, as this population ages over 
the Model's 20-year horizon, the projections will reflect the higher 
utilization of health care services associated with older populations. 
For example, the 2011 Model is projecting an increase of over 200 
percent in outpatient mental health visits for this population by FY 
2020.

    Question 2. What impact will the end of the war in Iraq, the 
drawdown of troops in Afghanistan, and the reduction of forces across 
the military have on VA? What does the FY 2013 budget do to prepare VA 
for these impacts, and how is the Department working collaboratively 
with DOD to prepare for these changes?
    Response. The Department of Veterans Affairs (VA) works closely 
with the Department of Defense (DOD) at the local and Departmental 
levels to meet the needs of redeploying and transitioning 
Servicemembers and Veterans. DOD is still developing operational plans 
and details for how they intend to reduce forces over the next five 
years. VA is aware of the potential impact the force reduction may have 
on VA providing benefits and services, especially at the points of 
transition from active duty to Veteran status. VA has been actively 
collaborating with DOD on this issue from the Secretarial level on 
down, in order to identify any new requirements from a resource or 
program perspective.
    In addition to this collaboration with DOD, VA has and will 
continuously evaluate overall mission requirements through efforts such 
as: periodic refresh of the VA Strategic Plan; execution of planning, 
programming, budgeting, and evaluation (PPBE) processes through the VA 
Office of Corporate Analysis and Evaluation to support strategic 
decisionmaking and align resources to achieve VA priorities for 
Veterans; and leveraging robust data analysis and predictive modeling 
capabilities through the VA Office of Data Governance and Analysis to 
support strategic and programmatic planning, as well as policy 
development.
    The VA budget supports the requirements and needs for the 
Department in fiscal 2013 and the advanced appropriation request for 
health care in fiscal 2014. The FY 2013 budget includes the impact of 
the end of the war in Iraq, and the drawdown of troops in Afghanistan, 
but it does not include the impact of the reduction in the size of DOD 
troop strength because that specific data is not yet available. Based 
upon VA's current analysis, the Iraq and Afghanistan drawdown and the 
DOD force reductions will have a negligible impact on the FY 2013 
budget.

    Question 3. Enrollment and utilization projections.
    a. Considering what VA has learned from the addition of a reliance 
metric last year to the Enrollee Health Care Projection Model, and 
considering CBO's projection that unemployment will be 8.2 percent at 
the end of 2012, what does the Department project will be the change in 
reliance for FY 2013 and beyond?
    Response. Demand for VA health care increased during the economic 
downturn, primarily reflected by a small increase in Veteran 
enrollment, a small increase in current enrollees moving into Priority 
5 or Priority 7, and a significant increase in enrollee reliance on VA 
health care. An estimated $1.5 billion is now embedded in the base year 
FY 2010 expenditures as a result of the economic downturn from FY 2008 
through FY 2010.
    The 2011 VA Enrollee Health Care Projection Model's starting point 
(FY 2010) reflects the high point of the economic downturn. Because 
demand for VA health care is correlated with changes in economic 
conditions, the increase in demand associated with the economic 
downturn through 2010 is expected to decline as unemployment rates 
return to normal levels.
    The 2011 Model uses the Office of Management and Budget's (OMB) 
November 2011, economic assumptions (unemployment rate forecast) for FY 
2011 through FY 2021. OMB forecasts that the rate will come down from 
the FY 2010 high of 9.7 percent to 8.7 percent in FY 2013.
    Background: The economic downturn mostly impacted Veterans in 
Priorities 5 and 7 under age 65. From 2008 through 2010 (the base year 
in the 2011 Model):

    <bullet> An estimated 50,000 more Veterans enrolled than 
anticipated in a stable economic environment. Enrollment in Priority 5 
increased by an estimated 30,000 due to changes in enrollee transition 
between priorities.
    <bullet> Responses to the VHA Enrollee Surveys indicate that 
outpatient reliance increased from 47 percent to 51 percent from 2007 
to 2009 for enrollees under age 65.
    b. Please discuss how the concerns raised by GAO in their report 
GAO-11-205, Veterans' Health Care: VA Uses a Projection Model to 
Develop Most of Its Health Care Budget Estimate to Inform the 
President's Budget Request, were addressed in the development of the FY 
2013 budget and the FY 2014 advance appropriation request.
    Response. In the subject GAO report (GAO-11-205, January 2011), the 
GAO described how the VA develops the budget estimates for its health 
care program. The GAO report did not contain any recommendations and 
did not raise any concerns. The process described in the subject report 
was essentially the same process that was used to develop the FY 2013 
budget and the FY 2014 advance appropriation request

    Question 4. How much money has been obligated thus far for the 
caregivers program (Title I--Caregiver Support, of Public Law 111-163)? 
Please provide a breakdown of that funding.
    a. How many veterans are currently enrolled in the program
    Response. As of February 14, 2012, 3,113 approved primary Family 
Caregivers were enrolled in VA's Program of Comprehensive Assistance 
for Family Caregivers. In order to implement Title I of Public Law 111-
163, VA has obligated the amounts on the chart below.


------------------------------------------------------------------------
                                                             1st Qtr FY
                                               FY 2011          2012
------------------------------------------------------------------------
Instruction and Training..................   $3,933,563        $81,422
Travel, lodging, and per diem expensed to      $141,832        $24,122
 attend training..........................
Lodging and subsistence for VA                  $60,784        $56,284
 appointments.............................
Respite care..............................   $1,308,503       $249,734
Ongoing technical support.................  $10,687,172     $3,146,041
Mental Health.............................       $6,600         $9,108
Monthly stipend...........................  $11,002,530    $16,568,583
CHAMPVA...................................           $0       $201,783
                                           -----------------------------
  Total...................................  $27,140,984    $20,337,077
------------------------------------------------------------------------

    The total cost of Sections 101-104 in 2011 was $30.8 million. This 
includes additional requirements such as the Caregiver Web site, and 
the implementation of other evidence based practices and staffing.

    Question 5. What steps have been taken by VA to increase 
collections for the MCCF over the past year, including any efforts to 
improve identification of billable services? Does the FY 2013 budget 
request continue to support efforts to increase collections and improve 
identification of billable services, and if so how?
    Response. VA has taken multiple steps to increase collections for 
the Medical Care Collections Fund (MCCF) focused on identifying more 
billable opportunities including:

    <bullet> Deployment of Consolidated Patient Account Centers 
(CPACs): VA is transitioning billing and collection activities from 
individual medical centers to seven (7) regionally aligned centers of 
excellence in an effort to capture more billable opportunities. This 
business model demonstrates efficiency through standardized business 
processes, performance accountability, and stringent internal controls 
to ensure consistency. Four (4) CPACs are fully operational--Mid 
Atlantic (Asheville, NC), Mid South (Smyrna, TN), North Central 
(Madison, WI) and Florida (Orlando, FL). Three (3) CPACs are being 
deployed in Fiscal Year 2012--West (Las Vegas, NV), Central Plains 
(Leavenworth, KS) and North East (Lebanon, PA). CPACs are being 
deployed one year earlier than mandated by Public Law 110-387.
    <bullet> Recoveries from Fee Care: VA can bill third party payers 
for Veterans receiving non-service-connected Fee care with insurance. 
In an effort to enhance charge capture for these services, VHA has 
deployed reengineered business processes, provided staff training and 
developed a process to improve performance in key areas.
    <bullet> Revenue Cycle Enhancement Teams (RCET): RCET visits 
identify opportunities to improve billable opportunities at lower 
performing facilities by developing action plans and tracking follow up 
until completion. Over the past year, more than 30 visits have been 
completed across the organization by cross functional teams of experts.
    <bullet> Enhancing Electronic Business Capacity: VA continues to 
enhance electronic business transaction capabilities that result in 
faster payments. Specifically, VA increased the number of pharmacy 
claims transmitted electronically by 43% over the last year and the 
amount of revenue collected through electronic funds transfer by nearly 
30%.

    With regard to FY 2013, VA believes the budget estimate of $2.966 
billion for collections, which represents a $199M increase, or 7.2% 
compared to FY 2012, supports efforts to increase collections and 
improve identification of billable services. This increase includes 
$125 million in collections contingent on new authorities found in VA's 
submitted legislative proposals that we hope Congress will enact.

    Question 6. There have been system-wide shortcomings in human 
resources functions including a slow hiring process, downgrading of VA 
employees, and others.

    a. What steps has the Department taken to identify problems in:

          i. local human resources operations; and
          ii. the ability of regional or national-level human resources 
        to create and enforce policy and conduct oversight?

    b. Please also provide the results of any reviews or evaluations of 
these offices or functions.
    c. Please detail progress on any efforts to correct deficiencies 
that have been identified, including accomplishments to-date and 
offices or personnel responsible.

    Response. The VA human resources structure includes centralized 
human resources functions of strategic planning, policy development, 
and oversight and compliance as well as decentralized human resources 
operational functions. Operational functional authorities that have 
been decentralized include appointing authority, authority to process 
and authenticate notifications of personnel actions, and authority to 
effect management-approved employment actions on behalf of officials, 
employees, and facilities for which service is provided. With 
decentralized operational functions, each Administration Head (i.e., 
the Under Secretary for Benefits, Under Secretary for Memorial Affairs, 
and Under Secretary for Health) is delegated the authority to perform 
H.R. operations for all employees within their respective 
organizations. The Veterans Health Administration (VHA) also provides 
operational support for the Office of Information and Technology. H.R. 
operations for all other staff offices are performed in VA Central 
Office. VA's decentralized operating authority allows for local 
decisions that are consistent with statutory and regulatory 
requirements but affords flexibility.
    Although H.R. operations are largely decentralized, controls are in 
place to ensure oversight and accountability. VA's Accountability 
System, our official framework for conducting H.R. reviews, is designed 
to promote continuous improvement, including corrective action to 
address weaknesses/deficiencies and merit system violations. All 
accountability activities are reviewed by the Office of Human Resources 
Management (OHRM) and appropriate management entities to determine and 
implement needed changes to VA's human capital goals and objectives, 
H.R. programs and processes, and the accountability system itself. Case 
violations involving potential prohibited personnel practices are 
referred to appropriate oversight agents--Office of Inspector General, 
Office of Special Counsel, Office of Personnel Management (OPM), etc. 
Systemic concerns are referred to the Assistant Secretary for Human 
Resources and Administration for consideration for Department-wide 
action.
    a. What steps has the Department taken to identify problems in: i. 
local human resources operations; and ii. the ability of regional or 
national-level human resources to create and enforce policy and conduct 
oversight?
    Response. VA's Directive 5024, Human Capital Management 
Accountability Systems establishes VA policies for human capital 
management (HCM) accountability systems, and outlines responsibilities 
for the conduct and review of Human Resources Management (HRM) program 
assessments. The VA HRM accountability program is the responsibility of 
top VA management, line managers, and human resources officials working 
together to ensure Federal and VA's HRM programs, policies and 
delegated H.R. authorities are carried out and are in accord with merit 
systems principles, Title 5 and Title 38 provisions, or other 
applicable laws, rules and regulations related to human resources 
management. This is accomplished through OHRM's guided accountability 
onsite reviews in a sampling of H.R. offices and the use of an Annual 
H.R. Self-Evaluation Instrument for all H.R. offices. The H.R. Self 
Evaluation of human capital helps measure VA's performance against the 
human capital accountability and assessment framework, which has been 
developed by OPM. The H.R. Self-evaluation instrument exists to assist 
field facility Directors in conducting yearly, systematic, and internal 
facility H.R. self reviews. As part of the accountability program, each 
field station conducts an annual HRM self-evaluation as an integral 
part of local management's systematic internal review system, to 
include the separate Delegated Examining Unit (DEU) assessment at 
facilities where such units exist. Documentation used to prepare the 
self-evaluation is maintained for review during on-site visits. In 
addition to reviews by OHRM, the policy offices within OHRM monitor 
policy implementation. Also, through the Human Resources Academy, 
competency assessments, career mapping, and both strategic and 
technical human resources courses are leveraged to support human 
resources professionals.

    b. Provide the results of any reviews or evaluations of these 
offices or functions.
    Response. During 22 onsite assessments in fiscal year 2011, staff 
identified both required and recommended actions to enhance program 
effectiveness. In general, human resources professionals need to gain 
additional competencies to effectively partner and consult with 
management in accomplishing their organization's mission. Overall, 
assessed facilities were generally cited for administrative and 
process-related problems. Compliance errors are mainly the result of 
poor procedural or administrative processes and/or inattention to 
detail.

    c. Detail progress on any efforts to correct deficiencies that have 
been identified, including accomplishments to-date and offices or 
personnel responsible.
    Response. Facilities report to OHRM on required actions 20 days 
after receiving the report and every 60 days thereafter. In addition, 
H.R. offices are required to outline actions proposed and taken to 
close each required and recommended action and provide evidence of how 
they are closing each action. OHRM continues to formally verify closure 
of the required actions and recommendations stemming from its on-site 
assessment visits. Key findings of site visit assessments, including 
systemic compliance issues, are reported to local management and VA 
leadership, in order to assess and promote continuous improvement in 
the overall HC program.
    Under the VHA H.R. Delivery Model, which was approved July 14, 
2010, Veterans Integrated Service Network (VISN) Human Resources 
Officers assess gaps in human resources processes and implement 
initiatives to reduce gaps identified. Also, VHA established 
Consolidated Classification Units (CCU) in 2010; these CCUs are 
providing oversight and ensuring consistency on all classification 
actions at VHA medical facilities. To date, 14 CCUs are in place with 
the remaining 7 CCUs to be established in the near future. A National 
Classification Strategy is underway and work is ongoing to establish a 
National VHA Classification Office. In addition, Workforce Management 
and Consulting (WMC) has initiated national classification conference 
calls that include all VISN classification specialists. This forum 
addresses all national and regional classification issues and will 
ensure consistency and reduced variation across VHA. In January 2011, 
WMC formed a team of H.R. professionals that are collaborating and 
coordinating with each VISN H.R. Officer to visit VHA Medical Centers 
to review each H.R. program and to provide hands-on consultation and 
operational guidance. To ensure compliance with Merit System 
Principles, WMC conducted onsite reviews at all VISN 17 facilities and 
reviewed classification actions performed by the CCU and found that 
current actions are in compliance with OPM classification standards.

    Question 7. Please discuss the level of funding requested in the FY 
2013 budget to continue implementation of the Amputee System of Care. 
Also, please discuss the progress the Department has made in 
implementing the Amputee System of Care to date including:

    a. Number and type of personnel, as well as existing vacancies.
    b. Operational status of each site or team, and expected date of 
full operational capability for those sites or teams that have not yet 
achieved that status.
    c. Discussion of benefits to care or operational efficiencies 
expected as a result of providing more prosthetic care by the 
Department.

    Response. Establishment of the Amputation System of Care (ASoC) 
began in 2009 and all sites of care are fully operational, although the 
system of care continues to evolve and mature. The vision of the ASoC 
is to be a world leader in providing lifelong amputation care.
    There is a total of 58 FTE dedicated to the Amputation System of 
Care; currently, there are 11 staff vacancies. The number of Amputation 
Clinic teams has grown by over 10 percent since the initial rollout in 
2009, and amputation rehabilitation care is now available at 111 sites 
throughout VHA. All sites are fully operational to provide services 
appropriate to meeting the requirements of their designated level of 
care. Recruitment efforts are ongoing to fill remaining vacancies by 
the end of FY 2012.
    The ASoC is comprised of four distinct components of care similar 
to the hub-and-spoke model utilized by VA Polytrauma System of Care, 
and includes:

    <bullet> Component 1: 7 Regional Amputation Centers (RAC) provide 
comprehensive rehabilitation care through an interdisciplinary team and 
serve as a resource across the VA system through tele-rehabilitation. 
They provide the highest level of specialized expertise in clinical 
care and technology and provide rehabilitation and consultation to the 
most complicated patients. These facilities include: Bronx, Denver, 
Minneapolis, Palo Alto, Richmond, Seattle and Tampa VA medical centers 
(VAMC). The staffing supported through ASoC funding at these locations 
includes:

         - 7 Physician Medical Directors (2 vacancies, currently)
         - 7 Amputation Rehabilitation Coordinators
         - 7 RAC Prosthetists (6 vacancies, currently)
         - 7 Program Support Assistants (1 vacancy, currently)

    <bullet> Component 2: 15 Polytrauma Amputation Network Sites 
provide full range of clinical and ancillary services to Veterans 
closer to their home. The staffing supported through ASoC funding at 
these sites includes:

         - 15 Amputation Rehabilitation Coordinators
         - 15 Program Support Assistants (2 vacancies, currently)

    <bullet> Component 3: 111 Amputation Clinic Teams provide 
specialized outpatient amputation care, and staffing for these teams is 
supported by the VAMCs where they are located.
    <bullet> Component 4: 22 Amputation Points of Contact facilitate 
referrals and access to services. These VA facilities ensure at least 
one person is identified to act as the point of contact for 
consultation and assessment, and to refer the patient to a facility 
capable of providing the level of services required.
    The ASoC has committed an additional 13 FTEE to support the 
Servicemember Transitional Amputation Rehabilitation (STAR) Program at 
the Hunter Holmes McGuire Polytrauma Rehabilitation Center at the 
Richmond VAMC. This residential rehabilitation program was developed 
and initiated for Servicemembers and Veterans recovering from 
amputations, and who are not yet ready to live independently. This 
program has 10 designated residential beds providing post-acute 
rehabilitation services, and focuses on community re-integration and 
vocational rehabilitation.
    The ASoC also utilizes Orthotics and Prosthetic (O&P) Services as 
part of the integrated system of VA physicians, therapists, and 
prosthetists working together to provide the best devices and state-of-
the art care. The VA O&P Service has over 300 individuals ranging from 
fitters to certified orthotists and prosthetists, operating in 78 
facilities across the country. Sixty five of these facilities have 
national accreditation by the American Board for Certification in 
Orthotics, Prosthetics and Pedorthics, or the Board of Certification/
Accreditation International.
    One of the benefits of including O&P Service as part of the ASoC 
team is that it offers complete care to the Veteran by incorporating 
biological factors, socioeconomic factors, social/contextual factors 
and psychological factors into unified care. Conversely, the 
fragmentation of care and lack of insurance coverage in the private 
sector has made it difficult for civilian patients to receive similar 
orthotic and prosthetic services.
    The VA O&P Service offers Veteran-centered care, whether provision 
of that care comes from the VA O&P staff, or through one of more than 
600 contracts nationally with accredited local orthotists and 
prosthetists. The VA pays the full cost of the prescribed limb as well 
as repairs.
    The benefits of VA providing O&P Service further extends to the 
public sector by advancing development of new technologies, and 
education and training of professionals in the field. VA fosters and 
initiates interactions with manufacturers to gain access to new 
prosthetic and orthotic technology. Often this technology is first 
released commercially to the VA, thereby benefiting Veterans with the 
newest and most advanced systems. VA O&P clinicians provide feedback to 
the manufacturers for modification and enhancements to the technologies 
that advance even newer technologies. Further, the Department in 
partnership with orthotic and prosthetic academic programs at US 
universities and colleges has established 17 residency positions 
programs at 10 VA locations for academic year 2013, with three more 
sites planned for 2014. This collaboration with the prosthetic 
educational system, which includes a contractual training program, will 
further strengthen clinical care by providing training courses for VA's 
orthotic fitters and serving as a feeder program for newly trained 
clinicians.

                                BENEFITS

    Question 8. VBA's Claims Transformation Plan focuses on people, 
processes, and technology. What are the projected gains in production, 
timeliness and quality anticipated by the various components of the 
Claims Transformation Plan? Please provide the data source, summary of 
the data, and analysis for projected gains in production, timeliness 
and quality.
    Response. VBA's Transformation Plan is a people-centric, results-
driven, forward-looking integration of solutions that will ensure total 
lifelong engagement with Veterans, Servicemembers, their families and 
survivors. Consisting of more than 40 People, Process and Technology 
initiatives that are in various stages of implementation the goals of 
the Plan are to:

    <bullet> improve claims production 45 to 60 percent, reducing the 
claims completion period to within 125 days in 2015
    <bullet> enhance quality and accuracy by 14 percent to achieve a 
claims quality of 98 percent in 2015
Performance Gains by Initiative Category (Projected for FY 2012--FY 
        2015)
    People: changing how we're organized and trained to do the work

    <bullet> Productivity Gain: 15-20 percent
    <bullet> Quality Gain: +4 percent
    <bullet> Gains by People Program:

         - Intake Processing Centers (IPC): for quick, accurate triage; 
        Combined with cross functional teams, potential to save 39 days
         - Segmented Lanes: cross-trained raters co-located to increase 
        knowledge transfer, speed, and accuracy; Combined with IPC, 
        potential to save 39 days)
         - Challenge Training: Trainees process 1.3 disability claims 
        per day at 98% accuracy

    Processes: making improvements that result in quality and 
timeliness gains

    <bullet> Productivity Gain: 15-20 percent
    <bullet> Quality Gain: +4 percent
    <bullet> Gains by Process Program:

         - Simplified Notification Letter (SNL): potential 20% national 
        gain in productivity could equal 250 thousand more rating cases 
        per year
         - Electronic Disability Benefits Questionnaires (DBQ): 
        increases capability to submit Fully Developed Claims (FDC) and 
        reduce average days to complete

    Technology: acquiring and refining systems that enable us to do our 
jobs better

    <bullet> Productivity Gain: 15-20 percent
    <bullet> Quality Gain: +6 percent
    <bullet> Gains by Technology Program:

         - Veterans Benefits Management System: Improves productivity 
        by 15-20 percent; increases quality by 6 percent
         - Veterans Relationship Management: Reduces Veterans' calls by 
        25 percent and increases client satisfaction by utilizing the 
        Internet for status inquiries and expanding availability of 
        self-service functions.

    The predicted gains in productivity and quality are estimates based 
on existing information and projections developed by field experts. The 
Plan is built on a data-driven approach focusing on performance 
management and the use of key metrics to enable business decisions that 
improve claims processing quality and timeliness and assure 
Transformation performance.
    VBA's Transformation Plan is executed by the Implementation Center 
in VA Central Office--a program management office with dedicated 
resources to oversee the implementation of the Transformation Plan 
using a governance process to achieve standardization and 
sustainability. The Implementation Center has developed performance 
measures that will track the impact of the Plan's more than 40 
initiatives.
    We have already begun the rollout of transformation initiatives. In 
February 2012, we began the deployment of the Simplified Notification 
Letter (SNL) initiative, a new claims processing initiative that will 
significantly increase decision output (150,000 to 200,000 more 
decisions per year). The new decision notification process will also 
streamline and standardize the communication of claims decisions. 
Veterans will receive one simplified notification letter in which the 
substance of the decision, including a summary of the evidence 
considered and the reason for the decision, are all rendered in a 
single document. Testing of this initiative at the St. Paul Regional 
Office resulted in productivity increases of 31 percent, while 
sustaining a 90-percent accuracy rate, and reductions of 14 days in 
average processing time.
    We are also transforming our local quality assurance process, 
establishing dedicated teams of quality review specialists at each 
regional office. These teams will evaluate decision accuracy at both 
the regional office and individual employee levels, and perform in-
process reviews to identify and eliminate errors at the earliest 
possible stage in the claims process. The quality review teams are 
comprised of personnel trained by our national quality assurance 
(Statistical Technical Accuracy Review or ``STAR'') staff to assure 
local reviews are consistently conducted according to national 
standards. An initial focus of these teams is to reduce medical 
examination errors, which currently represent 36 percent of our benefit 
entitlement quality errors. In addition to quality improvements, the 
need for reexaminations will be minimized, thereby reducing claims 
processing time in 39-day increments for every reexamination avoided.

    Question 9. VBA is relying heavily on IT and specifically the 
Veterans Benefits Management System (VBMS) in order to transform the 
claims processing system. VA's FY 2013 Budget Submission notes that VA 
will begin a nationwide deployment strategy for the Veterans Benefits 
Management System in 2012. Please provide:

    a. The deployment strategy, plan and timeline;
    Response. VBMS national deployment begins in selected regional 
offices in July 2012 and will follow a prescribed schedule which will 
be integrated with VBA's Transformation Plan. By the end of fiscal year 
2012, 16 regional offices will be using VBMS. National deployment is 
scheduled to be completed by the end of calendar year 2013.

    b. The number and type of claims processed to date using VBMS;
    Response. The first two phases of VBMS have been deployed to the 
Providence Regional Office and the Salt Lake City Regional Office. 
Phase 1 was the initial VBMS prototype. Phase 2 added functionality and 
scale, both of which will continue to increase throughout FY 2012. As 
of February 16, 2012, VBMS processed to completion 443 of 908 
disability compensation claims (49 percent). VBMS is being used to 
process most original disability compensation claims in Providence and 
Salt Lake. Any supplemental claims received on cases previously 
processed in VBMS will also be processed in VBMS.

    c. The average time to complete, accuracy rate and number of 
appeals filed for claims processed using VBMS.
    Response. As of February 16, 2012, the average time to complete a 
claim in VBMS was 131 days. Claims processed using VBMS are being 
reviewed for accuracy by VBA's national quality review staff, 
Systematic Technical Accuracy Review (STAR), in the same manner as all 
other claims. VBA recently instituted a special STAR review of claims 
processed in VBMS to confirm the validity of the calculator 
functionality in VBMS. VBA will be conducting training for the review, 
and the accuracy rate specific to VBMS claims will be available upon 
completion of training. Ten claims processed in VBMS are under appeal.

    Question 10. Employee training has to be one of the major 
components of improving the timeliness and accuracy of claims 
decisions. Please provide a detailed breakdown of the type of training 
being provided to Compensation Service and Pension and Fiduciary 
Service employees. What is provided in the FY 2013 budget for training 
Compensation Service and Pension and Fiduciary Service employees?
    Response. Compensation Service has developed a comprehensive 
national training program for claims processors consisting of 
standardized training modules for all phases of claims processing and 
levels of experience. The 2012 National Training Plan for claims 
processors at the intermediate and journeyman experience levels was 
released in November 2011.
    The Compensation Service requires that each claims processor 
participate in a minimum of 80 hours of training. For intermediate and 
journeyman level employees, 40 of these hours cover mandatory topics 
that provide new guidance to the field and address national quality 
issues. The remaining 40 hours consist of 20 hours of technical-
training electives that address local quality issues and 20 hours of 
station-determined topics that include courses required of all VA 
employees. All training must use nationally approved lesson materials 
developed by the Compensation and Pension Service and must be 
documented in VA's Talent Management System (TMS).
    Entry-level claims processors undergo a robust training program 
consisting of three to four weeks of training on basic claims-
processing skills at the employees' home stations, followed by four to 
eight weeks of centralized training with a concentration on practical 
knowledge application. Veterans Service Representatives (VSRs) 
participate in a four-week centralized training program to learn to 
develop or promulgate claims, and Rating VSRs (RVSRs) participate in an 
eight-week centralized training program to learn to make decisions on 
claims, including how to weigh evidence. All students, regardless of 
the curriculum, process actual cases under the guidance of experienced 
instructors and mentors during this centralized training. Cases are 
reviewed by several subject matter experts to ensure the cases are 
processed correctly and the students are provided with any necessary 
follow-up training and feedback. Our redesigned and expanded 8-week 
centralized Challenge Training Program for new claims processors has 
achieved dramatic results. On completion of the training, employees 
work significantly faster and at a higher quality level. Trainees from 
the most recent class averaged 1.33 cases per day with 98 percent 
accuracy, compared to the legacy Challenge curriculum, following which 
trainees averaged one-half case per day and 60 percent accuracy. 
Compensation Service also provides training to claims processors of all 
levels through ``Live Meetings'' on emerging topics and initiatives and 
web-based training. The Compensation Service also deploys Training 
Assistance Teams to field offices to provide on-site training 
specifically geared toward improving decision accuracy at that office.
    Pension employees are required to complete 85 hours of training 
annually through the National Training Curriculum, which includes: 40 
hours of mandatory technical training; 20 hours of specific technical 
training identified through local quality reviews; 20 hours of 
developmental training; and five hours of VA mandated training (e.g., 
Privacy Awareness, Ethics).
    New fiduciary employees are provided initial training that consists 
of two weeks of instructor-led training and followed by on-the-job 
training with an experienced field examiner. New field examiners must 
complete computer-based training through the Training and Performance 
Support System (TPSS). Additionally, Pension and Fiduciary Service has 
developed a three-week centralized training for all fiduciary 
personnel. This training is supplemented by VA-mandated training.
    We anticipate that this improved training, consistency of delivery, 
and progression of employees to journey status will increase accuracy 
and productivity beginning in FY 2013.
    The FY 2013 budget request supports centralized training for over 
1,000 Compensation, Pension, and Fiduciary employees.

    Question 11. How many FTE were supported by FY 2011 and FY 2012 
funding for the compensation and pension quality assurance program? How 
many FTE will be supported in the FY 2013 budget request for the 
compensation and pension quality assurance program? How many 
compensation and pension decisions were reviewed during each of the 
past two fiscal years?
    Response. In FY 2011, 61 FTE supported Compensation and Pension 
(C&P) Service until the Pension and Fiduciary (P&F) Service was 
established in April 2011. At that point, 54 FTE remained on the 
Compensation Service's Quality Assurance Staff, while seven FTE were 
transferred to P&F Service's Quality, Training, and Site Visit Staff to 
conduct quality reviews. Currently, 59 FTE support Compensation 
Service's Quality Assurance Program, and we expect no changes in this 
staffing for FY 2013. Seven FTE currently support P&F Service's quality 
reviews, and this staff will increase to eight FTE in FY 2013.
    In FY 2010 and FY 2011, respectively, 32,311 and 38,001 
compensation claims were reviewed. In FY 2010, 1,529 pension claims and 
4,424 fiduciary claims were reviewed, while in FY 2011, 1,510 pension 
claims and 4,047 fiduciary claims were reviewed. As oversight of 
fiduciary activities is consolidated from 56 regional offices to six 
hub sites this year, P&F Service will review staffing requirements and 
sample sizes for quality reviews.

    Question 12. Does the FY 2013 budget request for Vocational 
Rehabilitation and Education take into account any of the proposed 
effects that the ongoing business process re-engineering will have on 
staff time or the efficiency of operations?
    Response. Vocational Rehabilitation and Employment (VR&E) Service 
anticipates a need for additional field staff, which is reflected in 
the fiscal year 2013 budget request. VR&E Service expects continued 
workload increases of ten percent or higher due to the growth in 
disability compensation and pension claims, including claims for the 
additional Agent Orange presumptive conditions. This increase in 
workload is also due to the increased outreach that will be conducted 
by the requested 110 staff who will be housed at the Integrated 
Disability Evaluation System sites, and to the expanded entitlement for 
certain Veterans under the recently enacted VOW to Hire Heroes Act.

                         JOINT VA/DOD PROGRAMS

    Question 13. Please provide the cost--for both the current and next 
fiscal year--of disability examination contracts to support the 
Integrated Disability Evaluation System. Provide the costs to VBA and 
VHA separately.
    Response. The Veterans Health Administration Disability Examination 
Management Contract (DEM) contract is a national Indefinite Delivery/
Indefinite Quantity (ID/IQ) contract that has a minimum obligation of 
$100,000 per each of the five awarded vendors over the life of the 
contract. The base year began in FY 2011 and extends into four option 
years. The contract is centrally managed by the Office of Disability 
and Medical Assessment (DMA) with contracting officers assigned from 
the Denver Acquisition and Logistics Center. The contract is executed 
and funded through VAMCs' medical service budget. The contract allows 
them to request disability exam services in support of their disability 
exam programs, as needed; to include the Integrated Disability 
Evaluation System (IDES). The contract resources can be used by VAMCs 
to support backlogs or surges in demand for disability examination 
requests. For FY 2011, a total of $500,000 was obligated and in FY 
2012, $800,000 has been obligated. No funds will be obligated from FY 
2013 and beyond. All funds will have to come from the local VAMC's 
budget if it elects to use the contract. As of January 2012, no 
contract exams have been completed in support of IDES.
    VBA's Quality, Timeliness, and Customer (QTC) Medical Services, 
Inc., contract has generated 4,649 compensation and pension exams for 
the IDES program through the first quarter of FY 2012 at a cost of $5.5 
million. VBA estimates that the total cost of IDES exams completed by 
QTC in FY 2012 will be approximately $22.3 million. The estimated cost 
for all IDES exams to be completed in FY 2013 is $23 million.

    Question 14. Please describe the systems in place to monitor the 
quality of VHA and contract exams and rating decisions conducted as 
part of the Integrated Disability Evaluation System.
    Response. IDES ratings, both preliminary and final ratings, are 
subject to the same quality assurance process as all ratings prepared 
by VBA. This process, called Systematic Technical Accuracy Review 
(STAR), utilizes a random sample of claims to assess claims processing 
accuracy. Claim reviews conducted at VA regional offices that serve as 
IDES Rating Activity Sites (D-RAS) include a sample of IDES ratings. 
STAR reviews ten cases monthly from each of three IDES sites 
(Providence, Seattle, and Baltimore) and is required to complete the 
reviews within five days of receipt. IDES decision documents are held 
to the same standard as any other rating and reviewed using the same 
criteria.
    The VBA medical examination contract specifies that there will be a 
quarterly quality review. This quality review determines whether the 
contractor has met the standard or acceptable level of performance 
(ALP) required by VBA. The contract requires that the completed 
examination reports meet VA's Compensation Service worksheet 
requirements so that Rating Veterans Service Representatives may use 
these reports to complete rating decisions. An ALP of no less than 92% 
quality must be met. The VBA Medical Director for Contract Exams and 
Compensation Service's rating experts perform these quarterly quality 
reviews.
    Every quarter, 148 examinations are randomly selected from 
completed examinations. The compensation worksheets are used to 
evaluate all exam reports. Since each contractor-completed report is 
considered a ``product'' that is paid for by the government, it must be 
measured against the requirements of the specific worksheet that was 
requested by the VA regional office.
    As noted above, VHA has not contracted out any IDES exams. However, 
if VHA facilities were to contract out IDES examinations, each local 
individual health care facility that uses contracted resources is 
responsible for 100% review of those examinations that have been 
performed by contracted examiners. Moreover, disability examination 
requests and associated completed examinations managed by the VAMCs are 
randomly sampled and reviewed against seven specific examination 
request indicators and nine examination criteria by DMA Quality 
Assurance staff. VHA does not monitor the quality of any VBA contract 
exams including IDES.

    Question 15. What are the resource demands that are envisioned as a 
result of the mandatory participation of servicemembers in the 
Transition Assistance Program?
    Response. The VOW to Hire Heroes Act of 2011 requires VA to provide 
the TAP briefings to all separating Servicemembers. VBA currently has 
258 FTE providing transition assistance briefings. VA is working with 
the Department of Defense (DOD) to determine the number of 
installations, number of separating Servicemembers, and methodology for 
service delivery.

    Question 16. The FY 2013 budget request identified that VA 
facilities have over $9 billion in facility condition assessment-
documented deficiencies. Over the last three years, VA's budget 
requests for non-recurring maintenance have continued to decrease while 
the operating costs per square foot have continued to rise. Given the 
realities of aging infrastructure, tight budgets, and projected 
utilization increases, what has VA done to mitigate the risks of not 
making solid investments in addressing basic facility maintenance 
issues?
    Response. VA ensures infrastructure needs are being addressed with 
the safety and security of our Veterans and employees as our guiding 
principle, resulting in obligations of $2.15B in FY 2010 and $1.98B in 
FY 11.
    The non-recurring maintenance (NRM) discussion is important to be 
viewed within the Department's overall efforts to plan for 
infrastructure needs. Developed first in the FY 2012 budget process, 
the Strategic Capital Investment Planning (SCIP) process is a VA-wide 
planning tool VA uses to evaluate and prioritize its capital 
infrastructure needs for the current Budget cycle and for future years. 
SCIP quantifies the infrastructure gaps that must be addressed for VA 
to meet its long-term strategic capital targets, including providing 
access to Veterans, ensuring the safety and security of Veterans and 
our employees, and leveraging current physical resources to benefit 
Veterans.
    VA infrastructure funding requirements will continue to be balanced 
against other Department and National priorities. SCIP continues to be 
a critical and viable data-driven process that identifies all current 
and future gaps in safety, security, access, utilization and other 
related areas that most affect the delivery of benefits and services to 
Veterans. SCIP then evaluates the means, including specific projects 
(major, minor, non-recurring maintenance, leasing, or non-capital) to 
efficiently mitigate these gaps. SCIP continues to be a realistic 
blueprint in that it details a comprehensive methodology to mitigate 
all currently-identified capital needs. In a tight fiscal climate, this 
blueprint is an essential tool both this year and into the future, as 
SCIP projects are prioritized each year to ensure that only the highest 
priority projects are included in VA's annual budget request.
    VA will continue to update this plan in order to capture changes in 
the environment, including evolving Veteran demographics, newly-
emerging medical technology, advances in modern health care delivery 
and construction technology, and increased use of non-capital means 
(when appropriate) in a continuous effort to better serve Veterans, 
their families, and their survivors.
    VA is also looking at alternative strategies to traditional capital 
approaches to meet our overall needs including the use of:

    <bullet> Tele-medicine
    <bullet> Extended hours for the provision of services on site
    <bullet> Mobile clinics
    <bullet> Care from private sources through contracts or on a fee-
basis
    <bullet> Continuous demographic data validation
    <bullet> Non-construction/capital alternatives

    Question 17. In the FY 2012 budget request, VA identified $18.5 
million in savings through the Real Property Cost Savings and 
Innovation Plan via repurposing assets, demolition and mothballing, 
green improvements, increasing telework, and renegotiating GSA Leases. 
How much has been saved so far, per category? Is VA on track to achieve 
the anticipated level of savings in each category?
    Response. The $18.5 million in savings, identified in the FY 2012 
budget, was a portion of the overall Real Property Cost Savings and 
Innovation Plan that totaled $66 million in VHA savings. The lower 
$18.5 million was intended to be the Medical Facilities portion of the 
overall savings; however, VA has since updated this cost savings plan 
to better account for the savings related to VHA.
    In the recently released FY 2013 budget the updated initiatives 
that are part of the Real Property Cost Savings and Innovation Plan 
have been described, including repurposing assets, demolitions and 
mothballing, energy and sustainability, improved non-recurring 
maintenance contracting, and reduction in leasing. The total savings 
for VHA remain at $66 million; however, it is all classified as Medical 
Facilities savings now.
    The below table provides a status of the savings achieved through 
Q1 FY 2012 for each of the initiatives that make up the $66 million VHA 
savings target. VA has saved approximately $48 million of the total $66 
million projected VHA savings through Q1 FY 2012. We are on target to 
meet the full VHA savings target by end of FY 2012.


------------------------------------------------------------------------
                                                  Total
                                                Estimated      Savings
           Cost Savings Initiative             VHA Savings    Achieved
                                               (by end of    (through Q1
                                                FY 2012)      FY 2012)
------------------------------------------------------------------------
1. Energy Savings and Sustainability........      $43 M        $36 M
2. Repurpose Underutilized Assets...........       $6 M         $3 M
3. Demolition or Mothballing................       $3 M         $1 M
4. Improved Non-Recurring Maintenance              $8 M         $2 M
 Contracting................................
5. Reduction in Leasing.....................       $6 M         $6 M
                                             ---------------------------
  Total.....................................      $66 M        $48 M
------------------------------------------------------------------------

                             WOMEN VETERANS

    Question 18. A 2010 GAO report identified a number of improvements 
that should be made to enhance VA services to women veterans. Included 
among these recommendations were facility improvements. Last year, VA 
provided a list of improvements that they intended to make over the 
course of ten years. Please provide an update on how much was spent, to 
date, in FY 2012 on these projects. Please also provide a list of 
remaining projects, their costs, and amount requested in the FY 2013 
budget to address these projects.
    Response. New space and renovations for privacy and women's health 
are critical elements in the prioritization process for our 
construction programs, with privacy ranking in the top criteria under 
safety and women's health ranking in the second highest criteria under 
Secretarial priorities. As can be seen in the attached spreadsheet, a 
significant amount of funding has been and continues to be targeted 
toward privacy and women's health projects. In fact, for VHA's FY 2011 
construction programs, privacy and women's health supported over 1/3 of 
the available NRM and Minor funding ($884 million out of a total of 
$2.5 billion); and privacy and women's health represents almost 60% of 
the planned projects with the appropriated and requested FY 2012 and FY 
2013 budgets ($1.5 billion out of $2.51 billion). (see attached 
spreadsheet)

                         INFORMATION TECHNOLOGY

Virtual Lifetime Electronic Record (VLER)
    Question 19. Tables 10 and 20 of the Virtual Lifetime Electronic 
Record Capability Area 1, Concept of Operations v. 2.0 (CONOPS), dated 
April 8, 2011, and signed by the VA Deputy Secretary in August 2011, 
detail the Go/No Go Criteria and Threshold Measures for nationwide 
rollout of VLER.
    a. Is the JEC still scheduled to make a Go/No Go decision in 
July 2012?
    Response. Yes.

    b. Based upon the criteria set forth in tables 10 and 20, is VLER 
on track for a Go recommendation by the Department?
    Response. We are working toward a ``go'' recommendation. Though 
some criteria are already met, data is still being collected for other 
criteria in anticipation of making the decision.
    c. If VLER is on track for a Go recommendation, please detail the 
Department's analysis in support of this determination, and if VLER is 
not on track for a Go recommendation, please detail the criteria 
currently not satisfied and any corrective action(s) necessary to 
achieve readiness for a July 2012 Go recommendation by the Department.
    Response. Data will be collected through at least March 31, 2012. 
VLER Health information exchanges have been successfully deployed at 12 
pilot sites nationwide and are in production use. As of Feb 14, 2012, 
41,006 Veterans have provided authorization to participate in health 
data record exchange through the Nationwide Health Information Network 
(NwHIN). A total of 494 electronic health summaries have been retrieved 
by an NwHIN private partner from VA supporting the ``treatment'' 
purpose of use and 982 electronic health summaries have been retrieved 
by VA from an NwHIN private partner supporting the ``treatment'' 
purpose of use. System performance is being monitored. Surveys of 
Veterans and clinical users about their perception of VLER Health are 
pending. Scalability issues that may impact the timeline and VLER 
Health geographic deployment such NwHIN system capacity, automated 
interoperability testing for new private sector health information 
exchange partners, the availability of successful identity matching 
traits, and automated Veteran authorization processes are still being 
addressed by VA, the NwHIN Exchange and the HHS Office of the National 
Coordinator for Health IT (ONC). The deployment of an ``NwHIN Direct'' 
project (secure one-way email) is being removed as Go/No Go criterion 
for VLER Health as the decision should only address the NwHIN Exchange 
bi-directional exchange capabilities. Final Go/No Go criteria reports 
will not be available until the conclusion of the Performance and 
Measurement and Analysis period, June 11, 2012.

    Question 20. Please describe the organizational structure, and 
governance and programmatic hierarchies, for the development, 
implementation, and rollout of the VLER functional capabilities other 
than health, e.g., personnel and military history and benefits; and 
delineate the area(s) of responsibility for which VA, DOD and the VA/
DOD Interagency Program Office (IPO) is each responsible.
    Response. The VA/DOD Joint Executive Council (JEC), Benefits 
Executive Council (BEC), and Benefits Information Sharing/Information 
Technology Working Group (BEC IS/IT) provide the structure and 
governance for decisionmaking and prioritization of non-health 
(benefit) functional capabilities (e.g., Disability Claims 
Adjudication). The BEC IS/IT is responsible to jointly develop use 
cases and benefit requirements. It recommends priorities, objectives 
and metrics to the BEC, who forwards to the JEC for approval. Once 
approved, and documented in the VA/DOD Joint Strategic Plan, the 
Departments proceed to execute and implement material and non-material 
solutions.
    The BEC IS/IT meets frequently to review and monitor progress to 
ensure delivery of capabilities as jointly planned. Issues are 
escalated to the BEC when required. Generally, the IPO only 
participates in benefits related capability discussions when health 
data is required to adjudicate a claim.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Integrated Electronic Health Record (iEHR)
    Question 21. VLER CONOPS, dated April 8, 2011, identifies as a risk 
and issue:

    Synchronization: iEHR, VLER, and other interagency data exchange 
efforts are not synchronized. DOD and VA senior leadership must 
establish appropriate authoritative governance and programmatic 
infrastructure.
    According to the meeting minutes from the SECDEF/SECVA meeting held 
on June 23, 2011: ``[t]o ensure the synchronization of iEHR and VLER 
initiatives, both efforts will be managed by the iEHR Program 
Executive.''
    a. Please define synchronization as used in CONOPS and the SECDEF/
SECVA meeting minutes, and as applied to the iEHR and VLER initiatives.
    Response. Per the Interagency Program Office (IPO) Charter, 
``synchronization'' can be defined per the following:

        ``* * * Derived Authorities from the Departments. To ensure the 
        IPO fulfills its purpose and mission, the Secretary of Defense 
        and the Secretary of Veterans Affairs, respectively, delegate 
        to the Director of the IPO, their authorities to:

          i. Acquire, develop, and implement-to include financial 
        management, and information technology (IT) systems acquisition 
        and development-all common DOD/VA EHR and VLER Health systems, 
        capabilities, and initiatives, as defined by the iEHR and VLER 
        enterprise architectures.
          ii. In collaboration with the HEC and BEC, collect and 
        integrate the Departments' EHR and VLER Health functional 
        requirements into program roadmap(s)/integrated master 
        schedule.
          iii. Develop and propose the interagency budget and 
        acquisition strategies to meet integrated interagency 
        requirements.
          iv. Direct the Departments' personnel resources supporting 
        related interagency initiatives.''

    b. Has such synchronization between the initiatives been achieved? 
If not, detail the steps taken, to date, to achieve synchronization.
    Response. ``Synchronization,'' per the charter above, is still 
being implemented at the IPO. IPO Advisory Board, Leadership, Program 
Management and project progress meetings are attended by VLER Health 
and iEHR Program Managers and the IPO Technology Director. All have 
offices at the IPO and have begun coordination on all levels of program 
implementation to ensure progress and coordination on strategies, 
planning, and program management activities. At least one IPO technical 
office, Standards and Interoperability, is already equally supporting 
iEHR and VLER Health with the same leadership staff and using the same 
methodologies.

    c. What remaining challenges must be overcome before full 
synchronization is achieved?
    Response. Full synchronization can be achieved when both the 
Departments and the IPO move forward with a comprehensive 
implementation scope for both iEHR and VLER Health. iEHR planning 
documents described in response to question 24 in this document are not 
completed and the decision to implement VLER health nationally has not 
yet been made. The Departments have made significant progress in 
overcoming previous challenges by enhancing IPO's staffing levels and 
signing a new IPO charter.

    d. Has synchronization been impacted by the delay in hiring a 
permanent Program Executive? If so, detail the steps taken to mitigate 
this impact.
    Response. No. VA executive sponsors for the iEHR, VLER and the IPO 
and highly engaged IPO interim leadership appointed experienced senior 
program staff in 2011 to begin work toward synchronizing this work in 
the IPO.

    Question 22. Please describe how investments made in VLER will be 
leveraged during development and implementation of the iEHR. For 
example, detail how investments in VLER data-sharing capabilities of 
foundational health care data and architecture can and will be 
incorporated into the iEHR.
    Response. The Virtual Lifetime Electronic Record (VLER) enables the 
sharing of comprehensive health, benefits, and administrative data 
between the Departments of Defense (DOD) and Veterans Affairs (VA) from 
the time an individual enters the service until the final benefit is 
administered. In addition, VLER supports sharing of health data with 
private healthcare providers through the Nationwide Health Information 
Network (NwHIN). This comprehensive health data will be foundational to 
the integrated Electronic Health Record (iEHR) effort which seeks to 
develop and implement shared electronic record (EHR) capabilities in 
the Departments. The combination of the comprehensive patient health 
data from VA, DOD and private healthcare partners through VLER and the 
state-of-the-art EHR tools through iEHR will enable providers at both 
Departments to deliver the highest quality of healthcare to 
Servicemembers and Veterans.

    Question 23. Please report on the status of the ``budget quality'' 
implementation plan and the iEHR Independent Cost Estimate. For each 
document:

    a. Has the document gone through concurrence and received all 
necessary approvals?
    b. If available, please provide a copy of the document.
    c. If the document has not yet received final approval, please 
provide an expected approval date.

    Response: Effective October 27, 2011, based on the re-chartering of 
the IPO, DOD and VA initiated activity to establish a joint program 
baseline for the iEHR. As a result, the iEHR program is developing 
documentation that will contain sufficient program and technical 
information for independent cost activity to be completed. This 
documentation will be available by the end of the fourth quarter FY 
2012.

    Question 24. Provide a copy of the iEHR Project Plans and any 
related documents (artifacts) including but not limited to: the iEHR 
Strategic Plan, Concept of Operations, Program Management Plan, Joint 
Master Test Plan, Joint Integrated Master Schedule, Joint Evaluation 
Plan for Success, Joint Business and Technical Requirements, Risk & 
Issues Management Plan, Communications Plan, Change Management Plan, 
and Quality Management Plan.
    Response. The iEHR program is in the Planning State. As part of its 
focused effort to establish Program Management discipline and 
standards, the content of the Program Plans and related documents 
(artifacts) noted in this Question For the Record (QFR) will be 
contained in program documentation currently in development. As program 
documentation becomes available, we commit to sharing final versions 
with the Committee. The iEHR FY 2012 Execution Plan and Program 
Management Plan are in development. These documents will serve as a 
basis for the iEHR organizational Concept of Operations.

                       ACQUISITION & CONTRACTING

    Question 25. The President's FY 2012 Budget Submission for VHA, at 
page 1A-4, estimated $355 million in operational improvements and 
savings from ``acquisition improvements.''
    a. Please identify, by business line, whether such operational 
improvements and savings are on track to be realized during FY12.
    Response. In its FY 2012 budget submission, VA identified $1.2 
billion in operational improvements, of which $355 million was 
identified as savings resulting from acquisition improvements. 
Individual VISN targets were set as a percentage of FY 2008 spend. 
Initial FY 2012 roll-out included initiatives carried over from the 
OMB-mandated FY10-11 Acquisition Savings program (OMB Memorandum M-09-
25, Improving Government Acquisition, July 29, 2009). VHA is currently 
collecting savings data under these initiatives as appropriate.
    Concurrently, VHA convened an interdisciplinary Tiger Team in late 
Q1 of FY 2012 to review and revise the VHA-specific acquisition savings 
initiatives based, in part, on input received from the Government 
Accountability Office (GAO) and the Office of Inspector General (OIG). 
That group was chartered with providing recommendations to improve the 
program. Specifically, the group has been charged with proactively 
addressing anticipated issues from reviews; providing more rigorous 
definitions, methodology, documentation, review/internal auditing for 
the program; identifying new initiatives; identifying other savings/
avoidance areas not previously captured; removing any carry-over 
initiatives that risk double counting with other operational 
improvement initiatives; and consolidating initiatives as necessary to 
ensure more rigorous methodology. The team recommendations are 
anticipated for delivery on or about March 1.
Savings by Service Line
    In preliminary analysis, VA has identified initial FY 2012 savings 
goals for initiatives as identified in the FY 2010-2011 OMB program.


------------------------------------------------------------------------
 OMB Initiative    VA Initiative Number     Expected 2012    Percentage
    Grouping            and Title          Savings (Goal)      of Goal
------------------------------------------------------------------------
                26--Reduce VHA             $10,000,000        2.82%
                 Contracts
                14--Increase                 5,000,000        1.41
                 Competition VHA
                15--Bring Back              10,000,000        2.82
                 Contracts--COE
                13--Consolidated           192,000,000       54.08
                 Contracting
                24--Reverse Auctions        40,000,000       11.27
                 Utilities
                25--Med/PDB                  2,000,000        0.56
                27--Property                20,000,000        5.63
                 Reutilization
                28--Prime Vendor             1,000,000        0.28
                50--Increase                75,000,000       21.13
                 Negotiation
                                       ---------------------------------
                    Total VA              $355,000,000      100.00%
                 Acquisition Savings
------------------------------------------------------------------------


    These savings percentages are considered estimates and will be 
revised as necessary. This initiative list does not include any new 
initiatives or reporting entities that have been identified as part of 
the Tiger Team's review. It is important to note that to ensure that 
VISNs have maximum flexibility to achieve goals, yearly savings goals 
will be Network-based as opposed to initiative-based. Networks will be 
permitted to identify the savings mechanisms/initiatives that best suit 
their needs.

    b. If VHA will not fully achieve such improvements and savings 
during FY 2012, please explain why.
    Response. At this time, VHA anticipates meeting the $355 million FY 
2012 goal. As of the January report, VHA stood at 7.2% of annual goal. 
Upon the adoption of the Tiger Team recommendations, VHA will revise 
its monthly reports to include previously unreported initiatives and 
reporting offices. Additionally, some reporting mechanisms for current 
initiatives provide quarterly reports on or after the 15th of the month 
following the end of the Quarter. VHA anticipates that these unreported 
initiatives and offices as well as increased reports from existing 
initiatives will provide an increased accounting of YTD savings 
achieved.

     DISCHARGE CHARACTERIZATIONS AND VA BENEFITS AND OTHER POLICIES

    Question 26. According to recent reports, certain Veterans 
discharged for homosexual conduct pre-Don't Ask Don't Tell (DADT) or 
under DADT continue to be adversely impacted by their discharge 
characterization. In some instances, LGBT veterans have been denied 
access to VA benefits because of their discharge characterization.
    With the repeal of DADT, and the adoption of a new regulatory 
framework allowing open service, veterans discharged under DADT and 
pre-DADT for homosexual conduct may now be eligible for discharge 
upgrades and restoration of VA benefits. Please describe:
    a. The steps taken by VA to evaluate the number of veterans who 
were and continue to be denied VA benefits because of an adverse 
discharge characterization under DADT or based upon the pre-DADT 
regulatory scheme.
    b. The steps taken or that will be taken by the Department to 
ensure full restoration of VA benefits to those veterans who would 
otherwise be eligible but for their adverse discharge characterization 
under DADT or based upon the pre-DADT regulatory scheme.
    Response. When an individual files a claim for benefits, the 
Veterans Benefits Administration (VBA) is responsible for reviewing the 
character of discharge (COD) provided by the military services. An 
``Honorable'' discharge is binding on the Department of Veterans 
Affairs (VA). Under 38 U.S.C. 5303, a discharge under certain specified 
conditions bars eligibility for VA benefits, regardless of the COD, 
unless it is determined that the individual was insane when committing 
the acts that resulted in the discharge (see 38 CFR 3.354(b)).
    In other cases, if the COD is an undesirable discharge, an other 
than honorable discharge, or a bad conduct discharge, VBA makes a 
determination whether the discharge was under dishonorable conditions 
for the purpose of determining benefit eligibility. When making that 
determination, VA is bound by the criteria stated in 38 CFR 3.12(d). 
Those criteria do not indicate, nor have they in the past, that VA may 
find a Veteran ineligible for benefits based on violation of the Don't 
Ask Don't Tell (DADT) policy. Because it is not VA policy to terminate 
or deny benefits based on violation of DADT, there would be no need to 
review cases for these actions.
    As stated in 38 CFR 3.12(d)(5), a discharge may be considered to 
have been issued under dishonorable conditions if the reason for 
discharge was based on: ``Homosexual acts involving aggravating 
circumstances or other factors affecting the performance of duty. 
Examples of homosexual acts involving aggravating circumstances or 
other factors affecting the performance of duty include child 
molestation, homosexual prostitution, homosexual acts or conduct 
accompanied by assault or coercion, and homosexual acts or conduct 
taking place between servicemembers of disparate rank, grade, or status 
when a servicemember has taken advantage of his or her superior rank, 
grade, or status.'' This criterion does not apply to or address DADT.
    If a Veteran received a ``Dishonorable'' discharge from his or her 
branch of service based on DADT, the individual would need to apply to 
that service department requesting an upgraded discharge.
    When VA notifies a claimant of an unfavorable COD determination, 
the notification letter includes instructions on how to apply to the 
Service Department Discharge Review Board to change the character of a 
discharge and how to apply for a correction of military records through 
the Service Department Board for Correction of Military Records. 
Enclosed with the letter is a copy of the DD Form 293, Application for 
the Review of Discharge or Dismissal from the Armed Forces of the 
United States, and a copy of the DD Form 149, Application for 
Correction of Military Records. The addresses for the Service 
Departments are listed on the back of each form.

    Question 27. The Department has taken preliminary steps to ensure 
that VA is a welcoming place for LGBT veterans and their families. 
Please describe in detail the steps taken, and that will be taken, by 
the Department to ensure that VA is a welcoming place for LGBT veterans 
and their families.
    Response. VA is taking steps to ensure that its health care system 
is more inclusive through the creation of an Office of Health Equity, 
visitation policies, and new training programs. The Department's 
recently established Office of Health Equity (OHE) brings focus on its 
efforts to provide a more equitable health care system and improve 
overall quality of care through health equity. Among many other 
projects, OHE will work to eliminate health treatment disparities among 
LGBT, women, and minority Veterans. Over the next year, OHE will 
implement an integrative action plan to achieve health equity for all 
Veterans receiving VA health care services, including LGBT Veterans. 
VA's visitation policies are supportive of the rights of Veterans' 
same-sex partners, and the right of Veterans to name same-sex partners 
as their surrogate decisionmakers. To reinforce the Department's focus 
and commitment to equitable visitation rights and the appropriate 
implementation of this policy, the Veterans Health Administration's 
(VHA) Deputy Under Secretary for Health Operations and Management 
required all of VA's network directors and chief medical officers to 
ensure all facilities have a written policy in place and that these 
policies are consistent with the new Joint Commission definition of 
``family.'' The Joint Commission defines ``family'' as a person or 
persons who play a significant role in an individual's life. VA is also 
developing training programs targeted to mental health and women's 
health providers on services for transgender Veterans. The goals of 
these programs are to increase awareness of the psychological and 
emotional needs of transgender Veterans and address the needs of 
different groups of clinical providers.
    In terms of benefits, VA awards benefits to all eligible Veterans 
and does not discriminate on the basis of sexual orientation.
    VA has also created a more inclusive workplace for its LGBT 
employees through enhanced policy initiatives, training programs, and 
outreach and awareness activities.

    <bullet> The Department added gender identity and parental status 
to the list of protected bases in the Secretary's Policy Statement. The 
Department also implemented an internal complaint process to provide 
formal redress for complaints based on sexual orientation. Most 
recently, VA's Diversity Council launched a LGBT work group to address 
emerging LGBT issues in the Department's workforce and service 
delivery. In addition, VA is adding a survey item in its Voice of VA 
Survey to assess perceptions of fairness and treatment of LGBT 
employees.
    <bullet> In terms of training, the Department has conducted 
training workshops to educate its leadership and workforce on issues of 
cultural competency for the LGBT community. VA has also implemented 
Mandatory EEO, Diversity, and Conflict Management Training for Managers 
and Supervisors covering LGBT diversity. In fiscal year 2011, over 
27,000 executives, managers, and supervisors were trained.
    <bullet> Finally in terms of outreach, the Department conducted 
outreach and awareness activities focused on LGBT issues. Within the 
past year, VA held its third annual LGBT Program to increase awareness 
of LGBT issues in the workplace and in our service population. 
Additionally, the Department also convened its third LGBT Observance 
Program that focused specifically on the needs of LGBT Veterans. 
Moreover, VA has engaged the National Coalition of LGBT Health, which 
represents over 70 LGBT organizations, in a dialog about emerging LGBT 
issues and their impact on VA health care and benefits services.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs

                                GENERAL

    Question 1. In connection with the Department of Veterans Affairs 
(VA) fiscal year 2011 budget request, VA indicated in response to 
questions about the method of travel used by employees of the Office of 
the Secretary that ``travel regulations address the allowable modes of 
travel for reimbursement purposes, but the predominant method of travel 
has and will continue to be commercial airlines'' [emphasis added].
    a. For fiscal years 2009, 2010, and 2011, please identify the 
number of trips taken each year by senior VA personnel (Presidential 
Appointee with Senate Confirmation (PAS), career or non-career General 
Schedule (GS) employees, career or non-career Senior Executive Service 
(SES) or SES Equivalent, consultant, contractor, etc.) using a military 
or other government-provided aircraft.
    Response. Total number of trips taken each fiscal year using 
military or other government-provided aircraft are as follow:

                Fiscal Year 2009--total of 3 trips
                Fiscal Year 2010--total of 12 trips
                Fiscal Year 2011--total of 4 trips

    b. For each trip during those years where a military or other 
government-provided aircraft was utilized for travel, please identify: 
(1) the purpose of the trip, (2) the destination of the trip, (3) the 
duration of the trip, (4) the number and title of any VA employees 
(PAS, career or non-career GS employee; career or non-career SES or SES 
Equivalent, consultant, contractor, etc.) who were passengers on the 
aircraft, (5) the total cost to the Federal Government to operate the 
aircraft used for the trip, (6) the amount of any reimbursement VA 
provided to the Department of Defense, a military service, or another 
government entity in connection with the trip, (7) the justification 
for using military or other government-provided aircraft rather than a 
commercial airline, and (8) all supporting documentation, the agenda, 
and the itinerary related to the trip, as well as copies of any 
memoranda, reviews, comments and/or opinions rendered by VA's Office of 
General Counsel regarding the trip.
    Response. [Extensive supporting documentation is held in Committee 
files.]
    For fiscal years 2012 and 2013, please identify the number of trips 
that have been taken or are expected to be taken by senior VA personnel 
(PAS, career or non-career GS, career or non-career SES or SES 
Equivalent, consultant, contractor, etc.) using a military or other 
government-provided aircraft.
    Response. As of March 29, 2012, in fiscal year 2012 VA did not 
usemilitary or other government-provided aircraft for any trips. In 
fiscal year 2013, VA may use military or other government-provided 
aircraft but no estimates are currently available. Cost figures can 
only be provided once travel is complete. For every official trip 
conducted by the Secretary, a cost analysis is made to determine 
efficiencies that may warrant a request for military air. If military 
air is requested, the provisions of 41 CFR 101-37 are met using the 
appropriate decision process outlined in OMB Circular A-126 and each 
request is submitted to the Agency General Counsel for review and 
approval.

    c. In total, for fiscal year 2012, how much (if any) is expected to 
be spent by VA in order to pay for transportation by military or other 
government-provided aircraft?
    Response. As of March 29, 2012, in fiscal year 2012 VA did not use 
military or other government-provided aircraft for any trips. No 
estimates are currently available and cost figures can only be provided 
once travel is complete. For every official trip conducted by the 
Secretary, a cost analysis is made to determine efficiencies that may 
warrant a request for military air. If military air is requested, the 
provisions of 41 CFR 101-37 are met using the appropriate decision 
process outlined in OMB Circular A-126 and each request is submitted to 
the Agency General Counsel for review and approval.

    d. In total, for fiscal year 2013, how much (if any) is requested 
in order to pay for transportation by military or other government-
provided aircraft?
    Response. In fiscal year 2013, VA may use military or other 
government-provided aircraft but no estimates are currently available. 
Cost figures can only be provided once travel is complete.

    Question 2. In October 2011, the House of Representatives passed 
H.R. 2302, which included a provision that would require VA to submit 
to Congress quarterly reports outlining the cost for conferences or 
meetings sponsored by VA that have at least 50 attendees or cost 
$20,000 or more.
    a. During fiscal year 2011, how many conferences or meetings did VA 
sponsor that met those criteria and what was the total cost of those 
conferences and meetings?
    b. During fiscal year 2012, how many conferences or meetings does 
VA expect to sponsor that meet those criteria and how much in total is 
expected to be expended on those conferences or meetings?
    c. For fiscal year 2012, please identify the 25 most expensive 
conferences or meetings already sponsored or expected to be sponsored 
by VA, the locations of those conferences or meetings, and the purposes 
of those conferences or meetings.
    d. For fiscal year 2013, what is the total amount requested for 
purposes of holding conferences or meetings that meet those criteria 
and how many conferences or meetings would that funding level support?
    Response. [These questions are repeated and answered in posthearing 
questions, section GENERAL, Question 3, a-f.]

    Question 3. During fiscal year 2010, VA created the National 
Outreach Office in the Office of Public and Intergovernmental Affairs 
with the stated goal to ``standardize how outreach is being conducted 
throughout VA.'' In follow-up questions to the hearing on the fiscal 
year 2012 budget, VA was asked to provide the total amount VA, as an 
enterprise, spent on outreach during fiscal year 2010. VA responded by 
stating, ``[w]hile we are not currently able to extract the total 
spending for outreach across the department for [fiscal year] 2010 and 
[fiscal year] 2011, we are working diligently toward that goal for 
[fiscal year] 2012.''
    a. Please provide the total amount VA spent on outreach during 
fiscal year 2010 and fiscal year 2011 and estimates for how much will 
be spent during fiscal years 2012 and 2013. The data should include a 
breakdown of money spent by VA Central Office, Veterans Integrated 
Service Networks (VISNs), Regional Offices, and VA medical centers.
    Response. VA created the National Veterans Outreach Office (NVO) 
within the Office of Public and Intergovernmental Affairs (OPIA) in FY 
2010 to coordinate outreach throughout VA, and to standardize outreach-
related activities. The NVO has made considerable progress in 
researching and analyzing VA's outreach programs and activities in 
2011, and has already developed a framework to track outreach efforts 
that are part of VA's major initiatives. The final frameworkincludes 
building a process for VA's administrations (Veterans Health 
Administration, Veterans Benefits Administration and National Cemetery 
Administration) and staff offices to:

    <bullet> provide Veterans with high-quality products and 
information on activities that are consistent;
    <bullet> provide trained outreach coordinators to assist Veterans;
    <bullet> evaluate and develop metrics to measure the effectiveness 
of outreach programs; and
    <bullet> track costs associated with outreach programs.

    The embedded table, previously provided to the Committee in 
March 2012, gives expenditure data on advertising outreach, a component 
of VA's outreach efforts. Outreach through advertising is targeted to 
helping VA reach Veterans who may be contemplating suicide; struggling 
with homelessness, unemployment, or mental illness; for those Veterans 
who live in rural areas; to make Veterans aware of available benefits 
and services; and VA hiring and recruitment. Table 1 details VA 
advertising activities and obligations for the period 2009-2012 and 
planned for 2013.
    The mechanisms for advertising outreach activities have included 
Public Service Announcements, multi-media projects, Internet promotion, 
transportation and billboard advertisements. Outreach activities and 
events for Homeless Veterans Outreach, Health Benefits Awareness, 
Mental Health Awareness, Women Veterans Outreach and Suicide Prevention 
Outreach will continue in 2013 using earned media, including news 
releases, social media, fact sheets, printed materials, etc. FY 2013 
funding to supplement these activities with paid advertising will be 
determined as part of the operational planning process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    b. Does standardizing the outreach efforts of VA include 
coordinating projects and initiatives at all levels of the 
organization? If so, please detail how the National Outreach Office has 
met these goals and please describe what new initiatives the office is 
undertaking to that end.
    Response. Yes, but it is important to note that OPIA only has 
supervisory authority over those personnel who are assigned or detailed 
to the National Veterans Outreach Office. In addition, hundreds of 
other VA employees enterprise-wide assigned to VBA, VHA and NCA are 
typically involved in outreach activities on any given day; those 
employees work for and respond to their respective chain of command. In 
an effort to better coordinate the outreach efforts of all VA 
employees, VA established a workgroup made up of representatives from 
VHA, VBA and NCA and VA staff offices, including: Centers for Women and 
Minority Veterans, Small and Disadvantaged Business Utilization, 
Homeless Veterans Initiatives Office, Center for Faith Based and 
Neighborhood Partnerships, and others. In 2011, the NVO held workgroup 
meetings to solicit input and ideas from headquarters and field 
facilities; and built buy-in for development and implementation of the 
plan to coordinate outreach activities and initiatives. OPIA held a 
national training conference in which ``Outreach Day'' was a major 
activity to orient VA's professionals to the outreach plan and obtain 
their final comments on developing a series of products and resources 
to improve outreach coordination, collaboration and uniformity across 
VA. Recognizing the need for centralized outreach management, NVO has 
developed the first capability to provide critical and consistent 
information to VA's Outreach community:

    <bullet> An intranet site that houses important information to 
enhance how VA Outreach coordinators execute outreach including 
policies and procedures, the National Veterans Outreach Guide, links to 
the Congressionally mandated 2010 Biennial Report to Congress on the 
VA's outreach activities, and other links.
    <bullet> An online National Veterans Outreach Guide that provides 
best business practices, expert recommendations, proven examples of 
successful VA outreach activities in serving Veterans, and lessons 
learned. This guide outlines processes for how to conduct outreach 
events, track expenditures, measure the success of activities and tap 
into key VA resources and contacts, plus so much more.
    <bullet> Next steps include finalizing a proposal for a robust 
National Veterans Outreach System (NVOS) which will allow VA Outreach 
leaders to populate a series of fields with information about planned 
outreach activities. The NVOS will be an interactive tool that allows 
users to systematically and uniformly enter, store, organize, view, 
retrieve and report outreach-related data easily. The goal of the 
database is to provide a more advanced, easy-to-use tool that may 
either be used in concert with existing data collection methods or 
replace less efficient and effective approaches. It will also provide 
the data necessary to extract any number of data pulls including the 
costs associated with outreach in a fiscal year and the number of 
events executed.

    Question 4. During this year's State of the Union, the President 
proposed the Veterans Job Corps. The 2013 VA Budget Fast Facts 
describes the program as follows: ``A Presidential initiative of $1 
billion over the next five years to establish a conservation program 
impacting up to 20,000 veterans to protect and rebuild America's land 
and resources.''
    a. Describe in detail how the initiative would be administered. 
Please include information on which other agencies would participate, 
what the responsibilities would be of the non-VA agencies, what types 
of jobs are envisioned through the initiative, and what criteria would 
be used to select participating veterans.
    Response. The Veterans Job Corps proposal, which requires 
legislative authorization and funding from Congress, will focus on 
employment for all Veterans, but will focus on Post-9/11 Veterans. The 
initiative will put returning Veterans back to work on projects 
building on their military experiences and skills--from serving on 
conservation projects to restore and protect public lands and resources 
to serving our communities as law enforcement officials and 
firefighters.
    The Department of Veterans Affairs (VA) will coordinate a Federal 
Steering Committee that will evaluate competing proposals from 
implementing Federal agencies, and would be authorized to transfer 
funding to those agencies for approved projects. VA will serve as the 
lead for the Federal Steering Committee, which will be composed of 
policy officials representing implementing Federal agencies. The United 
States Department of Agriculture (USDA), the Department of Interior 
(DOI), National Oceanic and Atmospheric Administration (NOAA) at 
Department of Commerce, and the Department of Defense (DOD) Army Corps 
of Engineers (ACOE) are envisioned as the implementing agencies that 
will execute a range of conservation and infrastructure projects in our 
local, state, and national parks, forests, marine sanctuaries, and 
other public lands. The Department of Justice and the Department of 
Homeland Security are envisioned as the implementing agencies that will 
issue grants to local entities to hire Veterans as law enforcement 
officials and firefighters.
    As proposed, project proposals would be submitted by the USDA, DOI, 
NOAA, and ACOE in conjunction with state and local agencies and other 
stakeholders. Grants for law enforcement officers and firefighter will 
be evaluated using existing program criteria, in addition to the number 
of Veterans that can be hired. Federal land management agency projects 
would be evaluated using basic threshold requirements, such as whether 
the project provides conservation or recreation benefits on public 
lands and waters and if the project is ready to be implemented. Other 
likely project selection criteria will include the number of Veterans 
that can be hired and other benefits to Veterans, such as long-term 
career development and educational opportunities. We expect that many 
Veterans would be hired by DOI and USDA to address outstanding 
maintenance issues in national parks, refuges, forests, and other 
Federal public lands, as well as by state resource management agencies 
where Veterans can do similar work on state and local lands.
    The projects would be implemented through contracts to businesses, 
cooperative agreements and grants to non-Federal entities, and direct 
hiring of a small number of Veterans for temporary positions. VA will 
leverage existing on-line resources to coordinate efforts among 
stakeholders and match Veterans with employment opportunities. VA would 
also develop a framework for monitoring and evaluating progress to 
ensure proper oversight and accountability.

    b. Please describe the program in detail, including the amount of 
payments, subsidies, and benefits veterans would receive through this 
program; how much it would cost per participant; what opportunities 
veterans would have to continue working for the Federal agency after 
completing the program; and how much of the overall programmatic cost 
would go toward administration.
    Response. Details of the Program will be finalized as part of the 
ongoing discussion between the Administration and Congress on this 
proposal. The amount of payments and subsidies, the number of Veterans 
served, and the future employment opportunities will depend on the 
submissions of projects to the VA-led Steering Committee, that will 
disburse funds for the proposals which will provide the greatest 
benefits to our Nation's Veterans.

    c. If the initiative would require $1 billion in mandatory funding 
over the next five years, what VA program changes would VA propose to 
offset this funding increase?
    Response. All of these proposals are included in the President's FY 
2013 Budget.
    In September the Administration put forward the American Jobs Act 
together with a plan for deficit reduction that had a net savings of $4 
trillion. The Administration is willing to work with Congress to draw 
on that list to find mutually acceptable pay for options.

    Question 5. In 2010, VA began operating the Fast Track Claims 
Processing System to process claims for three conditions presumed to be 
related to Agent Orange exposure. The fiscal year 2013 budget request 
reflects that ``analysis and planning regarding system retirement will 
be conducted in [fiscal year] 2012.''
    a. To date, how much in total has been spent (from any account) on 
developing, enhancing, and operating the Fast Track Claims Processing 
System, including funds for contractor support?
    Response. To date, $11.3 million has been spent on Fast Track 
development, enhancement, and operations.

    b. Is any funding (from any account) requested in the fiscal year 
2013 budget in order to operate, expand, or retire the Fast Track 
Claims Processing System?
    Response. The budget request for Fast Track is $1.8 million 
annually for operations and maintenance.

    c. Since its inception, how many claims have been filed by 
claimants on-line using this system?
    Response. As of February 24, 2012, 4,288 claims have been filed by 
claimants using the on-line system.

    d. How many claims have been processed through the Fast Track 
system and how long on average did it take to complete those claims?
    Response. As of February 24, 2012, 14,933 claims have been 
processed through Fast Track. Of these, over 10,000 were incorporated 
into Fast Track by Veteran Service Representatives on behalf of the 
claimants. The average time to complete Fast Track claims is 135 days.

    e. How many Fast Track claims are currently pending and how long on 
average have they been pending?
    Response. As of February 24, 2012, 26,848 claims were pending for 
approximately 125 days on average.

    f. What, if any, changes have been made in the manner, means, or 
method of implementing the Fast Track Claims Processing System, either 
in the field or within the headquarters of the Veterans Benefits 
Administration, since it began in 2010?
    Response. VA has made the following changes to Fast Track since 
2010:

    <bullet> Developed and deployed an easy to use interface for the 
input of Disability Benefits Questionnaires (DBQs) for both the public 
and VA users;
    <bullet> Developed and deployed a ``Short Form'' to allow VA users 
to quickly input essential data into Fast Track since Fast Track is a 
stand-alone system which cannot pull data from VA's Corporate database; 
and
    <bullet> Added the ability to generate or suppress letters to 
Veterans and physicians to allow VA users more flexibility in 
corresponding with Veterans and their physicians.

    Question 6. In the budget request, VA requested an additional $165 
million to the enacted fiscal year 2013 appropriations for medical 
care. In briefing slides provided to the Committee staff, VA indicates 
this increase in funding request is due to ``[a]nnual update of 
actuarial model and long-term care estimates'' and ``[e]nhanced funding 
provided to meet facility activations, implementation of the Caregivers 
Act, and other strategic initiatives such as ending Veteran 
homelessness.''
    a. Please provide the Committee with a more detailed justification 
for the additional funding request, broken down by program and 
initiative.
    Response. For FY 2013 there were changes in the adjusted actuarial 
estimates for health care, the estimates for long-term care, the 
estimates for other health programs (i.e., CHAMPVA), and obligations as 
shown below ($ in millions):


Adjusted actuarial estimates...  $(1,715)
Long-term care.................     (271)
Other health programs..........     (119)
                                -----------
    Total reductions...........   (2,105)
Less reduction in obligations..      110   (detail composition below)
                                -----------
    Total net reduction in        (1,995)  (detail below)
     estimates.

Composition of reduction in
 obligations:
  Appropriation request              165
   increase.
  Reimbursement increase.......       50
  Collection decrease..........     (325)
                                -----------
      Net reduction in              (110)
       obligations.

Details of investment of
 $1,995:
  Zero homelessness............      892
  Activations..................      448
  New Models of Care...........      433
  Expand Health Care Access....      120
  Caregivers...................       30
  Improve Mental Health........       20
  Other........................       52
                                -----------
      Total....................   $1,995
                                ===========



    b. Please identify which facility (new VA hospital, Community Based 
Outpatient Clinic (CBOC), Outreach Clinic, etc.) activations would be 
supported with this increase in funding.
    VHA Response: The activation funding requested in the FY 2013 
Advance Appropriation (FY 2012 President's Budget) was $344 million 
plus the activation increase requested in the FY 2013 President's 
Budget (see response to question 6a above), which was $448 million. 
This equals a total of $792M for FY 2013 activations. The specific 
projects making up the $792M are listed in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 7. Under the Veterans Health Care Budget Reform and 
Transparency Act of 2009, VA is able to update the current fiscal year 
budget estimate for medical care, as well as provide a request for the 
following fiscal year advance appropriations for medical care. In the 
President's budget request, VA indicates that ``VA was able to re-
invest over $2 billion in both 2012 and 2013 in high priority medical 
programs.'' Please provide a detailed breakdown of what programs this 
funding was ``re-invested'' in and please detail how this increase in 
funding would be utilized for each program.
    Response. The data for FY 2013 is provided in response to question 
6a above. For FY 2012 there were changes in the adjusted actuarial 
estimates for health care, the estimates for long-term care, the 
estimates for other health programs (i.e., CHAMPVA), and obligations as 
shown below ($ in millions):


Adjusted actuarial estimates..  $(2,559)
Long-term care................     (210)
Other health programs.........     (115)
                               -----------
    Total reductions..........   (2,884)
Less reduction in obligations.      698   (detailed composition below)
                               -----------
    Total net reduction in       (2,186)  (detail below)
     estimates.

Composition of reduction in
 obligations:.
  Appropriation change........      000
  Transfer to Joint DOD-VA         (234)  (North Chicago)
   DemoFund.
  Transfer to DOD-VA Fund.....      (15)  (Health Sharing Incentive)
  Contingency not appropriated     (240)
  Reimbursement increase......       57
  Unobligated balance increase       63
  Collection decrease.........     (329)
      Net reduction in             (698)
       obligations.

Details of investment of
 $2,186:.
  Zero homelessness...........      559
  Activations.................      831
  New Models of Care..........      610
  Expand Health Care Access...      113
  Caregivers..................       43
  Improve Mental Health.......       31
  Other.......................       (1)
                               -----------
      Total...................   $2,186
                               ===========


    Question 8. The fiscal year 2013 budget request includes $1.352 
billion for programs related to prevention and reduction of homeless 
veterans.
    a. Do the fiscal year 2013 request and fiscal year 2014 advance 
funding request require legislative authority to release funding for 
these programs?
    Response. VA is taking decisive action toward its goal of ending 
homelessness among our Nation's Veterans. To achieve this goal, VA has 
developed a plan to end homelessness that will assist every eligible 
homeless Veteran and Veteran at-risk for homelessness. VA will assist 
Veterans to acquire safe housing; needed treatment and support 
services; homeless prevention services; opportunities to return to 
employment; and benefits assistance. Specific programs which provide 
these services include the VA Grant Per Diem Program (GPD), Health Care 
for Homeless Veterans Program (HCHV), and the Supportive Services for 
Veteran Families Program (SSVF).
    VA's FY 2013 budget submission includes requests for authorization 
legislation on a number of fronts to reflect this priority, and it is 
critical to secure timely enactment to further VA's efforts of ending 
homelessness among our Nation's Veterans. In order to achieve its goal, 
VA needs the extension beyond 2012 of the HCHV program (38 U.S.C. 2031) 
as well as the authorities granted by 38 U.S.C. 2102A, 2033, and 2041. 
In addition, VA is asking that Congress increase the amounts authorized 
to be appropriated for the GPD Program (38 U.S.C. 2013, 2061) and the 
SSVF program (38 U.S.C. 2044). These requests for legislative authority 
are included in VA's FY 2013 Budget Submission, Summary Volume 
(Volume 1 of 4) at pages 3A-5-3A-6.

    b. What metrics were used to determine how much funding is needed 
for each program? Please provide any metric templates currently 
developed.
    Response. VHA Homeless Programs developed a budget request based on 
historical allocations, expansion of existing programs using 
established priorities, and new initiatives based upon actuarial 
modeling of projected workload. Increased funding for homeless programs 
is needed to continue existing services, expand existing programs, and 
establish new initiatives in order to meet VA's goal of ending 
homelessness among Veterans. In determining costs for each of the 
services included in the Ending Veteran Homelessness Initiative, 
estimates were based on (1) the number of Veterans estimated to need 
services, (2) costs of other needed services, e.g., services designed 
to prevent homelessness, and (3) costs of case management services 
associated with permanent affordable housing programs.

    Question 9. In fiscal year 2011, Congress appropriated $799 million 
for homeless veterans programs.
    Please provide a detailed breakdown of how this money was utilized 
within these various programs, the number of veterans who accessed 
these programs, how each program was effective in reducing the number 
of homeless veterans, and what metrics are used to determine the 
effectiveness of these programs.
    Response. In the fiscal year (FY) 2011 President's Submission, VA 
requested $799 million for homeless Veterans' program initiatives, 
along with sustainment funding in the areas of HCHV and Domiciliary 
Care for Homeless Veterans (DCHV). Sustainment funding is provided to 
VA's medical centers through the Veterans' Equitable Resource 
Allocation (VERA) and is handled locally, not by VHA Homeless Programs. 
As a result of expanded access and outreach efforts, HCHV sustainment 
and DCHV sustainment costs were higher than anticipated in FY 2011, 
resulting in a total of $933 million, rather than $799 million, in 
funding. With this funding, VA was able to deliver services to 
approximately 160,000 Veterans. The table below, drawn from Volume 2--
Medical Programs, page 1L-14 of the FY 2013 Budget Submission provides 
more detail).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    * $ in Thousands (Chart extracted from Volume 2--Medical Programs, 
page 1I-14)
Number of Veterans Accessing Each Program
    In FY 2011, VA provided services (both health care and benefits) to 
almost 188,000 Veterans who are homeless at risk for homelessness. A 
majority of these Veterans (over 160,000) were served by one or more of 
VA's specialized homeless programs including:

    <bullet> The HCHV program conducted aggressive outreach and 
provided outpatient services to more than 95,000 Veterans and offered 
more than 8,100 episodes of contract community-based residential 
treatment.
    <bullet> The DCHV program provided intensive residential 
rehabilitation and treatment to over 8,000 Veterans.
    <bullet> The Compensated Work Therapy/ Transitional Residences 
(CWT/TR) program provided structured transitional housing to 
approximately 1,400 Veterans.
    <bullet> The GPD program provided community-based transitional 
housing to over 30,000 Veterans.
    <bullet> VA continues to collaborate with the Department of Housing 
and Urban Development (HUD) to implement approximately 30,000 
supportive housing units aligned with VA case management and supportive 
services through the HUD-VA Supported Housing (HUD-VASH) Program.
    <bullet> In FY 2011, 44 Health Care for Reentry Veterans (HCRV) 
Specialists saw over 11,000 Veterans in 1,008 of 1,295 (78%) total 
state and Federal prisons; Veterans Justice Outreach (VJO) Specialists 
saw more than 15,000 Veterans at earlier stages of justice involvement, 
for a combined total of over 27,000 justice-involved Veterans.

    In addition to these direct service programs for homeless Veterans, 
VA launched two homeless prevention initiatives--SSVF and the HUD-VA 
Homeless Prevention Demonstration (VHPD) programs; initiated the 
Homeless Veteran Supported Employment Program (HVSEP) and supported the 
National Call Center for Homeless Veterans.
Program Effectiveness
    The 2011 Point-in-Time Estimates of Homelessness: Supplement to the 
Annual Homeless Assessment Report published in December 2011, estimates 
that on any given night in 2011 there were approximately 67,495 
homeless Veterans and that homelessness among Veterans has declined by 
nearly 12 percent since January 2010. VA has taken decisive actions 
toward its goal of ending homelessness among the Nation's Veterans, and 
has developed a continuum of care designed to assist every eligible 
homeless Veteran as well as Veterans at risk for homelessness.
    With the exceptions of very new programs such as VJO and SSVF, 
studies of the effectiveness of VA specialized homeless services have 
been conducted. Generally, these studies have been conducted early in 
the implementation of the initiatives and have been both observational 
and experimental in design. For example, the effectiveness of the HUD-
VASH program was documented in a randomized control trial that compared 
HUD-VASH to intensive case management without HUD rental assistance and 
to usual VA services.
    Such studies are extremely expensive to conduct and generally are 
limited to a representative sample of Veterans and the prescribed 
timeframe. However, the implementation of all specialized VA homeless 
programs is monitored on a continual basis. To further develop 
monitoring capacity, VA continues to develop its new National Homeless 
Registry. The Homeless Registry will be a real-time data resource for 
service providers, VA policymakers, administrators, and researchers. In 
addition to data collected with the VA specialized homeless programs, 
the Homeless Registry will incorporate VA inpatient and outpatient data 
as well as data collected through HUD's national Homeless Management 
Information System (HMIS) database. The Homeless Registry is the ``next 
generation'' monitoring tool and will provide important documentation 
of progress toward VA's Plan to End Homelessness among Veterans.
Metrics
    Ongoing monitoring of VA specialized homeless services includes 
measures of program structure (e.g., staffing, staffing vacancies, 
program costs); program processes (e.g., demographic and clinical 
characteristics of program participants, duration of participation in 
the different programs); and program outcomes (e.g., housing status, 
employment status, provisions for aftercare). Feedback to program sites 
in the field is delivered through a series of measures based on 
relative performance.
    Explicit studies of program effectiveness also include measures of 
program structure, process and outcomes. Data collection in those 
studies is generally more intensive than during ongoing monitoring and 
tends to be longitudinal in nature. For example, the previously 
mentioned effectiveness study of HUD-VASH collected a wide array of 
measures on each study participant quarterly for a minimum of three 
years following program entry.
    Specific metrics in place to determine the effectiveness of these 
programs:

    <bullet> Number of Homeless Veterans (on any given night), reported 
in the Supplemental Chapter on Homeless Veterans in the Annual Homeless 
Assessment Report (AHAR).
    <bullet> Percent of vouchers issued to the medical center/facility 
that result in a homeless Veteran achieving resident status in Public 
Housing Authority.
    <bullet> Percent of Veterans discharged from GPD or DCHV programs 
who discharge to an independent housing arrangement.
    <bullet> Percent of Veterans admitted to the HUD-VASH program who 
were chronically homeless at the time of admission.

    Question 10. The fiscal year 2013 budget request includes $21 
million for 200 additional full-time equivalents (FTE) to be Homeless 
Veterans Outreach Coordinators (HVOC) in the Veterans Benefits 
Administration. The purported purpose of the new HVOCs is to support 
VA's goal of ending veterans' homelessness. According to the fiscal 
year 2013 budget request, the additional resources in 2013 are intended 
to ``accelerate services for an additional 43,000 Veterans and their 
families by decreasing the frequency and duration of their episodes of 
homelessness'' and ``[t]he resources will also assist veterans and 
their family members maintain safe and permanent housing, get connected 
to employment opportunities, and improve the overall health care 
status.''
    a. Please explain how the manner, means, and methods of utilizing 
these HVOCs do not duplicate, compete with, and overlay already 
existing veteran homelessness outreach programs, initiatives, FTE, and 
other resources that are on-going in the Veterans Health Administration 
(VHA) VISNs and VA medical centers.
    Response. VBA's HVOCs are targeted outreach positions dedicated to 
assisting homeless Veterans and Veterans at-risk of homelessness and 
their families with their VA benefits, including compensation, pension, 
education, vocational rehabilitation, insurance, and housing. One of 
their most important functions is to ensure homeless Veterans' claims 
are appropriately expedited within the claims processing system. VBA's 
goal is to process homeless claims in 75 days. VBA needs these 
additional FTE to reach our goal and provide timely benefits to these 
Veterans and their families. Although both VBA and VHA conduct outreach 
and provide referrals, HVOC duties are specialized and do not duplicate 
already existing homeless outreach programs within VHA.
    VHA's homeless outreach efforts are directed at health care 
delivery and VBA's outreach efforts are focused on benefit delivery. 
Both functions are necessary to meet the complex psychosocial, mental 
health and health care needs of homeless and at-risk Veterans. VHA and 
VBA homeless Veteran outreach staffs work closely to optimize services 
to homeless Veterans at VA settings and in the community. Specifically, 
VHA's homeless outreach staff is comprised of social workers, other 
licensed professionals, paraprofessionals and/or peer specialists. All 
have duties specified in either a professional functional statement or 
position description. Some of the staff perform outreach duties on a 
full-time basis others less than full-time. VHA's outreach efforts 
focus on the identification and assessment of homeless and at-risk 
Veterans, engagement in VA's health care programs, and referral and 
linkages to VA and community benefits. VHA homeless outreach efforts 
are accomplished through community partnerships and coordination with 
VBA's HVOC's.

    b. Please identify where it is anticipated these 200 HVOCs will be 
located (i.e., existing Veterans Benefits Administration Regional 
Offices, leased space in the community, VA medical centers, CBOCs, 
etc.).
    Response. HVOCs will have a presence at existing regional offices 
and in locations that have high homeless Veteran populations. They will 
also spend time at VA medical centers (VAMC), Community-Based 
Outpatient Clinics (CBOC), prisons/jails, and Veterans treatment 
courts.
    Full time equivalent (FTE) allocations at regional offices will be 
based on several factors. Our 20 current HVOCs are overworked. Each of 
our regional offices that currently has an HVOC will receive a second 
HVOC to assist with workload and help sustain our efforts to date. The 
remaining 180 FTE will be placed in areas that have the highest 
concentration of at-risk and homeless Veterans throughout the country. 
VBA will also consider other factors such as Veteran population, 
population density, and workload.

    c. Please provide the Committee with copies of any veteran 
homelessness needs assessment demonstrating the need for these specific 
outreach coordinators and that current VA resources in place are not 
adequate to address the needs.
    Response. VBA is targeting our efforts to reach areas that have a 
higher concentration of homeless women, have higher foreclosure rates, 
and are rural.

    Question 11. In 2009, 2010, and 2011, VA's Board of Veterans' 
Appeals published a Veterans Law Review.
    a. During fiscal year 2011, how much was spent on the operation and 
publication of the Veterans Law Review?
    Response. In fiscal year 2011, the total expenditure to publishthe 
Veterans Law Review was $23,127.60, spent almost entirely on printing 
costs.

    b. During fiscal year 2012, how much is now expected to be spent on 
operation and publication of the Veterans Law Review?
    Response. In fiscal year 2012, the estimated expenditures to 
publish the Veterans Law Review (again almost entirely for printing 
costs) are approximately $24,500.

    c. During fiscal year 2013, how much is requested for purposes of 
operating and publishing the Veterans Law Review?
    Response. In fiscal year 2013, the requested expenditures for 
publication of the Veterans Law Review (again almost entirely for 
printing costs) are approximately $26,000.

    Question 12. The December 2010 report from the National Commission 
on Fiscal Responsibility and Reform included a recommendation to reduce 
Federal spending on travel, printing, and vehicles.
    a. During fiscal year 2012, how much in total is projected to be 
expended by VA on travel costs; how much in total is projected to be 
expended on printing costs; and how much in total is projected to be 
expended to purchase, lease, operate, or maintain vehicles?
    b. For fiscal year 2013, how much in total is requested for travel 
costs; how much in total is requested for printing costs; and how much 
in total is requested to purchase, lease, operate, or maintain 
vehicles?
    Response. [These questions are repeated in and answered posthearing 
questions, section GENERAL, Question 5.]

    Question 13. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA has ordered 25 electric vehicles in order to 
conduct a ``pilot study.''
    a. What make and model of electric vehicles were ordered, what was 
the total cost to VA to purchase or lease these vehicles, and what was 
the total cost to the Federal Government (if different)?
    Response. VA is currently scheduled to receive 26 electric vehicles 
(EVs) through the General Services Administration's (GSA) EV pilot 
program:

    <bullet> 5 Think City vehicles
    <bullet> 1 Nissan Leaf
    <bullet> 20 Chevrolet Volts

    VA is paying the same lease cost for these EVs as for a standard 
vehicle of a similar class. GSA's pilot program funding covers the 
incremental costs of the electric vehicles and the acquisition cost of 
charging stations for the participating agencies. Agencies only pay for 
the costs associated with installing the charging station at the EV 
site.
    GSA would have information on the cost to purchase or lease these 
vehicles both for VA and Federal-wide.

    b. For fiscal year 2013, how much in total is requested for 
purposes of this initiative?
    Response. No funding is requested

    c. How and where will these vehicles be used?
    Response. Most of the vehicles are assigned to VHA facilities in 
the San Francisco, San Diego, Los Angeles, Detroit and Washington/
Baltimore metropolitan areas. One additional vehicle is assigned to VBA 
in Detroit. VA is deploying each vehicle to the most appropriate use at 
the selected locations. For example, how the vehicle is used depends on 
the distance that needs to be traveled, the number of people that must 
be accommodated, whether or not equipment and/or other supplies are 
being moved and other related factors.

    d. What are the specific objectives of the pilot study and what 
benchmarks will be used to determine whether it is successful?
    Response. The pilot study is a GSA initiative. GSA's stated 
objectives are to determine if EVs are a cost effective option for 
Federal fleets, and where and for what kinds of uses. GSA is collecting 
data electronically from the charging stations and from the agencies 
leasing the vehicles.

    e. Please provide copies of the Executive Decision Memorandum (or 
comparable document) approving the pilot study and supporting documents 
of justification and implementation.
    Response. The pilot study is a GSA program in which VA, along with 
other Federal departments and agencies, is a participant. VA does not 
have access to GSA internal support and approval documentation.

    f. What cost comparisons were performed to assess the differential 
between the costs of operating an electric vehicle fleet versus other 
types of vehicle fleets (gasoline, natural gas, or hybrid)? Please 
provide any documentation comparing the costs of electric vehicles with 
other types of vehicles (gasoline, natural gas, or hybrids).
    Response. Under this pilot, GSA pays all operating expenses for 
leased vehicles in their fleet regardless of fuel type.

    Question 14. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA is ``noncompliant with the Debt Collection 
Improvement Act of 1996'' because VA does not charge interest or 
administrative costs on delinquent debts owed to VA. VA has previously 
explained to the Committee that, ``in 1992, the Deputy Secretary of 
Veterans Affairs made a decision not to implement the statutory 
interest and administrative charges on Compensation and Pension 
debts.'' VA has also indicated that ``[t]he majority of debts created 
for compensation are due to beneficiary death, incarceration and 
fugitive felons.''
    a. What is the legal authority relied upon by VA to forego 
collecting interest and administrative costs with respect to delinquent 
debts?
    Response. Please see the decision paper below, which was signed by 
then Deputy Secretary Principi in 1992.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    b. What is the total amount of debt to VA created in fiscal year 
2011 as a result of VA beneficiaries being incarcerated or having 
fugitive felon status?
    Response. VA tracks fugitive felon and incarcerated beneficiary 
cases by year of referral to the field for processing rather than by 
year of debt establishment. Although we are not able to provide the 
specific debt amounts created by year, we estimate (based on case 
tracking and sampling) the average annual amount of debt created for 
the years 2003 through 2010 to be $32,121,505.

    c. What is the total amount of debt to VA expected to be created in 
fiscal year 2012 and in fiscal year 2013 as a result of incarceration 
of beneficiaries or beneficiaries deemed to be fugitive felons?
    Response. We do not project any significant change. The numbers of 
cases referred in recent years have remained constant or declined.

    d. If VA assessed interest and administrative costs, in accordance 
with the Debt Collection Improvement Act of 1996, on any of those debts 
that are or are projected to be delinquent, what would be the total 
amount of those assessed charges in fiscal year 2012 and fiscal year 
2013?
    Response. VA systems are not programmed to handle the charging of 
interest and administrative fees. VA is therefore not currently able to 
estimate the amount of interest or administrative charges on current or 
projected delinquent debt with any degree of accuracy.

    Question 15. With respect to VA's fiscal year 2012 budget request, 
VA was asked whether the budget request included ``funding for benefits 
that are projected to be overpaid and not recouped.'' In response, VA 
indicated in part that, ``[a]lthough there is no specific line item for 
overpayments in the budget request for the Compensation and Pension 
account, these payments are accounted for in the baseline budget 
estimates and are not identified as funds that VA does not expect to 
recoup.'' VA also indicated that for fiscal year 2012 the Readjustment 
Benefits account included ``a net increase of $7.2 million in 
obligations associated with overpayments.''
    a. For fiscal year 2012, what is the total amount of benefits now 
projected to be overpaid?
    Response. For Compensation/Pension benefits, we provide the 
following projections, which detail the FY beginning balance, 
establishments, collection/offsets, write-offs and the ending balance.

                          (Dollars in millions)
Beginning Balance..........................................    $1,138.7
Establishments.............................................      $870.0
Collections/Offsets........................................      $649.1
Write-Offs.................................................      $233.0
                                                            ------------
Ending Balance.............................................    $1,126.6
                                                            ============



    Collections/offsets are reflected as a total applied to the entire 
portfolio rather than just against new establishments.
    Readjustment projections are as follows:

                          (Dollars in millions)
Beginning Balance..........................................      $334.6
Establishments.............................................      $594.0
Collections/Offsets........................................      $557.5
Write-Offs.................................................       $12.3
                                                            ------------
  Ending Balance...........................................      $358.8
                                                            ============



    Collections/offsets are reflected as a total applied to the entire 
portfolio rather than just against new establishments.

    b. For fiscal year 2013, what amount is included in the 
Readjustment Benefits account for overpayments of benefits?
    Response. Please see the response to 15c.

    c. For fiscal year 2013, what amount is included in the 
Compensation and Pension account (including any amounts in the budget 
baseline) for overpayments?
    Response. In the recalculation for the FY 2013 President's Budget 
request, the Readjustment Benefits account is projecting a net increase 
of $24.2 million in obligations associated with overpayments in FY 2012 
and $15.2 million in FY 2013. These projections are based on historical 
trends and updated each budget cycle. While obligations for the net 
increase are incorporated into the budget, these amounts may be 
collected in the future and are not identified as funds that VA does 
not expect to recoup. Although there is no specific line item for 
overpayments in the budget request for the Compensation and Pension 
account, these payments are accounted for in the baseline budget 
estimate and are not identified as funds that VA does not expect to 
recoup.

    Question 16. VA's Fiscal Year 2011 Performance and Accountability 
Report contains the following information:

        One cause of overpayments in both the Compensation and Pension 
        programs has been the implementation of the Fugitive Felon 
        program. This program * * * prohibits Veterans or their 
        dependents who are fugitive felons from receiving specified 
        Veterans' benefits. The law requires VA to retroactively 
        terminate awards to Veterans and other beneficiaries from the 
        date the beneficiary became a ``fugitive felon.'' As of 
        January 2011, nearly 23,000 fugitive felon cases have been 
        referred to field stations resulting in a total of nearly $165 
        million accumulated overpayments which cover multiple warrant 
        years. VA's Committees on Waivers and Compromises had waived 
        nearly $22 million in overpayments.

    a. To date, how many current or former fugitive felons have had 
their overpayments to VA waived?
    Response. VA has waived 751 overpayments from 2003 through the end 
of 2010.

    b. To date, what is the total dollar amount of overpayments to 
fugitive felons that have been waived?
    Response. The annual average amount of debt waived for the years 
2003 through 2010 is estimated to be $2,222,314. Although VBA's current 
systems do not allow tracking of waivers at the level of detail to 
report actual amounts waived, VA is working to enhance its corporate 
systems to support processing and collection of additional financial 
and debt data. These system enhancements are projected for completion 
within the next 2 years.

    c. For fiscal year 2013, what amount is included in the budget 
request in order to waive recoupment of overpayments to fugitive 
felons?
    Response. There is not a specific line item for overpayments in the 
budget request for the Compensation and Pension account. The 
Compensation and Pension budget model projects caseload, obligations, 
and outlays over ten years. Compensation payments are based on combined 
degree of disability, and Veterans often receive compensation for 
multiple injuries or diseases. Budget forecasts are based on combined 
degrees of disability.

    Question 17. Under current law, VA is required to reduce, but not 
terminate, the compensation payments to certain beneficiaries who have 
been incarcerated for more than 60 days.
    a. What was the total amount of VA benefits paid to incarcerated 
beneficiaries during fiscal year 2011?
    Response. Incarcerated Veterans are entitled to a portion of their 
benefit payments. Although VA is not able to calculate the actual 
amount of benefits paid to incarcerated beneficiaries in FY 2011, we 
estimate that $2.6 million was paid based on data from September 30, 
2011. At that time, 2,013 incarcerated Veterans were in receipt of 
compensation payments. This includes 1,452 Veterans service-connected 
in excess of 10 percent as well as 561 Veterans service-connected at 10 
percent (or zero percent service-connected and entitled to compensation 
under 38 CFR 3.317). Veterans service-connected in excess of 10 percent 
received compensation at the 10 percent rate ($123 monthly), and 
Veterans service-connected at 10 percent received half of their 
compensation at the 10 percent rate ($61.50 monthly). If the number of 
incarcerated beneficiaries did not change through FY 2011, VA would 
have paid approximately $2.6 million to these Veterans.

    b. What is the total amount of VA benefits expected to be paid to 
incarcerated beneficiaries during fiscal year 2012?
    Response. Please see the response to 17c.

    c. What is the total amount included in the fiscal year 2013 budget 
for VA benefits expected to be paid to incarcerated beneficiaries?
    Response. The Compensation and Pension budget model projects 
caseload, obligations and outlays over ten years. Budget forecasts are 
based on combined degrees of disability. Although payments to 
incarcerated beneficiaries are accounted for in the baseline budget 
estimate, specific benefit payments to incarcerated Veterans are not 
uniquely identified and forecasted.

    Question 18. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA paid $45 in interest penalties per million 
dollars disbursed during 2011.
    a. In total, how much did VA pay in interest penalties during 
fiscal year 2011?
    Response. In total, VA paid $684,778.78 in interest penalties 
during fiscal year 2011 while disbursing over $15.1 billion in 
payments.

    b. In total, how much does VA expect to pay in interest penalties 
during fiscal year 2012?
    Response. Based on actual interest paid through February 2012, VA 
expects to pay $732,584 in interest penalties during fiscal year 2012 
while disbursing an estimated $15.9 billion in payments.

    c. In total, how much is included in the fiscal year 2013 budget 
request in order to pay for interest penalties?
    Response. In accordance with the Prompt Payment Act regulations at 
5 CFR 1315.10(b)(5), VA did not include interest penalties in the 
fiscal year 2013 budget request. Interest penalties are paid from funds 
for the program for which the penalty is incurred.

    Question 19. VA's Central Office houses a number of different 
entities, including the Office of the Secretary, the Office of 
Congressional and Legislative Affairs, the Office of Public and 
Intergovernmental Affairs, and other support offices.
    a. How many employees currently are assigned or detailed to each of 
these respective entities within VA's Central Office? Please identify 
the status of those employees as permanent or detailed; career or non-
career; and GS, SES or SES Equivalent, or other pay scale. Please 
identify the locations (VISNs, VA medical centers, Veterans Benefits 
Administration Regional Offices, etc.) from where these employees are 
being detailed.
    b. If VA's fiscal year 2013 budget request is adopted, how many 
full-time equivalents would VA expect to be assigned or detailed from 
outside VA's Central Office to VA's Central Office during fiscal year 
2013?
    Response. [These questions are repeated in and answered posthearing 
questions, section GENERAL, Question 7.]

    Question 20. For the period October 1, 2010, thru December 31, 
2011, please provide a listing (without names or other personal 
identifiers) of those VA employees who have been approved to receive, 
or have received, Recruitment, Relocation and/or Retention Incentives. 
It is requested that the listing include the employee's grade (SES, SES 
Equivalent, title 38, GS, etc.); duty station (VA Central Office, VA 
Field location--VISN, VA medical center, Veterans Benefits 
Administration Regional Office, etc.). Please list the amount approved 
for each Incentive category.
    a. For those receiving Relocation Incentives, please list the 
losing and receiving duty station/location.
    Response. The embedded spreadsheet, below, is a listing of 
individual Recruitment, Relocation and Retention Incentives paid from 
October 1, 2010 through December 31, 2011, by grade. Losing and 
receiving duty stations/locations cannot be reported due to system 
limitations. Incentives payments have been attributed to the 
Administration or Staff Office where the individual was employed on the 
date the information was extracted from the Personnel Accounting 
Integrated Database (PAID) system. In the case of internal VA employee 
transfers, the incentive may actually have been paid by a different 
Administration or Staff Office prior to the transfer.

    [This extensive information was received and is being held in 
Committee files.]

    b. For those receiving Retention Incentives, please identify the 
level of approving official (i.e., Secretary, Deputy Secretary, Chief 
of Staff, Under Secretary, Assistant Secretary, VISN/VA medical center/
Regional Office Director, etc.).
    Response. VA does not maintain a central electronic file that 
identifies the approving official for each employee's retention 
incentives. This information is in locally maintained paper files and 
would require several months to compile.
    VA Handbook 5007, Pay Administration, Part VI, Recruitment and 
Retention Incentives, documents VA's policy as follows:

          ``a. Retention allowances must be approved by an official at 
        a higher level than the one recommending the payment. The 
        authorizing official's signature signifies concurrence with the 
        determination that an allowance is needed to retain a critical 
        VA employee and authorization of the allowance percentage.
          ``b. The Secretary, or designee, is the approving official 
        for retention allowances for employees occupying positions 
        centralized to that office.
          ``c. Administration Heads, Assistant Secretaries, Other Key 
        Officials, and Deputy Assistant Secretaries, or their 
        designees, recommend retention allowances for employees 
        occupying positions in their organization which are centralized 
        to the Secretary. They, or their designees, approve retention 
        allowances for employees occupying Central Office (VACO) 
        positions in their organizations, which are not centralized to 
        the Secretary; and employees occupying field positions 
        centralized to their offices.
          ``d. Facility directors may approve retention allowances for 
        title 38 and title 5 employees in non-centralized positions 
        under their jurisdiction provided that the amount of the 
        allowance, when combined with all other VA payments, does not 
        cause an employee's total pay to exceed the aggregate limit on 
        pay.''

    The Department is currently updating the incentives policy to 
reflect higher levels of approval.

    c. For those receiving Retention Incentives within the VA Central 
Office, please further identify the specific office (i.e., Office of 
Public and Intergovernmental Affairs, VHA Deputy Undersecretary for 
Health for Operations and Management (DUSHOM), Veterans Benefits 
Administration Compensation and Pension Service, Office of the 
Secretary, etc.).
    Response. The table below is a summary of Central Office Retention 
Incentives paid from October 1, 2010 through December 31, 2011, by 
Staff Office and Administration.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    d. For those receiving Retention Incentives, please identify, where 
applicable, whether the Incentive was being offered because (1) the 
employee was likely to leave because of retirement; (2) the employee 
indicated an intent to leave for a different Federal position; or (3) 
of another authorized reason.
    Response. VA does not maintain a central electronic file 
documenting the approved reasons for each employee's retention 
incentives. This information is in locally maintained paper files and 
would require several months to compile.
    The Code of Federal Regulations at 5 CFR 575.307 requires VA to 
establish the required documentation for determining that an employee 
would be likely to leave the Federal service in the absence of a 
retention incentive. VA Handbook 5007, Pay Administration, Part VI, 
Recruitment and Retention Incentives, documents VA's policy as follows:

          ``Evidence that the Employee is Likely to Leave Federal 
        Employment. Each supervisor shall make a separate certification 
        that an employee, or for group authorizations, a significant 
        number of employees in the group, is likely to leave Federal. 
        This certification will only be made when the supervisor is 
        reasonably convinced that the employee is likely to leave 
        Federal service. Such a certification may be based on:

          ``(1) Receipt by an employee, or for group authorizations, a 
        significant number of employees, of one or more bona fide 
        offers of employment, as evidenced by a formal written job 
        offer or affidavit signed by the employee or employees 
        providing the position and salary being offered, the name and 
        location of the organization, and the prospective date of 
        employment; or
          ``(2) Evidence of high demand in the private sector for the 
        knowledge and skills possessed by the employee or group of 
        employees and significant pay disparities between Federal and 
        non-Federal salaries; or
          ``(3) A discussion with the employee of the employee's career 
        plans.''

    A supervisor's certification documenting the reason for determining 
the likelihood of an employee leaving Federal employment should be 
included in each retention incentive case file. However, VA's OIG 
November 14, 2011, audit of retention incentives for VHA and VA Central 
Office cited case files that lacked documentation to support VA 
retention incentive decisions, including supervisors' certifications 
that the employees were likely to leave Federal service in the absence 
of monetary incentives were missing from some files. VA senior 
officials concurred with OIG report recommendations and provided 
acceptable corrective action plans which are currently being 
implemented.
    Employees who intend to leave VA for another Federal position may 
be granted a retention incentive only if VA has provided a general or 
specific written notice that the employee's position may or would be 
affected by the closure or relocation of the employee's office, 
facility, activity, or organization, per 5 CFR 575.315(b)(3).

    Question 21. Last year, VA was unable to provide the Committee with 
information concerning the percentage and number of contracts awarded 
by VA's Central Office to service-disabled veteran owned small 
businesses (SDVOSBs) and veteran owned small businesses (VOSBs). VA 
indicated that a data analysis of VA's service contracts was underway, 
preventing a complete response.
    a. Based on that data analysis, please provide the Committee with 
the percentage and number of contracts awarded by VA's Central Office 
to SDVOSBs and VOSBs.
    Response. The information follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    b. Please provide the Committee with details (type, amount, and 
purpose) of the current contracts awarded to SDVOSB/VOSBs by VA's 
Central Office. Also, please itemize this data by individual offices 
within VA's Central Office.
    Response. The spreadsheet for questions a and b follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 22. In the last year, the VA Center for Veterans' 
Enterprise (CVE) has been working on eliminating the backlog of SDVOSBs 
and VOSBs awaiting certification of their statuses in order to begin 
bidding on VA set-aside contracts.
    a. How does CVE measure the effectiveness of its communications 
with SDVOSBs and VOSBs during the verification process?
    Response. Although this is not currently being measured, VA 
believes that this will be useful going forward. The CVE Strategic 
Communication Plan, which is being developed, will use a number of 
tools to measure the effectiveness of its communications with SDVOSBs 
and VOSBs. These tools include, but are not limited to, call center 
volume, Congressional correspondence volume, telephone and e-mail 
surveys, the percentage of initial applications that are denied, the 
percentage of initial denials that are overturned, and direct feedback 
from Veterans during focus groups and presentations at conferences, 
workshops, and other venues attended by CVE leadership.

    b. Please provide the Committee with the current number of 
companies awaiting verification and the current average time companies 
have been awaiting verification once all documents have been submitted 
and verified by CVE.
    Response. As of April 11, 2012, there are 1,143 companies with 
complete applications awaiting verification. The average processing 
time for these applications is 61 days.

    Question 23. Last year, the Committee learned that VISN 20 
contracted with a company called Values Coach, Inc., for $394,000. In a 
response to an inquiry from the Committee, VA indicated that VISN 20 
hired Values Coach to design a program ``to enhance performance in the 
area of customer satisfaction.''
    a. For fiscal year 2012, how much was spent across all VISNs on 
customer services contracts to enhance customer satisfaction?
    b. For fiscal year 2013, how much will be spent across all VISNs on 
customer services contracts to enhance customer satisfaction?
    c. For the VISN 20 Values Coach contract, please describe the 
metrics used to determine whether customer satisfaction changed as a 
result of this contract.
    d. Please provide a detailed description of the process required to 
secure contracts for customer service training to enhance customer 
satisfaction.
    e. Does the Federal Government (VA, Office of Personnel Management, 
etc.) provide coaching services which would train Federal employees to 
improve their customer service skills? If so, please describe the 
program(s) in detail.
    Response. [These questions are repeated in and answered posthearing 
questions, section GENERAL, Question 9.]

    Question 24. The VA Office of Human Resources and Administration 
produced the ``VA Organizational Briefing Book, June 2010.'' Within the 
handbook there is a chart reflecting the ``Organization of the 
Department of Veterans Affairs.'' The handbook then discusses the 
mission, scope, and functions of each subordinate office within VA that 
is reflected on the chart. Associated with each subordinate office is a 
chart reflecting the respective organizational make-up. Since 
June 2010, there have been a number of office reorganizations.
    a. Please provide an up-to-date chart for each office that has 
undergone any reorganization since the publication of the 2010 
handbook. Please note the effective date of the reorganization on the 
chart, as well as the total full-time equivalents (SES/SES Equivalent, 
GS, career or non-career) assigned to the office as of February 13, 
2012.
    Response. In November 2011, the Department began an extensive 
process to review, revise and update information related to 
organizational structures, mission, functions and tasks. Updated 
documents will be posted on the VA's Web site when this process is 
complete.

    b. Please identify any offices currently undergoing reorganization 
and the anticipated completion date for the reorganization.
    Response. In November 2011, the Department began an extensive 
process to review, revise and update information related to 
organizational structures, mission, functions and tasks. Updated 
documents will be posted on the VA's Web site when this process is 
complete.

    Question 25. VA has a number of tools available to assist veterans 
from losing homes guaranteed through the VA home loan program. In the 
unfortunate instances these programs do not work and a veteran goes 
into foreclosure or default, VA is required to reimburse the holder of 
the mortgage for up to 25% of the purchase price. In order to avoid 
incurring large costs to the Loan Guaranty Service and taxpayers, VA 
has the authority to purchase the properties from the banks and later 
sell the properties instead of paying the guaranty.
    VA Clarification: The formula prescribed in 38 U.S.C. Sec. 3732 for 
determining how much VA reimburses the holder of the mortgage are more 
complex than the process stated in the question. Prior to a foreclosure 
on property securing a GI Loan, a VA fee panel appraiser determines the 
property's fair market value. This appraisal is reviewed either by the 
servicer's certified appraisal reviewer or by VA appraisal staff. To 
determine the net value of the property, VA reduces the property's fair 
market value by the established cost factor that reflects VA's 
estimated loss on property resale and VA's estimated costs for 
acquisition, management and disposition of the property.
    A holder of a defaulted GI Loan may elect to convey the property to 
VA if the net value is greater than the difference between (a) the 
total indebtedness represented by the defaulted GI Loan and (b) VA's 
maximum guaranty obligation for the GI Loan. Conversely, if the net 
value of the property is less than that difference, the holder 
generally will have no such option to convey the property to VA, and VA 
will pay the guaranty amount to the holder, who will retain title to 
the property.
    The conveyance of the property does not substitute for the guaranty 
liability. The amount of guaranty payment is based on variables such as 
net value, total indebtedness, and the foreclosure sale amount.
    a. Please provide the number of homes the VA Loan Guaranty Service 
has taken possession of during the last five years.
    Response. Between October 1, 2006, and September 30, 2011, VA's 
Loan Guaranty Service acquired 61,024 properties.

    b. How much has VA spent to acquire properties in the last five 
years, and how much has VA recouped in sales of those attained property 
assets?
    Response. VA paid $6.3 billion to acquire 61,024 properties. VA has 
recouped $5.3 billion in sales of 59,109 acquired properties during the 
same time period.

    c. Of the properties that VA has acquired over the last five years, 
please detail the number of those properties VA still holds.
    Response. As of September 30, 2011, VA had an inventory of 7,038 
properties acquired within the last five years.

    d. Please detail the plan to dispose of the remaining properties 
held by VA.
    Response. VA has a management and marketing contract with a 
property management service provider, currently Bank of America, to 
accept new property assignments and to manage, market, and dispose of 
the existing inventory. This has resulted in a decline in the overall 
inventory of properties from 10,521 on January 1, 2011, to 7,123 on 
September 30, 2011; 7,038 of the total inventory on September 30, 2011 
were boarded between October 1, 2006 and September 30, 2011. VA will 
continue through its management and oversight of this contract to 
reduce this inventory.

    Question 26. In the fiscal year 2013 budget request, the National 
Cemetery Administration (NCA) proposed a new initiative to expand 
burial access to rural communities. The proposal is ``to establish a 
national cemetery presence * * * where the Veteran population is less 
than 25,000 within a 75-mile [radius].''
    a. What are NCA's estimates for usage and burial?
    Response. Interment projections in the below table are based on an 
analysis of a sample of cemeteries in similar rural locations. More 
precise estimates will be determined based on actual usage.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    b. The fiscal year 2012 appropriation language requires NCA to 
develop cost estimations for five rural cemeteries. Of the eight states 
included on the initial list for the new rural initiative, how many 
areas within each state meet all the current requirements as proposed 
by the rural initiative (population, distance, and lack of current 
burial options)?
    Response. The table below lists county/city pairs in each of the 
eight states. Each city represents a potential focal point for 
establishing a National Veterans Burial Ground and meets the criteria 
for the Rural Veterans Burial Policy, i.e., there is no open national 
cemetery serving Veterans in the state and no more than 25,000 
Veterans, who do not have reasonable access to a burial option in a 
national or state Veterans cemetery, reside within 75 miles of the 
focal point. The area selected within each state for a National 
Veterans Burial Ground contains the largest number of Veterans up to 
the 25,000 threshold.


----------------------------------------------------------------------------------------------------------------
                State                                County                                 City
----------------------------------------------------------------------------------------------------------------
Idaho                                 Twin Falls                            Twin Falls
----------------------------------------------------------------------------------------------------------------
Idaho                                 Lemhi                                 Salmon
----------------------------------------------------------------------------------------------------------------
Idaho                                 Teton                                 Idaho Falls
----------------------------------------------------------------------------------------------------------------
Maine                                 Penobscot                             Millinocket
----------------------------------------------------------------------------------------------------------------
Maine                                 Washington                            St. Stephen
----------------------------------------------------------------------------------------------------------------
Montana                               Flathead                              Kalispell
----------------------------------------------------------------------------------------------------------------
Montana                               Blaine                                Lewistown
----------------------------------------------------------------------------------------------------------------
Montana                               Valley                                Glasgow
----------------------------------------------------------------------------------------------------------------
Montana                               Beaverhead                            Dillon
----------------------------------------------------------------------------------------------------------------
Montana                               Yellowstone                           Laurel
----------------------------------------------------------------------------------------------------------------
Nevada                                Humboldt                              Winnemucca
----------------------------------------------------------------------------------------------------------------
Nevada                                White Pine                            Ely
----------------------------------------------------------------------------------------------------------------
Nevada                                Esmerelda                             Tonopah
----------------------------------------------------------------------------------------------------------------
Nevada                                Elko                                  Elko
----------------------------------------------------------------------------------------------------------------
North Dakota                          Ramsey                                Devils Lake
----------------------------------------------------------------------------------------------------------------
North Dakota                          Mountrail                             Stanley
----------------------------------------------------------------------------------------------------------------
North Dakota                          Bowman                                Bowman
----------------------------------------------------------------------------------------------------------------
North Dakota                          Cass                                  Fargo
----------------------------------------------------------------------------------------------------------------
Utah                                  Sevier                                Richfield
----------------------------------------------------------------------------------------------------------------
Utah                                  San Juan                              Blanding
----------------------------------------------------------------------------------------------------------------
Utah                                  Uintah                                Vernal
----------------------------------------------------------------------------------------------------------------
Utah                                  Iron                                  Cedar City
----------------------------------------------------------------------------------------------------------------
Wisconsin                             Marinette                             Marinette
----------------------------------------------------------------------------------------------------------------
Wisconsin                             Oneida                                Rhinelander
----------------------------------------------------------------------------------------------------------------
Wyoming                               Sweetwater                            Rock Springs
----------------------------------------------------------------------------------------------------------------
Wyoming                               Park                                  Cody
----------------------------------------------------------------------------------------------------------------
Wyoming                               Sheridan                              Sheridan
----------------------------------------------------------------------------------------------------------------
Wyoming                               Laramie                               Cheyenne
----------------------------------------------------------------------------------------------------------------


    c. Of the eight states that meet the initial criteria for the new 
rural initiative, have any filed paperwork or are awaiting approval for 
a state cemetery grant?
    Response. Idaho has received and accepted an opportunity offer for 
an expansion grant at Idaho State Veterans Cemetery in Boise. The State 
is currently working on requirements for funding in 2012.
    Montana has received and accepted an opportunity offer for an 
expansion and improvement grant for Western Montana Veterans Cemetery 
in Missoula and is currently working on requirements for funding in 
2012. Another improvement grant for Montana State Veterans Cemetery in 
Helena is in the project inventory.
    Nevada received an expansion and improvement grant in 2011 for 
Southern Nevada Veterans Cemetery in Boulder City. Construction is in 
progress. The State has received and accepted an opportunity offer for 
an expansion grant for the same cemetery and is currently working on 
requirements for funding in 2012. An additional operations and 
maintenance grant for the cemetery is in the project inventory. One 
grant pre-application for establishment of a cemetery in Fallon has 
been submitted but requires matching funds before being considered.
    North Dakota was awarded an operations and maintenance grant in 
2011 for North Dakota Veterans Cemetery in Mandan.
    Maine was awarded two grants in 2011. One was an expansion Grant 
for Southern Maine Veterans Cemetery in Springvale. Construction is in 
progress. The other was an operations and maintenance grant for Maine 
Veterans' Memorial Cemetery Civic Center Drive in Augusta. An 
improvement grant for Maine Veterans' Memorial Cemetery Mt. Vernon Road 
in Augusta, ME, is in the project inventory. Another improvement grant 
pre-application for Northern Maine Veterans' Cemetery in Caribou needs 
matching funds before being considered for funding.
    Utah had two grants funded in 2011 for Utah State Veterans Cemetery 
in Bluffdale. One was an operations and maintenance grant. The other 
was an expansion and improvement grant.
    Wisconsin has one operations and maintenance grant for Southern 
Wisconsin Veterans Memorial Cemetery in Union Grove, WI, that is in the 
project inventory.
    Wyoming has received and accepted an opportunity offer for an 
operations and maintenance grant for Oregon Trail Veterans Cemetery in 
Evansville and is currently working on requirements for funding in 
2012. Another improvement grant for the same cemetery is in the project 
inventory.
    Please note that the service area for each proposed National 
Veterans Burial Ground does not overlap with a planned or existing 
State or Tribal cemetery.

    d. According to the fiscal year 2013 budget request, 89% of 
veterans were served by a burial option within 75 miles of their 
residence in 2011. Of the remaining veterans not served by a burial 
option within 75 miles, how many live in the eight states meeting the 
initial criteria for the rural initiative? Please detail the 
information by state.
    Response. Note: These numbers include Veterans expected to be 
served by the eight new National Veterans Burial Grounds since they are 
not included in the 89% of Veterans currently served.


------------------------------------------------------------------------
                                                   Unserved
                      State                        Veterans
------------------------------------------------------------------------
Idaho............................................    54,092
Maine............................................     7,806
Montana..........................................    34,594
Nevada...........................................    13,690
North Dakota.....................................    42,962
Utah.............................................    35,687
Wisconsin........................................    42,654
Wyoming..........................................    46,607
                                                  -----------
  Total*.........................................   278,092     1.30%
------------------------------------------------------------------------
* As of 9/30/11


    Question 27. During the first session of the 112th Congress, the 
Senate Committee on Veterans' Affairs held two hearings on issues 
within VA's mental health program. The hearings highlighted the 
problems veterans face in accessing needed on-going treatment in mental 
health clinics. These hearings also probed the results of a VA survey 
of Veterans Health Administration mental health providers who revealed 
the problem with veterans accessing care. How does the fiscal year 2013 
budget address the issues relating to wait times for appointments, a 
lack of availability of follow-up appointments, staffing shortages, and 
lack of space in the mental health clinics which were raised in the 
Committee hearings?
    Response. VA's 2013 budget provides $6.2 billion for mental health 
care, an increase of $450 million, or 12 percent, over the FY 2011 
enacted level. Over the four-year period from 2009 through 2012, VA 
will have spent $21.0 billion on mental health care. VA is expanding 
mental health programs and is integrating mental health services with 
primary and specialty care thus providing better coordinated care for 
our Veteran patients.
    On April 19, 2012, VA announced the department would add 
approximately 1,600 mental health clinicians--to include nurses, 
psychiatrists, psychologists, and social workers as well as nearly 300 
support staff to its existing workforce of 20,590 mental health staff 
as part of an ongoing review of mental health operations. VA's ongoing 
comprehensive review of mental health operations has indicated that 
some VA facilities require more mental health staff to serve the 
growing needs of Veterans. VA is moving quickly to address this top 
priority. Based on this model for team delivery of outpatient mental 
health services, plus growth needs for the Veterans Crisis Line and 
anticipated increase in Compensation and Pension (C&P)/Integrated 
Disability Evaluation System (IDES) exams, VA projected the additional 
need for 1,900 clinical and clerical mental health staff at this time. 
As these increases are implemented, VA will continue to assess staffing 
levels.
    On April 24, 2012, VA announced that it has expanded its mental 
health services to include professionals from two additional health 
care fields: marriage and family therapists (MFT) and licensed 
professional mental health counselors (LPMHC).
    The two fields will be included in the hiring of an additional 
1,900 mental health staff nationwide mentioned above. Recruitment and 
hiring will be done at the local level. The new professionals will 
provide mental health diagnostic and psychosocial treatment services 
for Veterans and their families in coordination with existing mental 
health professionals at VA's medical centers, community-based 
outpatient clinics, and Vet Centers.
    VA has developed qualification standards for employment as LPMHCs 
and MFTs and has announced the appointments of mental health and health 
science professionals to serve on professional standards boards. The 
boards will review applicants for LPMHC and MFT positions in the 
Veterans Health Administration (VHA) to determine eligibility for 
employment and the government grade level appropriate for the 
individual in the selected position. The boards will also review 
promotions in these positions.
    In FY 2012, VA is following up on the issues raised by the query of 
mental health professionals with the Mental Health Action Plan, which 
focuses on actions in four areas.

    <bullet> To address scheduling issues, VHA conducted an internal 
review of the mental health scheduling process and is also providing 
continuing support for the OIG review of the mental health scheduling 
process. VHA has added new performance measures in FY 2012 to allow 
VISN/VACO leadership to identify and improve processes that impact 
timeliness for facilities that are not currently providing timely 
follow up for Veterans discharged from inpatient mental health care; 
timely provision of enhanced care for Veterans identified at risk for 
suicide; timely access to PTSD services; and timely access to eight 
sessions of psychotherapy for OEF/OIF/OND Veterans with PTSD . During 
FY 2012, VHA is developing additional measures to monitor access for 
other types of mental health services for deployment in FY 2013. 
Additional efforts are also aimed at improving the scheduling system 
overall. The goal of the National Medical Scheduling initiative is to 
replace VHA's existing scheduling system with one that allows VHA to 
provide more Veteran-centric scheduling, to make the process easier and 
more efficient for schedulers, and to more effectively manage 
resources. VHA is currently reviewing responses to the Request for 
Information (RFI) which was issued to assess the current market for 
scheduling replacement options. Next steps may include use of a contest 
to identify best practices and ultimately issuance of a Request for 
Proposal (RFP).
    <bullet> To address staffing issues, VHA has developed and is 
implementing a national mental health staffing model starting in FY 
2012. Full implementation of the model will provide VISN/VHA leadership 
with a national standard for staffing mental health services. In 
conjunction with the utilization projection models used by VHA in 
developing the budget requests, expected increases in demand for mental 
health services are built into the budget request. Targeted increases 
in staffing will be deployed in FY 2012 and FY 2013 as appropriate 
based on the mental health staffing model. Additionally, targeted 
increases will be provided to address staffing requirements for the 
expected increase in C&P /IDES exams.
    <bullet> To address space shortages, VHA has requested that 
facilities evaluate both short-term and long-term strategies. Because 
of the length of time required to fully develop capital improvement 
plans, facilities have identified short-term actions to improve 
utilization of existing space such as use of off-hours scheduling, use 
of telemental health, sharing of offices for administrative staff, 
reallocation of space from programs that have decreased demand to 
programs that are increasing in demand as well as planned capital 
improvements or minor renovation projects that will open in FY 2012/
2013. Long-term plans include prioritization of capital improvement 
plans for mental health space needs and/or leasing space in the FY 2014 
SCIP planning cycle. New space and renovations for mental health is a 
critical element in the prioritization process for the SCIP process, 
with projects supporting mental health needs ranking in the second 
highest criteria--Secretarial priorities; safety is the first criteria. 
This has been the mental health ranking for the past two SCIP 
prioritization cycles, and it is anticipated to remain as such in the 
FY 2014 process as well. With this designation in the priority ranking, 
a large amount of funding has been and continues to be targeted toward 
mental health projects or projects that potentially include mental 
health facets. In fact, for VHA's FY 2012 and FY 2013 budgets, mental 
health specific projects represent over 13 percent and mental health 
plus potential mental health projects represent over 25 percent of the 
planned funding with the appropriated and requested budgets ($321 
million and $623 million, respectively, out of $2.51 billion.)
    <bullet> To ensure continued identification and improvement to 
address barriers to access for mental health care, VHA has initiated 
additional quality improvement processes, including the use of site 
visits to all VHA health care systems in FY 2012, to collaborate with 
facilities/VISNs in identifying opportunities for improvement in care 
and best practices for dissemination throughout VA in the provision of 
care. The site visits to review mental health programs at all VHA 
health care systems are currently in process and are scheduled to be 
completed by September 30, 2012. Selected follow-up visits will be 
schedule for FY 2013. In FY 2012, VHA is also developing a staff survey 
and a Veteran survey for use by facilities in obtaining routine 
feedback about perceived barriers to care from front-line mental health 
staff and Veterans using mental health services. Also in FY 2012, VHA 
leadership has chartered a workgroup to review the mental health 
program overall, identify gaps in care, and develop a plan to address 
within FY 2012 and FY 2013.

    Question 28. Within the President's fiscal year 2013 Budget 
Submission, VA listed a ``VA Real Property Cost Savings and Innovation 
Plan,'' reflecting savings of $66 million in fiscal year 2013 and $66 
million in fiscal year 2014. VHA's portion purportedly includes a 
number of initiatives to repurpose vacant and underutilized assets. VA 
indicated it has ``identified 166 vacant or underutilized buildings to 
repurpose for homeless housing and other initiatives.''
    a. Please describe in detail the ``other initiatives'' being 
considered by VA and the current status and manner of planning 
(contract, internal VA, etc.) for each initiative.
    Response. All buildings identified in this section of the VA Real 
Property Cost Savings and Innovation Plan have been successfully out-
leased to 3rd parties, having been repurposed using VA's recently-
expired (December 31, 2011) Enhanced-Use Lease (EUL) Authority. While 
VA does have other authorities and internal options for repurposing 
assets, this section of the cost savings plan focuses on EULs 
specifically, because they transfer operational costs to such 3rd 
parties for an extended period of time, allowing operational cost 
savings to occur while providing value to the VA, Veterans, and local 
communities.
    VA remains committed to the objective of the EUL program to 
effectively leverage and manage its inventory of underutilized 
properties through projects beneficial to Veterans, VA, Federal and 
state governments, local communities, and American taxpayers. The 
Administration will work with the Congress to develop future 
legislative authorities to enable this Department to further repurpose 
its underutilized properties.
    The $66 million in savings is specific to VHA, but is not all 
related to the repurposing of vacant or underutilized assets. VA 
included other initiatives in the savings plan, such as savings from 
green management actions and reductions in leasing, that contribute to 
the overall $66 million savings for VHA. These savings will be realized 
by the end of 2012 as required by the Presidential Memorandum of 
June 2010 for disposing of unneeded Federal real estate. Savings in 
2013 and 2014 would be recurring savings from the actions taken by the 
end of 2012; no additional actions are included in the plan beyond 2012 
in accordance with the Presidential Memorandum.

    b. Please provide a list of the locations of these 166 
underutilized assets; the proposed or planned purpose for each asset; 
and the fiscal year in which the asset is expected to be repurposed to 
achieve the purported savings.
    Response. The requested information is included in the spreadsheet 
below. This information includes permanent housing, transitional 
housing, assisted living facilities, and nursing/long-term care 
facilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 29. Following the fiscal year 2012 budget hearing, the 
Committee asked a question relating to VA research into the ``health 
conditions and risk factors that relate to homelessness and on the 
effectiveness of VA homeless services.'' In VA's response, VA provided 
the Committee with information about current studies underway and 
stated that ``[w]e anticipate preliminary data on most of them to be 
available by the end of [f]iscal [y]ear 2011, and final reports by the 
end of [f]iscal [y]ear 2012.''

    a. Please share any preliminary data VA may have from these 
studies.
    Response. VA recognizes the importance of studying and 
understanding the homeless and at-risk of homelessness Veteran 
population. To this end, VA is conducting several ongoing studies in 
order to better understand the risk factors related to homelessness and 
the effectiveness of VA homeless services. These studies have informed 
and will continue to inform VA's strategy to end Veteran homelessness.
    VA has already published some of the research findings from studies 
that were ongoing during the FY 2012 budget hearings. For example, with 
regard to research on homeless risk factors, VA and HUD collaborated on 
the Veteran Homelessness: A Supplemental Report to the 2010 Annual 
Homeless Assessment Report to Congress (Vet AHAR). The Vet AHAR 
describes the extent and nature of homelessness among Veterans. The Vet 
AHAR analyzes the demographic characteristics of homeless Veterans, 
including race, ethnicity, gender, age, and disability status. These 
characteristics are compared to those of other populations including 
the non-Veteran homeless population, the total Veteran population, and 
the population of Veterans living in poverty. These comparisons 
highlight the higher risks of homelessness faced by Veterans, 
particularly poor Veterans.
    The Vet AHAR found that female Veterans are at especially high risk 
of homelessness, and the risk increases considerably if the female 
Veteran is impoverished. Female Veterans are more than twice as likely 
to be homeless as female non-Veterans, and female Veterans in poverty 
are more than three times as likely to be homeless as female non-
Veterans in poverty. Additionally, male Veterans are at a lower risk of 
homelessness when compared to their non-Veteran counterparts; however, 
male Veterans living in poverty are at greater risk of homelessness. 
Furthermore, the prevalence of sheltered homelessness among minority 
groups in poverty is very high. More than 18 percent of poor Hispanic/
Latino Veterans, 26 percent of poor African American Veterans, and 26 
percent of poor American Indian and Alaska Native Veterans were 
homeless at some point during 2010. Young Veterans (between the ages of 
18 and 30) are also at high risk of using the shelter system, 
especially young Veterans in poverty. Young Veterans are more than 
twice as likely to be homeless as their non-Veteran counterparts, and 
young Veterans in poverty are almost four times as likely to be 
homeless than their non-Veteran counterparts in poverty. Last, homeless 
Veterans are largely white men with a disability and between the ages 
of 31 and 61. For more information, please find the Vet AHAR at the 
following link.
    http://www.va.gov/HOMELESS/docs/
2010_AHAR_Veterans_FINAL_10242011.pdf
    Additionally, in August 2011, the VA National Center on 
Homelessness among Veterans published a study entitled Prevalence and 
Risk of Homelessness among U.S. Veterans: A Multisite Investigation. 
The principal findings of this study indicate that Veteran status is 
associated with a higher risk of homelessness and that a greater 
proportion of Veterans were in the homeless population than in either 
the general population or the population living in poverty. More 
specifically, in terms of age, across the general homeless population 
(Veterans and non-Veterans), males had the highest risk for 
homelessness in the 45-54 year age group. For females, risk for 
homelessness was highest among the 18-29 year age group and risk 
declined as age increased. For more information, please find study at 
the following link.
    http://www.va.gov/HOMELESS/docs/Center/Prevalence_Final.pdf
    VA continues to study the effectiveness of VA homeless services. 
For example, the VA's National Center on Homelessness among Veterans is 
completing a study on Veterans exiting the HUD-VA Supportive Housing 
(HUD-VASH) Program and completing a study examining the effectiveness 
of a pilot program implementing the Housing First Model at selected 
HUD-VASH sites. Preliminary findings from the HUD-VASH Exit Study 
reveal that male Veterans with substance use disorders are 
disproportionally represented in the negative exits. Additionally, 
chronically homeless Veterans admitted to HUD-VASH are able to maintain 
housing at similar rates to the non chronic homeless population. 
Finally, the most prevalent factor in a negative discharge was failure 
to comply with the Landlord/Tenant lease agreements.

    b. How has the preliminary data been used to ensure VA is providing 
the needed services to reduce the number of homeless veterans?
    Response. Throughout the course of these research studies, VA has 
used the preliminary and now final data from Prevalence and Risk of 
Homelessness among U.S. Veterans: A Multisite Investigation and the 
preliminary and now final data from the Vet AHAR to inform VA's 
strategic plan for the Ending Veteran Homelessness Initiative. VA 
continues to carefully review all major research publications in the 
field of homelessness as well as preliminary and finalized VA homeless 
research data to ensure VA is effectively preventing and ending Veteran 
homelessness.
    c. Are the final reports still expected to be available at the end 
of fiscal year 2012?
    Response. VA is in the process of finalizing several studies and 
reports on VA homeless programs and services. For example, VA is 
finalizing a report examining the characteristics and trends of 
Veterans exiting the HUD-VASH Program. VA is also examining the 
effectiveness of the Housing First Model in the HUD-VASH Program by 
examining trends, lease up rates, treatment engagement, and the impact 
of housing on Emergency Room and acute hospitalization rates.

    Question 30. The Secretary of Veterans Affairs recently announced 
that the number of homeless veterans dropped by 12 percent from 2010 to 
2011, bringing the approximate number of homeless veterans in 2011 to 
67,495. Both the President and the Secretary attribute the improvement 
to over a billion dollars invested in homeless initiatives by the 
Federal Government. The fiscal year 2013 budget request indicates the 
goal of reducing the number of homeless veterans to 35,000 in 2013.
    a. Please describe what manner, means, and methods, if any, are 
currently in place, or will be in place, to specifically identify the 
homeless veterans who have been removed from the homeless count in 
2011.
    Response. The Secretary of VA and the Secretary of HUD announced 
that the annual HUD Point in Time (PIT) count decreased by 12 percent 
from 2010 to 2011, bringing the number of homeless Veterans on any 
given night in 2011 to approximately 67,495. The decrease in the number 
of Veterans identified through the PIT count is a positive indicator 
that modest but significant gains have been made in reducing Veteran 
homelessness. However, it is important to clarify that PIT data is self 
reported de-identified data. VA cannot identify Veterans from the PIT 
count who have exited homelessness.

    b. If there are no tracking methods in place and coordinated and 
utilized across VHA and the Veterans Benefits Administration, are there 
any plans to develop such a tracking capability?
    Response. Through its comprehensive Homeless Registry,VA can 
identify homeless Veterans that have exited homelessness. The VA 
Homeless Registry is a database and reporting system that provides 
longitudinal Veteran-specific, identified information related to 
homelessness and at risk for homelessness. The Homeless Registry 
provides reports that detail the number of homeless Veterans entering 
and exiting VA services including permanent housing. It can also 
provide data regarding the Veteran's current engagement with VA 
treatment and benefit services that are critical to helping Veterans 
obtain and maintain permanent housing. Currently, the VA Homeless 
Registry is in field testing, with intent to be fully deployed in 
fiscal year 2012.
    Additionally, future plans for the comprehensive VA Homeless 
Registry include data matching and integration with HUD's Homeless 
Management Information System (HMIS). HMIS is a software application 
used by HUD-funded Homeless Continuums of Care (CoC) providers to 
record and store client-level information on the characteristics and 
service needs of homeless individuals and families. Once VA obtains the 
appropriate data sharing agreements with the local CoCs, VA will have 
an internal and external data system that can monitor prevalence rates 
and program effectiveness for our Veterans. Although this full 
integration is dependent on communities' willingness to share their 
Veteran identified HMIS data with VA, HUD and VA are working closely 
with local CoCs to make full data integration a reality.

    Question 31. In fiscal year 2011, VA allocated $17 million for non-
recurring maintenance for correcting patient privacy deficiencies. In 
the questions for the record following the fiscal year 2012 budget 
hearing, VA provided a list of women's projects from the fiscal year 
2012 Strategic Capital Investment Planning process.
    a. Please provide an updated list of construction projects relating 
to correcting patient privacy deficiencies.
    Response. The information is in the spreadsheet that follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    b. In fiscal year 2013, how much is requested to correct patient 
privacy deficiencies? Also, please provide a list of facilities that 
will receive funding in fiscal year 2013.
    Response. New space and renovations for privacy and women's health 
are critical elements in the prioritization process for our 
construction programs, with privacy ranking in the top criteria under 
safety and women's health ranking in the second highest criteria under 
Secretarial priorities. As can be seen in the attached spreadsheet, a 
significant amount of funding has been and continues to be targeted 
toward privacy and women's health projects. In fact, for VHA's FY 2011 
construction programs, privacy and women's health supported over 1/3 of 
the available NRM and Minor funding ($884 million out of a total of 
$2.5 billion); and privacy and women's health represents almost 60 
percent of the planned projects with the appropriated and requested FY 
2012 and FY 2013 budgets ($1.5 billion out of $2.51 billion).
    [Refer to spreadsheet for question 31a.]

    Question 32. In fiscal year 2012, VA requested $3.04 million to 
continue a ``Health and Wellness Initiative'' started in fiscal year 
2011. In response to a question for the record asking how effective 
this program has been in promoting healthier employees, VA responded 
that ``[p]rogram effectiveness measures will be reviewed at six months 
and at the end of the fiscal year.''
    a. Please describe the specific objectives of this program and what 
benchmarks will be used to measure success. Please provide the 
Committee with documents assessing the effectiveness of the program.
    Response. The objective of this program is to support the 
transformation of the VA into a model employer by providing a program 
which supports a healthier workforce. This initiative supports VA 
Strategic Goal #4, 4.1 which focuses on improving internal customer 
satisfaction with management systems and support services including 
operations and business process of Human Resources. Healthier employees 
will be better able to provide high-quality service to Veterans and 
their families.
    Data obtained in FY 2011, which is identified as the baseline year, 
will continuously be measured against data obtained in subsequent 
years. Data from annual completion of the health risk assessments will 
be used to identify programs and measure program effectiveness through 
employee self identification of:

    a. Absenteeism rates--Days taken off work for non-work related 
medical, personal or other reasons. (self reported via the health risk 
assessment)
    b. Presenteeism rates--Lack of desire to perform assigned duties. 
Merely showing up for work (self reported via the health risk 
assessment)
    c. Improved management of chronic medical conditions (self reported 
via the health risk assessment).
    d. Increased job satisfaction (determined by satisfaction survey 
results). (FY 2012 is the baseline year for this survey.)

    Thus far participation has increased 6% in FY 2012 to an overall 
participation rate of 16%. The following table presents the baseline 
for absenteeism for FY11:

                                             HPLI Absenteeism Report
                                                 April 17, 2012
----------------------------------------------------------------------------------------------------------------
                                                   Avg
                   Condition                       Days      N=      Age    %Pop     Per Person      Aggregate
----------------------------------------------------------------------------------------------------------------
Allergies......................................   .1731     9516    45.0     33%       $432.15     $4,112,386.45
Anxiety........................................   .5369     2453    44.0      8%     $1,339.98     $3,286,977.30
Arthritis......................................   .2755     4275    51.0     15%       $687.61     $2,939,535.14
Asthma.........................................   .2124     2491    46.0      8%       $530.16     $1,320,629.52
Autoimmune.....................................   .4867      712    48.0      2%     $1,214.87       $864,987.86
Back Pain......................................   .5074     3948    47.0     13%     $1,266.42     $4,999,808.35
Cancer.........................................   .5         790    53.0      2%     $1,248.00       $985,920.00
Depression.....................................   .5384     3331    46.0     11%     $1,343.83     $4,476,294.16
Diabetes.......................................   .1861     2137    52.0      7%       $464.43       $992,483.11
Diabetes Type 1................................   .3426      135    45.0       %       $855.11       $115,439.80
Digestive......................................   .3147     2361    45.0      8%       $785.39     $1,854,303.11
Heart Disease..................................   .4571      933    53.0      3%     $1,140.99     $1,064,542.73
Hypertension...................................   .1443     7122    49.0     25%       $360.26     $2,565,737.31
Mental.........................................  1.3971      402    43.0      1%     $3,487.26     $1,401,878.10
Metabolic......................................   .1325     2002    47.0      7%       $330.74       $662,136.42
Migraines or headaches.........................   .5454     3811    44.0     13%     $1,361.34     $5,188,079.54
Neck Pain......................................   .3202     3004    47.0     10%       $799.34     $2,401,221.88
Periph Vascular Disease........................   .3252      143    53.0       %       $811.63       $116,063.71
Pulmonary......................................   .5289       95    52.0       %     $1,320.25       $125,423.91
Respiratory....................................   .415      1438    49.0      5%     $1,035.81     $1,489,487.67
Seizures.......................................   .1879      141    46.0       %       $469.11        $66,143.91
Stroke.........................................   .1979       96    52.0       %       $494.00        $47,423.84
----------------------------------------------------------------------------------------------------------------
HPLI absenteeism results for participants meeting these criteria: Starting: 10/1/2010, Ending: 9/30/2011
Total participants completing an HRA: 28402
LEGEND:
Avg Days = Number of days the average person with this condition misses per 30 days due to the condition--
  generally a partial day such as 0.5 (e.g. 1/2 a day).
N = Count of participants with the condition shown.
Age = average age of the stated percent of individuals who responded to the question.
% Pop = Percentage of the total HRA population with the condition. ``Per person'' and ``Aggregate'' figures are
  annual costs and assume a labor cost per hour of $39.00
Total absenteeism loss is estimated at: $41,076,903.81


    Chairman Murray. Thank you very much, Mr. Secretary. Let me 
begin the questions by getting this one off the table. It is on 
the issue of sequestration and cuts to spending. Like I said in 
my opening remarks, I believe that all VA programs, including 
medical care, are exempt from cuts; but there is some ambiguity 
between the Budget Act and the existing law.
    When I asked the Acting OMB Director to address this issue 
during a Budget Committee hearing 2 weeks ago, he said OMB has 
yet to make a final determination.
    So, I am concerned that by not settling this issue now we 
are really failing to provide our veterans with the clarity 
that they really deserve to have.
    So, while you are here I wanted to ask you: do you believe 
that all VA programs, including medical care, are exempt from 
any future cuts?
    Secretary Shinseki. I think, Madam Chairman, the answer 
that the OMB Director provided you is the same one that I 
understand. They are still addressing the issue.
    For my purposes, I would tell you I am not planning on 
sequestration. I am addressing my requirements and presenting 
my budget as you would expect me to do.
    I think sequestration, in part or in whole, is not 
necessarily good policy, and I think the President would argue 
that the best approach here is a balanced deficit reduction, 
and he believes that the budget he has presented does that and 
asks that the Congress look at that budget and favorably 
consider it.
    Chairman Murray. I think we all hope that that is the 
outcome, but we want to provide clarity to our veterans. They 
are very concerned about this issue.
    Mr. Secretary, last year we talked a lot about mental 
health care, and I think we together uncovered a lot of serious 
issues best summed up by a veteran that I heard from recently 
who uses Ann Arbor Medical Center and had to wait months and 
months to get into counseling, but then he had glowing things 
to say about his mental health providers once he got in.
    So, in order to address those types of issues, the VA has 
to be certain it has enough resources to not only keep up with 
the increasing number of veterans who are seeking mental health 
care, but also to bring down that unacceptably long wait time.
    Over the course of the last fiscal year, the number of Iraq 
and Afghanistan veterans who are looking for mental health care 
went up by about 5 percent. That is about 18,000 veterans every 
quarter.
    So, I wanted to ask you this morning if you believe the 
increase in mental health funding in the budget request is 
sufficient to accomplish the goals and keep up with this 
increasing demand.
    Secretary Shinseki. I believe that the budget, if you look 
at the 2013 budget request, I think is adequate for us to meet 
what we understand our requirements are in 2013. Are there 
issues out there that we will discover between now and the 
execution of the budget, I would say if we do, Madam Chairman, 
I would be the first to tell you.
    Now, you asked us to do a survey and we did. It was very 
hastily done. Senator Burr referred to some of the output, the 
conclusions out of that survey. Out of 20,000 of our mental 
health providers, 319 were surveyed and the results were as 
described.
    My question of the Veterans Health Administration (VHA) was 
did you go to the places that we thought there would be 
problems and the answer was yes because we were asked to go 
figure this out.
    So, I would say we got a pretty pure response. What I think 
we need to do is to make sure we are going to take another 
broader look here and make sure we understand across the larger 
population what our issues are and where there are 
opportunities for reallocation or, as it becomes clear, to hire 
more people.
    I would offer to the Chair, I took a look at what we have 
done in mental health over the last four budgets. If we look at 
2012 to 2013, it is rather unimpressive. I mean, it is 5 
percent and it matches the increase in the medical budget.
    But between 2009 and 2013, our increase is 39 percent in 
mental health; and if you include the 2014 advance 
appropriation, it will go up 45 percent.
    Chairman Murray. And that is the result of the number of 
soldiers who are coming home with the invisible wounds of war 
which is dramatically increasing, correct?
    Secretary Shinseki. True, but we are trying to anticipate 
that there is going to be a larger requirement here in the out-
years even if we do not have clarity. We are trying to prepare 
for that. We want to do a larger survey here as I indicated and 
then see what the outcomes are.
    But let me turn to Dr. Petzel for any details here.
    Dr. Petzel. Thank you, Mr. Secretary.
    Madam Chairman, as a result of the hearing that we had 
earlier in the year, we have now done two things that are, I 
think, important and on point with regard to your question.
    One is that we have developed a staffing model. It is the 
only staffing model that I know that is available about mental 
health. It is in the beginning stages, but it is giving us some 
information about what the need might be.
    But I think more importantly we are sightvisiting all 152 
of our medical centers to look at the access to mental health 
services, both the initial appointment and subsequent 
appointments for PTSD in-patient program, group or individual 
psychotherapy.
    And what we are finding is that we do meet the criteria for 
the first appointment in most every instance. We are having 
some difficulty in some parts of the country making the next 
appointment in a timely fashion, getting them, as you mentioned 
earlier, into the specialty services. This could be the result 
of three things.
    One is: do we have enough staff out there? Have we given 
enough positions and enough resources? Two is: are those 
positions filled? Are they filling those positions in a timely 
fashion? And the third is: are we getting the appropriate level 
of productivity out of each one of those people?
    If we do discover, as the Secretary just mentioned, that we 
do have additional needs that are unmet, I can guarantee you we 
will be in communication with the Committee about those needs 
and for that discussion.
    Chairman Murray. OK. I appreciate that. This is a top 
priority for us this year.
    Secretary Shinseki. I would just share that in fiscal year 
2011 we hired about 897 additional mental health professionals 
bringing us up to about 20,500 mental health professionals.
    So, the interest is there in trying to determine what the 
requirement is, and we are not hesitant about increasing those 
numbers.
    Chairman Murray. Thank you very much.
    Senator Burr.
    Senator Burr. I thank the Chairman. Since the Chair just 
asked about mental health, let me just ask if my information is 
correct. In December, the VA polled their facilities and they 
found there were 1,500 open mental health positions. Is that 
accurate, Dr. Petzel?
    Secretary Shinseki. Let me turn to Dr. Petzel.
    Dr. Petzel. Could you repeat that number, Senator Burr?
    Senator Burr. That December 2011, the VA polled their 
facilities and found that there were 1,500 mental health slots 
that were unfilled meaning----
    Dr. Petzel. Out of 20,500 that is true, yes.
    Senator Burr. OK. I just wanted to make sure the 
information I had was correct.
    Mr. Secretary, I wanted to thank you for something 
unrelated to this budget hearing. March 31 in North Carolina we 
will have the first in the country Welcome Home Vietnam Vets 
Day, an all-day event and I want to thank you for the VA's 
cooperation in making sure that the VA presences there to make 
sure that we are able to catch those who have fallen through 
the cracks, work with those who have problems and will have a 
VA mobile presence there as we will from DOD and a lot of 
private-sector entities that are working on employment, 
placement.
    I think this is a very, very special event that is long 
overdue and hopefully it will be the first of a total of 50 
that are held around this country; and I thank you for the VA's 
participation.
    I am going to ask for chart number 1 to go up. Earlier I 
mentioned a number of performance matrices that seem to be 
heading in the wrong direction when it comes to claims 
processing; but I want to start by talking about the quality of 
VA's decisions on disability claims.
    Your goal is to have 98-percent accuracy, but for the past 
3 years accuracy nationwide has been about 84 percent; and as 
of December 2011, the accuracy rate at regional offices around 
the country varies from 94 to 61.
    Mr. Secretary, in total how much is VA requesting for 2013 
budget to carry out all of those quality initiatives including 
the quality review teams at each of the regional offices?
    Secretary Shinseki. Thank you, Senator. Let me turn to 
Secretary Hickey to answer that.
    Ms. Hickey. Thank you, Senator Burr, for your question. I 
am glad that you are asking about quality because we are very 
focused on both production and quality. It is not a trade for 
one or the other.
    I cannot give you the very specifics on each one of those 
costs, but I can tell you we expect the impact to be 
significant in our ability to produce a more accurate and more 
consistent response across the board.
    Our quality review teams are a critical part of this. For 
those of you who may not be aware of what those are, we have 
taken our Systematic Technical Advisory Review (STAR) teams, 
nationally recognized even by I think by Members of your 
Committee staff, based out of Nashville, TN.
    We have replicated their skill level, their training, and 
what they do every single day now inside every single regional 
office across the Nation.
    Their responsibility will be not just to check quality at 
the end of the process, but to also work closely with our 
employees in a training environment to check different parts in 
our process where we make most errors and to correct those 
issues early.
    Senator Burr. At what point on a calendar would you make a 
determination as to whether those quality initiatives are going 
to work and what indicators would you look at to make that 
decision?
    Ms. Hickey. Thank you, Senator, for your follow-up 
question. I will tell you we have already done that. No 
initiative that we have in our transformation plan of the 40 
plus initiatives in the people category: how we are organized 
and trained to do our work; in the process environment: how we 
have adjusted some of our business processes; or in our 
technology solutions have not been tried, tested, and measured 
for impact before we are implementing them.
    So, in fact, on the quality of review teams----
    Senator Burr. But at some point you have got to say we are 
going to look at it and see if this is working.
    Ms. Hickey. We did, sir, absolutely. We did in local pilots 
and we just announced this week, in fact----
    Senator Burr. So, a year from now when we get together for 
the 2014 budget, if the quality has not improved or the 
timeliness down, it will have failed?
    Ms. Hickey. No, sir, I do not expect the quality not to 
have improved. We have some very significant decisions and 
initiatives.
    Senator Burr. My point is what if it does not.
    Ms. Hickey. Sir, then we will adjust as necessary to find 
the reasons why. We will tackle that hard, but I do not expect 
that to be the answer. I expect us to see improvement in both 
quality and production.
    Senator Burr. Thank you.
    Secretary Shinseki. Senator, if I might, quality is a 
function of trained people with the right tools, and we are 
working on both items right now.
    Senator Burr. My question was simple, Mr. Secretary. At 
what point will we determine whether what we have implemented 
is working?
    Secretary Shinseki. Fair. We will be happy to provide that. 
We set a target of ending this issue with backlog in 2015. We 
begin fielding the automation tool we have been building for 2 
years in 4th quarter of this fiscal year. We expect that the 
tool will be rolled out nationally through 2013, in this 
budget; and as we do that, we expect both speed and quality to 
go up.
    Senator Burr. If I could ask the Chair for just one 
additional question on this round, and I would call up the 
second slide. VA made this projection last year at the budget 
hearing. ``Productivity due to the impact of the overall 
transformation plan which will rise from 89 annual claims per 
direct labor in 2012 to 129 in 2015.''
    As you can see from the chart, we talked about productivity 
per FTE best year at 79.5 percent. This year we are looking at 
73.5 percent. What percentage increase in individual 
productivity do you expect from the Veterans Benefit Management 
System and what percent do you expect from other initiatives 
that are underway at?
    Secretary Shinseki. I will turn to Secretary Hickey for the 
details. I would say what these charts do not reflect, Senator, 
is that in the last 3 years we have taken on some other 
projects that are unaccounted for here.
    The GI Bill requirement to get that program up and running, 
and today we have over 600,000 youngsters in college under an 
automated system that did not exist in 2009, and I think we all 
recall that first semester we had to do everything manually, 
and it was not the prettiest process.
    But we did that manually, got 173,000 youngsters in a 
school and on their path to the future. At the same time, we 
began building this automation tool for the GI Bill. By April 
we had the first part of that tool out and fielded and we have 
added four or five more versions to make it more productive.
    We will get better over time. It is hard for me to give you 
a day and a month when this quality factor will meet any of our 
expectations but we set on 2015 as the date on which we would 
have the backlog solved and the quality at 98 percent. That is 
what we are focused on.
    I will give you the best way points that we can figure out 
but that will be a product of what we are doing to train our 
work force and what we are doing to give them the right tools. 
We are talking about the right tools now.
    But in this same time you are questioning about the growth 
in our human resource investments for the Department, we've 
focused on training for our 300,000 employees, many of them who 
have never been trained on their job, so they can produce what 
we expect and that they can leverage these tools.
    Ms. Hickey. Thank you, Senator Burr. I would like to first 
start by saying thank you to you, Chairman Murray and the 
Members of this Committee for unprecedented budget increases 
that VBA has enjoyed in the last 3 years.
    I think we need to put that in a little context. That 36 
percent was used to tackle a 48 percent increase in claims over 
the same period of time, and that was to support nearly 12 
million servicemembers, veterans, their families, and 
survivors; and that is including a net increase in the last 
year of half a million new veterans to our rolls using our 
benefits and services.
    For the second year in a row, we also completed more than a 
million claims using those resources. That is 16 percent more 
claims per year than we have done in 2008, before that chart 
started doing some of those things.
    I will tell you and put frankly on the table that we have 
paid more than $3.3 billion to Vietnam veterans based on new 
Agent Orange presumptive conditions. I thank you for 
celebrating our Vietnam Veterans, we put more than $3.3 billion 
into the hands of 117,000 of those Vietnam Veterans out there 
in the last year.
    That had an impact on that line. That impact was that there 
were 260,000 other claims in backlog we did not get to. That 
also had an impact on FTE because we put two times the FTE 
associated with each one of those claims on those very 
difficult, complex and old claims.
    In addition, we stood up in the same period of time and put 
four times the level of FTE to our most wounded, ill, and 
injured in our integrated disability evaluation system to get 
those folks taken care of right and well the first time. So, 
that also had an impact on the line that you laid out in front 
of us.
    The positive news about all of that is we are nearly done. 
We are down to the double digit levels of the Agent Orange 
Nehmer cases, 99.9 percent done through those 250,000 cases.
    We are now capable of shifting all of those 13 resource 
centers we had across the Nation that were hunkered down doing 
those Nehmer Agent Orange claims. Tomorrow we are shifting that 
all back into normal backlog caseload. It will be focused on 
our benefits for discharged veterans. It will be focused on our 
Quick Start veterans, and it will be focused frankly on our 
oldest cases we have on the books during the month of March.
    Chairman Murray. Thank you, Senator Burr.
    Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman.
    General Shinseki, as you know, we often face challenges in 
treating our veterans who live in many rural and remote areas. 
This is especially true in places like Alaska and Hawaii where 
you just cannot get some places by jumping in a car and driving 
there.
    I know that you are working on an MOU with the Indian 
Health Service to find solutions to help provide services to 
our Native American veterans, and I commend you and all of your 
involvement in these efforts.
    Mr. Secretary, can I get your commitment to look into 
possible ways of working with the Native Hawaiian Health Care 
Systems and the Native American Veteran Systems to provide 
services for, in this case, Native Hawaiian Veterans who live 
in many of the rural parts of the State of Hawaii?
    Secretary Shinseki. Senator, you have my assurance that we 
will do our utmost to provide for any of our veterans wherever 
they live, including the most rural and remote areas, the same 
access and quality to health care and services as we provide to 
someone living in a more urban area.
    There is a challenge with that but we are not insensitive 
to that challenge, and we are working hard to provide VA-
provided services and, where we cannot, to make arrangements, 
if quality services exist in those areas, make arrangements for 
veterans to be able to participate in those local 
opportunities.
    We are, I think you know, working and have been now for 
some time, on signing an MOU with the Indian Health Service so 
that wherever they have facilities and we have a vested 
interest, a veteran, an eligible veteran going to an Indian 
Health Service facility will be covered by VA's payments. We 
are in stages of trying to bring that MOU to conclusion.
    We intend to do that. Where tribes approach us prior to the 
signing of that MOU to establish from a tribal Nation a direct 
relationship with VA because they have a medical facility and 
would like us to provide the same coverage, we are willing to 
do that but that will be on a case-by-case basis.
    Senator Akaka. Thank you.
    Secretary Shinseki, staffing shortages continue to be a 
problem although there has been progress. Some clinics are 
seeing staffing levels below 50 percent causing excessive 
waiting times for veterans that need care. I understand this is 
an issue you have been working on. As you know, the number of 
veterans needing services is growing yearly, and it shows that 
you have been making progress.
    Can you provide an update to the department's progress to 
address staffing levels?
    Dr. Petzel. Mr. Secretary, thank you.
    Senator Akaka, thank you for the question. We have talked 
about mental health earlier and the efforts that we are making 
to try to assess whether there is adequate staffing there.
    I think you are probably talking about primary care which 
is our largest outpatient clinic operation. We treat 4.2 
million veterans in our primary care system and that accounts 
for the lion's share of our budget expenditures.
    We assessed staffing 3 years ago when we began to implement 
what we call the Patient Aligned Care Team or PACT program and 
have done it again recently, and we are finding that we are now 
able to bring up the support staffing and the physician 
staffing to reasonable levels associated with the standards 
around the country.
    I would like to take off-line any information you have 
about specific places where there is a 50-percent vacancy rate. 
I am not aware of the fact that we have this around the country 
so I would be delighted to meet and talk with your staff and 
find out where these areas might be so that we can address them 
specifically.
    Senator Akaka. My time has expired but, Secretary Shinseki, 
as we face budget constraints, we must all work to improve our 
efficiencies and redouble efforts to look for ways to get the 
most for our budgeted resources.
    My question to you is: Can you talk about any steps you are 
taking to improve the acquisition process at VA and any 
efficiencies that you have been able to realize in this area?
    Secretary Shinseki. Senator, I would tell you that we have 
been working for several years now on restructuring our 
acquisition business practices. Three years ago acquisition was 
spread throughout the organization.
    Now it is consolidated in two centers. One comes directly 
under Dr. Petzel and that is for all medical acquisition, 
gloves, masks, aprons. We ought to be able to leverage that 
into a bulk purchase and get a good price on those kinds of 
things.
    For everything else we have an Office of Acquisition 
Logistics and Construction. We have a director who heads that 
office, and everything else governing acquisition is 
consolidated under his review.
    Both offices work acquisitions and the work of both offices 
then comes up to my level, to the Deputy Secretary, as part of 
our monthly oversight review process.
    Chairman Murray. Thank you. Thank you very much.
    Senator Johanns.
    Senator Johanns. Thank you.
    Mr. Secretary, let me, if I might, visit with you about the 
National Call Center. This is something that I think we had 
high hopes for. You might have had high hopes for, but I have 
to tell you it is not working well. Here is what we are running 
into.
    The complaints kind of fall into two separate categories. 
The first category would be people that call the call center 
and no one answers. I mean, it just rings and rings and rings, 
and there is no one there.
    I will tell you in my own Senate office my staff has run 
into this problem where we just cannot get a live person on the 
other end of the line.
    The second area is you finally get somebody, a live person 
to answer the phone, and you get connected with them and they 
do not have information. You know, the veteran is or we are 
calling in or somebody is calling in, what is going on with my 
claim or whatever it is, and you are just not getting a 
responsive human being on the other end of the line.
    I am guessing what it is is they just do not have access to 
the information that we are seeking, and so it seems to me that 
we are creating an expectation of service when really there is 
not much service there.
    I would like to hear your thoughts or whoever's thoughts on 
your team about the call center, what are the prospects for 
that, are you hearing these problems; and if we are still 
committed to the call center, what is in place or what will be 
in place to try to solve the issues that I have raised.
    Secretary Shinseki. Thank you, Senator. I have tested the 
call system myself, and sometimes have been pleasantly 
surprised, other times disappointed, but that has been 
something I have done for 3 years now; and then demanded that 
we go out and fix it.
    So, we are in the process of putting a fix in place called 
the Veterans Relationship Management System. If the concerns 
you are expressing are anything where the experience occurred 6 
months ago and longer, I would offer that we have put this tool 
in place and changes are occurring weekly, and I will ask 
Secretary Hickey to provide some detail.
    But I, like you, think when a veteran picks up a phone and 
calls VA, there ought to be someone there that answers. Or, if 
he or she chooses to come in online, that it ought to have 
information that is useful to them that is easily discovered so 
they do not have to run through a series of traps to find what 
they are looking for.
    We owe them, and that is the first step in any service 
organization and that is our intent here. So, let me call on 
Secretary Hickey.
    Ms. Hickey. Senator Johanns, thank you very much for your 
question, and I appreciate your comment earlier about 
eBenefits. That is actually part and parcel of our multi-prong 
approach in our Veteran Relationship Management (VRM) 
capability about being able to converse with that veteran in 
the time and the method that they choose. We have surveyed our 
veterans, and 73 percent of them want to meet us online. So, 
eBenefits is part of that solution.
    But let me address specifically your questions, first about 
no live person. Let me tell you about the two new pieces of 
functionality that we have measured outcomes on from our J.D. 
Powers' Voice of the Veteran (VOV) Pilot Survey, the first of 
which is virtual hold.
    It means if a veteran calls us and there is a long waiting 
time, they can elect this hold option, hang up the phone, 
continue feeding the baby, getting ready for work, doing 
whatever it is they need to do, and we will call them back on 
cue. Ninety-two percent of our veterans have elected that 
option, and we have connected with them.
    The second one is our scheduled callback, meaning I cannot 
wait on the line with you now but can schedule a time that I 
can talk to you, and you will guarantee to call me back. We 
have just implemented that one in December.
    Between those two, one million veterans have elected those 
options. As a result, we have seen clear, demonstrated, 
measurable performance. We have a 15-percent improvement in 
overall satisfaction on the ability of our veterans to get 
through, and we have seen a dropped call rate reduction of 30 
percent.
    Those are both part and parcel of the new technology and 
the new ways we using our Veteran Relationship Management (VRM) 
system's capabilities.
    In another VRM initiative, previously our call agents would 
have had to cycle through 13 different databases to get that 
veteran or family member, or survivor the information they 
needed.
    Today, as we deploy this, and it is critical for our IT 
budget, unified desktop puts all 13 databases worth of that 
critical information you want to know on one screen, making our 
call agent much more effective in delivering a good outcome.
    Also built into this is world-class call recording, call 
tracking, and data analytics that we are literally using every 
single day to improve our service in that environment.
    Senator Johanns. I am out of time but if I could just ask 
as these things are being implemented, as we are going down the 
road here if periodically you could give us on the Committee an 
update as to the progress you are seeing because I do think 
there is real hope with the call center.
    You know, the veteran, at least, can get somebody who can 
answer their question, et cetera. So, I would just like to stay 
abreast of how they are doing so I do not lose track of it.
    Ms. Hickey. I would be very happy to do that, Senator.
    Chairman Murray. Thank you very much.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Madam Chairman.
    I appreciate seeing Secretary Shinseki and all of the folks 
on the panel today.
    A special thank you to you, General, for coming to Montana 
last summer. The veterans are very appreciative of that as was 
I. And you, too, Bob; thank you very, very much for being there 
and listening and hearing. So thank you very, very much.
    I want to talk a little bit about what Senator Akaka talked 
about very, very quickly, and that is the kind of strategies 
that the VA is using to recruit folks.
    This is not in the GP area. This is an area that is much 
more difficult in my opinion, and GP is not easy, but that is 
the need for mental health professionals.
    As you know, Dr. Petzel--I think you were there when we 
opened the facility in Helena--it is a great facility. We still 
do not have staffing at this point in time as far as 
psychiatrists.
    Do you have the adequate amount of flexibility to be able 
to go out and recruit--and it can go to the Secretary or to Dr. 
Petzel--to be able to go out and recruit and really get folks 
in because I am not sure we are there yet?
    Dr. Petzel. Thank you, Mr. Secretary, and thank you, 
Senator Tester. I am aware of the issues at Fort Harrison. We 
have four psychiatrist vacancies. In general, we can recruit 
around the country very successfully for psychiatric social 
workers, for psychiatric nurse clinicians, and for clinical 
psychologists.
    The most difficult recruitment for us is the M.D. position 
of psychiatrists.
    Senator Tester. Yes.
    Dr. Petzel. We are not unique. This is an issue that all 
health systems around the country face. We are very 
competitive, however, in terms of wages, in terms of working 
conditions and the other kinds of things that are appropriate, 
and are needed for recruitment.
    So, I think we are in a position to do the best job we can 
of recruiting. I do not know what we could add right now to the 
basket, if you will, of things that we have to offer. It is a 
matter of identifying the people that want to come to places 
like Helena, which is beautiful, by the way.
    Senator Tester. Thank you.
    Dr. Petzel. In an environment where there just are that 
many of them.
    Senator Tester. OK. Well, I just think that it has been an 
ongoing problem particularly in rural and frontier areas like 
Montana, and it is not a problem that I think bodes well for 
the veteran who has issues that revolve around mental health 
because we all know if we have professional help, quality-of-
life advances and the costs go down.
    So, I want to talk about health IT for a second. We can all 
agree that advanced appropriations have allowed the VA, I 
think, to be more efficient, more effective to deliver quality 
health care for our veterans.
    However, it is my understanding that the exclusion of 
health care-related IT funds and advanced appropriations have 
put us in somewhat of a bind. It is hard to deliver quality 
care when you cannot make corresponding investments in things 
like phone systems that connect to veterans' electronic health 
records, allow the VA better to coordinate it.
    Can you speak, just speak about this issue and how the 
inclusion of health care-related IT funds and advanced 
appropriations could improve the quality of health for our 
veterans?
    Secretary Shinseki. Thank you, Senator. I would just begin 
by saying Congress provided us a very unique mechanism called 
the advance appropriation, and it is a gift to VA because it 
really gives us opportunity for continuous budgeting every year 
by submitting two budgets. It gives us two looks at our budget.
    So, we submit what we understand our best estimate is as an 
advance appropriation and then we come back a year later and we 
submit the actual budget and we can make adjustments.
    The advance appropriation applies primarily and solely to 
health care and so Dr. Petzel has his continuous budget. 
Everyone else is on annual budgeting.
    Under advance appropriations, we have the budget for 
medical services, medical compliance and reporting, and medical 
facilities. What happens is when we have a delay, a C.R., it 
affects the rest of the budget where IT resides. Dr. Petzel has 
his authorization to start building facilities and standing 
them up but then we have to wait, as sometimes happens, on a 
delay until the IT budget gets released so that now it can 
catch up to him.
    In a case last year, I think the budget CR lasted until 
April so it is a pretty significant period.
    We are a bit off stride here and I am trying to figure out 
how we can get this together and link up the authorities you 
provide along with the budget to do his business and get him 
the tools that allow him to see patients. There is no 
separation between medical IT and medicine today--that is all 
one treatment discussion.
    Senator Tester. Well, let us know how we can help you be 
more effective in the IT area and I think Chairman Murray and 
Ranking Member Burr will help on this, too. I just think that 
it is really important in this day and age and----
    Secretary Shinseki. Can I just follow very quickly, Madam 
Chair, or just add here.
    Senator Tester. Go ahead.
    Secretary Shinseki. What sometimes happened, as happened 
last year, the IT budget is now released in April, and it is a 
big number because it is all IT. Well, really in it you have 
the paperless system that goes with Secretary Hickey's 
operation and you have medical IT that goes with Dr. Petzel's 
operation.
    I am just trying to be clear here. The piece that I am 
concerned about is the medical IT. So, we link decision to do 
things for veterans in the medical sense along with the tools 
to be able to do that.
    What happened last year, as sometimes happens, this large 
IT budget gets identified in April and we can now go forward, 
and an assessment is made by Congress. Well, it cannot possibly 
spend their budget before the end of the year so we lose $300 
million in the Congressional budget process at a time when we 
really need that funding to marry these two things up. 
Secretary Baker can now not deliver what we have already 
approved a year before and we are delaying that.
    So, I think----
    Senator Tester. A timing issue.
    Secretary Shinseki. Yes. I think there is a mechanism here 
of getting stride on both ideas, and we would be happy to work 
with you on it.
    Senator Tester. Thank you. I want to thank everybody for 
being here today. I will get into the rural cemetery thing with 
Mr. Muro, but we will propose those questions in writing. Thank 
you all very, very much.
    Chairman Murray. Thank you very much.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Madam Chairman, thank you very much.
    Mr. Secretary, in 2008 Congress passed the Rural Veterans 
Access to Care Act. This was a piece of legislation I was 
involved with in my days in the House. It was signed into law. 
The program is now referred to as Project ARCH, Access Received 
Closer to Home; and that legislation set certain criteria that 
if a veteran lived a certain number of miles from an outpatient 
clinic or from a VA hospital, the VA would provide those 
services locally using a local physician, a local hospital.
    My legislation was broad in its initial form. It was 
narrowed by Congress to create pilot programs, and the VISN 
that Kansas is in was included as one of those pilots.
    I have expressed my complaint to the VA before because when 
the VA then implemented its pilot program, it did not choose a 
VISN as a pilot project. It chose a community.
    In my view, we have taken legislation that created a pilot 
program and created a pilot program within a pilot program, and 
we now have a project ongoing in Pratt, Kansas to demonstrate 
whether or not this idea works.
    I would love to hear the report of progress being made but 
also used this moment as an opportunity to again encourage the 
Department to expand this pilot so that you can take more than 
one community.
    What happens in Pratt, Kansas, which is less than an hour 
from Wichita, is significantly different than what happens in 
Atwood, Kansas, which is 5 hours from Wichita; and the access 
to providers is totally different between those kind of 
communities.
    So, while I am certainly pleased a pilot program is 
ongoing, I am not certain, in fact, I am completely uncertain, 
let me say that differently. I am completely certain the VA has 
not chosen wisely as it has narrowed the project to a very 
small scope to determine how it works.
    In that regard, along the same topic of that CBOCs, we have 
an ongoing problem similar to what has been expressed in regard 
to mental health by Senator Tester, and I understand the 
doctor's testimony about the inability to attract and retain 
professionals; but it is sure becoming clear to me that we have 
that same problem outside of mental health.
    Our ability to retain physicians in CBOCs across the rural 
Kansas, and I assume across the country, is a huge problem. And 
more and more we have nurse practitioners, physician 
assistants, that the availability of a physician has become 
very limited, and we have many CBOCs now where no physician is 
generally present.
    And I understand the Secretary's testimony about IT as a 
potential solution. We certainly have offered to our VISN to 
make certain that we do everything as a Member of the Senate 
now to provide VA with the resources to provide the necessary 
personnel.
    My assumption is my answer will be very similar to what you 
told Senator Tester, and it is the same one that I hear from 
VISN folks in Kansas is it is not really a resource issue. We 
can pay sufficient amounts of money to attract medical 
professionals, but we are struggling like everyone else to 
attract those professionals.
    I have heard that answer for a long time. You said it again 
today, Dr. Petzel. In some fashion that cannot be the final 
answer. Just because everybody else is struggling to attract 
professionals to take care of patients, we can not afford to 
allow the VA to have the same--I understand the problem. I do 
not mean to be critical in that sense but there has to be 
something more than, well, everybody is experiencing this 
problem. There has to be a path to a solution.
    Secretary Shinseki. I am going to ask Dr. Petzel to address 
your question. I would say, Senator, the rural areas are 
particularly challenging because of the lack of availability. I 
think, and Dr. Petzel said that our tools are really on 
reaching out. We want highly qualified, and we want talent. Our 
tools are what we are able to compensate and what we are able 
to award to recognize performance of good people doing 
outstanding work and retaining them through bonuses for the 
high-quality ones.
    Our tools are limited, but we owe you the best efforts we 
can to go after that talent. The biggest challenges are in the 
rural communities, and we have to circle our wagons here.
    Senator Moran. Mr. Secretary, I appreciate your sentence 
that you owe us that. We understand we owe our veterans that 
but I would also tell you that Congress, I owe you every tool 
possible to help you meet that criteria; and the complaint or 
concern I have is that I am not being asked to do something to 
solve the problem.
    So, what I am asking for is tell us what we can do to 
provide the assistance so that when we have a hearing 6 months 
from now, or we are back here next year talking about the 
budget the answer to whether or not there is a doctor at CBOC 
is not that or that we are meeting the mental health needs of 
veterans particularly in rural areas is not every health care 
provider, every community, every rural State is having the same 
struggle we are. Help us help you solve this problem.
    Secretary Shinseki. OK. Fair enough.
    Senator Moran. Thank you. Dr. Petzel.
    Chairman Murray. Dr. Petzel, do you want to very quickly 
respond?
    Dr. Petzel. I will try to be very quick.
    Thank you, Senator Moran. The M.D. issue first. You are 
absolutely right that we all have this difficulty in certain 
rural parts of the country.
    I would say that if you look at our MD situation across the 
whole system, we do not have a recruitment problem. It is very 
important that we focus on the fact that this is rural America.
    Two things that we would like to do. One is that we need to 
expand our tuition reimbursement program to be able to provide 
an incentive for people to go to rural areas by reimbursing 
them for their tuition from medical school.
    The second one was an idea that the Secretary had. I do not 
want to get into the details of it but to do something like the 
military does with their Uniform Services Medical School and 
that is recruit people, pay for their medical education with an 
obligation to follow on and work with us in particular parts of 
the country. Those are two areas that we are trying to explore.
    Secretary Shinseki. Thank you, Senator. I will just put a 
little finer point on what Dr. Petzel said. I thought that if 
we went into areas, rural areas and found a highly talented 
youngster, with great potential and targeted that individual 
and got them through college and the medical school process, 
that they would be going home, and so, in the long run we would 
not be facing the retention bonuses and those kinds of things. 
You would have provided someone for the long-term as a solution 
to that requirement, in that community. That is part of the 
discussion here.
    Senator Moran. I appreciate your thoughts and please 
consider me an ally. We can follow up with the ARCH question at 
a later time. Thank you.
    Chairman Murray. Thank you.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. I also want to ask 
along these same comments that Senator Moran--and I like some 
of these ideas that you have just mentioned--so I would be 
anxious to participate.
    I know in one of our hospitals in Alaska they actually give 
a bonus to employees--a pretty significant bonus, up to 
$10,000--to recruit and retain nurses because of the high 
capacity and the need. So, thank you for offering those ideas.
    Let me also say thank you, Mr. Secretary, for the two staff 
that you sent up to Alaska. I think it was last week or the 
week before, and Chairwoman Murray for sending Committee staff 
also.
    It is important, as you know, to come up to Alaska to 
understand what rural is all about. I know you have been there. 
Thank you for your visit and your team's visit. It makes a 
difference to the people there but also I think opens the eyes 
to a lot of folks how we have to deliver health care in the 
most remote rural areas of this country. So, thank you for that 
commitment.
    Let me, if I can, and I know we have had some 
conversations, Mr. Secretary, in regards to the idea of the 
Alaska Arrows card and the idea of trying to weave through this 
access issue in parts of the country that have limited access 
to veterans' care.
    In Alaska specifically, as you know, we talk about the 
roadless areas, those areas of 80 percent of the communities of 
Alaska that do not have access by road. So, when we read, and I 
noted your testimony about Internet connect and get the mobile 
van out there, there is no mobile van possible. The mobile van 
is in the air, and that is the only way to get it.
    So, I know we have talked in a very positive vein about how 
to create this access, and I just wanted to check in with you 
on a kind of update on that. I know we have kind of talked 
about the quality of care through our Indian Health Services 
which is superior to so much care that has been given today 
across the country and it is high quality care.
    Tell me kind of where you think we are at at this point. I 
know you have been very responsive. I know we have been 
badgering you and your team on a pretty regular basis because, 
as you have seen, the veterans all they want to do is go across 
the street to Indian Health Service clinic to get the regular 
checkups as a choice, not as a requirement.
    If they choose to go to a VA hospital clinic, so be it. But 
if it is across the street, let us make that happen because the 
quality of care is equal or in some cases we would argue better 
in certain specialties of the VA.
    So, what is your latest on that?
    Secretary Shinseki. I think that, as you and I have 
discussed, I think you will recall that we have put in a policy 
that would allow veterans from Alaska to go locally and reduce 
the amount of veterans having to travel to the lower 48. There 
is a rather robust program underway there.
    As I described, we are working with the Indian Health 
Service to establish this MOU which would open a lot of 
processes especially for Alaskan native veterans.
    In the meantime, based on my visit to Alaska, and with the 
Alaska Native Tribal Health Consortium, we have established 
discussions with them in trying to ensure that however the IHS 
MOU progresses that we are ready to provide health to veterans 
who are being seen now in the consortium.
    Senator Begich. Do you feel that is going in the right 
direction with the tribal consortium?
    Secretary Shinseki. Let me turn to Dr. Petzel since his 
people are in negotiations and discussions.
    Senator Begich. OK.
    Dr. Petzel. Thank you, Mr. Secretary, and Senator Begich, I 
really do sympathize with what you talk about in terms of the 
ruralness of Alaska as well as other parts of the country.
    While we are waiting for the MOU to be finished, Alaska is 
one of two places where we are proceeding with tribal 
interactions, and I hesitate to use the word ``pilot,'' to get 
specific agreements within a tribal unit in Alaska.
    I believe it is the Southeast Alaskan Tribal Association, 
we are progressing in getting some arrangements made. It would 
be wonderful from my perspective if a veteran could make a 
choice and access tribal clinics. If, indeed, that was more 
convenient and the care was successful, and that we could work 
out the reimbursement arrangement.
    I think that is what we are trying to do in Alaska. We have 
another effort going on in South Dakota to do that.
    Senator Begich. And you feel, I guess the ultimate 
question, you feel it is moving in the right direction.
    Dr. Petzel. Absolutely.
    Senator Begich. Excellent. The last, I have two quick ones. 
One is Senate Bill 914 authorizes a waiver that I have 
introduced on the collection of co-payments for telehealth, 
telemedicine.
    I guess the general comment is I know we have about 200 
veterans or so. I think about 100 or so are already in the 
program in Alaska. I know others across the country. The idea 
is, especially with mental health services, telehealth is a 
huge winner in a lot of ways. It actually works very 
successfully. We have asked that to be waived through this 
legislation, the co-pay, so it increases the capacity of 
telehealth.
    Can either one of you give me a thought, Mr. Secretary, of 
supportive, I know any time you take dollars away but my view 
is telehealth is just a money saver. And especially with the 
shortage of mental health services, this is a potential way to 
meld the two problems and create a solution.
    Secretary Shinseki. Senator, neither Dr. Petzel nor I are 
familiar with this legislation. So, if I may, I will provide 
that for the record.
    Senator Begich. Absolutely. That is on Senate Bill 914. We 
will get you some information on that.
    The last comment, if I can, Madam Chair, if I can just add 
to my concern, Under Secretary Hickey, actually our last call 
was Friday from someone who could not get through on the 800 
number. So, it is not old; it is new.
    And I know when I was Chair of the Student Loan 
Corporation, one of the things we did on that, because we had a 
call center. As you can imagine, a lot of people upset when 
their loan rates changed or they did not get their payment in 
or whatever it might be.
    So, we had to go through a whole revamping of the system; 
but the metrics we measured by were on a regular basis reported 
so we could see where the possibilities are.
    You had mentioned that you are going to have or you have a 
system that you can see the metrics of success, wait time, call 
time, hold time, response, all of those.
    I want to echo what my colleague on the other side said 
that I would really anxiously want to see that because this is 
our number 1 caseload work is around the VA issues.
    Second to that within the VA is the 800 number, lack of 
response or inadequate response I should say. And that is 
current, not 6 months ago or a year ago. This is very current 
and customer service is the name of the game, how to make sure 
these veterans have the services they need.
    Is that something you can provide sooner than later so I 
can get a better understanding?
    Secretary Shinseki. I am going to dive into those numbers 
today based on the testimony.
    Senator Begich. Very good. Thank you, and I think the only 
solution to your issue on the IT is your whole Department 
should be a 2-year budget process instead of 1-year and 2-year. 
That is my personal opinion. That would solve a lot of 
problems.
    Chairman Murray. Thank you very much.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair. I just have a 
couple of concerns. The budget request includes operational 
efficiencies that are estimated could save $1.2 billion. That 
has been done in the past by, you know, various 
administrations. Last year's budget request also included 
operational efficiencies of just over $1 billion.
    In the past, GAO has really questioned, you know, whether 
or not those savings have come about. I guess if they do not 
come about, how are you planning for the risk? What is your 
contingency plan if you do not see a billion dollars in 
savings?
    Secretary Shinseki. I am going to call on Dr. Petzel to 
respond since they looked at his budget for the savings, 
anticipated savings, but I can tell you that right off the top, 
$362 million was saved because of our conversion to dialysis 
services using a Medicare standard pay rate instead of paying 
the rates we were being charged previously.
    $200 million was in improper payments savings, because we 
reduced those. Through the program management accountability 
system program office in IT, about $200 million was in savings 
because we terminated projects that were not going to deliver; 
and then about another $100 million was from the first notice 
of death office in which we stopped payment on veterans' 
accounts after they passed away. In the past, this has been an 
issue with as much as $100 million in overpayments.
    And for the future, we agreed to provide as a minimum $173 
million in savings, by reducing waste in 2012 and 2013. That is 
part of our effort to get at the savings and efficiencies.
    Let me just ask Dr. Petzel to provide more detail.
    Dr. Petzel. Thank you, Mr. Secretary, Senator Boozman.
    The savings let us just go through a little bit of what 
went on in 2011. We saved a large amount of money. The GAO 
reviewed that and we are still actually negotiating with them 
about what they actually found.
    The essence is going to be that we, indeed, can validate 
the savings that we claimed from the various operational 
efficiencies. They do have a legitimate criticism about the way 
we measured things and the granularity of the measurement which 
we are going to be improving.
    For 2013, as the Secretary mentioned, we are going to save 
a large amount of money on payments for dialysis. We have 
contracts or blanket purchase agreements with virtually every 
dialysis center that we use that is going to save us hundreds 
of millions of dollars over what we would have expended had we 
not been able to do that.
    The Medicare rate payment change that occurred with the 
regulations allowing us to charge Medicare rates for both the 
professional fee and the facility fee is going to save us about 
$300 million. That is absolutely money that we know we would 
have spent otherwise had we not been able to do that.
    In the efficiencies with fee care, again something we can 
measure easily, it is going to be over $200 million. 
Acquisition fees have about $355 million in savings.
    There is a long list, and I am not going to take the time 
to go through that, but I am absolutely confident that we will 
be able to save this money in VHA.
    Secretary Shinseki. Madam Chair, if I may add just one last 
comment here. We are going to look at all of this and work it 
hard.
    I have cautioned that in the end we have to focus on what 
makes sense for veterans, and I will use dialysis as an 
example. We are after the best prices we can get; and if you 
just look at that, you may be encouraged to outsource all of 
it.
    I have argued that dialysis is something we have to retain 
a handle on. We should do a certain amount, a certain portion 
of it in-house. Why do I say that? I am just concerned that if 
we provide funds and let somebody else take care of dialysis, 
we ignore what a medical profession is supposed to do, and that 
is, as long as we are doing dialysis, we will have to ask 
ourselves what causes it, why do we have to do this, what are 
the things on the front end that allow us to deal with 
preventing diabetes so that dialysis does not become a fact 
that we have to live with. I think the medical profession is 
the best at asking those questions and that is why I think 
within VA we need to retain a piece of that operation.
    Senator Boozman. Very quickly, the President has proposed a 
billion dollars in funding for the Veterans Conservation Corps. 
He anticipates that that will create 20,000 jobs for veterans.
    We all agree that there is a lot of backlog in the work 
that needs to be done in the parks and the infrastructure and 
those kind of things.
    I had the opportunity to be the Chairman and then the 
Ranking Member on the Economic Opportunity on the House side 
and really worked very closely pertaining to the TAP program 
and busy with lots of veterans about their dreams and 
aspirations.
    I have a lot of concern about spending a billion dollars in 
that direction. That is not, you know, kind of the direction 
that we were going in the Committee I do not believe. And, like 
I said, I visited with lots of veterans and I really do not 
know. A billion dollars is a lot of money.
    I think that could be, you know, put to good use but for 
myself I really do not believe that that is the direction that 
we need. I have never heard a veteran express to me that that 
is the route that they would like to go.
    So, again, I just want to express some real concern in that 
regard.
    Chairman Murray. Thank you very much, Mr. Secretary. 
Obviously we have had a lot of participation by Members at this 
time. We have another panel that needs to present today. We 
want to give them sufficient time and I have been called the to 
the Capitol so I am going to submit the rest of my questions 
for the record.
    And, Senator Burr, do you have any more comments before the 
Secretary leaves?
    Senator Burr. Madam Chairman, I am going to submit a 
lengthy set of questions. I would ask the Secretary and his 
leadership team for a quick response to them lieu of asking a 
second round of questions and would make four points to you.
    These are disturbing trends that I see from the information 
as we analyze the prior year. VA took in 430,000 more claims 
than were decided.
    Two, appeals that resulted in a decision took 1123 days to 
come to fruition. That is disturbing. The VA central office 
staffing increase to 40 percent 2008. In that same timeframe 
human resource administration increased 80 percent.
    For VISNs created in 1995, we envisioned 22 VISNs, a total 
of 154 to 220 employees and an annual budget of $27 million. 
Today, we have 21 VISNs, roughly 1340 staff and a $165 million 
annual cost.
    Many of my questions will be reference to these four areas 
and I look forward, Dr. Petzel, with you and others to discuss 
some of the trends that I see that should raise and do raise 
flags for me and hopefully would raise flags for both of you.
    Again I thank you.
    Secretary Shinseki. May I respond, Madam Chairman?
    Chairman Murray. Yes.
    Secretary Shinseki. I will be happy to provide the details, 
and I, like you, am concerned and watched the growth. There has 
been growth of the veteran population. In the last 2 years, we 
have added 800,000 veterans to our enrollment. The VA 
headquarters is 1 percent of our budget today as it was in 
2008, and it is a reflection of accommodating that growth, and 
I will be happy to provide the details.
    Chairman Murray. Mr. Secretary, thank you very much to you 
and your team for accommodating our Committee today. We 
appreciate that and ask that you answer the questions that will 
be submitted to you by myself and the Members of the Committee 
in a timely fashion.
   Response to Posthearing Questions Submitted by Hon. Patty Murray, 
            Chairman, to U.S. Department of Veterans Affairs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment C

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                    (Resuming with Question 8 next)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
                                general
    Question 1. In connection with the Department of Veterans Affairs 
(VA) fiscal year 2011 budget request, VA indicated in response to 
questions about the method of travel used by employees of the Office of 
the Secretary that ``travel regulations address the allowable modes of 
travel for reimbursement purposes, but the predominant method of travel 
has and will continue to be commercial airlines'' [emphasis added].
    a. For fiscal years 2009, 2010, and 2011, please identify the 
number of trips taken each year by senior VA personnel (Presidential 
Appointee with Senate Confirmation (PAS), career or non-career General 
Schedule (GS) employees, career or non-career Senior Executive Service 
(SES) or SES Equivalent, consultant, contractor, etc.) using a military 
or other government-provided aircraft.
    Response. Total number of trips taken each fiscal year using 
military or other government-provided aircraft are as follow:

                        Fiscal Year 2009--total of 3 trips
                        Fiscal Year 2010--total of 12 trips
                        Fiscal Year 2011--total of 4 trips

    b. For each trip during those years where a military or other 
government-provided aircraft was utilized for travel, please identify: 
(1) the purpose of the trip, (2) the destination of the trip, (3) the 
duration of the trip, (4) the number and title of any VA employees 
(PAS, career or non-career GS employee; career or non-career SES or SES 
Equivalent, consultant, contractor, etc.) who were passengers on the 
aircraft, (5) the total cost to the Federal Government to operate the 
aircraft used for the trip, (6) the amount of any reimbursement VA 
provided to the Department of Defense, a military service, or another 
government entity in connection with the trip, (7) the justification 
for using military or other government-provided aircraft rather than a 
commercial airline, and (8) all supporting documentation, the agenda, 
and the itinerary related to the trip, as well as copies of any 
memoranda, reviews, comments and/or opinions rendered by VA's Office of 
General Counsel regarding the trip.
    Response. [Extensive supporting documentation is held in Committee 
files.]

    c. For fiscal years 2012 and 2013, please identify the number of 
trips that have been taken or are expected to be taken by senior VA 
personnel (PAS, career or non-career GS, career or non-career SES or 
SES Equivalent, consultant, contractor, etc.) using a military or other 
government-provided aircraft.
    Response. As of March 29, 2012, in fiscal year 2012 VA did not 
usemilitary or other government-provided aircraft for any trips. In 
fiscal year 2013, VA may use military or other government-provided 
aircraft but no estimates are currently available. Cost figures can 
only be provided once travel is complete. For every official trip 
conducted by the Secretary, a cost analysis is made to determine 
efficiencies that may warrant a request for military air. If military 
air is requested, the provisions of 41 CFR 101-37 are met using the 
appropriate decision process outlined in OMB Circular A-126 and each 
request is submitted to the Agency General Counsel for review and 
approval.

    d. In total, for fiscal year 2012, how much (if any) is expected to 
be spent by VA in order to pay for transportation by military or other 
government-provided aircraft?
    Response. As of March 29, 2012, in fiscal year 2012 VA did not use 
military or other government-provided aircraft for any trips. No 
estimates are currently available and cost figures can only be provided 
once travel is complete. For every official trip conducted by the 
Secretary, a cost analysis is made to determine efficiencies that may 
warrant a request for military air. If military air is requested, the 
provisions of 41 CFR 101-37 are met using the appropriate decision 
process outlined in OMB Circular A-126 and each request is submitted to 
the Agency General Counsel for review and approval.

    e. In total, for fiscal year 2013, how much (if any) is requested 
in order to pay for transportation by military or other government-
provided aircraft?
    Response. In fiscal year 2013, VA may use military or other 
government-provided aircraft but no estimates are currently available. 
Cost figures can only be provided once travel is complete.

    Question 2. The fiscal year 2013 budget request includes (1) 
funding for 3,380 full-time equivalents (FTE) under General 
Administration for VA's Office of the Secretary, Office of Human 
Resources and Administration, Office of Policy and Planning, Office of 
Operations, Security and Preparedness, Office of Public and 
Intergovernmental Affairs, Office of Management, Office of 
Congressional and Legislative Affairs, Office of General Counsel, and 
Board of Veterans' Appeals (Board); (2) funding for 20,757 FTE under 
General Operating Expenses (GOE) for the Veterans Benefits 
Administration (VBA); and (3) funding for 262,912 FTE under the 
Veterans Health Administration (VHA) Medical Services, Medical Support 
and Compliance, and Medical Facilities accounts.
    a. For all three of the above FTE account groupings, please 
identify how many of the stated number of FTE are ``virtual'' FTE whose 
positions are funded by and whose responsibilities support offices at 
the VA Central Office level, but the employees are physically located 
outside of VA Central Office and in the field. Please display this 
information regarding virtual employees by responsible office field 
location (i.e., Veterans Integrated Service Network (VISN), VA medical 
center (VAMC), VBA regional office, or other office).
    b. How much is allocated for these employees' salaries and 
benefits?
    c. If ``virtual'' FTE located in the field are not included within 
the above figures, please explain why they are not so reflected and 
under which organizational levels the FTE are reflected.
    Response to 2a-c: VA notes that various FTE listed in the embedded 
spreadsheets provide support to Veterans or activities in the field 
although they report through a VA Central Office organizational 
structure.
    For the Veterans Health Administration (VHA), several examples 
include:

    <bullet> Employees that work in VHA's Consolidated Patient Account 
Centers provide medical center billing functions in regional locations 
to enhance efficiencies and consistent practices;
    <bullet> Readjustment Counseling staff provide Vet Center 
counseling and support in Vet Centers across the country. They are 
aligned through Central Office rather than each medical center, to 
maximize efficiencies and ensure consistent training and practices.
    <bullet> The Office of Workforce Management and Consulting provides 
human resource consultation and operational guidance to the broad VHA 
community to ensure an engaged and high-performing workforce to care 
for Veterans and their families;
    <bullet> The Employee Education System supports dynamic learning 
that contributes to a high-performance VHA workforce serving Veterans;
    <bullet> The National Center for Organization Development offers 
organizational assessment and consultation services to VA organizations 
nationwide;
    <bullet> The Office of Academic Affiliations conducts an education 
and training program for health profession students and residents to 
enhance the quality of care provided to Veteran patients within the VHA 
healthcare system; and
    <bullet> Many of the ``virtual'' Patient Care Services staff are 
part-time clinicians that provide health care to our Veterans at one of 
VA's more than 1,400 sites of care.

    Beyond VHA, a sample of examples where the work of these employees 
supports a combination of field and VA Central Office functions are 
provided below:

    <bullet> In the Office of General Counsel (OGC), the ``virtual'' 
FTE all perform work that supports both VA Central Office and the 
field. For example, OGC's ``virtual'' Reports Analysis Planning & 
Statistics Division and ``virtual'' OGC budget staff provide support 
for OGC's 22 field-based Regional Counsel offices as well as for OGC's 
VACO-based Staff Groups. Similarly, OGC's ``virtual'' Knowledge 
Management and Professional Development Division staff provides support 
for all OGC training and knowledge-management activities, both in VACO 
and in the field. In addition, OGC's Eatontown, NJ-based attorneys at 
the Technology Acquisition Center support IT acquisition activities for 
the benefit of VA facilities in the field as well as in VACO;
    <bullet> In the case of the Veterans Benefits Administration, all 
of the virtual employees listed work for VBA Central Office. These 
employees provide guidance, training, and oversight to the field. 
Outbased locations allow flexibility in recruiting, and program offices 
benefit from assigning staff at or near an existing regional office. 
Most of these positions do not involve routine travel to Washington, DC 
or co-location with Central Office.

    The requested information in 2a and 2b is provided in three 
attached documents as described below. All offices responding to this 
request for data indicated that the data provided does represent 
``virtual'' FTE located in the field as requested under 2c. No 
``virtual'' employees were reported for the Office of the Secretary, 
Office of Policy and Planning, and the Office of Congressional and 
Legislative Affairs.
    As the question here relates to the ``virtual'' employees for FY 
2013, the attached data is a projected estimate for FY 2013 based on 
data as of June 2012.
    The first spreadsheet (A) labeled ``NonVHA-Report'' contains 
responses for all organizations requested by the question, where 
applicable, except VHA. Information for VHA is provided in the .pdf 
file labeled ``VHAReport'' with an accompanying Station Table key excel 
sheet (B) labeled ``Station Table.'' VHA information is organized by 
the VHA Central Office Program Office to which the virtual employees 
are assigned. Due to technical limitations of the Personnel Accounting 
Integrated Database (PAID) system, VHA is unable to provide local duty 
station information in conjunction with the virtual employee's VHACO 
Program Office assignment.
    The spreadsheet (C) labeled ``VHAReport'' includes the VHA 
``station code'' that a program office is assigned to and therefore may 
not represent the city/state for every employee in that office (e.g., 
some may work from home or in other cities) and may not reflect where 
the employees actually sit (e.g., VHACO employees assigned to station 
635 Oklahoma City VAMC actually have an office in downtown Oklahoma 
City, not at the medical center).
    As noted earlier, many of the VHA Central Office employees who are 
not in station 101 (VA Central Office) are employees in centralized 
functions that are part of Central Office but operate in the field. 
This includes VHA's Chief Business Office, with over 5,000 employees, 
and VHA's procurement and logistics with over 2,000 employees.

                             NonVHA-Report

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Station Table

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               VHA Report

                         Veterans Health Administration, Department of Veterans Affairs
                                                    June 2012
----------------------------------------------------------------------------------------------------------------
                                                 Number                                           Projected and
 Routing                                           of                                            Estimated FY13
 Symbol             Organization Name            Virtual             Station Code(s)             Total Salary &
                                                  FTEE                                              Benefits
----------------------------------------------------------------------------------------------------------------
  10A2A   Workforce Management and Consulting      197    629, 635, 654                           $20,862,819.08
           (10A2A)
----------------------------------------------------------------------------------------------------------------
  10A2B   Employee Education System (10A2B)        376    777                                     $38,066,180.17
----------------------------------------------------------------------------------------------------------------
   10A2C  National Center for Organizational        45    539                                      $5,253,318.45
           Development (10A2C)
----------------------------------------------------------------------------------------------------------------
  10A2D   Academic Affiliations (10A2D)             18    662, 657, 652                            $2,811,923.42
----------------------------------------------------------------------------------------------------------------
   10A3   Office of Finance (10A3)                  85    741                                     $11,936,781.20
----------------------------------------------------------------------------------------------------------------
  10A4B   Quality and Safety (10A4B)                58    799, 405, 528,                           $7,910,115.71
----------------------------------------------------------------------------------------------------------------
  10NA1   Emergency Management (10NA1)              94    613, 640,                               $11,524,772.13
----------------------------------------------------------------------------------------------------------------
  10NA2   Procurement & Logistics (10NA2)         2183    308, 358, 459, 460, 481, 483, 493,     $192,808,935.46
                                                           501, 502, 503, 504, 506, 508, 509,
                                                           512, 515, 516, 517, 519, 520, 521,
                                                           526, 528, 529, 534, 538, 539, 540,
                                                           541, 542, 544, 546, 548, 550, 552,
                                                           553, 554, 557, 558, 562, 564, 565,
                                                           570, 573, 580, 583, 586, 589, 590,
                                                           595, 598, 600, 610, 612, 613, 619,
                                                           623, 626, 629, 635, 637, 640, 642,
                                                           644, 646, 648, 649, 652, 654, 655,
                                                           659, 662, 667, 672, 673, 675, 678,
                                                           679, 688, 693, 695, 701, 730, 741,
                                                           756, 757, 777
----------------------------------------------------------------------------------------------------------------
  10NA8   Occupational Safety & Health              31    657                                      $3,493,787.15
           Management (10NA8)
----------------------------------------------------------------------------------------------------------------
  10NB1   CBO Member Services                     1075    702, 742                                $69,625,011.35
----------------------------------------------------------------------------------------------------------------
  10NB2   CBO Purchased Care                       909    741                                     $67,534,071.82
----------------------------------------------------------------------------------------------------------------
  10NB3   CBO Revenue Operations                  3378    730, 731, 732, 733, 734, 735, 736      $202,937,428.71
----------------------------------------------------------------------------------------------------------------
    10NC1 Homelessness (10NC1)                      44    518, 541, 561, 640, 642, 673, 691        $5,383,871.19
----------------------------------------------------------------------------------------------------------------
    10NC2 Surgical Services (10NC2)                 27    648, 554                                 $2,852,562.44
----------------------------------------------------------------------------------------------------------------
    10NC5 Mental Health Operations (10NC5)         281    506, 518, 520, 523, 549, 640, 689,      $25,429,255.24
                                                           528A5
----------------------------------------------------------------------------------------------------------------
    10NC6 Supply Processing & Distribution           1    539                                        $131,019.89
           (SPD) (10NC6)
----------------------------------------------------------------------------------------------------------------
    10NC7 Dental (10NC7)                             1    688                                        $259,381.75
----------------------------------------------------------------------------------------------------------------
    10NC9 Rural Health Operations (10NC9)            1    402                                         $74,910.26
----------------------------------------------------------------------------------------------------------------
    10P   DUSH for Policy and Services (10P)         1    506                                         $68,654.69
----------------------------------------------------------------------------------------------------------------
   10P1   ADUSH Policy & Planning (10P1)            23    573, 695, 741                            $2,472,482.37
----------------------------------------------------------------------------------------------------------------
   10P2   ADUSH for Informatics and Analytics      385    776                                     $52,233,196.30
           (10P2)
----------------------------------------------------------------------------------------------------------------
   10P3   Public Health (10P3)                      35    640, 648, 688, 689                       $5,628,044.62
----------------------------------------------------------------------------------------------------------------
   10P4   Patient Care Services (10P4)            1266    405, 459, 506, 512, 523, 528, 531,     $148,395,138.66
                                                           539, 541, 549, 552, 554, 558, 573,
                                                           578, 580, 581, 583, 586, 590, 595,
                                                           598, 603, 608, 612, 630, 631, 636,
                                                           637, 640, 642, 648, 652, 656, 660,
                                                           662, 663, 678, 688, 689, 691, 695,
                                                           700, 760, 761, 762, 763, 764, 765,
                                                           766, 770
----------------------------------------------------------------------------------------------------------------
   10P6   National Center for Ethics (10P6)         11    663, 630                                 $1,774,598.68
----------------------------------------------------------------------------------------------------------------
   10P7   Health Information (10P7)                199    776                                     $27,949,107.19
----------------------------------------------------------------------------------------------------------------
   10P8   Readjustment Counseling (10P8)          1790    402, 405, 436, 437, 438, 442, 459,     $149,285,418.34
                                                           460, 463, 501, 502, 503, 504, 506,
                                                           508, 509, 512, 515, 516, 517, 518,
                                                           519, 520, 521, 523, 526, 528, 534,
                                                           534, 537, 539, 540, 541, 544, 546,
                                                           548, 549, 550, 552, 553, 554, 557,
                                                           558, 561, 562, 564, 565, 658, 570,
                                                           573, 575, 578, 580, 581, 583, 585,
                                                           586, 589, 590, 593, 595, 598, 600,
                                                           603, 605, 607, 608, 610, 612, 613,
                                                           614, 618, 619, 620, 621, 623, 626,
                                                           629, 630, 631, 632, 635, 636, 640,
                                                           642, 644, 646, 648, 649, 650, 652,
                                                           653, 654, 655, 657, 658, 659, 660,
                                                           662, 663, 664, 667, 668, 671, 672,
                                                           673, 674, 675, 676, 678, 687, 688,
                                                           689, 691, 693, 695, 740, 756, 757
----------------------------------------------------------------------------------------------------------------
   10P9   Research & Development (10P9)             85    508, 558, 618, 644, 688, 792            $10,546,783.98
----------------------------------------------------------------------------------------------------------------
    10R   Research Oversight (10R)                  25    508, 518, 578, 605                       $3,704,951.16
----------------------------------------------------------------------------------------------------------------
          Total                                  12624                                          $1,070,954,521.4
                                                                                                            2
----------------------------------------------------------------------------------------------------------------


    Question 3. In October 2011, the House of Representatives passed 
H.R. 2302, which included a provision that would require VA to submit 
to Congress quarterly reports outlining the cost for conferences or 
meetings sponsored by VA that have at least 50 attendees or cost 
$20,000 or more.
    a. During fiscal year 2011, how many conferences or meetings did VA 
sponsor that met those criteria and what was the total cost of those 
conferences and meetings?
    Response. On August 24, 2012, VA provided the Committee with 
consolidated training conference data from January 1, 2005 through 
July 1, 2012.

    b. For fiscal year 2011, please identify the 25 most expensive 
conferences or meetings sponsored by VA, the locations of those 
conferences or meetings, and the purposes of those conferences or 
meetings.
    Response. On August 24, 2012, VA provided the Committee with 
consolidated training conference data from January 1, 2005 through 
July 1, 2012.

    c. During fiscal year 2012, how many conferences or meetings does 
VA expect to sponsor that meet those criteria and how much in total is 
expected to be expended on those conferences or meetings?
    Response. On August 24, 2012, VA provided the Committee with 
consolidated training conference data from January 1, 2005 through 
July 1, 2012.

    d. For fiscal year 2012, please identify the 25 most expensive 
conferences or meetings already sponsored or expected to be sponsored 
by VA, the locations of those conferences or meetings, and the purposes 
of those conferences or meetings.
    Response. Please see the answer to 3c.

    e. For fiscal year 2013, what is the total amount requested for 
purposes of holding conferences or meetings that meet those criteria 
and how many conferences or meetings would that funding level support?
    Response. FY 2013 first quarter executed training conferences and 
estimated second quarter data are expected to be provided in VA's 
report to Congress as required by Public Law 112-154.

    f. For conferences or meeting events that cross fiscal years and 
are multi-sessioned (i.e., VA Senior Executive Strategic Leadership 
Course), please note the fact that they are sub-parts of a larger 
conference or meeting.
    Response. On August 24, 2012, VA provided the Committee with 
consolidated training conference data from January 1, 2005 through 
July 1, 2012. That data provided start and end dates, the training 
conference title, location, number of participants, total obligations, 
and a web URL where available.

    Question 4. During fiscal year 2010, VA created the National 
Outreach Office in the Office of Public and Intergovernmental Affairs 
with the stated goal to ``standardize how outreach is being conducted 
throughout VA.'' In follow-up questions to the hearing on the fiscal 
year 2012 budget, VA was asked to provide the total amount VA, as an 
enterprise, spent on outreach during fiscal year 2010. VA responded by 
stating, ``[w]hile we are not currently able to extract the total 
spending for outreach across the department for [fiscal year] 2010 and 
[fiscal year] 2011, we are working diligently toward that goal for 
[fiscal year] 2012.''
    a. Please provide the total amount VA spent on outreach during 
fiscal year 2010 and fiscal year 2011 and estimates for how much will 
be spent during fiscal years 2012 and 2013. The data should include a 
breakdown of money spent by VA Central Office, Veterans Integrated 
Service Networks (VISNs), Regional Offices, and VA medical centers.
    Response. VA created the National Veterans Outreach Office (NVO) 
within the Office of Public and Intergovernmental Affairs (OPIA) in FY 
2010 to coordinate outreach throughout VA, and to standardize outreach-
related activities. The NVO has made considerable progress in 
researching and analyzing VA's outreach programs and activities in 
2011, and has already developed a framework to track outreach efforts 
that are part of VA's major initiatives. The final frameworkincludes 
building a process for VA's administrations (Veterans Health 
Administration, Veterans Benefits Administration and National Cemetery 
Administration) and staff offices to:

    <bullet> provide Veterans with high-quality products and 
information on activities that are consistent;
    <bullet> provide trained outreach coordinators to assist Veterans;
    <bullet> evaluate and develop metrics to measure the effectiveness 
of outreach programs; and
    <bullet> track costs associated with outreach programs.

    The embedded table, previously provided to the Committee in 
March 2012, gives expenditure data on advertising outreach, a component 
of VA's outreach efforts. Outreach through advertising is targeted to 
helping VA reach Veterans who may be contemplating suicide; struggling 
with homelessness, unemployment, or mental illness; for those Veterans 
who live in rural areas; to make Veterans aware of available benefits 
and services; and VA hiring and recruitment. Table 1 details VA 
advertising activities and obligations for the period 2009-2012 and 
planned for 2013.
    The mechanisms for advertising outreach activities have included 
Public Service Announcements, multi-media projects, Internet promotion, 
transportation and billboard advertisements. Outreach activities and 
events for Homeless Veterans Outreach, Health Benefits Awareness, 
Mental Health Awareness, Women Veterans Outreach and Suicide Prevention 
Outreach will continue in 2013 using earned media, including news 
releases, social media, fact sheets, printed materials, etc. FY 2013 
funding to supplement these activities with paid advertising will be 
determined as part of the operational planning process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    b. Does standardizing the outreach efforts of VA include 
coordinating projects and initiatives at all levels of the 
organization? If so, please detail how the National Outreach Office has 
met these goals and please describe what new initiatives the office is 
undertaking to that end.
    Response. Yes, but it is important to note that OPIA only has 
supervisory authority over those personnel who are assigned or detailed 
to the National Veterans Outreach Office. In addition, hundreds of 
other VA employees enterprise-wide assigned to VBA, VHA and NCA are 
typically involved in outreach activities on any given day; those 
employees work for and respond to their respective chain of command. In 
an effort to better coordinate the outreach efforts of all VA 
employees, VA established a workgroup made up of representatives from 
VHA, VBA and NCA and VA staff offices, including: Centers for Women and 
Minority Veterans, Small and Disadvantaged Business Utilization, 
Homeless Veterans Initiatives Office, Center for Faith Based and 
Neighborhood Partnerships, and others. In 2011, the NVO held workgroup 
meetings to solicit input and ideas from headquarters and field 
facilities; and built buy-in for development and implementation of the 
plan to coordinate outreach activities and initiatives. OPIA held a 
national training conference in which ``Outreach Day'' was a major 
activity to orient VA's professionals to the outreach plan and obtain 
their final comments on developing a series of products and resources 
to improve outreach coordination, collaboration and uniformity across 
VA. Recognizing the need for centralized outreach management, NVO has 
developed the first capability to provide critical and consistent 
information to VA's Outreach community:

    <bullet> An intranet site that houses important information to 
enhance how VA Outreach coordinators execute outreach including 
policies and procedures, the National Veterans Outreach Guide, links to 
the Congressionally mandated 2010 Biennial Report to Congress on the 
VA's outreach activities, and other links.
    <bullet> An online National Veterans Outreach Guide that provides 
best business practices, expert recommendations, proven examples of 
successful VA outreach activities in serving Veterans, and lessons 
learned. This guide outlines processes for how to conduct outreach 
events, track expenditures, measure the success of activities and tap 
into key VA resources and contacts, plus so much more.
    <bullet> Next steps include finalizing a proposal for a robust 
National Veterans Outreach System (NVOS) which will allow VA Outreach 
leaders to populate a series of fields with information about planned 
outreach activities. The NVOS will be an interactive tool that allows 
users to systematically and uniformly enter, store, organize, view, 
retrieve and report outreach-related data easily. The goal of the 
database is to provide a more advanced, easy-to-use tool that may 
either be used in concert with existing data collection methods or 
replace less efficient and effective approaches. It will also provide 
the data necessary to extract any number of data pulls including the 
costs associated with outreach in a fiscal year and the number of 
events executed.

    Question 5. The December 2010 report from the National Commission 
on Fiscal Responsibility and Reform included a recommendation to reduce 
Federal spending on travel, printing, and vehicles.
    a. During fiscal year 2012, how much in total is projected to be 
expended by VA on travel costs; how much in total is projected to be 
expended on printing costs; and how much in total is projected to be 
expended to purchase, lease, operate, or maintain vehicles?
    Response.


----------------------------------------------------------------------------------------------------------------
                                               Total Employee   Total Printing    Total Fleet      Grand Total
  FY               Administration             Travel Costs ($      Costs ($         Costs ($         Costs ($
                                                 millions)        millions)        millions)        millions)
----------------------------------------------------------------------------------------------------------------
  2012 Total VA (Appropriated)                        $282              $56              $82             $420
----------------------------------------------------------------------------------------------------------------
  2013 Total VA (Appropriated)                        $282              $56              $88             $426
----------------------------------------------------------------------------------------------------------------

    To implement Executive Order 13589, ``Delivering an Efficient, 
Effective and Accountable Government,'' OMB agreed on a VA cost savings 
goal of $173 million annually for all spending categories for fiscal 
years 2012 and 2013. The FY 2013 employee travel target spend and 
reductions included below are those amounts identified by VA and 
approved by OMB for compliance with Executive Order 13589; 
additionally, these amounts have been adjusted to meet requirements 
related to OMB Memorandum M-12-12, ``Promoting Efficient Spending to 
Support Agency Operations,'' and have been approved by OMB. With OMB 
approval, no target has been set for executive fleet because the number 
of vehicles in VA's fleet is minimal.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                            Grand Total
                                                           Total  Travel  Total Printing  Total Supplies     Total IT       Mgt Support       Target
  FY                         Agency                          Reduction       Reduction       Reduction        Devices        Contracts    Reductions  ($
                                                                                                             Reduction       Reduction       millions)
--------------------------------------------------------------------------------------------------------------------------------------------------------
  2012 VA                                                       $56.2           $11.5           $24.8           $11.3           $69.6          $173.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
  2013 VA                                                       $58.4            $9.7           $72.1           $15.9           $17.4          $173.5
--------------------------------------------------------------------------------------------------------------------------------------------------------

    b. For fiscal year 2013, how much in total is requested for travel 
costs; how much in total is requested for printing costs; and how much 
in total is requested to purchase, lease, operate, or maintain 
vehicles?
    Response. See above table in 5a.

    Question 6. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA has ordered 25 electric vehicles in order to 
conduct a ``pilot study.''
    a. What make and model of electric vehicles were ordered, what was 
the total cost to VA to purchase or lease these vehicles, and what was 
the total cost to the Federal Government (if different)?
    Response. VA is currently scheduled to receive 26 electric vehicles 
(EVs) through the General Services Administration's (GSA) EV pilot 
program:

    <bullet> 5 Think City vehicles
    <bullet> 1 Nissan Leaf
    <bullet> 20 Chevrolet Volts

    VA is paying the same lease cost for these EVs as for a standard 
vehicle of a similar class. GSA's pilot program funding covers the 
incremental costs of the electric vehicles and the acquisition cost of 
charging stations for the participating agencies. Agencies only pay for 
the costs associated with installing the charging station at the EV 
site.
    GSA would have information on the cost to purchase or lease these 
vehicles both for VA and Federal-wide.

    b. For fiscal year 2013, how much in total is requested for 
purposes of this initiative?
    Response. No funding is requested.

    c. How and where will these vehicles be used?
    Response. Most of the vehicles are assigned to VHA facilities in 
the San Francisco, San Diego, Los Angeles, Detroit and Washington/
Baltimore metropolitan areas. One additional vehicle is assigned to VBA 
in Detroit. VA is deploying each vehicle to the most appropriate use at 
the selected locations. For example, how the vehicle is used depends on 
the distance that needs to be traveled, the number of people that must 
be accommodated, whether or not equipment and/or other supplies are 
being moved and other related factors.

    d. What are the specific objectives of the pilot study and what 
benchmarks will be used to determine whether it is successful?
    Response. The pilot study is a GSA initiative. GSA's stated 
objectives are to determine if EVs are a cost effective option for 
Federal fleets, and where and for what kinds of uses. GSA is collecting 
data electronically from the charging stations and from the agencies 
leasing the vehicles.

    e. Please provide copies of the Executive Decision Memorandum (or 
comparable document) approving the pilot study and supporting documents 
of justification and implementation.
    Response. The pilot study is a GSA program in which VA, along with 
other Federal departments and agencies, is a participant. VA does not 
have access to GSA internal support and approval documentation.

    f. What cost comparisons were performed to assess the differential 
between the costs of operating an electric vehicle fleet versus other 
types of vehicle fleets (gasoline, natural gas, or hybrid)? Please 
provide any documentation comparing the costs of electric vehicles with 
other types of vehicles (gasoline, natural gas, or hybrids).
    Response. Under this pilot, GSA pays all operating expenses for 
leased vehicles in their fleet regardless of fuel type.

    Question 7. VA's Central Office houses a number of different 
entities, including the Office of the Secretary, the Office of 
Congressional and Legislative Affairs, the Office of Public and 
Intergovernmental Affairs, and other support offices.
    a. How many employees currently are assigned or detailed to each of 
these respective entities within VA's Central Office? Please identify 
the status of those employees as permanent or detailed; career or non-
career; and GS, SES or SES Equivalent, or other pay scale. Please 
identify the locations (VISNs, VA medical centers, Veterans Benefits 
Administration Regional Offices, etc.) from where these employees are 
being detailed.
    Response. As of June 2012, 5 employees were detailed to one of the 
seven Staff Offices of VA Central Office or the Office of the Secretary 
(OSVA). Please see the below table.


------------------------------------------------------------------------
   Staff Office/
   Office of the         Field Office,
   Secretary the       Administration, or      Employee's     Employee's
 Employee has been    Facility Employee is   Career  Status    Pay Plan
    detailed to          Detailed From
------------------------------------------------------------------------
HRA                 VHA Employee Education   Career               GS
                     System, VHA.
------------------------------------------------------------------------
OSVA                Office of Information &  Career               GS*
                     Technology/Product
                     Development, OIT.
------------------------------------------------------------------------
OSVA                VHA, Executive           Career               GS*
                     Correspondence.
------------------------------------------------------------------------
OSVA                VBA, Deputy Under        Career               GS*
                     Secretary for Benefits.
------------------------------------------------------------------------
OSVA                Office of Management,    Career               GS
                     Office of the
                     Assistant Secretary.
------------------------------------------------------------------------
* Note: Two of the OSVA details ended in July 2012 and one ended in
  August 2012.

    b. If VA's fiscal year 2013 budget request is adopted, how many 
full-time equivalents would VA expect to be assigned or detailed from 
outside VA's Central Office to VA's Central Office during fiscal year 
2013?
    Response. The use of details to one of the seven Staff Offices of 
VA Central Office or OSVA in FY 2013 cannot be accurately forecasted. 
Detailee requirements are driven by temporary and short-term emergent 
workload needs that are not part of the normal budget planning process.

    Question 8. For the period October 1, 2010, through December 31, 
2011, please provide a listing (without names or other personal 
identifiers) of those VA employees who have been approved to receive, 
or have received, Recruitment, Relocation and/or Retention Incentives. 
It is requested that the listing include the employee's grade (SES, SES 
Equivalent, title 38, GS, etc.); duty station (VA Central Office, VA 
Field location--VISN, VAMC, VBA regional office, etc.). Please list the 
amount approved for each Incentive category.
    a. For those receiving Relocation Incentives, please list the 
losing and receiving duty station/location.
    Response. The embedded spreadsheet, below, is a listing of 
individual Recruitment, Relocation and Retention Incentives paid from 
October 1, 2010 through December 31, 2011, by grade. Losing and 
receiving duty stations/locations cannot be reported due to system 
limitations. Incentives payments have been attributed to the 
Administration or Staff Office where the individual was employed on the 
date the information was extracted from the Personnel Accounting 
Integrated Database (PAID) system. In the case of internal VA employee 
transfers, the incentive may actually have been paid by a different 
Administration or Staff Office prior to the transfer.

    [This extensive information was received and is being held in 
Committee files.]

    b. For those receiving Retention Incentives, please identify the 
level of approving official (i.e., Secretary, Deputy Secretary, Chief 
of Staff, Under Secretary, Assistant Secretary, VISN/VA medical center/
Regional Office Director, etc.).
    Response. VA does not maintain a central electronic file that 
identifies the approving official for each employee's retention 
incentives. This information is in locally maintained paper files and 
would require several months to compile.
    VA Handbook 5007, Pay Administration, Part VI, Recruitment and 
Retention Incentives, documents VA's policy as follows:

          ``a. Retention allowances must be approved by an official at 
        a higher level than the one recommending the payment. The 
        authorizing official's signature signifies concurrence with the 
        determination that an allowance is needed to retain a critical 
        VA employee and authorization of the allowance percentage.
          ``b. The Secretary, or designee, is the approving official 
        for retention allowances for employees occupying positions 
        centralized to that office.
          ``c. Administration Heads, Assistant Secretaries, Other Key 
        Officials, and Deputy Assistant Secretaries, or their 
        designees, recommend retention allowances for employees 
        occupying positions in their organization which are centralized 
        to the Secretary. They, or their designees, approve retention 
        allowances for employees occupying Central Office (VACO) 
        positions in their organizations, which are not centralized to 
        the Secretary; and employees occupying field positions 
        centralized to their offices.
          ``d. Facility directors may approve retention allowances for 
        title 38 and title 5 employees in non-centralized positions 
        under their jurisdiction provided that the amount of the 
        allowance, when combined with all other VA payments, does not 
        cause an employee's total pay to exceed the aggregate limit on 
        pay.''

    The Department is currently updating the incentives policy to 
reflect higher levels of approval.

    c. For those receiving Retention Incentives within the VA Central 
Office, please further identify the specific office (i.e., Office of 
Public and Intergovernmental Affairs, VHA Deputy Undersecretary for 
Health for Operations and Management (DUSHOM), Veterans Benefits 
Administration Compensation and Pension Service, Office of the 
Secretary, etc.).
    Response. The table below is a summary of Central Office Retention 
Incentives paid from October 1, 2010 through December 31, 2011, by 
Staff Office and Administration.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    d. For those receiving Retention Incentives, please identify, where 
applicable, whether the Incentive was being offered because (1) the 
employee was likely to leave because of retirement; (2) the employee 
indicated an intent to leave for a different Federal position; or (3) 
of another authorized reason.
    Response. VA does not maintain a central electronic file 
documenting the approved reasons for each employee's retention 
incentives. This information is in locally maintained paper files and 
would require several months to compile.
    The Code of Federal Regulations at 5 CFR 575.307 requires VA to 
establish the required documentation for determining that an employee 
would be likely to leave the Federal service in the absence of a 
retention incentive. VA Handbook 5007, Pay Administration, Part VI, 
Recruitment and Retention Incentives, documents VA's policy as follows:

          ``Evidence that the Employee is Likely to Leave Federal 
        Employment. Each supervisor shall make a separate certification 
        that an employee, or for group authorizations, a significant 
        number of employees in the group, is likely to leave Federal. 
        This certification will only be made when the supervisor is 
        reasonably convinced that the employee is likely to leave 
        Federal service. Such a certification may be based on:

          ``(1) Receipt by an employee, or for group authorizations, a 
        significant number of employees, of one or more bona fide 
        offers of employment, as evidenced by a formal written job 
        offer or affidavit signed by the employee or employees 
        providing the position and salary being offered, the name and 
        location of the organization, and the prospective date of 
        employment; or
          ``(2) Evidence of high demand in the private sector for the 
        knowledge and skills possessed by the employee or group of 
        employees and significant pay disparities between Federal and 
        non-Federal salaries; or
          ``(3) A discussion with the employee of the employee's career 
        plans.''

    A supervisor's certification documenting the reason for determining 
the likelihood of an employee leaving Federal employment should be 
included in each retention incentive case file. However, VA's OIG 
November 14, 2011, audit of retention incentives for VHA and VA Central 
Office cited case files that lacked documentation to support VA 
retention incentive decisions, including supervisors' certifications 
that the employees were likely to leave Federal service in the absence 
of monetary incentives were missing from some files. VA senior 
officials concurred with OIG report recommendations and provided 
acceptable corrective action plans which are currently being 
implemented.
    Employees who intend to leave VA for another Federal position may 
be granted a retention incentive only if VA has provided a general or 
specific written notice that the employee's position may or would be 
affected by the closure or relocation of the employee's office, 
facility, activity, or organization, per 5 CFR 575.315(b)(3).

    Question 9. Last year, the Committee learned that VISN 20 
contracted with a company called Values Coach, Inc., for $394,000. In a 
response to an inquiry from the Committee, VA indicated that VISN 20 
hired Values Coach to design a program ``to enhance performance in the 
area of customer satisfaction.''
    a. For fiscal year 2012, how much was spent across all VISNs on 
customer services contracts to enhance customer satisfaction?
    Response. See embedded attachment. Please note the expenditures 
reflected for the VISNs in the spreadsheet cover a wide range of 
expenditures that fall under the general category of customer 
satisfaction efforts including implementation of a system in VISN 6, 
for example, that enables the tracking of customer satisfaction at the 
clinic level.

      Amount Spent on Customer Services Contracts to Enhance Customer
                              Satisfaction
               Department of Veterans Affairs--April 2012
------------------------------------------------------------------------
                                                            (b) Amount
                                       (a) Amount Spent    Projected to
                                          on Customer        Spend on
                                           Services          Customer
           VISN/NCO Number               Contracts for       Services
                                       Fiscal Year 2012   Contracts for
                                         to April 2012     Fiscal Year
                                                               2013
------------------------------------------------------------------------
VISN 1...............................              0         Unknown
VISN 2...............................              0         Unknown
VISN 3...............................              0         Unknown
VISN 4...............................              0         Unknown
VISN 5...............................              0         Unknown
VISN 6...............................   est. 644,630         Unknown
VISN 7...............................              0         Unknown
VISN 8...............................              0         Unknown
VISN 9...............................              0               0
VISN 10..............................         377250          170000
VISN 11..............................              0               0
VISN 12..............................         278950           46100
VISN 15..............................              0               0
VISN 16..............................              0               0
VISN 17..............................              0               0
VISN 18..............................              0               0
VISN 19..............................              0               0
VISN 20..............................         192100           10000
VISN 21..............................              0               0
VISN 22..............................              0               0
VISN 23..............................          58305           53805
                                      ----------------------------------
    Totals...........................     $1,551,235        $279,905
------------------------------------------------------------------------

    b. For fiscal year 2013, how much will be spent across all VISNs on 
customer services contracts to enhance customer satisfaction?
    Response. Please see embedded attachment for question 23a.
    c. For the VISN 20 Values Coach contract, please describe the 
metrics used to determine whether customer satisfaction changed as a 
result of this contract.
    Response. Since October 2010, the VISN 20 ``Culture of Change'' 
Steering Committee has overseen initiatives, including the Values Coach 
contract, to assist with transitioning the organization to a more 
Patient-Centered Culture. The Committee analyzes employee survey 
scores, facilitates educational opportunities for employees, and seeks 
improvement in Labor-Management relationships. The Values Coach 
contract enabled VISN 20 facilities' staff to improve their adoption of 
a patient-centered culture. This was assessed through meetings, town 
halls and other venues. The services offered help teach patient-
centered values, Plain Tree and other concepts.
    d. Please provide a detailed description of the process required to 
secure contracts for customer service training to enhance customer 
satisfaction.
    Response. The process for securing a contract begins with a clear 
requirement, typically established by a program manager. Establishing 
the requirement and determining that a contract is required to meet it, 
may involve several levels of review and discussion. In VISN 20, the 
network leadership adopted an initiative that had shown success in one 
of its Medical Centers and extended it throughout the VISN. In this 
instance, the requirement identified is the need to enhance client 
focus of staff throughout a medical center--this is a cultural change 
and requires the support of professionals who have been able to deliver 
comparable changes at multiple layers of a hospital organization. In 
these instances, it may be suitable for a contractor's services to be 
retained by the government. As stated earlier, since October 2010, the 
VISN 20 ``Culture of Change'' Steering Committee has overseen 
initiatives, including the Values Coach contract, to assist with 
transitioning the organization to a more Patient-Centered Culture. The 
Committee analyzes employee survey scores, facilitates educational 
opportunities for employees and seeks improvement in Labor-Management 
relationships.
    As it relates to the process to secure contracts, the requesting 
office defines their requirement and provides the contracting officer 
with procurement and funding documentation. Based on the information 
provided and market research results, contracting decides the 
acquisition strategy. A solicitation is then created and released to 
potential offerors. Upon receipt of the offer, a technical evaluation 
panel evaluates the offers based on the evaluation factors in the 
solicitation. Following evaluation of the final offerors, contracting 
selects the offerors whose proposal is most advantageous and provides 
the best overall value to the Government, consistent with the 
evaluation factors established in the solicitation. Best value awards 
are made against Federal Supply schedules. Contract requirements are 
reviewed by warranted Contracting Officers. If required, a legal review 
may be performed by OGC.
    Once the requirement is established, VHA's contract oversight 
process will be applied to securing a contract to meet the requirement. 
VHA contracting oversight process focuses on ensuring that all 
contracting regulations have been followed. The Integrated Oversight 
IL, IL001AL-09-02, guides the contract review process for all of VA 
[see attached]. The process for contract review is dependent upon the 
contract value. Typically, the higher the dollar value, the more levels 
of review, including a review by legal. Contracting oversight ensures 
that all requirements of law, executive orders, regulations, and all 
other applicable procedures, including clearances and approvals, have 
been met (see references FAR 1.602-1 Authority, paragraphs (a) and (b) 
provided below).
    The contracting office determines if a requestor's requirement is 
appropriate and necessary based on the supporting documentation 
provided. A contracting officer's role is to be a business advisor in 
relation to the procurement strategy and to ensure the proper 
contracting regulations are followed. If the requestor requests a 
particular brand name, or vendor (sole source) for example, the 
requestor is responsible for providing supporting justification/
documentation to the contracting office, and the contracting office is 
responsible for approving or rejecting the request based on the 
supporting justification/documentation provided. For example, if a 
doctor requires a particular piece of equipment to perform a surgery or 
an engineer has particular design requirements, contracting will review 
supporting documentation provided by the requestor and determine if the 
requirements are appropriate and necessary.
Reference:
    FAR 1.602-1 Authority, paragraphs (a) and (b), state, contracting 
officers have authority to enter into, administer, or terminate 
contracts and make related determinations and findings. Contracting 
officers may bind the Government only to the extent of the authority 
delegated to them. Contracting officers shall receive from the 
appointing authority (see 1.603-1) clear instructions in writing 
regarding the limits of their authority. Information on the limits of 
the contracting officers' authority shall be readily available to the 
public and agency personnel. No contract shall be entered into unless 
the contracting officer ensures that all requirements of law, executive 
orders, regulations, and all other applicable procedures, including 
clearances and approvals, have been met.

                  ATTACHMENTS FOR QUESTION 9D FOLLOW:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    e. Does the Federal Government (VA, Office of Personnel Management, 
etc.) provide coaching services which would train Federal employees to 
improve their customer service skills? If so, please describe the 
program(s) in detail.
    Response. At VA, Veterans are our customers. Across our 
organization we are focused on improving the customer service we 
provide to Veterans, their families and their survivors. At the 
Department level, VA provides coaching services for the development and 
enhancement of executive leadership skills. This coaching heightens the 
awareness and emotional intelligence of leaders, which in turn yields 
better outcomes for customers, employees, and the organization at-
large. VA Executive coaching is available to newly appointed Senior 
Executive Service (SES) members and existing SES who have taken on a 
new responsibility level. Coaches are affiliated with the Center for 
Creative Leadership, and have many years of experience working with 
executives and leaders from a variety of organizations (public and 
private). Additionally, there are several opportunities for coaching 
embedded in VA Learning University sponsored training.
    More broadly, in 2011 the Department announced VA Core Values and 
Characteristics that apply universally across all of VA. The Core 
Values are the basic elements of how we go about our work--they define 
``who we are''--and form the underlying principles we use every day in 
our service to Veterans. The Core Characteristics define ``what we 
stand for'' and what we strive to be as an organization. The Values are 
Integrity, Commitment, Advocacy, Respect and Excellence (``I CARE''). 
The Core Characteristics help guide how we will perform our core 
mission; they shape our strategy, and will influence resource 
allocation and other important decisions made within VA. The 
Characteristics are Trustworthy, Accessible, Quality, Agile, 
Innovative, and Integrated.
    A few examples of the many ways VA focuses on customer service are 
included below.
    In VBA, all call center agents are required to complete a telephone 
techniques training program. This program focuses on effective customer 
service and active listening skills, acknowledgement of customers' 
feelings, and effective call management techniques. Call center agents 
also complete call simulations training, which allows the agents to 
apply their skills via role playing scenarios. As part of VBA's 
standard quality review process, all call center agents receive a 
monthly coaching session where they are provided feedback on their 
technical proficiency and how they can continue to strengthen client 
contact behaviors.
    In the National Cemetery Administration (NCA), the National 
Training Center trains leaders and technical experts in operational 
standards and measures to ensure our Nation's veterans and their 
families are honored with dignity and respect and a final resting place 
and lasting memorial. Customer service is also an integral part of NCA 
training programs. NCA incorporates customer service modules into the 
design for every mission-critical occupation, such as the NCA Caretaker 
Training, the Foreman Training and the Cemetery Representative Training 
Programs. These programs focus on assessing employee proficiency in 
customer service basics, convey the importance of exceeding 
expectations, and offer practical applications illustrating the role of 
the NCA employees in providing Veterans and their families with the 
highest level of customer service.
    In VHA, the employee-customer (patient) relationship is at the 
heart of the Patient Aligned Care Team (PACT) transformational 
initiative. Four regional PACT teams, comprised of patient-centered 
care consultants, will facilitate the culture change for patient-
centered care at all VA facilities across the country, within their 
designated region. These teams will not only serve as consultants, but 
will also conduct training with local staff on the implementation of 
patient-centered principles.
    Finally, the VHA ``Treating Veterans with I.C.A.R.E.'' program is 
designed to enhance the ability of staff to communicate effectively and 
compassionately with Veterans in health care settings. Emphasis is 
placed on how to connect with the Veteran, appreciate their position as 
a customer, respond appropriately with care and empathy, and empower 
the patient. This training has standardized materials including 
facilitator guides and is designed to be delivered at VA facilities.
    VA defers to OPM and other Federal Departments to discuss details 
of executive branch-wide coaching and customer service training.

    Question 10. In response to questions about VA's fiscal year 2012 
budget request, VA indicated that, ``[a]t the end of FY 2010, VA's 
total outstanding delinquent debt was $1.3 billion'' and that, of that 
amount, ``$784 million was attributable to delinquent benefit debts.''
    a. What was the total amount of outstanding delinquent debt at the 
end of fiscal year 2011?
    Response. Based on the Treasury Report on Receivables (TROR) the 
total outstanding delinquent debt for FY 2011 was $1.2 billion.

    b. What portion of that amount was debt created in connection with 
VA benefit payments?
    Response. Based on the TROR benefit debt at the end of FY 2011 was 
$732 million.

    c. What is the total value of debts for which VA waived recoupment 
during fiscal year 2011?
    Response. In FY 2011 VA wrote off or waived a total of $247 
million.

    d. What is the total value of debts deemed uncollectible during 
fiscal year 2011?
    Response. The total of all uncollectible debts is 
$1,198,614,941.11.

    e. What is the total amount of delinquent debt projected to be 
outstanding at the end of fiscal year 2012?
    Response. We do not have a way to provide an estimate of the future 
predicted debt level for delinquent debt. However, we can provide an 
estimate for new debt established. For FY 2012, we expect to establish 
$1.46 billion in new debt.

    f. What is the total amount of delinquent debt projected to be 
outstanding at the end of fiscal year 2013?
    Response. We do not have a way to provide an estimate of the future 
predicted debt level for delinquent debt. However, we can provide an 
estimate for new debt established. In FY 2013 we expect to create $1.48 
billion in new debt.

    Question 11. For fiscal year 2013, VA projects to spend $76.4 
billion in mandatory funding. According to VA's budget request, that 
funding will, in part, be used to pay for items such as medical 
examinations, state approving agencies, awards under the Equal Access 
to Justice Act (EAJA), and reimbursements to the General Operating 
Expenses account for certain costs of administering VA benefit 
programs.
    a. In total, how much of that mandatory funding will be spent other 
than in the form of direct benefits paid or provided to veterans, their 
families, or their survivors?
    Response. For FY 2013, approximately $273.1 million, or 0.42 
percent, of the $61.7 billion for the compensation and pension 
mandatory account is for non-direct benefits paid for Veterans and 
survivors. Over 99 percent of total obligations in compensation and 
pension mandatory funding is attributed to direct benefit payments.
    For FY 2013, $32.3 million, or 0.26 percent, of the $12.6 billion 
dollar appropriation requested for the readjustment benefits account is 
expected to be spent on non-direct benefits provided to Veterans, their 
families, or their survivors. Over 99 percent of readjustment benefits 
mandatory funding is for direct benefits paid or provided to Veterans 
and their families, survivors, and institutes of higher learning.

    b. Of that total, please identify how much would be spent for each 
category of non-benefit payments, such as the amounts that would be 
spent on information technology, on contractor services, or on 
personnel expenses.
    Response. For the compensation and pension account, the $273.1 
million in non-direct benefit payments is outlined below.

<bullet>  $250.6 million for Medical Exam Pilot Program: Public Law 
(P.L.) 104-275 authorizes VA to carry out a pilot program over 10 
regional offices for examinations with respect to medical disability of 
applicants performed by persons other than VA employees.
<bullet>  $13.3 million for Equal Access to Justice Act payments: 
Public Law 99-80 authorizes the award of attorney fees and other 
expenses to eligible individuals and small entities that prevail 
against the government in civil actions for judicial review of agency 
action.
<bullet>  $9.2 million for OBRA: The OBRA Act of 1990, Pub. L. 101-508 
authorizes VA to perform data matches with the Internal Revenue Service 
and Social Security Administration to ensure proper payments are made 
to eligible beneficiaries.

    For the readjustment benefits account, the $32.3 million in non-
direct benefit payments is outlined below.

<bullet>  $19.0 million for State Approving Agencies: Pub. L. 110-252 
increased the maximum funding level for State Approving Agencies to 
$19.0 million. State Approving Agencies assess whether schools and 
training programs are of appropriate quality for Veterans to receive VA 
education benefits while attending them.
<bullet>  $12.8 million for Reporting Fees: Reporting fees are paid by 
VA to educational institutions for each person enrolled who is 
participating in a VA education program. Pub. L. 111-377 increased the 
reporting fee rates from $7 to $12 per enrolled veteran or $11 to $15 
per enrolled veteran if educational assistance checks are in temporary 
custody of an institution.
<bullet>  $0.5 million for Reimbursement to General Operating Expenses 
(GOE): Pub. L. 101-237 and Pub. L. 105-368 authorized reimbursement for 
GOE expenses related to outreach and distribution of information to 
Veterans regarding education benefits.

                  OFFICE OF INFORMATION AND TECHNOLOGY

    Question 1. The Office of Information and Technology (OIT) has 
outlined 16 major transformational initiatives developed to support the 
Secretary's goal ``to transform the Department of Veterans Affairs * * 
* into a high performing 21st century organization.''
    a. What is the total amount VA expects to spend on developing these 
16 major transformational initiatives? Please breakout the funding by 
initiative.
    Response. The Office of Information and Technology (OIT) provides 
support to each of the Secretary's 16 Major Initiatives. For FY 2013, 
VA has requested $376,810,000 for development. The breakdown of the 
development budget by Major Initiative is reflected in the table below.

                        FY 2013 Budget Submission
                        (in thousands of dollars)
------------------------------------------------------------------------
                                                                 Major
         Major Initiative           Development    Marginal   Initiative
                                                 Sustainment     Total
------------------------------------------------------------------------
MI 01--Eliminate Veteran                3,075          879       3,954
 Homelessness.....................
MI 02--Veterans Benefits               38,525       53,728      92,253
 Management System (VBMS).........
MI 03--Automate GI Bill Benefits..
MI 04--Virtual Lifetime Electronic     49,939        3,000      52,939
 Record (VLER)....................
MI 05--Improve Veterans Mental          8,818          310       9,128
 Health...........................
MI 06--Veterans Relationship           99,439       11,486     110,925
 Management (VRM).................
MI 07--New Models of Health Care       35,724        1,101      36,825
 (NMHC)...........................
MI 08--Enhance the Veteran             67,816        3,934      71,750
 Experience and Access to Health
 care (EVEAH).....................
MI 09--Ensure preparedness to meet      3,025       11,490      14,515
 emergent national needs..........
MI 10--Enabling Systems to Drive        4,062          100       4,162
 Performance and Outcomes (STDP)..
MI 11--Integrated Operating Model      20,065       13,625      33,690
 (IOM)............................
MI 12--a Human Capital Investment      14,640        1,000      15,640
 Plan (HCIP)......................
MI 13--Research & Development          18,521        3,665      22,186
 (R&D)............................
MI 14--Strategic Capital                1,000        3,162       4,162
 Investment Planning (SCIP).......
MI 15--Health care Efficiency.....      4,659        2,000       6,659
MI 16--Health Informatics.........      7,500        1,656       9,156
                                   -------------------------------------
  Total...........................    376,808      111,136     487,944
------------------------------------------------------------------------


    b. When does VA expect to see these projects moved from the 
development stage to activation?
    Response. Each Major Initiative contains a unique set of projects 
that provide the functionality envisioned by the initiative. Five of 
the Major Initiatives are scheduled to accomplish their 
transformational goals in FY 2012 (GI Bill/IVMH/STDP/R&D/SCIP).
    For each project supporting an initiative, and based on PMAS 
principles, customer facing functionality is delivered to the customer 
in increments on a 6-month or less basis. Complete project transition 
from a development state is uniquely determined by each project's 
defined scope of requirements.

    c. Once these projects become activated, what will be the costs 
associated with operating and maintaining these projects?
    Response. For FY 2013, Product Development, under the Major 
initiative construct, has budgeted $111 million for the incremental 
transition of projects to activation. The marginal sustainment by Major 
Initiative is reflected in the chart above.

    d. For each of the 16 major transformational initiatives, please 
provide the Committee with a detailed description of each of the 
information technology (IT) products, software, or other items that 
would be the end result of each initiative.
    Response. The following list of projects and deliverables is not an 
exclusive list. These are some of the key IT projects managed under the 
initiatives, although some projects may not be listed. This list of 
deliverables does not include non-IT projects and deliverables for the 
initiatives.
1. Eliminate Veteran Homelessness (EVH)
<bullet>  Handheld device pilot for use by Homeless Program case and 
outreach workers.
        -   This will provide users the ability to track Veterans 
        receiving assistance. Deliverables will include the capability 
        of accessing other VA applications to scheduling, clinical 
        ancillary programs and mental health via the use of the 
        handheld device.
<bullet>  The Web-management Toolkit for the Department of Housing and 
Urban Development--VA Supported Housing (HUD-VASH)--completed in FY 
2012.
        -  Provides case managers and Veterans access to on-line 
        resources that will help attain and maintain permanent Veteran 
        housing, general information, best practices and program 
        specific data to providers and will be expanded to cover other 
        Homeless Programs.
<bullet>  Homeless Operations and Management Evaluation System 
(HOMES)--
        -  Completed in FY 2012. Performs case management and tracking 
        functions for the Homeless Program
<bullet>  In FY 2013, the Homeless Repository will also expand its two-
way interface to more entities and provide those entities with up-to-
date Veteran information. The information shared by VA then will be 
used by those entities to address homeless Veteran benefit gaps.
<bullet>  Veteran Re-Entry Matching Service project--collecting and 
processing information about incarcerated Veterans designed to address 
community reentry needs of incarcerated Veterans by preventing 
homelessness.
        -  Reduces the impact of medical, psychiatric and substance 
        abuse problems upon community readjustment to decrease the 
        likelihood of re-incarceration.
2. Veterans Benefits Management System (VBMS)
    VBMS deployment is occurring in phases.

<bullet>  Phase 1 was deployed in November 2010 and completed in 
May 2011.
        -  Phase 1 utilized a new electronic claims repository and 
        scanning solution, as well as new claims processing software 
        integrating with elements of the current legacy platform.
<bullet>  Phase 2 was deployed in May 2011 and completed in 
November 2011.
        -  Phase 2 validated and refined the VBMS technology solution, 
        as well as provided additional business requirements for future 
        technology releases.
        -  In addition, Phase 2 increased system capacity by adding 
        more users, stations, claims, and claim types.
<bullet>  In August 2011, VBA began implementing transformation 
initiatives to drive consistency, standardization, and improvement in 
delivery of benefits.
        -  VBMS is one of the technology solution components enabling 
        all claims to be completed within 125 days at 98 percent 
        accuracy by 2015.
<bullet>  VBMS Major Release 2 was deployed in November 2011.
        -  Major Release 2 enhanced user interface, claims' 
        establishment, and rating capability.
<bullet>  VBMS Major Release 3 is scheduled to deploy in July 2012 in 
support of national deployment.
<bullet>  Subsequent major and minor software releases are scheduled 
through FY 2014.
3. Automate GI Bill Benefits
    Since March 2010, Long Term Solution (LTS) has been incrementally 
developed to provide Post-9/11 GI Bill benefits in a timely and 
effective manner.

<bullet>  Release 1.0 of the LTS, deployed on March 31, 2010, provided 
calculations for chapter 33 eligibility, entitlement, and delimiting 
date as well as calculations for chapter 33 awards (with no amendments) 
including calculation of tuition and fees, Yellow Ribbon, housing, 
books and supply, chapter 30 kicker, chapter 1606 kicker, and 
calculations for intervals between terms. Interface with VADIR system 
(VA's internal database of military data) included.
<bullet>  Release 2.0, deployed June 30, 2010, added capability to 
process amended awards to comply with existing requirements in title 
38, chapter 36. Interface with WEAMS (system that records school 
approval data) included.
<bullet>  Release 2.1, deployed August 23, 2010, provided for a data 
conversion from the FET (Front-End Tool) system, initially used to 
calculate chapter 33 benefits. All chapter 33 claims processed in LTS 
effective R2.1.
<bullet>  Release 3.0, deployed October 30, 2010, added interface with 
VAONCE (the system schools use to report enrollment and changes of 
enrollment).
<bullet>  Release 4.0, deployed December 20, 2010, provided interface 
with the chapter 33 BDN system (the payment system for chapter 33). 
Included initial claimant self-service (via eBenefits).
<bullet>  Release 4.2, deployed on March 5, 2011, provided 
functionality to implement 60-day requirement deadlines contained 
within Pub. L. 111-377.
<bullet>  Release 5.0, deployed June 4, 2011, implemented numerous 
additional provisions of Pub. L. 111-377 and also provided a scheduling 
feature for housing payments.
<bullet>  Release 5.1, deployed October 17, 2011, completed the 
functionality required to address Pub. L. 111-377 including calculation 
of benefits for training at non-degree schools, correspondence schools, 
flight schools, and for apprenticeship and on-the-job training.
<bullet>  Release 5.11, deployed on December 19, 2011, enhanced the 
processing of student debt management issues caused by the 
implementation of the tuition and fee payment cap required by Pub. L. 
111-377.
<bullet>  Release 5.2, deployed on February 21, 2012, was a technical 
release to prepare for automation in Release 6 and to address system 
and security requirements that were previously deferred.
<bullet>  Release 6.0, scheduled for July 30, 2012, will provide end-
to-end automation of selected supplemental claims without human 
intervention.
<bullet>  FY 2013 activities will include knowledge transfer and 
continuation of activities for full sustainment, as well as, subject to 
additional funding, development of user functionality for continued 
enhancements to the LTS system.
4. Virtual Lifetime Electronic Record (VLER)
    Deliverables for VLER are explained in the context of the following 
four focus areas:

<bullet>  Nationwide Health Information Network (NwHIN)
    a. The key to sharing critical health information is pushing for 
interoperability and utilizing the NwHIN standards, allowing agencies 
like VA and DOD to partner with private sector health care providers to 
promote better, faster and safer care for Veterans.
<bullet>  Warrior Support
    b. The VLER Warrior Support Projects ensure that information is 
available to end users in a timely fashion to support Integrated Care 
for Servicemembers and Veterans of Operation Enduring Freedom, 
Operation Iraqi Freed and Operation New Dawn and severely ill and 
injured Servicemembers and Veterans
<bullet>  Memorial Affairs Modernization
    c. Designed in the 1990s, modernizing and redesigning the Memorial 
Affairs Burial Operations Support System (BOSS) will allow VA the 
flexibility to adapt to current needs and improve overall stability of 
the platform and consistency of services it provides to Veterans and 
their families at over 180 locations including 131 VA National 
Cemeteries.
<bullet>  Health Information Technology Sharing
    d. In 2011, the Bidirectional Health Exchange (BHIE) interface 
implemented an application that enables VA providers to select for 
viewing DOD neuropsychological assessments and imagery from the DOD 
Healthcare Artifact Information Management System. BHIE also 
implemented updates to an existing application to enable VA clinicians 
to view DOD inpatient notes. BHIE currently is supporting approximately 
450,000 monthly health information exchange queries from VA to DOD, at 
a rate of over five million per year.
5. Improve Veterans Mental Health
    In FY 2012, deliverables include:

<bullet>  Deployment of software to track patients at high risk of 
suicide;
<bullet>  Software to identify a patient's principal mental health 
provider to all medical staff treating the Veteran;
<bullet>  Deployment of a number of mental health assessment tools to 
ensure sufficient information is collected during patient assessments 
to make good clinical decisions; and
<bullet>  Deployment of goal setting module in My HealtheVet.

    In FY 2013, deliverables include:

<bullet>  Provide a tool for clinicians to assign and distribute 
assessment instruments for evaluating the mental health condition of a 
Veteran based upon that Veteran's unique treatment and service needs;
<bullet>  Adopt a tool to conduct structured assessments that is used 
to manage and evaluate mental health care within primary care settings; 
and
<bullet>  Implement a tool to allow the identification of at-risk 
Veterans so that proper care may be given at VA health care facilities.
6. Veterans Relationship Management (VRM)
    In FY 2012, the VRM initiative made a number of important 
achievements that will be leveraged into the next fiscal year.

<bullet>  VONAPP Direct Connect (VDC) 1.0 provides Veterans the ability 
to apply for VBA benefits by answering guided interview questions 
through the security of the eBenefits portal. Introduced in VDC release 
1.0 were guided interviews for the Declaration of Status of Dependents 
and Request for Approval of School Attendance.
<bullet>  Virtual Hold and Scheduled Call Back technology was 
successfully deployed for all VBA National, Pension, and Education call 
centers. Virtual Hold allows callers to hang up rather than wait on 
hold and be automatically called back without losing their position on 
the call queue. Scheduled Call Back enables callers to schedule a 
returned call up to 7 days in advance.
<bullet>  The VRM Customer Relationship Management/Unified Desktop 
(CRM/UD) was deployed at the VBA National Call Center (NCC) in St. 
Louis. CRM/UD improves the VBA NCC business processes by capturing 
caller history, which facilitates first contact resolution, and aids in 
personalizing service to Veterans. CRM/UD streamlines data access by 
providing a single, unified view of VA clients through one integrated 
application versus the current process that requires Public Contact 
Agents to access up to 13 applications.
<bullet>  Interactive Voice Response (IVR) enhancements were introduced 
allowing VBA to re-record IVR information as needed, eliminating the 
need to place change orders with the vendor. Recent changes to the 
recordings provided a simplified IVR for callers seeking agent 
assistance and enhanced the self-service function to include providing 
payment information for Education Chapter 33 participants.
<bullet>  Multiple releases expanded the existing self-service features 
available via the eBenefits portal. New functionality includes the 
ability to login with a DS Logon using a smart phone, status of an 
appeal at the Board of Veterans' Appeals (BVA); access to Post-9/11 GI 
Bill enrollment status and enhanced claims status features, and VA 
payment history.
<bullet>  The framework for the Stakeholder Enterprise Portal (SEP) was 
delivered and will provide a secure, consistent, and seamless entry 
point to VA web-based systems and self-service functions for VA's 
stakeholders and business partners providing services on behalf of 
Veterans.
<bullet>  In addition, VRM has implemented the ability to assign a VA 
identifier to active duty military personnel at VA facilities. This 
minimizes inaccuracies in identifying a Veteran and decreases the 
number of duplicate records.
<bullet>  Critical components of VRM are directed at improving 
telephone services through integration of new telephony technologies.
7. New Models of Health Care (NMHC)
<bullet>  This portfolio of multi-year programs is designed to 
transform the delivery of healthcare within VA and to position VA as a 
leader in the healthcare industry through innovations for both Veterans 
and providers.
<bullet>  To help facilitate the redesign of primary care, the Primary 
Care Management Module will be reengineered to create a national 
database identifying all members of the PACT and tracking of all 
patient care providers, both VA and non-VA.
<bullet>  Specialty Care has completed a Multiple Sclerosis Home 
Automated Telemanagement (MS Hat) pilot project providing MS patients a 
way of monitoring their rehabilitation, providing patients with tele-
rehabilitation, and tracking patient progress in real time.
<bullet>  VA is developing software to track and report abnormal test 
results and is also developing a Breast Cancer Clinical Case Registry 
to provide immediate access to breast cancer screening results.
<bullet>  To alert providers of pregnancy and lactation status when 
prescribing potentially unsafe medication drugs, VA is developing a 
notification tool of teratogenic medications within the Computerized 
Patient Record System (CPRS).
<bullet>  My HealtheVet (MHV) is a forward-facing web portal that helps 
replace a visit-based, hospital-centric model with a Veteran-centric 
health care model. Capabilities enhancements have been developed to 
support web-based tools to help Veterans, their families, and care 
providers increase their knowledge of health conditions, better manage 
their personal health records, and communicate with health care 
providers in a secure online environment.
<bullet>  The MHV Secure Messaging project improves the clinician-
patient relationship by providing patients and clinicians with the 
ability to send non-urgent, secure messages without using email and 
risking the exposing confidential information.
<bullet>  The MHV Online Viewing Personal Health Record (PHR) project 
will allow Veterans to view and manipulate portions of their PHRs 
downloaded from VistA or self-entered. As a result, Veterans' ability 
to manage their care will be improved and their PHRs will contain 
information from a broader range of VA services delivered. Providers 
are more likely to engage and adopt tools containing comprehensive 
health information which can be integrated into CPRS.
<bullet>  The MHV and eBenefits Portal Integration (MHVEB) project will 
provide VA a Single Sign-On (SSO) capability for MHV. The SSO 
functionality will allow users to sign on to the MHV portal from 
another eAuthentication-enabled portal, as well as to sign on to 
another eAuthentication-enabled portal from the MHV portal.
<bullet>  The MHVEB project will leverage DOD DS Logon Level 2 
credentials to provide an SSO capability from eBenefits. Users can map 
their eBenefits account to their VA Patient MHV account to seamlessly 
navigate to and from their MHV account
<bullet>  The VistA Imaging Enhancements project is part of the VA 
System of Records for maintaining electronic medical images and scanned 
documents. Work includes providing functionality for capturing, 
storing, and retrieving images for clinical use; and promoting VistA 
interoperability with commercial medical devices and the delivery of 
all patient images to clinicians in any facility.
<bullet>  Various mobile applications are in development, including the 
pilot testing for the Clinic-in-Hand project which allows VA the 
ability to exchange health-related data with Veterans and their family 
caregivers using mobile healthcare applications designed to provide 
support and improve Veteran health though interventions targeted at 
disease management and prevention. Other mobile applications in 
development include Mobile Blue Button, Provider Mobile Apps, hi2 
Patient Medication Reconciliation, and a VA Information Application.
<bullet>  The Enterprise Mobile Applications project will develop a 
distributed mobile applications development and production environment 
to reduce development time, improve code quality, reduce risk to source 
systems, reduce application cost, and provide objective metrics.
<bullet>  The Clinical Video Teleconferencing (CVT) project will 
develop a national CVT scheduling system to ensure resources at both 
ends of a telehealth visit for Veterans and healthcare providers are 
coordinated with patients across different VistA scheduling systems and 
to provide for workload capture.
<bullet>  The Home Telehealth Capability Enhancements project will use 
home telehealth technologies to support Veterans in non-institutional 
care settings, thereby reducing hospital admissions, clinic visits, and 
emergency room attendances, and improving the quality of care and 
standard of living for Veterans.
<bullet>  The Document and Ancillary Imaging application involves 
imaging functionality for document imaging, management, and integration 
to the medical record, in order to allow clinicians to view high-
quality images and documents.
<bullet>  The Health Risk Assessment project will deliver the Veteran a 
systematic approach to collecting information that identifies risk 
factors, provides individualized feedback and links the Veteran with at 
least one intervention to promote health, sustain function, and prevent 
disease.
<bullet>  The National Teleradiology Program (NTP) Enterprise 
Infrastructure Engineering project will add fault tolerance to existing 
network infrastructure to improve network uptime and minimize 
interruption of service in the operation of NTP's mission to provide 
convenient and cost-effective radiologic image interpretation service 
for VA facilities.
<bullet>  The Patient Advocacy Database will help patient advocates by 
feeding information into their tracking database from the VA Inquiry 
Routing and Information System.
<bullet>  The Resident Assessment Instrument/Minimum Data Set is used 
to assess residents of long-term care facilities, guide the development 
of individualized care plans, evaluate the quality of care provided, 
and determine workload and Veterans Equitable Resource Allocation 
reimbursements. This project will develop software to improve clinical 
relevance of assessment items, and improve reporting and quality 
measures.
<bullet>  The VA/DOD Image and Scanned Document Sharing Phase 1 project 
will provide the capability to scan, store, and display DOD records 
that are not electronic so they can be viewed by VA practitioners in 
CPRS and will enhance VistA Imaging to allow viewing of DOD radiology 
images and scanned document files.
8. Access to Healthcare
    Deliverables will focus on the following areas of Healthcare 
Access:

<bullet>  In FY 2011, Rural Health created an automated eligibility 
determination for program-eligible Veterans within the Electronic 
Medical Record via a clinical reminder, which notifies staff when an 
eligible Veteran presents for VA services.
        -  In FY 2012, Rural Health staff will be provided the ability 
        to manually establish eligibility within the Electronic Health 
        Record and the ability to generate reports from the electronic 
        health record for internal and mandated Congressional reports.
<bullet>  During FY 2011, Veteran Point of Service Kiosks were 
activated at four pilot sites. Since pilot site activation, kiosks have 
successfully checked-in over 90,000 patients.
        -  During FY 2012, kiosk devices will be deployed to remaining 
        VISN medical centers and designated Community Based Outpatient 
        Clinics.
        -  During FY 2013, enhanced interfaces with authoritative 
        information systems will be released to improve read/write data 
        capabilities and streamline facility staff management of kiosk 
        processes and Veteran responses submitted through the kiosks.
<bullet>  In FY 2011, the Emergency Department Integration System 
(EDIS) v1 and Bed Management Solution (BMS), Class III, were deployed 
VA-wide. In FY 2012 and FY 2013, both EDIS v2 and BMS v1 will provide 
enhanced system capabilities reducing bed wait times, increasing 
patient information available to the health care providers, and 
integrating a full inpatient flow system.
        -  In FY 2012, initial deployment of an enhanced and fully 
        integrated Surgical Quality Workflow Management system will 
        begin, continuing through FY 2014.
9. Preparedness
<bullet>  In accordance with Office of Management and Budget (OMB) 
Memorandum 11-11, VA will continue to implement Homeland Security 
Presidential Directive 12 (HSPD-12) during FY 2012 and FY 2013. VA will 
complete nearly 100% Personal Identity Verification (PIV) credential 
issuance in FY 2012 and begin requiring the use of the PIV credentials 
for Logical Access Control System (LACS) interface in FY 2012. The 
HSPD-12 compliance program will have two primary efforts that will 
continue development into FY 2013.
        -  VA will complete improvements to the Personal Identity 
        Verification (PIV) card management system in FY 2012 with two 
        interfaces to automate Employee Sponsorship and the Background 
        Investigation portion of the PIV registration process. 
        Completion of the full development and implementation of both 
        of those interfaces will run into FY 2013.
        -  Additionally, in FY 2012, VA will initiate design of the 
        Physical Access Control Systems (PACS) HSPD-12 Compliant 
        Enterprise Wide Architecture. The enterprise PACS Architecture 
        full development and implementation will continue into FY 2013.
<bullet>  The Integrated Operations Center (IOC) and corresponding 
continuity of operations (COOP) sites will achieve initial operations 
capability at two sites (Sites A and C) during FY 2012 with full 
operational capability not realized until FY 2013.
10. Systems to Drive Performance and Outcomes (STDP)
<bullet>  In FY 2012, the STDP initiative will continue to provide VA 
leadership with effective and flexible tools to review, analyze, and 
project, on an ongoing basis, cost and performance trends that impact/
reflect changes in the budgetary environment, program efficiency and 
management priorities. These tools will be expanded in FY 2012 to 
address emerging VA Dashboard requirements and increase utilization of 
available tools.
11. Integrated Operating Model (IOM)
<bullet>  IOM supports the VA Facilities Management Transformation 
Initiative, which will result in increased enterprise performance 
through the acquisition, development, and fielding of an enterprise 
construction project management system. When completed, the new web-
based software will be capable of document control; collaboration 
between designers, managers, construction contractors, developers, 
owners, and program officials; and include the ability to run reports 
at the project and program level as well as link submittals to possible 
future actions such as RFP's and contract modifications.
<bullet>  IOM supports the effort to implement a new VA Time and 
Attendance System (VATAS), which will improve efficiencies in workforce 
management workflows and personal productivity, and enhance 
transparency in the collection, delivery and use of VA workforce 
information. When completed, VATAS will make timekeeping more efficient 
and will eliminate the over 170 disparate VistA time and attendance 
systems currently used in the field. The new system will be centrally 
managed and hosted, and will also support cost accounting needs to 
better access and track labor costs related to VA employees.
<bullet>  IOM supports VA's effort to migrate VA to a new Human 
Resource Information System (HRIS) Shared Service Center (SSC) in 
accordance with federally mandated Human Resource Line of Business 
Initiative to reduce stove pipe H.R. IT systems. When completed, the 
migration will streamline core H.R. requirements for personnel actions 
processing, employee benefits administration, and compensation 
management in the form of an interface with DFAS for payroll processing 
support. This system will replace VA's legacy HR/Payroll (PAID) system 
and will improve the management of human capital throughout VA.
<bullet>  IOM supports VA's effort to develop and implement the IT 
Project Management Accountability System (PMAS) Dashboard in order to 
support VA's goal of proactively managing VA's IT projects and ensuring 
that the OIT program and project managers have access to the resources 
and tools they need. When completed, this dashboard tool will support 
VA's PMAS which is a metric-based, standardized system to effectively 
manage VA's IT systems and increase accountability across the 
enterprise in order to effectively deliver functionality to meet IT 
business needs. PMAS provides near-term visibility into troubled 
programs, better insight into scarce resources, and frequent deliveries 
to customers ensuring that project functionality is on track while 
increasing the probability of successful programs.
12. Human Capital Investment Plan (HCIP)
<bullet>  In FY 2012, the Performance and Talent Management System 
(PTMS) will automate a paper based process and enable a modernized SES 
performance and talent management system that will be integrated with 
the VA's Talent Management System (TMS).
<bullet>  VA will continue to develop the Equal Employment Opportunity/
Alternative Dispute Resolution Electronic (EEO/ADR) Dashboard, which 
leverages technology and pulls information from various data systems to 
display a variety of indicators that provide valuable, real-time 
information for managers and possibly trigger management to determine 
if there are opportunities for intervention.
<bullet>  Child Care Records Management System (CCRMS) application 
(initial release in FY 2012), is a custom online system/application 
which encompasses an intranet web site for dynamically displaying 
information about VA facilities and key staff nationwide, along with 
administrative application for maintaining the data via internet.
<bullet>  The Central Office Human Resource Services (COHRS) Workload 
Tracking system (initial release in FY 2012), will be used to map, 
assess and improve the current business processes for attracting, 
recruiting, and hiring VA H.R. staff; assessing competency levels of 
H.R. staff and assisting in developing individual development plans; 
and designing and developing a software application capable of 
capturing the division's workload as well as performance metrics (such 
as time-to-fill or classify a position).
<bullet>  The ``VA for Vets'' hiring initiative support system went 
live in FY 2012 and provides an integrated tool suite with a military-
civilian skills assessment translator, a robust case management tool 
for deployed employees, a seamless Federal employment application 
process with integration to USAJobs 2.0 and 3.0 and a virtual 
collaboration center to allow deployed Veterans access to co-workers 
and home office information while activated on military duty.
<bullet>  In FY 2013, HCIP will develop new interfaces and begin the 
integration to VA Enterprise Architecture to eliminate duplication, 
incompatibility and redundancy.
13. Research and Development (R&D)
<bullet>  GenISIS provides the required environment for launching VA as 
a world leader in personalized medicine that improves Veterans' 
healthcare and potentially opens the door to ground breaking research. 
GenISIS also establishes a secure computing environment for large-scale 
computation necessary for genomic studies and a trackable, centralized 
recruitment tool to manage enrollment of as many as one million 
Veterans in the Million Veteran Program (MVP).
        -  In FY 2013, the GenISIS Computing Infrastructure Module will 
        be completed and GenISIS will continue to develop the ability 
        to enroll Veterans through multiple mechanisms (including web, 
        phone, and kiosks).
<bullet>  For Point of Care Research (POC-R), Veterans are enrolled in 
comparative research projects at the time they are receiving usual 
clinical care. They are randomized at a decision point in clinical care 
where two or more alternative treatments or strategies are considered 
equivalent. Data are analyzed to determine which treatment is more 
effective. VHA can then use the results from POC-R to determine best 
practices for Veterans' health conditions.
        -  In FY 2013, validation of the electronic clinical trial 
        systems that are extracting data for POC-R pilot studies will 
        be validated.
<bullet>  VA Informatics and Computing Infrastructure (VINCI) and 
Consortium for Healthcare Informatics Research (CHIR) improves the 
quality of care and treatment for Veterans by allowing VA researchers 
the ability to accelerate findings and identify emerging trends. This 
is made possible by advanced data mining in a high performance, secure, 
and virtualized computing environment that provides large-scale 
analysis of data from many sources without the threat of compromising 
Veterans' personal or sensitive data and subjecting VA to high risk of 
data loss. VINCI currently supports more than 100 users.
        -  In FY 2013, VINCI will upgrade to a 10 gigabytes-per-second 
        interconnecting network speed on servers at Austin Information 
        Technology Center. Additionally, VINCI will deploy grid 
        architecture with support for file systems that lend themselves 
        to processing terabytes of data.
<bullet>  Research Administrative Management System (RAMS) will improve 
Veteran healthcare by enabling VHA to recruit and retain world-class 
physician researchers and administrators. This will be accomplished by 
implementing an enterprise-wide system accessible by active field 
research offices and Office of Research and Development (ORD) Central 
Office that will reduce regulatory and administrative burdens. These 
burdens were identified in a recent Office of Policy and Planning 
review as the single largest impediment to the conduct of research for 
Veterans. The implemented tool will support the major business 
functions of the local research office; management of the Research and 
Development Committee, its subcommittees, and local research offices 
reporting to ORD; and provide a common database for tracking and 
reporting of administrative research program data. Without RAMS, VA 
cannot comply with the Presidential directive mandating regulatory 
simplification.
        -  In FY 2013, RAMS framework will be implemented, including 
        framework test plan and results report, schema, data model, 
        data dictionary, and entity relationship diagram. Additionally, 
        the RAMS Research Project Management module will be deployed to 
        end users in a pre-production environment.
14. Strategic Capital Investment Plan (SCIP)
<bullet>  VA will implement a SCIP Automation tool which will assist in 
the collection of the various capital investment planning needs for 
major construction, minor construction, non-recurring maintenance and 
leasing.
        -  Two phases of the tool will be designed for delivery, the 
        Short Term Solution (STS) and the Long Term Solution (LTS). The 
        STS was released in February 2011. The LTS involved the 
        acquisition of a solution which is scheduled to be fully 
        implemented in FY 2012. In FY 2013 VA will be completing 
        enhancements to the SCIP Automation tool.
15. Health Care Efficiency (HCE)
<bullet>  In FY 2011 and FY 2012, HCE enhanced the existing Fee Basis 
Claims System and program integrity tools. HCE enhanced the existing 
VistA software for Beneficiary Travel; and for Facilities automation, 
HCE developed requirements and acquisition documents for an Application 
Package to integrate multiple Real Time Location System (RTLS) 
applications and for a repository to pull and analyze data.
<bullet>  FY 2013 deliverables include:

        -  A National Data Repository for RTLS that will aggregate data 
        from multiple VistA databases and provide tracking and 
        reporting capabilities up to the national level. This data 
        repository will enable the VA to achieve significant 
        enhancements in asset tracking efficiency, as well as achieve 
        significant workflow process enhancements and efficiencies 
        through real time and near real time tracking of assets and 
        processes.
        -  Additional enhancements to the Fee Basis Claims System will 
        take place to include bi-directional interfaces with VistA 
        software.
        -  Award of a contract to develop a Vet Traveler solution to 
        further automate processing of BT claims
16. Health Informatics (hi2)
<bullet>  FY 2011 deliverables:

        -  Developed two Team-facing Health Management Platform (HMP) 
        software modules;
        -  Selected and launched the first HMP Pilot Site (San Diego);
        -  Completed an Initiative level Governance Plan;
        -  Created a national Informatics and Analytics Training Plan;
        -  Developed online graduate-level Informatics lectures and 
        coursework; and
        -  Delivered two Nursing Informatics workshops

<bullet>  FY 2012 deliverables:

        -  Develop the third and fourth Team-facing HMP software 
        modules;
        -  Create the HMP Collaboration Development Environment (CDE) 
        for use with other development efforts, including research and 
        local development;
        -  Develop the first Patient-facing and System-facing HMP 
        software modules;
        -  Launch the first VA 10 x 10 Health Informatics Course 
        (American Medical Informatics Association (AMIA) 
        endorsed)Deliver two Nursing Informatics workshops;
        -  Deliver standardized position descriptions for Health 
        Informatics job series; and
        -  Distribute and configure HMP servers in the Region 1 Data 
        Processing Centers (Denver and Sacramento) to support HMP 
        software testing by HMP pilot sites: San Diego, Loma Linda, 
        Portland and Indianapolis.

<bullet>  FY 2013 deliverables:

        -  Develop the fifth and sixth Team-facing HMP software 
        modules;
        -  Develop the 2nd and 3rd Patient-facing and System-facing HMP 
        software modules;
        -  Deploy HMP software modules to VA medical centers to assist 
        with health care delivery for Veterans;
        -  Share VA Health Informatics educational content with Federal 
        partners; and
        -  Conduct a follow-up Health Informatics Workforce Survey to 
        evaluate workforce development efforts launched in FY 2010, 
        2011, and 2012.

    Question 2. In January 2012, OIT released a Request for Information 
for a new patient scheduling system which VA will rely on private 
industry to develop for VA. In a recent briefing with Committee staff 
outlining the plan, it was indicated that an off-the-shelf program 
could meet 80 percent of VA's requirements. Yet, VA believes it needs 
something ``more robust'' than an off-the-shelf program.
    a. Please describe, in detail, the business case analysis for 
moving forward with a custom built software system versus enhancing an 
off-the-shelf program to meet VA's needs.
    Response. VA has completed review of the request for information 
(RFI) packages. There were 35 submissions with varying technical 
solutions. VA is entering into an assessment and review of current VA 
scheduling processes to determine whether these technical solutions 
will be of value. VA is also formally developing the VA scheduling 
process and the Statement of Work for a scheduling system. VA has yet 
to decide on what type of technical solution will be applied.

    b. How much does VA expect to spend in total on the new patient 
scheduling software system?
    Response. VA has not started a Life Cycle Cost Estimate, but plans 
to complete this analysis by January 2013.

    c. How much does VA expect to spend in fiscal year 2013 on a new 
patient software system?
    Response. VA will only be able to determine this figure after the 
completion of our Concept Exploration and our Life Cycle Cost Estimate, 
which are planned for January 2013.

    d. Please provide the Committee with a timeline of deliverables for 
this project.
    Response. VA will only be able to determine a timeline of 
deliverables for this project after the completion of our Concept 
Exploration and our Life Cycle Cost Estimate, which are planned for 
January 2013.

    Question 3. Because of a history of poor performing IT development 
projects, VA initiated the Program Management Accountability System 
(PMAS) to provide better oversight of development projects within OIT. 
PMAS is a performance-based measurement discipline that is designed to 
reduce risk by instituting management, controlling, and reporting 
mechanisms. According to the budget justification, using ``PMAS, VA has 
identified a cost avoidance of nearly $200 million by eliminating 
poorly performing projects.''
    a. How much funding was spent on these projects prior to OIT 
eliminating the projects? Please display the information by amount and 
project.
    Response. In 2009, as a result of significant difficulties in 
delivering IT development, the Department reviewed all 280 ongoing IT 
development projects. The review resulted in the cancellation of some 
projects, leading to a cost avoidance of nearly $200 million. The 
canceled projects and associated cost savings are listed below. Due to 
historical record keeping techniques, most of the dollar amounts are 
estimates rather than actual accountings.


----------------------------------------------------------------------------------------------------------------
                                                                         Estimated Cost
           Project                           Description                    Avoidance     Prior Spend on Project
----------------------------------------------------------------------------------------------------------------
1. Scheduling Replacement     To create an Enterprise-level outpatient  $37 million       $127.0 million
                               scheduling application that supports re-
                               engineered appointment processes and
                               patient-centric view of appointments
                               regardless of location of care.
----------------------------------------------------------------------------------------------------------------
2. Pharmacy Re-Engineering    Replaces existing national and local      $7 million        $8.5 million
 Pre 1.0                       drug files and serves as the basis for
                               the Pharmacy Reengineering; will help
                               control inventory nationwide.
----------------------------------------------------------------------------------------------------------------
3. Enrollment System          Rehosting of the Income Verification      $6.3 million      $1.5 million
 Redesign (ESR) v4             Matching application from a .Net
                               standalone database to the ESR
                               application.
----------------------------------------------------------------------------------------------------------------
4. CHDR--Chemistry &          Supports interoperability between         $0                $1.1 million
 Hematology: ADC Automation    Veteran Affairs and the Department of
                               Defense for ordering drugs and drug
                               allergy.
----------------------------------------------------------------------------------------------------------------
5. Barcode Expansion          Extends use of Bar Code technology via    $0                $1.2 million
                               wireless handheld devices to positively
                               identify patients during lab specimen
                               collection, blood administration,
                               medication administration, vitals sign
                               collection, and to provide for wireless
                               read only access to the patient's
                               chart.
----------------------------------------------------------------------------------------------------------------
6. Delivery Service           Delivery Service enables the loosely-     $1.4 million      $0
                               coupled applications/services in the
                               HealtheVet service oriented
                               architecture (SOA) to function
                               properly.Delivery Service provides the
                               mechanism for allowing one application/
                               service to communicate with another.
----------------------------------------------------------------------------------------------------------------
7. Organization Service       Organization Service is a foundational    $1.4 million      $0
                               component of the HealtheVet service
                               oriented architecture and establishes a
                               centralized and standardized set of
                               business logic for the management of
                               organizations, locations, and medical
                               devices.
----------------------------------------------------------------------------------------------------------------
8. ASISTS Modification--Case  Request to modify the Automated Safety    $0                $1.8 million
 Management                    Incident Surveillance and Tracking
                               System (ASISTS) to include a Workers'
                               Compensation case management module
                               that will allow Workers Compensation
                               Specialist to manage the employee case
                               after the Department of Labor has
                               approved their request for compensation
                               claim.
----------------------------------------------------------------------------------------------------------------
9. National Tele-radiology    Provides workflow / messaging             $0                $0.88 million
 Program--Radiology            enhancements for tele-radiology in
                               support of pilot project. Enables tele-
                               radiology system to pull reports from
                               prior comparison studies and send them
                               to tele-radiologist.
----------------------------------------------------------------------------------------------------------------
10. RMS--Rights Management    Provides security for e-mail messages     $0.1 million      $0
 Server                        and attachments by controlling what
                               recipients can do with messages.
----------------------------------------------------------------------------------------------------------------
11. Radiology                 Create and deploy standard Radiology      $1 million        $2.7 million
 Standardization               terminology files.
----------------------------------------------------------------------------------------------------------------
12. Lab Data Sharing and      Provide Systematized Nomenclature of      $0                $0.45 million
 Interoperability (LDSI)       Medicine--Clinical Terms mappings and
 Terminology Support           maintenance to LDSI files
----------------------------------------------------------------------------------------------------------------
13. Financial and Logistics   Provide standardized business processes   $85 million       $117.7 million,  Total
 Integrated Technology         in a COTS-based FSIO-compliant                              for FLITE
 Enterprise (Integrated        integrated financial management system
 Financial Accounting          with accurate and auditable financial
 System)                       data
----------------------------------------------------------------------------------------------------------------
14. Financial and Logistics   Provide consolidation and integration of  $13 million       See 13 above
 Integrated Technology         critical asset management systems into
 Enterprise (Strategic Asset   an enterprise-wide, standardized
 Management)                   centralized COTS solutions
----------------------------------------------------------------------------------------------------------------
15. Financial and Logistics   Provide integrated data repository to     $48 million       See 13 above
 Integrated Technology         facilitate query and reporting of data
 Enterprise (Corporate Data    from multiple interfacing financial and
 warehouse)                    logistical systems
----------------------------------------------------------------------------------------------------------------

    b. Are the projects within the 16 major transformational 
initiatives subject to review under PMAS? If so, how have they 
performed?
    Response. The Major Initiatives comprise projects that are both IT- 
and non-IT in nature. Projects within the 16 major transformational 
initiatives that have IT portions are subject to review under PMAS. In 
FY 2011, Major Initiative IT projects met nearly 90 percent of their 
deliverables--far above the industry standard of around 35 percent. VA 
continues to deliver in FY 2012 at the same level of execution.
    c. Once a project is ``paused'' under PMAS, what metrics does VA 
use to determine if a project will be re-planned and restarted or 
closed?
    Response. Projects are paused if directed by the Assistant 
Secretary for Information and Technology or his designee; if the 
project is unfunded but has a business need, or if the project is 
issued three consecutive failures (``3 strikes'') to meet a product 
delivery within the established schedule. ``Paused'' projects under 
PMAS are required to have a review by IT senior leadership every 60 
calendar days. When a project is Paused, no further development 
activity will occur until it is reviewed by senior IT leadership and a 
course of action is approved. Once IT leadership determines a course of 
action for a Paused project, the project can be re-planned, re-started 
or closed. The decision on whether to continue with a project is based 
on whether the project has an approved Business Requirements Document 
(BRD), an Integrated Project Team (IPT) Charter, and a Project Charter 
approved and signed in accordance with ProPath. A Paused project will 
be closed if the project objectives have been met, business priorities 
have changed, or the project has suffered poor performance. Project 
performance is measured in the PMAS dashboard, which tracks each 
project increment for schedule adherence, cost adherence, scope drift, 
spend plan execution, product quality, and number of red flags.

    Question 4. In June 2011, VA created a Reduction Task Force tasked 
with identifying efficiencies across OIT and repurposing available 
funding into other projects. The focus of the task force is to identify 
and eliminate duplication, find hardware efficiencies and savings 
through the use of cloud computing, and identify savings through policy 
and architecture changes.
    a. What efficiencies has the Task Force identified and how much 
savings has been identified?
    Response. As of May 1, 2012 the Ruthless Reduction Task Force 
(RRTF) has identified 50 efficiencies, including the following proposed 
policy or process changes:

    <bullet> One CPU Device Per End User Policy;
    <bullet> Eliminate Desktop Printers;
    <bullet> Mobile Device Management Policy;
    <bullet> Renegotiate Enterprise License Agreements (Microsoft);
    <bullet> Move all Multi-Function devices to business lines/Managed 
Print Services;
    <bullet> Server Virtualization to reduce total number of physical 
servers;
    <bullet> Beneficiary Identification and Records Locator Subsystem 
(BIRLS) and Veterans Assistance Discharge System (VADS) review;
    <bullet> VISN Data Warehouse Elimination;
    <bullet> Corporate Data Warehouse Health Data Repository (CDW HDR); 
consolidation with the National Data Warehouse Service; and
    <bullet> Eliminate Dedicated Fax Lines.

    Each of these initiatives is being analyzed to determine if it is 
appropriate for implementation, at what scale and timeline, and 
potential cost avoidance.

    b. What projects benefited with funding increases as a result of 
the task force? For each project, please identify the amount of funding 
increases received.
    Response. VA is now collecting data and information to quantify 
cost efficiencies in the VA IT program that have been realized as a 
result of the RRTF initiatives. Upon realization of savings through 
RRTF, these funds will be redirected to other critical prioritized 
unfunded IT requirements.

    Question 5. Over the last several years, VA and DOD have been 
working toward creating an integrated electronic health record (iEHR). 
Both the Secretaries of VA and DOD have agreed to initial next steps 
and to establish an Open Source Custodial Agent.
    a. How much will VA spend in total for the development portion of 
iEHR?
    Response. A program-level cost estimate is in development. The 
program level requirements document, acquisition strategy, and systems 
engineering plan, all in development, will provide the basis for the 
cost estimate.
    b. Please provide the Committee with a detailed description of the 
deliverables for fiscal year 2013.
    Response. The FY 2013 Execution Plan is in development. It will 
address ongoing risk reduction efforts as well as enduring iEHR 
infrastructure and prioritized clinical capability.
    c. Please provide the Committee with a detailed description of the 
anticipated deliverables for fiscal year 2014.
    Response. Planning for FY 2014 will be part of the overall program 
planning, which is still in development, as noted in part a.

    Question 6. On February 28, 2012, VA notified Congress that the 
contract associated with the Enterprise Service Bus procurement for 
iEHR was terminated. The Enterprise Service Bus would create the 
central hub and would allow private sector products to be incorporated 
into the system.
    a. How much funding has been obligated, to date, on this contract?
    Response. This information cannot be released due to potential 
legal issues related to the termination of the contract.
    b. Please describe the metrics behind the decision to terminate 
this contract.
    Response. After the award was made, a VA contracting officer 
discovered indications of impropriety. Subsequently, VA moved quickly 
to terminate the contract. This is being investigated so the details 
cannot be discussed publicly at this time. To date, VA's review has 
found no wrongdoing by government employees.
    c. How will this cancellation affect the overall mission to create 
an integrated electronic health record?
    Response. The DOD/VA IPO has assessed the impact of the contract 
stop on the development of iEHR Enterprise Service Bus and determined 
that impact will be minimal. With that said, the contract has now been 
re-awarded.
    d. Please provide a timeline of deliverables for this project.
    Response. The work on iEHR continues and the timeline to complete 
program deliverables remains on schedule. VA and DOD have agreed to 
create a single common, joint electronic health record. The iEHR 
platform will be an open architecture, non-proprietary design. VA and 
DOD are targeting delivery of iEHR baseline capability to two sites 
(consisting of multiple VA and DOD facilities) no later than 2014, with 
primary effort on providing a Service Oriented Architecture-based 
supporting infrastructure. Full rollout of the iEHR is expected in 4-6 
years.
    The IT budget request for FY 2013 remains critical to working on 
this initiative. This project enables medical providers at the first 
fully integrated VA and DOD North Chicago medical facility to have a 
more efficient way to examine and review health records from both DOD 
and VA systems and provide better care to Veterans and Servicemembers.

                     VETERANS HEALTH ADMINISTRATION

    Question 1. According to a survey VA conducted in December 2011, VA 
had 1,500 open positions for mental health providers. In fiscal year 
2011, VA mental health providers saw 1.4 million unique patients. As 
more veterans return home from war, VA may see an increase of patients 
coming to VA to seek treatment for mental health conditions.
    a. What steps has VA taken to fill the 1,500 open positions in 
mental health? How many are still open today? When will any remaining 
positions be filled? Please display the 1,500 open positions by VISN 
and clinical type (i.e., MD, Nurse, Social worker, etc.).
    Response. VA's 2013 budget provides $6.2B for mental health care, 
an increase of $665 million, or 12 percent, over the FY 2011 actual. VA 
is expanding mental health programs and is integrating mental health 
services with primary and specialty care thus providing better 
coordinated care for our Veteran patients. With a workforce of over 
20,000 mental health professionals, and an estimated average vacancy 
rate of seven to eight percent due to normal staff turnovers, the 
Veterans Health Administration (VHA) is likely to have 1,400-1,600 
vacancies in mental health at any point in time. VHA has begun 
monitoring vacancies to identify variation in the rates across sites 
and disciplines. The purpose of monitoring is to ensure that active 
recruitment efforts are in place and that vacancies are filled in a 
timely fashion.
    VHA established the National Recruitment Program (NRP) in December 
2010 that provides the agency with an in-house team of professional 
recruiters that utilize best practice, private sector recruitment 
methods to target historically hard-to-fill Title 38 and Hybrid 38 
vacancies, particularly Physicians. The Office of Workforce Management 
& Consulting assigned a professional recruiter to each Veteran 
Integrated Service Network (except VISN 12) to aggressively source and 
identify candidates to fill mission-critical healthcare needs. In FY 
2011, the National Recruitment Program directly supported 369 
requisitions, referred over 1,800 candidates to clinical hiring 
managers, and secured 159 selections. Of the referred candidates, 91.8 
percent were health care professionals, 73.5 percent were physicians. 
Finally, 16 percent of FY 2011 selections were for rural/highly-rural 
vacancies.
    Fully staffed in December 2011, agency-wide implementation of the 
NRP is complete. VISNs have a dedicated National Healthcare Recruitment 
Consultant actively and successfully impacting mission critical 
shortages, utilizing private sector recruitment practices. As of 
March 8, 2012, the team is actively recruiting 584 requisitions, has 
referred 1,521 candidates, and secured 202 selections. Of the 
selections, 97.2 percent are health care professionals, 67.3 percent 
physicians, 22.11 percent are Veterans, and approximately 13 percent 
are to fill rural/highly-rural vacancies.
    As of January 2012, the methodology for collecting data on the 
mental health vacancy rate was changed to reflect all vacancies 
associated with mental health whether or not the positions were listed 
on a formal mental health organization chart. Vacancies were self-
reported by the facilities. To make data comparable across sites, 
facilities were given explicit instructions in how to identify a 
``mental health'' vacancy as the formal organization of mental health 
is different across facilities. Because of this, the data is not 
directly comparable to the December 2011 data. The data from May 2012 
is attached below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    VHA facilities use a variety of strategies to recruit mental health 
providers including:

    <bullet> Open continuous posting;
    <bullet> Use of recruitment/retention incentives;
    <bullet> Use of dedicated recruiters who attend community job 
fairs, and colleges;
    <bullet> Use of recruitment incentives, such as the Student Loan 
Repayment Program (SLRP) and the Education Debt Reduction Program 
(EDRP);
    <bullet> Recruitment advertising in specialty journals or 
newspapers;
    <bullet> National VHA recruitment advertising;
    <bullet> Coordination of recruiting efforts with affiliated schools 
of medicine;
    <bullet> Academic affiliation with schools of psychology, nursing, 
and social work;
    <bullet> Internship and practicum programs;
    <bullet> Review and analysis of local labor market salary data to 
determine if salaries are competitive; and
    <bullet> Use of new hiring authority to hire Licensed Professional 
Counselors and Licensed Marriage and Family Therapists.

    b. While VA is filling those positions, what steps has VA taken to 
ensure that veterans receive the course of treatment prescribed to 
them, either through fee-basis, telemental health, or other options 
available to VA?
    Response. In addressing vacancies, sites may use existing staff, 
contract staff, locum tenens and consultant psychiatrists or 
psychologists to provide needed mental health services. Increasingly, 
telemental health services may be provided from sites that have extra 
capacity to cover sites with limited capacity. For example, in FY 2012 
VHA sent approximately $12 million to the Veterans Integrated Service 
Networks (VISNs) to place specialized staff at carefully selected sites 
to deliver Cognitive Processing Therapy (CPT) and Prolonged Exposure 
(PE) therapy through clinical video teleconferencing to Veterans 
located at remote Community-Based Outpatient Clinics (CBOC) and at non-
VA community sites, as well as to establish regional pilot Evidence 
Based Psychotherapy (EBP) for PTSD telemental health clinics at three 
selected sites (Charleston, SC; San Diego, CA; and San Antonio, TX). 
The regional clinics are intended to enhance on-site services for the 
treatment of Post Traumatic Stress Disorder (PTSD) with access to 
telemental health services. Fee basis care is also used if the facility 
is unable to provide timely mental health services and appropriate 
timely care is available in the community.

    c. In fiscal year 2013 and fiscal year 2014, how much does VA 
expect to spend on fee-basis care for mental health patients?
    Response. VA expects to spend $7.4 million in 2013 and $7.7 million 
in 2014 on fee-basis care for mental health patients.

    Question 2. During the first session of the 112th Congress, the 
Senate Committee on Veterans' Affairs held two hearings on issues 
within VA's mental health program. The hearings highlighted the 
problems veterans face in accessing needed on-going treatment in mental 
health clinics. These hearings also probed the results of a VA survey 
of VHA mental health providers who revealed the problem with veterans 
accessing care.
    a. How does the fiscal year 2013 budget address the issues relating 
to wait times for appointments, a lack of availability of follow-up 
appointments, staffing shortages, and lack of space in the mental 
health clinics which were raised in the Committee hearings?
    Response. [This question appears as #27 and was answered in the 
prehearing VA responses.]

    b. When will veterans begin to see improvements in their access to 
mental health care?
    Response. VA is continually expanding mental health programs and is 
integrating mental health services with primary and specialty care thus 
providing better coordinated care for our Veteran patients. Thus, 
Veterans should be seeing continuous improvements in access. VISNs/
facilities have been tasked with reviewing data on access; when 
problems are identified, they have been required to develop and 
implement correction actions to comply with VA policy. For example, 
some sites have implemented special access clinics so that any Veteran 
who walks in the door, either from the community or from another 
medical provider in the hospital, can be seen for a full mental health 
assessment same-day. Other sites are increasing the use of Telemental 
health clinics to improve access to CBOCs and between VA medical 
centers (e.g., general mental health, substance use disorders, 
residential rehabilitation treatment programs (RRTP) admission 
screenings, PTSD groups, and C&P exams). Another example is a site 
augmenting access to specialty psychiatric services by participation in 
the National Telemental Health Center Bipolar Disorder consultation 
pilot, whereby Veterans are provided additional care by bipolar 
disorder experts at the Boston VAMC. One VISN has contracted with State 
Community Mental Health Clinics to serve as distal points of telemental 
health care (provided by VAMC mental health providers) in 
strategically-located remote rural counties.
    Through the site visit process and review of data from its Mental 
Health Action Plan, VHA continues to identify systemic opportunities to 
improve access to specific types of care. For example, access to 
evidence-based psychotherapies has been problematic at some sites. To 
address this, VHA sent approximately $12 million to the VISNs in FY 
2012 to hire specialized staff at carefully selected sites to deliver 
CPT and PE through clinical video teleconferencing to Veterans located 
at remote CBOCs and at non-VA community sites, as well as to establish 
regional pilot EBP for PTSD telemental health clinics at three selected 
sites (Charleston, SC; San Diego, CA; and San Antonio, TX). The 
regional clinics are intended to enhance on site services for the 
treatment of PTSD with access to telemental health services. Variation 
in staffing has also been identified as an issue. The implementation of 
the staffing model, anticipated to be implemented by the end of FY 
2012, will help ensure that staffing is consistent across VHA.

    Question 3. In the fiscal year 2013 budget request, VA reported 
that an update to the actuarial model found that, because of 
significantly lower estimates, less funding was needed for health care 
services, long-term care, and other health care programs than what 
Congress appropriated for fiscal year 2012 and fiscal year 2013. The VA 
budget justification books indicate that the extra funding will be re-
invested in homeless veterans programs, the Caregivers and Veterans 
Omnibus Health Services Act, activation of medical facilities, and 
other programs.
    a. If VA's actuarial model indicated there was $2 billion in extra 
funding for fiscal year 2013, why is VA requesting an additional $165 
million for medical care?
    Response. VA does not agree with the characterization of $2 billion 
in ``extra funding'' for fiscal year 2013. Those funds are needed to 
provide essential medical care services to our Nation's Veterans. The 
request for $165 million in FY 2013 above the enacted appropriation for 
FY 2013 is based on the updated actuarial estimates for the demand for 
health care services by enrolled Veterans in FY 2013 less the carryover 
funds from FY 2012 and the updated estimates for collections, and 
reimbursements in FY 2013.

    b. What assumptions in the actuarial model caused a downward 
revision of $3 billion in fiscal year 2012 and $2 billion in fiscal 
year 2013?
    Response. After adjusting for the civilian pay freeze in 2012 and 
several services that were not modeled in the actuarial model used as 
the basis for the FY 2012 Budget, the updated model projections were 
$556 million (or 1.1 percent) lower than the 2010 Model for 2013. The 
$556 million reduction was largely due to more current data on 
utilization patterns of enrollees and revised estimates of the impact 
of the recession on Veteran's use of VA health care.

    c. For each of the programs whose funding would increase as a 
result of this re-investment, how much would it increase? Please detail 
how this increase in funding would be utilized for each program.
    Response. For FY 2012 there were changes in the adjusted actuarial 
estimates for health care, the estimates for long-term care, the 
estimates for other health programs (i.e., CHAMPVA), and obligations as 
shown below ($ in millions):

Adjusted actuarial estimates...    ($2,559)
Long-term care.................      ($210)
Other health programs..........      ($115)
                                -------------
    Total reductions...........    ($2,884)
  Less reduction in obligations       $698    (detail composition below)
                                -------------
    Total net reduction in         ($2,186)   (detail below)
     estimates.

Composition of reduction in
 obligations:
  Appropriation change.........       $000
  Transfer to Joint DOD/VA Fund      ($234)   (North Chicago)
  Transfer to DOD/VA Fund......       ($15)   (Health Sharing Incentive)
  Contingency not appropriated.      ($240)
  Reimbursement increase.......        $57
  Unobligated balance increase.        $63
  Collection decrease..........      ($329)
                                -------------
    Net reduction in                 ($698)
     obligations.

Details of investment of $2,186
  Zero homelessness............       $559
  Activations..................       $831
  New Models of Care...........       $610
  Expand Health Care Access....       $113
  Caregivers...................        $43
  Improve Mental Health........        $31
  Other........................        ($1)
                                -------------
    Total......................     $2,186
------------------------------------------------------------------------

    d. Please provide the Committee with a more detailed justification 
for the additional request of $165 million, broken down by program and 
initiative.
    Response. [Although the questions differ slightly from prehearing 
question 6a&b, these responses to 3d&e are copied from that list.]

    For FY 2013 there were changes in the adjusted actuarial estimates 
for health care, the estimates for long-term care, the estimates for 
other health programs (i.e., CHAMPVA), and obligations as shown below 
($ in millions):


Adjusted actuarial estimates...  $(1,715)
Long-term care.................     (271)
Other health programs..........     (119)
                                -----------
    Total reductions...........   (2,105)
Less reduction in obligations..      110   (detail composition below)
                                -----------
    Total net reduction in        (1,995)  (detail below)
     estimates.

Composition of reduction in
 obligations:
  Appropriation request              165
   increase.
  Reimbursement increase.......       50
  Collection decrease..........     (325)
                                -----------
      Net reduction in              (110)
       obligations.

Details of investment of
 $1,995:
  Zero homelessness............      892
  Activations..................      448
  New Models of Care...........      433
  Expand Health Care Access....      120
  Caregivers...................       30
  Improve Mental Health........       20
  Other........................       52
                                -----------
      Total....................   $1,995
                                ===========



    e. Please identify which facility (new VA hospital, Community Based 
Outpatient Clinic (CBOC), Outreach Clinic, etc.) activations would be 
supported with this increase in funding.
    VHA Response. The activation funding requested in the FY 2013 
Advance Appropriation (FY 2012 President's Budget) was $344 million 
plus the activation increase requested in the FY 2013 President's 
Budget (see response to question 6a above), which was $448 million. 
This equals a total of $792M for FY 2013 activations. The specific 
projects making up the $792M are listed in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 4. The fiscal year 2013 budget request includes 
operational improvements that VA estimates could save $1.2 billion. The 
fiscal year 2012 budget request also included operational efficiencies 
of just over $1 billion.
    a. For fiscal year 2012, how much has been saved, to date, by the 
operational improvements identified in the fiscal year 2012 budget 
request? Please provide the amount saved by each category listed in the 
fiscal year 2012 budget request.
    Response. Please see chart below. 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    b. Please describe in detail the operational improvements included 
in the fiscal year 2013 budget request.
    Response. VHA operational improvements included in the fiscal year 
2013 budget request:

<bullet>  Fee Care Payments Consistent with Medicare: Dialysis 
Regulation Savings and other care services are the estimated cost 
savings from purchasing dialysis treatments and other care from 
civilian providers at the Centers for Medicare and Medicaid rates 
instead of current community rates.
<bullet>  Fee Care Savings: Fee care savings will be generated through 
the application of the following initiatives: use of electronic re-
pricing tools, use of contract and blanket ordering agreements, 
decrease contract hospital average daily census, decrease payments to 
insurers, decrease interest penalty payments to contract hospitals and 
insurers, and increase revenue generation through the use of automated 
tools.
<bullet>  Clinical Staff and Resource Realignment: Cost savings will be 
achieved through the conversion of selected physicians to non-physician 
providers; conversion of selected registered nurses to licensed 
practical nurses; and to more appropriately align the required clinical 
skills with patient care needs. The methodology for reporting savings 
associated with this initiative is currently under revision in response 
to recommendations from the Government Accountability Office (GAO).
<bullet>  Medical & Administrative Support Savings: The indirect cost 
savings will be produced by more efficiently employing the resources in 
various medical care, administrative, and support activities at each 
medical center and in VISN and central office operations.
<bullet>  Acquisition Improvements: Acquisition improvements cost 
savings will be achieved through eight ongoing initiatives: 
Consolidated contracting; Increasing competition; Bring Back 
Contracting in House; Reverse Auction Utilities, MED PDB/EZ Save, 
Reducing contracts, property re-utilization, and using prime vendors to 
achieve additional price concessions. The methodology for reporting 
savings associated with this initiative is currently under revision in 
response to recommendations from the GAO.
<bullet>  VA Real Property Cost Savings & Innovation Plan: This is part 
of VA's Real Property Cost Savings and Innovation Plan following the 
Presidential Memo on Real Property (June 2010). VHA's portion includes 
the following initiatives:

        -  Repurpose Vacant and Underutilized Assets--VA has identified 
        166 vacant or underutilized buildings to repurpose for homeless 
        housing and other initiatives.
        -  Demolition and Mothballing--VA has identified 199 vacant or 
        underutilized buildings to demolish or mothball which will 
        reduce operating costs after the cost of demolition.
        -  Energy and Sustainability--VA will achieve these savings by 
        regionally pooling energy commodity purchasing contracts, 
        aggressively pursuing energy and water conservation, and 
        investing in the co-generation of electric and thermal energy 
        on-site.
        -  Improved Non-Recurring Maintenance (NRM) Contracting 
        Processes--By improving how it plans and executes NRM projects, 
        VA is reducing its reliance on external sources of support for 
        the contracting process, saving fees.
        -  Reduction in Leasing--By consolidating operations previously 
        located on leased properties into owned spaces, VA is reducing 
        its underutilized space.

    c. For the category ``Acquisition Improvements,'' please provide 
the business case for the eight on-going initiatives.
    Response. The business case for Acquisition Improvements are 
pending completion of the methodology revision in response to 
recommendations from the GAO.

    Question 5. The fiscal year 2013 budget request includes a proposal 
to shift $320 million in funding and 1,080 FTE for VA's Biomedical 
Engineering Services from Medical Facilities to the Medical Services 
account.
    a. How much was appropriated for fiscal years 2010, 2011, and 2012?
    Response. Dollars are not appropriated specifically for the 
Biomedical Engineering Services. The costs of the Biomedical 
Engineering Services are currently covered under the Medical Facilities 
appropriation and under the proposed move would switch to the Medical 
Services appropriation. The actuals and estimates of funds required for 
Biomedical Engineering Services are shown in the table below.


----------------------------------------------------------------------------------------------------------------
                                                                 2010 Actual      2011 Actual     2012 Estimate
----------------------------------------------------------------------------------------------------------------
Dollars in Millions..........................................            $263             $274             $288
----------------------------------------------------------------------------------------------------------------

    b. Please describe in detail the purpose of this office and the 
reasoning for shifting these funds to the Medical Services account.
    Response. Biomedical Engineering Services are responsible for the 
overall management of medical technology in VHA, including requirements 
analysis, installation and deployment, and on-going sustainment. 
Biomedical Engineering Services includes personal services and other 
costs associated with maintenance and repair of all medical equipment 
used in the treatment, monitoring, diagnosis, or therapy of patients. 
In order to properly align the appropriation requests with the nature 
of the services provided, funds are moved from the Medical Facilities 
appropriation to the Medical Services appropriation.
    c. Please provide an updated organizational chart reflecting at 
least three supervisory line levels above where the Biomedical 
Engineering Services are located within the VHA Central Office 
structure.
    Response. Biomedical Engineering falls under Healthcare Technology 
Management, which would report to ADUSH for Administrative Operations 
to the DUSH for Operations and Management. A VHA organizational chart 
is attached below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 6. The fiscal year 2013 budget request proposes spending 
$601 million in fiscal year 2013 and $99 million in fiscal year 2014 
for facility activations.
    a. For fiscal year 2013 and fiscal year 2014, please provide the 
Committee with a list of the facilities and amounts assigned to each 
activation and please identify the facility by type (VAMC, CBOC, Vet 
Center, etc.).
    Response. The $601 million in FY 2013 and $99 million in FY 2014 
represent only the Medical Services portion of the total activation 
obligations for those respective years. The total activations for all 
three medical appropriations is $792 million and $135 million for FY 
2013 and FY 2014, respectively (see page 1A-5 of vol. 2 of 4 of the FY 
2013 Budget submissions). Projects included in the FY 2013 activations 
amount are listed in the following chart. As is our standard practice 
under advance appropriations, we will revisit the FY 2014 request for 
activations during the FY 2014 budget process, and a final list of FY 
2014 projects will be included in the FY 2014 President's Budget 
request.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    b. Please describe in detail how the activation funds will be 
spent.
    Response. The activation funds in the table include both recurring 
and non-recurring activation costs. Recurring costs are based on the 
ongoing costs incurred from the expanded services resulting from the 
project. Examples of recurring activations costs include the startup 
costs for clinicians for new clinics or clinics expanding; startup 
costs for housekeeping staff to help maintain the larger footprint of 
Community Living Centers; etc. These recurring activations costs must 
be separately budgeted for until the Enrollee Health Care Projection 
Model picks up these costs for the new/expanded facility in a future 
budget year.
    Non-recurring costs support both existing space as well as new 
space; renovated space assumes a reuse factor to balance new furniture 
and equipment with replacement expectations. Examples of non-recurring 
activations include replacing existing furniture for newly converted 
Community Living Centers; one-time costs for new medical equipment to 
fully operationalize new Spinal Cord Injury Centers; and one-time costs 
for new furniture to outfit new Domiciliaries. Activations funding also 
provides the upfront funding to help move existing equipment; train 
employees on the new systems; and hire activation managers for larger 
outpatient clinics and new and replacement medical centers.

    Question 7. The fiscal year 2013 budget request includes proposed 
funding of $102 million in 2013 to expand health care access for 
veterans. According to the budget justification, this initiative aims 
to provide the ``clinically appropriate quality care'' to veterans in 
the right place and the right time. This would also include the use of 
technology where appropriate.
    a. How much is projected to be spent in fiscal year 2013 on this 
initiative?
    Response. VA anticipates obligating $120 million on this initiative 
in FY 2013, of which $102 million is for Medical Services, as proposed 
in the FY 2013 Budget.

    b. How much is projected to be spent in fiscal year 2014 on this 
initiative?
    Response. VA is currently requesting no advance appropriation 
funding for this initiative in 2014. Requirements for this initiative 
will be re-assessed during the FY 2014 budget process.

    c. For the following sub-initiatives, systems redesign, 
transportation, and hospital quality and transparency, please provide a 
detailed analysis of how these initiatives will increase access to care 
for veterans.
    Response.
    Systems Redesign: Systems Redesign is engaged in many activities 
aimed at improving outpatient and inpatient access. The following is an 
overview of these activities.
    Outpatient: VHA schedules over 85 million appointments per year. 
Ensuring timely access to face-to-face and non-face-to-face venues of 
care requires clinic managers to understand and implement systems 
engineering operational strategies in day-to-day clinic management that 
will ensure the volume of patient requests for appointments are able to 
be met with adequate numbers of appointment slots. Systems Redesign 
oversees this at a national level, and teaches and leads initiatives to 
improve access and provide consultative assistance to local facilities. 
Systems Redesign also manages the scheduling policy, scheduler 
education, measurement strategy and analysis, and educational efforts 
including the VHA's Access Academy, Patient Aligned Care Teams (PACT) 
collaboratives, Virtual Specialty collaboratives, the National 
Initiative to Reduce Missed Opportunities (no-shows), etc. Finally, 
this group is managing VHA's efforts to establish business needs for 
new scheduling software which will lead to eventual acquisition and 
implementation of this badly needed functionality.
    Inpatient: Inpatient access and flow. Knowledge and tools to ensure 
timely inpatient care have exploded in the last 10 years. In order to 
ensure VHA managers have the best operational management tools 
available, Systems Redesign leads a large menu of activities. These 
include one of the most used VHA web pages containing improvement 
projects and efforts, a menu of educational events including virtual 
collaboratives to improve patient handoffs and transitions, and 
management of hospital flow. Systems Redesign also hosts a National 
Flow Academy to help local managers learn queuing theory and 
improvement strategies. In the recent past, these efforts included 
Cancer Care Collaborative Improvement Efforts and the Bedside Care 
Collaborative. Engineering colleagues have helped to create over 12 
toolkits to share knowledge system-wide.
    In addition, Systems Redesign has lead efforts to improve 
informatics tools designed to support, manage, and improve inpatient 
access, transparency, and visibility. As a result of these efforts, VHA 
will soon have the ability to see all inpatient bed access data 
nationally. These information systems are described in the following 
paragraphs:

          The Bed Management Solution (BMS) provides VHA facility 
        leaders and front line staff with key resource allocation and 
        bed availability information to ensure Veterans receive the 
        most appropriate level of care and services in a timely manner 
        for optimal patient care. All facilities have installed BMS. 
        BMS reports are now available and increasingly being used to 
        manage inpatient flow within and between facilities--including 
        patient bed availability and patient bed requests. Systems 
        Redesign has sponsored numerous BMS workshops, flow improvement 
        collaboratives, and provide ongoing technical support to assist 
        facilities in improving their ability to manage inpatient flow. 
        In addition, Systems Redesign began the process of a detailed 
        assessment of 35 VA to gather information needed to establish 
        future VHA policy governing inpatient flow.
          The Emergency Department Integration Software (EDIS) provides 
        critical Emergency Department (ED) flow information and will 
        ultimately link with BMS through the Comprehensive Flow Manager 
        (CFM) to more efficiently transfer patients from the ED to the 
        inpatient setting, avoiding lack of inpatient access, costly 
        and clinically concerning delays and patients waiting 
        unnecessarily in the ED. EDIS has been installed in every VA 
        facility where it is appropriate. Sites are on schedule to 
        complete training in the use of EDIS. In addition, EDIS 
        application data elements are being incorporated into national 
        databases. In 2011, planning began for the incorporation of 
        stroke protocols in EDIS.
          The Surgical Quality and Workflow Manager (SQWM) will provide 
        critical pieces of information relative to surgical flow to 
        ensure patient access to needed surgical services and efficient 
        and quality-focused patient hand-off to and from the surgical 
        setting. A Commercial Off-The-Shelf (COTS) product for SQWM was 
        selected ahead of schedule, and an aggressive implementation 
        timeline, to include training and implementation workshops, has 
        been developed.

    Finally, future development of CFM, currently in the conceptual 
stages, will provide a system linking BMS, EDIS, and SQWM together to 
allow for effective resource allocation which will ultimately enhance 
patient access to inpatient services across the board.
    Health Care Quality and Transparency: The focus of the Health Care 
Quality and Transparency initiative has been to enhance the internet 
presence to display quality and safety information using a single web 
portal that is useful and understandable for our stakeholders Veterans, 
their families and the general public. By providing our stakeholders 
with more useful information about care they can receive at VA 
facilities, they can make more informed decisions about their own 
health care. Also, by increasing our internet presence to provide 
quality of care information, VHA is increasing access to, and awareness 
of information about VA health care, not only for the general public, 
but for transitioning Veterans and Servicemembers who may not be aware 
of VA health benefits. As a result of providing more useful and 
understandable quality and safety information, the initiative will also 
create an increase in health literacy, attract a new generation of 
enrollees, and generate shared public interest and transparency in VA 
care and services across multiple agencies.
    Major milestones of the initiative began in 2010 when VA began 
posting core quality measures on the Web site 
www.hospitalcompare.hhs.gov, which is sponsored by the Centers for 
Medicare and Medicaid Services (CMS). VA's partnership with CMS 
provides the Veteran with the ability to compare up to 3 VA and non-VA 
hospitals based on proximity to the Veteran's zip code. In the summer 
of 2011, VA expanded our reporting through CMS to include outcome 
measures, including risk-adjusted hospital mortality and readmission 
rates for three common conditions, Chronic Heart Failure (CHF), Acute 
Myocardial Infarction (AMI), and Community-Acquired Pneumonia (CAP).
    In addition, VA also began April 2010 to provide the most up-to-
date information by initiating a separate reporting site, VA Hospital 
Compare (www.hospital
compare.va.gov) which provides quality and outcome information that 
reflects care provided in the previous quarter. In FY 2011, this site 
began to include patient satisfaction (HCAHPS) measures through the 
ASPIRE dashboard.
    Other accomplishments include researching and understanding the 
needs of Veterans for quality and safety information in efforts to 
provide more useful information via the internet. As a result of our 
efforts, version 1.0 of the redesigned Quality of Care Web site was 
released in March 2011. Additional usability studies were completed on 
the VA's ASPIRE Web site. VA's ASPIRE Web site provides a much broader 
dashboard of quality and safety based measures, not on a comparison 
with average performance, but with goals that we believed represented 
the highest possible level of performance--our system's aspirations. 
Originally intended to be an internal reporting system, ASPIRE was 
released to the general public in FY 2011 in order to demonstrate VA's 
commitment to those goals. Since then, we have enlisted Veterans and 
others to provide input into the design of the site in order to make it 
more useful and easier to navigate. Some changes have already been made 
based on that input, and we are working with web developers to produce 
a completely revised, Veteran-centric format. We expect those revisions 
to be released to the public on a new Quality of Care Web site on or 
before September 30, 2012.

    Question 8. In an August 2009 report, the Office of Inspector 
General (OIG) estimated that $1.5 billion in improper payments could be 
avoided with more effective policies and procedures in fee care 
collections. In August 2010, the VA Inspector General reported that VHA 
improperly paid 28 percent of inpatient fee claims, resulting in net 
overpayments of $120 million in fiscal year 2009 and an estimated $600 
million in improper payments over a 5-year period. Between these two 
audits of inpatient and outpatient medical care, OIG estimated 
potential improper payments of $1.5 billion through fiscal year 2015 
could be avoided by more effective policies and procedures to oversee 
and manage fee care services. In response to the Inspector General's 
audit recommendations, VHA contracted with the National Academy of 
Public Administration (NAPA) to conduct an independent review of the 
fee care program. In its report, NAPA indicated that VHA could learn a 
tremendous amount by looking at how TRICARE or Medicare contracts out 
inpatient and outpatient claims. Has VA acted on the recommendation 
from the NAPA study and looked at how TRICARE and Medicare collect on 
their inpatient and outpatient claims? If not, does VA intend to do so? 
If a cost-benefit analysis has been conducted, please provide a copy of 
the report.
    Response. In response to the NAPA study, VHA established a National 
Fee Program Organizational Assessment Analysis and Planning Workgroup 
to analyze options for the most effective model to support back office 
functions of claims processing. The workgroup conducted a detailed 
analysis utilizing NAPA's recommendations and assessed how other 
entities such as TRICARE and Medicare process claims via contract. From 
this effort, the group intends to provide the Under Secretary for 
Health with recommendations to assure the most effective and efficient 
operational model to support the Non-VA Care Program. The preliminary 
findings and recommendations from the workgroup are under review.

    Question 9. VHA has approximately 153 hospitals, 833 CBOCs, and 300 
Vet Centers, which require upkeep through the non-recurring maintenance 
(NRM) and repair subaccount of the Medical Facilities account. 
Maintenance and repair may be key elements to sustaining the buildings 
VA already owns and utilizes on a daily basis. The fiscal year 2014 
advanced appropriation request proposes to cut NRM in half as compared 
to the fiscal year 2013 level. Please describe the metrics involved in 
estimating how much funding is needed in this account.
    Response. The funding amount included for the FY 2014 advance 
appropriation request in the 2013 President's Budget for NRM is an 
estimate, based on the need to balance priorities across all programs. 
The request will be reviewed during the formulation of the 2014 
President's Budget in the context of the FY 2014 Strategic Capital 
Investment Planning (SCIP) process results. The metrics used to inform 
the SCIP process criteria include ensuring safety and security, fixing 
facility deficiencies, supporting Departmental initiatives, increasing 
access, right-sizing inventory, and ensuring value of investment.

    Question 10. In April 2011, the VA Office of Inspector General 
released an ``Audit of VHA's Office of Rural Health.'' In the findings, 
the Inspector General found the Office of Rural Health (ORH) had 
several program weaknesses including: ``inadequate assessment and 
mitigation of financial risk; lack of policies and procedures to ensure 
staff followed management directives; * * * ineffective project 
monitoring system; lack of procedures to monitor performance measures; 
and inadequate assessment of rural healthcare needs.''
    a. The Inspector General made six recommendations to the Under 
Secretary for Health; please provide the Committee with the status of 
the open recommendations.
    Response. The Office of Rural Health (ORH) received notification on 
March 12, 2012 that the Inspector General's audit of the VHA's Office 
of Rural Health is now closed based on the status report compiled by 
ORH and submitted to the OIG on September 27, 2011. Attached below is a 
summary of the status of the recommendations as of March 2012.

                                          Office of Rural Health (ORH)
                          Update on the Status of VA's Response to OIG Recommendations
                                                    March2012
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Recommendation 1:                    We recommended that the Under Secretary for Health implement financial
                                      controls, such as providing written guidance to program sponsors and
                                      implementing a mechanism to monitor the use of rural health funds.
                                     VHA Status 3/2012:
                                     Fiscal Year (FY) 12 update--The Office of Rural Health (ORH) has instituted
                                      policies and procedures that ensure sound financial stewardship of its
                                      funds. The obligation rates by the Veterans Integrated Service Networks
                                      (VISNs) of rural health funds are closely monitored by the ORH budget
                                      analyst. If the obligation rates are deemed to be inadequate given the
                                      point in time during the fiscal year, ORH program analysts contact the
                                      responsible VISN Rural Consultant (VRC) to investigate the matter. In
                                      addition, any project/program budget changes requested by the field must
                                      submitted by the responsible VRC and undergo a formal review process by
                                      the ORH program analysts and the ORH Director and Deputy Director. The
                                      VRCs must document why the change is requested and how the funds will be
                                      redirected. This includes providing information on how the change will
                                      impact rural Veterans, as well as updating project milestones, performance
                                      measures and quality measures. All changes are recorded in the project
                                      electronic record in the ORH Management and Analysis Tool.
----------------------------------------------------------------------------------------------------------------
Recommendation 2:                    We recommended that the Under Secretary for Health establish management
                                      policies and procedures to ensure VHA's proposal selection process is
                                      followed.
                                     VHA Status 3/2012:
                                     For the FY 2013 rural health project review process, a concept paper
                                      submission system was established to reduce the number of full proposal
                                      submissions, a clear set of guidelines for approval and disapproval of
                                      concept papers for reviewers was created and implemented, and a workshop
                                      was held for the VRCs by ORH staff to help further develop and refine 5
                                      page project proposals to be considered for funding in FY 2013. Proposals
                                      will be reviewed by the Selection Review Committee (SRC) in the summer of
                                      FY 2012 and will consist of members as described above. The tasks and
                                      responsibilities of the SRC will remain as described above and well as
                                      those in established ORH policies and procedures for the proposal
                                      selection process.
----------------------------------------------------------------------------------------------------------------
Recommendation 3:                    We recommended that the Under Secretary for Health implement an effective
                                      communication plan to effectively coordinate and collaborate with key
                                      rural health care stakeholders in the use of rural health care funds.
                                     VHA Status 3/2012:
                                     <bullet> ORH has recently developed collaboration with the American Legion
                                      to disseminate electronically to their 2.1 million members, the ORH
                                      newsletter, fact sheets, Rural Health Resource Center study findings, ORH
                                      activities and other information of interest or relevance to rural and
                                      other Veterans.
                                     <bullet> Additionally, there are now well over 3000 email addresses in the
                                      ORH contacts database that receive regular updates to ORH activities and
                                      study findings.
                                     <bullet> The ORH Web site has received over 20,000 hits in one year.
                                     <bullet> ORH intends to increase dissemination of important rural Veteran
                                      health issues and study findings through a partnership with the National
                                      Rural Health Association which has a membership of over 20,000 rural
                                      health providers, professionals, advocates and educators.
                                     <bullet> ORH's latest newsletter can be found at http://
                                      www.ruralhealth.va.gov/news/index.asp
                                     <bullet> There are now 15 monthly ORH fact sheets available for download
                                      from the ORH Web site
                                     <bullet> There are now 10 ORH issue briefs available for download from the
                                      ORH Web site
                                     <bullet> There are now 15 peer reviewed articles authored by ORH or other
                                      VA staff on rural Veteran Health issues available for download on the ORH
                                      Web site
                                     <bullet> Video production as described above did not take place due to loss
                                      of key personnel, however, the ORH communications team is making plans for
                                      a new series of videos focused on rural Veteran health issues
                                     <bullet> There will be four ORH speakers at the National Rural Health
                                      Association annual meeting presenting on topics such as improving rural
                                      Veteran access to health care; implementing a teleretinal screening
                                      program for rural Veterans, and establishing a telemental health network
                                      for Native Veterans.
                                     <bullet> The Director of ORH presented to the National Rural Health
                                      Association Public Policy Institute on ORH's programs and activities in
                                      Washington DC, in January2012.
                                     <bullet> ORH participated in National Rural Health Day by giving a National
                                      webinar on rural Veteran health issues sponsored by the National
                                      Organization of State Offices of Rural Health in November2011.
----------------------------------------------------------------------------------------------------------------
Recommendation 4:                    We recommended the Under Secretary for Health establish a project
                                      monitoring system, such as an Access database on a portal and implement
                                      monitoring procedures that would provide relevant, reliable, and timely
                                      project management information.
                                     VHA Status 3/2012:
                                     ORH has moved its database to the portal provided by the VHA support
                                      service center (VSSC). The new database is called the ORH management and
                                      analysis tool (OMAT). All of FY 2012 funded project information has been
                                      entered into this electronic database.
----------------------------------------------------------------------------------------------------------------
Recommendation 5:                    We recommended that the Under Secretary for Health establish procedures to
                                      monitor performance measures to determine the impact of rural health care
                                      funding on improving access and quality of care for rural veterans.
                                     VHA Status 3/2012:
VA Response.                         Core performance measures along with project/program specific measures have
                                      been developed and included with each project record in the OMAT database.
                                      VRCs will begin entering their project milestones and measures into the
                                      database Spring 2012.
----------------------------------------------------------------------------------------------------------------
Recommendation 6:                    We recommended that the Under Secretary for Health reassess the rural
                                      health initiatives approved for funding by Office of Rural Health in their
                                      FY 2012 budget to align planned use of resources to their greatest rural
                                      health needs.
                                     VHA Status 3/2012:
VA Response.                         ORH staff continues to conduct focus groups to better understand rural
                                      Veteran health care needs. In addition, ORH continues to fund rural
                                      Veteran outreach activities to help rural Veterans understand their
                                      benefits, to help them enroll in the VA health care system and to educate
                                      Veterans on how to better manage their chronic health conditions. The ORH
                                      strategic plan refresh has been implemented and each action item
                                      associated with goals and objectives is updated and monitored quarterly.
                                     In FY 2011, no ORH funds were used to fund fee care. In addition in 2012,
                                      no ORH funds for fee care were included in the ORH Spend Plan. However,
                                      ORH has allocated $30 million to the pilot project ``Access Received
                                      Closer to Home'' (Project ARCH) that is a non-VA Contract Care Pilot
                                      Program.
----------------------------------------------------------------------------------------------------------------

    b. In fiscal year 2011, the Office of Rural Health was appropriated 
approximately $268 million; please provide the Committee with a 
detailed analysis of how this funding was utilized.
    Response. VA appreciates Congress' continued support of rural 
health-focused resources. ORH outlines the following in regards to 
their FY 2011 rural health spending plan of $273.9 million.
    VA is committed to improving access and quality of health care 
services to rural and highly rural Veterans. This funding improved 
access and the quality of care for rural and highly rural Veterans by 
developing evidence-based policies and innovative practices to support 
the unique needs of the Veterans residing in geographically remote 
areas. It allowed VA to meet the goals of the ORH program and improved 
the quality of care and services to our Veterans. There were two major 
components that comprised the $273.9 million VA provided to rural 
health in FY 2011. VA allocated $23.9 million on centrally managed 
programs of the Office of Rural Health and $250 million on projects and 
initiatives. The rural health spending plan focused on major 
initiatives and programs described below.

<bullet>  ORH Centrally Managed Programs--$23.9 million. These funds 
were used primarily for the following initiatives:

        -  Telehealth ($7 million). VA obligated $7 million to support 
        rural health Telehealth projects. The Telehealth projects used 
        information and telecommunications technologies to deliver care 
        remotely. It enabled care to be provided near or in the rural 
        Veteran's community or home at the time when care was 
        necessary. It reduced the need for travel by patients and 
        providers and increased access to care for rural Veterans in 
        over 36 specialty areas. It improved access and provided high 
        quality service for rural Veterans.
        -  Veterans Rural Health Resource Centers (VRHRC) ($6.5 
        million). VA used $6.5 million to support the VRHRCs. There are 
        three VRHRCs: White River Junction, VT; Iowa City, IA; and Salt 
        Lake City, UT. They function as field-based clinical 
        laboratories and serve as rural health experts for all VISNs. 
        They act as educational and clinical repositories and provide 
        programmatic support to ORH and a resource for all Veteran 
        Rural Consultants (VRC). They make recommendations based on 
        evidence-based studies and analyses that impact the care to 
        rural Veterans.
        -  Teleradiology Services Sustainment ($717,437). VA provided 
        $717,437 for teleradiology services for rural Veterans in all 
        21 VISNs. These were outreach services that enhanced the access 
        to and quality of radiology services for Veterans living in 
        rural and highly rural areas and improved the quality of 
        services while providing services closer to their homes.
        -  Other Administrative Funds ($9.7 million). With the 
        remainder of the administrative funds, VA supported the 
        following:

          o  ORH Salaries and Supplies ($1.6 million)
          o  VISN Rural Consultants ($1.1 million)
          o  Veteran's Rural Health Advisory Committee ($60,000)
          o  Office of Academic Affiliation Rural Residency Program 
        ($276,300)
          o  ORH Policy and Planning Group Contract ($777,950)
          o  Additional support for Projects and Initiatives ($5.9 
        million)

<bullet>  Project and Initiative Funds--$250 million. These funds were 
used primarily for the following initiatives:

        -  Project Access Received Closer to Home (ARCH) ($3.1 
        million). VA utilized $3.1 million to support implementation of 
        Public Law 110-387, the ``Veterans' Mental Health and Other 
        Care Improvements Act of 2008,'' Section 403. This required VA 
        to conduct a pilot program to provide non-VA care for Veterans 
        meeting the statute's eligibility criteria in five Veterans 
        Integrated Service Networks (VISNs). The VISNs that conducted 
        the pilot program were: 1, 6, 15, 18 and 19. This pilot program 
        improved access for eligible Veterans by connecting them to 
        health care services closer to their homes through contractual 
        arrangements with non-VA providers. This program is underway.
        -  Sustainment Funding ($246.9 million) for over 300 projects 
        and programs including the priority programs listed below:

          o  CBOC rural areas ($70.5 million). VA continues to improve 
        access to care for Veterans in geographically remote areas 
        through the expansion of CBOCs throughout the country. Fifty-
        two CBOCs were supported by ORH funding in FY 2011. Funding the 
        rural and highly rural CBOCs at $70.5 million improved access 
        and services for the rural and highly rural Veterans in 12 of 
        our 21 VISNs. In previous reports to Congress, VA estimated 
        $87.8 million for 51 CBOCs. This estimate was revised to $70.5 
        million; the difference funded Public Law 110-387, section 403, 
        requirements. One additional CBOC, Albany CBOC, was added to 
        the list for funding in FY 2011.
          o  Women Veterans Health ($603,978). VA continues to work in 
        rural and highly rural regions to identify gender-based gaps 
        and disparities related to women's care. Other ongoing projects 
        included, educating providers on gender-specific issues, 
        enhancing primary care for women Veterans in rural areas; and 
        ordering, providing, tracking and timely follow-up of mammogram 
        and pap-smear results in rural areas. VA also provided bio-
        feedback therapy to women Veterans in rural/highly rural areas 
        to regulate pain and anxiety.
          o  Telehealth ($30.5 million). VA continued to support and 
        expand telehealth into rural and highly rural areas. Services 
        included tele-renal, tele-psych, tele-dermatology, tele-mental 
        health, tele-amputee clinic, tele-rehab, tele-pharmacy, tele-
        polytrauma, tele-radiology and others.
          o  Home-Based Primary Care (HBPC) ($25.9 million). Twenty-one 
        HBPC sites in twelve VISNs were funded in FY 2011. They 
        provided cost-effective primary care services for Veterans in 
        rural and highly rural areas.
          o  Outreach Clinics ($5 million). These clinics provided 
        primary care services, case management, and mental health 
        services. Each rural outreach clinic is part of a VA network, 
        maintaining VA's quality standards and access to VA facilities 
        for specialized needs.
          o  Behavioral Health ($1.5 million). Substance abuse and 
        treatment, including alcohol and other substances, were 
        addressed in mental health and other specialty treatment 
        programs like tobacco cessation were supported through ORH 
        funding in FY 2011.
          o  Homeless ($4.9 million). To support the Secretary's goal 
        of ending Veteran homelessness, the rural health program 
        supported projects that provided outreach and identified and 
        prevented homelessness by providing prevention services. In 
        addition, other services were provided to help Veterans learn 
        about benefits and services for which they and their families 
        qualified.
          o  Transportation ($3.2 million). To support access to care 
        from and to rural and highly rural areas, including remote-
        island locations, funds were provided to purchase vans, 
        supplement travel fares, hire drivers, support shuttle buses, 
        and identify transport models for improved rural access.
          o  Mental Health ($856,807). Mental Health is high priority 
        for VA. Several projects were funded to address and treat 
        mental health disorders including depression, Post Traumatic 
        Stress Disorder (PTSD), suicide prevention, substance abuse and 
        other problems experienced by Veterans living in rural and 
        highly rural areas.
          o  Sustainment of 76 additional rural health projects ($103.9 
        million). Other types of projects to improve access and quality 
        of care included rural mobile health clinics that extended 
        access to primary care, case management and mental health 
        services in rural areas where it was not feasible to establish 
        a fixed point of access. ORH initiated geriatric health care 
        programs to provide more opportunities for Veterans to stay 
        close to home. VA has Medical Foster Homes, which provide non-
        institutional long-term care for Veterans who are unable to 
        live independently and prefer a family setting. Other efforts 
        included projects focused on speech, language, physical 
        therapy, occupational therapy and rehabilitation that were 
        provided for Veterans in rural and highly rural settings.

    The funds for rural health improved access and high-quality 
services for the rural and highly rural Veterans by providing high-
quality care in the homes and in the communities of the rural Veterans 
across the country. VA provided a wide range of services and benefits 
through this rural health funding in response to the unique needs of 
rural and highly rural Veterans. The rural health program supported 
VA's transformation to an integrated delivery system that emphasized a 
full continuum of care in a patient-centered environment, by providing 
care that specifically addressed the needs of rural and highly rural 
Veterans.
    c. Please provide the Committee with a detailed analysis of how the 
fiscal years 2012 and 2013 funding will be utilized to ensure that 
taxpayer dollars will be used in an effective and efficient manner.
    Response. In FY 2012, ORH was appropriated $23.89 million for ORH 
Centrally Managed Programs and $250 million to support rural health 
projects and initiatives. It is anticipated that approximately the same 
amount of funds will be provided to ORH for FY 2013. The spend plan for 
FY 2012 is delineated below.

                                     PART A--ORH Centrally Managed Programs
----------------------------------------------------------------------------------------------------------------
               Project Title                              Description of line item                 FY12 Funding
----------------------------------------------------------------------------------------------------------------
ORH Salary, Supplies, and Other             Funds support annual salaries, travel, training, and       1,786,615
                                             supplies for the Office of Rural Health
----------------------------------------------------------------------------------------------------------------
Veterans Rural Health Advisory Committee    Veterans Rural Health Advisory Committee--12 person           70,000
 (VRHAC)                                     Federal Advisory Committee that provides advice and
                                             counsel to the SecVA on issues affecting rural
                                             Veterans.
----------------------------------------------------------------------------------------------------------------
Veterans Rural Health Resource Centers      Annual budget for 3 Veteran Rural Health Resource          6,753,543
 (VRHRC) Funding                             Centers
----------------------------------------------------------------------------------------------------------------
VISN Rural Consultants (VRCs)               VRC salary and travel costs                                1,174,254
----------------------------------------------------------------------------------------------------------------
Quality Management                                                                                     1,200,000
----------------------------------------------------------------------------------------------------------------
Transportation Partnership                                                                             2,000,000
----------------------------------------------------------------------------------------------------------------
HRSA Partnership                                                                                          65,227
----------------------------------------------------------------------------------------------------------------
ORH Projects                                Additional support for projects approved for FY12          7,928,842
----------------------------------------------------------------------------------------------------------------
Office of Telehealth Services                                                                          2,911,519
----------------------------------------------------------------------------------------------------------------
  TOTAL PART A                              ....................................................     $23,890,000
----------------------------------------------------------------------------------------------------------------


                                      PART B--Projects and Initiative Funds
----------------------------------------------------------------------------------------------------------------
               Project Title                              Description of line item                 FY12 Funding
----------------------------------------------------------------------------------------------------------------
Project ARCH--Public Law 110-387, Section   Section 403 of the law requires VA to conduct a           35,000,000
 403                                         pilot program that would provide non-VA care for
                                             highly rural enrolled Veterans in five VISNs.
                                             (VISNs 1,6,15, 18 & 19) meeting the statute's
                                             eligibility criteria
----------------------------------------------------------------------------------------------------------------
FY 12 new projects, sustainment of          From over 460 projects that were submitted and           215,000,000
 existing projects, and expansion of         reviewed, 285 projects were approved, addressing
 existing projects                           many VHA and ORH priorities such as Telehealth,
                                             Women veterans, Mental Health, Homelessness, and
                                             Access & Quality
----------------------------------------------------------------------------------------------------------------
  TOTAL PART B                              ....................................................    $250,000,000
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
                                              Number of       FY 2012
                 Category                     Projects        Funding
------------------------------------------------------------------------
Access & Quality..........................        45          27,712,926
CBOC......................................        54          72,901,561
Collaboration & Outreach..................        15          12,718,980
Geriatrics................................        51          43,036,639
Homelessness..............................         2             961,699
Mental Health.............................        34          13,341,135
Specialty Care............................        35           6,490,781
Tele & Models of Care.....................        57          31,710,485
Training & Education......................        15           3,475,481
Women Veterans............................        12           2,597,589
Project ARCH..............................         1          35,000,000
Office of Telehealth Services.............         1              52,724
------------------------------------------------------------------------
  TOTAL ALL CATEGORIES....................       322        $250,000,000
------------------------------------------------------------------------


------------------------------------------------------------------------
                                              Number of   FY2012 Funding
                   VISN                       Projects
------------------------------------------------------------------------
VISN 1....................................         3             724,000
VISN 2....................................         9           4,765,047
VISN 3....................................         7           3,944,318
VISN 4....................................         6           4,134,720
VISN 5....................................         7           3,500,926
VISN 6....................................        21          26,520,035
VISN 7....................................        20          16,220,765
VISN 8....................................        12          12,243,996
VISN 9....................................        10           3,177,664
VISN 10...................................        10           9,979,330
VISN 11...................................        11           8,853,299
VISN 12...................................        18           4,935,385
VISN 15...................................        17          12,623,524
VISN 16...................................        19          24,921,392
VISN 17...................................        15           3,982,493
VISN 18...................................        20           7,000,420
VISN 19...................................        36          13,979,919
VISN 20...................................        25          22,719,231
VISN 21...................................        37          24,189,954
VISN 22...................................         6           3,016,515
VISN 23...................................        10           2,914,343
Program Offices...........................         1             600,000
Project ARCH..............................         1          35,000,000
Office of Telehealth Services.............         1              52,724
------------------------------------------------------------------------
  TOTAL ALL VISNs.........................       322        $250,000,000
------------------------------------------------------------------------


    Question 11. The Office of Rural Health oversees Project ARCH 
(Access Received Closer to Home), a pilot program which provides 
veterans in rural communities access to healthcare services within 
their local communities. The pilot program is established at five sites 
and began delivering services on August 29, 2011.
    a. Please provide the Committee with how much funding has been 
allocated to support this pilot program in fiscal year 2012 and fiscal 
year 2013.
    Response. In FY 2012, the ORH has allocated $35 million toward 
Project ARCH. In FY 2013, ORH will allocate $35 million toward Project 
ARCH.

    b. What steps has VA taken to ensure lessons learned from Project 
HERO (Healthcare Effectiveness through Resources Optimization) have 
been taken into account to ensure Project ARCH will be utilized fully 
at the five sites? Please provide the Committee with how many veterans 
will be eligible for Project ARCH at each location and how many 
veterans have accessed services through this pilot program.
    Response. ORH oversees Project ARCH (Access Received Closer to 
Home), a pilot program which provides Veterans in rural communities 
access to health care services within their local communities. The 
pilot program, as directed by law, is established at five sites and 
began delivering services on August 29, 2011. Monthly calls are 
conducted between the Program Manager for Project HERO and the Program 
Manager for Project ARCH to ensure any lessons learned can be passed 
along to either program. The Project Manager for Project ARCH is also 
the liaison from ORH to Project HERO.
    Eligibility for the Project ARCH is by statute and as such can 
fluctuate broadly between VISNs and type of care Veterans require. 
Because of this, estimations are by Veteran encounters not by number of 
unique Veterans. Estimations for the number of Veterans encounters were 
based on the type of service being requested and the site of care. 
Noted below are the total number of estimated encounters expected by 
VISN.

------------------------------------------------------------------------
    VISN 1         VISN 6        VISN 15        VISN 18        VISN 19
------------------------------------------------------------------------
2,799          3,340          6,286          3,466          4,666
------------------------------------------------------------------------

    The source of the projected numbers are annual estimates based on 
the original contract for fiscal years 2012, 2013, and 2014 as this is 
a three year pilot.
    Actual Numbers of the encounters submitted by VHA to Humana 
Veterans and Cary Medical Center, the two contractors, are below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The two primary care sites (Farmville (VISN 6) and Pratt (VISN 15) 
each had less encounters 114 and 30 respectively, while the three pilot 
sites offering specialty services (Northern Maine (VISN 1), Flagstaff 
(VISN 18), and Billings (VISN 19) had well over 300 encounters each 
with VISN 1 at 447, VISN 18 at 341 and VISN 19 at 514 for a grand total 
of 1,446 encounters. However, the pattern of increase in number of 
encounters by month since Project ARCH began enrolling patients differs 
somewhat across pilot sites. The number of encounters in Northern Maine 
gradually increased over time and dropped off in February, the number 
of encounters in Farmville, Flagstaff, and Billings also increased over 
time but with less regularity and the number of encounters in Pratt has 
remained fairly consistent with less than 10 per month at this primary 
care site.
    VA has contracted for an independent evaluation of the Project ARCH 
program, including its development, implementation, and performance.

    Question 12. The fiscal year 2013 budget request includes 
approximately $990 million for VA's acquired immune deficiency syndrome 
(AIDS) program. According to the budget justification, ``[t]his program 
ensures that Veterans with Human Immunodeficiency Virus (HIV) infection 
receive the highest quality, comprehensive clinical care, including 
diagnosis of their infection, timely linkage to care, and reduction in 
HIV-related disparities.''
    a. Please provide the Committee with a detailed analysis of how 
this funding will be utilized in the treatment and prevention of HIV/
AIDS.
    Response. Please refer to the table below for a detail of the $990 
million in estimated obligations for HIV/AIDS care at VA health care 
facilities.

                       Components of the HIV Care
                          Estimated for FY 2013
------------------------------------------------------------------------
             Diagnostic Condition/Service                  Obligations
------------------------------------------------------------------------
Prescription Drugs**..................................  $464,010,000
Diagnostic Services**.................................  $53,323,000
Treatment for:
  Mental Health.......................................  $105,778,000
  Human Immunodeficiency..............................  $70,420,000
  Disease of Genitourinary System.....................  $37,766,000
  Circulatory System Disease..........................  $34,491,000
  Neoplasms...........................................  $26,896,000
  Musculoskeletal and Connective Tissue...............  $21,421,000
  Other Conditions....................................  $19,163,000
  Disease of Digestive System.........................  $17,322,000
  Other Factors Affecting Health Status...............  $16,667,000
  Infectious and Parasitic Disease....................  $16,287,000
  Respiratory System..................................  $15,139,000
  Other Signs and Symptoms............................  $15,091,000
  Injuries and Poisonings.............................  $12,872,000
  HIV Counseling......................................  $9,317,000
  Ischemic Heart Disease..............................  $9,165,000
  Drug Monitoring.....................................  $7,775,000
  Oral Disease........................................  $7,744,000
  Skin and Subcutaneous Tissue........................  $7,553,000
  Eye Disorders.......................................  $7,343,000
  Pneumonia...........................................  $5,785,000
  Chest Pain..........................................  $4,367,000
  Diabetes mellitus...................................  $4,305,000
                                                       -----------------
                                                        $990,000,000
------------------------------------------------------------------------
** Designates a Service
Conditions based on Primary Diagnosis

    b. Please provide how much VA expects to spend in fiscal year 2013 
on the national overhead for the VHA National HIV Program Office, 
including the staff titles, salary costs, and benefits.
    Response. The table below provides the estimated obligations for 
salaries for the four HIV/AIDS positions in the Office of Public 
Health.

              HIV, HCV and Public Health Pathogens Program
          (VHA Office of Public Health, Clinical Public Health)
------------------------------------------------------------------------
                                                                Salary +
                                                                Benefits
------------------------------------------------------------------------
Director, HIV Hepatitis, and Public Health Pathogen Program..   $273,936
Deputy Director, HIV Hepatitis, and Public Health Pathogen      $205,888
 Program.....................................................
Senior Program Manager, HIV Hepatitis, and Public Health        $130,546
 Pathogen Program............................................
Program Coordinator, HIV Hepatitis, and Public Health            $88,788
 Pathogen Program............................................
                                                              ----------
    Total....................................................   $699,158
------------------------------------------------------------------------


    Question 13. Within the fiscal year 2013 budget request, VA listed 
a ``VA Real Property Cost Savings and Innovation Plan,'' reflecting 
savings of $66 million in fiscal year 2013 and $66 million in fiscal 
year 2014. The fiscal year 2013 budget request indicates VA has 
identified 494 vacant or underutilized buildings in VA's inventory for 
potential reuse or repurposing.
    a. Besides those buildings that VA already identified to support 
veteran homelessness at last year's hearing and in this year's budget 
request, what other initiatives is VA considering for vacant and 
underutilized assets?
    Response. VA has an aggressive disposal and reuse program that has 
resulted in reusing or disposing of more than 787 building assets since 
2003, accounting for approximately 8.5 million square feet of space. A 
significant portion of this success was the result of assets 
repurposed, via VA's Enhanced-Use Lease (EUL) authority, which expired 
in December 2011 and was recently modified and enacted in Public Law 
112-154. VA continues to constantly review its portfolio of vacant or 
underutilized assets for potential reuse opportunities and/or plans for 
disposing of the asset. With VA's modified EUL authority, VA may 
execute a process similar to the original Building Utilization Review 
and Repurposing (BURR) initiative that identified the initial set of 
properties for reuse. The initial BURR process was very successful, 
contributing more than 2 million square feet and approximately 208 
buildings to the disposal and reuse numbers above.
    The SCIP process supports reduction in vacant and underutilized 
assets. As part of SCIP, an annual space assessment is conducted. This 
analysis reviews what space each VAMC currently has in its inventory, 
plus whatever space would be added via projects that are currently 
funded and/or in-process, and comparing that to the projected space 
needs for the next 10-years. The result of this analysis is the amount 
of square footage that needs to be added to meet demand or the amount 
to be disposed or reused to right-size the facility. Using the results 
of this assessment, the SCIP process requires that all excess space 
have a planned disposal or reuse action to ensure facilities would be 
right-sized for the 10-year planning horizon. These two requirements 
(i.e., the space analysis and the planned disposal requirement), along 
with on-going monitoring of its capital portfolio, allows VA to 
proactively and consistently manage its portfolio of vacant or 
underutilized assets.
    In addition, VA has annual disposal calls, where each building is 
reviewed to determine if it is vacant or underutilized. Every asset 
that is classified as vacant or underutilized is required to create a 
disposal or reuse plan for that asset, unless justification can be made 
as to why it should not be disposed of (i.e. strong historic 
significance, plans for renovation and future use).
    Even with a strong disposal and reuse program, the VA is still 
faced with a number of challenges when dealing with its vacant and 
underutilized property. First, many of the current buildings that are 
no longer needed are historic or are in an unusable condition. Second, 
some vacant or underutilized buildings may have reuse potential, but 
due to the location of the asset on the medical center campus, it has 
limited value for other government agencies or third party groups.
    Third, with the modified EUL authority, VA's options for 
eliminating vacant and underutilized assets have been limited to 
repurposing for supportive housing.

    b. In 2008, the Government Accountability Office (GAO) issued a 
report entitled ``Progress made in Reducing Un-needed property, but VA 
Needs better Information to Make Further Reductions (GAO-08-939).'' GAO 
estimated that VA spent $175 million in fiscal year 2007 operating 
underutilized and vacant building space at its medical facilities, 
where 98% of such space exists. GAO developed the estimate because VA 
did not track such costs. GAO recommended, and VA agreed, that VA 
should develop an annual cost estimate of spending on underutilized and 
vacant property. Please describe what tracking mechanism VA has 
developed and implemented to track these properties and monitor the 
annual costs to maintain them.
    Response. Based on the Government Accountability Office (GAO) 
recommendation, VA reviewed the most appropriate way to track cost 
associated with vacant and underutilized assets. The resulting 
methodology provides valid cost estimates for both vacant and 
underutilized assets.
    One important distinction between a vacant building and one that is 
underutilized is that the underutilized building is still in use and 
supporting VA's mission. The underutilized designation implies that the 
given space is not being used as efficiently as it should, but 
nevertheless, is still being used to support the Department's mission. 
For this reason, costs to maintain a vacant building are significantly 
different than maintaining an operational, but underutilized building.
    For vacant buildings, VA uses a $2/square foot metric as cost to 
maintain the building. This was derived in two ways. First, DOD 
provides a ``sustainment'' cost, per square foot, for maintaining 
various types of space. Included in that list is maintaining vacant 
space, with was estimated between $1-2/square foot. Second, VA reviewed 
actual costs incurred in support of a set of vacant buildings in its 
portfolio in various geographic locations. The result was between $1.50 
and $2.50 per square foot of maintenance. Using these two factors, VA 
decided to use $2/square foot as the standard support cost for vacant 
buildings in its inventory. Based on 2011 numbers, VA estimated it 
spent approximately $9.5 M maintaining vacant buildings.
    For underutilized buildings, the costs are driven by definitions 
provided by the Federal Real Property Council (FRPC) and OMB, for 
standard operational costs for a building. These costs include such 
things as normal recurring maintenance, grounds upkeep, janitorial 
services, and utilities in accordance with FRPC guidance. Each 
underutilized building is assigned an operational cost based on actual 
expenses at the local facility; therefore the estimate includes local 
cost considerations as well as including actual costs incurred. Based 
on 2011 numbers, VA estimated it spent approximately $24.7 million 
maintaining underutilized buildings. This is not surprising, as again 
these buildings are still in operation providing Veteran services.
    In summary, VA estimates it spent $34.2 million in 2011 for 
maintaining vacant or underutilized buildings, a significant difference 
from the initial GAO provided estimate of $175 million. In addition, 
truly vacant buildings only account for $9.5 million in cost, the 
remaining is support for underutilized buildings that are still in 
operation supporting VA's mission.
Homeless Veterans
    Question 1. The fiscal year 2013 budget request asks for an 
additional $43 million for Department of Housing and Urban Development-
VA Supportive Housing (HUD-VASH) case management. A letter sent to the 
Committee on February 1, 2012, provided VA's homeless plan, which 
included an additional 400 case managers to support the HUD-VASH 
program for fiscal year 2013. Currently, VA funding supports 1,543 case 
manager positions for the HUD-VASH program.
    a. What measures did VA use to determine the appropriate case 
management staffing needed for this program?
    Response. In FY 2008 and FY 2009, facilities were funded for 
staffing at a ratio of 1 case manager per every 35 Veterans. In 
subsequent years, the funding formula was altered to provide staffing 
at a ratio of 1 case manager per 25 Veterans as additional emphasis was 
put on targeting the most chronically homeless Veterans who were in 
need of more intensive case management services and the adoption of 
Housing First principles. This determination was based on the best 
evidence-based practices being utilized by successful programs in the 
community.

    b. What is VA's plan to transition HUD-VASH case managers into 
different roles once VA has reached the planned program expansion of 
60,000 HUD-VASH vouchers?
    Response. With the focus on admitting the most at-risk, chronically 
homeless Veterans into the HUD-VASH program, many of the Veterans 
housed through the program will continue to need intensive case 
management in order to stabilize and maintain their housing. It is also 
expected that there will be a turnover of 10-15 percent of vouchers 
each year, which means 6,000-7,500 new Veterans will be admitted, and 
in need of support to find housing and become more integrated into the 
community. VA does not yet have adequate long term experience with this 
program to know exactly how many case managers will be needed to 
support Veterans in HUD-VASH over time. However, if the need for 
supportive services does diminish drastically, some staff resources 
will be diverted to outreach to identify new Veterans who may be at 
risk for homelessness, and to focus additional efforts into prevention.

    c. In addition, this plan includes benchmarks for reducing 
homelessness each year. One of the benchmarks for VA is to reduce the 
number of homeless veterans on any given night to 59,000 by June 2012. 
Is VA on target to meet this goal and how does VA plan to measure the 
success in meeting this goal?
    Response. According to The 2011 Point-in-Time Estimates of 
Homelessness: Supplement to the Annual Homeless Assessment Report, 
67,495 Veterans were homeless in the United States on a single night in 
January 2011. Homelessness among Veterans has declined by nearly 12 
percent since the January 2010 Point-in-Time (PIT) count, which 
identified 76,329 homeless Veterans. VA is on track to reach the goal 
of reducing homelessness to 59,000 on any given night by the end of FY 
2012. VA plans to use the 2012 Point-in-Time Estimates of Homelessness: 
Supplement to the Annual Homeless Assessment Report (referenced 2012 
report has not been published) as its measure of success in meeting 
this goal.

    Question 2. The fiscal year 2013 budget request includes $1.352 
billion for programs related to prevention and reduction of homeless 
veterans.
    a. Does the fiscal year 2013 request and fiscal year 2014 advance 
funding request require legislative authority to release funding for 
these programs?
    b. What metrics were used to determine how much funding is needed 
for each program? Please provide any metric templates currently 
developed.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 8.]

    Question 3. In fiscal year 2011, Congress appropriated [$934 
million] for homeless veterans programs.
    Please provide a detailed breakdown of how this funding was 
utilized within these various programs, the number of veterans who 
accessed these programs, how each program was effective in reducing the 
number of homeless veterans, and what metrics are used to determine the 
effectiveness of these programs.
    Response. [This question appears and was answered in the prehearing 
responses as Question 9.]

    Question 4. The fiscal year 2013 budget request includes $21 
million for 200 additional FTE to be Homeless Veterans Outreach 
Coordinators (HVOC) in the Veterans Benefits Administration. The 
purpose of the new HVOCs is to support VA's goal of ending veterans' 
homelessness. According to the fiscal year 2013 budget request, the 
additional resources in 2013 are intended to ``accelerate services for 
an additional 43,000 Veterans and their families by decreasing the 
frequency and duration of their episodes of homelessness'' and ``[t]he 
resources will also assist veterans and their family members maintain 
safe and permanent housing, get connected to employment opportunities, 
and improve the overall healthcare status.''
    a. Please explain how the manner, means, and methods of utilizing 
these HVOCs would not duplicate, compete with, and overlay already 
existing veteran homelessness outreach programs, initiatives, FTE, and 
other resources that are on-going in the VHA, VISNs, and VAMCs.
    b. Please identify where it is anticipated these 200 HVOCs will be 
located (i.e., existing VBA regional offices, leased space in the 
community, VAMCs, CBOCs, etc.). Are there additional costs to be 
incurred to find them offices from which to operate? If so, please 
explain and provide the amount needed.
    c. Please provide the Committee with copies of any veteran 
homelessness needs assessment demonstrating the need for these specific 
outreach coordinators and that current VA resources in place are not 
adequate to address the needs.
    Response. [Questions 4a-c were answered in the prehearing responses 
as Question 10.]

    d. Please provide the Committee with VBA's hiring strategy to 
ensure the additional staff are hired in a timely manner to have the 
greatest impact on homeless veterans. Does VBA plan to hire new staff, 
shift current staff into these positions, or contract for these 
services?
    Response. The 200 additional HVOCs will be incorporated into VBA's 
2013 Resource Allocation Model (RAM) and allocated as unique FTE.
    FTE allocations at regional offices will be based on several 
factors. Our 20 current HVOCs are overworked. Each of our regional 
offices that currently has an HVOC will receive a second HVOC to assist 
with workload and help sustain our efforts to date. The remaining 180 
FTE will be placed in areas that have the highest concentration of at-
risk and homeless Veterans throughout the country. VBA will also 
consider other factors such as Veteran population, population density, 
and workload.
    Once the fiscal year 2013 RAM is finalized, VBA field offices will 
hire these additional FTE as HVOCs. VBA plans to either hire new 
employees for these positions or fill these positions internally, 
rather than contracting these positions.

    Question 5. Following the fiscal year 2012 budget hearing, the 
Committee asked a question relating to VA research into the ``health 
conditions and risk factors that relate to homelessness and on the 
effectiveness of VA homeless services.'' In VA's response, VA provided 
the Committee with information about current studies underway and 
stated that ``[w]e anticipate preliminary data on most of them to be 
available by the end of [f]iscal [y]ear 2011, and final reports by the 
end of [f]iscal [y]ear 2012.''
    a. Please share any preliminary data VA may have from these 
studies.
    b. How has the preliminary data been used to ensure VA is providing 
the needed services to reduce the number of homeless veterans?
    c. Are the final reports still expected to be available at the end 
of fiscal year 2012?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 8.]

    Question 6. The Secretary of Veterans Affairs recently announced 
that the number of homeless veterans dropped by 12 percent from 2010 to 
2011, bringing the approximate number of homeless veterans in 2011 to 
67,495. Both the President and the Secretary attribute the improvement 
to over a billion dollars invested in homeless initiatives by the 
Federal Government. The fiscal year 2013 budget request indicates the 
goal of reducing the number of homeless veterans to 35,000 in 2013.
    a. Please describe what manner, means, and methods, if any, are 
currently in place, or will be in place, to specifically identify the 
homeless veterans who have been removed from the homeless count in 
2011.
    b. If there are no tracking methods in place, coordinated and 
utilized across VHA and the VBA, are there any plans to develop such a 
tracking capability? Please describe what is being developed and the 
anticipated implementation timeline.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 30.]

    Question 7. In fiscal year 2011, VA was appropriated almost $934 
million for the program specific homeless programs.
    a. At the end of fiscal year 2011, did VA utilize all funding 
appropriated for program specific homeless programs? If not, please 
provide the Committee with information regarding which programs had 
remaining money available at the end of fiscal year 2011.
    Response. Yes, VA utilized all appropriated funding. The FY 2011 
actual was $934 million, an investment of $135 million over the FY 2011 
budget request ($799 million) in VA's high priority homeless Veterans 
programs.
    b. How much funding was directed toward national overhead for the 
VHA Homeless Veteran Program Office, the Homeless Veteran Initiative 
Office, and the National Center on Homelessness Among Veterans? Please 
provide the Committee with how much each office spent on salary costs 
and benefits.
    Response. VA's financial systems are not capable of generating a 
report of national overhead data (for example, indirect costs such as 
square footage). However, VHA's Homeless Program Office is able to 
provide the following information regarding salary and lease costs.
    VHA's Homeless Programs manages two types of funding, President's 
Budget Specific Purpose (PB SP) and Specific Purpose (SP). The FY 2011 
actual spending of $934 million for ``program specific homeless 
programs'' refers to the PB SP funding. VHA's Homeless Programs staff 
includes the National Center on Homelessness Among Veterans. Salaries 
for VHA Homeless Programs' full-time equivalent (FTE) positions are 
funded through a combination of PB SP and SP funding.
    In FY 2011, VHA's Homeless Programs incurred $6 million in salary 
and benefits costs and $353 thousand in lease costs.
    The Homeless Veteran Initiative Office (HVIO), managed at the 
Department level, received an FY 2011 budget of $2.7 million from VHA's 
Homeless Programs' PB SP funding. HVIO paid its operational costs, 
including salary and lease costs, from this funding.

    Question 8. The fiscal year 2013 budget request includes 
approximately $3.5 million for the Getting to Zero initiative, which 
``provides funding for additional administrative support for [the] 
H[omeless] V[eteran] P[rogram] O[ffice].'' Please provide additional 
information on how these funds will be utilized and the direct impact 
expected on reducing homelessness among veterans.
    Response. Previously known as the Homeless Veteran Program Office, 
the Homeless Veteran Initiative Office (HVIO) is the Department's 
office that leads VA's initiative to Eliminate Veterans Homelessness. 
HVIO is responsible for policy development, reporting Agency Priority 
Goal performance, inter and intra-agency coordination, developing and 
maintaining strategic external partnerships and socializing VA's plan 
to end Veterans homelessness. HVIO serves as the Department's 
coordinating office with the US Interagency Council on Homelessness 
(USICH). A member of the office is the Designated Federal Official for 
the VA's Congressionally mandated Advisory Committee on Homeless 
Veterans. HVIO also coordinates plans and assists with execution of the 
Advisory meetings and reports. HVIO coordinates VA involvement in the 
planning and development in joint conferences and national initiatives 
with Federal departments that assist homeless Veterans including Labor, 
HUD, Department of Health and Human Services and the Department of 
Justice. HVIO has responsibility for executing the national homeless 
outreach efforts contract.
    Approximately $2 million of the funding in the FY 2013 budget will 
be used for staff salaries and benefits; $400,000 leased space, 
supplies, copy machine lease, travel, training, equipment, Advisory 
Committee meetings and parcel post service for outreach materials; and 
approximately $900,000 will be used for ongoing outreach and 
communication support with external partners, stakeholders and Veterans 
to educate and inform them on specialized homeless programs.

    Question 9. The fiscal year 2013 budget request includes 
approximately $196 million for Health Care for Homeless Veterans 
(HCHV). This money is allocated to two HCHV budget lines, one for 
Sustainment and another for Initiatives.
    a. Please provide the Committee with a detailed analysis of how 
this funding will be utilized for HCHV Initiatives.
    Response. The budget line item titled ``Health Care for Homeless 
Veterans--Sustainment'' is allocated to the ongoing support of pre-
existing HCHV case management and outreach staffing. This pertains to 
positions previously developed through establishment of HCHV programs 
prior to the introduction of the Ending Veteran Homelessness 
initiative. The line item titled ``Health Care for Homeless Veterans--
Initiative'' refers to program development, expansion, and staffing 
costs tied directly to this initiative.
    For FY 2013, ``Sustainment'' is projected to require approximately 
$58.5 million in allocation. VHA projects the ongoing support of the 
``Initiative''-related costs at approximately $93.7 million. These 
funds will be expended to support:

    <bullet> Expanded HCHV emergency, transitional housing, and low/
demand/safe haven housing programs along with assigned case management 
staff;
    <bullet> Community Resource and Referral Centers (CRRCs);
    <bullet> Approximately 120 staff positions (rural outreach workers, 
psychiatrists, nurses, addictions therapists, peer support personnel, 
program support assistants, etc.) tied to prevention and outreach 
efforts developed through the Eliminate Veteran Homelessness 
initiative;
    <bullet> Homeless Patient Aligned Care Team (HPACT) program sites 
and selected referral program projects;
    <bullet> Medical facilities support for homeless program site 
renovations for fire and safety code requirements and expanded leased 
space to accommodate staffing additions generated through this 
initiative.

    The remaining $43.3 million will be used to fund new prevention and 
employment initiatives in HCHV in FY 2013.

    b. Please provide the Committee with the locations of the Community 
Resource and Referral Centers; a breakdown of how the Centers are 
staffed; and what services are available at each location.
    Response. Community Resource and Referral Centers (CRRCs) are being 
developed under the Model Development core of the National Center on 
Homelessness Among Veterans. As such, these programs are being 
developed and evaluated as practice-informed models for possible wider 
dissemination. Sites are in various stages of development and most are 
not yet providing services, although several locations are offering 
CRRC-type linkage and referral assistance for Veterans while facilities 
are being prepared. VA is implementing CRRCs at the following 
locations:

        VISN 3--New York Harbor HCS
        VISN 4--Philadelphia VAMC
        VISN 5--Washington DC VAMC
        VISN 7--Atlanta VAMC
        VISN 10--Louis Stokes Cleveland VAMC and Akron CBOC
        VISN 11--John D. Dingell VAMC Detroit
        VISN 12--Jesse Brown Chicago VAMC
        VISN 16--Southeastern Louisiana VA HCS
        VISN 18--Phoenix VA HCS
        VISN 19--Eastern Colorado HCS
        VISN 20--Portland VAMC
        VISN 21--San Francisco VAMC
        VISN 22--Southern Nevada HCS
        VISN 23--Central Iowa HCS and Nebraska/Western Iowa HCS

    CRRC models were funded with the following basic staffing: Social 
Workers, Peer Supports, Vocational Rehabilitation Specialist, Addiction 
Counselors, Registered Nurse, Physicians, and Administrative Assistant.
    The following basic services are provided at all CRRCs: Intake, 
Case Management Services, Housing services, Vocational Employment 
services, Educational services, Primary Health services, Mental Health 
services, Substance Abuse Services, Economic Benefit services, and 
Communication services such as internet and mail. Legal services are 
provided in conjunction with community partners.
    Some CRRCs also have HPACT Teams that provide primary care 
services. Those include:

        VISN 4--Philadelphia VAMC
        VISN 5--Washington DC VAMC
        VISN 11--John Dingell Detroit VAMC
        VISN 12--Jesse Brown Chicago VAMC
        VISN 16--New Orleans South Louisiana HCS
        VISN 18--Phoenix VA HCS
        VISN 19--Denver Eastern Colorado HCS
        VISN 20--Portland VAMC
        VISN 21--San Francisco VAMC
        VISN 22--Las Vegas Southern Nevada HCS
Women Veterans
    Question 1. In fiscal year 2011, VA allocated $17 million for non-
recurring maintenance for correcting patient privacy deficiencies. In 
the questions for the record following the fiscal year 2012 budget 
hearing, VA provided a list of women's projects from the fiscal year 
2012 Strategic Capital Investment Planning process.
    a. Please provide an updated list of construction projects relating 
to correcting patient privacy deficiencies.
    b. For fiscal year 2013, how much is requested to correct patient 
privacy deficiencies? Also, please provide a list of facilities that 
will receive funding in fiscal year 2013.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 31.]

    Question 2. In the last 10 years, the number of women veterans 
enrolling for VA services has nearly doubled. This trend is expected to 
continue in the coming years. The fiscal year 2013 budget request 
includes $403 million for gender specific health care. As noted in the 
Independent Budget, VA's own statistics show that ``51 percent of women 
veterans who use the VA system divide their care by using both VA and 
non-VA providers.''
    a. For fiscal year 2013, how much funding does VA expect to spend 
on fee-basis care for women veterans? What performance measures does VA 
have in place to ensure women veterans are receiving quality care?
    Response. Based upon FY 2008-FY 2011 Fee Basis expenditure 
disbursements for health care for women, expenditures have increased by 
an average of 20.8 percent since FY 2007. It is estimated that VHA will 
spend $302 million in FY 2013 on Fee Basis care for women. Currently 
there are existing performance measures ensuring quality care for all 
Veterans, including access to care and timeliness of care. In addition, 
the Non-VA Care Coordination (NVCC) program has a patient satisfaction 
query component in which Fee Basis utilization review nurses collect 
patient information about the patient's satisfaction in reference to a 
non-VA care experience. The information collected from this component 
promotes a key measure in ensuring quality care directly from the 
Veteran. The NVCC program implementation will improve upon the quality 
care experience as it also contains specifications in the selection of 
providers promoting verification that they are appropriately certified.

    b. In fiscal year 2011, VA's actual budget for gender specific 
health care was $287.5 million; please provide the Committee with a 
detailed breakdown of how this money was utilized.
    Response. See itemized list below.


               FY 2011 Women's Gender Specific Health Care
                         [dollars in thousands]
------------------------------------------------------------------------
                     Diagnosis Category                      Obligations
------------------------------------------------------------------------
Benign Neoplams............................................      $5,867
Breast/Skin Neoplasm.......................................      16,960
Complications of Pregnancy.................................      32,724
Genitourinary Neoplasm.....................................       6,278
Osteopathies...............................................       2,380
Breast Disorders...........................................      11,474
Other Disease of Genitourinary.............................      39,611
Other Factors Affecting Health Status......................      20,295
Other......................................................       7,095
Pregnancy and Delivery.....................................       6,395
                                                            ------------
    Diagnosis Category Subtotal............................    $149,079
------------------------------------------------------------------------



------------------------------------------------------------------------
                    Program Description                      Obligations
------------------------------------------------------------------------
Women's Clinic.............................................     $88,034
Gynecology.................................................      32,149
Women's Surgery............................................         408
Women's Stress Disorder Treatment Teams....................       2,274
Mammogram..................................................      10,142
Female Gender Specific Cancer Screening....................       5,389
Program Subtotal...........................................     138,396
                                                            ------------
    Total Gender Specific Care.............................    $287,475
------------------------------------------------------------------------

Vet Centers
    Question 1. In the fiscal year 2013 budget request, VA proposes 
spending $222 million for readjustment counseling services at Vet 
Centers. Some Vet Centers offer evening and weekend hours; however, 
this might not be widely known by veterans.
    a. How many Vet Centers offer evening and weekend hours and how 
much of the funding will be utilized to provide evening and weekend 
hours to veterans?
    Response. Vet Center policy states that upon request from Veterans, 
Vet Centers will maintain non-traditional appointment schedules, after 
normal business hours during the week and on weekends, to accommodate 
working Veterans and family members. Currently, over 280 of the 300 Vet 
Centers have established non-traditional hours each week to provide 
both individual and group counseling services. The remaining locations 
offer non-traditional hours as needed. Most of these locations are new 
and are still establishing a client base.
    There is no specific funding for providing evening and weekend 
hours to Veterans and their families. Vet Center staff adjust their 
tours of duty as needed to take into account for providing services 
during non-traditional hours.

    b. What mechanisms and outreach efforts are in place to ensure 
veterans know that local Vet Centers provide evening and weekend hours?
    Response. Vet Center non-traditional hours are regularly 
highlighted during Vet Center outreach presentations at the various 
Federal, State, and locally organized events in which the Vet Center 
staff participate. It is also discussed as a part of scheduling for 
Veterans who seek services at a Vet Center. Vet Center media (Web site, 
print media, press releases) is continuously monitored for 
opportunities to further communicate this benefit.

                       COMPENSATION AND PENSIONS

    Question 1. In 2010, VA began operating the Fast Track Claims 
Processing System to process claims for three conditions presumed to be 
related to Agent Orange exposure. The fiscal year 2013 budget request 
reflects that ``analysis and planning regarding system retirement will 
be conducted in [fiscal year] 2012.''
    a. To date, how much in total has been spent (from any account) on 
developing, enhancing, and operating the Fast Track Claims Processing 
System, including funds for contractor support?
    b. Is any funding (from any account) requested in the fiscal year 
2013 budget in order to operate, expand, or retire the Fast Track 
Claims Processing System?
    c. Since its inception, how many claims have been filed by 
claimants on-line using this system?
    d. How many claims have been processed through the Fast Track 
system and how long on average did it take to complete those claims?
    e. How many Fast Track claims are currently pending and how long on 
average have they been pending?
    f. What, if any, changes have been made in the manner, means, or 
method of implementing the Fast Track Claims Processing System, either 
in the field or within the headquarters of the VBA, since it began in 
2010?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 5.]

    Question 2. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA is ``noncompliant with the Debt Collection 
Improvement Act of 1996'' because VA does not charge interest or 
administrative costs on delinquent debts owed to VA. VA has previously 
explained to the Committee that, ``in 1992, the Deputy Secretary of 
Veterans Affairs made a decision not to implement the statutory 
interest and administrative charges on Compensation and Pension 
debts.'' VA has also indicated that ``[t]he majority of debts created 
for compensation are due to beneficiary death, incarceration and 
fugitive felons.''
    a. What is the legal authority relied upon by VA to forego 
collecting interest and administrative costs with respect to delinquent 
debts?
    b. What is the total amount of debt to VA created in fiscal year 
2011 as a result of VA beneficiaries being incarcerated or having 
fugitive felon status?
    c. What is the total amount of debt to VA expected to be created in 
fiscal year 2012 and in fiscal year 2013 as a result of incarceration 
of beneficiaries or beneficiaries deemed to be fugitive felons?
    d. If VA assessed interest and administrative costs, in accordance 
with the Debt Collection Improvement Act of 1996, on any of those debts 
that are or are projected to be delinquent, what would be the total 
amount of those assessed charges in fiscal year 2012 and fiscal year 
2013?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 14.]

    Question 3. With respect to VA's fiscal year 2012 budget request, 
VA was asked whether the budget request included ``funding for benefits 
that are projected to be overpaid and not recouped.'' In response, VA 
indicated in part that, ``[a]lthough there is no specific line item for 
overpayments in the budget request for the Compensation and Pension 
account, these payments are accounted for in the baseline budget 
estimates and are not identified as funds that VA does not expect to 
recoup.'' VA also indicated that for fiscal year 2012 the Readjustment 
Benefits account included ``a net increase of $7.2 million in 
obligations associated with overpayments.''
    a. For fiscal year 2012, what is the total amount of benefits now 
projected to be overpaid?
    b. For fiscal year 2013, what amount is included in the 
Readjustment Benefits account for overpayments of benefits?
    c. For fiscal year 2013, what amount is included in the 
Compensation and Pension account (including any amounts in the budget 
baseline) for overpayments?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 15.]

    Question 4. VA's Fiscal Year 2011 Performance and Accountability 
Report contains the following information:

    One cause of overpayments in both the Compensation and Pension 
programs has been the implementation of the Fugitive Felon program. 
This program * * * prohibits Veterans or their dependents who are 
fugitive felons from receiving specified Veterans' benefits. The law 
requires VA to retroactively terminate awards to Veterans and other 
beneficiaries from the date the beneficiary became a ``fugitive 
felon.'' As of January 2011, nearly 23,000 fugitive felon cases have 
been referred to field stations resulting in a total of nearly $165 
million accumulated overpayments which cover multiple warrant years. 
The Committees on Waivers and Compromises had waived nearly $22 million 
in overpayments.
    a. To date, how many current or former fugitive felons have had 
their overpayments to VA waived?
    b. To date, what is the total dollar amount of overpayments to 
fugitive felons that have been waived?
    c. For fiscal year 2013, what amount is included in the budget 
request in order to waive recoupment of overpayments to fugitive 
felons?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 16.]

    Question 5. Under current law, VA is required to reduce, but not 
terminate, the compensation payments to certain beneficiaries who have 
been incarcerated for more than 60 days.
    a. What was the total amount of VA benefits paid to incarcerated 
beneficiaries during fiscal year 2011?
    b. What is the total amount of VA benefits expected to be paid to 
incarcerated beneficiaries during fiscal year 2012?
    c. What is the total amount included in the fiscal year 2013 budget 
for VA benefits expected to be paid to incarcerated beneficiaries?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 17.]

    Question 6. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA paid $45 in interest penalties per million 
dollars disbursed during 2011.
    a. In total, how much did VA pay in interest penalties during 
fiscal year 2011?
    b. In total, how much does VA expect to pay in interest penalties 
during fiscal year 2012?
    c. In total, how much is included in the fiscal year 2013 budget 
request in order to pay for interest penalties?
    Response. [These questions appear and were answered in the 
prehearing responses as Question 18.]

    Question 7. The summary of compensation and pensions appropriations 
in the fiscal year 2013 budget request reflects that several Omnibus 
Budget Reconciliation Act (OBRA) payments are expected to be made to 
VBA, VHA, and OIT during fiscal year 2012. According to the budget 
request, ``[a]fter 2012, VHA will no longer be reimbursed by the 
Compensation and Pension account for the administrative costs 
associated with income verification matching.''
    a. Please provide a breakdown of how those OBRA payments are 
expected to be spent during fiscal year 2012.
    Response. The total current estimate for FY 2012 for OBRA 
obligations are $26.3 million from the Compensation and Pension 
mandatory budget. Of this total, an estimated $8.1 million is VBA 
obligations for OBRA, $11.3 million is for VHA OBRA and $6.9 million is 
OBRA obligations for IT. VBA OBRA obligations consist of approximately 
$7.6 million in payroll to support 90 FTE and approximately $0.5 
million in non-pay obligations such as rent, printing, and supplies.

    b. Please provide a breakdown of how OBRA payments for VBA and OIT 
are expected to be spent during fiscal year 2013.
    Response. The total estimated obligations for FY 2013 for OBRA are 
$9.2 million from the Compensation and Pension mandatory budget. Of 
this total, an estimated $9.1 million is VBA obligations for OBRA and 
remaining $145 thousand is obligations associated with IT OBRA. VBA 
OBRA and IT OBRA reimbursements are used to pay administrative costs 
and IT-related costs associated with income verification data matches. 
VBA OBRA obligations consist of approximately $8.4 million in payroll 
to support 101 FTE and approximately $0.7 million in non-pay 
obligations such as rent, printing, and supplies.

                    VETERANS BENEFITS ADMINISTRATION

Disability Compensation, Pensions, and Burial
    Question 1. VA has a number of initiatives underway to reach its 
goal of a 98% accuracy rate.
    a. For each of these initiatives, please describe the impact it is 
expected to have on the accuracy rate.
    Response. VBA is pursuing a major organizational transformation 
grounded in VA's Agency Priority Goals (APGs), specifically:

    <bullet> Eliminate Veterans disability claims backlog (no claim 
pending more than 125 days and 98 percent quality by the end of 2015)
    <bullet> Increase access to services and benefits
    <bullet> End Veteran homelessness by 2015

    VBA's Transformation Plan is based on more than 40 initiatives in 
the areas of People, Processes and Technology, selected from ideas 
submitted from employees and stakeholders. Transformation is not a 
``once and done,'' flip-of-the-switch proposition--it is a dynamic 
process of intaking, researching, testing and launching new ideas and 
initiatives. Under the Transformation Governance Process, VBA 
initiatives progress through a series of decisions as they mature from 
proposals to pilots to nationally deployed initiatives.
    Initiatives are being implemented through a deliberate process and 
rolled out to regional offices (ROs) in a multi-year, phased approach 
that will ensure success and minimize risk. Key initiatives that are 
currently in pilot or implementation phases are described below, many 
of which impact both productivity and accuracy.
    VBA's Transformation Plan will be coordinated through the 
Implementation Center--a program management office (PMO) with dedicated 
resources to oversee the implementation of the Transformation Plan 
using a governance process to achieve standardization and 
sustainability. Additionally, the Implementation Center will develop 
performance measures that will track the impact of the Transformation 
Plan.
    The successful execution of the plan is expected to result in a 45 
to 60-percent increase in productivity and a 14-point increase in 
quality in 2015 from FY 2011.

    People Initiatives (How VBA is changing workforce organization and 
training)

    <bullet> Intake Processing Center (IPC) enables quick, accurate 
claims triage (getting the right claim in the right lane the first 
time). This initiative was rolled out to the Wichita, Ft. Harrison, and 
Milwaukee ROs on March 26, 2012. National deployment is expected by the 
end of fiscal year 2013. The IPC has the potential to save 40 days 
combined with Segmented Lanes and Cross-functional Teams, discussed 
below.
    <bullet> Segmented Lanes will improve the speed, accuracy and 
consistency of claims decisions by organizing claims processing work 
into distinct categories, or lanes (Express, Core, and Special 
Operations), based on the amount of time required to process the claim. 
This initiative was rolled out to the Wichita, Ft. Harrison, and 
Milwaukee ROs on March 26, 2012. National deployment is expected by the 
end of fiscal year 2013. Segmented Lanes have the potential to save 40 
days combined with IPC and Cross-functional Teams
    <bullet> Cross-functional Teams initiative consists of teams of 
cross-trained raters co-located to reduce rework time, increase 
staffing flexibility, and better balance workload by facilitating a 
case-management approach to completing claims. This initiative was 
rolled out to the Wichita, Ft. Harrison, and Milwaukee ROs on March 26, 
2012. National deployment is expected by the end of fiscal year 2013. 
Cross-functional Teams have the potential to save 40 days combined with 
IPC and Segmented Lanes
    <bullet> National Level Challenge Training provides training to 
employees on claims processing through a standardized curriculum. The 
8-week program enables new raters to process 1.3 disability claims per 
day at 98-percent accuracy (actual)--up from an average of 0.5 cases 
per day and 60-percent accuracy.
    <bullet> Skills Certification improves performance and accelerates 
productivity of claims processors.

    Process Initiatives (How VBA is making improvements that result in 
quality and timeliness gains)

    <bullet> Simplified Notification Letters (SNL) standardize and 
streamline the Veteran's decision notification. SNL reduce complexity 
and time by 10-20 percent in testing. This initiative was fully 
implemented nationally on March 12, 2012. Overall productivity is a key 
metric used in determining this initiative's effectiveness.
    <bullet> Quality Review Teams (QRT) will improve claims quality 
through assessments throughout claims processing. It has the potential 
to improve quality 4 points; improve quality insight from four-month 
lag to one week. QRT was fully implemented nationwide on March 5, 2012.
    <bullet> Disability Benefits Questionnaires (DBQs) change the way 
medical evidence is collected, giving Veterans the option of having 
their private physicians complete a form that provides the medical 
information necessary to process their claims. This initiative was 
nationally implemented on March 19, 2012. DBQs have the potential to 
reduce exam processing times and improve quality.
    <bullet> Rater Decision Support Tools establish consistent rater 
performance, and include three rules-based calculators (Special Monthly 
Compensation, hearing loss, and joints). The rules-based calculators 
have the potential to improve quality by six percentage points from 
2011 to 2015.
    <bullet> Paperless Compensation and Pension Records Interchange 
(CAPRI) was nationally implemented in November 2011. This initiative 
eliminates the requirement to print and file CAPRI records at 
substantial cost and time savings. Paperless CAPRI has saved printing 
of 13 million pages of medical records and 220,000 hours of printing 
and filing time since implementation.
    <bullet> Acceptable Clinical Evidence (ACE) allows VHA medical 
personnel to use existing medical evidence and complete a DBQ in lieu 
of an in-person exam. This reduces the burden on the Veteran and 
caregiver to travel to VA medical centers to complete exams and reduces 
the time waiting for evidence in claims cycle. In the ACE pilot 
conducted by St. Paul Regional Office and Minneapolis VA Medical 
Center, 39 percent of exam requests were completed using ACE, with 
average processing time of six days. The current national average exam 
processing time is 27 days. National implementation is being planned 
for every regional office with a VA medical center located in the same 
metropolitan area. National tracking metrics are currently being 
developed jointly between VBA and VHA.

    Technology Initiatives (building systems that transition VBA to a 
paperless, automated, rules-based, multichannel access environment)

    <bullet> Veterans Benefits Management System (VBMS) standardizes 
disability compensation claims processing through Web-based paperless 
system. As of March 16, VBMS has completed over half (56 percent or 
563) of its 1,000 established claims. The average days to complete a 
claim in VBMS is 135 days. National rollout is expected to begin in 
July 2012.
    <bullet> Veterans Relationship Management (VRM) initiative improves 
telephone service and online Web access, including electronic claims 
submission as it goes online in summer 2012. Total contacts (including 
phone, email, and online eBenefits sessions) have increased 5.4 million 
(59 percent), from 9.1 million to 14.5 million from FY 2009 to FY 2011. 
The VRM initiative includes:

         - Virtual Hold-ASAP system automatically calls the Veteran 
        back versus making them hold. We have achieved 92-percent 
        reconnect success rate and caller satisfaction was up 15 
        percent. Virtual Hold was implemented on September 26, 2011.
         - Scheduled Call Back allows the Veteran to pick a date and 
        time for VA to call them back. There is a 77-percent reconnect 
        success rate and 18-percent acceptance rate. Scheduled Call 
        Back was fully implemented on December 6, 2011.
         - Customer Relationship Management/Unified Desktop (CRM/UD) 
        combines 13 systems into one database. CRM/UD improves call 
        center representatives' ability to efficiently find accurate 
        information for the Veteran. CRM/UD is scheduled to be 
        implemented by the end of fiscal year 2012.
         - Veteran Online Application Direct Connect (VDC) provides 
        standardized e-forms to facilitate electronic interviews. VDC 
        reduces control time from 11 to 0 days. The standardized e-
        forms have the potential to save 32 cents to 37 cents per page.

    <bullet> eBenefits is VA and DOD's online self-service portal that 
enables Veterans and Servicemembers access to benefits and services. 
User enrollment has increased 75 percent.
    <bullet> Stakeholder Enterprise Portal (SEP) for VSOs and 
Physicians facilitates stakeholder roles in the claims process in a 
secure environment with identity access tools. SEP has the potential to 
reduce control time from 11 days to 0 days.

    Question 2. Over the past three years, VA took in over 430 thousand 
more claims than were decided, the inventory of pending claims rose to 
over 810,000 by the end of fiscal year 2011, and 60% of those claims 
are considered by VA to be backlogged.
    a. In total, how many claims will VA need to decide each year to 
reach the goal of eliminating the backlog by 2015?
    Response. In order for VBA to eliminate the disability claims 
backlog in 2015, VBA estimates that we need to complete 1 million 
claims in FY 2012 and 1.4 million claims in FY 2013. We are currently 
working on projections for FY 2014.

    b. What precautions will VA take to make sure there is a focus on 
training and improving quality, while VA tries to reach that level of 
productivity?
    Response. VBA's Transformation Plan will improve and standardize 
processes to eliminate the claims backlog, achieve efficiencies, 
improve quality, and reallocate capacity. We will relentlessly 
streamline our processes and eliminate repetition and rework, while 
keeping our focus on delivering optimal client service. Through these 
improved processes, VBA will achieve productivity gains of 15 to 20 
percent and quality enhancements of four percent. VBA's Transformation 
initiatives such as Quality Review Teams (QRTs), Simplified 
Notification Letter (SNL), and Challenge training, are currently 
underway and will help VA achieve accurate benefits and service 
delivery and our goal of 98-percent quality. VBA has established QRTs 
at each regional office to bridge the gap between local and national 
quality metrics and foster consistency. The SNL standardizes and 
streamlines the decision-notification process and helps integrate 
essential information into one simplified notification, while reducing 
complexity and time. The national-level Challenge training provides a 
standardized curriculum to new claims processors to help ensure high 
quality and productivity.

    c. Does the fiscal year 2013 budget request include any funding for 
more near-term measures that could help veterans, family members, and 
survivors whose claims are already pending?
    Response. VBA's FY 2013 budget request includes FTE projections of 
14,520 for direct claims processing and support for 1.4 million claims, 
and $72.1 million dedicated to transformation initiatives. Initiatives 
are being implemented through a deliberate process and rolled out to 
regional offices in a multi-year, phased approach that will ensure 
success and minimize risk. Throughout FY 2013, VBA will continue to 
roll out the Veterans Benefits Management System, cross-functional 
teams, specialized lanes, and integrated processing centers.

    Question 3. VA's ``appeals resolution time'' has increased by over 
100 days since 2008 and, for those appeals that result in a decision by 
the Board, it took on average 1,123 days to go through the appeal 
process in 2011.
    a. Please explain the root cause for delays at each step of the 
appeals process, what actions VA is taking to reduce delays at each 
step of the appeals process, and when we can expect to see improvements 
as a result of those actions.
    Response. The appeals resolution time (ART) is a joint measure 
between the Veterans Benefits Administration (VBA) and the Board of 
Veterans' Appeals (BVA). It represents the average length of time it 
takes the Department to process an appeal, from the date a claimant 
files a notice of disagreement (NOD) until the case is finally 
resolved, whether the appeal is resolved at the VBA regional office 
(RO) or at BVA. Note that ART measures the time to a final resolution, 
such as an allowance, a denial, or a withdrawal of an appeal. This 
measure does not include remands, since a remanded appeal is not yet 
resolved. Remand time is included in the ART once the matter on remand 
reaches final resolution. The average ART includes many appeals that 
resolve at the RO level and never come to BVA for decision.
    A contributing factor to VBA delays in the appeals process in 
recent years is due in large part to the readjudication of previously 
denied claims for the new Agent Orange presumptive conditions 
(Parkinson's disease, ischemic heart disease, and b-cell leukemias) 
required under U.S. Court of Appeals, Ninth Circuit decision, Nehmer v. 
the Department of Veterans Affairs (VA). VBA claims inventory increased 
more than the appeals inventory for the period. In the beginning of FY 
2010, VBA's thirteen resource centers began preparing to review and 
readjudicate nearly 100,000 claims resulting from the Nehmer 
litigation. Over the course of FY 2011 and FY 2012, VBA has adjudicated 
nearly 248,000 Agent Orange claims for the new presumptive conditions 
and provided over $3.3 billion in retroactive benefits to over 121,000 
Vietnam Veterans and their survivors. The reallocation of resources 
necessitated by this dramatic workload increase resulted in a 
significant loss in claims processing capacity and left fewer resources 
to process the regular rating workload, including appeals. This 
included 1,100 Veterans Service Representatives (VSRs) and almost 1,200 
Rating VSRs (RVSRs) working Agent Orange claims in FY 2011. Because of 
this, the current VBA appeals workload is not a true indication of 
either past or future workload performance.
    To improve efficiencies, VBA has created an Appeals Design Team 
tasked with developing, testing, and evaluating improvements in the 
appeals process. The Design Team's recommendations are aimed at 
improving timeliness in each segment of the appeals process and making 
it more Veteran-centric, trust-earning, and consistent. Several of 
these recommendations were implemented as part of a pilot at the 
Houston RO on March 1, 2012. The recommendations are designed to reduce 
the appeals processing time at the RO level. It is anticipated that the 
remainder of FY 2012 and most of FY 2013 will be dedicated to the 
testing and national rollout of these recommendations before the 
overall impact can be seen on processing timeliness.
    One common root cause for an initial delay in the appeals process 
is identifying a legitimate and intended NOD. As such, the Design Team 
created a standardized NOD form to assist in identification and control 
of the appeal, and encourage the Veteran to specify the claimed 
condition and evaluation being sought, allowing VBA to narrow the scope 
of the appeal review. The new form also prompts early Decision Review 
Officer (DRO) involvement in the appeal. DROs are contacting the 
appealing party early in the appeals process to clarify any questions 
or outstanding issues associated with the appeal. Historically, if the 
claimant does not specify the condition and evaluation sought, an 
appeal is continued as to all issues.
    A waiver of RO jurisdiction form was created that would address the 
longest area of delay at the RO level, which is attributed to the 
continual submission of new evidence and VBA's duty to address and 
decide on each new submission. This waiver grants VBA the ability to 
certify the appeal to BVA along with any new evidence, once all 
development at the RO level is complete. On May 19, 2011, VA 
transmitted the ``Veterans Benefit Programs Improvement Act of 2011'' 
to Congress. Section 204 of this bill would automatically waive the 
right to initial consideration of certain evidence by the agency of 
original jurisdiction. The House has passed a similar provision as part 
of H.R. 1484, and the Senate Veterans' Affairs Committee has reported 
out S. 914, section 404 of which also has this language. The potential 
benefits that would result from enactment of the proposal include 
expedited adjudication of claims on appeal and a reduction in the time 
spent processing appeals, both at the agency of original jurisdiction 
and BVA, allowing more time for deciding new claims. VA is hopeful the 
Committees will be successful in advancing this provision to enactment 
by the close of the 112th Congress.
    VBA is piloting the elimination of the traditional election process 
and doing de novo reviews on all appeals. Elimination of the election 
process allows VBA to save a minimum of 60 days due to the fact that 
VBA would no longer send the election letter (which allows 60 days for 
a response from the claimant).
    Once VBA has certified the appeal and transferred the file to BVA, 
the average length of time from the date that BVA received an appeal to 
the issuance of a Board decision during FY 2011 was 240 days. This 240-
day time period includes the time that the file was with a Veterans 
Service Organization representative with offices co-located at BVA, for 
preparation of written argument. In FY 2011, BVA's average cycle time 
(i.e., the time from when an appeal is physically received at BVA until 
a decision is reached, excluding the VSO time referenced above) was 119 
days.
    BVA is responsible for conducting hearings and issuing detailed 
appellate decisions concerning complex legal matters. In FY 2011, BVA 
issued approximately 90 decisions per FTE, which includes Veterans Law 
Judges (VLJ), attorneys, and administrative support staff, for a total 
of 48,588 decisions. In FY 2012, BVA projects issuing 47,600 decisions 
based on the current level of FTE supported. To meet the challenge of 
the growing appeals backlog with the resources available to it, BVA has 
implemented efficiencies in two key areas, i.e., hearings and remands. 
VA has also submitted several legislative proposals to improve the 
appeals process.
    Approximately 25% of appellants before BVA request a hearing before 
a VLJ. Current statutory authority gives appellants the right to an in-
person hearing before a Board VLJ, or they may waive that right and 
elect a hearing by Video teleconferencing (VTC) technology. In FY 2011, 
66% of appellants who requested an optional Board hearing requested an 
in-person hearing at their local RO, as opposed to a VTC hearing. An 
average of 75 percent of scheduled in-person hearings in FY 2011 took 
place, meaning that 25 percent of those Veterans scheduled for hearings 
did not appear for the hearing. Moreover, data confirms that over the 
past five years, the national average show rate for field hearings is 
73 percent. This leaves the VLJ who traveled to the field station with 
substantial blocks of time without scheduled activity, and thus, a loss 
of productive time to decide appeals.
    For FY 2012, BVA decreased the number of available field hearings 
by 25% in favor of increasing VTC hearings, which take place between 
the VLJ in Washington, DC and the Veteran at his or her local RO. The 
results, both in monetary and time savings for VA, are already being 
realized. VLJs are gaining time in the office, with an anticipated 
increase in decisional output (ranging from 2% to 5%) over the next few 
years. Additionally, VA will save an estimated $307,400 in travel funds 
in FY 2012, ultimately reaching a savings of $864,354 through 2015.
    Regarding remands, in FY 2011, BVA remanded 44% of appeals before 
BVA (21,464) to the AOJ, generally VBA. Approximately 75% of all 
remands return to BVA, creating a significant amount of delay for the 
Veteran and rework for VA. VLJs determined that 40% of FY 2011's 
remands (8,585) were avoidable, i.e., a remand could have been avoided 
if the RO properly processed and reviewed the case in accordance with 
existing laws and regulations.
    To reduce these avoidable remands, BVA has analyzed the data from 
its Remand Reasons Database (collecting reasons for remands since 2004) 
and determined that the top reason for remand is inadequate medical 
examinations and opinions. BVA has partnered with the Veterans Health 
Administration (VHA) to develop training tools and provide direct 
training to VA clinicians to improve VA compensation and pension 
examinations. Additionally, BVA and VBA have agreed to a mandatory 
joint training program to aid in standardizing adjudication across the 
system, driven by the most common reasons for remand. BVA has 
established an interactive training relationship with VBA's key 
organizations involved in the appellate process, i.e., the Systemic 
Technical Accuracy Review (STAR) staff, DROs, and the Appeals 
Management Center staff. The combination of these efforts should reduce 
the number of avoidable remands in the system.
    VA has submitted legislative proposals to Congress that would 
streamline the appellate process. Specifically, VA has proposed a 
provision that would allow BVA to determine the most expeditious type 
of hearing for those appellants who request a hearing before a VLJ. The 
proposal includes a ``good cause'' exception for those appellants who 
do not desire a video conference hearing. VA has also proposed an 
automatic waiver provision, establishing a presumption that an 
appellant, or his or her representative, has waived RO consideration of 
any evidence he or she files after filing the Substantive Appeal to the 
Board. This would eliminate readjudication of the appeal by the RO in 
some cases, in favor of the Board directly addressing the evidence. 
Additionally, VA has proposed reducing the time period to file a Notice 
of Disagreement (NOD) from 365 days to 180 days, to ensure timely 
processing of appeals and less rework due to stale evidence.

    b. Please identify what level of funding is requested in total for 
fiscal year 2013 for purposes of processing appeals, including steps 
that occur at VBA.
    Response. For FY 2013, VBA requested approximately $21 million for 
the Appeals Management Center to support 249 FTE. VBA requested 
approximately $93 million for the 951 claims processors, supervisors, 
and support staff dedicated to processing appeals at VBA field offices.
    The President's total budget request for BVA for FY 2013 is $78 
million, expressly for the purpose of issuing timely and quality 
decisions in appeals.

    Question 4. In the fiscal year 2013 budget proposal, the request 
for disability compensation, pensions, and burial includes $416 million 
for Other Services, which is $71.7 million higher than the amount 
expected to be spent on Other Services during fiscal year 2012. Please 
provide a detailed itemized list of how the $416 million would be 
utilized during fiscal year 2013. To the extent any of the funds will 
be spent on contracts, please explain the nature of the contract and 
the expected outcomes.
    Response. Funding of $416 million is requested for Compensation, 
Pensions, and Burial other services in FY 2013. These funds allow for 
an increased amount of contract medical examinations (some of which are 
reimbursed from the Compensation and Pensions benefits account, 
authorized by Public Law 104-275) and the continuation and 
implementation of VBA's transformation, to include support for the 
Veterans Benefits Management System, the Veterans Relationship 
Management initiative, and VA Innovation Initiatives.
    See the table that follows:


                  Compensation & Pensions (C&P) Service
                         2013 President's Budget
                     Other Services Funding Request
------------------------------------------------------------------------

------------------------------------------------------------------------
Medical Examinations.......................................     $269.5M
Veterans Benefits Management System........................       31.9M
Transformation Plan........................................       15.7M
VA Innovation Initiative...................................       15.0M
Educational development, training, and testing.............       13.2M
Implementation Center......................................        4.2M
Work Earnings Loss Study...................................        2.6M
C&P Operations.............................................        1.1M
Fiduciary Asset Verification Contract......................        1.0M
Advisory Committees........................................        0.6M
Management Support*........................................       61.2M
                                                            ------------
    Total Other Services Funding Request...................     $416.0M
------------------------------------------------------------------------
* Half of this amount is C&P Service's portion of must-fund contracts to
  internal and external customers, e.g., the Department of Homeland
  Security, the Department of the Treasury, the National Archives and
  Records Administration, and several VA customers (Debt Management
  Center, Financial Services Center, etc.). The remaining funds consist
  of C&P Service's portion of the Veterans Relationship Management
  initiative; VBA infrastructure investments, such as the co-location or
  relocation of facilities and associated equipment contract costs; and
  equipment operating, maintenance, and repair services contracts.


    Question 5. According to the fiscal year 2013 budget request, VA 
has ``established dedicated teams of quality review specialists at each 
regional office.''
    a. Nation-wide, how many FTEs are currently assigned to these 
quality review teams?
    Response. 600 FTE are assigned.

    b. If the fiscal year 2013 budget request is adopted, how many 
individuals Nation-wide would be assigned to these teams?
    Response. VA's budget requests no change to the current number of 
quality review specialists.

    Question 6. On page 4B-10 of volume 3 of the fiscal year 2013 
budget request, a chart indicates that VA received 854,000 claims in 
fiscal year 2008 and 872,000 claims in fiscal year 2009. A similar 
chart in the fiscal year 2012 budget request indicates that VA received 
888,000 claims in fiscal year 2008 and over 1 million claims in fiscal 
year 2009. Please reconcile those figures.
    Response. There was an error in the chart on page 4B-10 of volume 3 
of the 2013 budget. Disability rating claims receipts for 2008 through 
2011 were as follows:


------------------------------------------------------------------------
                                                              Claims
                           FY                                Received
------------------------------------------------------------------------
2008....................................................         888,112
2009....................................................       1,013,712
2010....................................................       1,192,346
2011....................................................       1,311,091
------------------------------------------------------------------------


    Question 7. In response to questions about VA's fiscal year 2012 
budget request, VA provided this prediction: ``Investments in 
information technology will begin to pay dividends as deployment of the 
Veterans Benefits Management System (VBMS) begins in 2012, allowing for 
increased productivity and reduced operating costs in processing 
disability compensation claims.''
    a. Please quantify the increased productivity and reduced costs 
expected during 2012, in terms such as individual productivity of 
claims processing staff, cost per case, or overall operating costs.
    Response. VBMS initially rolled out to Providence in November 2010, 
Salt Lake City in May 2011, and Wichita and Fort Harrison in 
March 2012. VA will be able to better examine increases in productivity 
and reduction in costs once additional software releases are deployed 
in November 2012 and May 2013.

    b. Please quantify any increased productivity and reduced costs 
expected during 2013, in terms such as individual productivity of 
claims processing staff, cost per case, or overall operating costs.
    Response. VBMS initially rolled out to Providence in November 2010, 
Salt Lake City in May 2011, and Wichita and Fort Harrison in 
March 2012. VA will be able to better examine increases in productivity 
and reduction in costs once additional software releases are deployed 
in November 2012 and May 2013.

    Question 8. According to the fiscal year 2013 budget request, VA 
will begin to expand VMBS to more sites during fiscal year 2012 and 
expects it to be fully rolled out to all sites by the end of 2013.
    a. When VA begins rolling out VBMS to new sites, is it expected 
that those sites will experience short-term declines in productivity as 
employees are trained on the new technology? If so, please quantify the 
expected decline and how long it is expected to last at each site.
    Response. Yes, it is expected sites will experience short-term 
declines in productivity as employees are trained on VBMS. VBMS is 
being deployed as part of a complete people, process, and technology 
transformation at two regional offices in March 2012. VA will be able 
to obtain data on the short-term declines in productivity and the 
expected duration after the two regional offices complete their 
transformation.

    b. Once VBMS is in place at a regional office, how will the office 
be expected to deal with paper-based claims that are already pending at 
that office?
    Response. VBMS is taking a ``point forward approach'' to 
transitioning offices to fully functional paperless centers. All paper 
claims currently pending will continue to be processed in paper. Once 
VBMS is launched at an office, all new claims received will be 
processed in VBMS as paperless claims. However, end users will use VBMS 
to make decisions on both paper and paperless claims.

    c. During fiscal year 2012, what percentage of claims does VA 
expect to be handled using VBMS?
    Response. By the end of FY 2012, VBMS could potentially handle 15% 
of new incoming, rating-based claims.

    d. During fiscal year 2013, what percentage of claims does VA 
expect to be handled using VBMS?
    Response. Once additional functionality is added in November 2012, 
VA will be better positioned to determine potential capacity for FY 
2013.

    Question 9. In connection with VA's fiscal year 2012 budget 
request, VA was asked to explain VA's plan to bring down the backlog of 
disability claims by 2015. In part, VA responded that, ``[i]n late 
2012, VA estimates production will begin to outpace receipts'' and that 
``productivity * * * will rise from 89 annual claims per [compensation 
and pension] direct labor FTE in 2012 to 129 in 2015.''
    a. Please quantify how that increase would be achieved, including 
what percent increase in individual productivity VA expects from VBMS 
and from other initiatives that are underway.
    Response. VBA's Transformation Plan cuts across three major areas 
(People, Process, and Technology) to drive consistency, 
standardization, and improvement in delivery of benefits to Veterans, 
Servicemembers, their families, and survivors. VBA expects a 15-to-20 
percent increase in production from technology initiatives to include 
the Veterans Benefits Management System (VBMS), and Veterans 
Relationship Management (VRM). We expect a 15-to-20 percent increase in 
production from people initiatives such as, cross-functional teams, 
intake processing center, segmented lanes, and challenge training. 
Finally, we expect productivity to increase by 15 to 20 percent for 
process initiatives, which include Simplified Notification Letter 
(SNL), Quality Review Teams (QRTs), and Disability Evaluation 
Questionnaires (DBQs).

    b. Currently, how many claims are projected to be completed during 
fiscal year 2012 per compensation and pension direct labor FTE 
(including in that FTE total any contractors who perform claims 
processing functions, such as gathering evidence, or are supplementing 
the work of direct labor FTE)?
    Response. In FY 2012, VBA expects to complete 1,175,000 disability 
compensation and pension claims. Measured against the total 14,320 
direct labor FTE in the 2012 budget for all work activities related to 
the compensation and pension programs, the projected output equates to 
82 disability claims per FTE. However, it is important to recognize 
that these FTE are devoted to many claims and work activities in 
addition to processing rating-related disability compensation claims. 
Although disability claims (both original claims and claims for 
increase) are the primary subset of claims by which we measure 
production and output, there are other major work efforts that are 
critical to the overall delivery of compensation and pension benefits, 
including appeals, survivors' benefits, pension income adjustments and 
matching programs, dependency and other account maintenance activities 
for beneficiaries already receiving benefits, burial benefits, 
outreach, IDES support, transition assistance programs, National Call 
Centers, personal interviews with Veterans and other beneficiaries, and 
fiduciary and guardianship activities.

    c. How many claims are projected to be completed during fiscal year 
2013 per compensation and pension direct labor FTE (including in that 
FTE total any contractors who perform claims processing functions, such 
as gathering evidence, or are supplementing the work of direct labor 
FTE)?
    Response. In FY 2013, VBA expects to complete 1,400,000 disability 
compensation and pension claims using 14,520 FTE, or 96 disability 
claims per FTE. Please also see additional explanation above.

    Question 10. According to information provided in connection with 
the fiscal year 2012 budget request, VBA expended $32 million in fiscal 
year 2010 to pay for claims processing staff to work overtime and VBA's 
budgets for fiscal years 2011 and 2012 also included $32 million to pay 
for claims processing staff to work overtime. VA also indicated that 
``[r]egional offices are allotted overtime funds based on local 
workload and support of national programs.''
    a. What metrics are used to gauge whether overtime work by claims 
processing staff is effective?
    Response. All claims worked during overtime hours are included in 
VBA's overall workload metrics, and therefore this completed work is 
held to the same standard as VBA's traditional production and 
timeliness standards (average days pending, average days to complete, 
number of completed claims, etc.). One gross measure of the 
effectiveness of overtime worked can be seen in VBA's national 
production. In FY 2012, VBA saw a 22-percent production increase during 
the first month in which mandatory overtime was implemented, as 
compared to the average monthly production to date in FY 2012. However, 
it is important to note that not all of the work accomplished on 
overtime directly translates into completed cases. Additional actions 
completed on overtime, such as supplemental development for evidence, 
are required steps in the claims process, but do not allow for 
immediate completion of the claim. Separating these actions from those 
that directly result in completed claims is difficult, as the impact of 
this work in terms of a completed claim is not seen until a later date.

    b. During fiscal year 2011, how much in total was actually expended 
to pay for overtime work by claims processing staff and what outcomes 
were achieved as a result of those overtime hours?
    Response. During FY 2011, $48.1 million was expended for overtime 
work for compensation and pension claims processing. In FY 2011, VBA 
implemented 20 hours of mandatory overtime per month for Rating 
Veterans Service Representatives. Overtime was a key factor in VBA's 
24-percent surge in output during May through September FY 2011, as 
compared to the average monthly production prior to implementing 
mandatory overtime in FY 2011, and exceeding its FY 2011 production 
target by five percent. Prior to implementing mandatory overtime, VBA 
averaged production of 78,000 claims per month. During the months of 
mandatory overtime, VBA averaged 96,500 claims per month. There are 
other factors that contributed to the productivity increase, including 
increases in employee experience and proficiency, fewer Nehmer claims 
to be worked, and the normal end-of-year production surge; however, the 
implementation of mandatory overtime was undoubtedly a major 
contributing factor to this production increase.

    c. During fiscal year 2012, how much is now expected to be spent on 
overtime by claims processing staff and what outcomes are expected to 
be achieved as a result of those overtime hours?
    Response. In FY 2012, VBA plans to expend an estimated $35.3 
million in overtime for compensation and pension claims processing. VBA 
implemented mandatory overtime on February 15, 2012, to focus on the 
oldest claims in the inventory. Overtime usage will include initial 
development and promulgation of claims. VBA will closely monitor the 
impact of transformation and fluctuations in workload in order to focus 
overtime efforts where they are most needed. In the first month of 
mandatory overtime, VBA completed 95,700 claims, a 22-percent increase 
in production compared to the average of the previous months this 
fiscal year. Similarly, VBA completed just under 97,000 claims per 
month during the mandatory overtime period in FY 2011. With the 
continuation of overtime in FY 2012, we expect to see at least a 
similar level of production. We will also begin to see increased 
production as we roll out transformation initiatives.

    d. For fiscal year 2013, what level of funding is requested to pay 
for overtime hours worked by claims processing staff and what outcomes 
are expected to be achieved as a result of those overtime hours?
    Response. The FY 2013 budget request includes $46.9 million for 
overtime in the compensation and pension programs. Overtime will 
continue to be a key factor in meeting the annual production goal of 
1.4 million claims in FY 2013. VBA expects greater efficiencies as we 
fully implement VBA's transformation plan, and consequently a greater 
impact seen by the overtime worked.

    e. For fiscal years 2011 and 2012, please identify the 10 regional 
offices that were or will be allocated the most funding for overtime 
hours.
    Response. Resource allocations are primarily based on each 
station's workload and special mission requirements, which consequently 
influence the staffing and funding levels authorized, including 
overtime funding. The FY 2011 allocations were heavily directed toward 
Nehmer processing and the regional offices with Day One Brokering 
Centers assigned to work Nehmer cases. FY 2011: Philadelphia, Seattle, 
St. Petersburg, Waco, St. Paul, Winston Salem, Houston, San Diego, 
Columbia, and Milwaukee expended the greatest amount of overtime funds. 
FY 2012 through March 24, 2012: Muskogee, St. Louis, Philadelphia, 
Seattle, St. Petersburg, Waco, Atlanta, St. Paul, Winston Salem, and 
Houston have been allocated the most overtime funding.

    f. For fiscal year 2013, please identify the 10 regional offices 
expected to receive the largest allocations of funding to pay for 
overtime hours.
    Response. Several factors will continue to dictate the allocation 
of overtime funding in FY 2013. Offices responsible for special 
missions (e.g., Benefits Delivery at Discharge, Quick Start, Pension 
Management Centers, Resource Centers, Fiduciary Hubs, etc.) generally 
have a larger workforce and greater need for overtime funding. While 
VBA does not foresee major changes in the methodology for overtime 
distribution in FY 2013, it is anticipated that overtime funds will be 
used to help offset any production impact as transformation initiatives 
are deployed and regional offices receive training and adapt to the new 
technologies and process changes.

    Question 11. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, one of VA's goals for 2012 is to ``introduce new 
benefit application forms for the [fully-developed claims] program * * 
* to streamline the process and improve timeliness of processing claims 
in the program.'' Also, in VA's testimony before the Committee on the 
fiscal year 2013 budget request, the Secretary indicated that ``VA 
plans an aggressive communications strategy surrounding the release of 
[additional Disability Benefits Questionnaires] that will promote the 
[fully-developed claims] program.''
    a. How many fully-developed claims have been filed each year since 
the fully-developed claims program was initiated?
    Response.


----------------------------------------------------------------------------------------------------------------
                                                  FY2010 Program Start                   FY2012        FY2013
                Fiscal Year (FY)                    (June 15, 2010)        FY2011      (projected)   (projected)
----------------------------------------------------------------------------------------------------------------
FDC Receipts...................................                 2,883        19,241       29,412*      48,529**
----------------------------------------------------------------------------------------------------------------
* This projection is based on Fully Developed Claims (FDC) receipts fiscal year to date 2012 (2,451 FDC average
  receipts per month multiplied by twelve). Data is as of end of month February 2012.
** This projection is based on the annual rate of increase (65%) in FDC receipts from Fiscal Year 2011 (19,241)
  to the projected Fiscal Year 2012 receipts.


    b. How many fully-developed claims are expected to be filed during 
fiscal year 2012 and during fiscal year 2013?
    Response. See Table One above.

    c. On average, how many days did it take to complete fully-
developed claims during fiscal year 2011?
    Response.


----------------------------------------------------------------------------------------------------------------
                                                                                                  Program Start
                   Fiscal Year (FY)                       FY2010        FY2011      FY to Date   (June 15, 2010)
                                                                                       2012*          to Date
----------------------------------------------------------------------------------------------------------------
Number of Fully Developed Claims (FDCs) Completed....          723        13,950         8,564           23,237
Average Days to Complete.............................         34.2          84.7         104.2             90.3
----------------------------------------------------------------------------------------------------------------
* Data as of end of month February 2012.
Please note that an FDC receipt does not always equal an FDC complete. Claims are removed from the FDC program
  for various reasons after they are initially flagged as FDCs. Examples of FDC program removal reasons include
  receipt of evidence from the claimant that requires further development on the claim, claimant failure to
  report for a VA examination, etc. VA is working to better inform claimants on these issues.


    d. To date in fiscal year 2012, how many days on average is it 
taking to complete fully-developed claims?
    Response. See Table Two above. The increase in ADC since 2010 is 
primarily due to program expansion. Our goal is to process FDCs in 90 
days. To combat the growing ADC for FDCs, VA will issue new FDC 
guidance and benefit application forms that will streamline the FDC 
process. VA will also release VONAPP Direct 2.0 that will 
electronically accept FDCs. These enhancements will assist VA in 
achieving its goal of processing FDCs within 90 days.

    e. Please quantify what impact it is expected to have on the 
average number of days it takes to complete fully-developed claims once 
the new forms are rolled out.
    Response. In FY 2012, VA will introduce new FDC program guidance 
and benefit application forms that will together clarify and streamline 
FDC processing. These enhancements will support VA in achieving its 
goal of processing FDCs within 90 days.

    f. For fiscal year 2013, how long is it projected to take to 
complete fully-developed claims?
    Response. For fiscal year 2013, it is projected that fully-
developed claims will take an average of 90 days to complete.

    g. For fiscal year 2013, what level of funding is requested for 
purposes of promoting the fully-developed claims program?
    Response. As FDC is a transformation initiative, funding for it is 
included in VBA's overall transformation budget of $18 million. VBA is 
considering promoting the program by implementing an FDC training 
course for Veterans Service Officers (VSOs); and disseminating FDC 
program information, benefit applications, and marketing materials, 
such as an FDC program trifold brochure, to VSOs, Veterans, and other 
potential claimants.

    Question 12. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA's failure to meet national accuracy rate 
goals for compensation entitlement claims is in part due to ``attrition 
of experienced personnel, especially in positions where extensive 
training is required.''
    a. Please identify the claims processing positions with the highest 
attrition rates during fiscal year 2011 and the overall level of 
attrition for claims processing staff during fiscal year 2011.
    Response. Please see table below.


----------------------------------------------------------------------------------------------------------------
                                                                    Average
                                                                    Onboard       Total Losses   Total Loss Rate
                    0996 Series Occupations                      Employee  FY       FY 2011           FY 2011
                                                                     2011
----------------------------------------------------------------------------------------------------------------
02  Decision Review Officer...................................        307.8                 18               6%
05  Veterans Service Representative...........................       6718.1                446               7%
04  Veterans Service Representative (Rating)..................       3116.6                176               6%
                                                               -------------------------------------------------
    Total.....................................................      10142.5                640               6%
----------------------------------------------------------------------------------------------------------------

    b. For fiscal year 2011, please identify the specific regional 
offices with highest attrition rates for claims processing personnel.
    Response. Please see table below.


----------------------------------------------------------------------------------------------------------------
                                                                    Onboard
                            Station                              Employee Avg     Total Losses   Total Loss Rate
----------------------------------------------------------------------------------------------------------------
(373) RO Manchester, NH.......................................         25.5                  5              20%
(438) HCS Sioux Falls, SD.....................................         36.8                  5              14%
(459) HCS Honolulu, HI........................................         46.7                  6              13%
(339) RO Denver, CO...........................................        159.8                 20              13%
(354) RO Reno, NV.............................................         58.9                  7              12%
(351) RO Muskogee, OK.........................................        244.3                 28              11%
(313) RO Baltimore, MD........................................        114.3                 13              11%
(405) MROC Wht River Jct, VT..................................         17.8                  2              11%
(397) AMC Washington, DC......................................        123.9                 13              10%
(402) HCS Togus, ME...........................................        134.8                 14              10%
(329) RO Detroit, MI..........................................        125.5                 13              10%
(333) RO Des Moines, IA.......................................         77.8                  8              10%
----------------------------------------------------------------------------------------------------------------


    c. What are the expected attrition rates for claims processing 
positions during fiscal year 2012 and fiscal year 2013?
    Response. Please see table below.


------------------------------------------------------------------------
                Service                     FY 2012          FY 2013
------------------------------------------------------------------------
0996 Positions in Compensation &                    6%               6%
 Pension Services.....................
------------------------------------------------------------------------

    These rates are based on the actual attrition trends for FY 2009-FY 
2011.

    Question 13. According to the fiscal year 2013 budget request, 
additional discretionary funding for the compensation, pension, and 
burials programs is requested for fiscal year 2013 ``to support 
increased contract medical examinations.'' Also, according to the 
summary of compensation and pension mandatory funding, VA expects to 
spend $236 million on contract medical examinations in fiscal year 2012 
and $248 million on contract medical examinations in fiscal year 2013.
    a. In total, how many compensation and pension examinations are 
expected to be provided during fiscal years 2012 and 2013 and how much 
in total is expected to be spent (from any account) on those 
examinations?
    Response. VBA expects to provide approximately 260,000 contract 
examinations during fiscal year 2012, and approximately 265,000 during 
fiscal year 2013.
    The projected cost of the exams for fiscal year 2012 is 
approximately $271 million and approximately $288 million for fiscal 
year 2013. The total projected cost is $559 million.
    b. Please identify all funding sources used to provide compensation 
and pension examinations and provide a breakdown of how many 
examinations will be provided using each funding source.
    Response. The funding used to complete these examinations is 
provided in accordance with Public Law 104-275.
            Mandatory Funding


------------------------------------------------------------------------
          FY             Projected # of Exams             Total
------------------------------------------------------------------------
FY 2012                 208,000                 $216,800,000
FY 2013                 212,000                 $230,400,000
------------------------------------------------------------------------

    Public Law 108-183 provides VBA the authority to use discretionary 
funding to obtain contract medical disability examinations. The chart 
below provides the projected number of examinations completed using 
this funding source.
            Discretionary Funding


------------------------------------------------------------------------
          FY             Projected #  of Exams            Total
------------------------------------------------------------------------
FY 2012                 52,000                  $54,200,000
FY 2013                 53,000                  $57,600,000
------------------------------------------------------------------------


    Question 14. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA has ``awarded five Disability Examination 
Management Contracts'' in order to provide disability examinations in 
the United States, Asia, Europe, and Latin America.
    a. How much does VA expect to spend on these contracts during 
fiscal year 2012 and how much is VA requesting to spend on these 
contracts in fiscal year 2013?
    Response. The Disability Examination Management (DEM) Contract is 
an Indefinite Delivery/Indefinite Quantity (IDIQ) contract managed by 
the Office of Disability and Medical Assessment (DMA). It includes five 
vendors who provide disability examination services within the United 
States and two vendors who provide disability examination services 
overseas. Within the U.S., for VA medical centers (VAMC) using the DEM 
contract, all resourcing is through their current budgets and on an as 
needed basis. Currently, several VAMCs are using the contract and 
others are prepared to use it when contingencies and surges in demand 
dictate the need. The Foreign Medical program has budgeted $4.1 million 
in FY 2012 and $4.3 million in FY 2013 in support of increased claims 
and need for overseas examinations.

    b. How many examinations per year are expected to be provided 
through these contracts and what is the average expected cost per 
examination?
    Response. The average cost of examinations varies across vendors 
and/or regions but ranges from a low of $175 to a high of $595. Each of 
the five vendors has a guarantee of a minimum of $100,000 for the life 
of the contract, including the 4 option years. The rates overseas are 
based on U.S. pricing. For FY 2012, $4.1 million has been budgeted to 
pay for disability examinations for 2,900 claims for 1,350 Veterans 
residing overseas.

    c. Please identify the locations within Asia, Europe, and Latin 
America where these examinations are expected to be provided.
    Response. Examination locations overseas include: Naha, Okinawa 
(Japan); Tokyo, Japan; Frankfurt, Germany; San Jose, Costa Rica; and 
Mexico City, Mexico. Additionally, a modification to expand examination 
services in Korea has been sent to the Contracting Officer and Vendors 
for approval.

    d. Please explain any performance standards that will be required 
for the examination providers, such as timeliness of examinations, 
quality of examination reports, or driving-distance for Veterans.
    Response. Under the contract performance standards, each contractor 
shall schedule examinations as close to the Veteran's or 
Servicemember's home of record as feasible but generally no further 
than 50 miles for non-specialist examinations and 100 miles for 
specialist examinations. The timeliness standard for examinations in 
country are 26 days for general compensation and pension disability 
examination requests, 35 days for Department of Defense examinations, 
and 45 days for overseas (the time is measured from the receipt of the 
examination request). The quality of all overseas examination reports 
are reviewed by VHA clinical staff on receipt from the contractors for 
sufficiency, then forwarded to VBA for adjudication action. To date, 
VBA has not returned any contract examinations back to DMA as 
insufficient.

    Question 15. For beneficiaries living abroad, VA has contracted 
with local medical providers to conduct compensation and pension 
examinations through the Foreign Medical Program. In 2011, VA announced 
that it had started a new program (the overseas disability examination 
program) to have VA personnel travel abroad to provide disability 
examinations to claimants who are living outside of the United States. 
In part, VA noted that, in June 2011, VA staff had traveled to Japan 
for three weeks in order to provide examinations for 39 veterans.
    a. During fiscal year 2011, how much in total was expended with 
respect to the overseas disability examination program, how many trips 
did that funding support, how many VA personnel traveled for that 
purpose, how many veterans were served, how many examinations were 
provided, and what was the average quality of the examinations?
    Response. In June 2011 and September 2011, a total of five VHA 
compensation and pension staff conducted 513 compensation and pension 
disability examinations on 85 Veterans residing in Naha, Okinawa 
(Japan), during two separate visits. The cost to the government for the 
five VHA personnel was $27,517, including travel and lodging. The 
duration of the two visits was 2-3 weeks for each visit. Navy personnel 
housed VHA staff at the government rate at Camp Lester, allowing for a 
further savings to the Government. Further, having experienced VHA 
compensation and pension clinicians perform examinations as opposed to 
local national contract examiners allowed VA to see a substantial 
savings since costs for exams overseas range from $2,000-$5,000 per 
exam. All examination findings were reviewed by Office of Disability 
and Medical Assessment (DMA) staff for quality and VBA staff for 
sufficiency for rating purposes and none were returned as inadequate or 
insufficient.

    b. For fiscal year 2011, how much in total was expended to provide 
disability examinations through the Foreign Medical Program (FMP), how 
many examinations were provided, how long on average did it take to 
complete examinations through this program, and what was the average 
quality of the examinations provided?
    Response. In FY 2011, $3.4 million was paid on 2,700 claims for 
1,344 Veterans. The quality of the examinations varies by geographic 
regions and the timeliness ranges from 3 months to 12 months based on 
the location of the examinations conducted.

    c. During fiscal years 2012 and 2013, how much in total is expected 
to be expended with respect to the overseas disability examination 
program, how many trips would that funding support, how many VA 
personnel would travel for that purpose, how many veterans would be 
served, how many examinations would be provided, and what is the 
expected average quality of the examinations?
    Response. The initial overseas trips to Naha, Okinawa (Japan) 
proved successful and cost effective in providing disability 
examinations to Veterans residing overseas. However, DMA began piloting 
a new overseas program in February 2012 that provides contracted 
disability examinations to Veterans residing overseas in contractually 
specified areas identified with the highest concentrations of Veterans. 
These examinations are scheduled with, and performed by, trained 
contracted disability examiners. Upon successful evaluation of 
performance in Japan, the next contracted examinations will be 
scheduled in Germany. The vendors supplying services overseas are the 
same ones providing these examinations within the United States; thus, 
they meet all VA training requirements. DMA expects their examination 
quality to meet VA standards set forth in the contract. However, as an 
added measure, all overseas contracted VHA examinations are reviewed by 
VA trained disability examiners and only released to the requesting 
Regional Office after full review. These examinations are also part of 
the overall quality audit performed by VHA. VHA and VBA are working to 
develop fiscal year 2013 budgets based on the ability to provide 
overseas contracted examinations through the established rates of the 
contract.

    d. For fiscal years 2012 and 2013, how much in total is expected to 
be expended to provide disability examinations through the Foreign 
Medical Program, how many examinations are expected to be provided, how 
long is it expected to take on average to complete examinations through 
this program, and what is the expected average quality of the 
examinations provided?
    Response. For FY 2012, $4.1 million has been budgeted for exams in 
support of 2,900 claims and 1,350 unique Veterans. In FY 2013, $4.3 
million has been budgeted for exams to support 3,000 claims for 1,350 
Veterans. Although, VBA has not conducted specific quality reviews of 
foreign cases, the Pittsburgh Regional Office, which has responsibility 
for processing overseas claims, reports that the quality varies by 
geographic region and the timeliness ranges from 3 months to 12 months 
based on the location of the examination conducted.

    e. On average, how many claims are filed each year by beneficiaries 
living in foreign countries?
    Response. Foreign claims are processed at three regional offices. 
White River Junction processes claims for Veterans residing in Canada. 
The Houston Regional Office processes claims for Veterans residing in 
South America, Central America, Mexico, and the Caribbean. Pittsburgh 
processes claims for Veterans residing in foreign countries other than 
the ones previously listed. During FY 2011, a total of 2,192 foreign 
claims were filed, and as of March 31, 2012, a total of 918 foreign 
claims were filed for FY 2012. Since FY 2011, data indicates that on 
average 153 foreign claims are filed per month.

    f. For Veterans living in the United States, how long on average 
does it take to receive a VA-provided compensation and pension 
examination?
    Response. As of April 2012, the average time to receive a completed 
VA compensation and pension examination provided by VHA was 25.8 days 
for a Veteran residing in the United States. The average time to 
receive a completed compensation and pension examination provided by a 
VBA contractor was 29.7 days for a Veteran residing in the United 
States.

    Question 16. In response to questions about the fiscal year 2012 
budget request, VA indicated that it was requesting $16.4 million in 
order to contract with private entities to retrieve medical records 
from private medical providers. VA also indicated that, ``[i]n order to 
gauge the effectiveness of the current contract, VA is evaluating the 
timeliness of the seven regional offices using the contractor's 
services as compared to the timeliness of regional offices requesting 
medical records directly from private physicians.''
    a. In total, how much has been or will be spent on that initiative 
during fiscal year 2012?
    Response. The program is currently operating under a contract 
awarded with FY 2011 funds. The total value of this contract is 
$2,272,033 and runs until September 2012. FY 2012 monies will be used 
to award an option period to the contract valued at $593,436.

    b. To date, what is the average time it takes to obtain private 
medical records at the regional offices using the contractors and what 
is the average time it takes to obtain private medical records at other 
regional offices?
    Response. Since September 2011, the average time it takes the 
contractor to obtain medical records or receive a response necessary to 
close out the claims development action (i.e., no records exists or 
records destroyed) is 13.25 days.
    It takes other VA regional offices 40+ days to receive private 
medical records.

    c. How many claimants' medical records have been obtained or are 
expected to be obtained by the contractors during fiscal year 2012?
    Response. Between September 2011 and March 2012, we have received 
11,440 private medical records and were able to close out an additional 
4,025 requests with responses from the physician, which include but are 
not limited to reasons such as, ``the records were destroyed.'' Based 
on forecasted claims submissions against our current success rate, we 
anticipate receiving 19,515 private medical records and closing out an 
additional 7,110 requests during FY 2012.

    d. How much (if any) is requested with respect to this initiative 
for fiscal year 2013 and how many contractors would that level of 
funding support?
    Response. The FY 2013 budget request is based on initiating 
national deployment of the program. The cost estimate for year one 
during ramp up is $10 million. The budget is based on a price-per-
record retrieval estimate and not on a contract full time employee 
(FTE) resource number.

    Question 17. In response to questions about VA's fiscal year 2012 
budget request, VA indicated that ``VBA's 2012 General Operating 
Expense budget request includes * * * $72.7 million and 66 FTE for 
program management and oversight of transformation initiatives.''
    a. Please provide an itemized list of how those funds have been or 
will be expended during fiscal year 2012.
    Response. Please see the chart below.


------------------------------------------------------------------------
                                                         FY 2012 Budget
              VBA Initiative                   FTE        Request (m)
------------------------------------------------------------------------
Transformation Plan Initiatives..........         10          $29.9
Veterans Relationship Management (VRM)...         16           $7.7
Veterans Benefits Management System               40          $35.1
 (VBMS)..................................
                                          ------------------------------
    Total................................         66          $72.7
------------------------------------------------------------------------

    b. How much is requested for these purposes for fiscal year 2013?
    Response. VBA's 2013 General Operating Expense budget request 
includes $62.5 million and 79 FTE for coordination and tracking of 
transformation initiatives, to include the Veterans Benefits Management 
System and Veterans Relationship Management.

    Question 18. In response to questions about VA's fiscal year 2012 
budget request, VA indicated that, for purposes of revising VA's 
disability rating schedule, VA ``plans to spend $750,000 for a work 
earnings loss study, $387,000 for a medical consultation contract, and 
payroll resources of approximately $1.1 million'' during fiscal year 
2011, and the fiscal year 2012 budget included ``$1 million for a work 
earnings loss study, $391 thousand for a medical consultation contract, 
and payroll resources of approximately $1.1 million.''
    a. How much in total was actually expended during fiscal year 2011 
to update the disability rating schedule? Please provide an itemized 
list of how that funding was expended.
    Response. Please see the chart below.


------------------------------------------------------------------------
                                                               FY 2011
                          Purpose                           Expenditures
------------------------------------------------------------------------
Scottsdale forum costs....................................     $197,136
Work earnings loss study..................................      524,806
Medical consultation contract.............................      205,311
Payroll resources.........................................    1,086,401
Travel....................................................       35,312
                                                           -------------
  Total...................................................   $2,048,966
------------------------------------------------------------------------

    b. During fiscal year 2012, how much in total does VA currently 
plan to expend to revise the rating schedule? Please provide an 
itemized list of how that funding has been or will be expended.
    Response. Please see the chart below.


------------------------------------------------------------------------
                                                              Projected
                          Purpose                              FY 2012
                                                            Expenditures
------------------------------------------------------------------------
Oct. 2011 NYC forum costs.................................     $108,310
Jan. 2012 NYC forum costs.................................       82,242
Work earnings loss study..................................    1,201,793
Medical consultation contract.............................      201,358
Payroll resources.........................................    1,663,219
Travel....................................................      120,000
                                                           -------------
  Total...................................................   $3,376,922
------------------------------------------------------------------------

    c. What level of funding is requested for fiscal year 2013 for 
purposes of updating the rating schedule and how are those funds 
expected to be spent?
    Response. Please see the chart below.


------------------------------------------------------------------------
                                                              Projected
                          Purpose                              FY 2013
                                                            Expenditures
------------------------------------------------------------------------
Forum costs...............................................          N/A
Work earnings loss study..................................   $2,445,000
Medical consultation contract.............................          N/A
Payroll resources.........................................    2,094,845
Travel....................................................       90,000
                                                           -------------
  Total...................................................   $4,629,845
------------------------------------------------------------------------


    Question 19. In response to questions about VA's fiscal year 2012 
budget request, VA indicated that there were 15 full-time employees at 
the Louisville regional office dedicated to processing claims based on 
exposure to contaminated water at Camp Lejeune.
    a. Currently, how many employees at the Louisville regional office 
are dedicated to handling these claims?
    Response. There continues to be 15 full-time employees dedicated to 
processing Camp Lejeune-related claims.

    b. If the fiscal year 2013 budget request is approved, how many 
employees would be dedicated to handling these claims at the Louisville 
regional office?
    Response. VBA's FY 2013 budget does not include any additional 
full-time employees exclusively dedicated to processing Camp Lejeune-
related claims at the Louisville Regional Office. However, in order to 
continue meeting timeliness expectations, the regional office Director 
will continue to monitor this unique workload and reassign claims 
processors as needed.

    Question 20. As one strategy to deal with VA's backlog of 
disability claims, VA has brokered claims between VA offices. In 
response to questions about the fiscal year 2012 budget request, VA 
indicated that there was a ``sharp decline in brokering'' because VA 
was using its resource centers to handle certain claims based on Agent 
Orange exposure. VA also provided this information: ``Measurements do 
not currently exist to determine the cost effectiveness of workload 
brokering. VBA is currently engaged in refining existing data systems 
and workload tracking mechanisms to allow appropriate data collection 
to support cost-effectiveness analyses.''
    a. In total, during fiscal year 2011, how many claims were brokered 
by VA?
    Response. In total VA brokered 40,747 claims. This was a decrease 
from 105,337 in fiscal year 2010.

    b. During fiscal year 2012, how many claims does VA expect to 
broker?
    Response. Through the end of March 2012, VBA has brokered 19,348 
claims. Beginning March 1, 2012, VBA began utilizing its 13 resource 
centers for specialized brokering missions. These resource centers had 
worked exclusively Nehmer workload in FY 2011. Resource centers will be 
focused on Benefits Delivery at Discharge, Quick Start, appeals, and 
the oldest workload from designated stations. This increase in 
brokering is expected to be around 65,000 claims for the second half of 
2012, or about 85,000 claims total for the year.

    c. What is the status of efforts to determine the cost-
effectiveness of brokering?
    Response. VBA has not completed an analysis on the cost-
effectiveness of brokered work due to the limited and unique nature of 
Nehmer brokering that occurred in FY 2011 and first part of FY 2012, 
and other shifts in the brokering strategy. The level of complexity 
associated with the work being brokered is a significant shift from the 
previous brokering strategy and therefore would significantly 
complicate any cost-benefit analysis. As VBA moves toward a paperless 
claims process through VBMS, the overall volume and costs associated 
with brokering will continue to decrease. While brokering claims and 
associated claims files in paper form will remain prominent during FY 
2012 and 2013, we anticipate the ability to accomplish more paperless 
brokering going forward. As our brokering and business process model 
changes, we will closely monitor and analyze data and costs to assess 
the effectiveness of our process and technology improvements.

    Question 21. VA and DOD have rolled out worldwide an Integrated 
Disability Evaluation System (IDES), through which an injured or ill 
servicemember, before being medically discharged from the military, 
completes both the DOD disability rating system and the VA disability 
rating process.
    a. During fiscal year 2011, how much in total did VA expend with 
respect to IDES (including both mandatory and discretionary funds) and 
how many VA employees were dedicated to the IDES process?
    Response. During fiscal year 2011, VA spent approximately $21.7 
million for salaries and general operating expenses for 239 VBA FTE 
dedicated to disability claims processing in the IDES process. Veterans 
filing claims through the IDES sites are captured in the nationwide 
Veteran caseload count and total compensation benefit obligations. The 
total mandatory dollars expended as a result of the IDES process is not 
uniquely identified or forecasted.

    b. During fiscal year 2012, how much in total does VA expect to 
expend with respect to IDES (including both mandatory and discretionary 
funds) and how many VA employees will be dedicated to the IDES process?
    Response. During fiscal year 2012, VA estimates it will spend 
approximately $38.6 million for salaries and general operating expenses 
to support 380 VBA FTE dedicated to disability claims processing in the 
IDES process. Increased staffing in 2012 includes senior-level claims 
processing and supervisory personnel, which increases payroll costs. 
Veterans filing claims through the IDES sites are captured in the 
nationwide Veteran caseload count and total compensation benefit 
obligations. The total mandatory dollars expended as a result of the 
IDES process is not uniquely identified or forecasted.

    c. For fiscal year 2013, how much in total is VA requesting with 
respect to IDES (including both mandatory and discretionary funds) and 
how many VA employees would that level of funding support?
    Response. During fiscal year 2013, VA estimates it will spend 
approximately $39.1 million for salaries and general operating expenses 
to support 380 VBA FTE dedicated to disability claims processing in the 
IDES process. Veterans filing claims through the IDES sites are 
captured in the nationwide Veteran caseload count and total 
compensation benefit obligations. The total mandatory dollars expended 
as a result of the IDES process is not uniquely identified or 
forecasted.

    d. Please identify any IDES sites that currently do not have 
sufficient VA personnel to meet all relevant staffing goals.
    Response. As of May 1, 2012, there are not any IDES sites that have 
insufficient VA personnel to meet all relevant staffing goals. When VA 
and DOD agreed to expand IDES worldwide, VA planned for and staffed 
each site at its full operational capability at the stand-up of each 
IDES expansion location. With troop withdrawal from Afghanistan 
anticipated to produce an increase in the IDES population, currently 
VA, upon notification, is able to send out ``surge teams'' to handle 
those areas that are identified for an increase in returning 
Servicemembers.

    Question 22. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA planned to ``implement the Remodeled 
Integrated Disability Evaluation System program at three military 
treatment facilities'' during the first quarter of 2012.
    a. What is the current status of that initiative?
    Response. The Remodeled IDES (rIDES) initiative was put on hold to 
reassess the process and apply lessons learned for future improvement 
of IDES.

    b. If this initiative has been canceled or postponed, please 
explain what factors led to that decision.
    Response. The following factors led to the rIDES project being 
deferred:

    <bullet> rIDES was recommended to be reassessed and lessons learned 
applied to IDES.
    <bullet> The rIDES timeline would decrease the overall IDES 
timeliness goal from 295 days to 180 days.
    <bullet> The Department of Defense (DOD) was anticipating a large 
troop withdrawal from Afghanistan and therefore IDES numbers were 
expected to increase.
    <bullet> Days to complete the DOD Physical Evaluation Board (PEB) 
phase of the current IDES process was increasing due to a mandate 
requiring Servicemembers to discuss their case with an advisor.

    c. Please describe any on-going efforts to improve the timeliness 
of the IDES process.
    Response. In order to improve the timeliness of the IDES process, 
VA plans to increase resources for the IDES preliminary disability 
ratings process, identify best practices to implement system-wide, and 
continue electronic data sharing between the Disability Rating Activity 
Sites and the Military Physical Evaluation Board.
Pension and Fiduciary Service
    Question 1. According to VA's fiscal year 2013 budget request, VA's 
fiduciary program is supervising over 122,000 incompetent 
beneficiaries.
    a. For fiscal year 2013, what level of funding is requested to 
support the fiduciary program and what total level of staffing would 
that funding support? Please provide a list of the positions that would 
be filled with that funding.
    Response. Funding for the fiduciary program is included in the 
compensation and pension programs. In 2013, approximately $76 million 
will support 693 fiduciary program FTE. Fiduciary employees at VA 
Central Office and the fiduciary hubs include the following positions: 
Assistant Director, Chiefs, Program Analysts, Fiduciary Hub Managers, 
Assistant Fiduciary Hub Managers, Supervisory positions/Coaches, 
Management Analysts, Training Managers, Field Examiners, Legal 
Instrument Examiners, and Clerical positions.

    b. What were the key performance outcomes for the fiduciary program 
during fiscal year 2011 and what are the expected performance outcomes 
for fiscal years 2012 and 2013?
    Response. Key performance indicators and outcomes for FY 2011 for 
the fiduciary program are listed in the following table along with 
targets for FY 2012 and FY 2013.


----------------------------------------------------------------------------------------------------------------
                                                                          FY 2011
                             Measure                             ------------------------   FY 2012     FY 2013
                                                                    Target      Actual      Target      Target
----------------------------------------------------------------------------------------------------------------
Accuracy........................................................        90%         88%         92%         94%
Follow-up appointments pending <= 120 days......................        90%         62%         90%         90%
Follow-up appointments processed <= 120 days....................        92%         83%         92%         92%
Initial appointments pending <= 45 days.........................        90%         64%         90%         90%
Initial appointments processed <= 45 days.......................        92%         78%         92%         92%
% accountings reviewed within 14 days...........................        94%         93%         94%         94%
% accountings not seriously delinquent..........................        95%         96%         95%         95%
----------------------------------------------------------------------------------------------------------------

    c. What portion of those incompetent beneficiaries also have a 
representative payee assigned for purposes of Social Security benefits?
    Response. Although Pension and Fiduciary Service works closely with 
the Social Security Administration's (SSA) representative payee 
program, VA does not have data concerning the number of VA 
beneficiaries who are unable to manage their financial affairs and also 
have a representative payee for SSA benefit purposes.

    Question 2. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA plans to accomplish the following during 
2012: Increase staffing for the Pension and Fiduciary Service, complete 
revisions to the fiduciary manual, deploy a new Fiduciary Program 
System, and finish consolidating fiduciary functions into six hubs.
    a. Please provide an updated timeline for when these actions are 
expected to be completed.
    Response.
            Increased Staffing
    VA established the Pension and Fiduciary (P&F) Service in 
April 2011, and it was fully staffed with 42 full-time employees as of 
January 2012.
            Revisions to the Fiduciary Manual
    We are currently drafting a notice of proposed rulemaking that 
would revise VA's fiduciary regulations in 38 C.F.R. part 13. VA 
expects to publish the proposed rule for notice and comment as early as 
August or September of this year. In the interim, P&F Service will 
implement program improvements that do not require rulemaking using 
VBA's ``fast letter'' process, under which the agency provides 
mandatory policy guidance to its field personnel. Revision of the 
fiduciary portion of the Adjudication Procedures Manual will begin as 
soon as the proposed rule is published for notice and comment.
            New Fiduciary Program System
    P&F Service is working with VA's Office of Enterprise Development 
(OED) to replace the current electronic workload management system, 
Fiduciary-Beneficiary System (FBS). The new system will include rules-
based functionality, communicate with other VA systems, and facilitate 
the processing of accountings and field examination reports. OED has 
outlined the following three phases for creating the new system:

    1. Clean-up the data contained in FBS so that it is compatible with 
VBA's corporate database, which contains all beneficiary records.
    2. Migrate FBS data to the corporate database and modify FBS to 
allow users to view information in the corporate database.
    3. Build a new user-friendly, rules-based, front-end system, which 
will provide all of the functionality required to properly administer 
the fiduciary program.

    Completion of the first phase is expected in the Fall of 2012. At 
that time, we will be able to provide a better estimate for complete 
replacement of FBS.
            Fiduciary Hubs
    On March 26, 2012, consolidation of VA's fiduciary work and 
staffing into six hubs was completed.

    b. What level of funding will be available for each of these 
initiatives during fiscal year 2012 and what level of funding, if any, 
is requested for each initiative for fiscal year 2013?
    Response. P&F Service will not require additional funding for the 
proposed rulemaking effort currently underway.
    Development of FBS will begin in FY 2012 with an initial investment 
of $950,000. Funding for the remainder of the project will be 
determined in 2013 along with other priorities.
    The level of fiduciary funding requested for FY 2013 will include 
elements unique to hub consolidation activities. $375,000 has been 
allocated for travel associated with consolidation, including two weeks 
of new Field Examiner training hosted by each of the hubs (for 55 new 
Field Examiners), pre-consolidation site visits to each of the 
consolidating stations, and help teams to prepare the transfer of work 
from consolidating stations to the hubs. Travel funding requested for 
fiscal year 2013 will mainly be limited to mandatory Field Examiner 
travel. VBA expects to spend approximately $300,000 per year on 
mandatory field examination travel in fiscal years 2012 and 2013 (this 
expense is not a result of or unique to the consolidation initiative).
    Due to a preexisting need and the addition of 55 new out-based 
Field Examiners in fiscal year 2012, 88 new GSA-leased vehicles are 
being procured. VBA estimates an annual cost of $542,784 for these 
vehicles. While approximately half of this annual cost will be incurred 
in fiscal year 2012, the full annualized amount is requested for fiscal 
year 2013.
    In standing up the hubs, each of the host regional offices will 
require additional space, supplies, and utilities. During fiscal year 
2012, $611,605 in general operating expense funds have been allocated 
for these expenses.

    c. Please outline the outcomes that are expected to be achieved as 
a result of these initiatives.
    Response. P&F Service is fully staffed and provides policy and 
procedural guidance, quality assurance, and training to support 
approximately 300 field examiners, 200 legal instruments examiners, and 
50 fiduciary managers nationwide.
    P&F Service will revise all existing program guidance, starting 
with 38 CFR part 13. The purpose of this project is to ensure program 
administration consistent with current law and VA policy, and to 
provide clear and concise guidance for field personnel. The anticipated 
outcomes of the improved guidance are increased quality and improved 
timeliness.
    The new version of FBS is being designed to significantly enhance 
workload management and provide an historical record of fiduciary 
performance. We anticipate greater efficiencies related to fewer miles 
traveled per field examination and the ability to leverage resources 
based on improved workload management. This system will allow for a 
more timely selection process based on better data.
    The Hub concept gains efficiencies in resource allocation, 
timeliness, quality and consistency through centralized management and 
assignment of work without regard to state borders or regional office 
jurisdiction.

    Question 3. In response to questions about VA's fiscal year 2012 
budget request, VA provided this information: ``The 2012 budget request 
does not include funds to develop an online training program for 
fiduciaries but we have conducted research to identify existing 
certification programs. We plan to develop a system in 2013.''
    a. Please provide an update on the status of this initiative.
    Response. In FY 2011, VA launched a Web site for fiduciaries, which 
provides information regarding their duties and responsibilities, 
references, forms, and frequently asked questions. The online training 
program for fiduciaries is still in the initial stages of development.

    b. Does the fiscal year 2013 budget request include any funding to 
advance this initiative?
    Response. Given the need to fund the development of a new 
information technology system for the fiduciary program and the 
development of standardized training for fiduciary personnel, there is 
no specific funding request for this initiative in the 2013 budget. 
However, P&F Service has adequate resources to continue working with 
VBA's Office of Employee Development and Training to plan the 
initiative and develop training content.

    Question 4. According to the fiscal year 2013 budget request, VA is 
requesting an increase in funding for Other Services in order to 
provide ``oversight services to ensure responsible management of 
fiduciary assets.''
    a. What level of funding is requested for this purpose?
    Response. VA requested $1.42 million for this purpose.

    b. Please provide additional detail as to what ``oversight 
services'' would be provided with this funding.
    Response. In reference to certification of a person for payment of 
benefits of a beneficiary, 38 U.S.C. Sec. 5507(b) states in part ``the 
Secretary shall request information concerning whether that person has 
been convicted of any offense under Federal or State law which resulted 
in imprisonment for more than one year.'' In accordance with this law, 
P&F Service entered into a contract with Accurint, which is a service 
of LexisNexis Risk Solutions, to provide instant criminal background 
checks on prospective fiduciaries. The use of this service will help VA 
disqualify individuals who do not meet the basic requirements for 
service as a fiduciary. The 2012 budget request only accounted for the 
use of Accurint background checks for six months. The amount requested 
for 2013 increased to fund the use of this program for a full year.
    Oversight services funding will also support training and 
conferences for employee development and support FBS replacement. 
Centralized training, along with position-specific conferences will 
provide all field examiners and legal instruments examiners with the 
knowledge and skills to better select and conduct oversight of 
fiduciaries. Additionally, this standardized training will provide 
fiduciary personnel with the tools necessary to identify and address 
any performance issues with fiduciaries earlier in the process. The 
combination of new systems and training will allow fiduciary program 
employees to be more efficient and effective in protecting VA's most 
vulnerable beneficiaries and their dependents.

    c. What metrics would be used to determine whether the oversight 
services are effective?
    Response. P&F Service has added additional metrics to a new tool 
used by fiduciary personnel to prepare field examination reports. This 
will allow us to better measure the performance of fiduciaries.
    Effectiveness of training will be evident in standard metrics for 
the program, to include:

    <bullet> Quality--The expected performance outcome for FY 2013 is 
90.0%. At the end of FY 2011, quality was 88.1%.
    <bullet> Timeliness of account audits--The expected performance 
outcome for FY 2013 is 94%. Timeliness in FY 2011 was 86%.
    <bullet> Timeliness of follow-up and initial field examinations--
The expected performance outcome for FY 2013 is 92%. In FY 2011, 82.5% 
of follow-up and approximately 78% of initial filed examinations were 
performed timely.
    <bullet> Receipt of accountings--The expected performance outcome 
is to obtain 95% of all accountings due before they mature to a 
seriously delinquent status, or 120 days past due. As of April 2012, 
92.3% of all accountings were received before the 120-day threshold.
Appeals Management Center
    Question 1. Since 2003, certain cases remanded by the Board have 
been handled at a centralized entity called the Appeals Management 
Center. In response to questions about the fiscal year 2012 budget 
request, VA indicated that $16.3 million was spent on the Appeals 
Management Center during fiscal year 2010, that VA expected to spend 
$18 million on the Appeals Management Center during fiscal year 2011, 
and that VA was requesting $18.3 million to spend on the Appeals 
Management Center during fiscal year 2012.
    a. During fiscal year 2011, how much was actually spent on the 
Appeals Management Center and what level of staffing did that funding 
support?
    Response. The Appeals Management Center (AMC) obligated $18.5 
million in FY 2011 which supported 190 FTE.

    b. During fiscal year 2012, how much is now expected to be spent on 
the Appeals Management Center and what level of staffing will that 
level of funding support?
    Response. The AMC is authorized to increase its staffing level to 
249 FTE in FY 2012. It is projected that the AMC will achieve a 
cumulative FTE average of 243 for the year, with total funding needs 
projected to be $20.5 million.

    c. In total, how much funding is requested for fiscal year 2013 for 
the Appeals Management Center and what level of staffing would that 
funding support?
    Response. In the FY 2013 request, VA estimated $21.5 million for 
the AMC to support 249 FTE.

    d. For fiscal year 2011, what were the key performance outcomes for 
the Appeals Management Center (in terms of timeliness, quality, input 
versus output, pending inventory)?
    Response. In FY 2011, the AMC exceeded several key performance 
indicators, including production and processing timeliness.

    <bullet> Timeliness: At the end of FY 2011, the AMC's average 
processing timeliness was 367.6 days, vs. a target of 380 days. This 
was a significant improvement over FY 2010 processing time of 428.2 
days.
    <bullet> Inventory/Output: In FY 2011, the AMC completed 18,212 
claims, which was an 11-percent increase over FY 2010. Production was 
only slightly below receipts of 18,844. Pending inventory at the end of 
FY 2011 was 20,281 vs. a beginning of year inventory of 19,649. The 
target inventory at the end of FY 2011 was 18,500.
    <bullet> Quality: The AMC ended FY 2011 with 74.5 percent quality 
vs. a target of 90.0 percent.

    To improve efficiencies, VBA has created an Appeals Design Team 
tasked with developing, testing, and evaluating improvements in the 
appeals process. The Design Team's recommendations are aimed at 
improving timeliness in each segment of the appeals process and making 
it more Veteran-centric, trust-earning, and consistent. Several of 
these recommendations were implemented as part of a pilot at the 
Houston RO on March 1, 2012. The recommendations are designed to reduce 
the appeals processing time at the RO level. It is anticipated that the 
remainder of FY 2012 and most of FY 2013 will be dedicated to the 
testing and national rollout of these recommendations before the 
overall impact can be seen on processing timeliness
    The Appeals Design Team has instituted in-process reviews and also 
revised a Quality Review Certification Worksheet designed to address 
the prior year's top 10 avoidable remand reasons. The Design Team will 
also hold breakout sessions at the Veterans Service Center Managers' 
and Directors' Conferences to get input and feedback from VBA managers 
and leadership. These measures will help to improve the overall quality 
of appeals processing and reduce avoidable remands.

    e. For fiscal years 2012 and 2013, what are the key performance 
targets for the Appeals Management Center?
    Response. For FY 2012, the AMC production target is 30,000 claims, 
almost double the FY 2011 target. The increased target reflects the 
addition of RVSRs, as well as current employees becoming more 
proficient in their positions through experience. The continued focus 
on internal training programs and the addition of resources are 
expected to increase both output and quality. The overall average days 
pending target was decreased to 180 days, and average processing days 
target was decreased to 270 days. Achieving these targets would 
represent significant performance improvement over FY 2011. The 
accuracy target remains at 90 percent, and is one of the key focuses of 
the AMC during FY 2012.
    FY 2013 targets will be formulated based on FY 2012 achievements, 
input from the AMC Director, and the Office of Field Operations.
Education
    Question 1. According to the fiscal year 2013 budget request, the 
discretionary request for Education programs includes $14.6 million for 
Other Services. Please provide a detailed itemized list of how the 
$14.6 million would be utilized during fiscal year 2013. To the extent 
any of the funds will be spent on contracts, please explain the nature 
of the contract and the expected outcomes.
    Response. The table below itemizes the $14.6 million for Other 
Services (contracts) in Education's discretionary request.

                Education Service 2013 President's Budget
                     Other Services Funding Request
------------------------------------------------------------------------

------------------------------------------------------------------------
Post-9/11 GI Bill Support..................................      $6.6M
Instructional Systems Development & Training...............       0.6M
Execution of Public Laws 101-237 & 105-368: Outreach              0.2M
 pamphlets and letters.....................................
Customer Satisfaction Surveys..............................       0.1M
State approving agency contract review.....................       0.1M
Management support.........................................       7.0M
                                                            ------------
    Total Other Services Funding Request...................     $14.6M
------------------------------------------------------------------------

    The $14.6 million budget request contains funding of $7.6 million 
for the following contracts:

    <bullet> Strategic management and oversight services and continued 
systems engineering support contract for the Post-9/11 GI Bill
    <bullet> Customer satisfaction surveys to measure claimants' 
satisfaction with the delivery of education benefits
    <bullet> Contract for the development of computer-based and 
instructor-led training materials for new employee training and 
refresher training
    <bullet> Execution of Public Laws 101-237 and 105-368 that includes 
outreach pamphlets and letters.

    The remaining $7 million is management support costs. Management 
support costs for all VBA programs are prorated across business lines 
based on direct program FTE. Over half of $7 million is Education 
Service's portion of essential contracts to internal and external 
customers for services such as security, mail, and background 
investigations. This includes the Department of Homeland Security, the 
Department of the Treasury, the National Archives and Records 
Administration, and several VA customers (Debt Management Center, 
Financial Services Center, etc.). The remaining funds are Education 
Service's portion of the Veterans Relationship Management initiative; 
VBA infrastructure investments, such as the collocation or relocation 
of facilities and associated equipment contract costs; and equipment 
operating, maintenance, and repair services contracts.

    Question 2. According to the fiscal year 2013 budget request, 
``[o]bligations for 2012 increase over the original budget estimate by 
$28.2 million to retain temporary GI Bill claims processors and to hire 
additional temporary claims processors, resulting in an increase of 435 
FTE.''
    a. How was that $28.2 million originally expected to be spent?
    Response. Public Law (P.L.) 111-377, the Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010, expanded the scope of 
educational benefits for Veterans thereby resulting in additional 
claims processing workload. $28.2 million was initially targeted for 
maintaining temporary FTE to address the workload increase from Public 
Law 111-377. These legislative changes prompted additional development 
modifications to automated processing in the Long-Term Solution (LTS) 
claims processing system. Additionally, the Veterans Retraining 
Assistance Program authorized by Title II of Public Law 112-56, the VOW 
to Hire Heroes Act of 2011, is expected to provide educational benefits 
to an additional 99,000 unique Veterans through March 31, 2014. 
Although additional funding was provided for Public Law 112-56, through 
the judicious management of hiring and attrition and redirecting 
management support FTE from the C&P program, VA was able to realign the 
resources necessary to retain the temporary GI Bill claims processors 
and add 110 additional term employees to address the workload 
increases.

    b. For how long will these temporary employees be retained by the 
Education Service?
    Response. VA estimates the temporary employees will be retained 
until early 2013.

    c. Once their terms are complete, does VA plan to transition some 
or all of these temporary employees into positions with other VA 
business lines?
    Response. VA anticipates that these temporary employees will only 
be retained until early 2013.

    Question 3. According to VA's Web site, individuals with questions 
about education benefits may call 1-888-GIBILL-1 but they should ``[b]e 
advised this line only accepts calls from 7:00 AM-7:00 PM central time 
Monday-Friday and you may experience long hold times.'' In addition, 
the fiscal year 2013 budget request reflects that, in fiscal year 2011, 
the abandoned call rate for the Education Call Center was 20%.
    a. Currently, how many employees work at the Education Call Center, 
what is the average hold time, and what is the abandoned call rate?
    Response. There are currently 302 employees at the Education Call 
Center (ECC). Performance is improving in FY 2012. For example, the 
average hold time for the month of April 2012 was 4:41 minutes. By 
contrast, the average time for FY 2012 through April is 10:51 minutes. 
The abandoned call rate for month of April 2012 is 11.7%, compared with 
25% for the fiscal year to date through April 2012.
    Callers may experience a wait time during peak volumes so VA 
implemented the Virtual Hold technology where the caller can leave 
their name and phone number and VA will return their call.

    b. If the fiscal year 2013 budget request is adopted, how many 
individuals would work at the Education Call Center during fiscal year 
2013?
    Response. We do not expect to change the 302 FTE at the ECC in FY 
2013.
    Since the ECC is co-located with the Muskogee, Oklahoma, Regional 
Processing Office (RPO), resources are shifted from the RPO to meet 
increased demands at the ECC when needed.
                         general administration
Office of the Secretary
    Question 1. Last year, VA was unable to provide the Committee with 
information concerning the percentage and number of contracts awarded 
by VA's Central Office to service-disabled veteran owned small 
businesses (SDVOSBs) and veteran owned small businesses (VOSBs). VA 
indicated that a data analysis of VA's service contracts was underway, 
preventing a complete response.
    a. Based on that data analysis, please provide the Committee with 
the percentage and number of contracts awarded by VA's Central Office 
to SDVOSBs and VOSBs.
    b. Please provide the Committee with details (type, amount, and 
purpose) of the current contracts awarded to SDVOSB/VOSBs by VA's 
Central Office. Also, please itemize this data by individual offices 
within VA's Central Office.
    Response. [These questions appear and were answered in the 
prehearing responses.]

    Question 2. In the last year, the VA Center for Veterans' 
Enterprise (CVE) has been working on eliminating the backlog of SDVOSBs 
and VOSBs awaiting certification of their statuses in order to begin 
bidding on VA set-aside contracts.
    a. How does CVE measure the effectiveness of its communications 
with SDVOSBs and VOSBs during the verification process?
    b. Please provide the Committee with the current number of 
companies awaiting verification and the current average time companies 
have been awaiting verification once all documents have been submitted 
and verified by CVE.
    Response. [These questions appear and were answered in the 
prehearing responses.]
    Question 3. CVE is part of VA's Office of Small and Disadvantaged 
Business Utilization (OSDBU), which is under the Office of the 
Secretary. Although OSDBU reports to the Secretary, funding for OSDBU 
and CVE is provided by VA's Supply Fund. Please provide the Committee 
with detailed itemized budgets for fiscal years 2010 through 2013. 
Please include individual budget lines, FTE (permanent and contract), 
and applicable justifications.
    VA Response. For the years FY 2010 and FY 2011, budget information 
for the two centers within OSDBU, the Center for Veterans Enterprise 
(CVE) and the Center for Small Business Utilization (CSBU), was 
consolidated. Therefore a separate budget for CVE alone is not 
available. The budget for the two centers was broken out in FY 2012 
under the new Executive Director. In lieu of the budget for FY 2010 and 
FY 2011, we are providing expenditures for CVE. Please see the attached 
imbedded spreadsheet.
    The increase in the CVE budget between FY 2011 and FY 2012 was due 
to a number of factors including:

    <bullet> Anticipated replacement of the current management 
information system (MIS);
    <bullet> Additional contracting staffing to accommodate the manual 
bypass procedures necessary until the replacement of the MIS; and
    <bullet> Additional capabilities for customer service, help desk 
and the Verification Assistance Program.

    Although the budget for FY 2012 is significantly higher, actual 
spending was far less than what was budgeted due to the fact that the 
replacement MIS will come in FY 2013.
    CVE has seen improvements in many of its operations including:

    <bullet> Average processing time on initial applications decreasing 
from over 100 days to 85 days as of June 2012 data;
    <bullet> Average processing time on requests for reconsideration 
decreasing from over 200 days to 73 days as of August 2012 data; and
    <bullet> Approval rate for initial applications and reverifications 
with a full document examination increasing from 31 percent at the end 
of FY 2011 to 59 percent as of September 2012 data.

    In June 2012, the Secretary directed that a Senior Executive Task 
Force be stood up to examine the Verification Program and make 
recommendations on various issues to include staffing and 
infrastructure. The FY 2013 budget is not finalized, pending the 
outcome of the Task Force recommendations.

          FY 2010 Thru FY 2012--Center for Veterans Enterprise
                           Prepared by: OSDBU
------------------------------------------------------------------------
                                 FY 2010         FY 2011
                               Expenditure     Expenditure     FY 2012
                                  Report         Report       CVE Budget
------------------------------------------------------------------------
Regular Pay.................  $1,026,989.53  $2,253,196.71    $2,485,129
Night differential..........          $0.00         $11.97            $0
Holiday pay.................        $366.56      $1,301.13            $0
Overtime....................     $49,761.02    $113,883.64      $272,833
Employee special pay........          $0.00          $0.00            $0
Terminal leave..............          $0.00      $6,336.00       $15,000
Incentive awrds cash/noncash     $25,064.00     $49,876.00            $0
Locality pay................    $239,948.19    $514,033.31            $0
Advanced fed employ health            $0.00         $86.39            $0
 FEHB.......................
Recoup advanced FEHB from     .............        ($86.39)           $0
 carriers...................
Regular benefits--BOC 12xx..    $352,680.18    $735,609.98      $663,230
                             -------------------------------------------
  Total regular pay and       $1,694,809.48  $3,674,248.74    $3,436,192
   benefits.................
                             -------------------------------------------
Travel--BOC 21xx............     $43,827.61          $0.00       $94,500
Real property rental--GSA--     $151,323.65          $0.00            $0
 BOC 23xx...................
Other printing &                  $1,555.84          $0.00            $0
 reproduction--BOC 24xx.....
Service agreements--BOC 25xx  .............  ..............  $20,691,150
Contractor support..........  $7,164,912.89  $7,320,308.53   $20,591,150
                                                                $100,000
Supplies--BOC 26xx..........     $14,944.72          $0.00       $40,000
Equipment--BOC 31xx.........    $171,193.42          $0.00       $40,000
                             -------------------------------------------
Grand total.................  $9,242,567.61  $10,994,557.27  $24,301,842

  Total Federal Government            20.1           22.0             19
   on board.................
  Total contractors on board          20.0           78.0            160
------------------------------------------------------------------------
 *Due to past OSDBU leadership decisions, FY 2010 and FY 2011 OSDBU
  budgets were not broken out by center.
**No final FY 2013 budget as explained in response.


    Question 4. According to the fiscal year 2013 budget proposal, 89 
FTE are requested for the Office of the Secretary. Please provide a 
list of what positions, including pay-grades, would be included in the 
Office of the Secretary and its subsidiary offices if the fiscal year 
2013 budget is approved.
    Response.

        1. Secretary of Veterans Affairs (PAS)
        2. Executive Assistant (GS-15)
        3. Staff Assistant (GS-13)
        4. Staff Assistant/Scheduler (GS-14)
        5. Deputy Secretary of Veterans Affairs (PAS)
        6. Special Assistant (Career GS-13)
        7. Staff Assistant (GS-11)
        8. Chief of Staff (Non-Career SES)
        9. Deputy Chief of Staff, Administration (Career SES)
        10. Executive Assistant (GS-15)
        11. Staff Assistant (GS-13)
        12. Senior Advisor, Strategy (Non-Career SES)
        13. Staff Assistant (GS-13)
        14. Senior Advisor (Career term SES)
        15. Senior Advisor/CTO (Non-Career SES)
        16. Senior Advisor, Budget (Non-Career SES)
        17. Senior Advisor Strategic Communications (Non-Career SES)
        18. Special Assistant, (Non-Career GS-13)
        19. White House Liaison (Non-Career GS-12)
        20. Special Assistant (GS-15)
        21. Staff Assistant/VSO Liaison (GS-13)
        22. Staff Assistant (GS-13)
        23. Ombudsman/NGO (GS-15)
        24. Special Assistant (GS-15)
        25. Special Assistant/Staff Coordinator (GS-9/11)
        26. Staff Coordinator (GS-14)
        27. Staff Coordinator (GS-14)
        28. Staff Coordinator, (GS-14)
        29. Program Management Officer (GS-15)
        30. Staff Assistant (GS-13)
        31. Special Assistant/Staff Coordinator (GS-9)
        32. H.R. Liaison/Staff Assistant (GS-14)
        33. Management Analyst (GS-13)
        34. Executive Secretariat (Career SES)
        35. Deputy Executive Secretariat (GS-15)
        36. Staff Assistant (GS-13)
        37. Executive Writer/Correspondence Analyst (GS-13)
        38. Executive Correspondence Analyst (GS-14)
        39. Executive Correspondence Analyst (GS-13)
        40. Executive Writer (GS-14)
        41. Executive Writer (GS-13)
        42. Correspondence Analyst (GS-13)
        43. Correspondence Analyst (GS-11)
        44. Program Specialist (GS-11)
        45. Program Support Assistant (GS-7)
        46. Program Support Assistant (GS-7)
    Subsidiary
            Center for Minority Veterans (7)
        47. Senior Program Analyst (GS-14)
        48. Program Analyst (GS-13)
        49. Program Support Assistant (GS-9)
        50. Director (Non-Career SES)
        51. Program Analyst (GS-13)
        52. Deputy Director, (GS-15)
        53. Program Analyst (GS-13)
            Center for Women Veterans (5)
        54. Senior Program Analyst (GS-14)
        55. Program Analyst (GS-13)
        56. Deputy Director (GS-15)
        57. Program Support Assistant (GS-9)
        58. Director (Non -Career SES)
            Office of Survivors Assistance (3)
        59. Director (GS-15)
        60. Program Analyst (GS-13)
        61. Staff Assistant (GS-9/11)
            Center for Faith Based & Neighborhood Partnerships (4)
        62. Program Specialist (GS-13)
        63. Deputy Director (GS-14)
        64. Director (Non-Career GS-15)
        65. Program Specialist (GS-9)
            Office of Employee Discrimination Complaint Adjudication 
                    (24)
        66. Secretary (GS-6)
        67. Associate Director (GS-15)
        68. Paralegal (GS-11)
        69. Attorney (GS-14)
        70. Intern, (GS-5)
        71. Attorney (GS-14)
        72. Attorney (GS-14)
        73. Attorney (GS-14)
        74. Attorney (GS-14)
        75. Administrative Officer (GS-12)
        76. Secretary (GS-6)
        77. Attorney (GS-13)
        78. Attorney (GS-14)
        79. Attorney (GS-14)
        80. Paralegal (GS-11)
        81. Intern, (GS-4)
        82. Attorney (GS-14)
        83. Secretary (GS-6)
        84. Attorney (GS-13)
        85. Attorney (GS-14)
        86. Attorney (GS-14)
        87. Attorney (GS-13)
        88. Attorney (GS-14)
        89. Director (Career SES)

    Question 5. The fiscal year 2013 budget proposal reflects that the 
Office of the Secretary now expects to expend $228,000 on Other 
Services during fiscal year 2012, which is 87% higher than the amount 
requested ($122,000). The Office of the Secretary requests $125,000 for 
Other Services for fiscal year 2013.
    a. Please identify any amounts included or excluded from those 
Other Services amounts that are attributable to reimbursements from 
other VA offices.
    Response. $37,000 (included) is attributable to reimbursements from 
other VA offices.

    b. Please provide an itemized list of how those funds are expected 
to be expended during fiscal year 2012.
    Response.



                                                               ($ in
                                                             thousands)

Reimbursement............................................        $37
Reception fund...........................................         15
Contracts (training, advisory committee stipends,                102
 outreach booth rentals).................................
Copier (CMV/CWV).........................................         20
OSVA Contracts (training, copiers, etc.).................         53
                                                          --------------
    Total................................................       $227

NOTE: Additional funds carried over from FY 2011 were used to address
  needed ``Other Services'' beyond the budget amount.

    c. Please provide an itemized list of how those funds are expected 
to be expended during fiscal year 2013.
    Response.



                                                               ($ in
                                                             thousands)

Reimbursement............................................        $37
Reception fund...........................................         15
Contracts (training, advisory committee stipends,                 33
 outreach booth rentals).................................
Copier (CMV/CWV).........................................         20
OSVA Contracts (training, copiers, etc.).................         20
                                                          --------------
    Total................................................       $125

Note: Additional funds carried over from FY 2012 will be used to address
  additional needed ``Other Services'' beyond the budget amount.


    Question 6. According to the fiscal year 2013 budget proposal, the 
Office of the Secretary now expects to expend $488,000 on travel during 
fiscal year 2012, which is 29% higher than the amount requested 
($379,000). For fiscal year 2013, $279,000 is requested for travel for 
this office.
    a. Please identify the reasons for the increase in travel spending 
during fiscal year 2012.
    Response. The original request of $379,000 was based on the 
expected budget authority for FY 2012. This original amount was found 
insufficient to meet the full range of critical travel requirements to 
support necessary site visits, meetings, training and other 
responsibilities throughout the fiscal year.

    b. Please explain what circumstances are expected in 2013 that will 
allow for lesser expenditures on travel.
    Response. The original request of $279,000 was based on the 
expected budget authority for FY 2013. VA will continue to seek 
opportunities to reduce travel and better leverage video-
teleconferences and other methods to reduce overall travel costs and 
requirements. Additional FY 2013 travel requirements may be met with 
reallocated General Administration funding.

    Question 7. According to the fiscal year 2013 budget proposal, the 
Office of the Secretary now expects to spend $217,000 on supplies and 
materials, which is 25% higher than the amount requested ($174,000). 
For fiscal year 2013, that office requests $100,000 for supplies and 
materials.
    a. Please provide an explanation of how these funds are expected to 
be expended during fiscal years 2012 and 2013.
    Response.



                                                               ($ in
                                                             thousands)

Fiscal Year 12
  Reimbursement..........................................        $43
  Copier/Equipment.......................................         20
  Supplies...............................................        129
  Publications...........................................         15
                                                          --------------
    Total................................................       $217
                                                          ==============
Fiscal Year 13
  Reimbursement..........................................        $43
  Copier/Equipment.......................................         10
  Supplies...............................................         36
  Subscriptions..........................................         11
                                                          --------------
    Total................................................       $100



    b. Please explain what circumstances are expected in 2013 that will 
allow for lesser expenditures on supplies and materials.
    Response. OSVA continues to carefully evaluate all purchases and 
spending related to supplies and materials to both minimize 
requirements and maximize savings. Reductions in supplies and 
subscriptions are planned. FY 2012 carryover funds may be available to 
address additional needed ``supplies and materials'' beyond the FY 2013 
budget amount.

    Question 8. The Office of Survivors Assistance is one special 
office under the Office of the Secretary. For fiscal year 2013, VA 
requests $552,000 for that office to support three employees.
    a. During fiscal year 2012, how much in total is currently expected 
to be expended with respect to the Office of Survivors Assistance?
    Response. The Office of Survivors Assistance expended $327,537for 
Fiscal 2012. OSA hired its Staff Assistant during the last month of the 
3rd Quarter (June 2012) and OSA did not attend all training/events 
planned due to cancellations by hosting agencies.

    b. For fiscal year 2013, please identify the pay-grades of the 
employees who are expected to work for the Office of Survivors 
Assistance.
    Response. For Fiscal Year 2013, the Office of Survivors Assistance 
will have the following pay grades of employees:

        GS--15 Director
        GS--13 Program Analyst
        GS 9/11--Staff Assistant

    Question 9. According to the budget request, the functions 
performed by the Office of Survivors Assistance include ``[a]dvocating 
for the needs of survivors in the policy and programmatic decisions of 
VA'' and ``[t]racking and recommending survivor legislative issues.''
    a. Please explain whether the Office of Survivors Assistance is 
currently performing these functions and, if so, how.
    Response. The Office of Survivor Assistance (OSA) advocates for the 
needs of survivors in the policy and programmatic decisions of VA by 
participating in all levels of senior leadership meetings such as the 
Executive Leadership Board meetings with the Secretary and Chief of 
Staff; Senior Management Council; Strategic Review Group; Special 
Programs Meetings; and Strategic Planning Efforts. OSA works very 
closely and collaboratively with other organizations regarding survivor 
issues and also participates in organizational meetings to provide 
information needed to make informed decisions by respective 
organizations.

    b. Please explain whether any changes will be made to the scope of 
activities carried out by the Office of Survivors Assistance during 
fiscal year 2013 and, if so, whether the budget request supports any 
such changes.
    Response. At the present time, there are no additional changes that 
will be made to the scope of activities carried out by the Office of 
Survivors Assistance during fiscal year 2013.

    c. Please explain what outcomes or performance metrics are used to 
gauge the effectiveness of the Office of Survivors Assistance.
    Response. OSA currently gauges its effectiveness by internal and 
external collaborative outreach efforts with survivor groups, the 
Department of Defense, Federal, State and local agencies as well as 
Veterans Service Organizations, faith-based and community 
organizations, hospice and palliative care industries along with the 
funeral industry, and other stakeholder groups to promote the awareness 
of benefits and services that Survivors may be eligible to receive. 
Outreach efforts include conducting presentations, serving as panel 
members, facilitating and coordinating events; conducting conference 
calls and hosting exhibit booths. OSA also measures effectiveness by 
the number of persons accessing its Web site and electronic mailbox.
Board of Veterans' Appeals
    Question 1. Last year, VA was unable to provide the Committee with 
information concerning the percentage and number of contracts awarded 
by VA's Central Office to service-disabled veteran owned small 
businesses (SDVOSBs) and veteran owned small businesses (VOSBs). VA 
indicated that a data analysis of VA's service contracts was underway, 
preventing a complete response.
    a. Based on that data analysis, please provide the Committee with 
the percentage and number of contracts awarded by VA's Central Office 
to SDVOSBs and VOSBs.
    b. Please provide the Committee with details (type, amount, and 
purpose) of the current contracts awarded to SDVOSB/VOSBs by VA's 
Central Office. Also, please itemize this data by individual offices 
within VA's Central Office.
    Response. [These questions appear and were answered in the 
prehearing responses.]

    Question 2. The fiscal year 2013 budget request includes $74 
million to support 527 employees for the Board.
    a. Please provide a breakdown of the positions that would be filled 
in fiscal year 2013 and the number of staff for each type of position.
    Response. The breakdown of the Board's 527 FTE is as follows: 4 
executives; 64 Board members; 329 attorneys; and 130 administrative 
staff.

    b. Please identify how many members of the Board (or veterans' law 
judges) currently are employed at the Board?
    Response. There are 58 members of the Board currently employed at 
the Board, with 5 pending nominations awaiting Presidential approval 
and one vacancy.

    c. Please provide a breakdown of the number of Board members who 
were existing Board employees when selected to become a Board member, 
the percentage who were selected from other VA offices, and the 
percentage who were selected from outside of VA.
    Response. Currently, 56 Board members were existing Board employees 
when selected to become a Board member (97 percent). Two Board members 
were selected from another VA office (3 percent).

    Question 3. According to the fiscal year 2013 budget proposal, the 
average appeals resolution time in fiscal year 2010 was 656 days. 
According to the fiscal year 2010 annual report provided by the 
Chairman of the Board, ``[t]he average length of time between filing 
the appeal and the Board's disposition was 886 days'' in fiscal year 
2010. Also, the report from the Chairman reflects that it took on 
average 243 days between filing of a Notice of Disagreement to issuing 
a Statement of the Case, 42 days from the issuance of the Statement of 
the Case to VA's receipt of a Substantive Appeal, 609 days from receipt 
of the Substantive Appeal to certification of the appeal to the Board, 
and 212 days from the Board's receipt of a certified appeal to the 
Board's issuance of a decision, which would total to 1,106 days.
    a. Please reconcile these statistics for fiscal year 2010, 
including what specific time periods are included in or excluded from 
each total.
    Response. The appeals process at VA is bifurcated, with most steps 
for processing an appeal occurring at the Veterans Benefits 
Administration (VBA) regional office level. If the matter is not 
resolved to the Veteran's satisfaction, the appeal may be transferred 
to the Board of Veterans' Appeals (BVA or Board) for a final agency 
decision. The Appeals Resolution Time (ART) is a joint measure (i.e. 
VBA/BVA) that represents the average length of time it takes the 
Department to process an appeal from the date a claimant files a Notice 
of Disagreement (NOD) until a case is finally resolved, whether the 
appeal is resolved at the regional office level or at the Board. Thus, 
the ART includes many appeals that are resolved and never come to the 
Board for decision. In FY 2010, the average ART for resolution of 
appeals at any and all different levels of the appeals process, 
including appeals that resolve at the earliest level after the NOD, was 
656 days.
    The BVA Report of the Chairman is similar to the ART in some 
aspects, but quite different in other aspects. Like the ART, the Report 
of the Chairman measures the average time intervals for particular 
portions of the appeals process, but unlike the ART, the BVA Report of 
the Chairman does not measure how many appeals were resolved at each 
stage of the appeals process. Rather, the BVA Report of the Chairman 
considers all Board dispositions, to include remands, and focuses on 
discrete time intervals during the process. Additionally, the 
categories of time intervals measured by the BVA Report of the Chairman 
are slightly different than those intervals measured by the ART.
    The BVA Report of the Chairman sets forth five separate time 
intervals in the appeals process, and reports the average elapsed 
processing time for each interval. This is calculated by starting with 
a particular action during the fiscal year, looking backwards to the 
preceding action, and averaging the number of days for processing. For 
example, for Statements of the Case (SOC) issued in FY 2010, it took an 
average of 243 days from the receipt of the NOD for VA to issue an SOC. 
Likewise, for all Substantive Appeals received by the Department in FY 
2010, the data shows that the Substantive Appeals were received in an 
average of 42 days from the date that the SOC was issued. Similarly, 
for all appeals certified to the Board in FY 2010, the data shows that 
appeals were certified in an average of 609 days from the date that the 
Substantive Appeal was received by the Department. As these reported 
times are average times for specific parts of the appeals process, they 
should not be added to determine the average total time to resolve an 
appeal. Each time interval may contain a different universe of appeals 
(as some appeals are resolved at each stage and drop out).
    The 886 number referenced in the question (and appearing at the top 
of page 19 in the BVA Report of the Chairman for 2010) shows the 
average length of time between filing the appeal (the Substantive 
Appeal, or VA Form 9) and the Board disposition. The Board is required 
by statute to report this time period. Note that this figure is not the 
same as the ART, as it does not include the time from the filing of a 
Notice of Disagreement, which is a significant period of time preceding 
the VA Form 9, and which is reflected in the calculation for the ART. 
Also note that the BVA Report of the Chairman reports time to all Board 
dispositions (allowances, denials, remands, dismissals), whereas the 
ART measures time to a final resolution (allowance, denial, dismissal). 
In other words, the overall time listed in the BVA Report of the 
Chairman, FY 2010 (886 days) is quite different from the ART (656 days) 
since it measures time to a Board disposition (including remands), 
whereas the ART measures time periods to any final resolution of 
appeals within the Department as a whole, at any point following the 
NOD.

    b. For fiscal years 2011, 2012, and 2013, what time periods are 
included in or excluded from the appeals resolution times reflected in 
the fiscal year 2013 budget request?
    Response. As explained in Question 3a, the ART is a joint measure 
between VBA and BVA that represents the average length of time it takes 
the Department to process an appeal from the date a claimant files an 
NOD until a case is finally resolved, whether the appeal is resolved at 
the regional office level or at the Board. If the Board remands a case, 
the clock continues to tick in the ART for that appeal, as it has not 
yet been finally resolved. The method for calculating the ART has not 
changed over the subject years.

    Question 4. According to the fiscal year 2013 budget proposal, the 
average appeals resolution time increased from 645 days in 2008 to 747 
days in fiscal year 2011, but is expected to decrease to 675 days in 
fiscal year 2012 and 650 days in fiscal year 2013.
    a. What factors accounted for the 102 day decline in timeliness 
between 2008 and 2011?
    Response. As explained above, the ART is a joint measure between 
VBA and BVA that represents the average length of time it takes the 
Department to process an appeal from the date a claimant files an NOD 
until a case is finally resolved, whether the appeal is resolved at the 
regional office level or at the Board.
    A contributing factor to VBA delays in the appeals process in 
recent years is due in large part to the readjudication of previously 
denied claims for the new Agent Orange presumptive conditions 
(Parkinson's disease, ischemic heart disease, and b-cell leukemias) 
required under U.S. Court of Appeals, Ninth Circuit decision, Nehmer v. 
the Department of Veterans Affairs (VA). VBA claims inventory increased 
more than the appeals inventory for the period. In the beginning of FY 
2010, VBA's thirteen resource centers began preparing to review and 
readjudicate nearly 100,000 claims resulting from the Nehmer 
litigation. Over the course of FY 2011 and FY 2012, VBA has adjudicated 
nearly 248,000 Agent Orange claims for the new presumptive conditions 
and provided over $3.7 billion in retroactive benefits to over 132,000 
Vietnam Veterans and their survivors. The reallocation of resources 
necessitated by this dramatic workload increase resulted in a 
significant loss in claims processing capacity and left fewer resources 
to process the regular rating workload, including appeals. This 
included 1,100 Veterans Service Representatives (VSRs) and almost 1,200 
Rating VSRs (RVSRs) working Agent Orange claims in FY 2011. Because of 
this, the current VBA appeals workload is not a true indication of 
either past or future workload performance.
    With respect to the Board's timeliness, an appropriate measure to 
examine is the time interval from the receipt of the certified appeal 
at the Board to the issuance of the BVA decision (regardless of the 
disposition--allowances, denials, remands, dismissals). This 
measurement, which is reported in the Board's annual Report of the 
Chairman, represents the total time that the Board was in physical 
possession of the appeal and able to work on it (as opposed to the time 
periods prior to certification and receipt, at which point the appeal 
is under the control of VBA).
    The main factor that contributed to delays at the Board is the 
direct correlation between the number of full time equivalents (FTE) 
BVA has on board and the number of decisions it is able to issue. BVA 
is a lean organization with a singular mission--to decide appeals on 
behalf of the Secretary. By statute, and with few exceptions, the Board 
decides appeals in docket order. Thus, when there are fewer FTE, the 
Board is able to produce fewer decisions, which in turn causes delay 
for newer appeals, thereby increasing the average time it takes for the 
disposition of all appeals. BVA constantly looks for business process 
re-engineering as a way to increase the number of decisions that can be 
made. In addition, VA has proposed a number of legislative proposals to 
the Congress which would also assist BVA in carrying out its mission.

    b. What factors will allow a reduction in timeliness during fiscal 
years 2012 and 2013?
    Response. Factors that will impact timeliness in appeals both at 
VBA and the Board include the Department of Defense's planned draw down 
of Servicemembers and the VOW to Hire Heroes Act of 2011, which 
mandates participation in the Transition Assistance Program upon 
separation from service. This very beneficial program will likely 
result in an increase in compensation claims receipts at VBA. As BVA 
historically gets approximately 5 percent of all VBA receipts, an 
increase in workload at VBA necessarily translates into an increased 
workload at BVA.

    Question 5. According to the fiscal year 2013 budget request, it 
appears that the Board expects its backlog of appeals to grow from 
approximately 20,000 appeals in fiscal year 2011 to over 65,600 appeals 
in fiscal year 2013.
    a. How many appeals does the Board expect to receive in fiscal 
years 2012 and 2013?
    Response. BVA expects to receive 66,600 appeals in FY 2012, and 
73,924 appeals in FY 2013. Historical trends consistently show that BVA 
receives an average of 5 percent of all VBA claims receipts. The Board 
projected these receipts accordingly.

    b. How many decisions does the Board expect to issue during fiscal 
year 2012?
    Response. Based on the number of FTE currently sustainable on the 
FY 2012 budget, BVA expects to issue 47,600 decisions.

    c. With the requested level of funding, how many decisions does the 
Board expect to issue during fiscal year 2013?
    Response. As the level of funding for FY 2013 has remained the same 
as that for FY 2012, BVA expects to issue 47,600 decisions.

    Question 6. In response to questions about the fiscal year 2012 
budget request, VA indicated that the Board expected to spend $1 
million on travel in fiscal year 2011 and $1.1 million on travel in 
fiscal year 2012 in order to conduct in-person hearings at field 
offices.
    a. During fiscal year 2011, how many in-person hearings were 
conducted at field offices and how much did the Board spend on travel 
for those hearings?
    Response. In FY 2011, the Board conducted 9,747 hearings in the 
field (or ``Travel Board hearings,'' expending $746,753 (which includes 
the cost of travel, lodging, and per diem).

    b. During fiscal year 2012, how many travel hearings does the Board 
expect to conduct and how much in total does the Board now expect to 
spend on those travel hearings?
    Response. Pursuant to 38 U.S.C. Sec. 7107, appellants have a right 
to ask for a hearing before the Board to be held at the Board's 
principal location in Washington, DC, or at a regional office of the 
Department. While BVA affords the appellant an opportunity to 
participate in a hearing through electronic means, the appellant can 
decline such a hearing, while maintaining his or her right to an in-
person hearing. Therefore, BVA Judges must by law travel to the field 
in cases in which the appellant has requested an in-person hearing. VA 
has proposed legislation to allow BVA wider use of video conferencing 
capabilities in conducting hearings. The potential benefits include 
serving more Veterans, reducing the waiting time for a hearing on 
appeal, and increased productivity by the Board in issuing final 
decisions on appeal. Additionally, fewer funds would be required for 
travel.
    In FY 2012, the Board expects to conduct 7,150 hearings in the 
field, expending $836,526. Notably, at the time of the planning of the 
FY 2012 budget, BVA expected to conduct 9,000 field hearings, with the 
planned expense of $1,054,000, as it intended to maintain the level of 
Travel Board hearings conducted in FY 2011. However, since that time, 
BVA has altered its planning in order to gain efficiencies for Veterans 
Law Judges and realize cost avoidance in travel dollars. Specifically, 
for FY 2012, BVA decreased the number of field hearings by 25 percent, 
to be made up by an increase in video teleconference hearings.

    c. During fiscal year 2013, how many travel hearings does the Board 
plan to conduct and what level of funding is requested for that 
purpose?
    Response. In FY 2013, the Board expects to conduct 5,070 hearings 
in the field, with funding requested for $900,000. This represents an 
additional 25 percent decrease in field hearings, in favor of an 
increase in video teleconference hearings.

    Question 7. According to the fiscal year 2013 budget request, VA 
now expects to spend $2.6 million on Other Services during fiscal year 
2012, which is 29% higher than the amount requested for fiscal year 
2012, and the Board is requesting $2 million for Other Services for 
fiscal year 2013.
    a. Please explain what led to the expected increase in Other 
Services during fiscal year 2012.
    Response. In FY 2011, BVA set aside $588,000, in order to fund a 
customer satisfaction survey contract in conjunction with VBA. That 
contract was delayed in FY 2011, and ultimately was not let during the 
fiscal year. VA's appropriations language allowed BVA to carry over 
$500,000 to fund such a contract in FY 2012. Therefore, the current FY 
2012 plan for Other Services is higher than initially indicated, by 
$500,000.

    b. Please provide an itemized list of how these funds are expected 
to be spent during fiscal year 2012.
    Response. The itemized list is as follows:

        Customer Service Survey:  $500,000

        Franchise Fund (Interagency agreements):  $268,755
        Dept of the Army--$3,792
        OGC (Cyberfeds, & Hein Online)--$3,930
        Office & Resolution Management--$53,000
        Human Resources & Admin (HR&A, HCIP)--$131,000
        Records Center and Vault--$168
        Security & Investment Center--$1,000
        Defense Finance & Accounting--$47,285
        Financial Service Center--$28,580

        Contracts:  $1,746,245
        Transcription Services--$952,869
        West Legal Database--$391,564
        Shredding Services--$23,725
        Promisel & Korn Data System--$378,087

    c. Please provide an itemized list of how these funds would be 
spent during fiscal year 2013.
    Response. The itemized list is as follows:

        Franchise Fund (Interagency agreements):  $272,250
        Dept of the Army--$4,000
        OGC (Cyberfeds, & Hein Online)--$4,500
        Office & Resolution Management--$54,000
        Human Resources & Admin (HR&A, HCIP)--$131,000
        Records Center and Vault--$170.00
        Security & Investment Center--$1,000
        Defense Finance & Accounting--$49,000
        Financial Service Center--$28,580

        Contracts:  $1,776,000
        Transcription Services--$960,000
        West Legal Database--$392,000
        Shredding Services--$24,000
        Promisel & Korn Data System--$400,000
Office of General Counsel
    Question 1. According to the fiscal years 2013 budget request, VA 
is seeking total resources of $103.9 million for the Office of General 
Counsel and 729 FTE.
    a. Please provide a list of the positions that would be filled in 
fiscal year 2013 with that level of funding and the number of staff for 
each position.
    Response. OGC's request will sustain current (FY 2012) staffing 
levels of approximately 480 attorneys, 90 paralegals, and 155 support 
staff (including legal assistants, data specialists, clerical staff, 
and budget and H.R. support). These personnel are distributed across 
OGC's 22 Regional Counsel Offices in the field and eight subject-
matter-specific staff groups in VA Headquarters. OGC does not 
anticipate creating any new positions in FY 2013, but may fill behind 
existing employees who retire or resign.
    OGC's current staffing, which is expected to continue without 
significant modification into FY 2013, is as follows (Note: Information 
current as of April 4, 2012. Includes FTE on board and vacancies 
approved to fill. Fractions indicate part-time personnel. The VACO 
Staff Groups and OGC Front Office are treated as a single unit for 
budget allocation purposes):


----------------------------------------------------------------------------------------------------------------
                                                                                                       FY 2012
                      Headquarters                        Attorneys  Paralegals   Support    Total    Budget ($
                                                                                              FTE     thousands)
----------------------------------------------------------------------------------------------------------------
Front Office: GC, Deputy GC, and support................          3           0         2         5
Staff Group 1: Torts, Loan Guaranty,....................         17           0         3        20
Staff Group 2: Compensation & Pension Benefits,                  15           1         5        21
 Insurance, Regulatory Law, Cemetery Law................
Staff Group 3: HR/Labor Relations Law, Ethics, Health            24           3         1        28
 Care Law...............................................
Staff Group 4: EEO, Information Release and Security,            20           0         3        23
 Appropriations.........................................
Staff Group 5: Procurement Law..........................         51           0         5        56
Staff Group 6: Management & Operations..................          5           2        33        40
Staff Group 7: Veterans Claims Litigation...............         73           5        33       111
02REG: Regulations......................................          2           0         8        10
                                                         -------------------------------------------------------
  Total.................................................        210          11        93       314      $48,369
                                                         -------------------------------------------------------
Region 1: CT, MA, ME, NH, RI............................         15           1         5        21       $2,618
Region 2: NYC, part of NJ...............................         15           1         4        20        2,884
Region 3: MD, DC, part of WV............................          9           3         2        14        2,078
Region 4: PA, DE, part of NJ............................         12           5         1        18        2,395
Region 5: GA, SC........................................         13           0         4        17        2,207
Region 6: FL, PR........................................         18           9         3        30        3,474
Region 7: OH, part of WV................................         13           4         4        21        2,623
Region 8: TN, AR........................................         11           5         1        17        2,209
Region 9: MS, AL........................................         10           2         3        15        1,838
Region 10: IL, IA.......................................         14           2         4        20        2,699
Region 11: MI, WI.......................................         13           3         0        16        2,108
Region 12: MO, KS, NE...................................         14           5         4        23        2,713
Region 13: TX (Western, Northern, Central), OK..........         13           5         6        24        2,860
Region 14: TX (Southern), LA............................         15           4         4        23        2,972
Region 15: MN, ND, SD...................................          7           1         2        10        1,417
Region 16: CO, MT, UT, WY...............................         10           2         0        12        1,788
Regions 17/18: CA, HI, Pacific Islands, part of NV......         24           8         4        36        5,325
Region 19: AZ, part of NV...............................         12           3         2        17        2,159
Region 20: OR, WA, ID, AK...............................         12           4         2        18        2,253
Region 21: upstate NY, VT...............................         10           4         1        15        1,792
Region 22: IN, KY.......................................          8           2         1        11        1,319
Region 23: NC, VA.......................................         11           3         3        17        2,094
                                                         -------------------------------------------------------
  Region Total..........................................        279          76        60       415
                                                         -------------------------------------------------------
    OGC-WIDE TOTALS.....................................        489          87       150       729     $102,194
----------------------------------------------------------------------------------------------------------------

    b. For each regional counsel office, please identify the number and 
type of staff that would be located at the office during fiscal year 
2013 and a description of the functions performed by that office.
    Response. As noted above, OGC's FY 2013 funding request will 
sustain FY 2012 staffing levels and mix at each Region.
    With respect to the functions performed by each office, OGC's 22 
Regional Counsel offices provide legal service and support to VA field 
facilities (Medical Centers, Regional Benefits Offices, National 
Cemeteries, and the like) within their geographic areas of 
jurisdiction. The various Regional Counsel offices vary in terms of 
staff size, number of clients served, and size of their geographic 
territory, but all Regional Counsel offices provide the same core menu 
of legal services to the VA facilities within their respective 
geographic areas, e.g., employment law advice and representation, 
administrative tort claim adjudication, information law counseling, 
review of contracts and other business law services.
    c. If the fiscal year 2013 budget request is adopted, what would be 
the expected total budget for each regional counsel office?
    Response. For FY 2013, as in years past, OGC will allocate 
resources, including personnel, to each Regional Counsel office based 
on the specific case load that Region is expected to bear. Over 94 
percent of OGC's budget--including the budgets allocated to each 
Regional Counsel office--is devoted to payroll. For that reason, the 
Regions' individual budgets fluctuate as payroll rises (e.g. as 
vacancies are filled or employees are promoted), and falls (e.g. as 
employees retire or resign). Some Regions also require more travel 
funding than others to facilitate attorney travel to remote clients 
(such as Region 18's client facilities in the Philippines and Guam) or 
supervisor travel to remote subordinates (such as Region 6's out-
stationed staff in Puerto Rico).
    OGC estimates that the Regions' FY 2013 budgets will be 
approximately equivalent to the amounts allocated to each Region in FY 
2012. (See response to question 1.a. above.)

    Question 2. According to the fiscal year 2013 budget request, VA 
Office of General Counsel now expects to spend $1.7 million on 
equipment during fiscal year 2012, which is 38% higher that requested 
for fiscal year 2012 ($1.2 million), and that office requests $525,000 
for equipment in fiscal year 2013.
    a. Please explain what led to the expected increase in equipment 
expenditures during fiscal year 2012 and how that funding ($465,000) 
was originally expected to be spent.
    Response. The Office of General Counsel was going to lease 
equipment over a 5 year period beginning in fiscal year 2012 but 
decided to purchase the equipment in fiscal year 2012. The funds were 
transferred from our Travel and Rents, Communications and Utility 
accounts to cover the additional expense.
    b. Please provide an explanation of how these funds are expected to 
be expended during fiscal year 2013.
    Response. The Office of General Counsel will replace all outdated 
equipment--Fax machines, date stamp machines, dictation equipment that 
has exceeded its life expectancy. We will also begin replacing outdated 
furniture (i.e. more than 10 years old).

    Question 3. According to the fiscal year 2013 budget request, VA 
Office of General Counsel now expects to spend $1.3 million on Other 
Services during fiscal year 2012, which is 57% higher than the amount 
requested for fiscal year 2012 ($838,000), and that office is 
requesting $1.1million for Other services in fiscal year 2013.
    a. Please explain what led to the expected increase in Other 
Services during fiscal year 2012.
    Response. Our Other Services account increased by $476,000 since 
our Congressional submission for the following reasons:


------------------------------------------------------------------------
                                    Amount of
              Account                increase     Reason for Increase
------------------------------------------------------------------------
Repair of furniture and equipment.    $15,000  To extend the useful life
                                                of furniture and
                                                postpone the need to
                                                purchase new items
------------------------------------------------------------------------
Training..........................   $234,000  To maintain skills and
                                                ensure familiarity with
                                                new developments
------------------------------------------------------------------------
Relocation Services...............   $150,000  To pay relocation
                                                expenses regarding the
                                                replacement of two
                                                Regional Counsels
                                                positions vacated by
                                                retirements
------------------------------------------------------------------------
Contracts.........................    $77,000  Short-term personnel
                                                support pending
                                                recruitment of permanent
                                                replacements
------------------------------------------------------------------------
  Total...........................   $476,000
------------------------------------------------------------------------

    b. Please provide an itemized list of how these funds are expected 
to be spent during fiscal year 2012
    Response. The Office of General Counsel plans to spend its Other 
Services funding in FY 2012 as follows:


------------------------------------------------------------------------
             Account                 Amount             Purpose
------------------------------------------------------------------------
Repair of furniture and equipment     $52,000  To extend the useful life
                                                of furniture and
                                                postpone the need to
                                                purchase new items
------------------------------------------------------------------------
Security.........................     $10,000  Cost for security at
                                                leased space
------------------------------------------------------------------------
Human Capital Investment Plan        $178,000  Pro-rata charge for VA's
 (HCIP).                                        online training system
------------------------------------------------------------------------
Security & Investigation.........     $15,000  Cost for background
                                                investigation and new ID
                                                badges
------------------------------------------------------------------------
Office of Resolution Management..     $38,000  Cost for internal
                                                mediation
------------------------------------------------------------------------
Financial Service Center.........     $35,000  Cost to process payments
------------------------------------------------------------------------
Record Center & Vault............      $2,000  Storage of files
------------------------------------------------------------------------
Office move......................     $20,000  Relocation of the Roanoke
                                                area office
------------------------------------------------------------------------
Furniture moving.................     $10,000  Reconfiguring cubicles
                                                and offices
------------------------------------------------------------------------
Notaries.........................      $2,500  Notary renewals
------------------------------------------------------------------------
Tort training video..............     $14,000  Tort training video
------------------------------------------------------------------------
Award event expenses.............     $10,000  Award event expenses
------------------------------------------------------------------------
Shredding contracts..............      $8,000  To ensure the proper
                                                destruction of retired
                                                paper records
------------------------------------------------------------------------
Meeting room rentals.............     $32,500  For approved training
                                                events
------------------------------------------------------------------------
Case related expenses............     $20,000  Transcribers, filing
                                                fees, mediators
------------------------------------------------------------------------
Contract labor...................     $77,000  Short-term personnel
                                                support pending
                                                recruitment of permanent
                                                replacements
------------------------------------------------------------------------
Defense Finance & Accounting          $92,000  Payroll processing
 Service (DFAS).                                expense
------------------------------------------------------------------------
DA (Army) Financial Disclosure...     $10,000  Cost to process financial
                                                disclosure statements
------------------------------------------------------------------------
Training\1\......................    $524,000  To maintain skills and
                                                ensure familiarity with
                                                new developments
------------------------------------------------------------------------
Relocation Expenses..............    $150,000  Relocating 2 Regional
                                                Counsels--Region 15 & 20
------------------------------------------------------------------------
  Total..........................  $1,300,000
------------------------------------------------------------------------
\1\ As OGC's staffing remains flat while workload continues to grow, it
  becomes critical that all OGC employees are fully trained to carry out
  their assigned duties as efficiently and effectively as possible.

    c. Please prove an itemized list of how these funds would be spent 
during fiscal year 2013.
    Response. The Office of General Counsel plans to spend their Other 
Services funding in FY 2013 as follows:


------------------------------------------------------------------------
                                    Amount of
             Account                increase            Purpose
------------------------------------------------------------------------
Repair of furniture and equipment     $57,000  To extend the useful life
                                                of furniture and
                                                postpone the need to
                                                purchase new items
------------------------------------------------------------------------
Security.........................     $26,000  Cost for security at
                                                leased space
------------------------------------------------------------------------
Human Capital Investment Plan        $178,000  Pro-rata charge for VA's
 (HCIP).                                        online training system
------------------------------------------------------------------------
Security & Investigation.........     $15,000  Cost for background
                                                investigation and new ID
                                                badges
------------------------------------------------------------------------
Office of Resolution Management..    $121,000  Pro-rata charge to fund
                                                this VA office
------------------------------------------------------------------------
Financial Service Center.........     $35,000  Cost to process payments
------------------------------------------------------------------------
Record Center & Vault............      $2,000  Storage of files
------------------------------------------------------------------------
Furniture moving.................     $10,000  Reconfiguring cubicles
                                                and offices
------------------------------------------------------------------------
Notaries.........................      $2,500  Notary renewals
------------------------------------------------------------------------
Award event expenses.............     $10,000  Award event expenses
------------------------------------------------------------------------
Shredding contracts..............      $8,000  To ensure the proper
                                                destruction of retired
                                                paper records
------------------------------------------------------------------------
Case related expenses............     $20,000  Transcribers, filing
                                                fees, mediators
------------------------------------------------------------------------
Meeting room rentals.............     $39,500  For approved training
                                                events
------------------------------------------------------------------------
Cleaning service.................      $9,000  Region 3
------------------------------------------------------------------------
Defense Finance & Accounting          $94,000  Payroll processing
 Service (DFAS).                                expense
------------------------------------------------------------------------
DA (Army) Financial Disclosure...     $10,000  Cost to process financial
                                                disclosure statements
------------------------------------------------------------------------
Training.........................    $313,000  To maintain skills and
                                                ensure familiarity with
                                                new developments
------------------------------------------------------------------------
Relocation Expenses..............    $150,000  To pay relocation costs
                                                to replace up to two
                                                retiring Regional
                                                Counsel/Assistant
                                                General Counsel
------------------------------------------------------------------------
  Total..........................  $1,100,000
------------------------------------------------------------------------


    Question 4. Within the Office of General Counsel, Professional 
Staff Group VII represents VA before the U.S. Court of Appeals for 
Veterans Claims (Veterans Court).
    a. Currently, how many employees are assigned to Professional Staff 
Group VII and what is the average number of active cases per attorney?
    Response. As of April 30, 2012, there were 108 FTE assigned to 
Professional Staff Group VII (PSG VII). That total included two 
attorneys who are indefinitely recalled to active duty with the Navy 
and Air Force, meaning that the positions are carried on PSG VII's 
books, but the employees are working elsewhere. In addition, a third 
PSG VII attorney is detailed for twelve months to an Ethics Pilot 
Project elsewhere in the Office of the General Counsel.
    As of April 30, 2012, PSG VII had 23 vacancies, comprised of 14 
support staff and 9 attorney positions. At that time, the average 
caseload was approximately 42 active cases per attorney. The term 
``active case'' signifies a case in which the Secretary has yet to file 
his brief or an equivalent dispositive pleading.

    b. For fiscal year 2013, what level of funding is requested to 
support Professional Staff Group VII and how many employees would that 
level of funding support?
    Response. In FY 2013 budget requests an FTE level of 111.25 and a 
funding level of $13,777,534 for PSG VII.

    c. Please provide a list of the positions that would be filled with 
that level of funding.
    Response.


------------------------------------------------------------------------
                         Position Title                           Number
------------------------------------------------------------------------
Supervisory Program Specialist.................................     1
Attorney.......................................................    73.25
Paralegal Specialist...........................................     5
Legal Assistants...............................................    16
Program Service Specialist.....................................     1
Program Support Assistants.....................................    13
Program Analyst................................................     2
                                                                --------
  Total........................................................   111.25
------------------------------------------------------------------------


    d. With the requested funding level, what would be the expected 
average number of active cases per attorney during fiscal year 2013?
    Response. In fiscal year 2013 we anticipate 40 cases per attorney.

    e. How many motions for extension of time did Professional Staff 
Group VII file during fiscal year 2011?
    Response. In FY 2011, PSG VII filed 1,786 extension motions, an 
average of 149 extension motions per month. PSG VII met approximately 
92 percent of its deadlines without seeking an extension (or further 
extension). By comparison, in FY 2011 appellants and their 
representatives met 90 percent of their deadlines without an extension.

    f. How many motions for extension of time has Professional Staff 
Group VII filed to date during fiscal year 2012?
    Response. As of March 31, 2012, PSG VII had filed a total of 11,127 
pleadings during FY 2012, of which 1,143 represented extension motions. 
Thus, at this point in the Fiscal Year, PSG VII is averaging 1,855 
pleadings per month, and 191 extension motions per month.

    Question 5. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, VA ``is making substantial progress in 
completing a monumental, multi-year project to completely reorganize 
and rewrite all of VA's compensation and pension regulations'' and 
expects the final regulations ``to be completed and published in 
2012.''
    a. Is this project still expected to be completed during 2012?
    Response. The fundamental work to reorganize and rewrite VA's 
compensation and pension regulations will be completed in 2012. A final 
internal coordination review must still be accomplished, after which VA 
will then finalize its plan to secure comments through a public review 
and comment phase. As a result, the regulations will not be completed 
and published in 2012.

    b. Is this project still expected to be completed during 2012?
    Response. The Department has frequently reviewed the various 
options for deploying the product of this major reorganization and 
rewriting initiative. We have determined that a more deliberate review 
of most, or all, of the rewrite project package, vice multiple partial 
reviews of package components, is likely to produce the most effective 
understanding and acceptance of this work. While this adds time to the 
implementation of the new regulations, it also provides a more 
comprehensive and structured review opportunity to stakeholders.

    c. Please provide an estimate of the resources needed to complete 
this project.
    Response. The regulation rewrite portion is not expected to require 
additional resources, but the implementation of these rules will 
require more resources over time. Areas of cost include training 
program revisions, manuals and forms updating, skills certification 
materials, and IT projects to modify our claims processing systems. 
Costs have not been finalized and will be reflected in future budgets 
as necessary.

    d. Does the Fiscal Year 2013 budget request include any funding 
necessary to complete this project?
    Response. No specific funding was requested in FY 2013. 
Implementation budget planning will occur in 2013.

    Question 6. Under current law, if an individual is a prevailing 
party at the Veterans Court, that individual may be eligible to receive 
an award of attorney fees under EAJA.
    a. What is the total amount VA expended during fiscal year 2011 for 
EAJA awards by the Veterans Court, how much is expected to be spent 
during fiscal year 2012 on those EAJA awards, and how much is requested 
in the fiscal year 2013 budget to pay for those EAJA awards?
    Response. Total EAJA obligations in FY 2011 were approximately 
$12.6 million. A total of $13.0 million is estimated for FY 2012, and a 
total of $13.3 million is estimated for FY 2013.
    b. For fiscal year 2011, how many individuals received awards of 
EAJA fees from the Veterans Court, what was the average award amount 
per individual, and in how many of those cases did VA not contest the 
EAJA award?
    Response. According to data published in its annual report, the 
Veterans Court granted 2,627 EAJA applications in FY 2011. The annual 
report can be found at: http://www.uscourts.cavc.gov/documents/
FY_2011_Annual_Report_FINAL_Feb_29_
2012_1PM_.pdf.
    VA's data indicate that the average EAJA award was approximately 
$5,298 per case. Although precise numbers are not available, it is 
accurate to say that VA did not contest the vast majority of the EAJA 
applications filed in FY 2011. In many of those cases, VA negotiated a 
reduced award with the appellant's counsel, such that a fee contest and 
thus, further litigation, was not necessary.
    c. In fiscal year 2011, what percentage of appeals to the Veterans 
Court resulted in an award of EAJA fees?
    Response. According to data published in its annual report, the 
Veterans Court disposed of 4,620 appeals in FY 2011. It awarded EAJA 
fees in 2,627 appeals. The annual report can be found at: http://
www.uscourts.cavc.gov/documents/FY_2011_
Annual_Report_FINAL_Feb_29_2012_1PM_.pdf.

    d. In the cases for which EAJA fees were awarded, what percentage 
were attributable to cases in which the Veterans Court remanded the 
case to VA and what percentage were attributable to cases in which the 
Veterans Court reversed VA's decision in whole or in part?
    Response. Although VA cannot provide the precise number of cases in 
which the Veterans Court awarded EAJA based upon a reversal vice a 
remand, it is accurate to say that only a small fraction of EAJA awards 
were made in appeals involving a reversal. This is because, generally 
speaking, the Veterans Court disposes of many more cases by remand than 
by reversal. For example, the Veterans Court's FY 2011 annual report 
reflects that a total of 1,298 appeals were remanded, whereas only 706 
appeals were reversed or vacated and remanded in whole or in part. The 
FY 2011 annual report also reflects 837 appeals that were affirmed or 
dismissed in part, reversed/vacated and remanded, in part. We do not 
believe that this figure, which mixes affirmances with other 
dispositions, changes the overall dynamic that the Veterans Court tends 
to issue many more remands than reversals. The annual report can be 
found at: http://www.uscourts.cavc.gov/documents/FY_2011_Annual_
Report_FINAL_Feb_29_2012_1PM_.pdf.

    e. If available, please provide any statistics regarding the number 
of cases that are remanded by the Veterans Court that ultimately result 
in an award of benefits by VA and the percent of appeals that are 
remanded by the Veterans Court more than once.
    Response. VA does not systematically maintain such statistics. It 
is worth noting, however, that the law affords a claimant the 
opportunity on remand to submit additional evidence and present 
additional arguments to VA. In other words, the record is not closed. 
Moreover, new statutes, regulations, or binding interpretations of law 
may take effect while a case is under further development on remand. 
Therefore, when VA ultimately readjudicates a claim on remand, the 
legal and factual landscape might be dramatically different than when 
the claim was initially considered and remanded by the Veterans Court.
    f. Please provide any available information or statistics regarding 
the number of cases in which the attorney who represented the 
prevailing party before the Veterans Court continues to represent that 
party before the Board on remand.
    Response. VA's best estimate is that the attorney before the 
Veterans Court (or, at least, the same law firm) will stick with the 
case on remand to VA in approximately 50 percent of the cases.
    g. If there is an award of EAJA fees by the Veterans Court, does VA 
track which Board member issued the decision that led to that award of 
EAJA fees? If so, what is done with that information?
    Response. VA does not systematically maintain such statistics.
Office of Management
    Question 1. According to the fiscal year 2013 budget request, the 
Office of Management plans to spend $36.5 million on Other Services 
during fiscal year 2013. Please provide an itemized list of how those 
funds would be expended.
    Response. Of the $36.5 million in `Other Services,' the majority of 
these costs ($26.7 million) are for payments to the Defense Finance and 
Accounting Service (DFAS) for VA's payroll processing. The specific 
breakdown is as follows:

    Of the $36.5 million in Other Services:

    A. $30.5 million is from reimbursable authority for the following:

         - $26.7 million for payroll processing with the Defense 
        Finance and Accounting Service (DFAS)
         - $3.8 million for contracts primarily related to the 
        assessment and remediation of internal controls over financial 
        reporting, as well as for maintenance and repair of equipment.
    B. $6 million is requested in budget authority for the following:

         - $4.8 million for financial management initiatives, including 
        the Integrated Operating Model (IOM) and Audit Readiness 
        contracts
         - $943,000 for recurring annual expenses and Service-Level 
        Agreements (SLAs), including equipment repair and maintenance 
        and payments for services provided by the Franchise Revolving 
        Fund
         - $220,000 for training/tuition.

    Question 2. According to the fiscal year 2013 budget request, the 
Office of Management now expects to spend $561,000 on equipment during 
fiscal year 2012, which is 979% higher than the amount requested for 
fiscal year 2012 ($52,000), and that office requests $101,000 for 
equipment for fiscal year 2013. The budget request includes this 
explanation: ``Equipment decreased because onetime expenses in 2012 for 
office equipment and furniture for new and expanded office space.''
    a. Please explain what specifically has been or will be purchased 
during fiscal year 2012 with these funds, the reasons for those 
purchases, and how that increased funding ($509,000) was originally 
expected to be spent.
    Response. The increased obligations in 2012 are primarily the 
result of a move of existing staff to a different location and to 
accommodate staffing increases. The new and reconfigured space required 
the purchase of additional office equipment, and furniture and 
fixtures.
    A total of $460,000 is for office furniture/fixtures and equipment 
for the new and expanded office space to accommodate additional hires 
and space requirements.
    Unobligated balances are being used to fund this one-time 
requirement that originated from the move and expansion of the work 
force.

    b. Please explain when the decision was made to purchase new office 
equipment and furniture for this office and provide any supporting 
documentation.
    Response. The decision was made in 2011 within the planning and 
budgetary process.

    c. Please provide an explanation of how these funds ($101,000) are 
expected to be expended during fiscal year 2013.
    Response. These funds are budgeted for normal office furniture/
fixtures and equipment replacement.

    Question 3. The Office of Finance within the Office of Management 
oversees the financial operations at VA's Debt Management Center.
    a. During fiscal year 2012, how much in total is expected to be 
expended to operate the Debt Management Center and what level of 
staffing would that funding support?
    Response. The DMC is an enterprise center under the VA Franchise 
Fund, providing common administrative support services to VA and other 
government agencies on a fee-for-service basis and receives no 
appropriated funding. Projected revenues in FY 2012 will support $13.6 
million in expenditures and a staffing level of 142.

    b. For fiscal year 2013, what level of funding is requested to 
operate the Debt Management Center and what level of staffing would 
that funding support?
    Response. The DMC is an enterprise center under the VA Franchise 
Fund, providing common administrative support services to VA and other 
government agencies on a fee-for-service basis and receives no 
appropriated funding. Projected revenues in FY 2013 will support $16.6 
million in expenditures and a staffing level of 155.

    c. How many telephone lines does the Debt Management Center 
currently operate and how many would be operated with the requested 
level of funding for fiscal year 2013?
    Response. We currently have 48 telephone lines (toll free). By FY 
2013 we plan to have 72 telephone lines.

    d. During fiscal year 2011, how many debts were referred to the 
Debt Management Center, what was the total value of those debts, and 
how much did the Debt Management Center recoup?
    Response. During FY 2011, 643,505 debts valued at $1.6 billion were 
referred to the DMC. During the fiscal year, we had collections of $1.3 
billion.

    e. How many debts are expected to be referred to the Debt 
Management Center during fiscal year 2012 and 2013?
    Response. For FY 2012, we expect $1.45 billion in new debt to be 
referred to the DMC and $1.48 billion of new debt to be referred to the 
DMC in FY 2013.

    f. Please explain the performance outcomes for the Debt Management 
Center during fiscal year 2011 and the expected performance outcomes 
during fiscal year 2012 and 2013.
    Response. The DMC has many different measures used to measure 
performance outcomes. They are dropped-call rate, dollars collected per 
dollars spent on operations, timeliness of clearing unidentified 
payments in suspense, timeliness of check processing, timeliness of 
responses to Congressional inquiries and other correspondence. For FY 
2011, DMC met or exceeded all performance standards. We believe we will 
continue this trend in FY 2012 and 2013.
Office of Human Resources and Administration
    Question 1. The VA Office of Human Resources and Administration 
produced the ``VA Organizational Briefing Book, June 2010.'' Within the 
handbook there is a chart reflecting the ``Organization of the 
Department of Veterans Affairs.'' The handbook then discusses the 
mission, scope, and functions of each subordinate office within VA that 
is reflected on the chart. Associated with each subordinate office is a 
chart reflecting the respective organizational make-up. Since this 
handbook was published in June 2010, there have been a number of office 
reorganizations.
    a. Please provide an up-to-date chart for each office that has 
undergone any reorganization since the publication of the 2010 
handbook. Please note the effective date of the reorganization on the 
chart, as well as the total FTE (SES/SES Equivalent, GS, career or non-
career) assigned to the office as of March 5, 2012.
    b. Please identify any offices currently undergoing reorganization 
and the anticipated completion date for the reorganization.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 24.]

    Question 2. In fiscal year 2012, VA requested $3.04 million to 
continue a ``Health and Wellness Initiative'' started in fiscal year 
2011. In response to questions about VA's fiscal year 2012 budget 
request asking how effective this program has been in promoting 
healthier employees, VA responded that ''[p]rogram effectiveness 
measures will be reviewed at six months and at the end of the fiscal 
year.''
    Please describe the specific objectives of this program and what 
benchmarks will be used to measure success. Please provide the 
Committee with documents assessing the effectiveness of the program.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 32.]
    Question 3. Staffing in the Office of Human Resources and 
Administration increased 80% since 2008. In fact, the fiscal year 2012 
budget request includes funding for an additional 204 employees and the 
fiscal year 2013 budget request would add 40 employees to the Office of 
Human Resources and Administration.
    a. What measures does VA use to determine if additional staff is 
needed in the Central Office?
    Response. Nearly all of the additional staff hired since 2008 was 
hired beginning in Fiscal Year 2010 to provide support for the Human 
Capital Investment Plan (HCIP). These are reimbursable FTE funded by 
the VA program offices who are receiving the benefits of corporate-wide 
training and human resources initiatives. HCIP is integral to the VA-
wide transformation effort and is designed to support the Secretary of 
Veterans Affairs' top three priorities: expanding access to benefits 
and services, eliminating the disability claims backlog and ending 
Veteran homelessness. The program seeks to ensure that VA employees are 
appropriately prepared to provide effective services to Veterans by 
applying new approaches to recruitment, hiring, retention, training and 
development.
    Since FY 2010, staffing levels for the VA's HCIP program were 
predicated upon workforce planning estimates for each initiative as 
they were rolled out. Independent government cost estimates are 
developed for each initiative that include the number of FTE needed to 
properly award and monitor contracts, test and deliver programs and 
products, and to evaluate how the HCIP initiatives achieve their 
intended purpose. Workforce estimates are compared to historical FTE 
usage as well as reviewed by an independent verification and validation 
contractor to ensure that the FTE allocation supports the completion of 
the initiative within time and budget constraints. It should be noted 
that a percentage of the staffing needs have been met by obtaining 
temporary contractor support and taking advantage of the Office of 
Personnel Management's capacity to provide affordable training through 
its established programs, thereby maintaining FTE levels below what 
would otherwise have been required for a program of this scope.
    The additional resources and FTEs supporting HCIP have been 
dedicated to human capital management programs that include:

    <bullet> Creation of a new Veterans Employment Services Office 
(VESO) and the VA for Vets program dedicated to increasing the number 
of Veterans in the VA workforce. VESO has created a robust military 
skills translator for the VA's online Career Center. This translator 
has been so effective that it is now being deployed across multiple 
Federal agencies. In FY 2012, VESO also hosted a series of job fairs 
during which 8,000 Veterans were interviewed and approximately 2,000 
received job offers.
    <bullet> New hiring reform process to improve the efficiency of 
efforts to bring new employees to the VA. VA decreased the average time 
to hire new employees from more than 120 days in 2009 to about 70 days 
today
    <bullet> Increased Learning Opportunities through VA's Learning 
University (VALU), providing career, technical and other training using 
a corporate approach and a new centralized Training Management System. 
Providing Training to approximately 140,000 VA professionals each year.
    <bullet> Creating mission-ready leadership under the auspices of 
VALU and VA's new Corporate Senior Executive Management Office (CSEMO). 
VA entirely revamped the SES management system into an effective tool 
for developing strategic leaders to provide the best possible care and 
service to Veterans.
    <bullet> Improving the capacity for handling conflict management 
within the Department via an expanded Workplace Alternative Dispute 
Resolution (ADR) program. This resulted in an increase in ADR 
participation from 45 percent in 2008 to 56 percent today for the 
purpose of addressing discrimination complaints and grievances. The 
estimated cost avoidance for this program is $90 million a year.

    Beginning in FY 2011, a prioritization process was put in place to 
identify the best use of HCIP funds. Evaluation criteria were developed 
and each factor was clearly defined to ensure consistent application 
across projects.
    As in previous years since the inception of HCIP, criteria for 
measuring outcomes will be applied to the FY 2013 initiatives. In 2013, 
special focus will be placed on:

    <bullet> completing projects begun in FY 2011 and FY 2012;
    <bullet> revising and establishing projects that have immediate, 
tangible and measurable impact on the services provided to Veterans;
    <bullet> addressing needs associated with mandates, statutes, 
directive, findings or other documented deficiencies; and
    <bullet> establishing projects that closely align with overall VA/
HRA transformation priorities.

    b. How will these additional staff in the Office of Human Resources 
and Administration directly benefit veterans?
    Response. As stated in question 3a, one of the most heavily 
weighted criteria for approving an initiative is its ability to have 
immediate, tangible and measurable impact on the services provided to 
Veterans. Programs that increase staff productivity allow VA to more 
quickly address the needs of Veterans. Training that improves 
competencies in the areas of human resources, financial management, 
project management, acquisition and information technology (IT) 
certification allows VA to provide an improved level of service to 
Veterans. Programs developed and administered by the Veterans 
Employment Services Office, which includes the VA for VETS program 
(created to facilitate the reintegration, retention and hiring of 
Veteran employees at VA: http://vaforvets.va.gov/Pages/default.aspx), 
provide the means for Veterans to translate the skills acquired in 
military service to marketable skills for civilian employment. 
Alternative dispute resolution programs have a substantive return on 
investment, allowing government funds to be directed to Veterans 
programs instead of adjudicating employee grievances.

    Question 4. According to the Congressional Research Service, in 
2009 VA made payments totaling nearly $180 million to the Department of 
Labor (DOL) to cover benefits paid to employees receiving workers' 
compensation under the Federal Employees' Compensation Act (FECA).
    a. How many current VA employees are on workers' compensation? 
Please detail this information by the three major administrations 
(National Cemetery Administration (NCA), VHA, and VBA).
    Response. Under FECA, the Department of Labor's Office of Workers' 
Compensation Programs (DOL OWCP) identifies costs in Chargeback Years 
(CBY) (July 1 to June 30). The period covered by the Chargeback Year is 
different from that covered by the fiscal year. The DOL Chargeback Year 
quarters are broken out as follows:

        Q-1 = July-September
        Q-2 = October-December
        Q-3 = January-March
        Q-4 = April-June

    CBY 2011 (7/1/2010--6/30/3011), the most recent complete year of 
data, provides a representative picture of all cases actively receiving 
compensation or medical benefits through DOL OWCP. The number of VA 
cases was as follows:

          NCA: 87 cases receiving compensation; 253 cases receiving 
        medical benefits
          VHA: 5,604 cases receiving compensation; 15,269 cases 
        receiving medical benefits
          VBA: 59 cases receiving compensation; 205 cases receiving 
        medical benefits.

    b. What is the average amount of time employees on workers' 
compensation receive payments prior to returning to work?
    Response. These data are not centrally tracked. Time spent on 
workers' compensation depends on the type/degree of injury, and is the 
exclusive responsibility of DOL OWCP.

    Question 5. The DOL Office of Workers' Compensation Programs (OWCP) 
provides all Federal agencies a quarterly estimate of the cost of 
workers compensation benefits. OWCP also sends each agency a yearly 
statement of FECA costs for the previous fiscal year.
    a. What was the total amount of FECA costs for fiscal years 2010 
and 2011 as provided by OWCP, and what was the estimate for costs in 
the first quarter of fiscal year 2012?
    Response. CBY 2010, the cost was $182,212,380; for CBY 2011, the 
cost was $186,254,136. For CBY 2012, the cost was $200,569,180. CBY 
2012 figures include an additional 28 day compensation payment (14 for 
the year, rather than the normal 13), as happens approximately every 22 
years due to distributing a fixed payment cycle over an odd number of 
days in a year (a ``leap payment,'' if you will). Without this payment, 
VA costs would have been approximately 10 percent lower than the figure 
shown, or a slight decrease from the 2011 CBY total.

    b. For each administration, please provide the amounts VA is 
requesting for FECA payments in fiscal year 2013.
    Response. DOL administers payment of expenses and provides VA a 
bill following the close of the CBY on June 30 of each year. The amount 
requested in the FY 2013 VA budget is $186,241,385 as depicted by the 
table below:


------------------------------------------------------------------------
                                                             CBY 2013
------------------------------------------------------------------------
Veterans Health Administration (VHA):
Medical Care (Program)..................................    $170,784,655
  Medical Services......................................     124,488,213
  Medical Facilities....................................      16,075,676
  Medical Support and Compliance........................      30,220,766
  Medical and Prosthetic Research.......................       2,359,307
                                                         ---------------
    Total--VHA..........................................     173,143,962

Veterans Canteen Service................................       1,679,124
Veterans Benefits Administration........................       5,249,866
National Cemetery Administration........................       2,642,975
Board of Veterans' Appeals..............................          52,788
Information Technology..................................       1,970,303

Administration:
  General Operating Expenses (Staff Offices)............         747,277
  Inspector General (IG)................................         195,308
  Facilities (Construction).............................             623
  Supply Fund...........................................         252,934
  Franchise Fund........................................         306,225
                                                         ---------------
    Total--Administration...............................       1,502,367
    FY Total VA Chargeback..............................    $186,241,385
------------------------------------------------------------------------


    Question 6. VA's oversight of FECA claims is provided by staff at 
individual facilities. Specifically, these offices are charged with 
implementing the VA workers' compensation strategic plan with the goal 
of returning employees to work.
    a. Does VA currently perform audits of individual workers' 
compensation cases to evaluate their accuracy and management?
    Response. VA performs such audits periodically. In FY 2012, VA's 
Office of Inspector General (OIG) concluded an audit of VHA's workers' 
compensation case management, available at http://www.va.gov/oig/pubs/
VAOIG-10-03850-298.pdf. See the answer to 6b for an update on the 
actions VA has taken in response to this report.

    b. What oversight apparatus is in place to monitor workers' 
compensation management at local facilities?
    Response. HRA has conducted follow-up reviews and training in 
response to the OIG's findings.
    Before the OIG's report was issued on September 30, 2011, on 
August 18, 2011, the Assistant Secretary for Human Resources and 
Administration (A/S HRA) issued a memo requiring a complete review of 
all Return to Work (RTW) cases where the employee had been identified 
as having work capacity but had not RTW. A complete review was 
conducted and completed in April 2012. The response to this memo led to 
a reduction of 11 percent in such cases and greater emphasis in this 
area of program management. The memo raised facility leadership 
awareness to this specific element of workers' compensation (WC) case 
management. Directors were required to obtain responses/information on 
specific WC cases that had not benefited from proper case management 
techniques. The memo led to the review and identification of poor case 
management confirming recent OIG findings of VHA program management. As 
noted, while the OIG report focused on VHA, the lessons learned were 
applied across the Department more broadly. A/S HRA's memo resulted in 
near term improved attention to specific cases. To further increase 
awareness, WC data is included in the Monthly Performance Report and 
reviewed by senior leadership. VA's Office of Occupational Safety and 
Health has provided and is planning face-to-face training in WC case 
management--a complex field requiring significant technical competence.

    c. Please detail by administration what programs or initiatives are 
in place to limit workplace incidents that lead to workers' 
compensation claims.
    Response. Under the Department's safety policy (Directive 7700) and 
strategic plan each Administration has developed safety programs and 
guidebooks to address their individual needs. This material is posted 
at www.va.gov/vasafety. VA's Safety Steering Committee (SSC) is another 
facet of the VA Safety and Health program, designed to reduce and 
correct potential hazards before they occur. The SSC membership 
consists of representatives of all three Administrations, key offices 
and five labor unions within the VA.
    NCA: NCA Directive 7700 (dated January 24, 2011), Occupational 
Safety and Health, defines policies and responsibilities of NCA's 
comprehensive occupational safety and health program. NCA's approach is 
characterized by four basic elements: Management Leadership/Employee 
Involvement; Worksite Analysis; Hazard Prevention/Control; and Safety/
Health training. Annual workplace evaluations are conducted by VHA; 
findings and deficiencies are identified; and abatement actions are 
tracked through completion.
    VHA: VHA Directive 7701 (dated August 9, 2012), Occupational Safety 
and Health, defines policies and responsibilities of VHA's 
comprehensive occupational safety and health program. VHA's 
Occupational Safety and Health training program emphasizes employee 
skill and understanding in hazard recognition, standard procedures, 
best practices and emerging issues. Medical center employees receive 
initial and annual OSHA compliance training based on job classification 
and supervisor assignments. Annual workplace evaluations are conducted 
at all VHA facilities, deficiencies are identified and the safety and 
health compliance programs evaluated. All findings and deficiencies are 
tracked through abatement.
    VBA: VBA Directive 7700, (dated March, 2010) Occupational Safety 
and Health, defines policies and responsibilities of VBA's 
comprehensive occupational safety and health program. VBA's approach to 
maintaining a safe and healthful work environment for employees is to 
minimize safety and health hazards through the development of safe work 
practices and employee training. Annual workplace evaluations are 
conducted and deficiencies are identified for correction.

    Question 7. For fiscal year 2013, the Office of Human Resources and 
Administration is requesting $303 million for Other Services. Please 
provide a detailed itemized list of how those funds are expected to be 
spent. To the extent any of the funds will be spent on contracts, 
please explain the nature of the contract and the expected outcomes.
    Response. In fiscal year 2013, it is expected that costs for 
contracts associated with HCIP will be on par with the amount projected 
to be spent in FY 2012, which is approximately $ 242 million. As 
previously mentioned, HCIP is part of the effort to transform the VA 
workforce to better serve Veterans in the 21st century. Contracts are 
awarded to provide training in the areas of executive and leadership 
training, program and project management, human resources reform, IT 
certification and financial management.
    HCIP has been evaluated using industry standards for best practices 
by an external auditing firm (Deloitte) and VA's National Center for 
Organizational Development.
    HCIP training realized a significant return on investment for FY 
2010 and FY 2011. For example, HCIP training contributed to a $3.6 
million cost avoidance associated with a reduction in Informal EEO 
Complaints.
    A breakdown of our current estimated FY 2013 contract costs of 
$253.4 million is included below. The decrease in contract costs from 
the FY 2013 budget amount of $303 million is associated with the Human 
Resources Information System (HRIS). HRIS was originally included in a 
reimbursable program in the FY 2013 President's budget, however legal 
reviews delayed award of the HRIS development contract such that HRIS 
deployment is not expected to be completed in time to begin collecting 
reimbursements for operations in FY 2013. Instead, HRIS reimbursements 
will be collected in FY 2014.

                Current Estimated FY 2013 Contract Costs
------------------------------------------------------------------------
                                                               Cost (in
        Office                  Contract Description           Millions)
------------------------------------------------------------------------
Human Capital           Training and Transformation             $242.3
 Investment Program      Initiatives
------------------------------------------------------------------------
Office of Resolution    Contracts for Investigation of EEO        $3.7
 Management  (EEO        complaints,  Court Transcription
 complaint Processing)   Services
------------------------------------------------------------------------
Administration          Contracts with Other Government           $3
                         Agencies for Mailroom Operations,
                         Employee Health Unit and Employee
                         Fitness Center
------------------------------------------------------------------------
Office of Human         Child Care Subsidies                      $4
 Resources and
 Administration
------------------------------------------------------------------------
Miscellaneous           Individual training, copier and           $0.4
                         equipment maintenance and  other
                         contracts
------------------------------------------------------------------------
  Total                 ....................................    $253.4
------------------------------------------------------------------------

    The miscellaneous contract costs comprise routine equipment and 
system maintenance costs, internal reimbursements for IT costs, 
financial transaction processing, and individual training requests.

    Question 8. According to the fiscal year 2013 budget request, the 
Office of Human Resources and Administration plans to spend $21,955,000 
on travel during fiscal year 2012 and requests $22,231,000 for travel 
during fiscal year 2013.
    a. To date, how many employees have traveled during fiscal year 
2012 and what was the average cost per trip?
    b. In total, how many employees are now expected to travel during 
fiscal year 2012 and what is the average cost per expected trip?
    Response to a and b: The travel budget identified in the HRA 
chapter in the budget is primarily for travel provided for Human 
Capital Improvement Plan (HCIP) programs. The HCIP was initiated to 
transform the VA workforce to better meet the needs of a changing 
Veteran population.
    HCIP allocates most of its travel funds for training programs 
conducted by the VA Learning University (VALU). VALU provides training 
on a corporate level in the areas of leadership development, competency 
improvement, and technical training. These training courses are 
provided to all VA employees, not just HRA employees. VALU, through its 
HCIP funding, covers the cost not only of the training but all travel 
costs associated with attendance at the training. Travel associated 
with HCIP-funded, VALU-sponsored training is tracked separately in the 
travel management system from all other HRA travel and therefore is 
listed separately from other HRA travel in the tables below.
    Additional HCIP programs are also allocated funds for travel 
associated with special events such as Veterans Employment Hiring Fairs 
held at various locations throughout the country.
    Other travel not associated with HCIP, but included in the HRA 
budget is for the Office of Resolution Management, which handles the 
processing of discrimination allegations and conflict resolution for 
both field and VA Central Office Equal Employment Opportunity-related 
cases. HRA travel funds also provide reimbursements to other VA offices 
for travel incurred for attendance at training sessions associated with 
new union contracts as well as travel associated with normal HRA 
business.

                            HRA Travel Costs
                             ($ in millions)
------------------------------------------------------------------------
                                              Estimate
                                     Actual*   (Sept)   FY 2012  FY 2013
------------------------------------------------------------------------
VALU sponsored travel..............     $7.7      $1.9     $9.8    $16.1
All other HRA travel not included       $2.6      $0.2     $2.8     $3.6
 in VALU totals....................
                                    ------------------------------------
  Total............................    $10.3      $2.1    $12.6    $19.7
------------------------------------------------------------------------
*As of August 21, 2012


                   OHRA Travel unique number of trips
------------------------------------------------------------------------
                                              Estimate
                                     Actual*   (Sept)   FY 2012  FY 2013
------------------------------------------------------------------------
VALU sponsored travel..............    5,803     1,300    7,100   11,473
All other HRA travel not included      1,783       125    1,908    2,600
 in VALU totals....................
                                    ------------------------------------
  Total............................    7,586     1,425    9,008   14,073
------------------------------------------------------------------------
*As of August 21, 2012


                              Average Cost
                                (whole $)
------------------------------------------------------------------------
                                                        FY 2012  FY 2013
------------------------------------------------------------------------
VALU sponsored travel.................................   $1,403   $1,403
All other HRA travel not included in VALU totals......   $1,356   $1,385
                                                       -----------------
  Total...............................................   $1,393   $1,400
------------------------------------------------------------------------


    c. For fiscal year 2013, how many trips is the $22.2 million 
expected to support?
    Response. As a result of VA's overall efforts to find efficiencies 
and reduce travel and in compliance with the President's Campaign to 
Cut Waste, HRA's current FY 2013 travel estimate is now $19.7 million. 
This will support an estimated 14,073 unique travel trips at an average 
cost of $1,400 per trip. This estimate is subject to revision as new 
Departmental guidance regarding training conferences is released.

    Question 9. According to the fiscal year 2013 budget request, the 
Office of Human Resources and Administration plans to spend $2.1 
million on supplies and materials during fiscal year 2012, which is 29% 
higher than requested for fiscal year 2012 ($1.6 million), and that 
office requests $2.1 million for fiscal year 2013 for supplies and 
materials.
    a. Please explain what led to the expected increase in supplies and 
materials during fiscal year 2012 and how that funding ($475,000) was 
originally expected to be spent.
    Response. In FY 2012, the newly created Veterans Employment 
Services Office is reaching out to Veterans through the VA for VETS 
program (http://vaforvets.va.gov/Pages/default.aspx), and conducting 
Veteran hiring events across the country. These events are heavily 
attended by Veterans eager to learn more about job opportunities for 
Veterans at VA. The size and scope of these events necessitates a 
significant increase in the dollars spent on supplies and materials. 
Educational and informational materials are made available to all 
Veterans who attend the hiring events. HRA strives to fulfill its 
fiduciary responsibilities by limiting expenditures on supplies and 
materials to those items essential to meeting the goals and objectives 
of HCIP. In keeping with the President's Executive Order 13589, 
Promoting Efficient Spending, the Office is currently investigating 
ways to effectively deliver its programs while reducing the amount 
spent on supplies and materials.

    b. Please provide an explanation of how these funds are expected to 
be expended during fiscal year 2012 and fiscal year 2013.
    Response. Most of the supply and material funds will be used in 
conjunction with conducting training courses, and for educational and 
informational brochures for Veterans programs.

    Question 10. In connection with VA's fiscal year 2012 budget 
request, the Office of Human Resources and Administration indicated 
that it expected to spend $9.5 million during fiscal year 2012 on a 
``Corporate Senior Executive Management Office.''
    a. Currently, how many VA employees or contractors perform work for 
this office?
    Response. As of May 22, 2012, there are 27 Federal employees 
currently in the Corporate Senior Executive Management Office (CSEMO).
    As part of the VA's Human Capital Investment Plan, CSEMO initiated 
projects that are part of an enterprise-wide transformational 
initiative designed to develop the VA's human capital into a proactive, 
forward looking, and professional workforce that will provide improved 
service to Veterans in the 21st century. Some of these projects are 
supported via contracts. None of the contracts is tied to specific 
numbers of individuals.

    b. What performance metrics are used to gauge whether this office 
is effective?
    Response. Secretary Shinseki centralized the lifecycle management 
of VA's executive cadre and established CSEMO in October 2009. CSEMO 
began operations in 2010. Since the stand up of CSEMO VA has greatly 
improved the fairness and credibility of our processes and policies for 
hiring, developing and compensating executives. Responsibilities 
include administering VA's Senior Executive recruitment process, 
minimizing the time positions remain vacant, onboarding new executives, 
administering programs for performance management, incentives, talent 
management, and taking appropriate action to reduce turnover. These 
responsibilities drive CSEMO's performance metrics: time it takes to 
fill positions, percent of positions filled, hiring sources (internal, 
external), number of applicants, and performance rating distributions.

    c. In terms of those performance metrics, what outcomes has this 
office achieved to date and what outcomes is it expected to achieve by 
the end of fiscal year 2012?
    Response.
    Recruitment process. VA continues to streamline the entire SES 
recruitment process all to improve our service to Veterans. VA's 
process is automated, efficient, and collaborative, and is considered a 
model for other department and agencies to emulate. VA is proactive in 
recruiting senior executives to fill anticipated vacancies, ultimately 
reducing the amount of time the positions are vacant. In support of the 
President's Hiring Reform Initiative, VA was one of the first 
Departments to aggressively implement the ``resume only'' recruitment 
process that eliminates the requirement for applicants to submit 
lengthy narratives for employment consideration. This process makes it 
easier for those outside government to apply for executive positions 
and encourages a more diverse applicant pool; the process and tools VA 
developed in this regard have been shared with other agencies as a best 
practice. In July 2010, VA centralized the Executive Resources Board 
(ERB) process for conducting the merit staffing process for initial 
career appointment to the SES, eliminating multiple Boards that 
functioned independently. With this staffing process, the ERBs meet 
virtually, each member working independently online. This process too 
is being reviewed by other agencies for adoption. VA takes advantage of 
the opportunity to hire from other agencies current executives with 
proven records of success. VA has sharpened its qualifications 
requirements to ensure we are not emphasizing agency-related experience 
to the detriment of well qualified candidates from outside VA. VA is 
committed to diversity in the broadest sense by attracting executive 
talent with strong executive qualifications including minorities, 
women, individuals with disabilities, from within VA, outside VA, and 
outside the government. CSEMO is further improving its internal system 
through the development of a database to improve tracking recruitment 
processes and to more efficiently produce related reports and metrics.
    Fill rate. CSEMO actively works to fill VA's SES positions, to 
include proactively recruiting for projected vacancies. The goal is to 
have a fill rate of 95 percent. As of May 22, 2012, VA is at 92 
percent. The improved recruitment process has streamlined hiring and 
enabled CSEMO to move closer to its goal and ensure VA hires the right 
person for the right job at the right time--all so that we can continue 
to fulfill the Department's mission to care for our Nation's Veterans, 
their families and survivors.
    Onboarding. Executive onboarding is the process of integrating and 
accelerating the contribution of new leaders into VA. Research shows 
that the absence of a systematic onboarding process can derail the new 
hire experience for the vast majority of executives. VA was 1 of 7 
agencies to pilot OPM's Executive Onboarding Framework that was 
recommended to the President's Management Council (PMC) for 
governmentwide implementation. In alignment with the PMC's Career 
Development Initiative and in support of VA's strategic mission and the 
Secretary's Transformation Initiatives, in January 2011, CSEMO launched 
an 18-month Executive Onboarding Program, in which each senior 
executive participates in a range of transition activities which 
include training and developmental programs. This structured onboarding 
program helps senior executives build leadership capabilities, 
establish networks and relationships, gain knowledge and insight of the 
organizational structure and achieve executive success. The goals of 
onboarding are to welcome new executives and minimize the time required 
for executives to become productive in their agency, organization and 
new position and to prepare them to be successful senior executives. VA 
provides a robust orientation for new executives to foster an 
understanding of VA and its governance process, and to communicate the 
strategic vision and direction of the agency. CSEMO will soon automate 
portions of the onboarding process to streamline the program. As part 
of the overall onboarding program, CSEMO launched its one-on-one 
executive coaching program to help improve new executives' 
organizational performance, job satisfaction, retention, and resolve 
disputes between employees. In March 2011, VA launched its Senior 
Executive Strategic Leadership Course. It is specifically designed to 
use executive education as a driving force to lead change for VA. This 
is a 5=-day course through which executives learn key content and 
insight, participate in simulations and group activities, and work on 
designated VA challenges for potential implementation. The course 
addresses strategic leadership and working across functional and 
organizational lines to improve service delivery to Veterans.
    Performance Management. Performance management is a continuous 
process of identifying, measuring, and developing the performance of 
organization members and aligning performance with the strategic goals 
of the organization. Components of an effective executive-level 
performance management system include goal setting, performance 
feedback, and training designed to maximize employee, leader, and 
organizational performance. Since 2010, CSEMO has driven a re-
engineering effort to improve executive performance management and to 
hold executives accountable for organizational performance through 
monthly reviews, quarterly initiative assessments, and on-going 
training opportunities. In the last two years, the Department has made 
significant improvements to ensure the program is credible, 
transparent, and consistent with law and regulation. VA implemented 
fiscal year (FY) 2011 changes and is implementing new Government-wide 
improvements in FY 2012.
    Incentives. VA is improving its incentives program (recruitment, 
relocation, retention), including strengthening its control mechanisms 
and program oversight, and ensuring that each justification fully 
supports the incentive. CSEMO has oversight of VA's incentive program 
for Senior Executives. VA has been engaged in a thorough review of its 
incentive program which has resulted in greatly strengthened processes, 
control mechanisms, and program oversight.
    Talent Management. VA is developing an executive talent management 
system through which the Department will assess its current executives 
against VA's highest missions and priorities. The Department is 
committed to attracting highly-skilled executives, developing and 
retaining them given the dynamic ``war for talent'' environment. 
CSEMO's Senior Executive Talent Management program is a deliberate 
process through which VA will build the capacity to achieve mission and 
organizational goals with the right talent, in the right place, at the 
right time, and close talent gaps through a systematic process that 
integrates each element of the career lifecycle. Successful talent and 
succession management are critical to VA's ability to transform into a 
21st Century organization focused on our Nation's Veterans as its 
clients.
    Senior Executive Collaborative Web site. VA launched an executive 
collaborative Web site in 2011 to enhance communication among VA's 
executives. This tool helps break down silos and stovepipes in VA in 
order to improve service delivery to Veterans, and promotes idea 
sharing/problem solving among our executives. In addition to delivering 
timely, valuable information, it enhances networking, knowledge sharing 
and collaboration. The Web site provides senior executives an 
opportunity to share with their peers ideas, knowledge, and best 
practices.
    Turnover and Retention. Great emphasis is placed on hiring and 
retaining the best executives for VA's critical positions. In some 
cases these executives came from managing large organizations or 
programs successfully in the private sector. Those same skills and 
experiences are needed to manage our large organizations, medical 
centers, or resource intensive programs such as the Post-9/11 GI Bill. 
In 2011, CSEMO implemented several programs that are expected to reduce 
SES turnover and enhance retention by improving candidate job fit, 
orientation and on-boarding processes, timeliness and quality of 
performance feedback, and training and development. Continued 
improvement of recruitment, onboarding, training, and development 
activities will lead to reduced SES voluntary resignations, 
particularly among SES staff new to VA (i.e., low tenure), as well as 
shifts in SES retention associated with changes in Federal 
administrations. Continued improvement of SES performance management 
systems and training will also improve the ability to track retention 
rates by performance.

    d. For fiscal year 2013, how much is requested for this office and 
what outcomes are expected to be achieved with that level of funding?
    Response. CSEMO's requested budget for FY 2013 is $10.4 million. 
This funding will enable CSEMO to maintain and improve the systems and 
processes in place, including strong program management and oversight, 
and to implement new initiatives as needed. Among those are: 
improvements to VA's Executive Onboarding Program to ensure success for 
all senior executives and to better enable them to think and act 
strategically, continued development of automated talent management 
system for talent and succession management, continuing leader 
development, enhancements to the Senior Executive Collaborative Web 
site to provide even better communication efforts among VA's 
executives, and development of an integrated automation system to tie 
CSEMO's different programs together. The funding requested in the FY 
2013 budget will continue to enable and enhance CSEMO's mission to 
provide oversight of VA's senior executive management program and to 
develop strong executive life cycle management all to improve the 
programs and benefits provided to our Veterans.

    Question 11. In connection with VA's fiscal year 2012 budget 
request, the Office of Human Resources and Administration indicated 
that it expected to spend $4.3 million during fiscal year 2012 on a 
``leadership infusion'' initiative, which was described as 
``procur[ing] seats in pre-designed and custom leadership and 
management training programs.''
    a. During fiscal year 2012, how many individuals have received or 
are expected to receive training through this initiative and what is 
the expected cost per training activity?
    Response. The Leadership Infusion Program is a partnership with the 
Office of Personnel Management (OPM) which provides seats in its open-
enrollment leadership programs, as well as custom programs for VA 
offices. For more than 45 years, OPM has trained Federal managers, 
executives, and employees to be effective Government leaders. VA seeks 
to provide training for its more than 70,000 managers and supervisors, 
as well as to aspiring leaders at all levels to ensure leadership 
ability is assessed, trained and evaluated throughout an employees' 
life cycle within VA. The training addresses contemporary leadership 
challenges through a perspective of public service and Constitutional 
values.
    The Leadership Infusion Program is designed to augment the 
curriculum of existing VA leadership development programs and to 
provide developmental opportunities for those VA employees with robust 
Individual Development Plans. OPM programs are designed for employees 
at the GS 9 level and above, is competency driven, and linked to VA's 
new leadership competency model.

    b. Who is responsible for determining what training courses an 
individual should attend?
    Response. An individual's supervisor is responsible for identifying 
the training program in accordance with an approved Individual 
Development Plan. Additionally, some of the programs are being offered 
as part of the curriculum in VA's leadership development programs, 
where employees were competitively selected to take part in the 
program. These courses include Leadership VA, Leadership in a 
Democratic Society offered by Federal Executive Institute, the Aspiring 
Leader Program, and others.

    c. What metrics are used to determine whether these training 
activities are effective?
    Response. A comprehensive training evaluation is completed by each 
employee following each session that provides a detailed report 
measuring the following: satisfaction, learning effectiveness, job 
impact, business results, and return-on-investment. This evaluation 
model, also known as the ``Kirkpatrick'' model, is recognized in the 
training industry as the accepted best practice for program evaluation.

    d. How do these training activities differ from training offered 
through other VA training initiatives?
    Response. These programs are generally 3-5 days in length and most 
are offered as an interagency training, where employees from a number 
of Federal agencies are taking the programs at one of OPM's Management 
Development Centers. Additionally, these programs are also associated 
with a governmentwide leadership certification process. The other 
initiatives are delivering training to VA employees only, and are not 
currently linked to certification.

    e. For fiscal year 2013, how much in total is requested for 
purposes of this initiative, how many individuals are expected to 
attend training through this initiative, what is the expected average 
cost per training activity, and what outcomes are expected to be 
achieved through these training activities?
    Response. The request for FY 2013 is $2.04 million. VA Learning 
University (VALU) anticipates delivering the open-enrollment programs 
through OPM's Management Development Centers, as well as custom 
offerings for various VA departments. The funding will allow VA to 
train approximately 600 employees at a cost of $3,500 per one week 
program. Please see the responses to Questions 12, a-c, for the 
anticipated outcomes.

    Question 12. In connection with VA's fiscal year 2012 budget 
request, the Office of Human Resources and Administration indicated 
that it expected to spend $30.5 million during fiscal year 2012 on a 
``Basic/Advanced Supervisory Management Training'' initiative.
    a. During fiscal year 2012, how many individuals are expected to 
receive training through this initiative and what is the expected cost 
per training activity?
    Response. A high-performance workforce ensures a fiscally 
responsible organization dedicated to serving Veterans and their 
families. It is vitally important to establish and maintain programs to 
educate supervisors on a range of common managerial issues, including 
developing and discussing goals with employees, mentoring programs, 
communicating about progress and conducting performance appraisals.
    There are a number of tasks associated with this initiative, to 
include the development of online training for new supervisors, and a 
leadership portal that will serve as a collaborative space for 
supervisors, managers and aspiring leaders, as well as a repository of 
resources, in addition to development and implementation of VALU's 
leadership development programs. The supervisory training task is 
designed to support approximately 70,000 VA supervisors and managers. 
The instructor-led training is intended to deliver 2,000 training 
instances per month, while the leadership portal allows for a total of 
70,000 licenses to be utilized to meet the demand. The candidacy-based 
leadership development programs are of varying sizes, from 50-80 per 
cohort, and include an online component for hundreds more. The cost for 
the task linked specifically to enterprise-wide, face-to-face and 
Webinar training delivery is approximately $10 million dollars for 
training of approximately 23,000 VA employees at an average cost of 
$800 per employee for face-to-face training, and $115 per student for 
webinars. Additionally, the funding in this initiative covers 
evaluation across all of VALU's training initiatives.

    b. What metrics are used to determine whether these training 
activities are effective?
    Response. A comprehensive training evaluation was designed to 
measure effectiveness and is used consistently across all VA's training 
initiatives. The evaluation measures:

    <bullet> Training Effectiveness.
    <bullet> Learner Reaction: Percentage of learners who respond 
favorably to the following aspects of training:

         - Content relevancy;
         - Instructor effectiveness;
         - Performance improvement;
         - Overall satisfaction; and
         - Recommendation likelihood.

    <bullet> Learning Gain: Average knowledge gain among the learner 
population.
    <bullet> Behavior Change Among Learners:

         - Percentage of supervisor who assessed behavior change among 
        the learner population; and
         - Percentage of learners who self-assessed behavior change.

    <bullet> Organizational Impact: The change in organizational 
performance as a result of training.
    <bullet> Return on Investment: The monetary return or gain for 
initial training investments.
    <bullet> Quality Control and Training Program Management.
    <bullet> Training Course Comprehensiveness.
    <bullet> Percentage of VA occupations covered by training.
    <bullet> Evaluation Data Collection Rates for Training Owners and
    <bullet> Quality: VA Learning University's quality standards guide 
and approach.

    c. How do these training activities differ from training offered 
through other VA training initiatives?
    Response. These training activities are designed specifically for 
VA supervisors, managers and aspiring leaders, where curricula have 
been linked to VA's leadership competency model. The other initiatives 
are linked to other technical and/or core competencies, and designed 
for varying target populations.

    d. For fiscal year 2013, how much in total is requested for 
purposes of this initiative, how many individuals are expected to 
attend training through this initiative, what is the expected average 
cost per training activity, and what outcomes are expected to be 
achieved through these training activities?
    Response. For FY 2013 $32 million is requested, to include ongoing 
development of the online supervisory training tool, online leadership 
development portal, VALU's leadership development programs, in addition 
to the instructor-led training via classroom and Webinar. These tools 
offer the potential to reach 70,000 employees via the leadership portal 
and supervisory training, and approximately 2,000 employees per month 
in the classroom and Webinar training, at an average cost per course of 
$800 per employee for face-to-face training, and $115 per student for 
webinars. Please see the responses to Questions 12, a-c, for the 
anticipated outcomes.

    Question 13. In connection with VA's fiscal year 2012 budget 
request, the Office of Human Resources and Administration indicated 
that it expected to spend $10 million during fiscal year 2012 on a 
``Transformational Leadership'' initiative.
    a. During fiscal year 2012, how many individuals are expected to 
receive training through this initiative and what is the expected cost 
per training activity?
    Response. VALU's Transformational Leadership Curriculum and its 
components are focused on change management, change leadership and 
executive development. All courses offered provide practical skills in 
leading change and creating a culture that embraces and appropriately 
manages change and the change initiatives established for an 
organization. In addition to traditional classroom or on-line 
coursework on change management, this program also allows an 
organization to target the leadership team, or the organization as a 
whole, for joint training and teambuilding to focus on its change 
initiatives and develop a program for executive, leadership, and staff 
to assist in implementing change on initiatives identified by that 
organization. These joint trainings, called Change Academies, drive 
change in local organization-specific areas in support of the major 
initiatives identified in VA's Strategic Plan.
    There are several different offerings through the VA 
Transformational Leadership Curriculum. These have been broken down by 
type of offering and the anticipated number of participants through 
September 30, 2012.
    1. Video series--4 videos--complements the management book 
``Switch: How to Change Things When Change is Hard'' by providing 
another mode of learning as VA institutes a common language with which 
to understand change and change management; costs go down with each 
completion
        a. approximately 30,000 completions
        b. estimated $4.00 per completion

    2. E-learning courses--three courses in Veterans Advocacy 
curriculum were completed in July 2012. VA owns the courses, relevant 
for a long period of time, cost reduced with each completion--no costs 
for these courses in future years.
        a. approximately 20,000 completions
        b. estimated $20.00 per completion

    3. Webinars--currently 8 webinars in our catalog--costs include 
facilitator and producer plus web connection fees
        a. approximately 852 completions
        b. estimated $117 per completion

    4. Instructor-led training (24 courses in the catalog)--costs 
include venue, facilitator, materials and facilitator travel
        a. approximately 4650 completions
        b. estimated $165 per completion

    5. Instructor-led training (Change Academy)--VA customized events, 
costs include program administration, design, venue, facilitators, 
materials and facilitator travel (costs include 5 day executive level 
design and implementation)
        a. approximately 3000 completions
        b. estimated $2000 per completion

    6. Executive level training (externally provided)--University of 
North Carolina (UNC) Kenan-Flagler School--costs include program costs 
for UNC only
        a. approximately 388 completions
        b. estimated $6200 per completion

    b. What metrics are used to determine whether these training 
activities are effective?
    Response. The Transformational Leadership Curriculum conducts level 
1 and level 2 Kirkpatrick evaluations of all training. In addition, we 
participate in level 3 and level 4 Kirkpatrick evaluations conducted by 
an independent contractor through VALU. All materials are evaluated 
periodically to ensure continued instructional soundness and currency 
of the materials. All training has been mapped to VA's competencies. 
Results of all evaluations are reported weekly and a semi-annual report 
is prepared for specific aspects of the program.

    c. How do these training activities differ from training offered 
through other VA training initiatives?
    Response. As stated earlier, VALU's Transformational Leadership 
Curriculum and its components are focused on change management, change 
leadership and executive development. All courses offered provide 
practical skills in leading change and creating a culture that embraces 
and appropriately manages change and the change initiatives established 
for an organization. This program is unique in that it also provides a 
customization option through the Change Academies that allow a specific 
organization to focus on their change initiatives and develop a program 
for executives, leadership and staff that will assist in the 
implementation of change based on local initiatives that support the 
major VA initiatives identified in VA's Strategic Plan.

    d. For fiscal year 2013, how much in total is requested for 
purposes of this initiative, how many individuals are expected to 
attend training through this initiative, what is the expected average 
cost per training activity, and what outcomes are expected to be 
achieved through these training activities?
    Response.


----------------------------------------------------------------------------------------------------------------
                                              Estimated   Estimated
                                  Estimated   Avg. Cost  FY 13 Total
    FY 13 Training Activity       Number of      Per       Cost Per                Expected Outcomes
                                Participants   Activity    Activity
----------------------------------------------------------------------------------------------------------------
Video Series                       30,000          $2        $60,000  This video series is customized to VA and
                                                                       will result in an increased understanding
                                                                       of VA best practices in change management
                                                                       in support of the transformational
                                                                       initiatives that serve our Veterans.
                                                                       Video series is used in conjunction with
                                                                       Change Academies and other
                                                                       Transformational Leadership training.
----------------------------------------------------------------------------------------------------------------
E-Learning                         20,000         $15       $300,000  e-learning courses are custom designed to
                                                                       meet the needs of VA and cover topics
                                                                       such as Veterans Advocacy, the history of
                                                                       Veterans Benefits, etc. The outcomes will
                                                                       increase awareness of Veterans issues and
                                                                       the culture of serving Veterans. As the
                                                                       number of participants grows, the cost
                                                                       per activity decreases.
----------------------------------------------------------------------------------------------------------------
Webinars                              900        $120       $108,000  Webinars span a series of 8 topics that
                                                                       are delivered using technology. Topics
                                                                       are all in support of theory and best
                                                                       practices around Change Management and
                                                                       transforming an organization. The
                                                                       outcomes will be increased ability to
                                                                       appropriately lead and manage VA's change
                                                                       initiatives.
----------------------------------------------------------------------------------------------------------------
Instructor-Led Training             4,880        $165       $805,200  The ILT courses provide practical skills
                                                                       and application in change management. The
                                                                       projected outcomes from these courses are
                                                                       increased ability of VA leadership to
                                                                       lead change efforts, create a culture
                                                                       that embraces change, and better
                                                                       management of VA's change initiatives.
----------------------------------------------------------------------------------------------------------------
Change Academy                      3,250       $1850     $6,012,500  Change Academies are customized to the
                                                                       change efforts for a particular group or
                                                                       facility. These hands-on sessions provide
                                                                       the group the opportunity to focus on
                                                                       their change initiatives and develop
                                                                       plans and programs for executives,
                                                                       leadership and staff that will assist in
                                                                       the implementation of change. The
                                                                       outcomes vary depending on the need, but
                                                                       generally include fully developed change
                                                                       management strategies, communication, and
                                                                       implementation plans. Includes Executive
                                                                       Level design and implementation.
----------------------------------------------------------------------------------------------------------------
UNC Kenan Flagler School              100       $6200       $620,000  The UNC Kenan Flagler business school
                                                                       offers a leadership immersion course for
                                                                       senior leaders. The outcomes from this
                                                                       course include development of critical
                                                                       leadership skills including self-
                                                                       awareness, conflict management, power and
                                                                       influence, motivation, delegation,
                                                                       empowerment, and team leadership. All VA
                                                                       SES's training completed by end of FY
                                                                       2012. On-going training established for
                                                                       newly assigned SES employees.
----------------------------------------------------------------------------------------------------------------
  Total Estimated Cost                                    $7,905,700
----------------------------------------------------------------------------------------------------------------

Office of Policy and Planning
    Question 1. The fiscal year 2013 budget request includes $8.4 
million to be spent on Other Services by the Office of Policy and 
Planning. Please provide a specific itemized list of how these funds 
would be spent. To the extent any of these funds will be spent on 
contracts, please explain the nature of the contract and the expected 
outcomes.
    Response. Of the $8.4 million, $8.2 million will be used for the 
contracts listed below and the remaining $200,000 will be used to fund 
training and VA franchise fund activities.

    <bullet> The Office of Corporate Analysis and Evaluation will 
contract for assistance with its analytical work in support of VA's 
integrated strategy of creating a Department-wide, multiyear 
programming capability to make data-driven decisions about resource 
allocation. This includes an interagency agreement with Department of 
Labor to establish and maintain a programming database. ($2.5 million)
    <bullet> The Office of Policy will contract for support in 
developing, analyzing, and reviewing policy issues affecting Veterans, 
as well as support in developing the strategic plan to implement VA's 
goals and objectives in accordance with Government Performance and 
Results Modernization Act of 2010. ($900,000)
    <bullet> The Office of Data Governance and Analysis will contract 
for assistance with data analysis and governance to assist programs, 
operations, and procedures, as well as inform VA-wide decisionmaking. 
($1.4 million)
    <bullet> The enterprise Program Management Office will contract for 
support in executing the Department's major transformational 
initiatives while developing Department-wide program management 
standards and doctrine. ($3.2 million)
    <bullet> Contract support will also be used for emergent studies 
for policy and strategy; enabling VA senior leaders to make well 
informed resource allocation and policy decisions based on verifiable 
data, sound analysis, and validated strategic projections. ($200,000)

    Question 2. For fiscal year 2013, the budget request includes over 
$26 million for the Office of Policy and Planning and would support 117 
employees. For each office within the Office of Policy and Planning, 
please identify the positions and pay-grades for employees that would 
be assigned to that office during fiscal year 2012 and fiscal year 2013 
and the number of contractors that are expected to be assigned to each 
such office.
    Response. The list below of offices, and positions and pay-grades 
assigned to that office, covers both fiscal 2012 and fiscal 2013. OPP's 
contracts are firm fixed price and dictate outcomes, not the number of 
employees assigned to the project.





                                             Headquarters/Operations
Assistant Secretary
Program support................................................................  GS-11
Principal Deputy Assistant Secretary...........................................  SES
Program support................................................................  GS-11
Executive Assistant............................................................  GS-15
Communication analyst..........................................................  GS-9
Senior policy advisor..........................................................  GS-15
Director.......................................................................  GS-15
Human capital manager..........................................................  GS-14
Budget analyst.................................................................  GS-9
Administrative officer.........................................................  GS-12

                                         Office of VA/DOD Collaboration
Executive director.............................................................  SES
Program support................................................................  GS-11
VA/DOD Integrated Disability Evaluation Service
  Deputy Director..............................................................  GS-15
  Management analyst...........................................................  GS-14
  Management analyst...........................................................  GS-13
Joint Executive Council/Senior Oversight Committee Service
  Deputy Director..............................................................  GS-15
  Special assistant............................................................  GS-15
  Management analyst...........................................................  GS-14 (X 5)
  Junior management analyst....................................................  GS-7
  Student career intern........................................................  GS-7

                                        Corporate Analysis and Evaluation
Executive Director.............................................................  SES
Analysis and Evaluation Service
  Director.....................................................................  GS-15
  Operation researchers........................................................  GS-14 (X 6)
Programming Service
  Director.....................................................................  GS-15
  Budget analyst...............................................................  GS-14 (X 2)
  Management analyst...........................................................  GS-14
  Operation researcher.........................................................  GS-14
  Student career intern........................................................  GS-11

                                                Office of Policy
Deputy Assistant Secretary.....................................................  SES
Program support................................................................  GS-7
Policy Analysis Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 2)
  Management analyst...........................................................  GS-11
  Management analyst...........................................................  GS-11/12/13
  Student career intern........................................................  GS-9
  Student career intern........................................................  GS-7
Strategic Studies Group
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 2)
  Management analyst...........................................................  GS-9
  Student career intern........................................................  GS-9
Strategic Planning Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 2)
  Management analyst...........................................................  GS-13 (X 2)
  Management Analyst...........................................................  GS-11/12/13 (X 2)

                                     Office of Data Governance and Analysis
Deputy Assistant Secretary.....................................................  SES
Program support................................................................  GS-9

                              National Center for Veterans Statistics and Analysis
Executive Director.............................................................  SES
Program support................................................................  GS-11
Analysis and Statistics Service
  Director.....................................................................  GS-15
  Statisticians................................................................  GS-14 (X 4)
  Management analyst...........................................................  GS-14 (X 2)
  Management analyst...........................................................  GS-13
  Management analyst...........................................................  GS-12
  Student career intern........................................................  GS-9
Reports and Information Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 3)
  Management analyst...........................................................  GS-13 (X 2)
  Management analyst...........................................................  GS-12
  Student Career intern........................................................  GS-7
Office of the Actuary
  Chief Actuary................................................................  SL
  Deputy Chief Actuary.........................................................  GS-15
  Economist....................................................................  GS-14
  Actuaries....................................................................  GS-14 (X 4)

                                      Enterprise Program Management Office
Executive Director.............................................................  SES
Deputy Director................................................................  GS-15
Program support................................................................  GS-11
Deployed senior program manager................................................  SES
Program Management Policy Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 3)
  Management analyst...........................................................  GS-13 (X 4)
Operational Management Review Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 5)
  Management analyst...........................................................  GS-13
  Management analyst...........................................................  GS-11
Resource Management Service
  Director.....................................................................  GS-15
  Management analyst...........................................................  GS-14 (X 4)
  Management analyst...........................................................  GS-13 (X 2)
  Management analyst...........................................................  GS-11



    Question 3. In connection with VA's fiscal year 2012 budget 
request, the Office of Policy and Planning indicated that the 
Enterprise Program Management Office was incorporated into the Office 
of Policy and Planning in 2010 and that operating expenses for that 
office would be paid for through reimbursements from other VA offices.
    a. What performance measures are used to gauge whether this office 
is effective?
    Response. In 2011, the OPP revamped its performance measures to 
create metrics that are relevant and measurable. These updated metrics 
were introduced in the fiscal year (FY) 2013 budget request. One of 
these measures specifically applies to the enterprise Program 
Management Office's (ePMO) mission of developing Department-wide 
program management standards and doctrine. The measure calculates the 
percent of Departmental Major Initiatives adhering to the program/
project management standards identified.
    b. In terms of those metrics, how did the office perform during 
fiscal year 2011 and how is it projected to perform during fiscal years 
2012 and 2013?
    Response. As the above performance measures were just introduced in 
the fiscal 2013 budget, we do not have data for fiscal 2011; however, 
in fiscal 2011 the ePMO set the conditions for and implemented a 
program management framework to begin transforming Department-wide 
business processes and foster accountability throughout the Department. 
Significant accomplishments in FY 2011 include:

    <bullet> As the designated auditor for Department-level 
transformational programs with an estimated value of $2.6 billion, ePMO 
conducted detailed execution reviews and ``lockdowns'' from February 
through early June to verify contract baselines and build procurement 
packages for the major initiative (MI) information technology (IT) 
projects. These efforts resulted in 387 procurement packages being 
awarded or made actionable, for a total value of $785 million. This 
amount accounts for 100 percent of the MI IT funded procurements for FY 
2011.
    <bullet> Created requirements and implemented required core program 
management (PM) supporting documents, including work breakdown 
structures, integrated master schedules, and risk registers. The 
establishment of these PM artifacts has resulted in the implementation 
of a disciplined program management framework within the Department.
    <bullet> Established a contract change control process to ensure 
any adjustments are well coordinated across the Department, including 
the MIs, the Office of Information and Technology (OIT), and the Office 
of Acquisition Logistics and Construction (OALC).
    <bullet> Completed an extensive prioritization effort for the FY 
2012 MI IT budget by gathering required data on 120 IT projects and 
guiding the designated voting panel through several rounds of 
discussion and voting. The process was so successful it has been 
adopted by the OIT; and is being applied to all internal prioritization 
needs.
    <bullet> Created a strategic acquisition framework to guide key 
phases/decisions for VA programs.

    In addition to the performance metric described above, FY 2012 
objectives for the ePMO include:

    <bullet> Establishment and implementation of a comprehensive 
program assessment tool to gauge program maturity.
    <bullet> Creation of a well-defined process to establish programs 
with well-articulated and validated requirements, supported by 
holistic, transparent, well-understood, and consistently applied 
program/project management practices.
    <bullet> Development of comprehensive certification and/or 
credential requirements for program managers.
    <bullet> Development and implementation of acquisition program 
lifecycle doctrine across VA.
    <bullet> Establishment of requirements development and management 
doctrine within VA that aligns the VA strategic plan, planning, 
programming, budgeting, and evaluation process, and enterprise-wide 
solutions.
    <bullet> Creation of a comprehensive program management lessons 
learned and best practices repository.
    <bullet> Creation of mechanisms to communicate proposed business 
process improvements to process owners and VA leaders.
    <bullet> Creation of mechanisms to monitor process and/or business 
owner implementation of appropriate process improvements.

    Question 4. According to VA's Fiscal Year 2011 Performance and 
Accountability Report, the Office of Policy and Planning ``[c]reated a 
planning, programming, budgeting, and evaluation (PPBE) process, which 
established a 2012 program baseline; delivered a prototype programming 
database to demonstrate programming concepts and capabilities; issued 
integrated programming/budgeting guidance for the 2013-2017 resource 
cycle; and established a PPBE integration team to ensure 
synchronization, coordination, and synergy of VA's PPBE efforts.''
    a. How much was spent for this office to develop a ``planning, 
programming, budgeting, and evaluation * * * process?''
    Response. The Office of Corporate Analysis and Evaluation (CAE) is 
responsible for leading the development of a corporate planning, 
programming, budgeting, and evaluation (PPBE) process and a multi-year 
programming capability within VA. In
    FY 2011, total obligations for CAE were $4.122 million, which 
included both government FTE and contract support.
    b. How many individuals perform work for the ``PPBE integration 
team?''
    Response. In FY 2012, within OPP, 14 individuals in CAE work for 
the PPBE integration team. The same number is expected for FY 2013.
    c. What measurable outcomes are attributable to these efforts?
    Response. In 2011, the OPP revamped its performance measures to 
create metrics that are relevant and measurable. These updated metrics 
were introduced in the FY 2013 budget request. One of these measures 
specifically applies to CAE's mission to create a PPBE process. The 
measure calculates the percentage of VA resource requirements that are 
aligned to the 5-year program, with clear end-state and outcomes.
    d. How much is requested for these purposes for fiscal year 2013?
    Response. The FY 2013 request for CAE is $4.575 million, which 
includes both government FTE and contract support.
Office of Operations, Security, and Preparedness
    Question 1. For fiscal year 2013, the Office of Operations, 
Security, and Preparedness requests $18.5 million and 102 employees. 
Please provide a list of the positions that would be filled with that 
funding and the pay-grades for those positions.
    Response. The OSP request of $18.5 million is the total budget 
request for the Office. The personnel services portion of that request 
is $12.9 million to support 102 FTE.


----------------------------------------------------------------------------------------------------------------
   Series         Grade                          Title                                Position/Office
----------------------------------------------------------------------------------------------------------------
SES           ES             Director, Personnel Security and Identity     Personnel Security & Identity
                              Management                                    Management
----------------------------------------------------------------------------------------------------------------
GS-0080       11             Security Specialist                           Personnel Security & Identity
                                                                            Management
----------------------------------------------------------------------------------------------------------------
GS-0080       12             Security Specialist                           Personnel Security & Identity
                                                                            Management
----------------------------------------------------------------------------------------------------------------
GS-0080       12             Security Specialist                           Personnel Security & Identity
                                                                            Management
----------------------------------------------------------------------------------------------------------------
GS-0080       12/13          Special Security Representative               National Security
----------------------------------------------------------------------------------------------------------------
GS-0080       12/13          Special Security Representative (ROS)         Contingency Operations
----------------------------------------------------------------------------------------------------------------
GS-0080       13             Physical Security Specialist                  Homeland Security Presidential
                                                                            Directive-12
----------------------------------------------------------------------------------------------------------------
GS-0080       14             Acting Director/Deputy Director, PSS          Personnel Security & Suitability
                                                                            Service
----------------------------------------------------------------------------------------------------------------
GS-0080       14             Special Security Officer                      National Security
----------------------------------------------------------------------------------------------------------------
GS-0301       12/13          Emergency Management Spec (Training)          Planning
----------------------------------------------------------------------------------------------------------------
GS-1811       12/13          Criminal Investigator (Watch officer)         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator                         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator                         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator                         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator                         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator (Watch officer)         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       13             Criminal Investigator (Watch officer)         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       14             Chief                                         Criminal Investigator
----------------------------------------------------------------------------------------------------------------
GS-1811       15             Director, Police Service                      Police Lead
----------------------------------------------------------------------------------------------------------------
GS-301        11/12/13       Staff Assistant                               Special Assistant to the A/S
----------------------------------------------------------------------------------------------------------------
GS-301        14             Senior Staff Assistant to DAS--Office of      Staff Assistant
                              Emergency Management (OEM)
----------------------------------------------------------------------------------------------------------------
GS-301        11             Staff Assistant                               Operations
----------------------------------------------------------------------------------------------------------------
GS-301        11             Readiness Operation Spec                      Contingency Operations
----------------------------------------------------------------------------------------------------------------
GS-301        11             Staff Assistant                               Support
----------------------------------------------------------------------------------------------------------------
GS-301        11/12/13       Emergency Management Spec (DHS LNO)           Planning
----------------------------------------------------------------------------------------------------------------
GS-301        11/12/13       Emergency Management Spec (Exercise)          Planning
----------------------------------------------------------------------------------------------------------------
GS-301        11/12/13       Emergency Management Spec (Planner/LNO)       Planning
----------------------------------------------------------------------------------------------------------------
GS-301        12             Readiness Operation Spec. (Supv; Director     Contingency Operations
                              Site C)
----------------------------------------------------------------------------------------------------------------
GS-301        12/13          Emergency Management Spec (Continuity)        Planning
----------------------------------------------------------------------------------------------------------------
GS-301        12/13          Emergency Management Spec (Evaluator)         Planning
----------------------------------------------------------------------------------------------------------------
GS-301        12/13          Program Analyst
----------------------------------------------------------------------------------------------------------------
GS-301        12/13          Readiness Operations Specialist (NOC          Integrated Operations Center
                              Liaison)
----------------------------------------------------------------------------------------------------------------
GS-301        13             Readiness Operation Spec (Supv; Deputy        Contingency Operations
                              Director for SiteB)
----------------------------------------------------------------------------------------------------------------
GS-301        13             Readiness Operation Spec (Team Lead)          IOC
----------------------------------------------------------------------------------------------------------------
GS-301        14             Emergency Management Spec                     National Security
----------------------------------------------------------------------------------------------------------------
GS-301        14             Lead Emergency Mgt. Spec                      Planning
----------------------------------------------------------------------------------------------------------------
GS-301        14             Readiness Operation Spec (Supv)               Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        14             Readiness Operation Spec (Supv; Site B        Contingency Operations
                              Director)
----------------------------------------------------------------------------------------------------------------
GS-301        14             Team Lead/Exercises                           Planning
----------------------------------------------------------------------------------------------------------------
GS-301        15             Director, HSPD-12 Program Management Office   Homeland Security Presidential
                                                                            Directive-12
----------------------------------------------------------------------------------------------------------------
GS-301        15             Dir--Emergency Management Spec                Director, EM
----------------------------------------------------------------------------------------------------------------
GS-301        15             Director, Resource Management                 Director, ORM
----------------------------------------------------------------------------------------------------------------
GS-301        15             Director/(Supv.) VA IOC (FY 12)               Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        7              Program Specialist                            Personnel Identification Verification
                                                                            Office
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operations Specialist               Contingency Operations
----------------------------------------------------------------------------------------------------------------
GS-301        9/11/12        Readiness Operation Spec                      Integrated Operations Center
----------------------------------------------------------------------------------------------------------------
GS-303        7              Program Support Assistant                     Operations
----------------------------------------------------------------------------------------------------------------
GS-341        13             Administrative Officer                        Operations
----------------------------------------------------------------------------------------------------------------
GS-343        14             Management Analyst                            Budget Analyst
----------------------------------------------------------------------------------------------------------------
GS-343        14             Management Analyst                            Administrative Officer
----------------------------------------------------------------------------------------------------------------
GS-343        14             Management Analyst                            Resource Manager
----------------------------------------------------------------------------------------------------------------
GS-343        11             Director, PIV Office                          Homeland Security Presidential
                                                                            Directive
----------------------------------------------------------------------------------------------------------------
GS-343        11             Program Analyst                               Homeland Security Presidential
                                                                            Directive
----------------------------------------------------------------------------------------------------------------
GS-343        11/12/13       Management Analyst (Planner/LNO)              Planning
----------------------------------------------------------------------------------------------------------------
GS-343        13             Program Analyst                               Homeland Security Presidential
                                                                            Directive-12
----------------------------------------------------------------------------------------------------------------
GS-343        13             Program Analyst                               Operations
----------------------------------------------------------------------------------------------------------------
GS-343        13             Program Analyst--GIS                          Planning
----------------------------------------------------------------------------------------------------------------
GS-343        14             Deputy Director, HSPD-12                      Homeland Security Presidential
                                                                            Directive-12
----------------------------------------------------------------------------------------------------------------
GS-343        14             Senior Policy Analyst                         Support
----------------------------------------------------------------------------------------------------------------
GS-343        9/11/12        Program Analyst--Geographic Information       Planning
                              System
----------------------------------------------------------------------------------------------------------------
SES           SES            DAS OEM                                       DAS OEM
----------------------------------------------------------------------------------------------------------------
SES           SES            Director, Security & Law Enforcement          OSLE Lead
----------------------------------------------------------------------------------------------------------------
GS-301        12             Program Analyst                               Program Analyst
----------------------------------------------------------------------------------------------------------------
GS-301        13             Staff Assistant to Director ORM               Staff Assistant
----------------------------------------------------------------------------------------------------------------
                             Assistant Secretary                           Assistant Secretary
----------------------------------------------------------------------------------------------------------------


    Question 2. For fiscal year 2013, the Office of Operations, 
Security, and Preparedness requests $4 million for Other Services. 
Please provide a specific itemized list of how these funds would be 
spent. To the extent any of these funds will be spent on contracts, 
please explain the nature of the contract and the expected outcomes.
    Response. OSP uses contract support in the following areas: 
Department of Homeland Security/Federal Protective Service (DHS/FPS) 
Contract Guards for the GSA leased spaces in the Capital Region ($2.7 
million); Contract support from FEMA for the Continuity of Government 
spaces ($200,000); and Program support for the HSPD-12 program 
management office ($1 million). We also pay for support for our 
Continuity of Operations sites and Continuity of Government sites which 
are located outside of the National Capital Region ($200,000). 
Additionally, we have some maintenance contracts for equipment.

    Question 3. According to the fiscal year 2013 budget request, the 
Office of Operations, Security, and Preparedness now expects to spend 
$1.1 million on equipment during fiscal year 2012, which is 86% higher 
than the amount requested for fiscal year 2012 ($611,000), and that 
office requests $436,000 for equipment for fiscal year 2013.
    a. Please explain what led to the expected increase in equipment 
expenditures during fiscal year 2012 and how that funding ($525,000) 
was originally expected to be spent.
    Response. The increase was due to delays in construction of the new 
VA Integrated Operations Center (IOC) which caused delays in 
procurement of the initial outfitting and furnishing of those spaces. 
The original amount of funding was the initial estimate to complete 
initial outfitting and furnishing of the new Reconstitution site at 
Site C. Contract awards for all initial outfitting for both sites will 
occur in the 4th quarter of FY 2012. Initial outfitting includes desks/
workstations, chairs and miscellaneous office needs initially 
identified during the planning phase of the projects. Final outfitting 
would be for items identified after the new spaces have been in use for 
a period of time.
    b. Please provide an explanation of how these funds are expected to 
be expended during fiscal year 2012 and fiscal year 2013.
    Response. The $1.1 million consists of $700K carried over from FY 
2011 for furniture and initial outfitting of the new VAIOC. 
Construction delays caused a change in the procurement timeline. The 
other $400K is for furniture and initial outfitting of the new Site C 
facility being constructed in FY 2012.
    The funds identified for use in FY 2013 are for final outfitting 
for both sites as needed, and for possible reconfiguration and re-
outfitting of the spaces currently being used as the VA IOC.
Office of Public and Intergovernmental Affairs
    Question 1. For fiscal year 2013, the Office of Public and 
Intergovernmental Affairs requests a total of $26.5 million and 94 
employees. Please provide a list of the positions that would be filled 
with that funding and the pay-grades for those positions.

          Office of Public and Intergovernmental Affairs (OPIA)
                        Employees Position Report
------------------------------------------------------------------------
                                    Position Title            Grade  FTE
------------------------------------------------------------------------
                     Office of the Assistant Secretary
      1                 Assistant Secretary...............   SES    1
      2                 Staff Assistant...................    12    1
      3                 Executive Director................   SES    1
      4                 Program Analyst...................    12    1
      5                 Program Support Asst (OA).........    11    1
      6                 Staff Assistant...................    14    1
      7                 Chief of Staff....................    15    1

       Office of National Veterans Sports Programs and Special Events
      1                 Public Affairs Specialist.........    14    1
      2                 Staff Assistant...................     9    1
      3                 Public Affairs Specialist.........    14    1
      4                 Program Manager...................    13    1
      5                 Program Specialist................     9    1
      6                 Program Management Officer........    15    1
      7                 Consultant........................   N/A    1
      8                 Program Specialist................    13    1
      9                 Program Specialist................    11    1
   Vacant               Deputy Director...................    15    1

              Office of National Tribal Governmental Relations
      1                 Program Specialist................    14    1
      2                 Director..........................   SES    1
      3                 Program Specialist................    13    1
      4                 Program Specialist................    12    1
      5                 Program Specialist................    13    1

                    Office of Intergovernmental Affairs
      1                 Deputy Assistant Secretary........   SES    1
      2                 Clerk.............................     4    1
      3                 Program Analyst...................    14    1
      4                 Program Support Assistant.........    10    1
      5                 Program Support Asst (OA).........     9    1
      6                 Program Analyst...................    14    1
      7                 Program Analyst...................    14    1

                  Office of Homeless Veterans Initiatives
      1                 Director..........................   SES    1
      2                 Program Specialist................    15    1
      3                 Program Specialist................    12    1
      4                 Program Support Asst (Typ)........     7    1
      5                 Staff Assistant...................    14    1
      6                 Program Specialist................     9    1
      7                 Administrative Officer............    12    1
      8                 Management Analyst................    14    1
      9                 Program Specialist................    14    1
     10                 Program Analyst...................    14    1
     11                 Program Analyst...................    14    1
     12                 Management Analyst................    12    1
     13                 Deputy Director...................    15    1
     14                 Program Analyst...................    14    1
     15                 Program Specialist................    14    1

                      Office of Online Communications
      1                 Public Affairs Specialist.........    14    1
      2                 Public Affairs Specialist.........    11    1
      3                 Public Affairs Specialist.........    12    1
      4                 Public Affairs Specialist.........    11    1
      5                 Program Specialist................    13    1

                          Office of Public Affairs
      1                 Program Support Assistant.........    10    1
      2                 Public Affairs Specialist.........    15    1
      3                 Public Affairs Specialist.........    15    1
      4                 Public Affairs Specialist.........    15    1
      5                 Dep Assistant Secretary...........   SES    1
      6                 Public Affairs Specialist.........    15    1
      7                 Public Affairs Specialist.........    15    1
      8                 Special Assistant.................    14    1

                         Office of Media Relations
      1                 Public Affairs Specialist.........    15    1
      2                 Program Support Asst (OA).........     7    1
      3                 Public Affairs Specialist.........    13    1
      4                 Student Trne......................     5    1
      5                 Public Affairs Specialist.........    14    1
      6                 Public Affairs Specialist.........    14    1
      7                 Public Affairs Specialist.........    14    1
      8                 Public Affairs Specialist.........    14    1

                Office of Public Relations Regional Offices
      1                 Public Affairs Specialist.........    11    1
      2                 Public Affairs Specialist.........    14    1
      3                 Public Affairs Specialist.........    14    1
      4                 Public Affairs Specialist.........    13    1
      5                 Public Affairs Specialist.........    13    1
      6                 Public Affairs Specialist.........    14    1
      7                 Public Affairs Specialist.........    13    1
      8                 Public Affairs Specialist.........    13    1
      9                 Public Affairs Specialist.........    13    1
     10                 Public Affairs Specialist.........    14    1
     11                 Public Affairs Specialist.........    14    1
     12                 Public Affairs Specialist.........    11    1
     13                 Public Affairs Specialist.........    13    1
     14                 Public Affairs Specialist.........    14    1
     15                 Public Affairs Specialist.........    13    1
     16                 Public Affairs Specialist.........    11    1
     17                 Public Affairs Specialist.........    14    1
     18                 Public Affairs Specialist.........    11    1
     19                 Program Support Asst (OA).........     7    1
     20                 Public Affairs Specialist.........    14    1
     21                 Public Affairs Specialist.........    11    1
     22                 Public Affairs Specialist.........    11    1

                          Office of Media Products
      1                 Public Affairs Specialist.........    15    1
      2                 Public Affairs Specialist.........    14    1
      3                 Public Affairs Specialist.........    13    1
      4                 Public Affairs Specialist.........    14    1
      5                 Public Affairs Specialist.........    11    1
      6                 Public Affairs Specialist.........    13    1
      7                 Student Trainee...................     7    1
      8                 Public Affairs Specialist.........    11    1
                       -------------------------------------------------
                        Total FTE.........................         94
------------------------------------------------------------------------


    Question 2. For fiscal year 2013, the Office of Public and 
Intergovernmental Affairs requests $8.5 million for purposes of the 
Paralympics program.
    a. During fiscal year 2012, how much is expected to be dispersed 
through this grant program, what percentage of those funds are expected 
to be used to pay the salary costs for employees of the U.S. Olympic 
Committee/U.S. Paralympics, and how much is expected to be spent on 
non-salary administrative costs by the U.S. Olympic Committee?
    Response. In FY 2012, $7.5 million will be dispersed through the 
grant program. Currently, 13.33 percent is projected to be used to pay 
the salary costs for employees of the U.S. Olympic Committee/U.S. 
Paralympics. The U.S. Olympic Committee/U.S. Paralympics is projecting 
to use other sources to fund administrative costs for the U.S. 
Paralympics Integrated Adaptive Sport Program, and use the grant 
received from VA for designated programs.
    b. During fiscal year 2013, how much is expected to be dispersed 
through this grant program, what percentage of those funds are expected 
to be used to pay the salary costs for employees of the U.S. Olympic 
Committee/U.S. Paralympics, and how much is expected to be spent on 
non-salary administrative costs by the U.S. Olympic Committee?
    Response. In FY 2013, the expected amount to be dispersed through 
the grant program is the same as the FY 2012 amount, as is the 
disbursement plan.

    Question 3. According to the fiscal year 2013 budget request, the 
Office of Public and Intergovernmental Affairs now expects to spend $4 
million on Other Services during fiscal year 2012, which is 152% higher 
than the amount requested for fiscal year 2012 ($1.6 million), and that 
office requests $1.5 million for Other Services for fiscal year 2013.
    a. Please explain what led to the expected increase in Other 
Services during fiscal year 2012 and how that funding ($2.4 million) 
was originally expected to be spent.
    Response. The Other Services funding level changes are a result of 
carryover funding. Estimates at the time of budget submission were that 
a carryover of $2.4 million would be needed, based on office 
requirements. After further review, FY 2011 funding of $2.3 million was 
carried over to FY 2012.
    b. Please provide an itemized list of how these funds are expected 
to be expended during fiscal year 2012 and fiscal year 2013. To the 
extent any of these funds will be spent on contracts, please explain 
the nature of the contract and the expected outcomes.
    Response. The OPIA carried over $2.3 million from FY 2011 to FY 
2012. In the President's 2013 budget, these resources were planned to 
be expended in 2012 for the following purposes:

    1. For grant allowance subsidy for payout in Sept/Oct timeframe by 
the National Sports Programs and Special Events. Estimated expenditure: 
$300,000.
    2. For contract services to update the Web site and establish a 
social media section on the Web page for Veterans who are training to 
use Facebook and blogs to track their way to Gold in the London 2012 
Games. Also to produce videos for disabled Veterans who are training. 
Estimated expenditure: $600,000.
    3. For contract services to do an in-depth cost benefit analysis of 
the VA National Veterans Sports Programs & Special Events Office grants 
and the cost to the VA to provide the six national events. The goal is 
to capture VA's cost estimate of Return on Investment for both 
programs, and to assist in providing recommendations for program office 
enhancements. Estimated expenditure: $350,000.
    4. To help support the Warrior Games in 2012. VA awarded a grant to 
the United States Olympic Committee to support the Warrior Games. Last 
year more than 30 percent of the athletes were Veterans. Estimated 
expenditure: $250,000.
    5. Provide two adaptive sport-specific camps for elite athlete 
Veterans and members of the Armed Forces. Estimated expenditure: 
$150,000.
    6. For programs to provide expertise in the national, regional, and 
community-based Paralympic and adaptive sport programs, including 
integration of diverse Veteran Service Organization, Paralympic Sport 
Club, and state and local government entities. Estimated expenditure: 
$150,000.
    7. OPIA estimates that $500,000 will be required to stand up and 
implement the National Veterans Outreach (NVO) office. VA created the 
NVO office within OPIA in FY 2010 to coordinate outreach throughout VA, 
and to standardize outreach-related activities. Estimated expenditure: 
$500,000.

    Question 4. According to the fiscal year 2013 budget request, the 
Office of Public and Intergovernmental Affairs now expects to spend 
$1.1 million on travel during fiscal year 2012, which is 70% higher 
than the amount requested for fiscal year 2012 ($660,000), and that 
office requests $1.1 million for travel for fiscal year 2013.
    a. Please explain what led to the expected increase in travel 
during fiscal year 2012 and how that funding ($465,000) was originally 
expected to be spent.
    Response. Previously known as the Homeless Veteran Program Office, 
the Homeless Veteran Initiative Office (HVIO) expected an FY 2012 
travel increase of $465,000, at the time of the FY 2013 Budget release. 
That figure has since been decreased by $285,000. The original FY 2012 
travel increase of $465,000 was to support OPIA's Homeless HVIO travel 
connected to VA's efforts to end Veterans' homelessness, which is one 
of the Department's top priorities.
    b. How many trips is that level of funding expected to support each 
year and what is the average expected cost per trip?
    Response. Although HVIO FY 2012 original travel increase was 
$465,000, that figure has since been decreased by $285,000. HVIO FY 
2012 current estimate travel budget is $165,000, with an estimate of 
122 trips, at an average cost of $1,352.00 to include VA staff and 
members of VA's Advisory Committee for Homeless Veterans.
Office of Congressional and Legislative Affairs
    Question 1. For fiscal year 2013, the Office of Congressional and 
Legislative Affairs requests $6.3 million and 48 employees. Please 
provide a list of the positions that would be filled with that funding 
and the pay-grades for those positions.
    Response. In FY 2013, the Office of Congressional and Legislative 
Affairs (OCLA) is requesting a total budget of $6.3 million that will 
fund an average of 48 FTE.
    The specific positions that would be supplemented by this funding, 
and their associated pay-grades are outlined below:

    1) Assistant Secretary for Congressional and Legislative Affairs 
(PAS)
    2) Deputy Assistant Secretary for Congressional and Legislative 
Affairs (Political Appointment--SES)
    3) Associate Deputy Assistant Secretary for Congressional and 
Legislative Affairs (Career SES)
    4) Special Assistant to the Assistant Secretary (Schedule C GS-15)
    5) Special Assistant to the Assistant Secretary (Schedule C GS-14)
    6) Director of Operations (GS-15)
    7) Director, Legislative Affairs Service (GS-15)
    8) Director, Congressional Liaison Service (GS-15)
    9) Director, Benefits Legislative Affairs Service (GS-15)
    10) Director, Health Legislative Affairs Service (GS-15)
    11) Director, Corporate Enterprise Legislative Affairs Service (GS-
15)
    12) Assistant Director, Congressional Liaison Service (GS-14)
    13) Advisory Committee Management Officer (GS-14)
    14) Administrative Officer (GS-14)
    15) Administrative Officer (GS-14)
    16) Executive Correspondence Analyst (GS-14)
    17) GAO Liaison Team Leader (GS-14)
    18) Congressional Relations Officer--Legislative (GS 12/13/14)
    19) Congressional Relations Officer--Benefits (GS-12/13/14)
    20) Congressional Relations Officer--Benefits (GS-12/13/14)
    21) Congressional Relations Officer--Health (GS-12/13/14)
    22) Congressional Relations Officer--Health (GS-12/13/14)
    23) Congressional Relations Officer--Health (GS-12/13/14)
    24) Congressional Relations Officer--Health (GS-12/13/14)
    25) Congressional Relations Officer--Corporate Enterprise (GS-12/
13/14)
    26) Congressional Relations Officer--Corporate Enterprise (GS-12/
13/14)
    27) Congressional Relations Officer--Corporate Enterprise (GS-12/
13/14)
    28) Congressional Relations Officer--Corporate Enterprise (GS-12/
13/14)
    29) Senior Congressional Liaison Representative (GS-13)
    30) Congressional Liaison Officer (GS-13)
    31) GAO Liaison (GS-13)
    32) Congressional Liaison Representative (GS-12)
    33) Congressional Liaison Representative (GS-12)
    34) Congressional Liaison Representative (GS-12)
    35) Program Analyst--Health (GS-12)
    36) Correspondence Analyst (GS-11)
    37) Program Analyst--Congressional Liaison Service (GS 9/11)
    38) Program Analyst--Congressional Liaison Service (GS-11)
    39) Program Analyst--Benefits (GS-11)
    40) Program Analyst--Legislative Affairs Service (GS-11)
    41) Program Analyst--Corporate Enterprise (GS-11)
    42) Staff Assistant (GS-11)
    43) Program Analyst (GS-9/11)
    44) Staff Assistant (GS-9/11)
    45) Senior Congressional Liaison Assistant (GS-9)
    46) Staff Assistant (GS-8)
    47) Congressional Liaison Assistant (GS-8)
    48) Congressional Liaison Assistant (GS-7)

    Question 2. According to the fiscal year 2013 budget request, the 
Office of Congressional and Legislative Affairs now expects to spend 
$180,000 on Other Services (Contracts, Agreements, etc) during fiscal 
year 2013, which is 65% higher than the amount requested for fiscal 
year 2012 ($109,000), and that office requests $180,000 for Other 
Services for fiscal year 2013.
    Response. OCLA's FY 2012 budget operating plan was revised 
following receipt of the year's final budget. The revised plan for FY 
2012 is outlined below (funding figures in thousands):

                                 FY 2012
------------------------------------------------------------------------

------------------------------------------------------------------------
Average employment.........................................         48

Personnel Services.........................................     $5,761
Travel.....................................................       $164
Printing and reproduction..................................        $13
Other services.............................................       $368
Supplies and materials.....................................       $130
                                                            ------------
Total authority............................................     $6,436
------------------------------------------------------------------------

    OCLA's projected FY 2013 updated budget operating plan is listed 
below:

                                 FY 2013
------------------------------------------------------------------------

------------------------------------------------------------------------
Average employment.........................................         48

Personnel Services.........................................     $5,761
Travel.....................................................       $166
Printing and reproduction..................................        $13
Other services.............................................       $287
Supplies and materials.....................................        $75
                                                            ------------
Total authority............................................     $6,302
------------------------------------------------------------------------


    a. Please explain what led to the expected increase in Other 
Services during fiscal year 2012 and how that funding ($71,000) was 
originally expected to be spent.
    Response. OCLA implemented a congressional knowledge management 
system during FY 2011. This system is used to track congressional 
inquiries and other related congressional requests to centralize 
information and monitor status. OCLA estimated the annual lease fees 
for the system to be approximately $82,000.00. This resulted in the 
increase in other services, as FY 2013 would be the first full year of 
the lease. However, additional savings are anticipated to be identified 
through the review of existing contracts.
    OCLA expects a net reduction in the Other Services category of 
$81,000.00; the FY 2013 request is $287,000.00.
    b. Please provide an itemized list of how these funds are expected 
to be expended during fiscal year 2012 and fiscal year 2013. To the 
extent any of these funds will be spent on contracts, please explain 
the nature of the contract and the expected outcomes.
    Response. Below is an itemized list of how these funds are expected 
to be expended during FY 2012 and FY 2013. Contracts are listed below 
with explanations and desired outcomes.

    (1) Congressional Quarterly Web site
          a. FY 2012: $89,931.00 Est. Cost FY 2013: $95,000 (based on 
        last year's estimate of a $4,200 increase)
          b. Subscription service for access to Congressional Quarterly 
        Web site.
    (2) Service Level Agreement (SLA) (Financial Service Center)
          a. FY 2012--$3,133.02 Est. Cost FY 2013: $3,133.02
          b. SLA is with the Austin Finance Center for the 
        administration of pay and travel.
    (3) Defense Finance and Accounting Services (DFAS)
          a. FY 2012: $3896.15 Est. Cost FY 2013: $3896.15
          b. DFAS accounting database.
    (4) Franchise Fund Payment (FDM)
          a. FY 2011: $316.00 (not billed until end of FY) FY 2012: 
        anticipate similar charge for FY 2012 and FY 2013
    (5) Congressional Knowledge Management System (CKMS)
          a. FY 2012: $22,000.00 Est. Cost FY 2013: $82,000.00
          b. CKMS was implemented in FY 2011. Payment of the partial 
        lease is due in FY 2012. The full lease costs will be incurred 
        in FY 2013.

    Question 3. According to the fiscal year 2013 budget request, the 
Office of Congressional and Legislative Affairs now expects to spend 
$198,000 on supplies and materials during fiscal year 2012, which is 
57% higher than the amount requested for fiscal year 2012 ($126,000), 
and that office requests $198,000 for supplies and materials for fiscal 
year 2013.
    Response. OCLA's FY 2012 budget operating plan was revised 
following receipt of the year's final budget. The revised plan for FY 
2012 is outlined below (funding figures in thousands):

                                 FY 2012
------------------------------------------------------------------------

------------------------------------------------------------------------
Average employment.........................................         48

Personnel Services.........................................     $5,761
Travel.....................................................       $164
Printing and reproduction..................................        $13
Other services.............................................       $368
Supplies and materials.....................................       $130
                                                            ------------
  Total authority..........................................     $6,436
------------------------------------------------------------------------

    OCLA's projected FY 2013 updated budget operating plan is listed 
below:

                                 FY 2013
------------------------------------------------------------------------

------------------------------------------------------------------------
Average employment.........................................         48

Personnel Services.........................................     $5,761
Travel.....................................................       $166
Printing and reproduction..................................        $13
Other services.............................................       $287
Supplies and materials.....................................        $75
                                                            ------------
  Total authority..........................................     $6,302
------------------------------------------------------------------------

    a. Please explain what led to the expected increase in supplies and 
materials during fiscal year 2012 and how that funding ($72,000) was 
originally expected to be spent.
    Response. The FY 2013 budget request was amended and the amount 
requested for OCLA ``Supplies and Materials'' has been adjusted to 
$75,000.00. This amount is actually $51,000.00 less than current year 
spending.
    The reduction in ``Supplies and Materials'' is a result of 
continuing stewardship and renewed focus on efficient use of resources.
    b. Please provide an itemized list of how these funds are expected 
to be expended during fiscal year 2012 and fiscal year 2013.
    Response. Major Expenditures during FY 2012 and projected in FY 
2013 are:


Copier Lease (Xerox)..............................    FY 2012: $3,000.12
                                                      FY 2013: $3,000.12

Copier Lease (Xerox)..............................    FY 2012: $3,744.44
                                                      FY 2013: $3,744.44

Copier Yearly (Ricoh) Maintenance Agreement.......    FY 2012: $3,661.44
                                                      FY 2013: $3,661.44

Copier Yearly (Ricoh) Maintenance Agreement.......    FY 2012: $5,326.80
                                                      FY 2013: $5,326.80

Periodicals, Newspapers, Congressional               FY 2012: $27,759.35
 Directories, Other Congressional subscription
 services, etc....................................
                                                     FY 2013: $20,000.00

Office Supplies, Toner, Projector Screens,           FY 2012: $39,593.37
 Replacement TVs, etc.............................
                                                     FY 2013: $39,000.00


    The request of $75,000.00 for ``Supplies and Materials'' 
represents, as a percentage of the total office budgetary request, 
approximately 1.2% of the $6.3 million requested for annual operations. 
OCLA consistently tries to reduce costs associated with supplies and 
materials.

    Question 4. In connection with VA's fiscal year 2012 budget 
request, the Office of Congressional and Legislative Affairs indicated 
that, in 2010, it had ``defined performance measures and metrics for 
the office.''
    a. In terms of those measures and metrics, please assess the 
performance of the Office of Congressional and Legislative Affairs 
during fiscal year 2011.
    Response. Below please find a summary of OCLA's workload and 
relevant performance metrics:

------------------------------------------------------------------------
                             FY 2011                               Total
------------------------------------------------------------------------
Hearings.........................................................     46
Briefings........................................................    454
------------------------------------------------------------------------

    Responsiveness:

    <bullet> Percentage of responses to pre and post-hearing questions 
for the record that are submitted to Congress within the required 
timeframe:  90%
    <bullet> Percentage of testimony submitted to Congress within the 
required timeframe:  98%
    <bullet> Percentage of Title 38 reports that are submitted to 
Congress within the required timeframe:  33%

    Government Accountability Office (GAO) Activities:  168
        (activities include entrance conferences, exit conferences, 
        draft reports, final reports)

    OCLA Liaison Service:
    Inquires:  19,642 (includes letters, e-mails, phone calls, walk-
ins)
    Closed letters:  4,368

    Advisory Committee Meetings:  44

    b. In terms of those measures and metrics, what performance 
outcomes are expected during fiscal year 2012?
    Response. OCLA expects to sustain its FY 2011 performance outcomes. 
Specific target goals are:

    <bullet> Percentage of responses to pre- and post-hearing questions 
for the record that are submitted to Congress within the required 
timeframe:  85%
    <bullet> Percentage of testimony submitted to Congress within the 
required timeframe:  90%
    <bullet> Percentage of Title 38 reports that are submitted to 
Congress within the required timeframe:  85%

    OCLA will continue to focus on process improvements and 
performance, especially in the area of congressionally mandated 
reports.
    c. In terms of those measures and metrics, what performance 
outcomes are expected during fiscal year 2013 if the requested level of 
funding is provided?

    Response. OCLA expects to achieve the following performance 
outcomes in FY 2013:

    <bullet> Percentage of responses to pre- and post-hearing questions 
for the record that are submitted to Congress within the required 
timeframe:  90%
    <bullet> Percentage of testimony submitted to Congress within the 
required timeframe:  90%
    <bullet> Percentage of Title 38 reports that are submitted to 
Congress within the required timeframe:  85%
Office of Acquisition, Logistics, and Construction
    Question 1. For fiscal year 2013, the Office of Acquisitions, 
Logistics, and Construction requests $13.9 million for Other Services. 
Please provide an itemized list of how these funds will be spent. To 
the extent any of these funds will be spent on contracts, please 
explain the nature of the contract and the expected outcomes.
    Response. The $13.9 million requested by the Office of 
Acquisitions, Logistics, and Construction (OALC) for Other Services in 
FY 2013 will be spent as shown in the table below.


                  Administrative Overhead, non-contract

Training.........................     $295,000
Permanent Change of Station moves     $893,000
Repair of Furniture & equipment..      $49,000
Maintenance & repair services....      $43,000
                                  --------------
  Total..........................   $1,280,000
                                  ==============
             Support Agreements with Other Federal Agencies

Financial Service Center (FSC)        $360,000  VA centralized Finance
 SLA.                                            Center
Security Investigations (SLA)....      $28,000  Employee security
                                                 investigations
Financial Disclosure SLA.........      $11,000  Financial disclosure &
                                                 ethics
Defense Finance & Accounting           $32,000  Payroll processing
 Service (DFAS).
VA Central Office Human Resources     $300,000  Support aggressive
 Service (CORHS).                                hiring schedule
                                  --------------
  Total..........................     $731,000
                                  ==============
            Essential Contract Support with Outside Agencies

Federal Facilities Council (FFC).      $30,000  Support new technologies
                                                 for design/construction
HCIP Reimbursement...............     $125,000  Workforce development
Advisory Council Historic             $182,000  National Historic
 Preservation Liaison.                           Preservation Act
National Institute of Building         $50,000  Building design support
 Sciences (NIBS).
Seismic Instrumentation..........      $58,000  Seismic instrument
                                                 maintenance
Western Regional Office Build Out   $1,210,000  Western regional office
                                                 expansion
Eastern Regional Office Build Out     $902,000  Eastern regional office
                                                 expansion
Western Regional Office Hoteling.   $1,200,000  Temporary space--Western
                                                 regional office
                                  --------------
  Total..........................   $3,757,000
                                  ==============
                VAFM Transformation Initiative Contracts

VAFM Transformation Initiative...   $1,434,000  Implementation of
                                                 Enterprise Facilities
                                                 Management system
SharePoint Contract..............   $1,200,000  Convert government off
                                                 the shelf (GOTS) IT to
                                                 existing platform
Process Documentation............     $246,000  Publish OALC/CFM
                                                 procedures
                                  --------------
  Total..........................   $2,880,000
                                  ==============
              Acquisition Improvement Initiative Contracts

Acquisition Improvement             $5,000,000  Develop acquisition
 Initiative.                                     workforce
                                  --------------
  Total..........................   $5,000,000
                                  ==============
                      OALC Transformation Contracts

OALC Transformation Contracts....     $246,000  Transform OALC lines of
                                                 business
  Total..........................     $246,000
                                  --------------
    Grand Total..................  $13,894,000
                                  ==============
  ...............................


                      office of inspector general
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                housing
    Question 1. VA has a number of tools available to assist veterans 
from losing homes guaranteed through the VA home loan program. In the 
unfortunate instances these programs do not work and a veteran goes 
into foreclosure or default, VA is required to reimburse the holder of 
the mortgage for up to 25% of the purchase price. In order to avoid 
incurring large costs to the Loan Guaranty Service and taxpayers, VA 
has the authority to purchase the properties from the banks and later 
sell the properties instead of paying the guaranty.
    a. Please provide the number of homes the VA Loan Guaranty Service 
has taken possession of during the last five years.
    b. How much has VA spent to acquire properties in the last five 
years, and how much has VA recouped in sales of those attained property 
assets?
    c. Of the properties that VA has acquired over the last five years, 
please detail the number of those properties VA still holds.
    d. Please detail the plan to dispose of the remaining properties 
held by VA.
    Response. [Question 1, a-d were answered in the prehearing 
responses.]
    e. What is the cost of upkeep for homes VA has taken possession of 
following a default or foreclosure of a VA-backed loan?
    Response. The average cost for upkeep of the 16,388 properties sold 
in FY 2011 was $4,533 per property, which includes taxes, maintenance 
costs, and capital improvements.
    f. What is the process for acquiring properties in both the 
Acquired and Vendee accounts?
    Response. VBA assumes that this question pertains to the process by 
which VA acquires refunded and vendee loans in its portfolio. VA 
occasionally acquires (purchases from the lender) VA-guaranteed loans 
when the Veteran borrower can resume regular monthly payments, but 
where the loan holder is unwilling or unable to modify the loan to cure 
the delinquency and make future payments affordable. These acquired 
(refunded) loans are then serviced by VA's contract portfolio servicer. 
While 67 percent of acquired (refunded) loans are performing, some 
delinquent loans are eventually foreclosed, with VA acquiring the 
properties. This is similar to the manner in which VA acquires VA-
guaranteed loan foreclosures.
    Properties that VA acquires after guaranteed loans are foreclosed 
are offered for sale with VA seller (vendee) financing. Vendee loans 
are serviced by VA's contract portfolio servicer until the loans are 
paid off or sold. If a Vendee Loan goes delinquent while VA owns it, 
and it is eventually terminated, then at the foreclosure sale, VA 
typically acquires the property that secured the loan and adds it to 
its inventory of properties available for sale.

    Question 2. The fiscal year 2012 VA budget request housing workload 
section for 2012 stated: ``The number of refinance loans will decrease 
as interest rates rise from the lower levels of 2011.'' The fiscal year 
2013 housing 2012 workload section states: ``In 2012, an increasing 
interest rate environment will reduce the number of Veteran borrowers 
able to lower the interest rates on their mortgages.'' According to 
Freddie Mac, since February 10, 2011, the U.S. 30-Year fixed rate 
mortgage rate has fallen from 5.05% to 3.87% on February 9, 2012.
    a. In light of U.S. 30-Year fixed rate mortgage rates continuing to 
stay near record lows, how will the projected number of borrowers able 
to refinance during 2012 be affected?
    Response. If mortgage rates continue to stay low during 2012, then 
borrowers who have not recently refinanced may have the ability and 
desire to exercise this option. However, if mortgage rates do not fall 
or stabilize, the vast majority of borrowers who wanted to refinance 
will have already done so, and VA's refinance volume growth will likely 
slow.
    b. How does this continued favorable interest rate environment for 
borrowers affect VA's workload and resource needs?
    Response. There are minimal effects on VA's workload and resource 
needs as a result of the current favorable interest rate environment 
for borrowers. Low or declining interest rates typically cause an 
increase in the number of Interest Rate Reduction Refinancing Loans 
(IRRRLs). No appraisal or credit underwriting package is required by VA 
on IRRRLs, and increased IRRRL activity does not necessitate an 
increase in resources.
    c. Please explain how VA projects changes in interest rates in 
order to develop workload statements for the annual budget submission.
    Response. VA uses economic assumptions from the Office of 
Management and Budget to determine estimates for interest rate changes, 
and subsequently workload projections and assumptions for the annual 
budget submission.

    Question 3. Veterans attempting to utilize their VA home loan 
entitlement have raised concerns to the Committee regarding the 
competitiveness of VA-backed loans as opposed to Federal Housing 
Administration (FHA) or other traditional mortgage products. There are 
limitations on the types of fees and other settlements cost veterans 
are allowed to pay, but there are no similar restrictions for veterans 
or non-veterans who use FHA or traditional mortgages. Veterans must be 
protected to ensure they are purchasing quality homes and are not taken 
advantage of at closing; however, veterans using VA home loans should 
not be adversely affected by overly stringent VA rules.
    a. What steps does VA take to ensure that veterans utilizing VA-
backed loans are competitive in the housing market?
    Response. VA's Loan Guaranty program is competitive in the 
marketplace, and in order to maintain the program's viability, VA 
continually strives to improve efficiency of operations and to 
effectively communicate with industry stakeholders who are critical to 
the delivery of loan guaranty benefits. VA balances stakeholder and 
Veteran needs with necessary safeguards and protections. Additionally, 
VA's Minimum Property Requirements ensure that Veterans purchase homes 
that are in safe, sound, and sanitary condition. Efforts to ensure that 
the program is competitive in the housing market are outlined below.
    Prior to October 1992, VA established the interest rate to be 
charged on VA-guaranteed loans. As a result of legislation in 1992, 
interest rates on VA-guaranteed loans were determined by the private 
market, bringing VA's program in line with other loan products in the 
industry.
    VA credit guidelines afford lenders the opportunity to make sound 
and prudent underwriting decisions based on the ability of a Veteran to 
afford a loan. VA underwriting guidelines allow Veterans to be afforded 
every possible opportunity to purchase a home. As an example, VA does 
not require a minimum FICO score, as would a conventional lender. 
Instead, VA instructs lenders to look at a Veteran's entire situation 
and use indicators such as residual income and debt ratios and to be 
flexible in evaluating a Veteran's income and employment situations.
    VA continues to enhance our competitiveness in the mortgage market 
through efforts and initiatives targeted at increasing efficiency and 
timeliness for loan underwriting and closing. VA has made it possible 
for lenders to utilize automatic lending authority to originate, 
process, underwrite, and close loans with minimal VA involvement. VA 
information technology innovations have enabled lenders to request a 
case number and appraisal assignment online and enabled lenders and 
Veterans to obtain a Certificate of Eligibility online. Additionally, 
an appraiser's report can be uploaded online where a lender 
representative can review and issue a Notice of Value (NOV). Once the 
loan is closed, lenders can request evidence of the guaranty online. VA 
is also currently enhancing the capability of our systems to allow any 
lender to submit requested loan files electronically rather than by 
mail. This will greatly speed lenders' ability to comply with VA's 
oversight process and procedures.
    With delegation of authorities and automation of the program, VA 
has established and maintains a robust oversight program, which ensures 
lenders and other stakeholders comply with VA-specific laws, 
regulations, policies, and procedures.
    b. In situations where a mortgage originator or seller is unwilling 
to make up the monetary amount that is remaining at closing, what tools 
are available to veterans to make up for a shortfall?
    Response. VA is aware that some lenders provide the Veteran-
borrower the opportunity to offset some of those costs by using a 
``premium pricing'' option. This option allows the Veteran-borrower to 
pay an increased interest rate in return for providing a closing cost 
credit to cover the shortfall, as long as VA's regulations do not 
prohibit the specific costs that are being credited.
    With regard to specific closing costs, VA maintains a list of 
allowable and unallowable fees and charges. This list is currently 
under revision to ensure that VA's guaranteed loan program remains 
competitive in the marketplace. Revision of the fees and charges will 
require changes to VA regulations.
    c. Please detail the termite and pest inspections required by VA. 
How do they differ from those required by FHA?
    Response. Conditions which impair the safety, sanitation, or 
structural soundness of the dwelling will cause the property to be 
unacceptable, per VA's Minimum Property Requirements, until such time 
as the defects or conditions have been remedied and the probability of 
further damage eliminated. Such conditions include but are not limited 
to decay, and termites.
    VA requires the NOV be conditioned for Wood Destroying Insect 
Information (i.e., a termite inspection) if the property is located in 
an area where there exists a probability of termite infestation. 
Specifically, VA requires the NOV be conditioned in areas deemed ``very 
heavy'' or ``moderate to heavy'' according to the Termite Infestation 
Probability Map published in The Council of American Building Officials 
(CABO) One and Two Family Dwelling Code. (Please note that CABO has 
been superseded by the International Code Council Residential Code, 
which retained the CABO map.) If there is a question about the location 
of an infestation probability boundary line in relation to the subject 
property, VA's Regional Loan Center of jurisdiction is contacted to 
determine if this requirement is applicable.
    In addition, VA fee appraisers must look for and report evidence of 
wood-destroying insect infestation, fungus growth, and dry rot in 
addition to any VA requirement for an inspection of the property by a 
wood-destroying insect inspector. In the event the appraiser reports 
evidence of termites, the NOV is to be conditioned for wood-destroying 
insect information, irrespective of location.
    It is VA's understanding that FHA no longer mandates automatic 
termite inspections; instead, FHA now determines whether or not a 
termite inspection is required based on the information provided in the 
appraisal report. Per FHA Mortgagee Letter 2005-48, FHA Repair and 
Inspection Requirements for Existing Properties and Revisions to FHA 
Appraisal Protocol:

          ``Lenders must review the appraisal to determine whether the 
        appraiser has reported any property conditions that will affect 
        the health and safety of the occupants or the security and the 
        soundness of the property and must require immediate repair 
        where the property condition poses a threat to these criteria.
          FHA no longer mandates automatic inspections for the 
        following items and/or conditions in existing properties: Wood 
        Destroying Insects/Organisms: inspection required only if 
        evidence of active infestation, mandated by the state or local 
        jurisdiction, if customary to area, or at lender's discretion''

    Question 4. On April 19, 2011, the Federal Reserve issued a rule 
defining ``Qualified Mortgages.'' The rule was in response to changes 
in the Dodd/Frank Wall Street Reform and Consumer Protection Act 
(Public Law 111-203). VA will be forced to abide by the Federal Reserve 
rule unless and until they develop their own rule defining what 
constitutes loans as ``Qualified Mortgages.'' The last update the 
Committee received from VA stated that the proposed rule was in VA's 
concurrence process.
    a. Please provide the Committee a detailed update on the status of 
VA's proposed rule.
    Response. VA's Loan Guaranty Service drafted VA's regulation on 
Qualified Mortgages (QM), pursuant to the requirements of section 1412 
of the Dodd-Frank Wall Street Reform and Consumer Protection Act. 
Section 1412 of the Act also directs VA to consult with the Consumer 
Finance Protection Bureau (CFPB). Loan Guaranty Service amended the 
draft rule to incorporate minor clarifying changes requested by the 
CFPB. The regulation package is currently in the review process within 
VA.
    b. When will the Federal Reserve rule take effect, and will VA's 
rule be in place prior to this date?
    Response. The proposed rule on Qualified Residential Mortgages (QRM 
Rule) was published in the Federal Register on April 29, 2011 (76 FR 
24090). VA is not aware of when the QRM Rule will take effect and does 
not know if VA's rule will be in place prior to the effective date of 
the QRM Rule. However, section 941 of the Dodd-Frank Act exempts VA-
guaranteed loans from the risk-retention provisions of this law:

          (B) Other Federal Programs.--This section shall not apply to 
        any residential, multifamily, or health care facility mortgage 
        loan asset, or securitization based directly or indirectly on 
        such an asset, which is insured or guaranteed by the United 
        States or an agency of the United States. For purposes of this 
        subsection, the Federal National Mortgage Association, the 
        Federal Home Loan Mortgage Corporation, and the Federal home 
        loan banks shall not be considered an agency of the United 
        States.

    In its preamble, the proposed QRM rule explains that it exempts 
securitizations that are collateralized solely by loan assets insured 
or guaranteed by the United States. VA's loans are expressly mentioned 
in this section.

    Question 5. According to the fiscal year 2013 budget request, 
fiscal year ``2012 obligations for Specially Adapted Housing grants 
decreased by $20 million.'' The request for fiscal year 2013 calls for 
an increase in obligations of nearly $5 million.
    a. Please describe what changes in assumptions or obligations led 
to the $20 million decrease between the fiscal year 2012 budget 
estimate and the current estimate.
    Response. FY 2012 budget request was formulated based on actual 
historic data through FY 2010. At the time this budget was developed, 
the number of Specially Adapted Housing (SAH) grant payments had 
increased from 1,236 in FY 2008, to 1,562 in FY 2009, and 1,811 in FY 
2010. As this rapid growth was not predicted to continue in the long-
term, Loan Guaranty Service assumed a more modest long-term growth rate 
of five percent for SAH grant approvals, which when applied to SAH 
grant payments, resulted in a projected 1,948 SAH grant payments in FY 
2012.
    The current estimate for the FY 2013 budget request factors in FY 
2011 actual grant payment data, which indicated that the number of SAH 
grant payments dropped to 1,354 in FY 2011. Since this payment activity 
was also reflected in SAH grant approval activity for the current 
estimate, Loan Guaranty Service projected SAH grant approvals to remain 
constant in FY 2012. The decrease from 1,948 to 1,354 projected 
payments from the original budget estimate to the current estimate 
decreased SAH grant payment obligations by $24 million. This decrease 
was partially offset by an increase in the average grant amount, also 
based on actual FY 2011 data, which increased SAH grant payment 
estimates by $4 million.

    b. Given the $20 million downward estimation for fiscal year 2012, 
please detail the assumptions underlying an increase between fiscal 
year 2012 and 2013.
    Response. Despite the large single-year decrease in SAH 
beneficiaries from FY 2010 to FY 2011, the three-year historical 
average is a 6.2 percent annual increase in beneficiary payments. As 
explained above, beginning in FY 2013, Loan Guaranty Service utilizes a 
long-term assumption of a five percent annual increase in SAH grant 
approvals. This assumption was combined with a 3.1 percent cost-of-
construction index assumption for FY 2013. This results in a projected 
$5 million increase in SAH grant payments for FY 2013.

    Question 6. The Specially Adapted Housing Assistive Technology 
Grant Program will be fully implemented during fiscal year 2012. Under 
current law, the program is able to provide grants of up to $200,000 to 
individuals or entities for the development of assistive technology. 
The total amount of grants cannot exceed $1 million in a fiscal year.
    a. What is the process for an interested individual or entity to 
apply for the grants, and how does VA evaluate a grant application?
    Response. VA is currently promulgating regulations to implement the 
program. When the final regulations governing the grant program are 
published, interested individuals and entities will be able to apply 
for the grants via grants.gov. Criteria for evaluating applications are 
under review, but will likely include considerations such as:

    <bullet> The overall innovative qualities of the proposed assistive 
technology;
    <bullet> Demonstration of need among severely disabled Veterans for 
the proposed technology;
    <bullet> The extent to which the proposed assistive technology 
project is specifically designed to promote the ability of severely 
disabled Veterans to live more independently;
    <bullet> The extent to which the proposed development concept, 
size, scope and approach are feasible; and
    <bullet> Inclusion of a meaningful and achievable implementation 
plan with major milestones within a specific timeframe.

    In addition, qualifying applicants must submit a complete package 
of required standard forms, such as the Application for Federal 
Assistance (SF-424) and Assurances for Non-Construction Programs (SF-
424B).
    b. Has VA issued any Specially Adapted Housing assistive technology 
grants to date?
    Response. No, VA cannot issue any grants under this new program 
until final regulations are published.
    c. What is VA's evaluation process for technologies developed 
through the program?
    Response. As the SAH Assistive Technology Grant program is a new 
initiative, VA is in the process of developing many program processes 
and procedures that will ensure grantees are using Government funds 
appropriately and for the purpose of developing truly innovative 
assistive technologies. The post-award evaluation process will contain 
controls to ensure these goals are achieved. Award payments will be 
staggered so that meaningful progress can be evidenced to VA prior to 
subsequent installments.
    Grantees will be required to provide VA with regular updates on the 
progress of their projects so that VA can evaluate grantees' progress.
    d. How will the grants distributed through this program benefit 
veterans utilizing Specially Adapted Housing or Special Housing 
Adaptation programs in the long term?
    Response. The long-term goal is that the grants distributed through 
this program will aid in the development of new assistive technologies 
for severely disabled Veterans, and particularly those that qualify for 
Specially Adapted Housing assistance. In turn, these Veterans will have 
a wider range of innovative products and features from which to choose 
when applying their own grant funds to the adaptation of their homes. 
Ultimately, these new technologies should further facilitate the 
ability of severely disabled Veterans to live more independently in 
their homes.
    e. Do veterans or service-disabled veterans receive preference when 
VA evaluates grant applications?
    VBA Response. When evaluating grant applications for its various 
programs, VA does not give preference to any particular group and bases 
award solely on the stated evaluation criteria.
                    national cemetery administration
    Question 1. In the fiscal year 2013 budget request, NCA proposed a 
new initiative to expand burial access to rural communities. The 
proposal is ``to establish a national cemetery presence * * * where the 
Veteran population is less than 25,000 within a 75-mile [radius].''
    a. What are NCA's estimates for usage and burial?
    b. The fiscal year 2012 appropriation language requires NCA to 
develop cost estimations for five rural cemeteries. Of the eight states 
included on the initial list for the new rural initiative, how many 
areas within each state meet all the current requirements as proposed 
by the rural initiative (population, distance, and lack of current 
burial options)?
    c. Of the eight states that meet the initial criteria for the new 
rural initiative, have any filed paperwork or are awaiting approval for 
a state cemetery grant?
    d. According to the fiscal year 2013 budget request, 89% of 
veterans were served by a burial option within 75 miles of their 
residence in 2011. Of the remaining veterans not served by a burial 
option within 75 miles, how many live in the eight states meeting the 
initial criteria for the rural initiative? Please detail the 
information by state.
    Response. [These questions appear and were answered in the 
prehearing responses as Question 26.]

    Question 2. On October 1, 2011, VA increased the plot-interment 
allowance for eligible veterans not buried in a national cemetery from 
$300 to $700.
    a. Please provide the Committee with the number and total amount of 
plot-interment allowance payments made to eligible veterans since the 
beginning of fiscal year 2012.
    Response. Through January 2012, plot allowances were paid on behalf 
of over 6,400 beneficiaries, and obligations were nearly $2 million.
    b. For fiscal year 2013, how many plot-interment allowances does VA 
expect to disburse? Please breakdown this information by both the 
number and total amount.
    Response. VA estimates that in FY 2013, over 34,200 plot allowances 
will be paid, and obligations will be $24.4 million.

    Question 3. The current strategic target for the percent of the 
veteran population served by a national, state, or tribal government 
veterans' cemetery within 75 miles of their homes is 94%. Are tribal 
veterans' cemeteries counted as a burial option in order to calculate 
the distance from a veteran cemetery for non-Native American veterans?
    Response. Tribal Veterans' cemeteries are not counted as a burial 
option in order to calculate the distance from a Veteran cemetery, 
because burial in a tribal cemetery is restricted to those Veterans who 
are recognized by the tribal organization no matter where they reside 
in relation to these cemeteries.

    Question 4. In September 2011, while performing accuracy 
verifications of gravesite maps at Fort Sam Houston National Cemetery, 
cemetery personnel discovered errors associated with a ``raise and 
realign'' project completed in 2004. Because of these errors, NCA 
initiated a system-wide audit of all 3.1 million gravesites at VA's 131 
national cemeteries and 33 soldiers' lots. Phase I of the audit, which 
included 85 cemeteries where ``raise and realign'' work had been 
performed since 2001, has been completed. As of February 24, 2012, 1.5 
million gravesites have been audited and 115 errors have been 
identified.
    a. When will the full audit of all 3.1 million gravesites be 
completed?
    Response. All NCA employees are the custodians of a sacred trust 
and strive to be the model of excellence in the delivery of burial 
benefits. We have created a culture of accountability in which errors 
are addressed immediately and openly. NCA regrets the grief and 
emotional hardship our errors cause and seeks to correct errors in 
consultation with family members. Where an error occurred, NCA 
corrected the error and contacted the affected families, wherever 
possible, to extend our sincerest apologies. NCA also ensured VA's 
congressional committees and the local congressional offices were 
notified of the issues. In April 2012, NCA initiated the second phase 
of its comprehensive system-wide review to verify that the remaining 
1.6 million gravesites at VA's 131 national cemeteries and 33 soldiers' 
lots are accurately marked. By the end of calendar year 2012, NCA will 
have audited all 3.1 million gravesites within the VA cemetery system. 
Our findings will be reported to Congress.
    b. As part of NCA's National Shrine Commitment many national 
cemeteries will continue ``raise and realign'' and other beautification 
projects. What safeguards have been implemented to avoid similar errors 
that have been identified through the system-wide audit?
    Response. Future renovation contracts to raise and realign 
headstones and markers will require contractors to keep headstones or 
markers at the gravesite. This control measure will reduce the 
likelihood of inaccurate replacement upon project completion. NCA will 
also hire certified contracting officer representatives at each of its 
Memorial Service Network offices to oversee future gravesite renovation 
projects. Additionally, for any headstone which employees or 
contractors need to move for any reason, NCA will adopt a new process 
to track temporary movement or replacement of the headstone or marker 
within the national cemetery.

    Question 5. In 2010, NCA added a headstone medallion to the 
available memorial benefits. A headstone medallion is available to be 
affixed to an existing privately purchased headstone or marker placed 
in a private cemetery to signify the deceased's status as a Veteran. In 
2011, over 7,000 medallions were provided by NCA. What type of outreach 
activities have been or will be undertaken to inform veterans' 
families, funeral homes, or private cemeteries of the availability of 
headstone medallions?
    Response. NCA has used a multi-tiered approach to outreach and 
inform the public of the Medallion benefit:

    <bullet> Updated the NCA Web site (Web 1.0);
    <bullet> Updating the Federal Benefits for Veterans, Dependents and 
Survivors (VA Pamphlet 80-11-01);
    <bullet> Updating the NCA Information Sheet-1 (IS-1);
    <bullet> Publication of new brochures, fact sheets; and
    <bullet> Creation of informational videos.

    We conduct outreach at dozens of annual conferences and conventions 
at the national level, including American Legion, VFW, DAV, AARP, and 
the National Funeral Directors Association. Combined with our outreach 
efforts at the local level, in FY 2011 NCA staff participated in 3,268 
outreach events (90 national and 3,178 local) reaching an estimated 
450,236 people. Current benefit information is provided with displays 
of the new Medallion benefit.

    Question 6. According to the fiscal year 2013 budget request, in 
2008, 56.8 percent of all interments in national cemeteries were full 
casket burials. In 2012, that proportion is expected to fall to 51.6 
percent and continue to decrease to 48.9 percent in 2017. Of the 
remaining 51.1 percent of interments in 2017, it is projected that 22.5 
percent will be in-ground cremains and 28.5 percent will be columbaria 
niche.
    a. How will the change in veteran burial preference effect future 
NCA acreage and construction needs?
    Response. The number of National Cemeteries offering a columbaria 
option increased from 9 in 1996 to 39 in 2011 to accommodate the trend 
in burial option preference to a higher percentage of cremation 
interments. This trend will extend the developed acreage at these 
cemeteries to accommodate a greater number of interments and increase 
the need for columbarium construction.
    NCA continues to add columbarium at open national cemeteries as 
needed according to projected Veteran population, death rates and 
columbarium usage.
    Cremation interments result in greater burial density per acre than 
either pre-placed crypt or traditional casketed burial options. A 
columbarium interment option provides twice as many interment sites as 
preplaced crypts and almost four times the number of sites as 
traditional caskets per acre. An in-ground cremain option provides 1.5 
times the number per acre of interment sites as preplaced crypts and 
2.8 times the number of sites as traditional caskets. Furthermore, 
cremation burial options may allow a cemetery to use land not suitable 
for casketed burials due to slope or water table levels.
    NCA also plans to meet Veterans' future burial needs and 
expectations through new policies targeted to those who reside in 
densely populated urban areas and sparsely populated rural communities. 
In response to challenges of travel time and distance to national 
cemeteries in five of our largest markets, NCA's Urban Initiative will 
create columbaria-only facilities in the urban core of these cities. 
The Urban Initiative will improve access to these cemeteries by placing 
a burial option closer to where the Veteran population lives in Los 
Angeles, the San Francisco/Oakland Bay Area, Chicago, New York City and 
Indianapolis. NCA will implement its Rural Veterans Initiative by 
establishing and operating small National Veterans Burial Grounds 
within existing public or private cemeteries where no more than 25,000 
Veterans who have no national or state Veterans cemetery option within 
75 miles of their residence reside. A location for a National Veterans 
Burial Ground has been identified in Maine, Wisconsin, North Dakota, 
Montana, Wyoming, Nevada, Idaho, and Utah. In addition, NCA has 
undertaken an Emerging Burial Practices Study. This independent 
assessment of burial and memorial practices not currently offered in 
our national cemeteries will include a national survey and focus groups 
of Veterans and their families to ascertain whether options such as 
mausoleums and ``green'' burial practices are of interest to Veterans 
and are considered acceptable in a national shrine. NCA anticipates 
that the findings of this study will provide important information and 
perspectives that will drive our strategic planning for decades to 
come.

    b. Please detail the assumptions that led to these projections.
    Response. NCA uses Veteran population and Veteran death data from 
the VA Office of the Actuary through the VETPOP 2007 model. NCA uses 
state and county data from this model as well as trends in burial 
choice by type and by cemetery to develop projections. The interment 
and gravesite projection for National Cemeteries is developed by 
independently developing a projection for each cemetery and summing 
them to derive the national projection. For each cemetery, first and 
second interments by type of interment--full-casket, in-ground cremain, 
and niche--are independently developed. From these projections, total 
full-casket, total in-ground cremain, total niche, total firsts, etc. 
can be derived.
    To project the interments and gravesites, NCA uses a ratio 
correlation method. Our model: 1) calculates historical usage ratios; 
2) projects the usage ratios; and 3) derives projected interments and 
gravesites by applying the projected usage ratios to the projected 
Veteran deaths.
    To estimate depletion dates, NCA uses a perpetual inventory method. 
The model iteratively subtracts projected first interments from the sum 
of 1) available sites in developed acres and 2) an estimate of 
potential sites in undeveloped acres.

    Question 7. The fiscal year 2013 budget request for NCA operations 
and management includes a request for an additional $260,000 resulting 
in an additional four FTE to meet the demands of increased interments, 
as well an additional $1,200,000 to fund contract maintenance 
personnel.
    a. How does NCA measure the efficacy of contracting for maintenance 
work performed at national cemeteries versus hiring additional NCA 
staff to perform the same duties?
    Response. The primary mission of a National Cemetery is the 
interment of Veterans and their eligible dependents. The secondary 
mission is the perpetual care of these national shrines. NCA has over 
3.1 million gravesites in its 131 national cemeteries and 33 soldiers 
lots and monument sites. Under certain circumstances it is more 
efficient to contract work associated with the daily care of the 
grounds, i.e. mowing, trimming around headstones and markers, raise/
realign/clean headstones and markers, fertilization, tree maintenance, 
sunken graves maintenance, etc. Unlike the interment of Veterans, NCA 
does not consider these activities to be inherently governmental.
    Before any work activity is contracted, the cemetery must consider 
the nature of the work and compare the cost to hire and train 
employees, purchase and maintain equipment, and procure supplies 
against the cost to hire a contractor who has the equipment and human 
capital to start providing services right away. Much of the maintenance 
required in a national cemetery is seasonal or intermittent and often 
can be effectively addressed by contracting it out. Contracts are 
normally setup for one year with optional years included. The Scope of 
Work for maintenance contracts is carefully written to follow the NCA 
Operational Standards and Measures for cemetery maintenance. Financial 
deductions could be levied against the contractor as well as 
termination of the contract should the work performance fail to meet 
the Standards and Measures.
    b. Of the current awarded maintenance contracts utilized by NCA, 
how many have been awarded to SDVOSBs or VOSBs?
    Response. NCA uses VOSB contractors for all maintenance contracts. 
NCA awarded 115 maintenance contracts in 2011. Of these, 106 were 
awarded to SDVOSB and 9 to VOSB contractors.
    c. Given the high unemployment rate of veterans, what steps has NCA 
taken to hire unemployed veterans?
    Response. At present, approximately 74 percent of NCA's workforce 
is Veterans. Building on this record, NCA partners with VA's Veterans 
Employment Service Office (VESO) to streamline the application and 
employment process for Veterans and has made several direct hires of 
Veterans as a result. NCA regularly conducts outreach to Veterans at 
large and small venues across the country, including the VA-sponsored 
Veterans Employment Expo in Washington, DC in January 2012 and the 
June 2012 National Veteran Small Business Conference and VA for Vets 
Veterans Hiring Fair in Detroit.
    In 2012, NCA will develop and implement an employment/training 
program in support of the Secretary's Major Initiative, Eliminate 
Veteran Homelessness. Through this program NCA will partner with VA's 
Homeless Veterans Initiative Office, VA for Vets, and VA Learning 
University to identify and recruit Veterans who are homeless or at risk 
for becoming homeless for participation as apprentices in a year-long 
paid employment and training program at national cemeteries across the 
country. Apprentices who successfully complete the program will 
normally be afforded the opportunity to transition to full time 
employment at a National Cemetery or will be able to use training 
certification to pursue employment in the private sector.

    Question 8. For fiscal year 2013, NCA requested $46,000,000 for 
state and tribal veteran cemeteries grants. According to NCA, 29 new 
state and tribal facilities will be opened between 2013 and 2018.
    a. Please provide the number of states or tribal organizations that 
applied for NCA grants in 2011, and what is the projected number for 
2012.
    Response. The State Veterans Cemetery Grants Program (SVGP) 
received 14 pre-applications from 11 states/territories; we project 
possibly 10 pre-applications in FY 2012.
    b. Of those states and tribal organizations that submitted an 
initial application, please provide the number that received 
notifications that they meet the initial requirements for grants in 
fiscal year 2011.
    Response. Of the 14 pre-applications submitted by 11 states and 
tribal organizations in fiscal year 2011, all of them met the initial 
requirements for grants. Each of the 11 submitting states and tribal 
organizations was notified.
    c. Please provide the number and locations of state or tribal grant 
proposals that have been fully approved and are waiting for VA to 
obligate grant money.
    Response. VA has offered grant opportunities for 22 projects to be 
awarded this fiscal year pending all requirements are met. None of the 
2012 state or tribal grant proposals have met all grant requirements 
for full approval yet. These requirements include completion and 
submission of design/bid documents, final vendor bid tabulations, final 
application forms, a Memorandum of Agreement, and approved final 
construction documents.
                               insurance
    Question 1. During 2011, the Servicemembers' Group Life Insurance 
Traumatic Injury Protection Program (TSGLI) published a rule in the 
Federal Register adding certain genitourinary (GU) system losses to the 
TSGLI schedule of losses. This additional coverage applied to all 
qualifying injuries since October 7, 2001.
    a. Since the inception of the new rule, how many qualifying loss 
payments have been made under TSGLI?
    Response. As of April 30, 2012, twelve TSGLI claims have been paid 
for genitourinary (GU) losses since December 2, 2011, the effective 
date of the new GU losses rule. On February 22, 2012, Insurance Service 
completed an outreach mailing to individuals who have been identified 
by the Department of Defense Joint Theater Trauma Registry (JTTR) as 
having suffered a GU injury and who did not receive the maximum TSGLI 
benefit.
    b. What has been the total amount paid through TSGLI for GU system 
losses?
    Response. The total dollar amount of TSGLI benefits paid for GU 
system losses is $450,000 as of April 30, 2012.
    c. For fiscal year 2013, how many additional payments does VA 
expect will be made for retroactive awards?
    Response. In FY 2013, VA estimates that 25 retroactive GU claims 
will be paid, for an estimated cost of $1 million. This represents one-
fourth of our total estimate of 100 retroactive GU claims at a cost of 
$4 million. Our estimates are based on assumed response and approval 
rates applied to the outreach mailing to approximately 240 Veterans 
identified by JTTR. Although some lag in response to the mailing is 
expected, we would anticipate that most of the claims will be received 
and paid in the second half of FY 2012.

    Question 2. Total insurance collections for fiscal year 2012 are 
currently estimated to be $1.6 billion, a $231 million increase over 
the original fiscal year 2012 budget estimate. The estimate for fiscal 
year 2013 is $1.3 billion, a decrease of $291 million from the current 
fiscal year 2012 estimate.
    a. Given the increase in collections between the original and 
current fiscal year 2012 estimates, what assumptions went into 
determining the amount of offsetting collections VA estimates will be 
collected during fiscal year 2013?
    Response. The decrease in collections from 2012 to 2013 is mainly 
attributed to a decrease in SGLI extra hazard and TSGLI payments 
collected from DOD. SGLI extra hazard payments are payments that fund 
the difference between SGLI claims incurred during hostile military 
action and what would be expected under peacetime experience. TSGLI 
payments are extra hazard payments that fund the excess of TSGLI claims 
paid over TSGLI premiums received. The TSGLI premium is $1 per month 
and is intended to cover the civilian incidence of traumatic injuries. 
Since SGLI extra hazard and TSGLI payments depend completely upon 
hostile military action, Insurance Service only projects for these 
types of payments early in the year of execution.
    Please note that extra hazard payments and TSGLI payments are 
collected from DOD and then transferred to Prudential. Therefore these 
payments are both an obligation and a collection and as a result do not 
impact net outlays.

    b. The fiscal year 2013 budget request includes an estimate that VA 
insurance will collect $188 million in ``other collections'' during 
fiscal year 2013. Please detail what other collections are included in 
this line item.
    Response. The majority of ``other collections'' includes $90.3 
million of repayments of policyholder's loans and liens, $8.8 million 
of interest earned on loans, and $87.8 million of income offsets and 
adjustments in the U. S. Government Life Insurance (USGLI) and National 
Service Life Insurance (NSLI) programs. The majority of the income 
offsets and adjustments is attributed to NSLI premiums received from 
non-cash sources such as deductions from dividends for paid-up 
additional insurance premiums.
                         readjustment benefits
Vocational Rehabilitation and Employment
    Question 1. According to the fiscal year 2013 budget request, the 
Vocational Rehabilitation and Employment (VR&E) program and the VA Loan 
Guaranty Service have established a task force to improve coordination 
of the delivery of Specially Adapted Housing to veterans.
    a. Please describe what agreements or other protocols the two 
services have developed as a result of the task force.
    Response. VR&E and Loan Guaranty Services are in the process of 
developing a directive that outlines their continued commitment to 
provide and coordinate home modifications for Veterans with severe 
disabilities.

    b. How will VA measure the effectiveness of the task force and the 
coordination between agencies?
    Response. Effectiveness will be measured by the number of referrals 
and requests for services from Loan Guaranty, the number of coordinated 
cases, time required to provide services, and the satisfaction level of 
Veterans served.

    Question 2. VR&E's VetSuccess.gov Web site currently partners with 
DOD and DOL on veterans' employment issues. Additionally, 
VetSuccess.gov contains a link to the National Resource Directory with 
the goal of assisting veterans to find jobs.
    a. Aside from the links and partnerships described above, has VR&E 
explored any private sector solutions or web based capabilities that 
assist veterans with finding employment?
    Response. VR&E works with the Direct Employers Association and the 
National Association of State Workforce Agencies to provide Veterans 
access to the Job Central database with over eight million job openings 
listed in Fortune 500 companies and state workforce organizations. VR&E 
is also working with VA's Veteran Employment Service to integrate 
VetSuccess.gov with VAforVets. This integration will allow 
VetSuccess.gov to leverage the existing VAforVets' career planning and 
management tools for Veterans. Using funds requested in the FY 2013 
Budget, these tools will be further enhanced and expanded on 
VetSuccess.gov to fit private industry employment needs. VR&E also 
provides direct links on VetSuccess.gov to a number of other private 
sector job boards to assist Veterans with finding employment. These 
include: Jobs For Vets, VetJobs, Monster.com, Simply Hired, Indeed, and 
JobAlot.

    b. Are employers looking to hire veterans able to post job listings 
to the National Resource Directory or VetSuccess.gov?
    Response. Employers can directly post job listings on 
VetSuccess.gov and search for Veterans' resumes that are a match for 
their staffing needs. While the Veterans Job Bank (hosted on the 
National Resource Directory) does not allow employers to directly post 
jobs, the site does identify jobs labeled as ``Veteran Committed'' by 
employers, and makes these job postings accessible for Veterans using 
the Veterans Job Bank.

    Question 3. The fiscal year 2013 budget request for VR&E requests 
an additional 145 direct FTE.
    a. Please describe how VR&E determined the necessity of the 
additional FTE.
    Response. The additional FTE was determined to be essential in 
increasing VR&E's focus on accessible counseling, outreach, and 
transition services to Veterans and Servicemembers. FTE will be devoted 
to the VetSuccess on Campus (VSOC) and Integrated Disability Evaluation 
System (IDES) initiatives. In FY 2013, 90 FTE will support the IDES 
initiative at 27 IDES sites, while 52 FTE will be utilized to expand 
VSOC to 23 additional sites, and 3 FTE will be utilized for management 
support, training, and oversight of these two programs.

    b. What is the current rehabilitation counselor to trainee ratio 
for VR&E?
    Response. As of February 2012, the ratio is 1:140.

    c. What are VR&E projections of the rehabilitation counselor to 
trainee ratio for the next three years?
    Response. For the next three years, VR&E is projecting a counselor 
to Veteran ratio of approximately 1:125.

    Question 4. In 2011, there were 83,332 participants in the VR&E 
program. That number is expected to increase to 91,874 by 2013. What 
are the long-term projections for participation and average degree of 
disability for future VR&E participants?
    Response. VR&E is currently projecting a 10 percent increase after 
2013 for trainees participating in the VR&E program through the 
completion of DOD's drawdown.
    VR&E serves Veterans with various physical and psychiatric 
disabilities ranging from 10% to 100%. The severity and degree of 
disabilities that Veterans acquire cannot be accurately projected; 
however, the bulk of Veterans served by VR&E, have disabilities ratings 
between 30%-60%. This is not anticipated to change.

    Question 5. For fiscal year 2013, VA requests an additional $5.9 
million and 52 FTE for the expansion of VetSuccess on Campus. The 
expansion will add VetSuccess at 52 additional campuses serving an 
estimated 80,000 servicemembers, veterans, and family members.
    a. Of the 28 campuses where VetSuccess is currently located, what 
percentage of eligible students take advantage of the program?
    Response. In fiscal year 2011, VetSuccess on Campus was located at 
eight sites, and counselors served 5,897 Veterans. This represents 77% 
of the 7,662 eligible students at the eight sites. In fiscal year 2012, 
VetSuccess is being expanded to an additional 24 sites, bringing the 
total number of sites to 32. As of May, 2012, VetSuccess on Campus is 
located at 14 sites although six of those sites have been operational 
for up to two months. Thus far this fiscal year, 2,981 eligible 
students have taken advantage of the VetSuccess on Campus program. When 
factoring in return visits, VetSuccess on Campus Counselors provided 
services to 5,362 eligible students in fiscal year 2012 through the end 
of May. The number of eligible students served this fiscal year 
represents 55% of the 9,731 eligible students.

    b. Please describe the process of selecting and opening a new 
VetSuccess on Campus site.
    Response. The selection process focuses primarily on colleges with 
student Veteran enrollment greater than 800, but the process remains 
flexible with consideration of other factors. Collaboration with VHA's 
Vet program is also a factor in determining expansion locations. 
Additional criteria that are used to select perspective schools 
include:

    <bullet> Willingness and ability to accommodate a full-time 
Vocational Rehabilitation Counselor and a full or part-time VHA 
employee (Vet Center or VITAL); and
    <bullet> Location within 25 miles of a VA regional office, VR&E 
outbased office, Vet Center, VA Medical Center, or Community Based 
Outpatient Clinic.

    Once schools are identified, memorandums of understanding are 
drafted and signed by school officials and regional office directors. 
The locally designated VA regional office coordinates office set-up, 
information technology, and other support at the campus.

    Question 6. Rehabilitation services provided to veterans in VR&E 
include five separate tracks: reemployment with previous employer, 
rapid access to employment, self-employment, employment through long-
term services, and independent living services.
    a. Please provide the number of VR&E participants in each 
rehabilitation track.
    Response. Please see the chart below for the number of participants 
by track as of February 29, 2012. This number is dynamic and changes 
daily. Track selection became a mandatory data entry field in VR&E's 
case management system on July 1, 2012, and as such, this chart does 
not represent the total participants in the VR&E program.


----------------------------------------------------------------------------------------------------------------
                                                        Employment      Independent
 Re-Employment with    Rapid Access       Self-        Through Long-       Living        No Track       Total
  Previous Employer    to Employment    Employment     Term Services      Services      Identified
----------------------------------------------------------------------------------------------------------------
               428           2,260             231            58,774          2,731          5,346       69,770
              0.6%            3.2%            0.3%             84.2%           3.9%           7.7%         100%
----------------------------------------------------------------------------------------------------------------


    b. What type of rehabilitation training and resources do trainees 
participating in the self-employment track receive while in VR&E?
    Response. VA may furnish services and assistance to Veterans with 
an approved self-employment rehabilitation goal based on assignment to 
one of two categories:
            Category 1:
    <bullet> Comprehensive training, incidental services such as 
business license fees
    <bullet> Minimum stocks of materials, such as inventory of salable 
merchandise or goods, expendable items required for daily operations, 
and items which are consumed on the premises
    <bullet> Essential equipment, including machinery, occupational 
fixtures, accessories, and appliances
            Category 2:
    <bullet> Incidental training in the management of a small business
    <bullet> License or other fees required for employment and self-
employment
    <bullet> Personal tools and supplies, which the Veteran would 
ordinarily require to begin employment

    c. How does VR&E measure rehabilitation for those participating in 
the self-employment track?
    Response. Veterans are declared rehabilitated when they have 
successfully completed the self-employment program and the business has 
been operating and generating viable income for at least 12 months.

    Question 7. The VA budget for fiscal year 2013 requests $23.9 
million and a total of 200 FTE to support the expansion of IDES to 
include VR&E services.
    a. Please describe in detail how the expansion will be 
administered. Please include information on which IDES sites will have 
VR&E counselors, at what point during the IDES process the mandatory 
counseling services will occur, whether counseling will commence prior 
to the issuance of a disability rating, and whether servicemembers will 
receive counseling prior to receiving a determination of an employment 
handicap.
    Response. VBA is expanding IDES to 110 sites in FY 2012, and 90 
sites in FY 2013. Installations have not yet been identified for the 
expansion in FY 2013, but will meet the following criteria:

    <bullet> Have a population of exiting Servicemembers who are 
referred to the Physical Evaluation Board (PEB) that is greater than 
100 per year; and
    <bullet> Have the ability to accommodate one or more full-time 
vocational rehabilitation counselors (VRCs) onsite.

    Servicemembers referred to the IDES sites will be referred to the 
VRCs for a mandatory counseling appointment when notified they are 
being referred to the PEB. Counseling will occur prior to determination 
of an employment handicap or disability rating.
    The FY 2012 budget supports 110 FTE for the implementation of VR&E 
into the IDES process. This initiative will require the recruitment and 
hiring of 89 and the reassignment of 21 Vocational Rehabilitation 
Counselors by VA, and the allocation of office space at IDES 
installations by the Department of Defense.
    This FTE will allow VR&E to serve approximately 12,000 (25%) of the 
anticipated 48,000 IDES participants in FY 2012. The base year of this 
initiative will provide data that will inform decisions related to 
future resource allocation. The chart below depicts the initial 
allocation of counselors at 48 IDES installations in FY 2012.


------------------------------------------------------------------------
                                               Medical Board      VRCs
            Military Installation                Projection      Needed
------------------------------------------------------------------------
Nellis AFB..................................             140          1
Ft. Campbell................................             751          3
San Diego NMC...............................            1105          6
Bethesda NNMC...............................             256          2
Ft. Meade...................................             245          2
Walter Reed NMMC............................             245          2
Patuxent River NMC..........................             192          1
Andrews AFB.................................             132          1
Ft. Drum....................................             635          3
Ft. Gordon..................................            1258          7
Ft. Stewart.................................             666          3
Ft. Benning.................................             421          2
Robins AFB..................................             133          1
Beaufort NH.................................             152          1
Ft. Jackson.................................             128          1
Portsmouth NMC..............................             682          3
Ft. Eustis..................................             450          2
Quantico NHC................................             180          1
Ft. Lee.....................................             152          1
Langley JB..................................             167          1
Ft. Belvoir.................................             134          1
Jacksonville NH.............................             259          2
Pensacola NH................................             104          1
Camp Lejeune................................            1135          6
Ft. Bragg...................................             884          4
Seymore-Johnson AFB.........................             115          1
Cherry Point NH.............................             181          1
Great Lakes FHCC............................             172          1
Minot AFB...................................             100          1
Ft. Sam Houston.............................             575          3
Ft. Sill....................................             408          2
Sheppard AFB................................             108          1
Ft. Polk....................................             646          3
Ft. Leonard Wood............................             520          2
Ft. Bliss...................................             820          3
Ft. Hood....................................            1957          9
Ft. Riley...................................             936          4
Richardson JB...............................             188          1
Ft. Wainwright..............................             150          1
Ft. Carson..................................             909          4
Hawaii NHC..................................             253          2
Tripler AMC.................................             497          2
Camp Pendleton..............................             390          2
29 Palms NH.................................             101          1
Travis AFB..................................             145          1
Ft. Huachuca................................             120          1
Ft. Lewis...................................            1060          5
Bremerton NH................................             115          1
------------------------------------------------------------------------

    b. Of the requested $23.9 million in fiscal year 2013, $5.7 million 
is listed as non-pay. What expenses or services are covered by this 
line item?
    Response. The $5.7 million in non-pay consists of administrative 
expenses to support the implementation of the additional 90 IDES 
counselors requested for FY 2013. These administrative expenses cover 
items such as employee travel, training, office equipment, and 
supplies.
Veterans Retraining Assistance Program
    Question 1. The Veterans Retraining Assistance Program (VRAP) was 
established by section 211 of the VOW to Hire Heroes Act (Public Law 
112-56). Participating veterans will receive the Montgomery GI Bill-
Active Duty full-time benefit rate for up to 12 months. Up to 45,000 
veterans, ages 35 to 60, may participate in the program during fiscal 
year 2012 and an additional 54,000 veterans are eligible between 
October 1, 2012, and March 31, 2014.
    a. What are the expected FTE requirements for processing of VRAP 
claims for fiscal years 2012 through 2014? Please detail that 
information by fiscal year and type of FTE.
    Response. The temporary staffing increase for claims examiners for 
the processing of VRAP claims equates to 85 FTE in 2012 and 90 FTE in 
2013. Expected FTE for FY 2014 are not yet finalized.
    b. Given the number of expected FTE in fiscal year 2012 (2,030) and 
the number of FTE requested for fiscal year 2013 (1,849), what 
assumptions were relied on to determine that implementation of VRAP 
will not require VA to hire or retain more temporary or full-time staff 
during fiscal years 2012 through 2013 beyond the levels identified in 
the budget request?
    VBA Response. To estimate the FTE levels required to implement 
VRAP, VA assumed that claims for eligibility would exceed those that 
are actually paid under VRAP. We estimated that 65 percent of all 
claims would be received in the first 90 days of the program. The 
expected FTE levels were based on current claims processing timeliness, 
the necessary FTE to support claims processing, and the anticipated 
initial surge of VRAP claims.

    Question 2. The Post-9/11 Veterans Educational Assistance 
Improvements Act (Public Law 111-377) eliminated interval pay for VA 
education programs, including the Post-9/11 GI Bill and Montgomery GI 
Bill.
    a. Will veterans participating in VRAP be subject to similar 
interval pay restrictions?
    VBA Response. Veterans participating in VRAP will be subject to the 
same interval pay restrictions as individuals training under other VA 
education programs, such as the Montgomery GI Bill and the Post-9/11 GI 
Bill.
    b. For veterans enrolled in an eligible institution, under VRAP, 
how will customary breaks (holiday or end of term) affect monthly 
payments?
    VBA Response. Similar to the other VA education programs, Veterans 
training under VRAP will receive payment for customary breaks or 
holidays of less than seven days within a term. Payments will terminate 
at the end of each term.
Veterans Job Corps
    Question 1. President Obama proposed the Veterans Job Corps during 
the State of the Union. The White House Press Office stated that the 
program would put 20,000 veterans back to work with jobs at national 
parks and through other related Federal conservation projects. A 
request of $1 billion for the new program was made part of the fiscal 
year 2013 VA budget request.
    a. Describe in detail how the initiative would be administered. 
Please include information on which other agencies would participate, 
what the responsibilities would be of the non-VA agencies, what types 
of jobs are envisioned through the initiative, and what criteria would 
be used to select participating veterans.
    b. Please describe the program in detail, including the amount of 
payments, subsidies, and benefits veterans would receive through this 
program; how much it would cost per participant; what opportunities 
veterans would have to continue working for the Federal agency after 
completing the program; and how much of the overall programmatic cost 
would go toward administration.
    c. How did VA develop the estimate of $1 billion for the Veterans 
Job Corps? What offsets within VA programs does VA propose to fund this 
new program? If VA funding is not going to be proposed by the 
Administration, what other offsets does VA propose to pay for the new 
program?
    Response. [Items a-c appeared and were answered in the prehearing 
responses.]

    d. What are the expected staffing requirements to administer this 
program?
    Response. Details of the Program will be finalized as part of the 
ongoing discussion between the Administration and Congress; however, 
the Veterans Job Corps initiative would likely require minimal VA staff 
resources.
    e. How will veterans who are interested in participating be 
selected? How long would it take for the program to be operational and 
when would the first veterans begin to work under this program?
    Response. Operational details regarding the Veterans Job Corps 
initiative will be finalized as part of the ongoing discussion between 
the Administration and Congress. Initial plans call for VA to leverage 
existing online resources to coordinate and synchronize efforts across 
stakeholders and to match veterans with opportunities.

    Question 2. The Veterans Job Corps, although not detailed in the 
fiscal year 2013 VA budget request, was included as a line item in the 
request under the Veterans Employment and Infrastructure Enhancement 
Transfer Fund. I understand that VA will transfer money, from this line 
item, to other departments and agencies that participate in the 
program. How would VA distribute funds out of the Veterans Employment 
and Infrastructure Enhancement Transfer Fund? Would VA make direct 
transfers to other government agencies or would VA process individual 
applications independently?
    Response. Operational details regarding the Veterans Job Corps 
initiative will be finalized as part of the ongoing discussion between 
the Administration and Congress. Initial plans call for project 
proposals to be submitted by the Department of Agriculture, the 
Department of Interior, the National Oceanic and Atmospheric 
Administration (NOAA) at Commerce, the Army Corps of Engineers, and the 
National Cemetery Administration at VA, in conjunction with state and 
local agencies and with the public and other stakeholders. VA, in 
consultation with a Federal Steering Committee composed of policy 
officials representing implementing Federal agencies, will select 
projects for funding based on selected criteria. The projects will be 
implemented through contracts to businesses, cooperative agreements and 
grants to non-Federal entities, and by directly hiring a small number 
of Veterans for positions.

    Question 3. The mission of the Department of Labor Veterans' 
Employment and Training Service is to provide ``resources and expertise 
to assist and prepare [veterans] to obtain meaningful careers * * *.'' 
Why has VA been tasked with overseeing the Veterans Job Corps and not 
the Veterans' Employment and Training Service?
    Response. VA and the Department of Labor share a strong interest in 
working together to assist Veterans secure employment and work 
collaboratively on a number of initiatives in this area.
Education
    Question 1. According to the fiscal year 2013 budget request, VA 
now expects to spend $12.2 million on reporting fees during fiscal year 
2012, which is 96% higher than the amount VA originally expected to 
spend ($6.2 million). The budget request indicates that there is ``a $6 
million increase in reporting fees due to legislative changes under 
[Public Law] 111-377, which increased the reporting fee multipliers 
from $7 to $12 and $11 to $15.''
    a. Please explain the assumptions or calculations that led to the 
expectation that the increases in reporting fees would nearly double 
the amount being spent during fiscal year 2012.
    Response. There were two factors that, when combined, explain the 
$6 million increase in FY 2012 reporting fees from the FY 2012 budget 
request to the current estimate. First, based on FY 2011 actual data, 
the total trainees for whom reporting fees would be paid increased from 
816,628 to 979,084. The programs which saw the largest projected 
increase based on FY 2011 data were chapter 33 (81,738) and chapter 30 
(28,325). Additionally, the Veterans Retraining Assistance Program, 
established by section 211 of the VOW to Hire Heroes Act (Title II of 
Public Law 112-56), added 45,000 trainees for FY 2012. In total, the 
increase in estimated trainees resulted in an increase in obligations 
of over $1.2 million in reporting fees.
    Additionally, Pub. L. 111-377 increased the reporting fee 
multipliers from $7 to $12 and $11 to $15. Under the old multipliers, 
the average fee was historically around $7.60. The same distribution of 
fees translates to a $12.45 average under the new multipliers, a 64% 
increase. When applied to the increased number of trainees for the 
current estimate, a 64% increase in reporting fees results in an 
additional $4.8 million in obligations.

    b. For fiscal year 2011, how many institutions received reporting 
fees from VA?
    Response. The reporting fee information for calendar year 2011 is 
not currently available.

    c. Please identify the 10 largest payments made to an institution 
and the 10 smallest payments made to an institution.
    Response. The reporting fee information for calendar year 2011 is 
not currently available.

    d. For fiscal year 2013, how many institutions are expected to 
receive reporting fees from VA?
    Response. Reporting fees are projected based on the number of 
trainees receiving education benefits in a given year. VA does not 
project the number of institutions expected to receive reporting fees 
in future years.

    Question 2. In the fiscal year 2013 budget request, VA proposed 
legislation ``to increase funding available to provide contract 
vocational and educational counseling'' to certain veterans or members 
of the Armed Forces.
    a. In fiscal year 2011, how many individuals requested this type of 
counseling, how many individuals were provided with this type of 
counseling, and how much in total was spent to provide counseling to 
those individuals?
    Response. VR&E provides educational and vocational counseling 
services under Chapter 36 to eligible Servicemembers and Veterans. This 
counseling is provided by VR&E counselors nationwide and through 
contracts VA has awarded to provide counseling services under both 
Chapter 31 and Chapter 36. VR&E obligated $3.5 million for contracted 
services under Chapter 36 in FY 2011 and $3.6 million in FY 2010. This 
number was uncharacteristically low due to the fact that VR&E was 
transitioning to new contracts which were awarded late in the fiscal 
year. By comparison, $5.4 million was obligated in FY 2009 for 
contracted services under Chapter 36. VR&E is unable to obtain data 
regarding the total number of individuals who sought and received 
counseling under Chapter 36 in FY 2011 due to a problem with the 
corporate database. The issue with the database has been identified, 
and VR&E is working on correcting the problem to ensure that this 
important data is available in the future.

    b. In fiscal year 2012, how many individuals are expected to seek 
this type of counseling, how many individuals are expected to be 
provided with this counseling, and how much in total is expected to be 
spent on these counseling services?
    Response. The current cap on Chapter 36 contracted services is $6 
million for FY 2012, which will enable VR&E to fund contracted 
counseling for approximately 12,000 Servicemembers or Veterans. Due to 
the drawdown and the current job market, there may be a bigger demand 
for Chapter 36 counseling. If the budget allocation for contracted 
services exceeds this demand, the gap would be filled by VR&E 
counselors providing these services directly. In FY 2010, 6,501 
Veterans completed Chapter 36 counseling.

    c. In FY 2013, how many individuals are expected to seek this type 
of counseling?
    Response. VR&E anticipates the need for additional funding in FY 
2013; however, the current legislative limit for FY 2013 is $6 million 
Please note that VA has submitted a legislative proposal as part of the 
FY 2013 budget that would increase funding available to provide 
contract vocational and educational counseling to not more than $7 
million in any fiscal year. The increase from FY 2012 is based on 
providing an additional 2,000 or more vocational assessments to exiting 
Servicemembers at IDES sites and/or referred by DOD as seriously 
disabled. Increased funding for this type of counseling will enable 
Servicemembers to engage in vocational rehabilitation services, 
including entering training and education programs, as soon as 
practical.

    Question 3. According to the summary of readjustment benefits in 
the fiscal year 2013 budget request, a reimbursement of $530,000 to 
General Operating Expenses and Information Technology was originally 
expected during fiscal year 2012 and now a $4.9 million reimbursement 
is expected. Please describe how those funds are expected to be used 
during fiscal year 2012.
    Response. There are three contributing factors to the increase of 
reimbursements to General Operating Expenses and Information Technology 
for FY 2012.

    <bullet> An increase of $2.0 million associated with the Veterans 
Retraining Assistance Program, as established by section 211 of the VOW 
to Hire Heroes Act of 2011 (Title II of Public Law 112-56), for 
information technology costs associated with the administration of this 
program.
    <bullet> An increase of $2.1 million authorized under Public Law 
108-454 for the transfer of funds to reimburse for costs associated 
with implementing on-the-job training provisions to the Information 
Technology appropriation.
    <bullet> An increase of $0.2 million authorized under Public Law 
106-419 for the transfer of funds to reimburse for costs associated 
with system changes to implement new provisions related to licensing 
and certification to the Information Technology appropriation.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mark Begich to U.S. 
                     Department of Veterans Affairs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
                  U.S. Department of Veterans Affairs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Roger F. Wicker to 
                  U.S. Department of Veterans Affairs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Scott P. Brown to 
                  U.S. Department of Veterans Affairs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. With that, I would like to invite our 
second panel to join us today. As I said, I have been called to 
the Capitol so I will introduce the panel. I will let our first 
speaker go and I will be turning the gavel over in a very 
bipartisan way to my colleague Senator Burr, not to give you 
practice, only to let you do it today. [Laughter.]
    I appreciate your accommodating me with this.

           INTRODUCING THE INDEPENDENT BUDGET REPRESENTATIVES

    Chairman Murray. If we could keep the room quiet as 
everybody changes chairs here I would really appreciate it 
because I would like to introduce the panel as they are coming 
out.
    We are going to be moving now to our second panel. Could we 
please have it quiet in the room as they come up and join us 
and are seated in the appropriate places.
    I want to extend a very, very warm welcome to a friend of 
mine from Washington, Bill Schrier. Mr. Schrier is the American 
Legion's Western Region National Vice Commander.
    Bill, thank you so much for being here today and for coming 
all the way across the country, for the tremendous work you do, 
and for your participation on this panel today to bring a local 
perspective that I think is important for all of us to hear. 
So, I appreciate that.
    Mr. Schrier is accompanied today by Tim Tetz, who is the 
Director for the National Legislative Commission for the 
American Legion.
    We also have the witnesses here who are here on behalf 
today of the Independent Budget. Carl Blake, the National 
Legislative Director of the Paralyzed Veterans of America. 
Jeffrey Hall, the Assistant National Legislative Director for 
the Disabled American Veterans.
    Diane Zumatto, National Legislative Director of AMVETS. 
Raymond Kelley, National Legislative Director for the Veterans 
of Foreign Wars. And finally, I want to welcome to the panel 
Tom Tarantino, Deputy Policy Director for Iraq and Afghanistan 
Veterans of America.
    We are going to begin with Mr. Schrier and then move down 
the table in order. The Independent Budget witnesses will have 
15 minutes total and The American Legion and Iraq and 
Afghanistan Veterans of America will be given 5 minutes each.
    I again apologize to all of you. Obviously we have had 
tremendous participation, and the Committee hearing has gone 
longer. I know that I and my staff and all the Members of the 
Committee will be looking at your testimony. It is extremely 
important to us, and we will be submitting to you questions as 
well even though we do not have a lot of Members present.
    And I especially want to thank Senator Burr for his 
accommodating my schedule as well.
    So, with that, Mr. Schrier, thank you again, and we will 
begin with you.

  STATEMENT OF WILLIAM SCHRIER, WESTERN REGION NATIONAL VICE 
   COMMANDER, THE AMERICAN LEGION; ACCOMPANIED BY TIM TETZ, 
 DIRECTOR, NATIONAL LEGISLATIVE COMMISSION, THE AMERICAN LEGION

    Mr. Schrier. Thank you, Madam Chair.
    Chairman Murray, Ranking Member Burr, and Members of the 
Committee, I would like to take this opportunity to thank you 
for the invitation to be here before you today and testify on 
behalf of The American Legion, the Nation's largest patriotic 
wartime veterans service organization and about the President's 
proposed budget for the Department of Veterans Affairs.
    The American Legion is grateful for the increase in the 
budget to deal with the needs of our Nation's veterans. For 
those who have borne the way of war for this Nation, we must 
always remember that a promise made is a promise that must be 
kept. We find like-minded allies who recognize the importance 
and even duty to ensure that we are keeping the promise to 
America's veterans.
    Chairman Murray, you know the importance of holding 
government to the promise made to our veterans. The American 
Legion in Washington State knows how tirelessly you fought for 
the veterans at the Madigan Army Hospital Center to ensure that 
their wounds of war were not being given the short end of the 
stick in the interest of financial savings.
    The American Legion also knows how hard it is for this 
Committee to have fought the VA to ensure hard work on passing 
the Caregiver's Act and not lost the narrow implementation.
    We stood with you in those fights. We are here today 
because you have shown the willingness to listen to the needs 
of America's 
veterans in the fight to make sure that we keep this end of the 

promise.
    The Department of Veterans Affairs is dedicated to 
providing earned benefits to those who have served. The 
President's budget is ambitious and certainly an increase of 
size especially at a time when government must be seeking ways 
of saving money. It is a positive step forward for our 
veterans.
    The American Legion remains concerned, however, that there 
are areas where a lack of foresight or faulty planning may lead 
the VA to default on the promise to our veterans. We cannot 
allow this to happen.
    One of the greatest shortfalls is the proposed budget for 
major and minor construction. While we are pleased to see the 
needed projects such as mental health services building in 
Seattle moving forward, when viewed as a whole, the 
construction budget fails to meet the needs of even VA's own 
internal strategic building plan.
    The Strategic Capital Investment Plan or SCIP provides the 
VA with a 10-year plan to address the most critical 
infrastructure needs. The American Legion was concerned that 
under the current budget figures it would take close to 40 
years for the needs of the 10-year plan to be met.
    We all heard recently on the importance of investment in 
infrastructure. These are the kinds of bills that you pay for 
now, or you pay for later. When infrastructure is given the 
short end up front, it becomes more expensive at the back.
    Yes, these are serious needs, and yes, it will require 
billions of dollars in funding and these billions of dollars 
are those that we cannot afford not to spend. We cannot condone 
veterans be placed in aging facilities that cannot meet even 
their most basic of needs. If we fail to fund construction now, 
we will break the promise once again to our veterans.
    Failures to reach necessary funding levels are not only 
concerns but must contend with this budget. We must also look 
closely to the VA. It intends to spend their money and where 
they spend their money and make sure that it is not based on 
smoke and mirrors but on real money that will be there when 
veterans need it most.
    Ambitious prospects in the budget for Medical Care 
Collections Fund, MCCF, are unfortunately based on premises. 
The American Legion fears that this will not bear fruit in the 
real world of 2013.
    Setting aside even concerns that the OIG found in the 
ineffective process while cost cutting for the VA over $110 
million annually in revenue were unable to be collected. That 
is a great concern with the proposed increases in the billing 
amounts.
    The VA's new budget proposes to bill private insurance at 
the preferred provider rate rather than the current Medicare 
rate. This changed billing reflects 90 percent of the proposed 
increase in this area of the budget.
    Frankly, this has never been authorized before; and even if 
authorized, the VA will be hard pressed to meet these overly 
optimistic budget targets. When this fails to generate the 
necessary revenue, the VA will be forced to find savings 
elsewhere in the budget and, of course, that means more broken 
promises to our 
veterans.
    Finally, we are concerned about him the overall budget 
prospect as a whole in these turbulent times of fiscal strife 
in the government. Surely, this Committee is aware of the 
pessimism of the American people regarding the ability of 
Congress to come to terms and to pass a complete budget.
    While we acknowledge that many worked tirelessly to break 
these budget deadlocks and surely share the frustration of the 
people when we cannot reach these decisions. Continuing 
resolutions and half measures make for uncertain planning.
    While advance appropriations offers relief, there are still 
projects that languish waiting for start dates, contracts that 
linger waiting for approval of an operating budget that the 
government moves from month to month.
    Questions remain about the VA's protection of sequestration 
and whether this, too, will suffer an across-the-board cut of 2 
percent despite the seeming protection from previous 
interpretation of budget controls.
    VA planners need a stable environment to ensure seamless 
benefits for the veterans they serve. More importantly, 
American veterans need to see this for themselves.
    Chairman Murray, that concludes my report, and I sense we 
will not be taking questions right now. Again thank you and 
you, Senator Burr, for allowing me to be here.
    [The prepared statement of Mr. Schrier follows:]

Prepared Statement of William F. Schrier, Western Region National Vice 
        Commander, Department of Washington, The American Legion

    Chairman Murray and Members of the Committee: On behalf of the 2.4 
million members of The American Legion and our National Commander, Fang 
A. Wong, I appreciate this opportunity to comment on the President's 
budget request.
    As thousands of troops return from deployments to Iraq and 
elsewhere in a shifting of our national security focus, it's 
encouraging to see that President Obama's FY 2013 budget for the 
Department of Veteran Affairs (VA) pivots to meet the need caused by 
this prioritization. On the surface, a double-digit increase in an 
operational budget would be the envy of any agency during these dire 
fiscal times. Yet, the fact that 72 percent of this increase is 
benefits to disabled, poor and student veterans causes the veteran 
advocate reason to pause. Will the resources remaining be capable to 
meet the needs of these returning veterans and those from previous war 
eras?
    While grateful for this increase, The American Legion remains 
concerned this increase is not only short of the ultimate need, but 
also a byproduct of budget and funding gimmickry that will ultimately 
only endanger veteran care if unsuccessful. Moreover, we remain 
concerned that these increases are directed not toward the veteran and 
his/her care, but rather the bureaucratic structure unable to meet 
present needs of the veteran.

                  ADVANCED APPROPRIATIONS FOR FY 2014

    Due to the successful passage of the Veterans Health Care Budget 
Reform and Transparency Act of 2009 (P.L. 111-81) three of the four 
accounts that make up the Veterans Health Administration (VHA) are 
funded in advance of the traditional budget cycle. Those three 
accounts--medical services, medical support and compliance, and medical 
facilities--are funded one year in advance and supplemented as 
necessary during the following year.
    While The American Legion joined in supporting the advance 
appropriation model, we remain concerned accurate projections on 
population and utilization and other challenges still remain.
    One such challenge came to our attention this year regarding the 
procurement of medical equipment and Information Technology (IT) 
purchases. When IT within the VA was combined together across the 
entire agency in 2006, it was implemented to improve efficiency, 
contracting, management and other challenges inherent with three 
disjointed IT management teams. This has proved somewhat successful.
    However, we are hearing that procurement of medical equipment and 
IT is hampered at medical facilities due to budget implementation 
failures through continuing resolutions. While a VA medical center 
director might have his/her operational funding beginning October 1 
because of advance appropriations, much needed IT or medical equipment 
might be delayed due to a continuing resolution impasse in Congress. 
This has a detrimental impact on the veteran and his/her care.

                            MEDICAL SERVICES

    Over the past two decades, VA has dramatically transformed its 
medical care delivery system. Through The American Legion visits to a 
variety of medical facilities throughout the Nation during our System 
Worth Saving Task Force, we see firsthand this transformation and its 
impact on veterans in every corner of the Nation.
    While the quality of care remains exemplary, veteran health care 
will be inadequate if access is hampered. Today there are over 22 
million veterans in the United States. While 8.3 million of these 
veterans are enrolled in the VA health care system, a population that 
has been relatively steady in the past decade, the costs associated 
with caring for these veterans has escalated dramatically.
    For example between FY 2007 and 2009, VA enrollees increased from 
7.8 million to 8.1 million. During the same period, inpatient 
admissions increased from 589 thousand to 662 thousand. Outpatient 
visits also increased from 62 million to 73 million. Correspondingly, 
cost to care for these veterans increased from $29 billion to $39.4 
billion. This 36 percent increase during those two years is a trend 
that dramatically impacts the ability to care for these veterans.
    While FY 2010 numbers seemingly leveled off--to only 3 percent 
annual growth--will adequate funding exist to meet veteran care needs? 
If adequate funding to meet these needs isn't appropriated, VA will be 
forced to either not meet patient needs or shift money from other 
accounts to meet the need.
    Even with the opportunity for veterans from OIF/OEF to have up to 5 
years of care following their active duty period, we have not seen a 
dramatic change in overall enrollee population. Yet The American Legion 
remains concerned that the population estimates are dated and not 
reflective of the costs. If current economic woes and high unemployment 
rates for veterans remain, VA medical care will remain increasing 
enticing for a veteran population that might not have utilized those 
services in different times.
    Finally, ongoing implementation of programs such as the Pub. L. 
111-163 ``Caregiver Act'' will continue to increase demands on the VA 
health care system and, therefore, result in an increased need for a 
budget that can adequately deal with the challenges.
    The final FY 2013 advanced appropriations for Medical Services was 
$41.3 billion. In order to meet the increased levels of demand, even 
assuming that not all eligible veterans will elect to enroll for 
coverage, and keep pace with the cost trend identified above, there 
must be an increase to account for both the influx of new patients and 
increased costs of care.
    The American Legion recommends increasing the FY 2014 budget for VA 
Medical Services to $44 billion.

                     MEDICAL SUPPORT AND COMPLIANCE

    The Medical Support and Compliance account consists of expenses 
associated with administration, oversight, and support for the 
operation of hospitals, clinics, nursing homes, and domiciliaries. 
Although few of these activities are directly related to the personal 
care of veterans, they are essential for quality, budget management, 
and safety. Without adequate funding in these accounts, facilities will 
be unable to meet collection goals, patient safety, and quality of care 
guidelines.
    The American Legion has been critical of programs funded by this 
account. We remain concerned patient safety is addressed at every 
level. We are skeptical if patient billing is performed efficiently and 
accurately. Moreover, we are concerned that specialty advisors/
counselors to implement OIF/OEF outreach, ``Caregiver Act'' 
implementation, and other programs are properly allocated. If no need 
for such individuals exists, should the position be placed within a 
facility? Simply throwing more money at this account, increasing staff 
and systems won't resolve all these problems.
    During the previous budget, this account grew by nearly 8 percent 
to $5.31 billion. The American Legion questions the necessity for that 
rate to continue at this time.
    The American Legion recommends increasing the FY 2014 budget for VA 
Medical Support and Compliance to $5.52 billion.

                           MEDICAL FACILITIES

    During the FY 2012 budget cycle, VA unveiled the Strategic Capital 
Investment Planning (SCIP) program. This ten-year capital construction 
plan was designed to address VA's most critical infrastructure needs 
within the VA. Through the plan, VA estimated the ten-year costs for 
major and minor construction projects and non-recurring maintenance 
would total between $53 billion and $65 billion over ten years. Yet 
during the FY 2012 budget, these accounts were underfunded by more than 
$4 billion.
    The American Legion is supportive of the SCIP program which 
empowers facility managers and users to evaluate needs based on patient 
safety, utilization, and other factors. While it places the onus on 
these individuals to justify the need, these needs are more reflective 
of the actuality as observed by our members and during our visits. Yet, 
VA has taken this process and effectively neutered it through budget 
limitations, thereby underfunding the accounts and delaying delivery of 
critical infrastructure.
    So while failing to meet these needs, facility managers will be 
forced to make do with existing aging facilities. While seemingly 
saving money in construction costs, the VA will be expending money 
maintaining deteriorating facilities, paying increased utility and 
operational costs, and performing piecemeal renovation of properties to 
remain below the threshold of major or minor projects.
    This is inefficient byproduct of budgeting priorities. Yet, as will 
be noted later, the reality remains that the SCIP program is unlikely 
to be funded at complete levels necessary to deliver on the ten year 
plan. Therefore, this account must be increased to meet the short term 
needs within the existing facilities.
    With a final FY 2013 Advance Appropriations budget of $5.74 
billion, The American Legion recommends an FY 2014 budget increase to 
$6 billion to ensure facilities are maintained to proper levels, 
particularly in an austerity period where much needed improvements by 
construction are being neglected and facilities are expected to extend 
their normal operating life.
    The American Legion recommends increasing the FY 2014 Medical 
Facilities budget to $6 billion.

                    MEDICAL AND PROSTHETIC RESEARCH

    The American Legion has maintained a position that VA research must 
focus on improving treatment for medical conditions unique to veterans. 
Because of the unique structure of VA's electronic medical records 
(VISTA), VA research has access to a great amount of longitudinal data 
incomparable to research outside the VA system. Because of the ongoing 
wars of the past decade, several areas have emerged as ``signature 
wounds'' of the Global War on Terror, specifically Traumatic Brain 
Injury (TBI), Posttraumatic Stress Disorder (PTSD), and dealing with 
the aftereffects of amputated limbs.
    Much media attention has focused on TBI from blast injuries common 
to Improvised Explosive Devices (IEDs) and PTSD. As a result, VA has 
devoted extensive research efforts to improving the understanding and 
treatment of these disorders. Amputee medicine has received less 
scrutiny, but is no less a critical area of concern. Because of 
improvements in body armor and battlefield medicine, catastrophic 
injuries that in previous wars would have resulted in loss of life have 
led to substantial increases in the numbers of veterans who are coping 
with loss of limbs.
    As far back as 2004, statistics were emerging which indicated 
amputation rates for US troops were as much as twice that from previous 
wars. By January 2007, news reports circulated noting the 500th amputee 
of the Iraq War. The Department of Defense response involved the 
creation of Traumatic Extremity Injury and Amputation Centers of 
Excellence, and sites such as Walter Reed have made landmark strides in 
providing the most cutting edge treatment and technology to help 
injured servicemembers deal with these catastrophic injuries.
    However, The American Legion remains concerned that once these 
veterans transition away from active duty status to become veteran 
members of the communities, there is a drop off in the level of access 
to these cutting edge advancements. Ongoing care for the balance of 
their lives is delivered through the VA Health Care system, and not 
through these concentrated active duty centers.
    Many reports indicate the state-of-the-art technology available at 
DOD sites is not available from the average VA Medical Center. With so 
much focus on ``seamless transition'' from active duty to civilian life 
for veterans, this is one critical area where VA cannot afford to lag 
beyond the advancements reaching servicemembers at DOD sites. If a 
veteran can receive a state-of-the-art artificial limb at the new 
Walter Reed National Military Medical Center (WRNMMC) they should be 
able to receive the exact same treatment when they return home to the 
VA Medical Center in their home community, be it in Gainesville, Battle 
Creek, or Fort Harrison.
    American Legion contact with senior VA health care officials has 
concluded that while DOD concentrates their treatment in a small number 
of facilities, the VA is tasked with providing care at 152 major 
medical centers and over 1,700 total facilities throughout the 50 
states as well as in Puerto Rico, Guam, American Samoa and the 
Philippines. Yet, VA officials are adamant their budget figures are 
sufficient to ensure a veteran can and will receive the most cutting 
edge care wherever they choose to seek treatment in the system.
    The American Legion remains concerned about the ability to deliver 
this cutting edge care to our amputee veterans, as well as the ability 
of VA to fund and drive top research in areas of medicine related to 
veteran-centric disorders. There is no reason VA should not be seen at 
the world's leading source for medical research into veteran injuries 
such as amputee medicine, PTSD and TBI.
    In FY 2011 VA received a budget of $590 million for medical and 
prosthetics research. Only because of the efforts of the House and 
Senate, was this budget kept at that level during the FY 2012 budget 
due to significant pressure from The American Legion. Even at this 
level, The American Legion contends this budget must be increased, and 
closely monitored to ensure the money is reaching the veteran at the 
local level.
    The American Legion recommends FY 2013 budget for Medical and 
Prosthetics Research be increased to $600 million.

                  MEDICAL CARE COLLECTIONS FUND (MCCF)

    In addition to the aforementioned accounts which are directly 
appropriated, medical care cost recovery collections are included when 
formulating the funding for VHA. Over the years, this funding has been 
contentious because they often included proposals for enrollment fees, 
increased prescription rates, and other costs billed directly to 
veterans. The American Legion has always ardently fought against these 
fees and unsubstantiated increases.
    Beyond these first party fees, VHA is authorized to bill health 
care insurers for nonservice-connected care provided to veterans within 
the system. Other income collected into this account includes parking 
fees and enhanced use lease revenue. The American Legion remains 
concerned that the expiration of authority to continue enhanced use 
leases will greatly impact not only potential revenue, but also 
delivery of care in these unique circumstances. We urge Congress to 
reauthorize the enhanced use lease authority with the greatest amount 
of flexibility allowable.
    However, the collection of fees and insurance payments comprises 
nearly 98 percent of the revenue gathered within this account. In the 
previous budget cycle, this account was budgeted to decrease to $2.77 
billion. The American Legion remained skeptical that the VA was meeting 
these deadlines even at a reduced level. We were well aware that 
failure to meet these budgeted amounts equated to a reduction in 
appropriations and therefore a reduction in services at some level.
    In the first quarter of FY 2011, VHA reported a 12.3 percent 
decrease below the budgeted collections--an amount totaling nearly $100 
million. They remained below projections for the second quarter of FY 
2011 when the Senate Veterans' Affairs Committee shared our concern in 
a letter requesting detailed plans on how VA was going to improve on 
MCCF collections. To date, our fears have not been assuaged that VA can 
actually deliver on projected savings, even when reduced during the 
previous budget cycle.
    In May 2011, the VA Office of Inspector General (OIG) issued a 
report auditing the collections of third party insurance collections 
within MCCF. Their audit found that ``VHA missed opportunities to 
increase MCCF by * * * 46 percent.'' Because of ineffective processes 
used to identify billable fee claims and systematic controls, it was 
estimated VHA lost over $110 million annually. In response to this 
audit, VHA assured they'd have processes in place to turn around this 
trend.
    According to the VA, approximately 90 percent of the proposed 
increase in the MCCF account for FY 2013 will be based on the ability 
for VA to bill private insurance companies a ``preferred provider'' 
rate rather than the Medicare rate. When this proposal was included in 
previous submissions, it never was authorized. Clearly, the VA will be 
hard pressed to meet the collection levels optimistically budgeted for 
2013. Without those collections, savings must be garnered elsewhere to 
meet these shortfalls, thereby causing facility administrators and VISN 
directors to make difficult choices that ultimately negatively impact 
veterans through a lack of hiring, delay of purchasing, or other 
savings methods.
    It would be unconscionable to increase this account beyond the 
previous levels that were not met. To do so without increasing co-
payments or collection methods would be counterproductive and mere 
budget gimmickry. While we recognize the need to include this in the 
budget, The American Legion cannot support a budget that penalizes the 
veteran for administrative failures.
    The American Legion recommends budgeting $2.95 billion for Medical 
Care Cost Collections.

                       APPROPRIATIONS FOR FY 2013

    The remaining accounts within VA are being allocated funding for FY 
2013. These include funding for general operation of VA Central Office 
(VACO), the National Cemetery Administration (NCA) and Veterans 
Benefits Administration.

                 VETERAN BENEFITS ADMINISTRATION (VBA)

    Any discussion of the VBA must include discussion of the ongoing 
backlog of veterans' benefits claims. Despite improvements to the 
claims processing system enabling VBA to process claims more rapidly, 
the backlog has continued to grow as the influx of claims each year 
continues to exceed a million claims a year over the past three years. 
Additional claims resulting from additions to presumptive conditions 
associated with the aftereffects of the chemical herbicide Agent Orange 
have contributed to this backlog. The American Legion can further 
foresee significant increases to claims as more servicemembers return 
from wars in Afghanistan and Iraq and are assimilated into the civilian 
veteran population. Further cuts to military manpower will drive more 
veterans into the civilian populace and as servicemembers transition 
from active duty to the civilian world, more claims will continue to 
pour in.
    Despite improvements to claims processing by the beginnings of 
implementation of the Veterans Benefits Management System (VBMS), the 
VBA's fully electronic claims processing system, overall VBA will be 
strained beyond their already struggling capacity without proper 
funding to adequately address the backlog. While there have been 
significant improvements in funding to VBA over the past six years, 
this trend must continue if there is any hope to stave off disaster. 
The system is already strained to its limits and is struggling to even 
``tread water.'' Further improvements in this area must be made so that 
veterans can finally receive prompt and accurate service addressing 
their needs for injuries and conditions sustained during their active 
duty service, as well as the residual aftereffects of that selfless 
service.
    VBA is also deeply involved in a massive overhaul of the ratings 
schedule for payment of disability for every major body system. 
Potential changes to ratings for mental health disorders and major 
musculoskeletal groups will be rolled out over the coming years, and 
implementation of these changes will require extensive training of VBA 
personnel to ensure they are properly administering the benefits 
system. The American Legion has long been critical of training within 
VBA, and lack of proper training contributes to high error rates which 
further tie up the claims systems with lengthy appeals that would be 
unnecessary if the claims had been decided properly, by properly 
trained personnel, on the first go-around.
    In other areas of compensation, pension and fiduciary programs 
administered within VBA have been ongoing consolidation. Whether or not 
these consolidations contribute to savings and more efficient operation 
is a matter of open debate. The American Legion contends consolidation 
has often created more problems than it has solved, and often 
necessitated additional personnel at the local level to fix problems 
created by removing staff to remote areas out of direct contact with 
the veterans they purport to serve.
    Furthermore, by VBA's own admission, consolidation of fiduciary 
programs has resulted in pulling personnel away from claims processing 
to be moved to the new fiduciary hubs, thereby creating a vacuum in 
claims processing, an area already tasked to the limit. Given the 
lengthy training period necessary to bring new claims processing hires 
up to speed and effectiveness this only portends more problems in the 
already troubled claims processing arena.
    Increased funding in this area is necessary to provide for new 
employees to handle the massive caseload, more extensive and better 
organized training targeted to address key areas of deficiency in 
claims processors, and to ensure personnel adequate for full use of the 
VBMS system. Furthermore, as the proliferation of pilot programs to 
solve the challenges of the claims systems continues to evolve, more 
funding will be needed to ensure that the more advanced and effective 
business models can be replicated and implemented on a national level 
so there is consistency in every Regional Office.
    VBA's final FY 2012 appropriation for budget was $2 billion, a 
reduction from the FY 2011 levels. Given the dire need of enhancements 
in this area, The American Legion is recommending a 10 percent increase 
in this budget for FY 2013 to account for the many areas of need, 
including increased staffing and training. As with all areas of VA 
budgeting, The American Legion is concerned that any increases in 
funding actually reach down to the regional level, rather than be 
swallowed up by an endlessly expanding VACO bureaucracy. Congress has 
shown good faith recognizing the dire need for funding to ensure 
veterans receive timely access to benefits, but oversight must be 
exercised to ensure this money actually reaches the veteran on the 
street, where it is most deserved.
    The American Legion recommends budgeting $2.2 billion for the 
Veterans Benefits Administration (VBA).

                         INFORMATION TECHNOLOGY

    Like the VBA budget, the Information Technology (IT) budget was 
slightly pared back in FY 2012. The American Legion was unable to gauge 
the progress gained on the 76 IT projects proposed during that budget 
cycle. In addition to the implementation and launch of the VBMS system, 
the greatest long-awaited project is the launch of the joint VA and 
Department of Defense (DOD) lifetime record--Virtual Lifetime 
Electronic Record (VLER).
    The American Legion remains a strong advocate for the 
implementation of such recordkeeping, yet we are pessimistic the VA and 
DOD are making sufficient progress toward that end.
    During the previous budgeting, VA was unable to provide information 
on the overall cost of creating such a system, but assured veteran 
advocates there was enough flexibility to address any costs associated 
with the project. In the meantime, several releases and announcements 
have been issued by VA toward the continued evolution of this project, 
but there is little to demonstrate we're any closer to producing a 
ready model. The American Legion calls upon Congress to continue to 
pressure VA and DOD to move toward this system as expeditiously as 
possible. With the development and launch of VBMS nearly complete, the 
entire IT focus should center on VLER.
    In order to provide the necessary resources for the nationwide 
rollout of VBMS and still maintain efforts toward development of VLER, 
The American Legion believes a small increase is justified within IT.
    The American Legion recommends budgeting $3.3 billion for 
Information Technology.

                      MAJOR AND MINOR CONSTRUCTION

    After two years of study the Department of Veterans Affairs (VA) 
developed the Strategic Capital Investment Planning (SCIP) program. It 
is a ten-year capital construction plan designed to address VA's most 
critical infrastructure needs within the Veterans Health 
Administration, Veterans Benefits Administration, and National Cemetery 
Administration.
    The SCIP planning process develops data for VA's annual budget 
requests through analysis of VA facilities nationwide. These 
infrastructure budget requests are divided into several VA accounts: 
Major Construction, Minor Construction, Non-Recurring Maintenance 
(NRM), Enhanced-Use Leasing, Sharing, and Other Investments and 
Disposal. In the 2013 budget submission, VA estimated implementation of 
SCIP would require between $51 billion and $62 billion. Activation of 
these facilities would require approximately $10 billion to $12 billion 
more.
    The American Legion is very concerned about the lack of funding in 
the Major and Minor Construction accounts. In FY 2012 The American 
Legion recommended to Congress that the Major Construction account be 
funded at $1.2 billion and the Minor Construction account be funded at 
$800 million. However, Congress only appropriated $589 million and $482 
million respectively to those accounts. Based on VA's SCIP plan, 
Congress underfunded these accounts by approximately $4 billion in FY 
2012. Clearly, if this underfunding continues VA will never fix its 
identified deficiencies within its ten-year plan.


----------------------------------------------------------------------------------------------------------------
                                     Estimated Cost of SCIP                               Completion at present
          Investment Type                Implementation        FY 2013 Budget Proposal        funding level
----------------------------------------------------------------------------------------------------------------
Major Construction................      $20.1-$24.6 billion              $532 million               38-45 years
----------------------------------------------------------------------------------------------------------------
Minor Construction................        $8.6-10.5 billion              $608 million               14-18 years
----------------------------------------------------------------------------------------------------------------

    The American Legion also understands there is a discussion to refer 
to SCIP in the future as a ``planning document'' rather than an actual 
capital investment plan. Under this proposal, VA will still address the 
deficiencies identified by the SCIP process for future funding requests 
but rather than having an annual appropriation, SCIP will be extended 
to a five year appropriation, similar to the appropriation process used 
by the Department of Defense as its construction model. Such a plan 
will have huge implications on VA's ability to prioritize or make 
changes as to design or project specifications of its construction 
projects. The American Legion is against this five year appropriation 
model and recommends Congress continue funding VA's construction needs 
on an annual appropriations basis.
    The American Legion recommends Congress adopt the 10-year action 
plan created by the SCIP process. Congress must appropriate sufficient 
funds to pay for needed VA construction projects and stop underfunding 
these accounts. In FY 2013 Congress must provide increased funding to 
those accounts to ensure the VA-identified construction deficiencies 
are properly funded and these needed projects can be completed in a 
timely fashion.
    The American Legion recommends budgeting $5.3 billion for Major 
Construction and $1.2 billion for Minor Construction projects within 
VA.

                STATE VETERANS HOMES CONSTRUCTION GRANTS

    Perhaps no program facilitated by the VA has been as impacted by 
the decrease in government spending than the State Veterans Homes 
Construction Grant program. For the past two fiscal years, Congress has 
appropriated $85 million toward the construction, upgrade, and 
expansion of long term care facilities operated by the states.
    This program is essential in providing services to a significant 
number of veterans throughout the country at a fraction of the daily 
costs of similar care in private or VA facilities. Yet, in order to 
qualify for the Federal grant, states must put forward a percentage of 
the overall planning and construction costs. With a downturn in the 
economy, a majority of the states have been unable to leverage state 
funding for these projects. That coupled with a significant increase in 
2009 helped eliminate the backlog that had been building.
    As the economy rebounds and states are pivoting toward resuming 
essential services, taking advantage of depressed construction costs, 
and meeting the needs of an aging veteran population, greater use of 
this grant program will continue. The American Legion encourages 
Congress to maintain the funding level of this program.
    The American Legion recommends budgeting $85 million for State 
Veterans Homes Construction Grant program.

                 NATIONAL CEMETERY ADMINISTRATION (NCA)

    No aspect of the VA is as critically acclaimed as the National 
Cemetery Administration (NCA). In the 2010 American Customer 
Satisfaction Index, the NCA achieved the highest ranking of any public 
or private organization. This wasn't a one-time occurrence; it has been 
replicated numerous times in the past decade. In addition to meeting 
this customer service level, the NCA remains the highest employer of 
veterans within the Federal Government and remains the model for 
contracting with veteran-owned businesses.
    The NCA is comprised of 131 national cemeteries. NCA was 
established by Congress and approved by President Abraham Lincoln in 
1862 to provide for the proper burial and registration of graves of 
Civil War dead. Since 1973, annual interments in NCA have increased 
from 36,400 to over 117,426 in 2011.
    While NCA met their goal of having 90 percent of veterans served 
within 75 miles of their home, their aggressive strategy to improve 
upon this in the coming five years will necessitate funding increases 
for new construction. Congress must provide sufficient major 
construction appropriations to permit NCA to accomplish this goal and 
open five new cemeteries in the coming five years. Moreover, funding 
must remain to continue to expand existing cemetery facilities as the 
need arises.
    The average time to complete construction of a national cemetery is 
7 years. The report of a study conducted pursuant to the Millennium 
Bill concluded that an additional 31 national cemeteries would be 
required to meet the burial option demand through 2020. In order to 
adequately fund these five new cemeteries, Congress must be prepared to 
appropriate the resources now.
    In addition, within the SCIP plan, the NCA identified a need of 
$563 million in major construction projects, $517 million in minor 
construction projects, and $231 million in activation. While not as 
overwhelming as the need within other agencies of the VA, these are 
considerable.
    The American Legion recommends budgeting $100 million for each of 
the major and minor construction categories within NCA.
    While the costs of fuel, water, and contracts have risen, the NCA 
operations budget has remained nearly flat for the past two budgets. 
Some of these expenses have been a result of efficiency transformations 
within the cemetery. Others have been due to the thriftiness of 
cemetery superintendents.
    Unfortunately recent audits have shown cracks beginning to appear 
because of these savings. Due predominantly to poor contract oversight, 
several cemeteries inadvertently misidentified burial locations. 
Although only one or two were willful violations of NCA protocols, the 
findings demonstrate a system about ready to burst.
    To meet the increased costs of fuel, equipment, and other resources 
as well as ever-increasing contract costs, The American Legion believes 
a small increase is necessary. In addition, we urge Congress to 
adequately fund the construction program to meet the burial needs of 
our Nation's veterans.
    The American Legion recommends budgeting $260 million for National 
Cemetery Administration's Operating Budget.

                STATE VETERANS' CEMETERIES GRANT PROGRAM

    The NCA administers a program of grants to states to assist them in 
establishing or improving state-operated veterans' cemeteries through 
VA's State Cemeteries Grants Program (SCGP). Established in 1978, this 
program funds nearly 100 percent of the costs to establish a new 
cemetery, or expand existing facilities. For the past two budgets this 
program has been budgeted $46 million to accomplish this mission.
    In 2007, the Dr. James Allen Veteran Vision Equity Act of 2007 
(Public Law 110-157) authorized VA under the SCGP to provide additional 
Federal assistance to states for the operation and maintenance of state 
veterans cemeteries. Prior to passage of this law, VA could only 
provide Federal funds for the establishment, expansion, and improvement 
of state veterans' cemeteries. VA could not fund the operation or 
maintenance of state veterans' cemeteries.
    The new authority granted by the Act authorizes VA to fund 
Operation and Maintenance Projects at state veterans' cemeteries to 
assist states in achieving the national shrine standards VA achieves 
within national cemeteries. Specifically, the new operation and 
maintenance grants have been targeted to help states meet VA's national 
shrine standards with respect to cleanliness, height and alignment of 
headstones and markers, leveling of gravesites, and turf conditions. 
The Act authorizes VA to award up to a total of $5 million for such 
purposes each fiscal year to ensure state veterans' cemeteries meet the 
highest standards of appearance and serve as national shrines to honor 
the Nation's military servicemembers with a final resting place.
    In addition, this law allowed for VA to provide funding for the 
delivery of grants to tribal governments for Native American veterans. 
Yet after the passage of this act, we have not seen the allocation of 
funding increased to not only meet the existing needs under the 
construction and expansion level, but also the needs from operation and 
maintenance and tribal nation grants. Moreover, as these cemeteries 
age, the $5 million limitation must be revoked to allow for better 
management of resources within the projects.
    State cemetery grants are managed through an intricate list of 
priority groups, assigning rank and priority to projects based on 
burial need, matching funds from the state or tribal government, and 
other factors. The 2012 priority list has over 100 applications for 
grants valued at over $250 million. Sixty applications, totaling over 
$150 million, already have matching funds necessary to leverage the 
grant money from NCA. In order to meet this growing need, the grant 
funding must be increased.
    The American Legion recommends budgeting $60 million for State 
Veterans' Cemeteries Grant Program.

                               CONCLUSION

    In conclusion, The American Legion is optimistic the President has 
proposed a budget adequate to meet the needs of the more than 1 million 
servicemembers who are returning after deployments in support of the 
Global War on Terror. We're hopeful savings generated through 
downsizing of the military are leveraged against the need of thousands 
of servicemembers who will be discharged to create the savings. Yet, 
we're more than pessimistic these will be accomplished without budget 
gimmickry such as carryover funds, lofty collection goals, and other 
schemes.
    As we've seen in previous years, when these slights of hand are 
used, it almost always negatively impacts the care and benefits 
afforded to our Nation's veterans. Too often while veteran advocates 
celebrate dramatically increased budgets, the veteran patient, 
claimant, or widow is left wondering where the money went. We must not 
do so again.
    Our Nation's veterans deserve adequate and responsible funding to 
the fullest level possible. After over a decade of service, our newest 
era of veterans will join the ranks of generations of their brothers 
and sisters who are owed a great debt.
    Our debt is one paid for by the sweat in the ungodly heat of Iraq. 
Our liability was earned by the young Marine trudging up and down the 
rugged mountains of Afghanistan. This obligation was earned in the 
darkened cockpit of a medical evacuation flight jetting over the 
Atlantic. It is a debt of tears, blood and sacrifice and deserves to be 
repaid in honest true money.

    Chairman Murray. Mr. Blake.

  STATEMENT OF CARL BLAKE, THE NATIONAL LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Madam Chairman, Senator Burr, on behalf of the 
co-authors of the Independent Budget, the Paralyzed Veterans of 
America is pleased to be here today to offer our views on the 
Administration's budget request for fiscal year 2013 and the 
Advance Appropriation for Fiscal Year 2014.
    In the interest of time, I will limit my comments to just a 
couple of concerns with particular issues that are in the 
budget request.
    First, let me say up front we certainly appreciate the 
increase that the Administration has provided for in its budget 
request. That being said, we have real concerns as addressed 
also by the Committee Members here about the impact that 
sequestration may have.
    Simply put, we find it absurd that more than 6 months after 
the Budget Control Act was passed, there is still no definitive 
position on whether or not VA programs, and in particular 
health care programs, are protected from sequestration. I think 
the Committee and all the Members of Congress have made it 
clear, and I think it is time for a final decision to be made.
    With regards to some specific issues in the budget request, 
we echo the concerns that were raised here by Members of the 
Committee with regards to medical care collections and the 
roller coaster ride that has existed in recent years in 
determining the estimates for that.
    We also agree with the concerns that were raised about 
perceived management and the program improvements and 
efficiencies, whether those savings were actually realized and 
the impact of not realizing those savings may have on the 
delivery of health care.
    Probably, the largest or the single biggest concern that we 
have, however, is with a particular disclosure in the 
President's budget that outlines what they have said is 
approximately a $3 billion excess in resources that were 
provided for fiscal year 2012 and about $2 billion in excess 
resources for fiscal year 2013.
    This fact sort of begs the question. How can the 
Administration clearly say that they have $3 billion in excess 
resources for this fiscal year with fully 7 months of the 
fiscal year left to go?
    You know, we all hear the stories about shortages in 
staffing and those questions were raised earlier and all these 
different things. It just sort of boggles the mind that we 
suddenly have this excess resources, and we are not talking 
about a small pot of money either. We are talking about 5 
percent of the VA budget.
    It is particularly troubling in light of the fact that the 
VA could potentially face a cut of 2 percent under 
sequestration. So, we would certainly encourage the Committee 
and all the Members of Congress to really investigate this and 
get to the bottom of this.
    This single fact could pose a bigger problem for the VA in 
its delivery of care than any other issue that the VA is 
facing, we believe, in the coming years, this year and in the 
coming years.
    With regards to fiscal year 2014 advance appropriation, I 
would just highlight a couple of concerns that we have.
    First, with regards to the increase in medical support and 
compliance, I would point to the fact that it is a some pretty 
substantial increase projected for 2014. This is not unlike 
some of the comments you made, Senator Burr, about the growth 
in administrative function within the VHA.
    At the same time, the advance appropriation provides for a 
very substantial decrease in medical facilities. While I 
understand that some of that is based on the assumption that 
they will transfer a certain amount of money and some FTE from 
the medical facilities into medical services, it also is 
contingent on a cut in nonrecurring maintenance of almost 
halving that account.
    I think given a lot of discussion in recent years about the 
impact of funding on nonrecurring maintenance and what effect 
it is having on VA facilities, the Committee should certainly 
be interested in looking into that further, and I know my 
colleague from the VFW as he addresses construction will 
probably touch on this as well.
    And so with that, I will conclude my statement and will be 
happy to take any questions you may have.
    [The prepared statement of Mr. Blake follows:]

   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America

    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
as one of the four co-authors of The Independent Budget (IB), Paralyzed 
Veterans of America (PVA) is pleased to present the views of The 
Independent Budget regarding the funding requirements for the 
Department of Veterans Affairs (VA) health care system for FY 2013.
    As the country faces a difficult and uncertain fiscal future, the 
Department of Veterans Affairs likewise faces significant challenges 
ahead. Following months of rancorous debate about the national debt and 
Federal deficit during the summer of 2011, Congress agreed upon a 
deficit reduction measure, Public Law 112-25, that could lead to cuts 
in discretionary and mandatory spending for VA. The coauthors of The 
Independent Budget--AMVETS, Disabled American Veterans, Paralyzed 
Veterans of America, and the Veterans of Foreign Wars--have serious 
concerns about the potential reductions in VA spending. While changes 
to benefits programs and cuts to discretionary programs have unique 
differences, the impact of these possibilities will be equally 
devastating for veterans and their families.
    Discretionary spending in VA accounts for approximately $62 
billion. Of that amount, nearly 90 percent of that funding is directed 
toward VA medical care programs. The VA is the best health-care 
provider for veterans. Providing primary care and specialized health 
services is an integral component of VA's core mission and 
responsibility to veterans. Across the Nation, VA is a model health-
care provider that has led the way in various areas of medical 
research, specialized services, and health-care technology. The VA's 
unique system of care is one of the Nation's only health-care systems 
that provides developed expertise in a broad continuum of care. 
Currently, the Veterans Health Administration serves more than 8 
million veterans and provides specialized health-care services that 
include program specific centers for care in the areas of spinal cord 
injury/disease, blind rehabilitation, Traumatic Brain Injury, 
prosthetic services, mental health, and war-related polytraumatic 
injuries. Such quality and expertise on veterans' health care cannot be 
adequately duplicated in the private sector. Any reduction in spending 
on VA health-care programs would only serve to degrade these critical 
services.
    The Independent Budget veterans service organizations (IBVSOs) are 
especially concerned about steps VA has taken in recent years in order 
to generate resources to meet ever-growing demand on the VA health-care 
system. In fact, the FY 2012 and FY 2013 advance appropriation budget 
proposal released by the Administration last year included ``management 
improvements,'' a popular gimmick used by previous Administrations to 
generate savings and offset the growing costs to deliver care. 
Additionally, the FY 2013 Budget Request and FY 2014 advance 
appropriation recommendation includes many of the same ``management and 
program improvements.'' Unfortunately, these savings are often never 
realized leaving VA short of necessary funding to address ever-growing 
demand on the health-care system. In fact, the Government 
Accountability Office (GAO) outlined its concerns with this budget 
accounting technique in a report released to the House and Senate 
Committees on Veterans' Affairs in June 2011. In its report, the GAO 
states:

        If the estimated savings for fiscal years 2012 and 2013 do not 
        materialize and VA receives appropriations in the amount 
        requested by the President, VA may have to make difficult 
        tradeoffs to manage within the resources provided.

    This observation reflects the real possibility that exists should 
VA health care, as well as other programs funded through the 
discretionary process, be subject to spending reductions.
    Moreover, we believe that continued pressure to reduce Federal 
spending will only lead to greater reliance on gimmicks and false 
assumptions to generate apparent but illusory funding. This is 
particularly true given the VA's claim in the FY 2013 Budget Request 
that it was provided nearly $3.0 billion in excess resources in FY 2012 
and more than $2.0 billion in excess resources in FY 2013. We question 
how the VA can make such a claim, particularly about FY 2012, when 
there remains fully seven months in this current fiscal year (FY 2012). 
This information deserves the highest level of scrutiny and oversight 
that this Committee can provide. While the VA claims that changes in 
its assumptions included in its actuarial model have led to this 
determination, the IB would argue that wide-ranging and sweeping 
changes in its assumptions would be necessary to lead to an 
approximately five percent change in funding needs. Additionally, the 
claim of excess resources does not seem to match the all-too-common 
reports that we receive of understaffed facilities and unavailability 
of services.
    In light of the Administration's continued inability to determine 
its position with regards to sequestration, we have serious concerns 
about the fact that the VA claims to have nearly five percent in excess 
resources when it faces the prospect of up to a two percent reduction 
in funding under the rules of sequestration. We cannot emphasize enough 
the need for VA to state unequivocally that its programs will not be 
cut through sequestration.
    Meanwhile, Congress once again failed to fulfill its obligations to 
complete work on appropriations bills funding all Federal departments 
and agencies, including VA, by the start of the new fiscal year on 
October 1, 2011. Fortunately, as has become the new normal, last year 
the enactment of advance appropriations shielded the VA health-care 
system from the political wrangling and legislative deadlock.
    Finally, the IBVSO's remain concerned about the continued downward 
revision of estimates in Medical Care Collections. In fact, in its 
original advance appropriation estimate for FY 2012, the VA projected 
collections of approximately $3.7 billion. Last year, the 
Administration revised that estimate to approximately $3.1 billion. 
This year, the Administration once again revised the collections 
estimate for FY 2012 down to approximately $2.7 billion. At the same 
time, the collections estimate for FY 2013 was revised down from an 
estimate of $3.3 billion last year to a current estimate of 
approximately $3.0 billion. Given these revisions, we believed then, 
and continue to believe now, that the VA budget request and ultimately 
the funding provided through the appropriations process, was 
insufficient for VA to meet the demand on the health-care system, and 
may be insufficient going forward.

                          FUNDING FOR FY 2013

    For FY 2013, The Independent Budget recommends approximately $57.2 
billion for total medical care, an increase of $3.3 billion over the FY 
2012 operating budget level provided as an advance appropriation by 
Public Law 112-10, the ``the Department of Defense and Full-Year 
Continuing Appropriations Act for FY 2011.'' Meanwhile, the 
Administration recommended an advance appropriation for FY 2013 of 
approximately $52.5 billion in discretionary funding for VA medical 
care as a part of its FY 2012 Budget Request. When combined with the 
$3.3 billion Administration projection for medical care collections, 
the total available operating budget recommended for FY 2013 is 
approximately $55.8 billion.
    The medical care appropriation includes three separate accounts--
Medical Services, Medical Support and Compliance, and Medical 
Facilities--that comprise the total VA health-care funding level. For 
FY 2013, The Independent Budget recommends approximately $46.0 billion 
for Medical Services. Our Medical Services recommendation includes the 
following recommendations:



Current Services Estimate.............................   $43,855,969,000
Increase in Patient Workload..........................    $1,510,394,000
Additional Medical Care Program Costs.................      $675,000,000
                                                       -----------------
  Total FY 2013 Medical Services......................   $46,041,363,000
                                                       =================



    Our growth in patient workload is based on a projected increase of 
approximately 110,000 new unique patients--priority groups 1-8 veterans 
and covered nonveterans. We estimate the cost of these new unique 
patients to be approximately $1 billion. The increase in patient 
workload also includes a projected increase of 96,500 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF), as well as 
Operation New Dawn (OND) veterans at a cost of approximately $349 
million. Our recommendations represent an increase in projected 
workload in this population of veterans over previous years as a result 
of the withdrawal of forces from Iraq, the drawdown of forces in 
Afghanistan, and a potential drawdown in the actual number of 
servicemembers currently serving in the Armed Forces. And yet, we 
believe that growth in demand for this cohort specifically could be far 
greater given the changing military policies mentioned above.
    Finally, our increase in workload includes the projected enrollment 
of new priority group 8 veterans who will use the VA health-care system 
as a result of the Administration's continued efforts to incrementally 
increase the enrollment of priority group 8 veterans by 500,000 
enrollments by FY 2013. We estimate that as a result of this policy 
decision, the number of new priority group 8 veterans who will enroll 
in VA should increase by 125,000 between FY 2010 and FY 2013. Based on 
the priority group 8 empirical utilization rate of 25 percent, we 
estimate that approximately 31,250 of these new enrollees will become 
users of the system. This translates to a cost of approximately $134 
million. When compared to the projections that the Administration had 
previously made for increased utilization for this Priority Group, we 
believe that our recommendations are on target for those projections.
    The Independent Budget also believes that there are additional 
projected funding needs for VA. Specifically, we believe there is real 
funding needed to restore the VA's long-term-care capacity (for which a 
reasonable cost estimate can be determined based on the actual capacity 
shortfall of VA) and to provide additional centralized prosthetics 
funding (based on actual expenditures and projections from the VA's 
prosthetics service). In order to restore the VA's long-term care 
average daily census (ADC) to the level mandated by Public Law 106-117, 
the ``Veterans Millennium Health Care and Benefits Act,'' we recommend 
$375 million. In order to meet the increase in demand for prosthetics, 
the IB recommends an additional $300 million. This increase in 
prosthetics funding reflects a significant increase in expenditures 
from FY 2011 to FY 2012 (explained in the section on Centralized 
Prosthetics Funding) and the expected continued growth in expenditures 
for FY 2013. Additionally, it is worth noting that the VA has actively 
implemented the new caregiver program mandated by Public Law 111-163, 
the ``Caregivers and Veterans Omnibus Health Services Act.'' However, 
we believe that still greater funding should be appropriated, above 
what the VA has currently allocated for this program, in order to more 
effectively and efficiently operate the program.
    For Medical Support and Compliance, The Independent Budget 
recommends approximately $5.6 billion. Finally, for Medical Facilities, 
The Independent Budget recommends approximately $5.6 billion. While our 
recommendation does not include an additional increase for nonrecurring 
maintenance (NRM), it does reflect a FY 2013 baseline of approximately 
$900 million. While we appreciate the significant increases in the NRM 
baseline over the last couple of years, total NRM funding still lags 
behind the recommended two to four percent of plant replacement value. 
In fact, VA should actually be receiving at least $2.1 billion annually 
for NRM (Refer to Construction section article ``Increase Spending on 
Nonrecurring Maintenance).
    For Medical and Prosthetic Research, The Independent Budget 
recommends $611 million. This represents a $30 million increase over 
the FY 2012 appropriated level. We are particularly pleased that 
Congress has recognized the critical need for funding in the Medical 
and Prosthetic Research account in the last couple of years. Research 
is a vital part of veterans' health care, and an essential mission for 
our national health care system.
    Last, Mr. Chairman, I would like to note one late change to our IB 
budget recommendations for State Home Construction Grants which arose 
after we went to press. Late last week VA finally released the FY 2012 
grant priority list for State Home repair, renovation and new 
construction projects and there was a significant increase in State 
matching funds certified as available. After reviewing the newly 
released Priority List for FY 2012, there is now $321 million worth of 
Priority 1 State Home projects for which the States have certified 
matching funds available. As a result, the Federal funding required for 
Priority 1 projects will be at least $204 million in FY 2013, and that 
number is likely to rise even higher as States approve additional 
matching funding this year for a backlog of projects currently 
estimated at $400 million. While this recommendation is not reflected 
specifically in The Independent Budget, this change reflects what we 
believe our recommendation should now be.

                   ADVANCE APPROPRIATIONS FOR FY 2014

    As we have noted in the past, Public Law 111-81 requires the 
President's budget submission to include estimates of appropriations 
for the medical care accounts for FY 2013 and subsequent fiscal years. 
With this in mind, the VA Secretary is required to update the advance 
appropriations projections for the upcoming fiscal year (FY 2013) and 
provide detailed estimates of the funds necessary for the medical care 
accounts for FY 2014. Moreover, the law also requires a thorough 
analysis and public report of the Administration's advance 
appropriations projections by the Government Accountability Office 
(GAO) to determine if that information is sound and accurately reflects 
expected demand and costs.
    The GAO's responsibility is more important than ever, particularly 
in light of their findings concerning the FY 2012 budget submission 
last year. The GAO report that analyzed the FY 2012 Administration 
budget identified serious deficiencies in the budget formulation of VA. 
Yet these concerns were not appropriately addressed by Congress or the 
Administration. This analysis and the subsequent lack of action to 
correct these deficiencies simply affirm the ongoing need for the GAO 
to evaluate the budget recommendations of VA.
    As for the specific recommendations for advance appropriations for 
FY 2014 offered by the Administration, considering our concerns about 
the funding levels provided for FY 2012 and FY 2013, we believe that 
those estimates may be insufficient to meet the continuing increase in 
demand for health care services. We are also skeptical of the 
substantial increase in funding that the Administration calls for in 
the Medical Support and Compliance account for FY 2014. Given the 
scrutiny on funding for administrative functions within the VA health 
care system, we are not certain that this projected increase truly 
reflects a wise investment in resources.
    Last, we have serious concerns about the significant reduction in 
funding projected for Medical Facilities in FY 2014. While we 
understand that the Administration intends to transfer approximately 
$320 million in resources and 1,080 FTE from Medical Facilities to 
Medical Services in FY 2014, this does not fully account for the 
reduction in funding. The Administration's proposal also reflects a 
plan to reduce funding for Non-Recurring Maintenance by nearly $300 
million as well. This substantial decrease in NRM funding certainly 
cannot be justified given the massive backlog of maintenance and 
construction projects that currently exists. This fact is even more 
troubling given the GAO's findings in its report on advance 
appropriations last year that identified deficiencies in NRM funding. 
We encourage the Committee to conduct aggressive oversight to ensure 
that the Administration is not cutting funding in these critical areas 
simply as a way to drive down its spending projections.
    In the end, it is easy to forget, that the people who are 
ultimately affected by wrangling over the budget are the men and women 
who have served and sacrificed so much for this Nation. We hope that 
you will consider these men and women when you develop your budget 
views and estimates, and we ask that you join us in adopting the 
recommendations of The Independent Budget.

    This concludes my testimony. I will be happy to answer any 
questions you may have.

    Senator Burr [presiding]. Thank you.
    Mr. Hall.

   STATEMENT OF JEFFREY HALL, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Hall. Ranking Member Burr, thank you.
    On behalf of the Disabled American Veterans and as a co-
author of the Independent Budget, I am pleased to be here today 
on behalf of our 1.4 million members to offer our views and 
recommendations regarding the independent budget for fiscal 
year 2013 as it relates to veterans benefits programs, judicial 
review, and the Veterans Benefits Administration.
    As you know, we are now on our third year of VBA's latest 
effort to transform its outdated, inefficient claims processing 
system into a modern rules-based digital system.
    Over the next year, we will begin to see whether those 
strategies to transform the people, processes, and technologies 
will finally result in a cultural shift away from speed and 
production into a business culture of quality and accuracy 
which to us is truly the only way to get the backlog of claims 
under control.
    Although we have been very pleased with VBA's increasing 
partnership and collaboration with VSO stakeholders, we urge 
this Committee to provide constant and aggressive oversight of 
the many transformation activities taking place throughout this 
year.
    Perhaps the most important initiative, as you know, is the 
Veteran's Benefits Management System or VBMS, which is 
scheduled to begin its roll out nationally in June of this year 
with final completion of the roll out in late 2013.
    So, as VBA works to complete, perfect, and the deploy this 
vital new IT system, it is absolutely crucial that sufficient 
resources are provided.
    We do note, Ranking Member Burr, that the budget for VBMS 
drops down from $148 million in fiscal year 2012 to $128 
million in fiscal year 2013. While we do not know the reason 
for the decrease in budget, we cannot emphasize enough the 
vital importance of the VBMS and the need for sufficient 
funding in order to complete the development and 
implementation. We hope this Committee will thoroughly examine 
whether that level of funding is sufficient also.
    In order to sustain VBA's transformation efforts, the IB 
for fiscal year 2013 recommends maintaining current staffing 
levels in most business lines. Given the large increases in 
claims processors over the past few years, we believe VBA 
should be focusing its efforts on properly training new and 
existing employees with an emphasis on quality and accuracy to 
ensure that claims are done right the first time.
    We note that the vocational rehabilitation and employment 
service budget proposal for fiscal year 2013 does request 
funding for approximately 150 new counselors designated for the 
expansion into the integrated disability evaluation system and 
the VetSuccess on Campus Program.
    We fully support both of these increases and these 
programs. However, in order to reach voc rehabs target of 
having one counselor for every 125 veterans served, they will 
need approximately 195 additional counselors in fiscal year 
2013 to accomplish this.
    Additionally, the Independent Budget is also recommending a 
staffing increase at the Board of Veterans Appeals. Although 
the board is currently authorized to have 544 full-time 
employees, its adopted budget for fiscal year 2012 only 
supports 532; and for fiscal year 2013, the budget request 
further would reduce that number to 527.
    Looking at the historical appeals rates and the rising 
number of original compensation claims, the IBVSOs recommend 
that the VBA be provided sufficient funding for an authorized 
workforce of, in fiscal year 2013, of at least 585 full-time 
employee equivalents.
    Finally, the IBVSOs once again call on Congress to enact 
legislation to finally end the inequitable prohibition on 
concurrent receipt for all disabled veterans and eliminate the 
unfair offset between the survivors benefit plan and the 
dependents' indemnity compensation for veterans widows and 
their dependents.
    Ranking Member Burr, this concludes my statement. I will be 
happy to answer any questions.
    [The prepared statement of Mr. Hall follows:]

 Prepared Statement of Jeffrey C. Hall, Assistant National Legislative 
                  Director, Disabled American Veterans

    Chairman Murray, Ranking Member Burr and Members of the Committee: 
On behalf of the Disabled American Veterans (DAV) and our 1.2 million 
members, all of whom are wartime disabled veterans, I am pleased to be 
here today to present recommendations of The Independent Budget (IB) 
for the fiscal year (FY) 2013 budget related to veterans benefits, 
judicial review and the Veterans Benefits Administration (VBA). The 
Independent Budget is jointly produced each year by DAV, AMVETS, 
Paralyzed Veterans of America and Veterans of Foreign Wars. While there 
are dozens of recommendations in this year's Independent Budget related 
to VBA's benefit programs and claims processing reform, I will only 
highlight some of the most critical ones in my testimony, and commend 
the full text of the IB that is now available online.
    Madam Chairman, we are now in the third year of VBA's latest effort 
to transform its outdated, inefficient, and inadequate claims-
processing system into a modern, automated, rules-based, and paperless 
system. VBA has struggled for decades to provide timely and accurate 
decisions on claims for veterans' benefits, especially veterans' 
disability compensation, and there have been numerous prior reform 
attempts that began with great promise, only to fall far short of 
success. Over the next year, we will begin to see whether their 
strategies to transform the people, processes and technologies will 
finally result in a cultural shift away from focusing on speed and 
production to a business culture of quality and accuracy, which is the 
only way to truly get the backlog under control.

                        RESOURCE RECOMMENDATIONS

Adequate Staffing for the Veterans Benefits Administration
    In order to sustain the transformation efforts underway at VBA, The 
Independent Budget for FY 2013 generally recommends maintaining current 
staffing levels in the VBA, with only modest increases for the 
Vocational Rehabilitation and Employment Service and the Board of 
Veterans' Appeals. Due to substantial support from Congress, VBA's 
Compensation Service experienced significant staffing increases between 
fiscal years 2008 and 2010, which supported an increase in the number 
of claims processed each of those years. Unfortunately, however, an 
even larger increase in new and reopened claims volume contributed to a 
rising backlog. Historically, it takes approximately two years for a 
new Veterans Service Representative (VSR) to acquire sufficient 
knowledge and experience to be able to work independently with both 
speed and accuracy. It takes an additional period of at least two years 
of training to become a Rating Veterans Service Representative (RVSR) 
with the skills to accurately complete most rating claims. As such, the 
full productive capacity of the employees hired in recent years is only 
now becoming evident.
    This year VBA will roll out a new operating model for processing 
claims for disability compensation, which will change the roles and 
functions of thousands of VSRs and RVSRs at Regional Offices across the 
country. VBA is also planning to launch new IT systems, including the 
Veterans Benefits Management System (VBMS) and expand the functionality 
of their eBenefits system. Together these transformations are expected 
to have a significant effect on the productive capability of VBA's 
workforce. While these changes are being fully implemented, and the 
effect on workforce requirements analyzed, the Independent Budget 
veterans service organizations (IBVSOs) do not recommend an increase in 
staffing for VBA's Compensation Service for FY 2013. However, we do 
recommend that VBA initiate a scientific study to determine the 
workforce necessary to effectively manage its rising workload in a 
manner that produces timely and accurate rating decisions.
    Moving forward, should there be a decline in personnel dedicated to 
producing rating decisions, an increase in claims or the backlog, or 
should any of the long-awaited VBA information technology initiatives 
fail to produce the projected reductions in processing times for 
claims, Congress must be prepared to act swiftly to intervene with the 
additional staffing resources.

Staffing Increase for Vocational Rehabilitation and Employment Service
    In 2009, the Government Accountability Office (GAO) conducted a 
study to assess the Vocational Rehabilitation and Employment Services' 
(VR&E's) ability to meet its core mission functions. GAO found that 54 
percent of VBA's 57 regional offices reported they had fewer counselors 
than needed and 90 percent reported that their caseloads have become 
more complex since veterans began returning from Afghanistan and Iraq.
    VBA's current caseload target is one counselor for every 125 
veterans served; however, feedback received by the IBVSOs from 
counselors in the field suggested an actual workload as high as one to 
145. Based on comparisons with state vocational rehabilitation programs 
and discussions with VR&E personnel, even the 1:125 ratio may be too 
high to effectively manage VR&E's workload, particularly in providing 
service to seriously disabled veterans.
    Madam Chairman, we are pleased to note the VR&E budget proposal for 
FY 2013 does request funding for approximately 150 new counselors; 
however, these individuals are designated for expansion of the 
Integrated Disability Evaluation System and the VetSuccess on Campus 
program. While the IBVSOs fully support both of these increases and 
programs, we cannot be certain what impact, if any, these additional 
out-based counselors will have on the VR&E's current caseload ratio of 
approximately 1:145.
    However, based upon the feedback from the field and VBA's 
projections of future workload, in order for VR&E to meet their 
caseload target of one counselor for every 125 veterans served the 
IBVSOs are recommending an increase in funding for VR&E to accommodate 
approximately 195 additional full-time employees for FY 2013.

Staffing Increase for the Board of Veterans' Appeals
    The Independent Budget also recommends a funding increase at the 
Board of Veterans' Appeals (Board) sufficient to support an authorized 
workforce of at least 585 full-time employee equivalents (FTEE) for FY 
2013. Based on historical trends, the number of new appeals to the 
Board averages approximately five percent of all claims received, so as 
the number of claims processed by VBA is expected to rise 
significantly, so too will the Board's workload rise commensurately. 
Considering the number of claims processed at VBA having grown to over 
one million, and projected to rise even higher, it is virtually certain 
that the Board's workload will begin to escalate even faster.
    The Board is currently authorized to have 544 FTEEs; however, its 
budget in FY 2011 could only support 532 FTEEs. The FY 2013 the budget 
proposal calls for a further reduction down to 527 FTEE; however, 
expected workload projections by the Board indicate that the authorized 
level for FY 2013 should be closer to 585 FTEEs. The IBVSOs are 
concerned that unless additional resources are provided to the Board, 
its ability to produce timely and accurate decisions will be 
constrained by an inadequate budget, and either the backlog will rise 
or accuracy will fall. Neither of these outcomes is acceptable. At a 
minimum, Congress should increase funding to the Board in order to 
sustain 585 FTEE in FY 2013.

Dedicated Courthouse for the Court of Appeals for Veterans Claims
    Madam Chairman, I would also like to highlight a recommendation in 
this year's Independent Budget concerning the United States Court of 
Appeals for Veterans Claims. Since the Court's inception in 1988, it 
has been housed in commercial office buildings, making it the only 
Article I court that does not have its own courthouse. The IBVSOs 
believe that the Court should be accorded at least the same degree of 
respect enjoyed by other appellate courts of the United States. 
Congress previously acted on this in fiscal year 2008 by allocating $7 
million for preliminary work on site acquisition, site evaluation, 
preplanning for construction, architectural work, and associated 
studies and evaluations for the construction of the courthouse. It is 
time for Congress to provide the funding necessary to construct a 
permanent courthouse in a location of honor and dignity befitting the 
Court and the veterans it serves.

                   VETERANS BENEFITS RECOMMENDATIONS

    The Veterans Benefits Administration provides an array of benefits 
to our Nation's veterans, including disability compensation, dependency 
and indemnity compensation, pensions, vocational rehabilitation, 
education benefits, home loans, and life insurance. Unfortunately, the 
failure to regularly adjust benefit rates or to tie them to realistic 
annual cost-of-living adjustments (COLAs), can threaten the 
effectiveness of these other benefits. For example, the annual COLAs do 
not take into account the rising cost of some basic necessities, such 
as food and energy. In addition to prudent increases in a number of 
specific benefits programs to meet today's rising costs of living, The 
Independent Budget includes a number of recommendations designed to 
make several existing benefits more equitable for all veterans, 
particularly disabled veterans.

Eliminate Remaining Concurrent Receipt Penalties
    Today, many veterans retired from the Armed Forces based on 
longevity of service must forfeit a portion of their retired pay, 
earned through faithful performance of military service, before they 
can receive VA compensation for service-connected disabilities. This is 
inequitable: military retired pay is earned by virtue of a veteran's 
career of service on behalf of the Nation, careers of usually more than 
20 years. Entitlement to compensation, on the other hand, is paid 
solely because of disability resulting from military service, 
regardless of the length of service. Many nondisabled military retirees 
pursue additional careers after serving in order to supplement their 
income, thereby justly enjoying a full reward for completion of a 
military career with the added benefit of full income from civilian 
employment. In contrast, military retirees with service-connected 
disabilities do not enjoy the same full earning potential.
    In order to place all disabled longevity military retirees on equal 
footing with nondisabled military retirees, there should be no offset 
between full military retired pay and VA disability compensation. 
Congress previously removed this offset for veterans with service-
connected disabilities rated 50 percent or greater. The IBVSOs believe 
Congress should enact legislation to repeal the inequitable requirement 
that veterans' military longevity retired pay be offset by an amount 
equal to their disability compensation if rated less than 50 percent.

Repeal the DIC-SBP Offset
    The current requirement that the amount of an annuity under the 
Survivor Benefit Plan (SBP) be reduced on account of and by an amount 
equal to dependency and indemnity compensation (DIC) for survivors of 
disabled veterans is inequitable and should be repealed.
    A veteran disabled in military service is compensated for the 
effects of service-connected disability. When a veteran dies of 
service-connected causes, or following a substantial period of total 
disability from service-connected causes, eligible survivors or 
dependents receive DIC from the Department of Veterans Affairs. This 
benefit indemnifies survivors, in part, for the losses associated with 
the veteran's death from service-connected causes or after a period of 
time when the veteran was unable, because of total disability, to 
accumulate an estate for inheritance by survivors.
    Survivors of military retirees have no entitlement to any portion 
of the veteran's military retirement pay after his or her death, unlike 
many retirement plans in the private sector, however they may 
participate in the SBP, which is a survivor's annuity purchased through 
deductions from their spouse's military retirement pay. Upon the 
military retiree's death, the annuity is paid monthly to eligible 
beneficiaries under the plan. If the veteran died of other than 
service-connected causes or was not totally disabled by service-
connected disability for the required time preceding death, 
beneficiaries receive full SBP payments. However, if the veteran's 
death was a result of military service or after the requisite period of 
total service-connected disability, the SBP annuity is reduced by an 
amount equal to the DIC payment. When the monthly DIC rate is equal to 
or greater than the monthly SBP annuity, beneficiaries lose all 
entitlement to the SBP annuity.
    This offset is inequitable because there is no duplication of 
benefits since payments under the SBP and DIC programs are made for 
different purposes. Under the SBP, coverage is purchased by a veteran 
and paid to his or her surviving beneficiary at the time of the 
veteran's death. On the other hand, DIC is a special indemnity 
compensation paid to the survivor of a servicemember who dies while 
serving in the military, or a veteran who dies from service-connected 
disabilities. In such cases DIC should be added to the SBP, not 
substituted for it. Surviving spouses of Federal civilian retirees who 
are veterans are eligible for DIC without losing any of their purchased 
Federal civilian survivor benefits. The offset penalizes survivors of 
military retirees whose deaths are under circumstances warranting 
indemnification from the government separate from the annuity funded by 
premiums paid by the veteran from his or her retired pay. Congress 
should fully repeal the offset between dependency and indemnity 
compensation and the Survivor Benefit Plan.

Adaptive Housing and Automobile Grants
    Service-connected disabled veterans who have impairments or loss of 
use of at least one of their hands, feet or eyes may be eligible for 
several grants to adapt their housing or automobiles, including the 
Specially Adapted Housing Grant and the Automobile and Special Adaptive 
Equipment Grants. However when veterans who have already received these 
grants are forced to move to a new home, or stay temporarily in someone 
else's home, or need to replace an outdated automobile, they are 
restricted in accessing the full benefits of this program. To remedy 
this, Congress should establish a supplementary housing grant that 
covers the cost of new home adaptations for eligible veterans who have 
used their initial, once in-a-lifetime grant on specially adapted homes 
they no longer own and occupy. A separate grant should be provided for 
special adaptations to homes owned by family members in which veterans 
temporarily reside. VA should also be authorized to provide a 
supplementary auto grant to eligible veterans in an amount equaling the 
difference between their previously used one-time entitlement and the 
increased amount of the grant.

Compensation for Quality of Life and Noneconomic Loss:

    Madam Chairman, our Nation's 3.2 million service-disabled veterans 
rely greatly on VA's disability compensation program as an essential 
source of financial support for themselves and their families. However, 
a number of recent studies and commissions have all agreed that VA's 
disability compensation program does not do enough and should be 
revised to compensate for the loss of quality of life and other non-
economic losses that result from permanent disabilities suffered while 
serving in the Armed Forces.
    In 2007, the Institute of Medicine (IOM) published a report 
entitled, ``A 21st Century System for Evaluating Veterans for 
Disability Benefits,'' recommending that the current VA disability 
compensation system be expanded to include compensation for noneconomic 
loss and loss of quality of life. The IOM report stated that, ``* * * 
Congress and VA have implicitly recognized consequences in addition to 
work disability of impairments suffered by veterans in the Rating 
Schedule and other ways. Modern concepts of disability include work 
disability, nonwork disability, and quality of life (QOL) * * *.''
    The congressionally-mandated Veterans Disability Benefits 
Commission (VDBC), established by the National Defense Authorization 
Act of 2004 (Public Law 108-136), in 2007 also recommended that the ``* 
* * veterans disability compensation program should compensate for 
three consequences of service-connected injuries and diseases: work 
disability, loss of ability to engage in usual life activities other 
than work, and loss of quality of life.'' That same year, the 
President's Commission on Care for America's Returning Wounded 
Warriors, chaired by former Senator Bob Dole and former Health and 
Human Services Secretary Donna Shalala, also agreed that the current 
benefits system should be reformed to include noneconomic loss and 
quality of life as a factor in compensation.
    The Independent Budget concurs with all of these recommendations 
and calls on Congress to finally address this deficiency by amending 
title 38, United States Code, to clarify that disability compensation, 
in addition to providing compensation to service-connected disabled 
veterans for their average loss of earnings capacity, must also include 
compensation for their noneconomic loss and for loss of their quality 
of life. The Canadian Veterans' Affairs disability compensation program 
and the Australian Department of Veterans' Affairs disability 
compensation program already do just that. It is now time for our 
Congress and VA to determine the most practical and equitable manner in 
which to provide compensation for noneconomic loss and loss of quality 
of life and then move expeditiously to implement this updated 
disability compensation program.

                CLAIMS PROCESSING REFORM RECOMMENDATIONS

    Over the past decade, the number of veterans filing claims for 
disability compensation has more than doubled, rising from nearly 
600,000 in 2000 to over 1.4 million in 2011. This workload increase is 
the result of a number of factors over the past decade, including the 
wars in Iraq and Afghanistan, an increase in the complexity of claims 
and a downturn in the economy causing more veterans to seek VA 
assistance. Furthermore, new presumptive conditions related to Agent 
Orange exposure (ischemic heart disease, B-cell leukemia and 
Parkinson's disease) and previously denied claims, resulting from the 
Nehmer decision added almost 200,000 new claims this year; leading to a 
workload surge that will level off in 2012. During this same decade, 
VBA's workforce grew by about 80%, rising from 13,500 FTEE in 2007 to 
over 20,000 today, with the vast majority of that increase occurring 
during the past four years.
    Yet despite the hiring of thousands of new employees, the number of 
pending claims for benefits, often referred to as the backlog, 
continues to grow. As of February 4, 2012, there were 891,402 pending 
claims for disability compensation and pensions awaiting rating 
decisions by the VBA, an increase of more than 114,000 from one year 
ago, and almost double the 487,501 that were pending two years prior. 
The number of claims pending over 125 days, VBA's official target for 
completing claims, reached 591,243, which is a 66 percent increase in 
one year and more than double the 185,040 from two years ago.
    More important than the number of claims processed is the number of 
claims processed correctly. The VBA quality assurance program is known 
as the Systematic Technical Accuracy Review (STAR) and is now available 
publicly on VA's ASPIRE Dashboard. The most recent STAR measure for 
rating claims accuracy for the one-year period ending September 2011 is 
84 percent, about the same level as one year prior, and slightly lower 
than several years earlier. However, the VA Office of Inspector General 
(VAOIG) reported in May 2011 that based on inspections of 45,000 claims 
at 16 of the VA's 57 regional offices (VAROs), claims for disability 
compensation were correctly processed only 77 percent of the time. This 
error rate would equate to almost 250,000 incorrect claims decisions in 
just the past year.

Cultural Change Needed to Fix Claims-Processing System:

    Under the weight of an outdated information technology system, 
increasing workload and growing backlog, the VBA faces a daunting 
challenge of comprehensively transforming the way it processes claims 
for benefits in the future, while simultaneously reducing the backlog 
of claims pending within its existing infrastructure. There have been 
many positive and hopeful signs that the VBA is on the right path; 
however, the critical choices made by VBA over the next year will 
determine whether this effort will ultimately succeed. It is essential 
that Congress provide careful and continuing oversight of this 
transformation to help ensure that the VBA achieves true reform and not 
just arithmetic milestones, such as lowered backlogs or decreased cycle 
times.
    One of the more positive signs has been the open and candid 
attitude of VBA leadership over the past several years, particularly 
progress toward developing a new partnership between VBA and veterans 
service organizations (VSOs) who assist veterans in filing claims. The 
IBVSOs have been increasingly consulted on a number of the new 
initiatives underway at VBA, including disability benefit 
questionnaires (DBQs), Veterans Benefit Management System (VBMS), and 
many, but not all business process pilots, including the I-LAB at the 
Indianapolis Regional Office. Building upon these efforts, VBA must 
continue to the reach out to its VSO partners, not just at central 
office, but also at each of the 57 regional offices.
    In order to drive and sustain its transformation strategies 
throughout such a massive organization, VBA must change how it measures 
and rewards performance in a manner designed to achieve the goal of 
getting claims decided right the first time. Unfortunately, most of the 
measures that VBA employs today are based primarily on production 
goals, rather than quality. This bias for speed over accuracy has long 
been VBA's cultural norm, and it is not surprising that management and 
employees today still feel a tremendous pressure to meet production 
goals first and foremost. While accuracy has been and remains one of 
the performance standards that must be met by all employees, new 
performance standards adopted over the past two years appear to have 
done little to create sufficient incentives to elevate quality above 
production.
    Over the next couple of crucial years, it will be particularly 
important for VBA and Congress to remain focused on the principal goal 
of enhancing quality and accuracy, rather than focusing on reducing the 
backlog. VBA should change the way it measures and reports progress so 
that there are more and better indicators of quality and accuracy, at 
least equal in weight to measures of speed and production. In addition, 
VBA should develop a systematic way to measure average work output for 
each category of its employees in order to establish more accurate 
performance standards, which will also allow the VBA to better project 
future workforce requirements.

Implementing a New Operating Model for Processing Claims:

    As the Veterans Benefits Administration begins to implement a new 
operating model for processing claims for disability compensation, it 
must give priority to best practices that have been validated to 
increase quality and accuracy, not just speed and production. VBA has 
conducted more than 40 different pilot programs and initiatives looking 
at new ways of establishing, developing, rating, and awarding claims 
for benefits. Dozens of other ideas flowed from individual employees 
and regional offices, leadership retreats, and an internal innovation 
competition, leading to new initiatives such as quick pay, walk-in 
claims, and rules-based calculators.
    In order to test how best to integrate these and other pilots and 
initiatives conducted over the past two years, VA established the I-LAB 
at the Indianapolis Regional Office to develop a new end-to-end 
operating model for claims processing. The I-LAB settled on the 
segmentation of claims as the cornerstone principle for designing the 
new operating model. The traditional triage function was replaced at 
the I-LAB with an Intake Processing Center, staffed with an experienced 
claims processor, whose responsibility was to divide claims along three 
separate tracks; Express, Core, and Special Ops. The Express lane is 
for simpler claims, such as fully developed claims, claims with one or 
two contentions, or other simple claims. The Special Ops lane is for 
more difficult claims, such as those with eight or more contentions, 
longstanding pending claims, complex conditions, such as Traumatic 
Brain Injury and special monthly compensation, and other claims 
requiring extensive time and expertise. The Core lane is for the 
balance of claims with between three and seven contentions, claims for 
individual unemployability (IU), original mental health conditions, and 
others.
    VBA has seen some early indications that productivity could 
increase through the use of the new segmentation strategy at the I-LAB; 
however, it may still be too soon to judge whether such results would 
be reproduced if applied nationally. While the VBA certainly needs to 
reform its claims-processing system, it must first ensure that proper 
metrics are in place in order to make sound decisions about the 
elements of its new operating model.
    By the end of 2011, the VBA stood up an Implementation Team to 
develop a strategy and plan for implementing the new operating model 
for processing claims. With the Secretary's ambitious goal of 
processing all claims in less than 125 days with an accuracy rate of 98 
percent by 2015, VBA's strategy calls for 2012 to be a year of 
transition; full implementation of the new operating model is planned 
for 2013; in 2014, the VBA anticipates stabilization and assessment of 
the new system; and 2015 is planned as the year of ``centers of 
excellence,'' an apparent reference to a future state that will 
centralize some VBA activities or functions.
    Critical to the success of this implementation strategy will be the 
choices made by VBA this year. It will also be absolutely essential for 
Congress to provide strong oversight to ensure that the enormous 
pressures on VBA to show progress toward eliminating or reducing the 
claims backlog does not result in short term gains at the expense of 
long-term reform.

Stronger Training, Testing and Quality Control
    Madam Chairman, training, testing, and quality control must be 
given the highest priority within the Veterans Benefits Administration 
if the current claims processing reform efforts are to be successful. 
Training is essential to the professional development of individuals 
and tied directly to the quality of work they produce, as well as the 
quantity they can accurately produce. However, the IBVSOs remain 
concerned that under the rising pressure of increasing workload and 
backlogs, VBA managers and employees often choose to cut corners on 
training in order to focus on production at all costs. It is imperative 
that efforts to increase productivity not interfere with required 
training of employees, particularly new employees who are still 
learning their job.
    Furthermore, after employees have been trained it is important that 
they are regularly tested to ensure that they have the knowledge and 
competencies to perform their jobs. A GAO report published in 
September 2011 found that there did not exist a nationwide training 
curriculum for VBA's Decision Review Officers (DROs), despite the fact 
that 93 percent of regional managers interviewed supported such a 
national training program, as did virtually every DRO interviewed. We 
would note that following a recent DRO examination in which a high 
percentage failed to achieve acceptable results, the VBA required all 
DROs to undergo a one-week training program to enhance their knowledge 
and job skills. This is exactly the type of action that should 
regularly occur within an integrated training, testing, and quality 
control program.
    In 2008, Congress enacted Public Law 110-389, the Veterans' 
Benefits Improvement Act of 2008, which required VBA to develop and 
implement a certification examination for all claims processors and 
managers. While tests have been developed and conducted for VSRs, 
RVSRs, and DROs, the tests for supervisory personnel and coaches have 
yet to be completed. VBA cannot accurately assess its training or 
measure an individual's knowledge, understanding, or retention of the 
training material without regular testing. The IBVSOs believe it is 
essential that all VBA employees, coaches, and managers undergo regular 
testing to measure job skills and knowledge, as well as the 
effectiveness of the training. At the same time, VBA must ensure that 
certification tests are developed that accurately measure the skills 
and knowledge needed to perform the work of VSRs, RVSRs, DROs, coaches, 
and other managers.
    One of the most promising developments over the past year is VBA's 
new initiative to stand up Quality Review Teams (QRTs) in every 
regional office. Developed from a review of the best practices used at 
certain high-performing regional offices, the QRT program will assign 
full-time, dedicated employees whose sole function is to seek out and 
correct errors in claims processing. QRTs will also work to develop in-
process quality control measures to prevent errors before decisions are 
made. The IBVSOs strongly support this program and recommend that VBA 
make service in a QRT unit a career path requirement for those seeking 
to rise to senior positions in Regional Offices or at VBA's 
headquarters in Washington, D.C.
    Madam Chairman, the IBVSOs believe the only way for VBA to make and 
sustain long-term reductions in the backlog is by producing better 
quality decisions in the first instance. The only way to 
institutionalize such a cultural shift within the VBA is by developing 
and giving priority to training, testing and quality control programs.
New Information Technology Systems
    After two years of development, VBA's Veterans Benefits Management 
System (VBMS) is planned to be rolled out nationally beginning in June 
of this year. The VBMS is designed to provide a comprehensive, 
paperless, and rules-based method of processing and awarding claims for 
VA benefits, particularly disability compensation and pension. The 
IBVSOs have been especially pleased with VBA efforts to incorporate the 
experience and perspective of our organizations throughout the VBMS 
development process. Understanding the important role that VSO service 
officers play in the claims process, VBA proactively sought frequent 
and substantive consultation with VSOs, both at the national VBMS 
office and at the pilot locations. The IBVSOs are confident that this 
promising partnership will strengthen VBMS for VBA, VSOs, and most 
importantly, veterans seeking VA benefits.
    As VBA turns the corner on VBMS development leading to deployment, 
it is imperative that Congress provide full funding to complete this 
essential IT initiative. In today's difficult fiscal environment, there 
are concerns that efforts to balance the Federal budget and reduce the 
national debt could result in reductions to VA programs, including IT 
programs. Over the next year, Congress must ensure that the funding 
required and designated for the VBMS is protected from cuts or 
reprogramming, and spent as Congress intended.
    Another key IT component is eBenefits, VA's online portal that 
allows veterans to apply for, monitor, and manage their benefits over 
the Internet. With more than 2 million users registered, eBenefits 
provides a web-based method for veterans to file claims for disability 
and other benefits that will ultimately integrate that information 
directly into the VBMS to adjudicate those claims. As with VBMS, it is 
crucial that Congress and the VBA provide eBenefits full funding in 
order to support the ongoing transformation of the claims processing 
system.
    In closing Madam Chairman, the IBVSOs remain concerned about VBA's 
plans for transitioning legacy paper claims into the new VBMS work 
environment. While VBA is committed to moving forward with a paperless 
system for new claims, it has not yet determined how to handle reopened 
paper claims; specifically whether, when or how they would be converted 
to digital files. Because a majority of claims processed each year are 
for reopened or appealed claims and because files can remain active for 
decades, until all legacy claims are converted to digital data files, 
VBA could be forced to continue paper processing for decades. Requiring 
VBA employees to learn and master two different claims processing 
systems--one that is paper-based and the other digital--would add 
unnecessary complexity and could negatively affect quality, accuracy, 
and consistency.
    While there are very difficult technical questions to be answered 
about the most efficient manner of transitioning to all-digital 
processing, particular involving legacy paper files, the IBVSOs believe 
the VBA should do all it can to shorten the length of time this 
transition takes to complete, and should provide a clear roadmap for 
eliminating legacy paper files, one that includes clear timelines and 
resource requirements. While this transition may require significant 
upfront investment, it will pay dividends for the VBA and veterans in 
the future.

    Madam Chairman, this concludes my statement and I would be happy to 
answer any questions from you or other Members of the Committee.

    Senator Burr. Thank you, Mr. Hall.
    Ms. Zumatto.

  STATEMENT OF DIANE ZUMATTO, NATIONAL LEGISLATIVE DIRECTOR, 
                             AMVETS

    Ms. Zumatto. Yes. Good afternoon, Senator Burr.
    On behalf of AMVETS and the co-authors of the IB, I thank 
you for this opportunity to share our recommendations with you 
today. My main focus will be the NCA or the National Cemetery 
Administration.
    The single most important obligation of the NCA is to honor 
the memory, achievements, and sacrifices of our veterans who so 
nobly served in this Nation's Armed Forces. These acts of self 
sacrifice by our veterans obligate America to not only preserve 
but to rehabilitate and expand our national cemetery system as 
necessary to meet the needs of American veterans.
    These venerable and commemorative spaces are part of 
America's historic material culture. They are museums of art 
and American history. They are fields of honor and hallowed 
grounds, and they deserve and require our most respectful 
stewardship.
    The sacred tradition of our national cemeteries began in 
1862 when the earliest military graveyards were situated at 
battle sites, at field or general hospitals, and at former 
prisoner of war sites; and since that time, more than three 
million burials have taken place within the NCA system.
    The NCA currently maintains stewardship of 131 of our 
Nation's 147 national cemeteries as well as 33 Soldiers Lots, 
which are currently located in 39 States and Puerto Rico.
    As of late 2010, there were more than 20,021 acres of 
historic landscape, funerary monuments and other architectural 
features included within established NCA sites.
    VA estimates that of the roughly 22.4 million veterans 
alive today that approximately 14.4 percent of them will choose 
a National or State veterans cemetery as their final resting 
place. With the transition of an additional one million 
servicemembers and the veteran status over the next 12 months, 
this number is expected to continue rising until approximately 
2017.
    In fiscal year 2011, the NCA, which is the Nation's largest 
cemetery system, invested an estimated $31.49 million into the 
National Shrine Initiative in its efforts to improve the 
appearance of our national cemeteries.
    In order to adequately meet the demands for interment, 
gravesite maintenance, and related essential elements of 
cemetery operations, the IBVSOs recommend $280 million for the 
NCA's operations and maintenance budget in fiscal year 2013 
with an annual increase of $20 million until the national 
shrine commitment operational standards and measures goals 
regarding height and alignment of headstones and markers as 
well as the appearance of gravesites are reached.
    Finally, the IBVSOs call on the Administration and Congress 
to provide the resources needed to meet the sensitive and 
critical nature of the NCA's mission and to fulfill the 
Nation's commitment to all veterans who have served their 
country honorably and faithfully.
    That concludes my statement and I will be happy to take any 
questions.
    [The prepared statement of Ms. Zumatto follows:]

                Prepared Statement of Diane M. Zumatto, 
                 National Legislative Director, AMVETS

    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
As a co-author of The Independent Budget (IB), AMVETS is grateful for 
this opportunity to present the views of The 1B regarding the funding 
requirements for the Department of Veterans Affairs' (VA) National 
Cemetery Administration (NCA) for Fiscal Year 2013.
    The venerable and honorable history of our national cemeteries 
spans roughly 150 years when the earliest military graveyards were, not 
surprisingly, situated at battle sites, near field or general hospitals 
and at former prisoner-of-war sites. With the passage of the National 
Cemeteries Act of 1973 (P.L. 93-43), the Department of Veterans' 
Affairs (VA) became responsible for the majority of our national 
cemeteries. The single most important obligation of the National 
Cemetery Administration (NCA) is to honor the memory of America's brave 
men and women who have selflessly served in this Nation's Armed Forces. 
Many of the individual cemeteries, monuments, grave stones, grounds and 
related memorial tributes within the NCA system are richly steeped in 
history and represent the very foundation of these United States.
    With the signing of the Veterans Programs Enhancement Act of 1998 
(P.L. 105-368) which officially re-designated the National Cemetery 
System (NCS) to the now familiar National Cemetery Administration 
(NCA). The NCA currently maintains stewardship of 131 of the Nation's 
147 national cemeteries, as well as 33 soldiers' lots. Since 1862 when 
President Abraham Lincoln signed the first legislation establishing the 
national cemetery concept, more than 3 million burials have taken place 
in national cemeteries currently located in 39 states and Puerto Rico. 
As of late 2010, there were more than 20,021 acres of landscape, 
funerary monuments, grave markers and other architectural features, 
much of it historically significant, included within established 
installations in the NCA.
    VA estimates that approximately 22.4 million veterans are alive 
today and with the transition of an additional 1 million servicemembers 
into veteran status over the next 12 months, this number is expected to 
continue to rise until approximately 2017. On average, 14.4 percent of 
veterans choose a national or state veterans' cemetery as their final 
resting place. As new national and state cemeteries continue to open 
and as our aging veterans' population continues to grow, we continue to 
be a nation at war on multiple fronts. The demand for burial at a 
veterans' cemetery will continue to increase.
    The Independent Budget veterans service organizations (IBVSOs) 
would like to acknowledge the dedication and commitment demonstrated by 
the NCA leadership and staff in their continued dedication to providing 
the highest quality of service to veterans and their families. It is in 
the opinion of the IBVSOs that the NCA continues to meet its goals and 
the goals set forth by others because of its true dedication and care 
for honoring the memories of the men and women who have so selflessly 
served our Nation. We applaud the NCA for recognizing that it must 
continue to be responsive to the preferences and expectations of the 
veterans' community by adapting or adopting new interment options and 
ensuring access to burial options in the national, state and tribal 
government-operated cemeteries. We also believe it is important to 
recognize the NCA's efforts in employing both disabled and homeless 
veterans.

                              NCA ACCOUNTS

    In Fiscal Year 2011, the National Cemetery Administration operated 
on an estimated budget of $298.3 million associated with the operations 
and maintenance of its grounds. The NCA had no carryover for Fiscal 
Year 2011. The NCA was also able to award 44 of its 48 minor 
construction projects and had four unobligated projects that will be 
moved to Fiscal Year 2012. Unfortunately, due to continuing resolutions 
and the current budget situation, the NCA was not able to award the 
remaining four projects.
    The IBVSOs support the operational standards and measures outlined 
in the National Shrine Commitment (P.L. 106-117, Sec. 613) which was 
enacted in 1999 to ensure that our national cemeteries are the finest 
in the world. While the NCA has worked diligently improving the 
appearance of our national cemeteries, they are still a long way from 
where they should be.
    The NCA has worked tirelessly to improve the appearance of our 
national cemeteries, investing an estimated $39 million into the 
National Shrine Initiative in Fiscal Year 2011. According to NCA 
surveys, as of October 2011 the NCA has continued to make progress in 
reaching its performance measures. Since 2006, the NCA has improved 
headstone and marker height and alignment in national cemeteries from 
67 percent to 70 percent and has improved cleanliness of tombstones, 
markers and niches from 77 percent to 91 percent. Although the NCA is 
nearing its strategic goal of 90 percent and 95 percent, respectively, 
for height and alignment and cleanliness, more funding is needed to 
continue this delicate and labor-intensive work. Therefore, the IBVSOs 
recommend the NCA's Operations and Maintenance budget to be increased 
by $20 million per year until the operational standards and measures 
goals are reached.
    The IBVSOs recommend an Operational and Maintenance budget of $280 
million for the National Cemetery Administration for Fiscal Year 2013 
so it can meet the demands for interment, gravesite maintenance and 
related essential elements of cemetery operations. This request 
includes $20 million for the National Shrine Initiative.
    The IBVSOs call on the Administration and Congress to provide the 
resources needed to meet the critical nature of the NCA's mission and 
to fulfill the Nation's commitment to all veterans who have served 
their country so honorably and faithfully.

                     STATE CEMETERY GRANT PROGRAMS

    The State Cemetery Grants Program (SCGP) complements the National 
Cemetery Administration's mission to establish gravesites for veterans 
in areas where it cannot fully respond to the burial needs of veterans. 
Several incentives are in place to assist states in this effort. For 
example, the NCA can provide up to 100 percent of the development cost 
for an approved cemetery project, including establishing a new cemetery 
and expanding or improving an established state or tribal organization 
veterans' cemetery. New equipment, such as mowers and backhoes, can be 
provided for new cemeteries. In addition, the Department of Veterans' 
Affairs may also provide operating grants to help cemeteries achieve 
national shrine standards.
    In Fiscal Year 2011, the SCGP operated on an estimated budget of 
$46 million, funding 16 state cemeteries. These 16 state cemeteries 
included the establishment or ground breaking of five new state 
cemeteries, three of which are located on tribal lands, expansions and 
improvements at seven state cemeteries, and four projects aimed at 
assisting state cemeteries to meet the NCA national shrine standards. 
Since 1978, the Department of Veterans' Affairs has more than doubled 
the available acreage and accommodated more than a 100 percent increase 
in burials through this program.
    With the enactment of the ``Veterans Benefits Improvement Act of 
1998,'' the NCA has been able to strengthen its partnership with states 
and increase burial services to veterans, especially those living in 
less densely populated areas without access to a nearby national 
cemetery. Through Fiscal Year 2010, the state grant program has 
established 75 state veteran's cemeteries in 40 states and U.S. 
territories. Furthermore, in Fiscal Year 2011 VA awarded its first 
state cemetery grant to a tribal organization.
    The Independent Budget veteran's service organizations recommend 
that Congress fund the State Cemetery Grants Program at $51 million for 
Fiscal Year 2013. The IBVSOs believe that this small increase in 
funding will help the National Cemetery Administration meet the needs 
of the State Cemetery Grant Program, as its expected demand will 
continue to rise through 2017. Furthermore, this funding level will 
allow the NCA to continue to expand in an effort of reaching its goal 
of serving 94 percent of the Nation's veteran population by 2015.

                       VETERAN'S BURIAL BENEFITS

    Since the original parcel of land was set aside for the sacred 
committal of Civil War Veterans by President Abraham Lincoln in 1862, 
more than 3 million burials have occurred in national cemeteries under 
the National Cemetery Administration.
    In 1973, the Department of Veterans' Affairs established a burial 
allowance that provided partial reimbursement for eligible funeral and 
burial costs. The current payment is $2,000 for burial expenses for 
service-connected deaths, $300 for non-service-connected deaths and a 
$700 plot allowance. At its inception, the payout covered 72 percent of 
the funeral costs for a service-connected death, 22 percent for a non-
service-connected death and 54 percent of the cost of a burial plot.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potter's fields. In 1923 the allowance was 
modified. The benefit was determined by a means test until it was 
removed in 1936. In its early history the burial allowance was paid to 
all veterans, regardless of their service connectivity of death. In 
1973, the allowance was modified to reflect the status of service 
connection.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowance was intended to cover the full cost of a civilian burial in a 
private cemetery, the recent increase in the benefit's value indicates 
the intent to provide a meaningful benefit. The Independent Budget 
veterans' service organizations are pleased that the 111th Congress 
acted quickly and passed an increase in the plot allowance for certain 
veterans from $300 to $700 effective October 1, 2011. However, we 
believe that there is still a serious deficit between the original 
value of the benefit and its current value.
    In order to bring the benefit back up to its original intended 
value, the payment for service-connected burial allowance should be 
increased to $6,160, the non-service-connected burial allowance should 
be increased to $1,918 and the plot allowance should be increased to 
$1,150. The IBVSOs believe Congress should divide the burial benefits 
into two categories: veterans within the accessibility model and 
veterans outside the accessibility model.
    Congress should increase the plot allowance from $700 to $1,150 for 
all eligible veterans and expand the eligibility for the plot allowance 
for all veterans who would be eligible for burial in a national 
cemetery, not just those who served during wartime. Congress should 
also increase the service-connected burial benefits from $2,000 to 
$6,160 for veterans outside the radius threshold and to $2,793 for 
veterans inside the radius threshold.
    Congress should increase the non-service-connected burial benefits 
from $300 to $1,918 for all veterans outside the radius threshold and 
to $854 for all veterans inside the radius threshold. The 
Administration and Congress should provide the resources required to 
meet the critical nature of the National Cemetery Administration's 
mission and to fulfill the Nation's commitment to all veterans who have 
served their country so honorably and faithfully.

                   EDUCATION, EMPLOYMENT AND TRAINING

    During this time of persistent unemployment in our country, the 
veterans' community as a whole has been hit disproportionately hard, 
but for Iraq and Afghanistan veterans and Reserve Component members, 
the job prospects are particularly bleak. Estimates as recent as 
October 2011 suggest that the unemployment rate among veterans 
returning from Iraq and Afghanistan are at least 3 percent greater than 
the national average. In consideration of the tremendous sacrifices our 
veterans have made for this Nation, Congress and the Administration 
must make a concerted effort to guarantee that all veterans have access 
to education, employment and training opportunities to ensure success 
in an unfavorable civilian job market.
    Assisting those who have honorably served to secure the proper 
skills, certifications and degrees so that they can achieve personal 
success is and should always be central to our support of veterans. In 
addition, disabled veterans often encounter barriers to entry or 
reentry into the workforce. The lack of appropriate accommodations on 
the job can make obtaining quality training, education and job skills 
especially problematic. These difficulties, in turn, contribute to low 
labor force participation rates and leave many disadvantaged veterans 
with little choice but to rely on government assistance programs. At 
present funding levels, entitlement and benefit programs cannot keep 
pace with the current and future demand for such benefits. The vast 
majority of working-age veterans want to be productive in the 
workplace, and we must provide greater opportunities to help them 
achieve their career goals. Thankfully, this Congress passed the VOW to 
Hire Heroes Act in recognition of these veterans' employment 
challenges, an important step in improving veterans' job prospects.

                               EDUCATION

    In 2008, Congress enacted the Post-9/11 GI 13111 and ensured that 
today's veterans have greater opportunities for success after their 
years of voluntary service to our Nation. The Independent Budget 
veterans' service organizations (IBVSOs) were pleased with the quick 
passage of this landmark benefit and worked with Congress to quickly 
correct unforeseen inequities via the ``Post-9/11 Veterans Education 
Assistance Improvement Act of 2010.'' When it was signed into law, 
leaders in Congress and in the veterans' advocacy community touted the 
prospect that the Post-9/11 GI Bill could create a new ``Greatest 
Generation,'' offering critical job skills and training to a new 
generation of leaders.
    The IBVSOs are concerned that the Post-9/11 GI Bill may be 
vulnerable to budgetary attacks as the conflicts in Iraq and 
Afghanistan draw to a close. The benefits of the Post-9/11 GI Bill must 
continue to remain available to honor the sacrifice of our Nation's 
veterans. To support this request, the Department of Veterans Affairs 
must develop the metrics to accurately measure the short- and long-term 
impacts of these educational benefits. The IBVSOs believe that the 
Post-9/11 GI Bill is an investment not only in the future of our 
veterans but also our Nation.

  TRAINING AND REHABILITATION SERVICES: VOCATIONAL REHABILITATION AND 
                               EMPLOYMENT

    Vocational rehabilitation for disabled veterans has been part of 
this Nation's commitment to veterans since Congress first established a 
system of veterans' benefits upon entry of the United States into World 
War I in 1917. Today the Vocational Rehabilitation and Employment 
(VR&E) Service, through its VetSuccess Program, is charged with 
preparing service-disabled veterans for suitable employment or 
providing independent living services to those veterans with 
disabilities severe enough to render them unemployable. Approximately 
48,000 active duty, Guard and Reserve personnel are discharged 
annually, with more than 25,000 of those on active duty found ``not fit 
for duty'' as a result of medical conditions that may qualify for VA 
disability ratings. With a disability rating the veteran would 
potentially be eligible for Vocational Rehabilitation and Employment 
services. According to the most recent report from the Government 
Accountability Office (GAO) on VR&E services, the ability of veterans 
to access VR&E services has remained problematic.
    The task before Vocational Rehabilitation and Employment's (VR&E) 
VetSuccess program is critical, and the need becomes clearer in the 
face of the statistics from the current conflicts. Since September 11, 
2001, there have been more than 2.2 million servicemembers deployed. Of 
that group, more than 941,000 have been deployed two or more times. As 
a result, many of these servicemembers are eligible for disability 
benefits and VR&E services if they are found to have an employment 
handicap. Specifically, 43 percent may actually file claims for 
disability. Due to the increasing number of servicemembers returning 
from Iraq and Afghanistan with serious disabilities, VR&E must be 
provided the resources to further strengthen its program. There is no 
VA mission more important than that of enabling injured military 
personnel to lead productive lives after serving their country. In the 
face of these facts, of concern to The Independent Budget veterans 
service organizations (IBVSOs) are the current constraints placed on 
VR&E as a result of an average client to counselor ratio of 145:1 
compared to the VA standard of 125:1. VR&E, working through outside 
contractors, continues to refine and refocus this important program so 
it can maximize its ability to deliver services within certain 
budgetary constraints. Given the anticipated caseload that future 
downsizing of the military will produce, a more concise way to 
determine staffing requirements and a more rigorous manpower formula 
must be developed.
    With this in mind, the IBVSOs recommend that VA needs to strengthen 
its Vocational Rehabilitation and Employment (VR&E) program to meet the 
demands of disabled veterans, particularly those returning from the 
conflicts in Afghanistan and Iraq. It must provide a more timely and 
effective transition into the workforce and provide placement follow-up 
with employers for a minimum of six months. Congress must provide the 
resources for VR&E to establish a maximum client to counselor standard 
of 125:1 and a new ratio of 100:1 to be the standard. VR&E must place a 
higher emphasis on academic training, employment services and 
independent living to achieve the goal of rehabilitation of severely 
disabled veterans. Congress should provide the resources to support the 
expansion of VR&E's quality assurance staff to increase the frequency 
of site visits. Congress and the Administration must ensure that VR&E 
is provided the necessary resources to upgrade its legacy Corporate 
WINRS and the new VetSuccess information technology platform as part of 
the Veterans Benefits Administration's upgrade of its larger IT 
systems.
    Congress must also conduct oversight to ensure that Vocational 
Rehabilitation and Employment (VR&E) program services are being 
delivered efficiently and effectively. VR&E must develop and implement 
metrics that can identify problems and lead to solutions that 
effectively remove barriers to veteran completion of VR&E programs.

                     TRANSITION ASSISTANCE PROGRAMS

    The Transition Assistance Program (TAP) was developed to assist 
military families leaving active service. The Department of Labor (DOL) 
began providing TAP employment workshops in 1991, pursuant to section 
502 of the ``National Defense Authorization Act for Fiscal Year 1991'' 
(P.L. 101-510). It is an interagency program delivered in partnership 
by DOL and the Departments of Veterans Affairs, Defense (DOD) and 
Homeland Security (DHS). Returning to civilian life is a complex and 
exciting time for servicemembers. TAP and the Disabled Transition 
Program (DTAP) will, generally, now be mandatory thanks to the ``VOW to 
Hire Heroes Act'' (P.L. 112-56) and will result in the program becoming 
an even greater benefit in meeting the needs of separating 
servicemembers as they transition into civilian life.
    As part of the new TAP, eligible members will be allowed to 
participate in an apprenticeship or pre-apprenticeship program that 
provides them with education, training and services necessary to 
transition to meaningful employment. These new TAP classes will also 
upgrade career counseling options and resume writing skills, as well as 
ensuring the program is tailored for the 21st century job market. TAP 
is also available for eligible demobilizing servicemembers in the 
National Guard and reserves. The news is that efforts to improve both 
TAP and DTAP are under way.
    The IBVSOs recommend that all Transition Assistance Program (TAP) 
classes should include in-depth VA benefits and health-care education 
sessions and time for question and answer sessions. The Departments of 
Veterans Affairs, Defense, Labor and Homeland Security should design 
and implement a stronger Disabled Transition Assistance Program (DTAP) 
for wounded servicemembers who have received serious injuries, and for 
their families. Chartered veterans service organizations should be 
directly involved in TAP and DTAP or, at minimum, serve as an outside 
resource to TAP and DTAP. The DOD, VA, DOL, and DHS must do a better 
job educating the families of servicemembers on the availability of TAP 
classes, along with other VA and DOL programs regarding employment, 
financial stability and health-care resources. Congress and the 
Administration must provide adequate funding to support TAP and DTAP to 
ensure that active duty, as well as National Guard and reserve 
servicemembers, receive proper services during their transition 
periods.

    Senator Burr. Thank you, Ms. Zumatto.
    Ray, how are you?

  STATEMENT OF RAYMOND KELLEY, NATIONAL LEGISLATIVE DIRECTOR, 
                    VETERANS OF FOREIGN WARS

    Mr. Kelley. Good. Ranking Member Burr, on behalf of the 
more than two million members of the Veterans of Foreign Wars 
and our until auxiliaries, thank you for the opportunity to 
testify today.
    In partnership with the IB, it is VFW's responsibility to 
take care of construction accounts so I will limit my remarks 
to that. Every effort must be made to ensure that facilities 
are safe and sufficient environments to deliver care.
    Since 2004, utilization in VA has grown from 80 percent to 
121 percent and facility conditions have dropped from 81 
percent to 71 percent. This is having an impact upon the 
delivery of health care.
    To determine and monitor the condition of facilities, VA 
conducted a Facility Condition Assessments or an FCA. These 
assessments include inspections of building systems such as 
electrical, mechanical, structural and architectural safety.
    The FCA review team can grant a rating of an ``A'' to an 
``F''. An ``A'' through ``C'' is either a new condition, a new 
facility or an average condition of a facility. An ``F'' means 
the condition of the facility requires immediate attention.
    To correct the efficiencies of the ``D's and ``F's, VA will 
need to invest nearly $10 billion. VA is requesting $400 
million for four of the 21 partially funded VHA major 
construction projects in fiscal year 2013, leaving well over $5 
billion remaining in partially funded projects dating back to 
fiscal year 2007.
    These projects include improving seismic deficiencies, 
improving spinal cord injury centers, completing a polytrauma 
blind rehab and research facility as well as expanding mental 
health facilities.
    This request is too low to support the ever-growing need of 
veterans. Therefore, the IB partners request that Congress 
provide funding of $2.8 billion to cover all major construction 
accounts. This will allow VA to complete all current partially 
funded major constructions seismic corrections, and mental 
health centers, and the fund before VA-identified projects for 
fiscal year 2013.
    Although VA's funding request for minor construction 
account is lower than the IB's request, this level of funding 
will allow VA to fund more than 120 projects.
    Even though non-recurring maintenance or NRM is funded 
through VA's medical facilities account and not through the 
construction account, it is critical to VA's capital 
infrastructure.
    VA is requesting $774 million in NRM for fiscal year 2013; 
but to keep pace with need and to reduce the backlog of NRM, 
$2.1 billion is needed. The IB is not requesting this amount of 
funding for NRM, only pointing out that the actual need to 
reach, that is the amount needed to reached the VA's strategic 
goals.
    Enhanced use lease gives VA the authority to lease land and 
buildings as long as the lease is consistent with VA's mission. 
Although an enhanced used lease can be used for a wide range of 
activities, the majority of these leases result in housing for 
homeless veterans and assisted living facilities.
    In fiscal year 2013, VA has 19 buildings or parcels of land 
that are planned for enhanced used lease. However, this 
authority has expired and we encourage Congress to reauthorized 
enhanced use lease so VA can continue to put empty and 
underutilized space to work for veterans.
    Ranking Member, this concludes my testimony, and I look 
forward to any questions you or the Committee has.
    [The prepared statement of Mr. Kelley follows:]

 Prepared Statement of Raymond Kelley, Director, National Legislative 
         Service, Veterans of Foreign Wars of The United States

    Madam Chairman and Members of the Committee: On behalf of the more 
than 2 million men and women of the Veterans of Foreign Wars of the 
U.S. (VFW) and our Auxiliaries, I would like to thank you for the 
opportunity to testify today. The VFW works alongside the other members 
of The Independent Budget (IB)--AMVETS, Disabled American Veterans and 
Paralyzed Veterans of America--to produce a set of policy and budget 
recommendations that reflect what we believe would meet the needs of 
America's veterans. The VFW is responsible for the construction portion 
of the IB, so I will limit my remarks to that portion of the budget.
    With an infrastructure that is more than 60 years old, the 
Department of Veterans Affairs (VA) has a monumental task of 
maintaining and improving its vast network of facilities to ensure the 
Veterans Health Administration (VHA) can provide accessible, high-
quality health care to our Nation's veterans. Currently, VA owns 5,300 
buildings and manages more than 800 leases. In 2005, VA began using the 
Federal Real Property Council (FRPC) Tier 1 performance measures to 
assess its capital portfolio goals.\1\ The two measures that directly 
affect patient services are utilization and condition. In 2004, VA's 
utilization was at 80 percent, well below capacity. That utilization 
grew to 121 percent in 2010, and is projected to grow even more in the 
coming years. During the same time period, the condition of VA's 
infrastructure decreased from 81 percent to 71 percent.\2\ These trends 
show that funding for the next few years will be critical for VA to 
fulfill its mission.
---------------------------------------------------------------------------
    \1\ FY 2012 Budget Submission, Construction and 10-Year Capital 
Plan, February 2011, Vol. 4 of 4, p. 9.3-11, 12
    \2\ Ibid, p. 9.3-13, 14
---------------------------------------------------------------------------
    VA has developed the Strategic Capital Investment Plan (SCIP) to 
address the critical deficiencies in its infrastructure. SCIP uses six 
criteria to assess deficiencies, or gaps, in its ability to deliver 
efficient, high- quality, accessible services and care for veterans. 
The six gap criteria are access, utilization, space, condition, energy, 
and other (which includes safety, security, privacy, and seismic 
corrections).\3\ It was also determined that to close all these gaps it 
would cost between $53 billion and $65 billion.\4\
---------------------------------------------------------------------------
    \3\ Ibid, p. 8.2-4.
    \4\ Ibid, p. 81-1.
---------------------------------------------------------------------------
    To determine and monitor the condition of its facilities, VA 
conducted a Facility Condition Assessment (FCA). These assessments 
include inspections of building systems, such as electrical, 
mechanical, plumbing, elevators, and structural and architectural 
safety; and site conditions consisting of roads, parking, sidewalks, 
water mains, water protection. The FCA review team can grant ratings of 
A, B, C, D, and F. Assessment ratings A through C conclude the assessed 
is in new to average condition. D ratings mean the condition is below 
average and F means the condition is critical and requires immediate 
attention. To correct these deficiencies, VA will need to invest nearly 
$10 billion.\5\ To close the gaps in access, VA will need to invest 
between $30 billion and $35 billion dollars in major and minor 
construction and leasing. The remaining $20 billion is needed to close 
the remaining nonrecurring maintenance deficiencies.
---------------------------------------------------------------------------
    \5\ Ibid, p. 9.3-14 15.
---------------------------------------------------------------------------
                      MAJOR CONSTRUCTION ACCOUNTS:

    By estimation of the Department of Veterans Affairs, the cost to 
implement all currently identified gaps in major construction, Congress 
will have to authorize and appropriate between $20 billion and $24.5 
billion over the next 10 years. Currently, there are 35 major 
construction projects that are authorized, dating back as far as 2004. 
Only three of these projects are funded through completion. The total 
unobligated amount for all currently congressionally budgeted major 
construction projects is $2.8 billion.\6\ Yet the total funding 
requested for FY 2012 major construction accounts was only $725 
million.
---------------------------------------------------------------------------
    \6\ FY 2012 Budget Submission, Construction and 10-Year Capital 
Plan, February 2011, Vol. 4 of 4, p. 2-85.
---------------------------------------------------------------------------
    At this level of funding, it will take VA more than 25 years to 
complete its current 10-year capital investment plan. The Independent 
Budget veterans service organizations (IBVSOs) understand that fiscally 
difficult times call for spending restraints, but without quality, 
accessible medical centers, VA will not be able to deliver quality, 
accessible care. The IBVSOs recommend $2.8 billion to complete all 
partially funded and future major construction needs to close all 
identified gaps by 2021.

                      MINOR CONSTRUCTION ACCOUNTS:

    To close the minor construction gaps within its 10-year timeline, 
VA will need to invest nearly $8 billion in Veterans Health 
Administration minor construction alone.\7\ Minor construction projects 
allow VA to address issues of functional space within existing 
buildings and improve facility conditions at a cost of less than $10 
million. In past years VA and Congress requested and appropriated 
nearly 10 percent of the total need to close the minor construction 
gaps. However, the Administration and Congress decreased funding for 
minor construction by about $250 million over the past two years. If 
this rate of investment is continued, it will take more than 16 years 
to complete all current minor construction gaps. Congress and VA must 
put minor construction back on track by investing 10 percent of the 
total cost to complete the 10-year minor construction plan. With this 
in mind, the IBVSOs recommend $969 million in FY 2013 to achieve this 
goal.
---------------------------------------------------------------------------
    \7\ FY 2012 Budget Submission, Construction and 10-Year Capital 
Plan, February 2011, Vol. 4 of 4, p. 1-4.
---------------------------------------------------------------------------
                   NONRECURRING MAINTENANCE ACCOUNT:

    Even though nonrecurring maintenance (NRM) is funded through VA's 
Medical Facilities account and not through the construction account, it 
is critical to VA's capital infrastructure. NRM embodies the many small 
projects that together provide for the long-term sustainability and 
usability of VA facilities. NRM projects are one-time repairs, such as 
modernizing mechanical or electrical systems, replacing windows and 
equipment, and preserving roofs and floors, among other routine 
maintenance needs. Nonrecurring maintenance is a necessary component of 
the care and stewardship of a facility. When managed responsibly, these 
relatively small, periodic investments ensure that the more substantial 
investments of major and minor construction provide real value to 
taxpayers and to veterans as well. Accordingly, to fully maintain its 
facilities, VA needs an NRM annual budget of at least $2.1 billion.
    Given the low level of funding NRM accounts have historically 
received, the IBVSOs are not surprised that basic facility maintenance 
remains a challenge for VA. In addition, the IBVSOs have long-standing 
concerns about how this funding is apportioned once received by VA. 
Because NRM accounts are organized under the Medical Facilities 
appropriation, it has traditionally been apportioned using the Veterans 
Equitable Resource Allocation (VERA) formula. This formula was intended 
to allocate health- care dollars to those areas with the greatest 
demand for health care, and is not an ideal method to allocate NRM 
funds. When dealing with maintenance needs, this formula may prove 
counterproductive by moving funds away from older medical centers and 
reallocating the funds to newer facilities where patient demand is 
greater, even if the maintenance needs are not as intense. The IBVSOs 
are encouraged by actions the House and Senate Veterans' Affairs 
Committees have taken in recent years requiring NRM funding to be 
allocated outside the VERA formula, and we hope this practice will 
continue.

                            CAPITAL LEASING:

    The Department of Veterans Affairs enters into two types of leases. 
First, VA leases properties to use for each agency within VA, ranging 
from community-based outpatient clinics (CBOC) and medical centers, to 
research and warehouse space. These leases do not fall under the larger 
construction accounts, but under each administration's and staff office 
operating accounts.\8\
---------------------------------------------------------------------------
    \8\ FY 2012 Budget Submission, Construction and 10-Year Capital 
Plan, February 2011, Vol. 4 of 4, p. 8.2-88.
---------------------------------------------------------------------------
    The second type of lease, called enhanced-use lease (EUL), allows 
VA to lease property they own to an outside-VA entity. These leases 
allow VA to lease properties that are unutilized or underutilized for 
projects such as veterans' homelessness and long-term care. Proper use 
of leases provides VA with flexibility in providing care as veterans' 
needs and demographics changes.
    VA has moved to leasing many of its CBOCs and specialty clinics to 
increase access of primary and specialty care in local communities as 
well as a way to be more modular as veterans' demographics change. The 
IBVSOs see the value in providing quick, accessible health care, but 
caution a leasing concept that will rely on contracting inpatient care. 
Not having accessible inpatient care can and has left VA looking for 
ways to treat veterans in their greatest time of need. As Strategic 
Capital Investment Planning continues to move forward and more leases 
are entered into, some of which may have inpatient alternatives, the 
IBVSOs will be continue to be vigilant to ensure that VA has viable 
contingency plans for inpatient care.
    EUL gives VA the authority to lease land or buildings to public, 
nonprofit, or private organizations or companies as long as the lease 
is consistent with VA's mission and that the lease ``provides 
appropriate space for an activity contributing to the mission of the 
Department.'' \9\ Although EUL can be used for a wide range of 
activities, the majority of the leases result in housing for homeless 
veterans and assisted living facilities. In 2013, VA has 19 buildings 
or parcels of land that are planned for EUL.\10\ The IBVSOs encourage 
VA to continue to improve their transparency of potential EUL 
properties. Improving dialog with veterans in the communities will 
reduce the backlash that often occurs when VA property is being 
repurposed.
---------------------------------------------------------------------------
    \9\ Title 38, U.S.C., paragraph 8162, as amended through Public Law 
112-7, enacted March 31, 2011, printed May 2, 2011.
    \10\ FY 2012 Budget Submission, Construction and 10-Year Capital 
Plan, February 2011, Appendix 10-Year Capital Plan, p. 10-46-49.
---------------------------------------------------------------------------
            EMPTY OR UNDERUTILIZED SPACE AT MEDICAL CENTERS:

    The Department of Veterans Affairs maintains approximately 1,100 
buildings that are either vacant or underutilized. An underutilized 
building is defined as one where less than 25 percent of space is used. 
It costs VA from $1 to $3 per square foot per year to maintain a vacant 
building.
    Public Law 108-422 incentivized VA's efforts to properly dispose of 
excess space by allowing VA to retain the proceeds from the sale, 
transfer, or exchange of certain properties in a Capital Asset Fund. 
Further, that law required VA to develop short and long term plans for 
the disposal of these facilities in an annual report to Congress. With 
this in mind, VA has begun a review of buildings and properties for 
finding possible reuse or repurpose opportunities. Building Utilization 
Review and Repurposing or BURR will focus on identifying sites in three 
major categories: housing for veterans who are homeless or at risk for 
being homeless; senior veterans capable of independent living; and 
veterans who require assisted- living and supportive services. The 
three phases planned include identifying campuses with buildings and 
land that are either vacant or underutilized; site visits to match the 
supply of building and land with the demand for services and 
availability of financing; and last, identifying campuses using VA's 
enhanced- use leasing authority. Under the BURR initiative, if no 
repurposing is identified, VA will begin to assess its vacant capital 
inventory by demolishing or disposing of buildings that are unsuitable 
for reuse or beyond their usefulness. The IBVSOs have stated that VA 
must continue to develop these plans, working in concert with 
architectural master plans, community stakeholders and clearly 
identifying the long-range vision for all such sites.

                PROGRAM FOR ARCHITECTURAL MASTER PLANS:

    A facility master plan is a comprehensive tool to examine and 
project potential new patient care programs and how they might affect 
the existing health-care facility design. It also provides insight with 
respect to growth needs, current space deficiencies, and other facility 
needs for existing programs and how they might be accommodated in the 
future with redesign, expansion, or contraction.
    In many past cases VA has planned construction in a reactive 
manner. Projects are first funded and then placed in the facility in 
the most expedient manner, often not considering other future projects 
and facility needs. This often results in short-sighted construction 
that restricts rather than expands options for the future.
    The IBVSOs believe that each VA medical center should develop a 
comprehensive facility master plan to serve as a blueprint for 
development, construction, and future growth of the facility; $15 
million should be budgeted for this purpose. We believe that each VA 
medical center should develop a comprehensive facility master plan to 
serve as a blueprint for development, construction, and future growth 
of the facility.
    VA has undertaken master planning for several VA facilities, and we 
applaud this effort. But VA must ensure that all VA facilities develop 
master plan strategies to validate strategic planning decisions, 
prepare accurate budgets, and implement efficient construction that 
minimizes wasted expenses and disruption to patient care.

               PRESERVATION OF VA'S HISTORIC STRUCTURES:

    The Department of Veterans Affairs has an extensive inventory of 
historic structures that highlight America's long tradition of 
providing care to veterans. These buildings and facilities enhance our 
understanding of the lives of those who have worn the uniform, of those 
who cared for their wounds, and of those who helped to build this great 
Nation. Of the approximately 2,000 historic structures in the VA 
historic building inventory, many are neglected and deteriorate year 
after year because of a lack of any funding for their upkeep. These 
structures should be stabilized, protected, and preserved because they 
are an integral part our Nation's history.
    The cost for saving some of these buildings is not very high 
considering that they represent a part of American history. Once gone, 
they cannot be recaptured. For example, the Greek Revival Mansion at 
the VA Medical Center in Perry Point, Maryland, built in the 1750s can 
be restored and used as a facility or network training space for about 
$1.2 million. The Milwaukee Ward Memorial Theater, built in 1881, could 
be restored as a multipurpose facility at a cost of $6 million. These 
expenditures would be much less than the cost of new facilities and 
would preserve history simultaneously.
    The IBVSOs encourage VA to use the tenants of Public Law 108-422, 
the ``Veterans Health Programs Improvement Act,'' in improving the 
plight of VA's historic properties. This act authorizes historic 
preservation as one of the uses of the proceeds of the capital assets 
fund resulting from the sale or leases of other unneeded VA properties.

    Madam Chairman, this concludes my testimony and I look forward to 
any questions you and the Committee may have.

    Senator Burr. Thank you, Mr. Kelley.
    Mr. Tarantino, is that correct?

                             OTHER WITNESS

 STATEMENT OF TOM TARANTINO, DEPUTY POLICY DIRECTOR, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Mr. Tarantino. Yes, Senator, it is.
    Senator Burr and Members of the Committee, thank you for 
allowing me to testify and represent IAVA's 200,000 members and 
supporters on the President's fiscal year 2013 budget request.
    My name is Tom Tarantino, and I am the Deputy Policy 
Director for IAVA. I proudly served 10 years in the Army being 
my career as an enlisted reservist and ending service as 
active-duty Calvary officer. Although my uniform is now a suit 
and tie, I am proud to work with this Congress to have the 
backs of America's servicemembers and veterans.
    While IAVA is pleased with the Administration's recognition 
that the VA needs increased resources to adequately care for 
veterans of Iraq and Afghanistan, we believe that VA health 
care must be fully funded to the level recommended in the 2013 
Independent Budget.
    Even though the proposed VA budget does show a 4.5 percent 
increase over 2012, it is still more than $4 billion less than 
what the Independent Budget recommends.
    I am also deeply concerned that Congress has not passed a 
regular budget in what actually is years. Fortunately, Congress 
has maintained VA funding both current and in advanced in the 
various continuing resolutions and ad hoc appropriations bills. 
However, we are concerned that if this irregular budgeting 
process continues and the security that advance funding is 
meant to provide to VA health care may erode. When political 
concerns and dangers brinksmanship threaten VA, it is the 
veterans and servicemembers who can least afford to bear the 
burden that get the impact.
    We are at a critical juncture for both servicemembers and 
veterans. As the Department of Defense budget shrinks, it 
threatens the earned benefits like retirement and TRICARE. As 
the active duty and reserve component is planning to shed over 
90,000 active-duty servicemembers over the next few years, the 
workload on the VA system is only going to increase. So, 
failing to fully funded the VA or appropriate the budget in 
advanced will inflict pain and hardship on thousands of 
veterans.
    Among the most useful programs administered by the VA are 
its educational programs. More than 700,000 veterans and their 
family members have used the Post-9/11 GI Bill to further their 
education, increase their job skills and secure employability.
    One of the single greatest threats to the success of the 
future of GI Bill is the lack of useful metrics and subsequent 
inability of the VA and State approving agencies to prevent 
fraud, particularly in the realm of for-profit schools.
    IAVA recognizes that the majority of for-profit schools are 
honest actors and that they provide an invaluable resource for 
many military members and veterans who do not need or wish to 
pursue a traditional education.
    However, as pointed out in the Independent Budget, many 
for-profit schools are simply just not holding up their end. 
For example, for-profit schools receive more than a third of GI 
Bill funds while accounting for less than a third of GI Bill 
graduates. It does not appear that we are giving veterans the 
tools that they need to make sound educational choices.
    IAVA recommends a three-prong approach that is necessary to 
solve this problem. First, we must collect useful data on both 
student and institutional success. Without mandatory, uniform 
data collection across-the-board, private, public, profit, not-
for-profit, we will never be able give students the tools to 
make the educational choices that meet their needs.
    We also need a clear, comprehensible, and easily accessible 
consumer education for veterans. Having data on schools is 
useless unless we can present it to students in a manner they 
can digest. This should include both online methods of 
comparing schools as well as a commitment to increase 
educational counseling for veterans.
    And finally, we have to ensure that the free and open 
market can weed out poorly performing schools by changing the 
90/10 role to include and classify DOD and VA benefits as 
government funds because they are.
    All of this must be executed with one goal in mind and that 
is to preserve the GI Bill. Preserving the integrity of the GI 
Bill should be a top priority for every lawmaker on Capitol 
Hill.
    The benefit not only provides upward economic mobility for 
individuals who participate but it benefits your entire 
community as a Nation and the Nation as a whole in the long 
run.
    The original World War II GI Bill returned $7 in taxes and 
economic output for every dollar that was spent on the program. 
Like then, the Post-9/11 GI Bill is currently threatened by 
schools that their whole existence is separating veterans from 
their hard earned benefits.
    America's newest veterans also face a tough economy and 
serious employment challenges. In 2011, the average 
unemployment rate for Iraq and Afghanistan veterans was 12.1 
percent.
    Congress took bold action last year in passing the VOW to 
Hire Heroes Act and we thank this body for their work. This 
year IAVA stands ready to help implement this law so that 
veterans can get back to work but we also hope that Congress 
will continue to focus on the veterans who do not choose to go 
in the workforce but choose to go directly to school so that 
they can get the job training that they need.
    I thank you for your time and attention.
    [The prepared statement of Mr. Tarantino follows:]

     Prepared Statement of Tom Tarantino, Deputy Policy Director, 
                Iraq and Afghanistan Veterans of America

    Chairwoman Murray, Ranking Member Burr and Members of the 
Committee, On behalf of Iraq and Afghanistan Veterans of America's 
200,000 member veterans and supporters, thank you for inviting me to 
testify on the President's FY 2013 budget request for the Department of 
Veterans Affairs.
    My name is Tom Tarantino and I am the Deputy Policy Director for 
IAVA. I proudly served 10 years in the Army, beginning my career as an 
enlisted Reservist, and leaving service as an Active Duty Cavalry 
Officer. Throughout these 10 years, my single most important duty was 
to take care of other soldiers. In the military, they teach us to have 
each other's backs, both on and off the field of battle. And although 
my uniform is now a suit and tie, I am proud to work with this Congress 
to continue to have the backs of America's servicemembers and veterans.
    IAVA is the largest veterans group dedicated to speaking for the 
nearly 2.4 million veterans of Operation Enduring Freedom, Operation 
Iraqi Freedom and Operation New Dawn. At IAVA, we tell veterans ``We've 
got your back,'' a military saying meaning: ``We'll support you no 
matter what.'' We hope that Congress shares this sentiment and passes a 
VA budget that will not only tell but also show veterans that 
``Congress has your back.''
    While IAVA is pleased with the administration's recognition that 
the VA needs increased resources to adequately care for veterans of 
Iraq and Afghanistan, we believe that VA health care must be fully 
funded to the level recommended in the 2013 Independent Budget (IB)--
$57.2 billion Even though the proposed VA budget shows a 4.5% increase 
over 2012($52.7 billion), that is still more than $4 billion less than 
what the Independent Budget recommends.
    IAVA is also deeply concerned that Congress has not passed a 
regular budget on time in years. Fortunately, Congress has maintained 
VA funding (both current and advance) in various continuing resolutions 
(CR) and ad-hoc appropriations bills. However, WE ARE concerned that if 
the CR process continues, then the security that advance funding is 
meant to provide for VA health care may erode. Advance funding was 
intended to provide security for the VA health care system when 
Congress was late passing a budget. That security is increasingly 
irrelevant if years pass without a budget at all. The budget crisis 
during the summer of 2011 highlighted the need to ensure that the VA is 
funded in advance and that the process is immune to political 
infighting. I was encouraged that last year both the House and Senate 
came up with solid VA appropriations bills when other bills never made 
it off the drawing board. Nonetheless, it proved disappointing that 
despite the bipartisan cooperation demonstrated to put those bills 
together, they never made it to the President's desk for signature. Our 
nation has made a covenant with its servicemembers and veterans, many 
of who have sacrificed pieces of themselves in service to our country. 
When political concerns and dangerous brinkmanship threaten the VA, the 
impact falls on those servicemembers and veterans who can least afford 
to bear the burden. IAVA stands with the VSO community in urging 
Congress and the Administration, in the strongest possible terms, to 
ensure that the VA continues to be fully funded and funded in advance.
    We are at a critical juncture for both servicemembers and veterans. 
As the Department of Defense budget shrinks, threatening earned 
benefits like retirement and TRICARE, and the active duty and reserve 
components plan to shed over 90,000 servicemembers, the burden on the 
VA system will only increase. Failing to fully fund the VA or 
appropriate the budget in advance will inflict pain and hardship on 
thousands of veterans.

                               EDUCATION

    Among the most useful programs administered by the VA are its 
educational programs. More than 700,000 veterans and their family 
members have used the Post-9/11 GI Bill to further their education, 
increase job skills, and secure their employability. But one of the 
single greatest threats to the success and future of the GI Bill is the 
lack of useful metrics and the subsequent inability of the VA and State 
Approving Agencies (SAA) to prevent fraud, particularly in the realm of 
for-profit schools. IAVA recognizes that the majority of for-profit 
schools are honest actors and that they provide an invaluable resource 
for many military members and veterans who do not wish pursue a 
traditional education. However, as pointed out in the IB, for-profits 
received more than a third of GI Bill funds while accounting for less 
than a third of GI Bill graduates in 2009. Additionally, GI Bill users 
are pursuing education at for-profits in large numbers. Out of the top 
ten institutions receiving GI Bill money, eight are for-profits. By and 
large, IAVA believes this industry is not producing a return 
proportional to the benefits being spent.
    IAVA believes that a three-pronged approach to the problem is 
necessary to solve this problem:

    1. We must collect useful data on both student and institutional 
success. Without mandatory, uniform data collection across the board, 
we will never be able to give student veterans the tools to make 
educational choices that meet their needs.
    2. We need clear, comprehensible, and easily accessible consumer 
education. Having data on schools is useless unless we can present it 
to students in a manner that they can digest. This should include both 
online methods of comparing schools as well as a commitment to increase 
educational counseling for veterans.
    3. We must ensure that the marketplace can weed out poorly 
performing schools by changing the 90-10 rule to include and classify 
DOD and VA benefits as government funds.

    One of the biggest obstacles to veterans and servicemembers 
educating themselves and making informed decisions about the use of 
their benefits is the lack of meaningful and consistent data presented 
in an easily accessible and digestible format. The first step toward 
addressing this problem is to collect meaningful and consistent data 
that can be used to compare program outcomes across a variety of 
education, trade and credentialing programs. Metrics should be similar 
to those collected by the Department of Education (DOE) for 
institutions that receive Title IV funding.
    Expanding the VetSuccess program, re-engineering the Transition 
Assistance Program (TAP), and expanding VA educational counseling 
services are quick but substantial ways to improve consumer education. 
IAVA commends the VA for expanding the VetSuccess program from 8 to 80 
campuses and recommends an even more aggressive expansion. The VA has 
shown that VetSuccess is working and our conversations with students 
and university administrators have borne out the VA's assessment. The 
program is currently funded for $18 million. IAVA recommends 
dramatically increasing this figure. Even at $50 million we are 
spending less than 0.007% out of the $7.2 billion we spend annually on 
the GI Bill to ensure that these benefits are used wisely. This sum 
will ultimately be far less than the potential billions in taxpayer 
dollars wasted on educational programs that do not provide the services 
that they advertise. Along with the improvements made to TAP as part of 
the VOW to Hire Heroes Act, we must also create a track for veterans 
who are choosing to go to school rather than directly in to the 
workforce. These veterans should be able to take advantage of VA 
vocational counseling/education that is currently available to all 
veterans using VA education benefits. Right now, a veteran can choose 
to opt-in to VA educational counseling. Very few actually do. IAVA 
believes that this should be offered to all veterans, allowing them to 
opt out if they choose to.
    IAVA is also concerned with how the government supports the State 
Approving Agencies (SAA). We must reform and clarify the 
responsibilities of the SAAs, in order to ensure that their efforts are 
targeted and effective. We rely on the SAAs to help ensure quality and 
compliance in all states and territories; yet, we give them only $19 
million per year to do this. This small amount spent to ensure that 
public funds are well used is penny wise and pound-foolish. At the 
current level of funding, each state receives an average of $380,000 to 
perform an extremely broad range of work-intensive tasks across 
hundreds of campuses statewide. As with the VetSuccess program, 
spending a fraction of a percent to make sure that billions are well 
spent is pound-wise.
    All of this must be executed with one goal in mind: preserve the GI 
Bill. Preserving the integrity of the GI Bill should be a top priority 
for every lawmaker on Capitol Hill. The benefit not only provides 
upward economic mobility for the individuals who participate, but it 
benefits their entire communities and the Nation as a whole in the long 
run. The original Post-World War II GI Bill, the Servicemen's 
Readjustment Act of 1944, returned $7 dollars in taxes and economic 
output for every $1 that was spent on the program. Like the Post-9/11 
GI Bill, the program was threatened early on by unscrupulous actors and 
predators whose sole reason for existence was to separate veterans from 
the benefit they had (literally) fought so hard to receive. Today, 
nearly a third of all those who are eligible to use the Post-9/11 GI 
Bill have used it, and many have passed on the benefit to their 
children or spouses. Further education, combined with the discipline, 
technical skills, maturity, and knowledge that America's fighting men 
and women have developed through their service, will deliver greater 
return for our country. The Post-9/11 GI Bill has the potential to be 
the engine of future economic growth, or at least one of the key 
components for securing our economic future.

                       SUICIDE AND MENTAL HEALTH

    Sadly, suicide has become a major issue for servicemembers and 
veterans. Army suicide rates continue to trend upward; DOD-wide data is 
not consistent or regularly reported and therefore harder to track. 
Meanwhile, the VA estimated that in 2009 18 veterans took their own 
lives each day. The VA also does not consistently share its data on 
veteran suicide. In addition, it does not generally account for the 
almost half (about 1.1 million) of Iraq and Afghanistan veterans who 
have never set foot in a VA hospital. We will never be able to get a 
handle on this epidemic until we can, at the very least, determine its 
scope. To do so, IAVA recommends expanding the Center for Disease 
Control and Prevention's Violent Death Reporting System to all 50 
states. Once we can accurately collect data on veteran suicide, we can 
more efficiently target resources and develop programs to combat the 
problem. Like the GI Bill, we can make reasonable investments upfront 
to ensure that the resources we expend later on are more effective, 
efficient, and saves lives.
    A critical step to understanding how we can stop veteran and 
servicemembers suicides is to understand that suicide itself is not the 
whole issue. Suicide is the tragic conclusion of the failure to address 
the spectrum of challenges returning veterans face. These challenges 
are not just mental health injuries; they include challenges of finding 
employment, reintegrating to family and community life, dealing with 
health care and benefits bureaucracy, and many other issues. Fighting 
suicide is not just about preventing the act of suicide. It's about 
providing a ``soft and productive landing'' for our veterans when they 
return home.
    A 2011 RAND survey of veterans in New York State revealed that many 
veterans face difficulty navigating the complex systems of benefits and 
services available to them. While this survey was specific to New York 
veterans, the results are indicative of veterans' experiences 
nationwide. Veterans reported that they do not know how to find the 
services they need or apply for the benefits they have earned. Even 
when they are able to find services appropriate for their needs, many 
veterans report frustration in accessing these services. Some veterans 
report long waiting periods to get an appointment at the VA, while 
others report having to repeat their stories and experiences to a 
number of different providers. These delays and lack of continuity do 
not help veterans already suffering from mental health issues. 
Additionally, the RAND survey revealed that the difficulty in accessing 
services is not limited to the VA. Most respondents could not identify 
a state agency or non-profit that provided direct mental health 
services.
    To complicate the bureaucracy, we also know that many veterans are 
not seeking care because of the stigma attached to mental health 
injuries. Multiple studies confirm that veterans are concerned about 
how seeking care could impact their careers, both in and out of the 
military. These concerns include the effect on their ability to get 
security clearances and how co-workers and supervisors would perceive 
them. It is critical that we continue to work to reduce this stigma.
    To combat this, IAVA recommends that the VA and DOD partner with 
experts in the private and nonprofit sector to develop a robust and 
aggressive outreach campaign to veterans. This campaign should focus on 
directing veterans to services such as Vet Centers, as well as state 
and local community-based services. The broader campaign should be 
integrated into local initiatives like San Francisco's 311 Veterans 
portal. Most importantly, the campaign should be well funded and 
reflect the best practices and expertise of experts in both the mental 
health and advertising fields. For our part, IAVA has partnered with 
the Ad Council to launch a public service awareness campaign that is 
focused on the mental health and invisible injuries confronting 
veterans of Iraq and Afghanistan. A key component of the campaign has 
focused on reducing the stigma of seeking mental health care. We are 
happy to share our best practices from this campaign to aid in a 
national effort.

                               EMPLOYMENT

    America's newest veterans also face a tough economy and serious 
employment challenges. In 2011, the average unemployment rate for Iraq 
and Afghanistan veterans was a staggering 12.1 percent, leaving an 
average of 234,000 combat veterans struggling to find gainful 
employment after their service in the most severe economic situation in 
decades.
    Finding a job as a returning veteran is hard, but finding quality 
employment is even harder. Today, Iraq and Afghanistan veterans leaving 
the active duty military are faced with civilian employers who do not 
understand the value of their skills and military experience. According 
to a 2010 survey, 60 percent of employers do not believe they have ``a 
complete understanding of the qualifications ex-servicemembers offer.'' 
National Guardsmen and Reservists who leave behind their civilian lives 
to serve alongside active duty troops are also inadequately protected 
against job discrimination. Additionally, separated servicemembers with 
college degrees earn on average almost $10,000 less per year than their 
non-veteran counterparts. Historical trends show this wage gap could 
continue for decades; Vietnam veterans earned significantly less than 
their civilian peers until they reached their fifties.
    In 2011, Congress took bold action to stem the tide of rising 
veteran unemployment. By passing the VOW to Hire Heroes Act, you will 
ensure that veterans military skills will be translated into their 
equivalent civilian skills, veterans will have the resources to retrain 
themselves in to new markets, and that employers will hire more 
veterans. This bill is a huge step forward and we thank you for 
spearheading it. IAVA stands ready to assist Congress to effectively 
and efficiently implement this new law in 2012.
    But many of the provisions of the VOW to Hire Heroes Act will rely 
heavily on the ability of the Department of Labor (DOL) Veterans 
Employment and Training (VETS) program to transform outdated and 
inefficient services. I am concerned that the proposed budget for DOL 
VETS seems to be reduced by $5 million in FY 2013. This is, frankly, 
unacceptable. What is even more unacceptable is that while the programs 
that we are updating come out of this Committee's scope and 
jurisdiction, the funding and accountability for these programs is 
nowhere near the reach of either veterans affairs or veterans 
appropriations subcommittees. This is not a recipe for success. Perhaps 
it is time that we reevaluate where the VETS program should live. IAVA 
believes that the VA is a more suitable agency for the VETS program, if 
for no other reason then that is where veteran will go if they need 
veterans' services. It is time that we match services with the 
expectations of their customers.

                               CONCLUSION

    Caring for the men and women who defend freedom is a solemn 
responsibility that belongs to lawmakers, business leaders, and 
everyday citizens alike. In the past several years we have seen a 
turning point in the way we care and provide for our Nation's warriors. 
Despite critical successes, however, veterans' education, mental 
health, employment, and advance healthcare funding are not up to 
standard. We must remain ever vigilant and continue to show the men and 
women who volunteer to serve their country that we have their backs. 
Thank you for your time and attention.

    Senator Burr. Mr. Tarantino, thank you and on behalf of all 
the Members of the Committee, I would like to thank the entire 
panel for your willingness to be here.
    Let me make every assurance to you, all of your testimonies 
are in their hands. I would also ask you to make yourself 
available to all Members and the Committee for questions that 
will follow up this.
    I would like to make a couple of comments and then ask one 
question at the end.
    Mr. Tarantino, I agree with what you just said. The data is 
absolutely essential to our ability to evaluate what we are 
doing but more importantly the effectiveness of what we are 
doing.
    I might throw a cautionary note out. Not all individuals 
who leave active duty are after a degree but most are after a 
career; and when you start looking at placement, you may find 
out that the assessment that we make about one institution 
versus another institution is actually reversed and that those 
that maybe do not do a good job of providing a degree do a 
great job of providing the tools for a career; and I think that 
is where we have to stay focused.
    Many of you heard me with our colleagues at the VA as I 
have questioned the need for our focused stay on delivering a 
product to a veteran, and I will work with the Secretary and 
his leadership team, if they need plus ups in central office or 
if they need plus ups in public relations or wherever it is; 
but the only way that I will sit still is if I know that the 
core mission of the VA which is to deliver that benefit to 
individual servicemembers is being fulfilled.
    So, Ms. Zumatto, you talked about the national cemeteries. 
Secretary Muro was the here. You noticed he did not get any 
questions. I will speculate. It is because he is doing a damn 
good job. It is because he understands what the mission is, and 
we have got work to do. I think he would be the first to admit 
it, but he is not losing focus of exactly what that threshold 
of accountability is going to be for him, and I appreciate you 
pointing that out.
    I think all of you have questions on sequestration. I have 
them. One, I do not think this should have ever been something 
we entered into. I think that Congress is here to do our job. 
It is not to leave it up to a super committee or group of 
individuals that then decide that we would rather punt the ball 
than throw it.
    I think that it is time for us to do our job. It starts 
with doing a budget. We are required by law to do one annually. 
Without a budget, it is hard to do appropriations bills. It is 
a very simple process.
    Carl, you pointed out dollars that have been designated as 
not needed, $3 billion and $2 billion respectively. I have the 
same concern in advance, so far in advance we can identify 
that; and I think if you go back all of you to when we started 
working on advanced appropriations, this is one of the concerns 
that skeptics had that you have a plus up only to find out it 
was not needed so it could be shifted somewhere else or to grow 
something.
    So, I think the Chairman is committed, as am I, to get to 
the bottom, work with the VA and try to understand how this 
happened and quite possibly talk about different ways to 
reprogram money.
    I know from the standpoint of the Intelligence Committee 
when an agency that is under our jurisdiction wants to 
reprogram money, they have got to get approval from us to 
reprogram that money. I think that is probably a wise thing and 
we will look at any potential changes that need to be made.
    Some of you mentioned, and I am sure all of you are 
concerned about the construction and maintenance. I will just 
make a personal observation. Facilities are crucial to the 
access and the quality of care that our veterans received in 
the future. We are in the 21st century and medicine has 
changed.
    I will not comment on other States but in North Carolina, 
and Dr. Petzel knows this, I have got two facilities that were 
opened in the 1950s. They are not constructed in a way to put 
an MRI machine much less some of the new technologies that is 
going in. Even to run a computer that is networked means 
drilling through walls that were never intended to have holes 
much like the Capitol of the United States where we have to 
make the drill bits to actually drill through those.
    But more importantly, they are not conducive to outpatient 
care. You have to navigate the health care facility to find the 
room that they happen to be doing endoscopies in that day; and 
by every standard in health care today, we exposed somebody to 
an institution that has a much higher likelihood of providing a 
means of infection.
    I think it is important, and the VA is headed on a new 
course of creating that super outpatient facility that can 
handle the 95 percent of the veterans needs. It will take us a 
while to do it but we will never get there if we do not build 
that into our long-term and short-term maintenance requests, 
construction requests.
    I think that I could question whether the total that is in 
the budget this year even comes close to handling just the 
maintenance needs that we have in existing facilities and I 
think, Ray, you probably agree with me on that.
    Those are just some of my thoughts, having heard your 
testimony and then trying to put it in perspective with what we 
heard from the VA and what the Administration's budget proposal 
is.
    I would just pose one more question to each of you. If you 
want to respond you can. What trends do you see that you have 
not highlighted in your testimony that you think should be 
alarming to our Nation's veterans and to policymakers in 
Washington?
    And I will just start down here and go down the line.
    Mr. Schrier. Ranking Member Burr, the signature wounds in 
Vietnam were about PTSD and Agent Orange. The signature wounds 
in our wars today are about PTSD and TBI. The stigma has never 
been taken off PTSD.
    A young warrior still in uniform is frightened to step 
forward when he is suffering or she is suffering symptoms. We 
need to remove that.
    And TBI, a good analogy, former players from the NFL are 
currently suing the NFL because they are suffering from 
concussions that goes back 30 and 40 years and these symptoms 
are now manifesting themselves.
    What will our warriors suffering from TBI today be facing 
in 20, 30, 40 years, and what are we going to do about it today 
to ensure there is something there tomorrow to take care of 
them?
    Thank you.
    Senator Burr. A fascinating thing in high school football 
today, many schools around the country are getting a baseline 
that they can establish for players so that, as you have 
individuals who have concussions, you can compare after to the 
baseline to figure out whether there was a brain change.
    Novel approach but we are beginning to recognize the 
importance of that. Maybe we will from the standpoint of our 
military personnel as well.
    Carl.
    Mr. Blake. I will frame my answer sort of as a broad-based 
idea about demand for health care services. While the VA sort 
of shows its trends in its budget every year, it seems like 
when they returned the next year the demand trends spiked 
higher than what they had originally projected which sort of 
points to my concerns about how you end up with excess 
resources when you have a demand curve that is much steeper.
    As far as something to think about in the near short-term, 
long-term with regards to demand, we have to keep in mind we 
are basically drawing down in Iraq now and at some point in the 
near future we are probably going to draw down in Afghanistan.
    While there is the commonly held belief that at some point 
demand will reach a plateau and maybe tail off because of the 
aging population of veterans, we do not believe we have gotten 
to that point yet and we believe that you can see an even 
higher spike in demand for services as you have these 
individuals who are now out of Iraq and who may be leaving the 
service and who will eventually be returning from Afghanistan 
and presumably leaving the service as well.
    So, we have to make sure that we are in a situation where 
we are able to meet their unique health care commands while 
continuing to meet the demand of the population of veterans 
that the VA serves today.
    Senator Burr. When I made the comment earlier to the 
Secretary which will be in the form of a question that the VA 
took in 430,000 more claims than were decided, it is not to 
give the VA a black eye. It is to say let us make sure that our 
expectations on what we can accomplish are rational.
    It is hard for me to believe that you can have 430,000 more 
claims this year and within a 3-year period we can illuminate 
the backlog. Under my calculation, you are going to have to 
process 150,000 more claims than you take in every year to 
eliminate the backlog. If you just look at what is in front of 
us in additional claims to come in, I am not sure you could 
make a rational statement like that.
    So, I hope through our dialog we are able to get not just 
on the disability side but throughout the VA a rational 
discussion about what expectations should be because I think we 
have got to have a yardstick. There has got to be a matrix and 
there has got to be accountability.
    Mr. Hall.
    Mr. Hall. I would just like to follow up with that exact 
point regarding the disability claims process. As you are well 
aware, VA has a lot of parts in motion and with a complete 
transformation process that we are looking at over the course 
of a year, I would like to commend VA on one aspect and that is 
it is very, very difficult and challenging to not only 
transform an antiquated system into a modern paperless system, 
at the same time reducing the backlog.
    And so, while they are working toward reducing the backlog, 
that is why we want to ensure that the focus remains on quality 
and accuracy. As far as a specific trend, veterans, as you 
know, communicate electronically. The VA is trying to get there 
with their IT system and as my comments had mentioned earlier 
about the VBMS system, we hope it gets there as well but we 
just do not know what the outcome is going to be.
    We know that there are positive results coming out of it 
from test stations and we will have to wait and see what 
happens when it goes out nationally. But I guess the best would 
be that we are cautiously optimistic about that but veterans 
demand that modernized system. The VA is trying to get there 
and hopefully we can all help them get there together.
    Senator Burr. Great. I agree with you. The VA deserves 
credit for trying something different. None of us know whether 
it will work. I would only say this that in the time that we 
have designed this and begun to implement it the trend that you 
cannot ignore is that in 2008 our productivity per FTE in the 
claims process was 87 claims per year. Today 2011 73.5 claims 
per year.
    It is alarming to me. I am hopeful that the IT thing will 
be the solution. But we have taken our eye off of what we are 
producing out of the current work force and roughly getting 14 
less claims per employee that processes claims; and when you 
look at that trend, that is very troubling from a standpoint of 
if this does not work, we start at a new lower baseline of 
productivity and it means that the ability to do away with the 
backlog is that much longer.
    Ms. Zumatto.
    Ms. Zumatto. Thank you, Senator Burr. I just want to say 
that I appreciate your comments and that I agree with all of 
the additional comments made by my IB partners. As far as NCA 
having any alarming issues, I do not think I have the expertise 
right now to speak to that but I will be meeting with the folks 
at the NCA and if I come up with something I will let you know.
    Senator Burr. Share it with us. Right.
    Ms. Zumatto. Thank you.
    Senator Burr. Mr. Kelley.
    Mr. Kelley. I think my testimony pointed out my concerns 
with construction, but I want to touch on another issue that we 
have ignored in the past that has led to lack of research in 
other areas.
    I will use Agent Orange as an example. It took us 40 years 
to finally get to the point where we are really taking care of 
the folks that were affected by Agent Orange. We cannot let 
that happen to folks who have been exposed to burn pits. We 
lack the science to identify it, to diagnose it, and to treat 
it. We need research dollars and we need research dollars 
specifically for burn pit exposure.
    Senator Burr. I hear you loud and clear; and as a guy that 
is trying to get the same thing done for Camp Lejeune Marines 
for three decades, I hear your warning and the frustration.
    Tom.
    Mr. Tarantino. Senator, we are alarmed about the lack of 
clarity with the high suicide rate among veterans. We do a 
pretty good job of tracking the active duty but we really do 
not have any clear idea of the suicide epidemic in the 
veterans' population.
    The VA does a good job or a decent job of tracking veterans 
within their system; but in terms of OIF OEF vets, that is just 
over half in which means around half of Iraq and Afghanistan 
veterans never set foot in a VA hospital; and we have no idea 
what is happening out in that population.
    So, when we are looking at the budget and increases to 
mental health and sort of this shotgun approach to suicide 
prevention and mental health where we are trying to develop 
programs with awareness but we are not doing it in a targeted 
fashion, it is one thing to increase awareness about stigma and 
having a suicide-prevention campaigns; but if you do not know 
where are the problem areas, what are the methodologies, and, 
you know, what type of issues are those servicemembers facing, 
then you are basically crawling around in the dark.
    And so, we are proposing that we need to have a national 
effort to track veterans suicide in all 50 States. There are a 
couple of ways to do it. I am happy to talk about it with you 
off-line. But until we do that, we are never going to get our 
hand around this issue, and we are never going to solve this 
problem.
    Senator Burr. I think I can speak for the Chairman in 
saying that the Committee is committed to do a much better job 
at understanding the problem and, more importantly, the trend. 
We find it alarming.
    And to speak for VA, I think they take this very seriously. 
In our last hearing relative to progress we were making, one 
individual--and I put this caveat in, their responsibility was 
the hot line--said, well, the progress is evident by the fact 
that we are getting more calls to the hotline.
    Now, when you look at things from an overall architecture, 
you get more calls to the hotline you have got a much greater 
problem out there than what you might have thought.
    So, I think we have got to connect these things within the 
Administration to understand how to interpret something like an 
increase in calls, but I think we are all committed not just in 
the veterans population but in the active-duty force to make 
sure that wherever these pressure points are that we find a way 
to relieve them long before we reach a suicidal end.
    Let me note that we did have great participation from 
Members today. I want to thank you on behalf of the Chairman 
and myself for your willingness to be here, for the insight 
that you give us, and for the time that you put into not only 
your testimony but your proposals.
    This hearing is adjourned.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
